<html>
<title> - THE NEW START TREATY (TREATY DOC. 111-5)</title>
<body><pre>[Senate Hearing 111-738]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-738
 
                         THE NEW START TREATY 
                          (TREATY DOC. 111-5) 

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED ELEVENTH CONGRESS



                             SECOND SESSION



                               ----------                              

    APRIL 29, MAY 18, 19, 25, JUNE 10, 15, 16, 24, AND JULY 15, 2010

                               ----------                              



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-467 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










                THE NEW START TREATY (TREATY DOC. 111-5)
















                                                        S. Hrg. 111-738

                         THE NEW START TREATY 
                          (TREATY DOC. 111-5)

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED ELEVENTH CONGRESS



                             SECOND SESSION



                               __________

    APRIL 29, MAY 18, 19, 25, JUNE 10, 15, 16, 24, AND JULY 15, 2010

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
?

                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              

                        Thursday, April 29, 2010
                 THE HISTORICAL AND MODERN CONTEXT FOR 
                       U.S.-RUSSIAN ARMS CONTROL

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

Schlesinger, Hon. James R., PH.D., former Secretary of Defense, 
  former Secretary of Energy, former Director of Central 
  Intelligence, Chairman of the Board, MITRE Corporation, McLean, 
  VA.............................................................     5

    Prepared statement...........................................     7

Perry, Hon. William J., Former Secretary of Defense, Michael and 
  Barbara Berberian Professor, Center for International Security 
  and Cooperation, Stanford University, Stanford, CA.............     9

    Prepared statement...........................................    10

              Additional Material Submitted for the Record

Responses of Dr. James Schlesinger to Questions Submitted by 
  Senator Kerry..................................................    30

Responses of Dr. James Schlesinger to Questions Submitted by 
  Senator Risch..................................................    31

                         Tuesday, May 18, 2010
                          THE NEW START TREATY

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................    33

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................    35

Clinton, Hon. Hillary, Secretary of State, Department of State, 
  Washington DC..................................................    37

    Prepared statement...........................................    41

Gates, Hon. Robert, Secretary of Defense, Department of Defense, 
  Washington, DC.................................................    43

    Prepared statement...........................................    46

Mullen, Admiral Michael, USN, Chairman, Joint Chiefs of Staff, 
  Washington, DC.................................................    48

    Prepared statement...........................................    49

              Additional Material Submitted for the Record

Responses of Secretary Gates, Admiral Mullen, and Secretary 
  Clinton to Questions Submitted by Senator Lugar................    77

Response of Secretary Gates, Admiral Mullen, and Secretary 
  Clinton to Question Submitted by Senator Wicker................    84

Responses of Secretary Gates and Admiral Mullen to Questions 
  Submitted by Senator Lugar.....................................    84

Responses of Secretary Gates and Admiral Mullen to Questions 
  Submitted by Senator Barrasso..................................    88

Responses of Secretary Gates and Admiral Mullen to Questions 
  Submitted by Senator Wicker....................................    90

Responses of Secretary Gates and Secretary Clinton to Questions 
  Submitted by Senator Barrasso..................................    96

Responses of Secretary Gates and Secretary Clinton to Questions 
  Submitted by Senator Wicker....................................    99

Responses of Secretary Gates to Questions Submitted by Senator 
  Lugar..........................................................    99

Responses of Secretary Gates to Questions Submitted by Senator 
  DeMint.........................................................   105

Responses of Secretary Gates to Questions Submitted by Senator 
  Barrasso.......................................................   106

Responses of Secretary Gates to Questions Submitted by Senator 
  Wicker.........................................................   108

Responses of Secretary Gates to Questions Submitted by Senator 
  Inhofe.........................................................   110

Responses of Admiral Mullen to Questions Submitted by Senator 
  DeMint.........................................................   112

Responses of Secretary Clinton to Questions Submitted by Senator 
  Lugar..........................................................   113

Responses of Secretary Clinton to Questions Submitted by Senator 
  DeMint.........................................................   121

Responses of Secretary Clinton to Questions Submitted by Senator 
  Wicker.........................................................   123

Responses of Secretary Clinton to Questions Submitted by Senator 
  Inhofe.........................................................   128

                        Wednesday, May 19, 2010
                    THE HISTORY AND LESSONS OF START

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................   135

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   137

Baker, James A., III, Former Secretary of State, Former Secretary 
  of the Treasury, senior partner, Baker Botts LLP, Houston, TX..   138

    Prepared statement...........................................   142

                        Wednesday, May 19, 2010
                 THE ROLE OF STRATEGIC ARMS CONTROL IN 
                         A POST-COLD-WAR WORLD

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................   163

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   165

Kissinger, Hon. Henry, Former Secretary of State, Kissinger 
  Associates, New York, NY.......................................   167

    Prepared statement...........................................   169

              Additional Material Submitted for the Record

Prepared Statement of Hon. Russell D. Feingold, U.S. Senator from 
  Wisconsin......................................................   187

Responses of Dr. Henry Kissinger to Questions Submitted by 
  Senator Feingold...............................................   187

                        Thursday, June 10, 2010
              STRATEGIC ARMS CONTROL AND NATIONAL SECURITY

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................   189

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   191

Scowcroft, LTG Brent, USAF (Ret.), President, The Scowcroft 
  Group, Washington, DC..........................................   192

Hadley, Hon. Stephen J., Senior Adviser for International 
  Affairs, United States Institute of Peace, Washington, DC......   194

    Prepared statement...........................................   196

                         Tuesday, June 15, 2010
                            THE NEGOTIATIONS

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................   213

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   215

Gottemoeller, Hon. Rose, Assistant Secretary of State for 
  Verification, Compliance, and Implementation, Chief U.S. 
  Negotiator in Post-START Negotiations, Department of State, 
  Washington, DC.................................................   217

    Prepared statement...........................................   219

Warner, Dr. Edward L., III, Secretary of Defense Representative 
  to Post-New START Negotiations, Department of Defense, 
  Washington, DC.................................................   222

    Prepared statement...........................................   225

              Additional Material Submitted for the Record

Reponses of Assistant Secretary Rose Gottemoeller and Dr. Edward 
  L. Warner III to Questions Submitted by Senator Lugar..........   244

Reponses of Assistant Secretary Rose Gottemoeller to Questions 
  Submitted by Senator Lugar.....................................   244

Reponses of Assistant Secretary Rose Gottemoeller and Dr. Edward 
  L. Warner III to Questions Submitted by Senator Barrasso.......   258

Reponses of Dr. Edward L. Warner III to Questions Submitted by 
  Senator Barrasso...............................................   264

                        Wednesday, June 16, 2010
                        VIEWS FROM THE PENTAGON

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................   267

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   269

Miller, Dr. James N., Jr., Deputy Under Secretary of Defense for 
  Policy, Department of Defense, Washington, DC..................   279

    Prepared statement...........................................   273

Chilton, GEN Kevin P., USAF, Commander, United States Strategic 
  Command, Offutt Air Force Base, NE.............................   276

    Prepared statement...........................................   278

O'Reilly, LTG Patrick J., USA, Director, Missle Defense Agency, 
  Washington, DC.................................................   279

    Prepared statement...........................................   280

              Additional Material Submitted for the Record

Reponses of GEN Kevin P. Chilton to Questions Submitted by 
  Senator Lugar..................................................   297

Reponses of Hon. James N. Miller, Jr., to Questions Submitted by 
  Senator Feingold...............................................   298

Reponses of LTG Patrick J. O'Reilly to Questions Submitted by 
  Senator Feingold...............................................   299

Reponses of GEN Kevin P. Chilton to Questions Submitted by 
  Senator Risch..................................................   299

Reponses of Hon. James N. Miller, Jr., to Questions Submitted by 
  Senator Risch..................................................   305

Reponses of LTG Patrick J. O'Reilly to Questions Submitted by 
  Senator Risch..................................................   309

                        Thursday, June 24, 2010
               IMPLEMENTATION--INSPECTIONS AND ASSISTANCE

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................   313

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   316

Miller, Dr. James N., Jr., Deputy Under Secretary of Defense for 
  Policy, Department of Defense, Washington, DC..................   318

    Prepared statement...........................................   320

Myers, Kenneth A., III, director, Defense Threat Reduction Agency 
  and director, U.S. Strategic Command Center for Combatting 
  Weapons of Mass Destruction, Fort Belvoir, VA..................   322

    Prepared statement...........................................   326

              Additional Material Submitted for the Record

Extract from Politico Submitted by Senator Lugar.................   349

                        Thursday, June 24, 2010
                           BENEFITS AND RISKS

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................   351

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   353

Inhofe, Hon. James M., U.S. Senator from Oklahoma, opening 
  statement......................................................   354

Joseph, Hon. Robert G., senior scholar, National Institute for 
  Public Policy, Fairfax, VA.....................................   356

    Prepared statement...........................................   358

Edelman, Hon. Eric S., distinguished fellow, Center for Strategic 
  and Budgetary Assessments, visiting scholar, Philip Merrill 
  Center for Strategic Studies, Johns Hopkins University School 
  of Advanced International Studies, Washington, DC..............   362

    Prepared statement...........................................   365

Halperin, Dr. Morton H., senior advisor, Open Society Institute, 
  Washington, DC.................................................   368

    Prepared statement...........................................   372

              Additional Material Submitted for the Record

Statement from the Partnership for A Secure America..............   388

                        Thursday, July 15, 2010
               MAINTAINING A SAFE, SECURE, AND EFFECTIVE 
                            NUCLEAR ARSENAL

                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................   391
Statement for the record submitted by Ambassador F. Brooks.......   393
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   396
Anastasio, Dr. Michael R., director, Los Alamos National 
  Laboratory, Los Alamos, NM.....................................   398
    Prepared statement...........................................   399
Miller, Dr. George H., director, Lawrence Livermore National 
  Laboratory, Livermore, CA......................................   406
    Prepared statement...........................................   408
Hommert, Dr. Paul J., director, Sandia National Laboratories, 
  Albuquerque, NM................................................   416
    Prepared statement...........................................   417

              Additional Material Submitted for the Record

Responses of Dr. George Miller to Questions Submitted by Senator 
  Casey..........................................................   439

Responses of Dr. Michael Anastasio to Questions Submitted by 
  Senator Casey..................................................   440


    THE HISTORICAL AND MODERN CONTEXT FOR U.S.-RUSSIAN ARMS CONTROL

                              ----------                              


                        THURSDAY, APRIL 29, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:37 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Casey, Shaheen, Lugar, 
Isakson, Risch, Barrasso, and Wicker.

             OPENING STATEMENT OF HON. JOHN KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order. Thank you 
all for coming. This afternoon we begin a series of hearings on 
the New START Treaty. In the coming weeks administration 
witnesses and outside experts from across the political 
spectrum will testify about this historic opportunity to reduce 
the threat posed by nuclear weapons. An honest and fair 
discussion will be an important part of building the kind of 
bipartisan support that the treaty requires and I believe 
deserves.
    This treaty marks a significant step forward for both 
America and Russia, and I think the world, because of the 
marker it sets with respect to our efforts to reduce nuclear 
weapons globally. It will cut by nearly a third the maximum 
number of deployed strategic warheads. It puts in place a 
streamlined and effective new verification regime. Overall, it 
puts us firmly on the path toward reducing our reliance on 
nuclear weapons.
    In the weeks and months ahead, we will hear differences of 
opinion on some of the specifics of the treaty, including 
missile defense, telemetry, and ICBMs. Personally, I welcome a 
thorough exploration of each of these issues. But at the outset 
I think we have to focus on a single overarching issue: Does 
this treaty make us safer? From everything that I have read and 
heard so far, the answer to that question is ``Yes.'' This 
treaty improves our security because it increases certainty, 
stability, and transparency in the two countries that together 
hold 95 percent of the world's nuclear weapons, and it does so 
while retaining for America the flexibility to protect 
ourselves and our allies in Europe and around the world.
    Day by day since the START Treaty and its verification 
measures expired last December, we have been increasingly 
losing crucial visibility into the Russian nuclear program. 
This new treaty will restore that visibility, that capacity, 
and in some ways it will enhance it. The sooner we get that 
done, the better, because until then we don't have a formalized 
agreement with respect to verification.
    This treaty also strengthens the global nonproliferation 
regime that is under threat today. Every step that America 
takes to honor our end of the NPT partnership makes it easy for 
others to partner with us, both in pressuring an Iran or North 
Korea to honor their own commitments and in preventing nuclear 
terrorism.
    This treaty's benefits extend far beyond nuclear security. 
When Presidents Obama and Medvedev signed the accord in Prague 
earlier this month, they took a major step toward a better 
United States-Russian relationship. In the next few weeks we 
expect formal delivery of the treaty and the accompanying 
documents, the annexes, from the administration. That will 
permit us to get down to the details.
    We already know that some are going to contend, as they 
always do, that any negotiated reduction in our nuclear arsenal 
somehow endangers our national security. As much as I disagree, 
Senator Lugar and I share a determination to work together to 
conduct a series of hearings that will explore and answer the 
full range of concerns from supporters and skeptics alike.
    Next month we will hear from Secretary Clinton and 
Secretary Gates and Admiral Mullen. We will hear from the team 
that spent a year in the ultimately successful negotiations 
with the Russians, and we will hear from the intelligence 
officials charged with monitoring Russia's strategic forces. We 
will also hear from Henry Kissinger, James Baker, Madeleine 
Albright, and other officials who, like today's witnesses, can 
provide firsthand knowledge and perspective on the history of 
arms control.
    On a matter that's vital to America's national security, 
it's more important than ever that we put aside politics and 
judge this treaty on its merits. This should not be a partisan 
issue. Some of the most important arms control treaties have 
been negotiated by Republican Presidents. Remember, it was 
Ronald Reagan who began negotiations on the original START 
Treaty, and George H.W. Bush completed them. That treaty was 
approved with the overwhelming support of Democrats.
    In fact, the New START Treaty reflects concerns raised by 
Senators during the process as we have met with negotiators on 
a consistent basis, and it reflects concerns raised by Senators 
on both sides of the aisle. This treaty emphasizes 
verification. It will not inhibit our missile defense. It will 
not prevent us from fielding strategic conventional weapons. 
The START and SORT agreements with Russia were approved by 
large majorities of both parties, and I believe that we can do 
it again this year.
    Few people know the history of arms control better than our 
two witnesses this afternoon. They have offered trusted 
strategic advice to Presidents for over 4 decades, and we are 
fortunate to have their guidance at this first hearing, at the 
outset of this journey. Dr. James Schlesinger has been called 
the ``former Secretary of Everything.'' He has served 
Presidents Nixon, Ford, and Carter as Chairman of the Atomic 
Energy Commission, Secretary of Defense, Director of Central 
Intelligence, Secretary of Energy. He's been an important voice 
of caution regarding the limits of arms control agreements as 
tools of U.S. foreign policy, and we are eager to hear his 
thoughts today.
    Dr. William Perry served as Secretary of Defense during the 
Clinton administration. He's also, as we know, a long-time 
professor at Stanford University. In 2008 and 2009 Dr. Perry 
served as chairman of the Congressional Commission on the 
Strategic Posture of the United States, and his vice chairman 
was James Schlesinger.
    So, gentlemen, welcome back. We've sought your guidance in 
the past. We're honored by your presence here today and we look 
forward to your insights as we begin our hearings on the New 
START Treaty.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. As the chairman pointed out, the committee 
begins today to hear testimony regarding the New START Treaty 
and the historical context of United States-Russian arms 
control. I join the chairman in welcoming two very good friends 
to the committee, Jim Schlesinger and Bill Perry. They led the 
commission that wrote the ``Report on America's Strategic 
Posture'' that was mandated by Congress and released in 2009. 
We look forward both to their insights from this report and 
their personal observations based on decades of arms control 
and defense policy leadership.
    Earlier this month, in Prague, the United States and Russia 
signed the new START Treaty. Formal transmission of the treaty 
to the Senate for advice and consent is expected in early May. 
Nevertheless, we are moving forward now to prepare members of 
this committee for action on the new accord and to build a 
thorough record for the full Senate.
    Many Members of the Senate are new to the subject of 
strategic arms control. In fact, only 26 Members of today's 
Senate were present in 1992 for debate on the START I Treaty. 
Only six current members of the Foreign Relations Committee 
were Senators when we dealt with the Moscow Treaty in 2003. 
Senate consideration of the New START Treaty is an opportunity, 
not only to educate the Senators, but also to engage in a 
broader public dialogue on the fundamental questions of United 
States national security and diplomacy for all of our Members 
and for Americans who are witnessing these hearings.
    Texts of the treaty and its protocol are available online, 
including on my Senate Web site. The treaty annexes, which are 
completed, may soon be publicly released. When they are, they 
will be placed on my Web site, as well. I look forward to the 
administration's provision of other key documents in the coming 
weeks, including a modernization plan for our weapons complex, 
a National Intelligence Estimate, and a verification 
assessment.
    I support the New START Treaty, and believe that it will 
enhance the United States national security. It would reduce 
strategic nuclear launchers and warheads and replace the 1991 
START I Treaty that expired last year. Equally important, it 
will provide forward momentum to our relationship with Moscow, 
which is vital to United States policy goals related to Iran's 
nuclear program, nuclear nonproliferation, global energy 
security, and stability in Eurasia.
    Further, because the verification procedures contained in 
START I expired last December 5th, without the New START 
Treaty, the United States lacks both the ability to carry out 
on-site inspection in Russia and the formal consultation 
mechanisms that monitor Russia's strategic nuclear program. It 
is essential that a verification system be in place so that we 
have a sufficient understanding of Russian nuclear forces and 
achieve a level of transparency that prevents miscalculations.
    As our hearing today underscores, the task of evaluating a 
treaty requires more than a reading of the text. The 
administration must explain in detail how the treaty fits into 
our defense plans and how it will affect our relationships with 
Russia and other nations. Several issues are particularly 
important to address.
    First, some Members have expressed concern about provisions 
in the New START Treaty that deal with missile defense. START I 
acknowledged a link between strategic offensive and strategic 
defensive systems. The preamble to the New START Treaty 
similarly acknowledges this link. But New START also contains 
limits on the deployment of U.S. interceptor missiles in 
existing strategic missile launchers. The administration must 
elaborate on how these provisions constitute no constraint on 
our missile defense plans, as it claims.
    Second, the administration's Nuclear Posture Review defines 
a new, more limited role for nuclear weapons in our military 
strategy. It also says that new conventional weapons could 
replace nuclear weapons for certain missions. In light of the 
limits on conventional capabilities in the New START Treaty, 
the administration should explain how, and in what specific 
instances, conventional capability can replace nuclear 
capability.
    Third, any treaty on strategic nuclear forces will be 
affected by continued safety, security, and reliability of our 
nuclear weapons. The Obama administration should explain how it 
plans to ensure that our weapons will perform their missions 
over the 10-year life of the treaty. The administration also 
must clarify an uncertainty over whether the Nuclear Posture 
Review's new, restrictive procedures for maintaining our 
industry stockpile will allow experts sufficient flexibility to 
keep our weapons safe, secure, and reliable.
    Fourth, the administration should articulate clearly how it 
wants both American and Russian strategic forces to look at the 
end of the new treaty's lifetime. A major goal of the START I 
and the START II treaties was to move Soviet and Russian 
strategic systems away from destabilizing heavy, fixed ICBMs 
with many warheads on them. Today, we have largely achieved 
this goal. What are our goals for the future under the New 
START Treaty?
    These are all important questions for our inquiry, but they 
are not partisan ones. Arms control treaties have traditionally 
enjoyed bipartisan backing. With 67 votes required for 
ratification, the Senate approved the START I Treaty in 1992 by 
a vote of 93 to 6, and the 1996 START II Treaty by a vote of 87 
to 4. The Moscow Treaty, signed by President Bush and then-
President Putin in 2003, was approved 95 to 0. Since the New 
START Treaty combines concepts from START I and the Moscow 
Treaty, I believe a thorough and detailed debate can achieve 
similar levels of support.
    We start on this project today. I appreciate especially the 
chairman's scheduling of this hearing and the opportunity to 
engage in a dialogue with our esteemed witnesses.
    I thank the chair.
    The Chairman. Thank you very much, Senator Lugar.
    Secretary Schlesinger, if you will lead off we would 
appreciate it. Your full testimony will be placed in the record 
as if read if you would like, and if you want to summarize, or 
however you wish to proceed. Thank you.

STATEMENT OF HON. JAMES R. SCHLESINGER, PH.D., FORMER SECRETARY 
  OF DEFENSE, FORMER SECRETARY OF ENERGY, FORMER DIRECTOR OF 
CENTRAL INTELLIGENCE, CHAIRMAN OF THE BOARD, MITRE CORPORATION, 
                           McLEAN, VA

    Dr. Schlesinger. Thank you, Mr. Chairman, Senator Lugar, 
Senator Casey, Senator Shaheen. I thank the committee for its 
invitation to discuss the New START Treaty and its 
implications.
    At the outset I want to make two general points. First, the 
Senate will wish to scrutinize the treaty carefully, as it has 
previous arms control agreements. This reflects the many 
changes that have occurred between START I and New START.
    Second and perhaps even more important, as I shall develop, 
it will want to examine the treaty in a wider context of 
overall military relationships and our alliance 
responsibilities. In a way, this latter aspect is reminiscent 
of the clue in Sherlock Holmes' story of the dog that did not 
bark. While New START may be acceptable in the narrow context 
of strategic weapons, it also needs to be considered in a much 
larger context. In particular, as I shall come to later, it 
must be viewed in terms of the evolving Russian doctrine 
regarding tactical nuclear weapons and their use and on the 
balance between Russia's substantial stockpile of tactical 
nuclear weapons, which are not included in this treaty, and 
strategic weapons.
    As to the stated context of strategic nuclear weapons, the 
numbers specified are quite adequate at the reduced level, in 
my judgment at least. To have gone further at this time, as 
some have urged, would not be prudent.
    At the time of the committee review of the Moscow Treaty in 
2002, criticism was sharp with respect to the failure to deal 
with tactical nuclear weapons, the failure further to reduce 
MIRVed missiles, and with respect to verification. Those 
criticisms--those questions, I should say, are still relevant 
today.
    On specifics, the committee will wish to review the 
question of launchers, why did the United States come down from 
its preferred level of 900 to 700, when the Russians were 
already at this lower level, and whether or not we got 
something for this concession. The main effect of reducing 
launchers relative to weapons is to reduce the number of aim 
points for an attacker, thus hypothetically increasing 
instability.
    Second, a heavy bomber constitutes only one count against 
the 700-launcher operational limit, even though bombers can 
carry many more weapons. A bomber can carry 16 to 20 ALCMs. A 
force of 65 to 70 bombers could readily carry upward of 500 
additional weapons, beyond the 1,550 limit. The official 
Russian press has already bragged that under New START, under 
the New START counting rules, Russia can maintain 2,100 
strategic weapons rather than the 1,550 specified in the 
treaty.
    If there is any advantage in this counting rule, it is that 
it makes a powerful case for the preservation of the triad and 
indeed for starting on the new development, in light of our own 
aging bomber fleet, of a follow-on strategic bomber.
    Now let me change to what is not included under the 
strategic nuclear weapons, to wit, the dog that did not bark, 
the frustrating, vexatious, and increasingly worrisome issue of 
Russia's tactical weapons. Russian officials have acknowledged 
that the number of their nuclear weapons, nonstrategic nuclear 
weapons, is some 3,800 and the overall number is believed to be 
significantly higher. The United States has over the years 
reduced its tactical nuclear weapons in Europe by over 95 
percent and the percentage reduction is even higher if one 
includes the weapons withdrawn from our aircraft carriers in 
the early 1990s.
    In its hearings on the Moscow Treaty in 2002, this 
committee was quite critical on that issue, that that treaty 
had done nothing about tactical nuclear weapons. Then-Chairman 
Biden asked: ``Why does this treaty not limit tactical nuclear 
weapons, which are the most susceptible to theft?''
    Secretary Powell had, in his prepared statement, stated: 
``As we went about negotiating the Moscow Treaty, one of the 
questions foremost in my mind, as a former soldier and Chairman 
of the Joint Chiefs of Staff, was how will we address tactical 
nuclear weapons? We continue to be concerned about the 
uncertainties surrounding Russian nonstrategic nuclear weapons 
and I believe we should discuss inventory levels of NSNW with 
the Russians and press Moscow to complete the reductions it 
pledged'' in 1991-92.
    Later in the hearing, Mr. Powell also stated: ``The 
President is still very interested in tactical nuclear weapons, 
so this is going to be an area of discussions with the Russian 
side.''
    That expression of intent to discuss tactical nuclear 
weapons with the Russian side was 8 years ago. It seems to go 
on interminably and still nothing has happened. While the Obama 
administration has repeatedly expressed an intent to deal with 
tactical nuclear weapons, up to this point the Russians have 
been deaf to our entreaties.
    The point to bear in mind is that the ratio between 
tactical nuclear weapons and strategic tactical weapons 
continues to rise, one of the consequences of reducing the 
strategic nuclear weapons. The problem with tactical nuclear 
weapons is acknowledged in the preamble of the New START 
Treaty, though in relation to the balance between strategic 
offense and strategic defense: ``This interrelationship becomes 
more important as strategic nuclear arms are reduced.'' 
Similarly, the significance of tactical nuclear weapons rises 
steadily as strategic nuclear weapons are reduced.
    We must bear in mind that, with respect to tactical nuclear 
weapons, there is an inherent asymmetry between the United 
States and Russia that goes beyond the questions of mere 
numbers. While the United States is far away, Russia is cheek 
by jowl with the countries on the Eurasian continent. To a 
Poland or a Czech Republic, both of which have been threatened 
by the Russians during an earlier period of missile defense 
deployment, it is hard to discern the difference between 
Russian tactical nuclear weapons--that is, short-range 
weapons--and strategic nuclear weapons.
    As the plaintive comment of Secretary Powell did reveal, 
the Russians have steadfastly resisted any attempt on our part 
to deal with the imbalance in tactical nuclear weapons, and 
understandably do so. The likelihood of their being willing to 
do so in light of New START is sharply diminished, for we have 
now forfeited substantial leverage.
    The Russians have indicated that they would not even 
discuss tactical nuclear weapons until the handful of weapons 
we still maintain in Europe are withdrawn. In this connection, 
Russian policy, like Soviet policy before it, is quite 
consistent. In the 1970s and the 1980s the Russians regularly 
demanded either that we should withdraw our forward-based 
systems in Europe or, at a minimum, count them against our 
total number of strategic weapons. In those days, however, they 
remained unsuccessful in achieving that goal.
    The United States has made transparency a global 
initiative. The Strategic Posture Commission stated that: ``The 
United States and Russia have a shared responsibility to 
increase nuclear transparency and to set a high standard in 
their own postures,'' as you mentioned in your opening 
statement, Mr. Chairman. In no nuclear area other than for 
proliferators like North Korea and Iran has transparency been 
as lacking as it has been with respect to Russian tactical 
nuclear weapons.
    In the current political context, a premeditated attack on 
the United States by a major power like Russia or China has 
little credibility. Nevertheless, the role of a lopsided 
tactical nuclear posture is potentially important for 
intimidating our allies on the Eurasian continent. Extended 
deterrence remains central to formulating our own nuclear 
posture, offsetting potential tactical nuclear weapons. 
Intimidation of our allies remains a critical element in 
overall deterrence.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Schlesinger follows:]

  Prepared Statement of Dr. James Schlesinger, Chairman of the Board, 
                     MITRE Corporation, McLean, VA

    Mr. Chairman, Senator Lugar, members of the committee, I thank the 
committee for its invitation to discuss the New START Treaty and its 
varied implications. At the outset I should like to make two general 
points. First, the Senate will wish to scrutinize the treaty carefully, 
as it has previous arms control agreements. This reflects the many 
changes as compared to START I. Second, and perhaps even more 
important, it will want to examine the treaty in a wider context of 
overall military relationships and our alliance responsibilities.
    In a way that aspect is reminiscent of the clue in Sherlock Holmes' 
story of the dog that did not bark. While New START may be acceptable 
in the narrow context of strategic weapons, it also needs to be 
considered in a much larger context. In particular, as I shall come to 
later, it must be viewed in terms of the evolving Russian doctrine 
regarding tactical nuclear weapons use and on the balance between 
Russia's substantial stockpile of tactical nuclear weapons--which are 
excluded under this treaty--and strategic weapons.
    As to the stated context of strategic nuclear weapons, the numbers 
specified are adequate, though barely so. To have gone further at this 
time, as some had urged, would not, in my judgment, have been prudent.
    At the time of this committee's review of the Moscow Treaty in 
2002, criticism was sharp with respect to the failure to deal with 
tactical nuclear weapons, the failure further to reduce MIRV missiles, 
and with respect to verification. Those criticisms are still relevant 
today.
    On specifics, the committee will wish to review the question of 
launchers. First, why did the United States come down from its 
preferred number of 900 to 700, when the Russians were already at that 
lower level--and whether we got anything for this concession? The main 
effect of reducing launchers relative to weapons is to reduce the 
number of aim points for an attacker, thus hypothetically increasing 
instability.
    Second, a heavy bomber constitutes only one count against the 700-
launcher operational limit--even though bombers can carry many more 
weapons. Since a bomber can carry 16-20 ALCMs, a force of 65 to 70 
bombers could readily carry upward of 500 additional strategic weapons. 
The official Russian press has already bragged that under the New START 
counting rules, Russia can maintain 2,100 strategic weapons rather than 
the 1,550 specified in the treaty. If there is any advantage in this 
counting rule, it is that it makes a powerful case for the preservation 
of the Triad--and indeed for starting on the development, in light of 
our own aging bomber fleet, of a follow-on strategic bomber.
    Third, the committee will wish to examine specified limits in the 
START I Treaty that have now been removed. In contrast to START I, New 
START, for example, does not mention rail-mobile missiles. Does this 
mean that such missiles could be deployed and not count against New 
START limits? Clearly this implies for us that we must carefully 
monitor any activities outside the now reduced specific limits of New 
START.
    Now let me change to what is not included under strategic nuclear 
weapons--i.e., the dog that did not bark--the frustrating, vexatious, 
and increasingly worrisome issue of Russia's tactical nuclear weapons. 
Russian officials have acknowledged that the number of their tactical 
nuclear weapons (nonstrategic nuclear weapons) is some 3,800--and the 
overall number is believed to be significantly larger. The United 
States has over the years reduced its tactical nuclear weapons in 
Europe by over 95 percent--and the percentage reduction is even higher 
if one includes the weapons withdrawn from our aircraft carriers in the 
early 1990s.
    In its hearings on the Moscow Treaty in 2002, this committee was 
quite critical on this issue. That treaty had done nothing about 
tactical nuclear weapons. Then-chairman Biden asked ``Why does the 
treaty not limit tactical nuclear weapons--which are the most 
susceptible to theft?'' Secretary Powell had, in his prepared 
statement, stated:

          As we went about negotiating the Moscow Treaty, one of the 
        questions foremost in my mind as a former soldier and Chairman 
        of the Joint Chiefs of Staff, was how will we address tactical 
        nuclear weapons?
          We continue to be concerned about the uncertainties 
        surrounding Russian nonstrategic nuclear weapons (NSNW), and I 
        believe we should discuss inventory levels of NSNW with the 
        Russians and press Moscow to complete the reductions it pledged 
        to make in 1991 and 1992.

    Later in the hearing Powell also stated ``the President is still 
very interested in tactical nuclear weapons. So this is going to be an 
area of discussion with the Russian side.'' That expression of intent 
to discuss tactical nuclear weapons with ``the Russian side'' was 8 
years ago--it seems to go on interminably--and still nothing has been 
done. While the Obama administration has repeatedly expressed an intent 
to deal with tactical nuclear weapons, up to this point the Russians 
have been deaf to our entreaties. The point to bear in mind is that the 
ratio between tactical nuclear weapons and strategic nuclear weapons 
continues to rise.
    Indirectly the problem with tactical nuclear weapons is 
acknowledged in the preamble of the New START Treaty though in relation 
to the balance between strategic offense and strategic defense: ``This 
interrelationship becomes more important as strategic nuclear arms are 
reduced.''
    Similarly, the significance of tactical nuclear weapons rises 
steadily as strategic nuclear arms are reduced. We must bear in mind 
that with respect to tactical nuclear weapons there is an inherent 
asymmetry between the United States and Russia. While the United States 
is far away, Russia is cheek by jowl with the countries on the Eurasian 
continent. For a Poland, a Czech Republic, or a Lithuania, it is hard 
to discern the difference between Russian tactical nuclear and 
strategic nuclear. As the plaintive comments of Secretary Powell 
reveal, the Russians have steadfastly resisted any attempt on our part 
to deal with the imbalance in tactical nuclear weapons--and 
understandably so.
    The likelihood of their being willing to do so in the wake of New 
START, is sharply diminished--for we have now forfeited substantial 
leverage. The Russians have indicated that they would not even discuss 
tactical nuclear weapons until the handful of weapons we still maintain 
in Europe are withdrawn. In this connection Russian policy, like Soviet 
policy before it, is quite consistent. In the 1970s and 1980s the 
Russians regularly demanded either that we should withdraw our 
``forward based systems'' from Europe or, at a minimum, count them 
against our total number of strategic weapons. In those days, however, 
they remained unsuccessful in achieving that goal.
    The United States has made transparency a global initiative. The 
Strategic Posture Commission stated that ``the United States and Russia 
have a shared responsibility to increase nuclear transparency and to 
set a high standard in their own postures.'' In no nuclear area--other 
than for proliferators like North Korea and Iran--has transparency been 
as lacking as it has been with respect to Russian tactical nuclear 
weapons.
    In the current political context a premeditated attack on the 
United States itself has little credibility. Nevertheless the role of a 
lopsided tactical nuclear posture is potentially important in 
intimidating our allies on the Eurasian continent. Extended deterrence 
remains central to formulating our nuclear posture. Offsetting 
potential tactical nuclear weapons intimidation of our allies remains a 
critical element in deterrence.

    The Chairman. Thank you very much, Mr. Secretary.
    Secretary Perry.

    STATEMENT OF HON. WILLIAM J. PERRY, FORMER SECRETARY OF 
 DEFENSE, MICHAEL AND BARBARA BERBERIAN PROFESSOR, CENTER FOR 
 INTERNATIONAL SECURITY AND COOPERATION, STANFORD UNIVERSITY, 
                          STANFORD, CA

    Dr. Perry. Thank you, Mr. Chairman.
    The Chairman. Pull the mike close.
    Dr. Perry. I'm honored to appear before this committee and 
its distinguished chairman and ranking member. I believe that 
few people in the Senate, or anywhere else for that matter, 
have more experience or better judgment on these critical 
nuclear issues than do the two of you. I think the Nation is 
fortunate to have you as chairman and ranking member for these 
deliberations.
    I will submit my written statement for the record. I don't 
intend to read the statement, but I would like to highlight 
some of the points in it.
    The Chairman. Absolutely, and the full statement will be 
placed in the record.
    Dr. Perry. I've organized my comments in two areas: what 
the treaty will not do and what the treaty will do. First of 
all, what it will not do. It will not make major reductions in 
our nuclear forces. Indeed, after all reductions are made the 
United States will still have deployed nuclear forces with the 
destructive power of more than 10,000--much more than 10,000 
Hiroshima bombs.
    Second, it will not impose meaningful restraints on our 
ability to develop or deploy ballistic missile defenses.
    Third, it will not restrict our ability to modernize our 
nuclear deterrent force.
    And fourth, it does not deal with tactical nuclear warheads 
or with the thousands of warheads in reserve, both in the 
United States and in Russian forces.
    What will the treaty do, then? First of all, it gives a 
clear signal to the world that the United States is serious 
about carrying out its responsibilities under the Nuclear 
Nonproliferation Treaty. This will be welcomed as a positive 
step by all other members of the NPT. So why is that important? 
I believe that the greatest threat we face today is the 
threat--the greatest nuclear threat we face today is from 
nuclear terrorism or proliferation. This is an international 
problem and it requires an international solution. None of our 
objectives in this field can be achieved without the 
cooperation of other nations of the world.
    Second, it builds confidence between the United States and 
Russia by providing vitally important continuing dialogue on 
strategic nuclear issues. My hope is that this greater 
confidence will lead to constructive approaches to dealing with 
other problems between the United States and Russia, and it 
will lead to a follow-on treaty that entails much greater 
reductions and also deals with the tactical nuclear weapons and 
the reserve nuclear warheads not covered in this treaty.
    Third, it does improve strategic stability between the 
United States and Russia by requiring both nations to provide 
transparency and accountability of their vast nuclear arsenals.
    Based on these judgments, I believe that this treaty does 
advance American security objectives, particularly with respect 
to what I consider to be our greatest nuclear threats, nuclear 
proliferation and nuclear terrorism, and I look forward to 
seeing this treaty come into force.
    Thank you.
    [The prepared statement of Dr. Perry follows:]

    Prepared Statement of Dr. William J. Perry, Michael and Barbara 
Berberian Professor, Center for International Security and Cooperation, 
                   Stanford University, Stanford, CA

    Chairman Kerry and Ranking Member Lugar, thank you for this 
opportunity to appear before you and other members of this 
distinguished committee to discuss ratification for the New START 
Treaty.
    I would like to start my testimony by offering you five judgments 
about the New START Treaty.
    1. The reduction of deployed warheads entailed by the treaty is 
modest, but the treaty is a clear signal that the United States is 
serious about carrying out our responsibilities under the Nuclear Non-
Proliferation Treaty, and will be welcomed as a positive step by the 
other members of that treaty.
    2. The treaty imposes no meaningful restraints on our ability to 
develop and deploy ballistic missile defense systems, or our ability to 
modernize our nuclear deterrence forces.
    3. The treaty does not affect our ability to maintain an effective 
nuclear deterrent, as specified by DOD planners in the 2010 Nuclear 
Posture Review.
    4. The treaty is a valuable confidence-building measure in that it 
provides for a vitally important continuing dialogue between the United 
States and Russia on strategic nuclear weapons.
    5. The treaty improves strategic stability between the United 
States and Russia by requiring both nations to provide transparency and 
accountability in the management of their strategic nuclear forces.
    Based on these judgments, I recommend that the Senate consent to 
the ratification of this treaty.
    I would like to add further comments concerning some details of the 
treaty.
    The New START treaty limits deployed, strategic systems to an 
aggregate of 1,550 warheads. These include warheads on deployed ICBMs 
and SLBMs. Heavy bombers count as a single warhead toward these limits. 
Further, the treaty creates ceilings on the number of deployed and 
nondeployed strategic delivery platforms. Each nation retains the 
ability to determine the composition of their forces within these 
numbers. While the actual number of nuclear weapons available for 
upload on deployed bombers are not counted, this unusual ``counting 
rule'' is essentially equivalent between the United States and Russia. 
In my opinion, this aspect of the treaty would not put the United 
States at any disadvantage.
    The focus of this treaty is on deployed warheads and it does not 
attempt to count or control nondeployed warheads. This continues in the 
tradition of prior arms control treaties. I would hope to see 
nondeployed and tactical systems included in future negotiations, but 
the absence of these systems should not detract from the merits of this 
treaty and the further advances in arms control which it represents.
    The transparency and verification regime in this treaty builds upon 
the successful procedures and methods from the prior START Treaty. 
Declarations of the number and locale of deployed missiles will be made 
upon entry into force, and an inspection regime allows short-notice 
access to ensure compliance. Technical aspects of the treaty include 
establishment of unique identifiers for each missile and heavy bomber 
and their locations, an important advance, which further enhances 
inspection and verification. Missile tests continue to be monitored, 
and the exchange of telemetry data is provided. While telemetry is not 
necessary for verification of this treaty or for our security 
interests, the continued exchange of telemetry is in our joint interest 
as a further confidence-building measure.
    Two important questions arise in the evaluation of this treaty. 
They are whether the treaty constrains the United States ability to 
modernize its nuclear deterrent and infrastructure and whether the 
treaty constrains ballistic missile defenses. The treaty directly 
addresses this first question. Article V of the treaty states 
``modernization and replacement of strategic offensive arms may be 
carried out.'' The Congressional Commission on Nuclear Forces noted 
that our nuclear weapons complex was in need of improvement. The 
President's FY11 budget submission proposes substantial increases to 
the nuclear weapons program for just this purpose. The 2010 Nuclear 
Posture Review elaborates upon this need in detail. The administration 
has been consistent in its statements and proposals on this point, all 
of which support upgrade and improvement of the nuclear weapons 
complex, including the replacement of key facilities for handling of 
nuclear materiels. The New START Treaty does not inhibit any of these 
plans or programs.
    The development of Ballistic Missile Defense is similarly 
unconstrained by this treaty. The preamble notes an interrelation 
between strategic offensive and defensive arms and the importance of a 
balance between them, but imposes no limits on further development of 
missile defenses. Indeed, this treaty modestly enhances the ability to 
develop missile defenses, in that retired strategic missiles required 
for development of BMD are no longer constrained under the terms of New 
START. Further, ballistic missile interceptors are specifically 
excluded from the definition of ballistic missiles under this treaty. 
The treaty does prohibit the conversion of ICBM launchers for missile 
defense purposes. We do not, in fact, plan to do so, so this limitation 
will have no practical impact on our BMD systems.
    Mr. Chairman, the New START Treaty is a positive step in United 
States-Russia arms negotiations. This treaty establishes a ceiling on 
strategic arms while allowing the United States to maintain a safe, 
secure, and effective nuclear deterrent. This treaty does not limit 
America's ability to structure its offensive arsenal to meet current or 
future threats, nor does it prevent the future modernization of the 
American nuclear arsenal. Additionally, the treaty puts no meaningful 
limits on our Anti-Ballistic Missile Defense program, and in fact it 
reduces restrictions that existed under the previous START Treaty. I 
recommend ratification.
    Mr. Chairman, thank you for the opportunity to appear before you 
today. I welcome your questions regarding the New START Treaty.

    The Chairman. Thank you very much, Secretary Perry and 
Secretary Schlesinger.
    In your joint effort of the Strategic Posture Commission, 
you concluded that the United States and Russia should continue 
to pursue a step-by-step approach to arms control, with the 
objective being to ``rejuvenate'' or ``achieve a `robust' arms 
control process that survives the expiration of the START 
agreement.'' I assume you believe, from your comments, that 
this particular approach of this agreement, modest as it is 
described, does achieve that?
    Dr. Schlesinger. Yes, sir.
    The Chairman. Secretary Perry.
    Dr. Perry. Yes.
    The Chairman. And, that said, you highlighted, Dr. 
Schlesinger, in your comments a moment ago, appropriately, the 
asymmetry between the United States and Russia with respect to 
the tactical nuclear weapons. I agree with you, this committee 
did draw focus on that, and it is an ongoing concern and many 
of us believe it has to be brought into--there's a point where 
we've got to start counting them and putting them into this 
equation.
    But in the Strategic Posture Commission you explicitly 
recommended that there's a first step, and the first step in 
reinvigorating the Russian arms control process is ``modest and 
straightforward,'' and should not ``strive for a bold new 
initiative.'' That is, is it fair to say that you did not 
anticipate that this particular step of moving to the next step 
of START, that that would in fact bring the tactical at this 
stage?
    Dr. Schlesinger. No, I did not anticipate that.
    The Chairman. But this is a----
    Dr. Schlesinger. I think it's most unfortunate.
    The Chairman. But this is a precursor, is it not? I mean, 
any effort to be able to get to that requires us to ratify this 
agreement?
    Dr. Schlesinger. Yes. And I fervently hope that it's a 
precursor.
    The Chairman. So do I. I think we all do.
    Secretary Perry, do you want to comment on that?
    Dr. Perry. Yes. In my testimony I express the hope that the 
confidence-building that would develop from this treaty and the 
ongoing dialogues it would have would lead to improvements in 
many other areas, not just further nuclear treaties, but in the 
other areas of disagreement between the United States and 
Russia, but in particular it would lead to a follow-on treaty 
dealing with the tactical nukes and also dealing with the 
thousands of reserve warheads that we have.
    I might mention that the asymmetry in tactical nuclear 
weapons is primarily in favor of the Soviet Union, but the 
asymmetry in strategic weapons in reserve is primarily in the 
favor of the United States and is a very sore issue with the 
Russians that I speak to. We have the capability of rapidly 
uploading thousands of nuclear weapons onto our strategic 
forces if we choose to do so.
    The Chairman. That's a point that I wanted to get to and I 
appreciate very much your drawing that out. There is an 
asymmetry on the tactical, but the decision to begin 
withdrawing and continue to withdraw tactical from Europe that 
we controlled has been shared by Republican and Democrat 
administration alike, correct?
    Dr. Schlesinger. Yes, indeed.
    The Chairman. Secretary Perry.
    Dr. Perry. Yes.
    The Chairman. And we have maintained a much more 
significant stockpile, that in fact the Russians fear we could 
break out at any moment; is that accurate?
    Dr. Perry. I believe that is accurate. It's not so much 
that we have the stockpile as we have the ability to rapidly 
upload it, for example on our Trident submarines.
    The Chairman. I'm sorry. Secretary Schlesinger.
    Dr. Schlesinger. The Russians have a live production base 
for their nuclear weapons. We do not. There is that asymmetry 
along with the asymmetry with regard to reserve weapons.
    The Chairman. Drawing on your considerable experience in 
this field and then sort of making these evaluations about our 
national security leads you to make this conclusion that this 
step-by-step process is critical because you have to get this 
treaty in place and build on it in order to begin to address 
this further asymmetry?
    Dr. Perry. That is my judgment, yes.
    Dr. Schlesinger. I hope that you are right, Mr. Chairman.
    The Chairman. What's the alternative, Secretary 
Schlesinger?
    Dr. Schlesinger. Oh, there's no alternative. I hope that 
you're right that this----
    The Chairman. That we will address it?
    Dr. Schlesinger [continuing]. That we have a further step. 
I don't think that the incentives that the Russians have are 
very powerful at the moment.
    Dr. Perry. I would add to that. I think the next step will 
be very difficult, both for the Russians and for us, because it 
not only involves dealing with the tactical nuclear weapons, 
which they consider they have threats well beyond the United 
States that cause them to have tactical nuclear weapons, but it 
will require counting warheads in a verifiable way and that's a 
step we have never taken before.
    The Chairman. Agreed. And I think we need to, and I 
suggested, frankly, at the outset of this effort that we have 
to figure out how to get to that counting, because that, in the 
end, is really the most salient feature of balance, if you 
will.
    I wonder if you both would speak to this issue. Tell us, if 
you would, what is it about this treaty that leaves you 
confident that the numbers, both in launchers and warheads, are 
in fact adequate to address the question of this asymmetry as 
well as just the broad national security concerns of our 
country in the balance of our relationship with Russia and any 
threats we might or might not face?
    Dr. Perry. Mr. Chairman, it is simply that we have so many 
warheads and so many delivery vehicles that we can destroy 
Russia many times over with this capability. So we are not 
close yet to the point where the number of nuclear weapons we 
have is so low that that would become an issue.
    Dr. Schlesinger. I think that the overall relationship and 
the general military relationships in this era for both Russia 
and China are such that there is little temptation on their 
part to launch an attack on the United States. I think it's the 
overall political relationship, part of which stems from what 
Bill has said, that can give us confidence in this area.
    The Chairman. Thank you, gentlemen.
    Senator Lugar.
    Senator Lugar. Gentlemen, the report of the Strategic 
Posture Commission observed: ``The debate over the proposed 
Reliable Replacement Warhead revealed a lot of confusion about 
what was intended, what is needed, and what constitutes new, 
and believes that as the Nation moves forward we must be clear 
about what is being initiated and what is not, as well as what 
makes a weapon new and what does not.''
    My question: What do each of you consider the new 
developments the United States should undertake within the next 
10 years in our nuclear stockpile? Second, there's considerable 
confusion over what ``modernization'' means for the current 
nuclear stockpile. Could each of you provide your views as to 
what the term means? Do we need new, modern warheads, bombers, 
missiles, or all of the above?
    Dr. Perry. In our commission report we discussed that issue 
in some detail and I still stand by what we said in that 
report. We basically have said that maintaining confidence in 
the stockpile as we go forward is multidimensional. It 
includes, among other things, maintaining a robust, science-
based program, the so-called stockpile stewardship program, 
which had been on the decrease as we conducted the report. We 
felt it was very important to get that on an increasing level 
again. Second, it involved a robust stockpile surveillance 
program, which was also, we thought, declining and not adequate 
to the job. That had to be increased.
    Finally, it involved maintaining a life extension program, 
and we offered the view that simply refurbishing existing 
warheads might not be sufficient in the future; we had to also 
consider replacing components on the missile and, if necessary, 
redesigns; and that which of these three approaches were to be 
used would be considered on a case-by-case basis.
    As I read the Nuclear Posture Review, those judgments are 
echoed in the Nuclear Posture Review.
    Dr. Schlesinger. I think that Bill has summarized the 
situation. We urged a case-by-case study of individual weapons 
and that, if necessary, we have replacement. The Nuclear 
Posture Review allows for that with the permission of the 
President and the Congress. But it is somewhat narrower than 
what was recommended by the commission, in that it is beyond 
the case-by-case review of the weapons in the stockpile.
    May I add that it is essential that we augment the money 
that has been allocated for the labs, for the science program, 
in particular that the add-on for next year looks to be 
significant, but I hope in the out years that it continues to 
be appropriate. We don't know yet. Within a few weeks at least, 
we should have the 10-year program recommended by the 
administration, which will I think influence strongly the 
decisions of Senators.
    Senator Lugar. It appears that Secretary Gates agrees with 
both of you and is apparently asking for approximately $5 
billion in additional funds to achieve these ends. I just 
wonder whether either of you have been in consultation with 
Secretary Gates, if you believe you're on the same wavelength, 
and what confidence you have in his leadership in this area?
    Dr. Schlesinger. I have great confidence in Secretary 
Gates.
    Dr. Perry. I do, too.
    Senator Lugar. Your commission's report noted that existing 
alternatives to stockpile stewardship and life extension 
involve varying degrees of reuse and/or redesign. You noted 
further that the decision on which approach should be best is 
to be made on a type-by-type basis, as you've just said, 
Secretary Schlesinger.
    The Nuclear Posture Review stated that in its decision to 
proceed to engineering development for warhead lifetime 
extension the United States will give strong preference to 
options for refurbishment or reuse. Replacement of nuclear 
components would be undertaken only if the critical stockpile 
management program could not otherwise be met and is 
specifically authorized by the President and the Congress.
    Now, do you both believe that the NPR provides sufficient 
flexibility to our weapons designers when it comes to replacing 
certain components in our nuclear weapons, and is the NPR's 
guidance inconsistent with your commission's broad 
recommendations which I cited earlier?
    Dr. Schlesinger. It is somewhat inconsistent, but there is 
a political reality, which the administration--the Congress has 
fought off new weapons, such as the RRW, over the years. What 
we have is a step forward, a major step forward, given the 
attitudes that have been taken, particularly on the Hill, with 
regard to upgrading the nuclear weapons stockpile.
    We have made a significant advance. It will depend, of 
course, on whether the House is prepared to provide the funds, 
due to the peculiar jurisdiction. That remains an open 
question.
    Dr. Perry. I think the Nuclear Posture Review is a major 
step forward in this respect. It explicitly authorizes reuse, 
which the laboratories have felt reluctant to use before, and 
it gives the condition under which redesign can be achieved. I 
think this
is a major step forward from where we are before. But whether
this all plays out appropriately does depend on the level of 
the funding given to the laboratories. As I have seen this 
year's budget proposal and the 5-year plan, I think these are 
moving in the right direction.
    The Congress has requested a 10-year plan in this regard. I 
support that request and I think--because the issues we're 
looking at here really span over more like 10 years than 5 
years. So I would encourage you to proceed in that direction.
    Dr. Schlesinger. May I mention a worry in that connection. 
There is in the plan money for the new facilities at Los Alamos 
and at Y-12. The problem is that if we have cost overruns at 
those new facilities we do not want to see the consequence of 
taking it out of the laboratories' budget.
    Dr. Perry. I agree with that.
    Senator Lugar. Gentlemen, I have some additional questions. 
If I submit these to you, could you reply for the record so 
that the record of our hearing and your views will be more 
complete?
    Dr. Perry. Yes.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you very much, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Mr. Chairman, thank you very much for 
holding the hearing. I intend to carefully review this treaty. 
The treaty would reduce the size of our nuclear arsenal without 
constraining our ability to defend our Nation, while fostering 
the international cooperation needed to stop the spread of 
nuclear weapons and materiels. The treaty also works to reduce 
and secure Russia's nuclear stockpile, which has noted 
vulnerabilities.
    At the same time, we must ensure that the treaty is 
verifiable and does not compromise our ability to monitor 
nuclear weapons and materiels in Russia. As a member of the 
Senate Select Committee on Intelligence, I intend to carefully 
review the inspection regime under this treaty to ensure that 
on balance it adds to our understanding of the Russian arsenal.
    Meanwhile, I thank our distinguished witnesses for being 
here. The Congressional Commission on the Strategic Posture of 
the United States, which they chaired, concluded that: 
``Terrorist use of a nuclear weapon against the United States 
or its friends and allies is more likely than deliberate use by 
a state.'' To me this underscores what I have long believed, 
that to best secure our Nation we must move beyond a cold-war 
mindset and focus on the threat that terrorists could gain 
access to nuclear weapons or materiels, and I do think that 
this treaty represents a step in that direction.
    Secretary Perry, you've recently written that this 
administration's plan for modernizing our nuclear complex and 
arsenal is consistent with the recommendations of the Strategic 
Posture Commission that you two chaired. You've also testified 
that this treaty ``imposes no meaningful constraints on our 
ability to modernize our nuclear deterrence forces.'' In fact, 
is it true that the administration's plans to expand the 
infrastructure of our nuclear complex at Los Alamos would 
actually increase our capacity to produce plutonium pits beyond 
the level that your commission's final report found was 
necessary to maintain our nuclear arsenal?
    Dr. Perry. The proposed--the administration's plans for 
both the plutonium and the uranium facility restoration will in 
my judgment provide adequate and maybe even more than adequate 
capability for the needs which I can imagine. As it stands 
right now, Los Alamos is capable of producing plutonium pits, 
but at a rather low level. This will modernize and expand that 
capability.
    Senator Feingold. Secretary Schlesinger, there has been a 
lot of discussion about the ways in which ratifying this treaty 
will enhance our national security. Could you say a little bit 
about the ways in which failure to ratify this treaty may be 
detrimental to our national security, especially in light of 
the fact that without the treaty we cannot continue inspections 
of the Russian arsenal?
    Dr. Schlesinger. I think that the principal defect if the 
Senate does not ratify lies in the political area, in some of 
the points that have already been made by Secretary Perry. To 
wit, for the United States at this juncture to fail to ratify 
the treaty in the due course of the Senate's deliberation would 
have a detrimental effect on our ability to influence others 
with regard to particularly the nonproliferation issue.
    Senator Feingold. Secretary Perry, you wrote in an op-ed 
that this treaty is the first tangible product of the 
administration's promise to ``press the reset button on the 
United States-Russian relations.'' Should we be concerned about 
the kind of message we'd send to other nations, for example 
Iran, about the United States-Russian ability to work together 
on nonproliferation concerns if we failed to ratify a treaty 
that brings mutual security benefits?
    Dr. Perry. Senator Feingold, I believe that our inability 
to control or to limit or restrain nuclear arsenals of either 
North Korea or Iran has been largely the result of our 
inability to work effectively with the other nations that we 
need, whose cooperation we need. That includes not only Russia, 
but China as well. Put in a positive way, to adequately deal 
with North Korea's and Iran's nuclear aspirations, we need full 
cooperation of other nations, particularly Russia and China.
    This treaty will not guarantee that, but this treaty is 
moving us in that direction of a much better understanding of 
the relationship with Russia in these vital matters.
    Senator Feingold. Secretary Perry, you stated that it will 
be important in future agreements to secure commitments to 
dismantle weapons; dismantle weapons and not simply put them in 
reserve. I note that the United States already has a backlog of 
weapons waiting to be dismantled. In order to secure 
commitments on dismantling excess weapons, how important is it 
that we reduce our existing backlog?
    Dr. Perry. I think we are dismantling weapons at a rate 
compatible with our facilities for doing that, and I think that 
should be continued. But beyond the weapons that we're planning 
to dismantle, we have many weapons in reserve that we don't 
plan to dismantle. Both categories, both weapons waiting for 
dismantlement and weapons in reserve, both of those categories 
have to be considered in future treaties, I think, along with 
the consideration of the tactical nuclear weapons that Russia 
has.
    Senator Feingold. Mr. Secretary.
    Dr. Schlesinger. Again, I repeat that the Russians have a 
live production base. They turn over their inventory of nuclear 
weapons every 10 years. We do not. And therefore the weapons in 
reserve are, in effect, a substitute--a partial substitute--for 
a live production base.
    Senator Feingold. I thank both of you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Thanks to both of you distinguished Americans for being 
here today. Both of you expressed a frustration or a concern 
with the ability to count nondeployable warheads and tactical 
warheads, I think equally so. But both of you said that this 
treaty is absolutely essential to get to the point where we can 
do that, or at least that's the inference that I received.
    You also, I think, both said in one way or another in your 
testimony that the Russians' lack of ability to want to be able 
to be accountable for tactical weapons is because they are much 
more threatened at their border or in proximity than we are. Am 
I correct in what I said?
    Dr. Perry. Yes.
    Dr. Schlesinger. To the Poles, a short-range tactical, so-
called, missile or weapon is hard to distinguish from a 
strategic weapon.
    Senator Isakson. My question then--and I think--is it ``Dr. 
Perry'' and ``Dr. Schlesinger''? Is that--I want to be 
respectful.
    Dr. Schlesinger. I beg your pardon?
    Senator Isakson. You're both doctors, correct? OK, I always 
want to be respectful of that.
    Dr. Perry, you expressed concern--and I think you did, too, 
Dr. Schlesinger--with dirty bombs or the terrorist threat being 
the greater threat than a state attack on the United States. It 
seems to me like the easiest access for a terrorist to nuclear 
materiel would be in a tactical weapon or one of these 
nondeployable weapons; is that correct?
    Dr. Perry. I'd like to clarify that point. At least from my 
point of view, when I was speaking about the terrorist nuclear 
threat I was considering the possibility that terrorists would 
get a real nuclear bomb, not just a dirty bomb. That's the 
major concern I have.
    Beyond that, there's a possibility that a terrorist could 
make a dirty bomb, but I do not put that in the same ballpark 
at all in terms of the catastrophes that it could cause. That 
could be done without having access to uranium or plutonium. 
That could be done with medical radioactive materiel, for 
example.
    So that is an issue which I hold separate from the issue. 
The dirty bomb issue I'm treating separately from that. My 
comments all applied to a terrorist getting a real nuclear 
bomb, one that goes off with a nuclear explosion.
    Dr. Schlesinger. The greatest threat remains the 
possibility, however remote, of a major missile exchange with 
the Russians or with China. The most probable threat is, of 
course, the use of a weapon by terrorists, but that is a much 
lower order of destruction that could be visited on the United 
States.
    Senator Isakson. Is there anything in this treaty that 
helps us with regard to some degree of comfort that a terrorist 
is not going to get a weapon? Is there anything in the treaty 
that helps us with that?
    Dr. Perry. I believe only indirectly, but in an important 
way indirectly.
    Senator Isakson. Would you elaborate on that?
    Dr. Perry. There are two different things we can do, two 
fundamentally different things that can be done. One is to keep 
nuclear weapons from proliferating. To the extent that North 
Korea builds up a nuclear arsenal, to the extent that Iran gets 
nuclear weapons, to the extent that other nations follow their 
lead, this increases the probability that a terror group could 
get a nuclear weapon.
    So nuclear proliferation is one danger that could lead to a 
terror group getting a nuclear weapon. The other has to do with 
better controlling access to fissile materiel, for example in 
research reactors. That's what the nuclear summit was all about 
last month, trying to get nations to deal with that problem.
    In both of those cases, these are international problems 
and they require support and cooperation from other 
international nations. I think this treaty is one modest step 
in the direction of getting that support from other nations. 
But it by no means solves the problem.
    Dr. Schlesinger. To this point, Senator Isakson, even 
though both Russia and China are privileged under the NPT as 
nuclear weapons states, they have given us precious little aid 
with regard to the proliferation problem, quite notably in 
North Korea or in Iran. I hope that they change, but I don't 
have a great deal of confidence. Therefore, it's not clear to 
me as a practical matter whether or not we are going to be able 
to get any more aid from either of them on these issues.
    However, while I'm more pessimistic than Secretary Perry, I 
think that we ought to make the attempt.
    Senator Isakson. So I take that to mean, given your 
feelings about China and Russia regarding help on 
proliferation, you still believe that this treaty does not 
compromise us and gives us a platform to improve that? Is that 
what I heard you say?
    Dr. Schlesinger. That is indeed correct. It provides us 
with a platform. Whether or not that platform turns out to be 
particularly useful in the final event is the question.
    Dr. Perry. I would put it slightly differently. I would say 
this treaty is a necessary but not a sufficient condition for 
such cooperation.
    Senator Isakson. Well, I think from my standpoint and 
responsibility as a Senator from the State of Georgia, and 
having been here on 9/11 and having seen the change of our 
world vis-a-vis the growth of terrorism, the single most 
important issue I think to my constituents in Georgia, and to 
me personally, is the goal that you both have stated in terms 
of removing or reducing the accessibility of fissionable 
materiel to terrorists. That's going to be one of the major 
things I weigh my decision on in terms of whether or not we 
ratify any treaty, because that's got to be our ultimate goal.
    I really appreciate both of your attendance today. Thank 
you.
    The Chairman. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Secretary Perry, Secretary Schlesinger, we're honored by 
your presence and commend you and thank you for your public 
service, which I guess you could say was before, during, and 
after your service in the U.S. Government.
    I wanted to touch on two or three areas, first of all on 
missile defense. Secretary Perry, I wanted to refer to your 
statement and in particular on page 2 you said that there are 
two important questions that arise upon evaluation of the 
treaty. The first
was whether the treaty--and I'm quoting from your testimony: 
``whether the treaty constrains the United States ability to 
modernize its nuclear deterrent and infrastructure.'' At the 
end--you did some analysis after that.
    At the end of the paragraph you say: ``The New START Treaty 
does not inhibit any of these plans or programs.'' Is that 
correct?
    Dr. Perry. It does not inhibit any plans or programs that 
we actually plan to pursue, as General O'Reilly has testified. 
It does inhibit our ability to use ICBM launchers for ballistic 
missile launchers, but that's something we had not planned to 
do anyway.
    Senator Casey. The second question you raised on that page 
was ``whether the treaty constrains ballistic missile 
defenses.'' Then you go through analysis of that, and you say, 
and I'm quoting, that it ``imposes no limits on further 
development of missile defenses.'' Is that correct?
    Dr. Perry. That's correct.
    Senator Casey. I wanted to have you elaborate on that, and 
invite Secretary Schlesinger as well, because that's become a 
point of contention and it's important that we, even prior to 
formal debate, that we examine and explore that question. I 
think it's pretty clear, but I think it's important that we 
highlight it.
    I don't know if there's anything you wanted to add to that 
or highlight about that question about missile defense?
    Dr. Perry. I've read the treaty and its protocols, but I've 
not read the annexes yet because they're not available yet. And 
I see nothing in the treaty or its protocol that limits our 
development or deployment of ballistic missile defenses in any 
way that we plan to do.
    Dr. Schlesinger. I think, Secretary Casey, that, if I may 
say so, there's some overstatement on the part of the 
administration in presenting this treaty, in that it says that 
it limits missile defense in no way. The answer is we have 
limited the capacity to insert missile defenses in Minuteman 
silos or in tubes that are empty in our submarine fleet. As 
Bill Perry has just indicated, we had no plans to do that. But 
it is an overstatement to say that nothing in the treaty 
inhibits missile defense. I don't think that it inhibits 
missile defense in a serious way, however.
    Senator Casey. Well, it's important that we incorporate by 
reference that fuller answer to that question. I appreciate 
that.
    Second, with regard to one of the benefits of this treaty, 
we could make a list, but one of them that I think a lot of not 
just Members of the U.S. Senate, but I think the American 
people, will have, I think, after a debate have more of an 
appreciation for is this question of verification. I just want 
to see if you could speak to that in terms of the elements of 
it, what we gain in terms of verification, especially with 
respect to the passage of time and how both the passage of time 
as well as new technology, in addition to the provisions in the 
treaty, allow us to amplify or enlarge our ability to have 
stronger verification.
    Dr. Perry. I think the inspection provisions considerably 
enhance our ability to verify the treaty. But we should 
understand that they are supplementary to our national 
technical means, which are quite considerable. The treaty also 
provides a noninterference clause, that is a clause that says 
both parties agree not to interfere with the national technical 
means, which I think is important.
    So I would look at the verification both from the point of 
view of what it permits us to do and from the point of view of 
what it restricts the Russians from doing relative to national 
technical means.
    Dr. Schlesinger. As compared to START I, our verification 
capabilities are restricted. However, as compared to the period 
since December of last year when START I lapsed, this is a 
resurrection, as it were, of some degree of verification 
capacity. Under START I we had total access to telemetry on the 
part of Russia, previously the Soviet Union. Now we have 
considerably more restricted access. I trust that it will still 
be adequate. We have more limited inspection possibilities. We 
have been obliged to limit our monitoring at the perimeter of 
Votkinsk to know how many missiles come out. That is some 
limitation.
    I think all in all that the verification possibilities 
under this treaty, though much more limited than START I, are 
still adequate.
    Dr. Perry. I would add to that, Senator Casey, that the 
primary restriction relative to START I has to do with 
telemetry, but that is because the telemetry was necessary to 
monitor START I. START I had technical features in it for which 
telemetry was necessary for verification. Those features are 
not in the New START Treaty. In fact, I would make a stronger 
statement: There is no need for telemetry at all in order to 
verify this treaty.
    I'm grateful that we have the telemetry because I think 
it's a useful confidence-building measure, but it is not needed 
to verify the treaty.
    Dr. Schlesinger. That is correct, but the reason is that we 
have given up on limits on throw weight and on MIRVing of 
Russian missiles.
    Senator Casey. I'm out of time. Thank you very much.
    The Chairman. Thank you, Senator Casey.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Gentlemen, Senator Casey has already raised what he knows 
is an important issue to me and I think probably himself and 
other members on the committee, and that is the defensive 
posture of the United States with regard to developing various 
defensive systems. As we know, different administrations have 
had a different view of the appropriateness of doing so. So 
I've got a number of questions about that.
    I would start with this: What in the world is that doing in 
here in the first place? Why--you say, well, we weren't 
planning on using the old tubes in either the submarines or 
land-based. Why--why is this in the treaty in the first place? 
I mean, this is supposed to be, as I understand it, an 
offensive weapons treaty. I know the Russians--this has always 
bothered them, about us trying to defend ourselves.
    To me, the most important function of a government is to 
defend itself, and I'm very, very troubled by this. Could I get 
your comments?
    Dr. Perry. I don't know why this is in the treaty. I'm 
confident it in no way--it restricts us in no way from doing 
anything that we plan to do. So it does not bother me. I'm not 
concerned about it.
    Dr. Schlesinger. The question is better addressed to the 
negotiators. I think this was regarded as a throwaway on their 
part because we were not planning to use the Minuteman silos, 
et cetera, for defensive missiles.
    Senator Risch. I understand that whoever it is that's 
speaking right now for the administration doesn't plan that, 
but administrations change and it is entirely possible, I would 
think, that in the future these apparatus will be considered to 
be used for defensive purposes. So again, I just can't 
understand why they would have incorporated that in there.
    Dr. Schlesinger. I can understand your expression of 
concern, Senator. I think that the reality is that there is 
nothing in the treaty that is problematic. I think that the 
problem will exist of the continued Russian pressure on us with 
regard to missile defense, as reflected in the preamble.
    Senator Risch. The issue to me becomes more complex as we 
go forward and attempt to guard ourselves from an attack from 
Iran or North Korea, which of course is an entirely different 
proposition than our relationship with the Russians, which 
relies on a mutual destruction sort of philosophy. Not so with 
the Iranians and the North Koreans, and they don't think the 
same way that the Russians do and so we're going to have to 
think about defending ourselves differently.
    So you can understand why I'm concerned about that issue 
being raised in any way in this treaty. Is that a legitimate 
concern?
    Dr. Schlesinger. I think that it's a legitimate concern. I 
do not think that we will be inhibited by this treaty or even 
by the Russian pressure with respect to defending ourselves 
against North Korea and ultimately against Iran, because those 
deployments are much lower. In the case of Iran, we are dealing 
primarily with regional missile defenses and they are in no way 
inhibited by this treaty.
    Senator Risch. However, during the course of this treaty, 
if you believe those that are trying to predict forward, they 
believe that the Iranians and the North Koreans will develop 
sufficient missile technology to reach substantially further 
than what they do now. Would that be a fair statement?
    Dr. Schlesinger. I think there's no question about that, 
that we have evidence of the North Koreans reaching in that 
direction. We have flimsier evidence with regard to Iran, but 
ultimately they are going to go in that direction. And we will 
need to take protection against them as modest nuclear powers, 
as opposed to China or Russia, which will be major nuclear 
powers.
    Senator Risch. Finally--and I'll wrap up, Mr. Chairman. But 
finally, I'm assuming that you gentlemen have read the 
unilateral statements from each of the parties. In regards to 
my concerns about our defensive posture, the unilateral 
statement by the Russians is problematic and certainly doesn't 
help resolve the questions that I have. In my judgment, it 
would seem to me that the Russians need to be straightened out 
on this issue, because we obviously view it differently than 
they do.
    Have you got any suggestions as to how we do this as we go 
forward if we are to ratify this treaty?
    Dr. Schlesinger. On this particular issue, we've been 
trying to straighten out the Russians for many years. We have 
been unsuccessful to this point. If you go back and look at the 
discussions under the SORT Treaty, for example, and the runup 
to the SORT Treaty, you have exactly the same line from the 
Russians that you have today. I think that it is likely to 
remain a perennial issue for them and that our position will 
have to be that we will resist those pressures from Russia.
    Dr. Perry. I think the issue, as Dr. Schlesinger says, has 
been a disagreement between the two of our countries for a long 
time. I think going into the future the best way of dealing 
with this issue, of confronting this issue, would be through 
the consultative commission which is set up under this treaty. 
This at least gives us a forum in which we can meaningfully 
discuss these issues. It gives us some better chance at 
arriving at a mutual understanding than we now have.
    It's not an issue that we will be able to deal with through 
trading press releases, but we might be able to get some 
progress on it through this consultative forum.
    Dr. Schlesinger. For the Russians, it is not only a serious 
issue in their minds, but, more than that, it is a political 
battering ram that they have been using against us over the 
years, and I don't think that we will persuade them to give it 
up.
    Senator Risch. Gentlemen, my time is up and I thank you for 
your candid answers.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman and Senator Lugar, 
for holding the hearing today. Thank you, gentlemen, for being 
kind enough to appear. I have limited time because I actually 
have to go preside over the Senate and I can't be late for 
that.
    But I wanted to follow up on a couple of issues that have 
been raised by my colleagues. Secretary Perry, you suggested in 
your testimony that the new treaty's transparency and 
verification regime could be valuable in building confidence 
and improving our strategic stability between--with Russia. Can 
you talk a little bit more on why you think this is important 
as we look at some of the issues that have been raised in the 
testimony today about tactical nuclear weapons and about 
dealing with Iran and some of the other challenges we face with 
respect to nuclear proliferation?
    Dr. Perry. I have had a good many discussions with Russian 
officials, both in government and also Russian think-tank 
people, about these issues, and the level of misunderstanding, 
mistrust, between our two countries in this field has been 
rather high. So the best thing that has happened in the last--
so far on this treaty, has been the dialogue that's already 
taken place in the last year. Just the negotiations of the 
treaty have brought our two sides together seriously discussing 
these issues of disagreement.
    Assuming the treaty is ratified and enters into force, then 
the consultative commission set up by that is a vehicle for 
continuing that dialogue. This I think gives us the best chance 
of dealing with these misunderstandings.
    In addition to that, I would hope that after this treaty 
goes into force that, even beyond the consultative commission, 
we have bilateral talks on how to deal with the Iranian nuclear 
threat, first of all how to prevent it from developing, on 
which, as Dr. Schlesinger said, the Russians have been very 
little help so far, and then, if it does develop, how to 
counter it effectively. That can be done much more effectively 
as a multilateral effort than a unilateral effort.
    Senator Shaheen. Thank you.
    Dr. Schlesinger, back in 1991 when the hearings were going 
on on the original START Treaty, you testified that: ``Arms 
control can't transform a relationship of hostility, but it is 
the transformation of the relationship that makes serious arms 
control possible.'' Can you talk about how you would apply that 
same logic to the treaty before us today?
    Dr. Schlesinger. The change that takes place is only in the 
area in which both sides agree. In this case the Russians, as I 
have indicated, have been quite resistant to any discussion of 
the tactical nuclear weapons. This is not a problem of this 
administration. It goes on from administration to 
administration.
    We have common interests in reducing strategic weapons if 
they are not reduced to the point that they entice, for 
example, the Chinese to get into the competition, and that we 
do not reduce strategic weapons to the point that the tactical 
nuclear weapons posture of the Russians becomes overwhelming in 
numerical terms, which would frighten our allies, although I 
don't think we are going to get into a missile exchange with 
the Russians.
    The upshot is that only in those areas in which there is 
some degree of initial agreement can one proceed effectively 
with arms control. The irony is that in those areas in which 
there is no agreement and might benefit from arms control, such 
as tactical nuclear weapons, that we have so far seen such 
subjects elude is in the arms control process.
    Senator Shaheen. You both testified on START I and the SORT 
Treaty acknowledging shortcomings in both of those, I think 
just as you have today, acknowledging that there are things 
that you might like to see differently, done differently. But 
you still recommended ratification of those two treaties. Do 
you have a recommendation relative to what we should do with 
this treaty?
    Dr. Perry. My written statement did recommend ratification, 
yes.
    Dr. Schlesinger. I think that it is obligatory for the 
United States to ratify. And any treaty is going to have 
limitations, questionable areas. There are some in this treaty. 
We need to watch them for the future, but that does not mean 
that the treaty should be rejected.
    Senator Shaheen. Do you have thoughts about what 
ratification or failure to ratify might--what signals that 
might send to the other NPT signatories?
    Dr. Perry. Most certainly, if we fail to ratify this treaty 
the United States will have forfeited any right to provide any 
leadership in this field throughout the world. I mean, that's 
pretty clear.
    Senator Shaheen. Thank you.
    Dr. Schlesinger. I think that that's essentially right. I 
wouldn't use the word ``forfeit'' myself.
    Senator Shaheen. Thank you both.
    The Chairman. ``Loss,'' is that a good word?
    Gentlemen, we are very, very appreciative for your 
appearance here today. I have some questions for the record, 
and I appreciate your willingness to entertain those.
    Let me just say one word with respect to the issue raised 
by Senator Risch, which--I don't recall, were you at the 
breakfast with Secretary Clinton with us?
    Senator Risch. Mr. Chairman, I raised, as you recall, the 
exact same issues with Secretary Clinton and her team. I left 
there less than satisfied and I'm continuing to----
    The Chairman. Well, it's important to probe it. Obviously, 
that's the purpose. I just hadn't recalled whether--I knew that 
the question had been raised and I knew it was answered there 
very specifically.
    But I do think--and just maybe we can wrap up on this area. 
What has sustained us throughout the elaborate arms race that 
we went through over the course of whatever, 50-plus years, and 
saw us rise to a level of some 50,000 warheads, et cetera--and 
we're now moving in the opposite direction, gratefully, under 
both Republican and Democratic Presidents--has been this 
essential need to have a balance of the deterrent, the power 
between us, the perception of threat each to each other.
    I think it's fair to say that the Russians--and I think 
this will come out in the course of the record--consistently 
pressed hard at a number of different levels to try to put 
missile defense four-square within the framework of this 
treaty. It is not. The preamble language, which is the only 
real reference--I think Secretary Schlesinger used the term 
``throwaway''--is effectively throwaway language that simply 
acknowledges what most people believe is a reality, that 
offense is affected by defense.
    The truth is that if you build a sufficient level of 
defense and the other side's just sitting there and it's 
unmatched, you can effectively destroy their deterrent, their 
capacity to believe they have a sufficient level of offense to 
do anything. The result is that you then have the possibility 
of setting off another arms race, et cetera, which is why, 
while many of us are supporting the research and development of 
defense and we have to have the ability to have it, we also 
believe it has to be done in a very responsible, perhaps even 
shared and multilateral way, so that people don't misinterpret 
what you're doing, because if you take it too far you can undo 
all of the benefits that you do otherwise.
    Is that a fair statement of sort of what's contained within 
this simple sentence, Secretaries?
    Dr. Schlesinger. If I may go back in history----
    The Chairman. Please. We invite you to. That's why we have 
you here.
    Dr. Schlesinger. Secretary McNamara, when the Russians 
deployed the Galosh system around Moscow, said: We are not 
going to build a missile defense ourselves. He was opposed to 
it. But, he said, we are going to overwhelm the Russians. And 
he developed MIRV capabilities in order to fulfill that, what 
we called the Moscow package.
    When we passed the ABM Treaty in 1972, both sides 
recognized the inadequacy at that time of ABM defenses. They 
have been improved substantially. The technology has been 
improved substantially. But once again, our attitude and their 
attitude was, if the ABM defenses begin to threaten our 
capability to retaliate, we shall expand our offensive forces.
    So in dealing with the major powers, China and Russia, we 
must be careful, I think, not to convey to them that we are 
threatening their retaliatory capability. At the same time, as 
Senator Risch says, we are obliged to have a deployment of 
defenses adequate to deal with the newcomers in this business, 
Iran, North Korea, and so forth. It's not because we would not 
like to have an impenetrable defense, as President Reagan had 
hoped for. It's just beyond our capability. They can always 
beat us with the offensive capabilities.
    Senator Risch. Mr. Chairman, may I just respond briefly?
    The Chairman. Absolutely.
    Senator Risch. First of all, I have the highest respect for 
your view of that situation, and of course I have the highest 
respect for the history. But I think where we are here is 
conditions have changed. As the Secretary points out, 
conditions are very different today. At that time, we were 
focused solely on the Russian threat. Today we have a much, 
much broader threat than the Russian threat.
    I appreciate the distinction that you made about how much 
more serious an exchange of missiles would be with Russia than 
if we got into it with either Iran or North Korea. In either 
event, the American people would consider it devastating in any 
event.
    As we move forward and as conditions change, I think we 
need to move forward and protect ourselves differently. And my 
point is, is I don't want to just do this and go through the 
motions of doing this and pretend that conditions are the same 
as they were when we started and, if you would, cave to the 
Russians in that regard. I would rather they had a very, very 
clear understanding that we are going to do what is necessary 
to protect the American people, not only from Russians, using 
the old theory of ``We're going to overwhelm you with our 
offense,'' but also that we are going to do everything we can 
to defensively protect ourselves from rogue nations who would 
do a demonstration shot or who would do a singular shot.
    So that's where I'm coming from on this, Mr. Chairman.
    The Chairman. I completely agree and I don't think there's 
any disagreement on any side of the aisle here. Three principal 
reasons----
    Dr. Schlesinger. This issue goes back to the Eisenhower 
administration and over the course of the last half century we 
have steadily adjusted our position with regard to missile 
defenses, and we should, as you say, continue to do so.
    The Chairman. I think, Senator, that here is the issue. The 
three principal reasons for having a defense, which I support 
for those reasons, would be a rogue state shot, a terrorist 
event, or an accidental launch. It is critical that, in 
whatever we do, the perceptions--all of this is driven by 
perceptions, the perception of threat. The other side has a 
perception of what we're doing. We have a perception of them.
    For years, the perceptions kind of wildly drove it. We've 
worked hard to try to control those perceptions. That's the key 
here. So if the Russians think, as they did and have--and there 
are some old-time players there who still see this very much in 
the old way--if they think that our deployment unilaterally is 
done in a way that is geared to affect their retaliation, as 
the Secretary has said, then you can ignite something.
    But if you're proceeding in a thoughtful, multilateral way 
where people can share in that protection, which is what we 
hope ultimately can happen, then you can do this very 
responsibly. I think that this reference that the Russians have 
put in this treaty is a real throwaway to say: ``Hey, guys, 
don't forget there is this relationship and we have 
perceptions; don't lose track of them.'' That's really what 
they're saying.
    Senator Wicker.
    Senator Wicker. Well, thank you very much.
    Following up on the chair's statement about sharing the 
development of this defense, you know, President Reagan 
famously talked about this in the debate about this when he was 
running for President in--I think it was for reelection in 
1984. But we've come a long way in this debate since then. As 
Secretary Schlesinger says, we've modified the debate as 
circumstances changed.
    I asked Secretary Gates last year about the concept of 
developing a joint missile system with Russia. He said it was a 
concept that might be worth pursuing. Other officials from the 
Department of Defense confirmed just last week that indeed 
conversations are ongoing with Russia to pursue such an 
arrangement.
    Secretary Perry, you wrote an op-ed on April 11 in the New 
York Times saying the United States should pursue such an 
arrangement. What are the benefits of a joint United States-
Russia missile defense program and how realistic is that, and 
what are the stumbling blocks? And then we'll let Secretary 
Schlesinger answer also.
    Dr. Perry. About a year ago, I had a track two meeting with 
senior Russians, including discussions with some Russian 
officials, about that very idea specifically pointed at the 
Iran threat. We agreed that the first step ought to be a joint 
threat assessment, and that really is moving along very well. I 
believe that in fact if Iran does get nuclear missiles they 
pose a greater threat to Russia than they do to the United 
States. So the joint threat assessment is a very important 
first step in this, and that's already well under way in 
unofficial circles, track two circles, and some discussion of 
it in official circles as well.
    The next step would be to find a way of technology-sharing. 
That's moderately difficult to do that, but it could be done, I 
think.
    Then the third step would be a joint system, which has very 
difficult problems that are associated with who makes the 
decision about when it's fired and under what conditions. I see 
those, both the second and the third steps, as being somewhere 
between difficult and very difficult, but not beyond reach.
    But I also believe that even discussing it seriously is a 
good step forward in helping to build confidence between the 
two nations. But I do believe it's important to move forward in 
those serious discussions and I think both countries are 
prepared to do so now.
    Senator Wicker. Meanwhile, the Iranians do not tarry on 
their side of it, do they? They're not waiting for us.
    Dr. Perry. The Iranians are moving full speed ahead, as 
nearly as I can determine. And I must say that, aside from 
ballistic missile defense against the Iranians, my own view is 
that we should be increasing our efforts to try to stop them 
from getting the nuclear bomb in the first place.
    Senator Wicker. Indeed, indeed.
    Do you have any idea on the timetable on that first 
component, the assessment, when that assessment might be ready?
    Dr. Perry. Well, in the unofficial or track-two level that 
has already been done. The group that I described that I was 
working on last year completed that about 6 months ago. So 
there is an unofficial joint assessment of the joint threat to 
Russia and America. The official assessment I think--this has 
yet to be agreed to officially, to move forward in this way. I 
just express some hope and probably some confidence that it 
will be done.
    Senator Wicker. Mr. Schlesinger, would you like to comment?
    Dr. Schlesinger. The area in which interest might be 
expressed is with respect to radar and warning particularly of 
what is going on south of the Russian border in Iran. What the 
Russians contribute--you ask what benefit this might be. They 
have important geography, which we lack. I think that that's 
one aspect.
    I think that also, that part of this discussion is intended 
to reduce Russian--hopefully to reduce Russian concerns about 
ballistic missiles which have been ongoing for almost 40 years.
    Senator Wicker. Finally, let me ask you, Secretary 
Schlesinger. You wrote an op-ed April 13 expressing concern 
over the departure from our policy of calculated ambiguity. You 
said that by stating that we will only use nuclear weapons 
against nuclear-armed states we provide incentives for other 
states, such as Syria, to focus on biological weapons as their 
WMD of choice.
    Can you tell a little more about the importance of that 
policy, and did calculated ambiguity play a part during your 
tenure? And is the threat posed by biological attack--what is 
the level of that?
    Dr. Schlesinger. At the time of my tenure we had a 
decidedly inferior conventional forces posture and for that 
reason calculated ambiguity lay behind our threat of nuclear 
retaliation. That no longer drives us. It would seem to me that 
you want to be very careful about moving away from calculated 
ambiguity because of the incentives and the concerns that it 
may develop.
    It is ironical perhaps that the new policy seems directed 
against states with nuclear weapons, to wit North Korea, 
prospectively Iran and Israel. I don't think that the 
likelihood of our actually retaliating against Israel is very 
high, but they are implicitly specified when we say nuclear-
armed states as our way of attempting to back away from 
countries that have aspirations for nuclear weapons.
    Senator Wicker. Did I characterize your opinion correctly 
as saying that we seem to be providing an unintended incentive 
for biological WMD being the weapon of choice?
    Dr. Schlesinger. Well, of course Secretary Baker, during 
the first gulf war, did convey that we would respond to the use 
of weapons of mass destruction on the part of Saddam Hussein 
with overwhelming force. It was inferred that he was referring 
to nuclear weapons. We never stated that. It was calculated 
ambiguity.
    Similarly, if I may go back, Secretary Perry did hint at 
some such development at the time that Qadafi was moving toward 
chemical weapons. But I'll let Bill discuss what he said at 
that time.
    Dr. Perry. What I said was, when I was the Secretary and 
Qadafi was moving toward a chemical weapon, I said that if they 
went ahead with chemical weapons we would respond with 
overwhelming force. And he could have interpreted that in many 
different ways. In a later discussion I went on to say that we 
would not need nuclear weapons to use overwhelming force 
against Libya. We had quite substantial conventional capability 
to provide overwhelming force. So whether or not ``overwhelming 
force'' means nuclear depends on the context.
    Senator Wicker. Thank you.
    Dr. Schlesinger. It is, of course, calculated ambiguity. 
[Laughter.]
    The Chairman. We like calculated ambiguity.
    Senator Wicker. Yes, we do.
    The Chairman. Senator Wicker, thank you very much.
    As we wrap up, I want to note the fact, though we will have 
expert testimony on this later on from the Defense Department 
and elsewhere, that one of the principal reasons that we don't 
think about using those ICBM silos for missile defense is very 
simply that it would cost, according to every estimate, a lot 
more to actually convert them than just to build a new missile 
defense structure, which is I believe the accurate reason why 
we're not contemplating using them. Is that fair, gentlemen?
    Dr. Schlesinger. That is correct.
    Dr. Perry. Yes.
    The Chairman. Yes, Senator Lugar.
    Senator Lugar. Because this point has been raised several 
times, some critics of the treaty have said that missile 
defense or defensive mechanisms occurs in the preamble and the 
preparatory sentence. But in addition, you have these five 
silos at Vandenberg, for example. These are platforms for 
missile defense and we've pledged not to use the five at 
Vandenberg. There may be others, but those come to mind as ones 
that are pointed to.
    Now, when we've raised this question specifically with 
Secretary Clinton and the group that she gathered with the 
Foreign Relations Committee, they said this would be an 
inferior way to launch missile defense. Not only don't we need 
it, but we would not want or use it.
    Unless somebody has a vested interest in keeping five silos 
at Vandenberg, I'm not able to see the logic of our defending 
something that our military people say we do not want and will 
not use because we want to have a better missile defense from 
platforms that will actually get the job done. Now, they didn't 
use those terms, but I'm using them as an inference that we 
will be involved in missile defense and we do want the very 
best platforms, modern ones that might get the job done.
    But I mention this because it keeps weaving through our 
conversations, and I just ask for your further comment. Is this 
your understanding of the statement we got from the Secretary?
    Dr. Schlesinger. Yes, Senator. The advantage of using the 
silos at Vandenberg would be a shorter time than construction. 
Obviously, new construction would be cheaper.
    Senator Lugar. Thank you.
    The Chairman. Gentlemen, I think you know this, but I want 
to, as I say ``thank you'' to you, I want to really thank you 
on behalf of all the committee and the Senators for your 
remarkable careers and the way in which you both give 
unbelievable life to the concept of public citizenship, both 
your stewardship in official positions and the way you both 
continue to contribute to the dialogue of our country. We're 
really very, very grateful to you. Thank you for being here 
today.
    Dr. Schlesinger. Thank you, Senator.
    The Chairman. Thank you.
    We stand adjourned.
    [Whereupon, at 4:17 p., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Dr. James Schlesinger to Questions Submitted 
                            by Senator Kerry

    Question. What were the key benefits to the United States from the 
years of implementation of the original START Treaty? How did it help 
us navigate the post-cold-war relationship with Russia?

  <bullet> Were there mistakes or miscalculations that you think we or 
        the Russians might have made if we had not had START in place 
        over those years?

    Answer. Even in a time of deep antagonism, such as existed in the 
early 1970s, arms control can set useful limits on needless production 
or deployment of armaments. In a period like 1991, at the time of the 
original START Treaty, when relations are much less antagonistic, arms 
control can help to stabilize relationships. The original START Treaty 
came at a time of growing rapprochement between the United States and 
the Soviet Union. By itself arms control cannot engineer a change in 
the overall relationship, but it can underscore a change.
    All in all the relationship between the United States and Russia 
has been quite stable, so that a turn toward nuclear threats was not 
likely. Nonetheless, the improved relationship may have helped at a 
time of deep political differences such as over the treatment and 
future of Serbia in the mid-1990s when the Russians moved into 
Pristina. That was a moment of tension that could have led to something 
more.

    Question. On April 10, you published a joint op-ed with Dr. Perry 
in which you said that the 2010 Nuclear Posture Review ``makes 
important strides in charting a sustainable bipartisan path forward for 
the United States,'' and that ``healthy disagreements over some NPR 
specifics should not obscure the valuable contribution it makes to 
advancing U.S. national security interests.'' You added: ``Themes from 
our report run through the Nuclear Posture Review and are embodied in 
the new START agreement.''

  <bullet> Could you elaborate on those comments?

    Answer. We have made a great deal of progress, at least 
conceptually, in resolving some of the differences over our nuclear 
posture. It is now accepted, I believe, that we should go forward with 
refurbishment and life extension measures for weapons in our stockpile. 
That ends a long period of domestic disagreement. We should take 
advantage of ending that dispute over the future of our nuclear posture 
by embracing what we have agreed upon. Disagreements will remain over 
some specifics. For example, there is no agreement with regard to the 
replacement of weapons in the stockpile. We should not allow such 
remaining differences to interfere with what is a major step forward.
    I believe that the nuclear posture review very closely, though not 
slavishly, followed the recommendations of the Commission. In addition, 
the Commission indicated that we could reduce our strategic nuclear 
armaments, provided that reductions were parallel to those of Russia. 
The Commission's recommendation that the United States not be inferior 
in strategic arms to other nations--in light of our responsibilities 
under extended deterrence have indeed been carried out.

    Question. In your 1992 testimony on the original START Treaty, you 
pointed out that any evaluation of a verification regime for a treaty 
needs to take account of the political context of the time. So the way 
we looked at the verification regime of the START Treaty in 1992--with 
the Warsaw Pact already broken up and the Soviet Union itself in the 
process of doing so--was different than we might have looked at it 
right after the Soviet invasion of Afghanistan. How should we think 
about the role of verification in the current era?

    Answer. The verification regime under New START is less demanding 
than it was under the original START Treaty. In part, that reflects the 
relaxation with respect to rules on throw weights and MIRVs--so that 
the needs of verification, given these standards, are reduced. Given 
the overall political relationship between the United States and Russia 
we believe that verification is adequate at this time. I regret, of 
course, along with others, that we no longer have observers at 
Voktinsk. That is regrettable. Yet, one must recognize that, since the 
United States is not producing new missiles, the Russians regard the 
observers at Voktinsk as a one-sided concession on their part.

    Question. The Strategic Posture Commission endorsed having the 
United States and Russia explore moving the arms control process beyond 
a first agreement on modest reductions, but cautioned that there are 
numerous challenges that await that effort. Could you describe what you 
see as the most important opportunities to move beyond modest 
reductions, and the most important challenges?

  <bullet> What does this tell us, more broadly, about what really can 
        be achieved through arms control?

    Answer. The most important challenge, and simultaneously we may 
hope the most important opportunity, is to deal with the issue of 
tactical nuclear weapons. The Russians still maintain a 
disproportionately large inventory of tactical nuclear weapons, while 
the United States has radically reduced its own inventory. Not only is 
the Russian position numerically lopsided, but because of geography it 
is inherently asymmetrical. We have failed to grapple with this issue 
since the agreed reductions in the 1990s of tactical nuclear weapons. 
Over the last decade we have failed to face up to this issue. In my 
judgment, until such time as the Russians are prepared seriously to 
negotiate on the issue of tactical nuclear weapons, it would be 
imprudent to move beyond the reductions of the current agreement.
    More broadly, what it tells us is that this era any further actions 
with regard to a single category of weapons such as strategic missiles, 
cannot be examined in isolation. It must be examined in an overall 
context would include, not only tactical nuclear weapons, but overall 
conventional capabilities as well. Such further reductions would imply, 
however, a greater demand on both verification and compliance.
                                 ______
                                 

       Responses of Dr. James Schlesinger to Questions Submitted 
                            by Senator Risch

    Question. In your statement to the Senate Foreign Relations 
Committee, you stated that prior to ratification of new START, the 
Senate will wish to carefully scrutinize the treaty in more than the 
narrow context of strategic weapons, specifically: (a) The balance 
between Russian tactical nuclear weapons and strategic weapons; (b) a 
unilateral reduction in the number of launchers (no Russian reductions) 
and the effect of reduced launchers on increasing instability due to 
reduced targets; (c) the effect of the bomber counting rules on 
stability; and (d) the effect of the treaty in terms of extended 
deterrence (and Russian tactical superiority). Is it still your 
recommendation that the Senate examine the answers to these questions 
and on that basis determine whether to ratify this treaty?

    Answer. Indeed it remains my strong recommendation that the Senate 
examine all these questions, as it deliberates on whether or not to 
ratify the New Start Treaty. Additional questions to be pondered, such 
as the decision to ban the Navy's nuclear land attack missile (TLAM-N), 
would focus particularly on the Russian stockpile of tactical nuclear 
weapons. It would seem to me that until we get a grasp on the latter 
issue, the administration should not consider any further reductions in 
our strategic posture.

    Question. The Congressional Commission on the Strategic Posture of 
the United States, which you cochaired, concluded that, ``[a]s the 
United States proceeds with stockpile refurbishment and modernization, 
it must ensure that the design, assessment, and engineering processes 
remain sufficiently intellectually competitive to result in a stockpile 
of weapons that meet the highest standards of safety, security, and 
reliability.'' And you also noted in your recent testimony, ``[a]gain, 
I repeat that the Russians have a live production base. They turn over 
their inventory of nuclear weapons every 10 years. We do not.'' As you 
know, section 1251 of the FY 2010 NDAA requires the President to 
provide a 10-year plan for the modernization of the U.S. nuclear 
deterrent when the administration submits the START follow-on treaty to 
the Senate.

  <bullet> How important do you consider it that the Senate ensures a 
        robust plan with serious prospects for its support over the 
        full 10 years, prior to deciding whether or not to consent to 
        the ratification of the START follow-on treaty?
  <bullet> If the administration's 1251 plan is not robust and is not 
        accompanied by a clear commitment to fund it over the life of 
        the treaty, should Senators take that into account when 
        deciding whether to support the treaty?

    I believe that it is immensely important for the Senate to ensure, 
what the administration has stated as its intent; i.e., that there be a 
robust plan with a continuation of its support over the full 10 years, 
before it proceeds to ratify this START follow-on treaty. Included in 
this is a clear, continuous, and successful effort to prod the 
Appropriations Committee of the House to provide the funding, which it 
has been reluctant to do over recent years.
    I reiterate that the administration will have made a commitment 
with its 1251 plan. It would be obligatory for the administration to 
see to it that it is carried out, and it is certainly appropriate for 
Senators to take that into account, when deciding whether or not to 
support the treaty.

    Question. Obviously this is a bilateral treaty between the United 
States and Russia, however, the United States has numerous security 
commitments with other nations, both bilaterally as well as through the 
North Atlantic Treaty and other agreements. In the broader security 
context, do you believe this treaty helps or hinders America's ability 
to provide deterrence and guarantee the security of our allies?

    Answer. The treaty is intended to generate diplomatic support and 
to indicate that the United States is fulfilling its obligation to 
reduce its nuclear forces under the NPT. It may be successful in terms 
of generating such diplomatic support. However, for those countries 
which may feel themselves subject to pressures from major powers, the 
reduction in U.S. forces under the treaty, to some extent unilateral, 
will not help to build confidence in U.S. deterrence. This is 
particularly true for our allies in Central Europe who have been 
subject to at least hints of military pressure from Russia--as well as 
to many observers in Japan.

    Question. In your testimony in 1991, you referenced the 
``limitations of arms control.'' Can you describe for us what you mean 
by limitations? Are we quickly reaching these limitations?

    Answer. To some people arms control is a panacea, if not a 
religion. Arms control cannot transform relationships of antagonism. 
Arms control only can work when both sides recognize that by using 
constraints, on either the production or deployment of weapons, they 
can enhance strategic stability and their own security. Maintaining 
overall strategic stability is always required. Those who think that 
arms control should be focused primarily or solely on reducing the 
number of weapons can endanger strategic stability. As indicated in 
response to a previous question, the U.S. failure over many years to 
come to grips with the issue of tactical nuclear weapons (which is 
asymmetrically advantageous to the Russians) suggests that we have 
reached the limits available at this time.

    Question. Drs. Perry and Schlesinger, your Commission stated that 
the laboratories and military should be free to look at the full 
``spectrum of options'' (i.e., refurbishment, reuse, and replacement) 
on a case-by-case basis as it looks to ensure the safety, security, and 
reliability of its current stockpile into the future. Specifically, 
your report mentioned modernization programs range from simple life 
extension through component redesign and replacement up to and 
including full redesign, whichever NNSA thinks makes the greatest 
technical and strategic sense.'' However, the recently released NPR 
states that ``the United States will give strong preference to options 
for refurbishment or reuse. Last week, before the Senate Armed Services 
Committee, the Commander of U.S. Strategic Command, General Chilton, 
stated: ``We should not constrain our engineers and scientists in 
developing options on what it will take to achieve the objectives of 
the Stockpile Management Program, and let them bring forward their best 
recommendations as to what is the best way forward.'' Do you agree with 
General Chilton? Do you think the NPR should be clarified to ensure, as 
General Chilton suggested, ``we should not constrain our engineers and 
scientists''?

    Answer. I happen to agree with General Chilton that we should not 
constrain our engineers and scientists. However, we have happily 
reached a national consensus that we should proceed with refurbishment 
and life extension programs. The Commission did recommend that weapons 
be looked at on a case-by-case basis, including replacement. I would 
prefer that that be the national policy. One fears that the bias 
against replacement would have a chilling effect on laboratory 
scientists and sustaining their intellectual capacity for weapons 
development.
    However, the NPR is what it is--and is not likely to be modified. 
The NPR does reveal the national consensus. We should proceed with 
refurbishment; that is a major step forward compared with where we have 
been. Also, there is an option in the NPR that if replacement is 
necessary it could conceivably proceed with the approval of the 
President and the Congress.


                          THE NEW START TREATY

                              ----------                              


                         TUESDAY, MAY 18, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Boxer, Cardin, 
Casey, Shaheen, Kaufman, Gillibrand, Lugar, Corker, Isakson, 
Risch, DeMint, Barrasso, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Thank you all 
for coming today.
    This is a terrific lineup for any hearing, but obviously 
particularly for this hearing on the START Treaty--our top 
diplomat, our top defense official, and our top military 
official. It's a lineup that underscores the Obama 
administration's commitment not just to the ratification of New 
START, but to having an open and honest, thorough debate that 
moves beyond partisanship and sound bites.
    The administration's commitment is well placed, because at 
stake is the future of over 90 percent of the world's nuclear 
weapons and our credibility in the eyes of more than 180 states 
that are party to the Nuclear Non-Proliferation Treaty.
    As the panel knows, I believe--and I think Senator Lugar 
shares this--that the New START agreement will make America 
safer, because the day that this treaty enters into force, the 
United States will strengthen its fight against nuclear 
terrorism and nuclear proliferation, gain a fuller 
understanding of Russia's nuclear forces, and revitalize our 
relations with Moscow.
    What's more, I have no doubt that the administration's plan 
to maintain and modernize our nuclear weapons infrastructure 
demonstrates a firm commitment to keeping our nuclear deterrent 
safe and effective for as long as is needed.
    This committee will continue to give the New START Treaty 
the full and careful consideration that it deserves. We have 
already heard from Secretaries Perry and Schlesinger. And in 
the coming days, we will hear from Secretaries Baker and 
Kissinger, as well. When our review is complete, I'm confident 
that we can reach a strong bipartisan consensus on advice and 
consent to ratification, just as we did on START I and the 
Moscow Treaty.
    I believe the case for the treaty is powerful. Most 
immediately, New START significantly reduces the number of 
warheads, missiles, and launchers that the United States and 
Russia can deploy, eliminating surplus cold-war armaments as we 
turn to face the threats of the 21st century.
    It eliminates those weapons in a transparent manner. The 
original START Treaty had verification mechanisms that enabled 
us to see what the Russians were doing with their missiles and 
bombers. But that treaty expired on December 5 of last year. 
Since then, we have, daily, been losing visibility into 
Russia's nuclear activities. The New START Treaty restores that 
visibility, providing valuable information about Russian 
weapons and allowing us to inspect Russian military facilities.
    By verifiably reducing the number of United States and 
Russian weapons, we're strengthening the stability and 
predictability of our nuclear relationship. More than that, we 
are strengthening our diplomatic relationship, making it more 
likely that we can secure Moscow's cooperation on key 
priorities, like stopping Iran's nuclear program.
    But, the implications of this treaty extend far beyond 
United States-Russian relations. As we hold this hearing, 
diplomats from dozens of nations are meeting in New York to 
review implementation of the Nuclear Non-Proliferation Treaty, 
a crucial barrier against the spread of nuclear weapons to 
rogue states and terrorists.
    Today, far more than in recent years, those nations are 
rallying behind the United States and its efforts to lessen the 
nuclear threat. New START has already helped us to isolate Iran 
and deflect its efforts to cast the United States as the threat 
to the NPT.
    For all that it accomplishes, this treaty is only the first 
step in a more far-reaching effort. In announcing the 
negotiation of New START, Presidents Obama and Medvedev said 
that they were trying to move beyond cold war mentalities. By 
giving its advice and consent to ratification, the Senate will 
speed up that evolution and lay the groundwork for further arms 
control efforts.
    Likewise, the original START Treaty provided a foundation 
for the Nunn-Lugar program, a signature effort led by our 
friend Dick Lugar, which has dismantled and secured strategic 
nuclear weapons in the former Soviet Union. New START builds on 
that foundation so that we may continue to cooperatively secure 
nuclear materiels in Russia and beyond.
    If we do not approve New START, there will be serious 
consequences for America's vital nonproliferation efforts. As 
James Schlesinger testified to this committee, ``For the United 
States at this juncture to fail to ratify the treaty in the 
course of the Senate's deliberation would have a detrimental 
effect on our ability to influence others with regard to, 
particularly, the nonproliferation issue.''
    We all understand that questions have been raised about New 
START. And it is this committee's responsibility to give those 
concerns a fair hearing. We will.
    Some have alleged that it will constrain our missile 
defense plan, which it will not. In fact, it allows us to 
proceed with all of our planned testing and deployments.
    Some have charged that it will narrow our conventional 
strike options, which it will not. We will still be able to 
deploy conventional warheads to promptly target enemy sites 
around the globe.
    Others have argued that we cannot eliminate surplus 
weapons, because our nuclear infrastructure is aging. But, the 
administration's plan to spend $80 billion to improve that 
infrastructure should lay those questions properly to rest.
    To explain the contours of this treaty, we are fortunate to 
have three very distinguished witnesses with us. As Secretary 
of State, Hillary Clinton has worked tirelessly to leverage 
America's progress on strategic arms control in our fight 
against nuclear proliferation and nuclear terrorism. Secretary 
of Defense Robert Gates has served Presidents of both parties 
with great distinction in a remarkable range of roles. He is 
one of our Nation's most respected voices on national security. 
ADM Mike Mullen, the Chairman of the Joint Chiefs of Staff, is 
providing farsighted leadership to our military at a time of 
great challenge and transition, as we fight two wars and face 
the diffused threats of the post-9/11 world.
    Both Admiral Mullen and Secretary Gates were originally 
appointed to their current positions by the last administration 
and their support for New START is a sign that the treaty is 
consistent with our long tradition of bipartisanship on 
strategic arms control.
    So, we thank you all for being here today. We look forward 
to your testimony and the opportunity to discuss this important 
treaty.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I join you in welcoming Secretary Clinton, Secretary Gates, 
and Admiral Mullen to the Foreign Relations Committee once 
again.
    We are very pleased that our national security leadership 
is with us to present the New START Treaty and to answer the 
questions of Senators.
    Our witnesses have been deeply involved in the negotiation 
of the New START Treaty, as well as the formation of the 
broader context of nuclear weapons policy. Secretary Clinton 
undertook many discussions on the treaty with her counterpart, 
Foreign Minister Lavrov. Secretary Gates has a long association 
with this treaty, going back to the meetings he attended in 
Moscow in 2008 with Secretary of State Rice. Admiral Mullen 
undertook several important meetings on the treaty and related 
issues with General Makarov, the Russian chief of the general 
staff, as well as other Russian officials. Consequently, each 
of our leaders today comes to the treaty with unique 
experiences that can inform Senate consideration of the pact. 
Their personal involvement and commitment to this process 
underscores the consensus within the administration and the 
military leadership of our country that the New START Treaty 
will benefit United States national security.
    As the Foreign Relations Committee and the Senate begins to 
examine the New START Treaty in greater detail, I would urge 
the three of you, as our witnesses today, to devote personal 
energy to accelerating the timetable for producing the National 
Intelligence Estimate and a formal verification assessment 
related to the treaty.
    The President has declared the New START Treaty to be a top 
legislative objective, has called for Senate approval this 
year. Failing to deliver these reviews related to the START 
Treaty in expedited fashion would diminish perceptions of the 
priority of the treaty and complicate the Senate debate 
timetable.
    On April 29, our committee heard from former Secretaries of 
Defense William Perry and James Schlesinger, who voiced their 
support for ratifying the treaty.
    Secretary Schlesinger stated, ``I think that it is 
obligatory for the United States to ratify.'' He continued, 
``Any treaty is going to have limitations, questionable areas. 
There are some in this treaty. We need to watch them for the 
future. But, that does not mean that this it should be 
rejected.''
    Now, Secretary Perry underscored the importance of treaty 
ratification to broader U.S. arms-control objectives, 
asserting, ``If we fail to ratify this treaty, the United 
States will have forfeited any right to provide leadership in 
this field throughout the world.''
    Secretary Schlesinger concurred, saying, ``For the United 
States at this juncture to fail to ratify the treaty in the due 
course of the Senate deliberation would have a detrimental 
effect on our ability to influence others with regard to, 
particularly, the nonproliferation issues.''
    In my view, even as we carefully examine individual 
provisions of the treaty, the United States choice to 
deliberately forgo a strategic nuclear arms control regime with 
Russia would be an extremely precarious strategy. Distancing 
ourselves from nuclear engagement with Russia would greatly 
reduce our knowledge of
what is happening in Russia, hinder our ability to consult with 
Moscow in a timely manner on nuclear and other national 
security issues, further strain our own defense resources, 
weaken our nonproliferation diplomacy worldwide, and 
potentially heighten arms competition.
    During the post-cold-war era, the United States security 
has been helped immeasurably by the existence of the START 
Treaty and related arms control endeavors.
    As an author of the Nunn-Lugar program, I've traveled to 
the former Soviet Union on numerous occasions to encourage and 
to witness the safeguarding and destruction of weapons covered 
by START and other initiatives. The destruction of thousands of 
weapons is a monumental achievement for our countries. But, the 
process surrounding this joint effort is as important as the 
numbers of weapons eliminated.
    The United States-Russian relationship has been through 
numerous highs and lows in the post-cold-war era. Throughout 
this period, START inspections and consultations, and the 
corresponding threat reduction activities of the Nunn-Lugar 
program, have been a constant that have served to reduce 
miscalculations and, finally, to build respect.
    This has not prevented highly contentious disagreements 
with Moscow, but it has meant that we have not had to wonder 
about the makeup and the disposition of Russian nuclear forces 
during periods of tension.
    It's also reduced, though not eliminated, the proliferation 
threat posed by the nuclear arsenal of the former Soviet Union.
    In my judgment, the question before us is not whether we 
should have a strategic nuclear arms agreement with Russia, 
but, rather, whether the New START Treaty's provisions meet our 
objectives, and how they'll be implemented in the context of 
our broader national security strategy.
    Arms control is not a static enterprise governed solely by 
words on a treaty document. The success or failure of a treaty 
also depends on the determination to which it is verified and 
enforced. It depends on the rationality of the defense programs 
backing up the treaty. And it depends on the international 
atmosphere in which it contributes.
    For these reasons, Senators are interested in numerous 
questions peripheral to the treaty, including our plans for 
warhead modernization and missile defense. We are eager to hear 
the administration's perspectives on these elements of our 
defense policy, as well as the witnesses' views on the New 
START Treaty and our relationship with Russia.
    I appreciate that our top national security leadership is 
personally invested in the Senate ratification process. And I 
look forward to working with you and members of this committee 
to achieve a timely treaty review that will fully inform Senate 
consideration.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Madam Secretary and Mr. Secretary and Admiral Mullen, as I 
ask for your testimony, I would like to ask you each--if each 
of you wants to, but certainly, at least one of you--to address 
a question that is much in the news this morning. The deal 
brokered by Brazil and Turkey with Iran is a deal that, at 
first blush, one might interpret as a swap of the 3-percent 
low-enriched uranium for the 20-percent medical-isotope 
uranium. But, as we know, during the course of the months since 
that original deal was put on the table, Iran has gone from 
about 1,800 kilograms to 2,300 kilograms. And so, it is not the 
same deal. And it is our understanding that the potential for a 
breakout to one nuclear weapon would exist during the time of 
this swap, absent further ingredients of a deal; i.e., the IAEA 
oversight, the answering of questions, an agreement not to 
enrich to 20 percent, et cetera.
    So, we would ask you if you might, at the top of your 
testimony, address the question of the administration's 
attitude toward this at this point, and whether or not it's 
your understanding that it is indeed a swap in exchange for not 
going up to 20 percent enrichment, or that would have to be a 
demand.
    So, Madam Secretary, we recognize you first, and then 
Secretary Gates and Admiral Mullen.

    STATEMENT OF HON. HILLARY CLINTON, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Well, Chairman Kerry and Senator Lugar 
and members of the committee, thank you for calling several 
hearings on the New START Treaty, and for this invitation to 
appear before you. We deeply appreciate your commitment to this 
critical issue. And I think both the chairman and the ranking 
member's opening statements made very clear what is at stake 
and how we must proceed in the consideration of this treaty in 
expeditious manner.
    It's a pleasure to testify along with Secretary Gates and 
Admiral Mullen, because we share a strong belief that the New 
START Treaty will make our country more secure.
    This treaty also reflects our growing cooperation with 
Russia on matters of mutual interest, and it will aid us in 
advancing our broader nonproliferation agenda. To that end, we 
have been working closely with our P5+1 partners for several 
weeks on the draft of a new sanctions resolution on Iran. And 
today, I am pleased to announce to this committee, we have 
reached agreement on a strong draft, with the cooperation of 
both Russia and China. We plan to circulate that draft 
resolution to the entire Security Council today.
    And let me say, Mr. Chairman, that I think this 
announcement is as convincing an answer to the efforts 
undertaken in Tehran, over the last few days, as any we could 
provide.
    There are a number of unanswered questions regarding the 
announcement coming from Tehran. And although we acknowledge 
the sincere efforts of both Turkey and Brazil to find a 
solution regarding Iran's standoff with the international 
community over its nuclear program, the P5+1, which consists, 
of course, of Russia, China, the United States, the United 
Kingdom, France, and Germany, along with the High 
Representative of the EU, are proceeding to rally the 
international community on behalf of a strong sanctions 
resolution that will, in our view, send an unmistakable message 
about what is expected from Iran.
    We can certainly go into more detail about that during the 
Q&A, but let me turn to the matter at hand, because I think, as 
convincingly as I can make the case for the many reasons why 
this New START Treaty is in the interests of the national 
security of the United States of America, the relationship with 
Russia is a key part of that kind of security. And as Senator 
Lugar said in his opening remarks, during all the ups and 
downs, during the heights and the depths of the cold war, one 
constant was our continuing efforts to work toward the 
elimination of, and the curtailment of, strategic arms in a way 
that built confidence and avoided miscalculation.
    Now, some may argue that we don't need the New START 
Treaty, but the choice before us is between this treaty and no 
treaty governing our nuclear security relationship with Russia; 
between this treaty and no agreed verification mechanisms on 
Russia's strategic nuclear forces; between this treaty and no 
legal obligation for Russia to maintain its strategic nuclear 
forces below an agreed level.
    And as Secretary Gates has pointed out, every previous 
President who faced this choice has found that the United 
States is better off with a treaty than without one. And the 
United States Senate has always agreed. The 2002 Moscow Treaty 
was approved by a vote of 95 to nothing. The 1991 START Treaty 
was approved by 93 to 6.
    More than 2 years ago, President Bush began the process 
that has led to the New START Treaty that we are discussing 
today. Now, it, too, has already received bipartisan support in 
testimony before this committee. And as the chairman and the 
ranking member acknowledged, former Secretary James 
Schlesinger, Secretary of Defense for Presidents Nixon and 
Ford, Secretary of Energy for President Carter, declared that 
it is obligatory for the United States to ratify it.
    Today I'd like to discuss what the New START Treaty is and 
what it isn't. It is a treaty that, if ratified, will provide 
stability, transparency, and predictability for the two 
countries with more than 90 percent of the world's nuclear 
weapons. It is a treaty that will reduce the permissible number 
of Russian and United States deployed strategic warheads to 
1,550. This is a level we have not reached since the 1950s.
    In addition, each country will be limited to 700 deployed 
strategic delivery vehicles and 800 deployed and nondeployed 
strategic missile launchers and heavy bombers.
    These targets will help the United States and Russia bring 
our deployed strategic arsenals, which were sized for the cold 
war, to levels that are appropriate for today's threats.
    This is a treaty that will help us track remaining weapons, 
with an extensive verification regime. This regime draws upon 
our experience over the last 15 years in implementing the 
original START Treaty, which expired in December.
    The verification measures reflect today's realities, 
including the fewer number of facilities in Russia, compared 
with the former Soviet Union. And for the first time ever, we 
will be monitoring the actual numbers of warheads on deployed 
strategic missiles.
    Moreover, by bringing the New START Treaty into force, we 
will strengthen our national security more broadly, including 
by creating greater leverage to tackle a core national security 
challenge: nuclear proliferation.
    Now, I am not suggesting that this treaty alone will 
convince Iran or North Korea to change their behavior. But, it 
does demonstrate our leadership and strengthens our hand as we 
seek to hold these and other governments accountable, whether 
that means further isolating Iran and enforcing the rules 
against violators or convincing other countries to get a better 
handle on their own nuclear materiels. And it conveys to other 
nations that we are committed to real reductions, and to 
holding up our end of the bargain under the Non-Proliferation 
Treaty.
    In my discussions with many foreign leaders, including 
earlier this month in New York at the beginning of the Non-
Proliferation Treaty Review Conference, I have already seen how 
this New START Treaty, and the fact that the United States and 
Russia could agree, has made it more difficult for other 
countries to shift the conversation back to the United States. 
We are seeing an increasing willingness both to be held 
accountable and to hold others accountable.
    A ratified New START Treaty would also continue our 
progress toward broader United States-Russia cooperation. We 
believe this is critical to other foreign policy priorities, 
including dealing with Iran's nuclear program, cooperating on 
Afghanistan, and pursuing trade and investment.
    Already, the negotiations over this treaty have advanced 
our efforts to reset the United States-Russian relationship. 
There is renewed vigor in our discussion, on every level, 
including those between our Presidents, our military leaders, 
and between me and my counterpart, Foreign Minister Lavrov.
    Now, our approach to this relationship is pragmatic and 
clear-eyed. And our efforts, including this treaty, are 
producing tangible benefits for U.S. national security.
    At the same time, we are deepening and broadening our 
partnerships with allies. In my recent meetings in Tallinn, 
Estonia, with our other NATO allies, they expressed an 
overwhelmingly positive and supportive view of the New START 
Treaty.
    Now, there are also things that this new treaty will not 
do. As both Secretary Gates and Admiral Mullen will discuss 
more fully, the New START Treaty does not compromise the 
nuclear force levels we need to protect ourselves and our 
allies. The treaty does not infringe upon the flexibility we 
need to maintain our forces, including the bombers, submarines, 
and missiles, in a way that best serve our national security 
interests. The treaty does not constrain our plans for missile 
defense efforts.
    Those of you who worked with me in the Senate know I take a 
backseat to no one in my strong support of missile defense. So, 
I want to this point very clearly. Nothing in the New START 
Treaty constrains our missile defense efforts.
    Russia has issued a unilateral statement on missile 
defense, expressing its views. We have not agreed to this view, 
and we are not bound by this unilateral statement. In fact, 
we've issued our own unilateral statement, making it clear that 
the United States intends to continue improving and deploying 
our missile defense systems, and nothing in this treaty 
prevents us from doing so.
    The treaty's preamble does include language acknowledging 
the relationship between strategic offensive and defensive 
forces. But, this is simply a statement of fact. It does not 
constrain our missile defense programs in any way. In fact, a 
similar provision was part of the original START Treaty, and 
did not prevent us from developing our missile defenses.
    The treaty does contain language prohibiting the conversion 
or use of offensive missile launchers for missile defense 
interceptors, and vice versa. But, we never planned to do that 
anyway. As General O'Reilly, our Missile Defense Director has 
said, it is actually cheaper to build smaller, tailormade 
missile defense silos than to convert offensive launchers. And 
the treaty does not restrict us from building new missile 
defense launchers, 14 of which we are currently constructing in 
Alaska.
    This administration has requested $9.9 billion for missile 
defense in FY 2011, almost $700 million more than Congress 
provided in FY 2010. This request reflects our commitment to 
missile defense and our conviction that we have done nothing, 
and there is no interpretation to the contrary, that in any way 
undermines that commitment.
    Finally, the New START Treaty does not restrict our ability 
to modernize our nuclear weapons complex to sustain a safe, 
secure, and effective deterrent. This administration has called 
for a 10-percent increase in the FY 2011 budget for overall 
weapons and infrastructure activities, and a 25-percent 
increase in direct stockpile work. This was not in previous 
budgets. And during the next 10 years, this administration 
proposes investing $80 billion into our nuclear weapons 
complex.
    So, let's take a step back and put the New START Treaty 
into a larger context. This treaty is only one part of our 
country's broader efforts to reduce the threat posed by the 
deadliest weapons the world has ever known. And we owe special 
gratitude to Senator Lugar for his leadership and commitment 
through all the years on this issue.
    This administration is facing, head on, the problems of 
nuclear proliferation and terrorism. We have several 
coordinated efforts, including the Nuclear Posture Review, the 
recently concluded Nuclear Security Summit, and the ongoing 
Non-Proliferation Treaty Review Conference.
    While a ratified New START Treaty stands on its own terms, 
in the reflection of the benefits of--in national security for 
our country, it is also a part of our broader efforts.
    So, Mr. Chairman, Senator Lugar, members of this committee, 
thank you for having us here, and for all of your past and 
future attention to this New START Treaty. We stand ready to 
work with you, as you undertake your constitutional 
responsibilities, and to answer all your questions today and in 
the coming weeks.
    And we are confident that, at the end of this process, you 
will come to the conclusion that so many of your predecessors 
have shared over so many years, on both sides of the aisle, 
that this treaty makes our country more secure and merits the 
Senate's advice and consent to ratification.
    [The prepared statement of Secretary Clinton follows:]

   Prepared Statement of Secretary of State Hillary Rodham Clinton, 
                  Department of State, Washington, DC

    Chairman Kerry, Senator Lugar, and members of the committee, thank 
you for calling several hearings on the new START treaty and for the 
invitation to appear before you. I appreciate your commitment to this 
critical issue.
    It is a pleasure to testify with Secretary Gates and Admiral 
Mullen. We share a strong belief that the New START Treaty will make 
our country more secure. We urge the Senate to approve it.
    Some argue that we don't need the New START Treaty. But the choice 
before us is between this treaty and no treaty governing our nuclear 
security relationship with Russia; between this treaty and no agreed 
verification mechanisms on Russia's strategic nuclear forces; between 
this treaty and no legal obligation for Russia to maintain its 
strategic nuclear forces below an agreed level.
    As Secretary Gates has pointed out, every previous President who 
faced this choice has found that the United States is better off with a 
treaty than without one, and the U.S. Senate has always agreed. The 
2002 Moscow Treaty was approved by a vote of 95 to 0. The 1991 START 
Treaty--93 to 6.
    More than 2 years ago, President Bush began the process that has 
led to the New START Treaty we are discussing today. It, too, has 
already received bipartisan support. As James Schlesinger, the 
Secretary of Defense for Presidents Nixon and Ford and Secretary of 
Energy for President Carter, declared before this committee, ``It is 
obligatory for the United States to ratify'' it.
    Today, I'd like to discuss what the New START Treaty is, and what 
it isn't.
    It is a treaty that, if ratified, will provide stability, 
transparency, and predictability for the two countries with more than 
90 percent of the world's nuclear weapons.
    It is a treaty that will reduce the permissible number of Russian 
and United States deployed strategic warheads to 1,550. This is a level 
we have not reached since the 1950s. In addition, each country will be 
limited to 700 deployed strategic delivery vehicles and 800 deployed 
and nondeployed strategic missile launchers and heavy bombers. These 
targets will help the United States and Russia bring our deployed 
strategic arsenals, which were sized for the cold war, to levels that 
are appropriate to today's threats.
    It is a treaty that will help us track remaining weapons with an 
extensive verification regime. This regime draws upon our experience 
over the last 15 years in implementing the original START Treaty, which 
expired in December. The verification measures reflect today's 
realities, including the fewer number of facilities in Russia compared 
with the former Soviet Union. And for the first time, we will be 
monitoring the actual numbers of warheads on deployed strategic 
missiles.
    Moreover, by bringing the New START Treaty into force, we will 
strengthen our national security more broadly, including by creating 
greater leverage to tackle a core national security challenge: nuclear 
proliferation.
    I'm not suggesting that this treaty alone will convince Iran or 
North Korea to change their behavior. But it demonstrates our 
leadership and strengthens our hand as we seek to hold other 
governments accountable--whether that means further isolating Iran and 
enforcing the rules against violators, or convincing other countries to 
get a better handle on their own nuclear materiels. And it conveys to 
other nations that we are committed to real reductions, and to holding 
up our end of the bargain under the Non-Proliferation Treaty. In my 
discussions with foreign leaders, including earlier this month in New 
York, I have already seen how the New START Treaty makes it difficult 
for other countries to shift the conversation to the United States.
    A ratified New START Treaty would also continue our progress toward 
broader United States-Russian cooperation, which is critical to other 
foreign policy priorities, including dealing with Iran's nuclear 
program, cooperating on Afghanistan, and pursuing increased trade and 
investment. Already, the negotiations over this treaty have advanced 
our efforts to reset the United States-Russian relationship. There is 
renewed vigor in our discussions on every level, including those 
between our Presidents, our military leaders, and with my counterpart, 
Foreign Minister Lavrov. Our approach to this relationship is pragmatic 
and clear-eyed. And our efforts--including this treaty--are producing 
tangible benefits for U.S. national security.
    At the same time, we are deepening and broadening our partnerships 
with our allies. In my recent meetings with the other NATO members, 
they expressed an overwhelmingly positive and supportive view of the 
New START Treaty.
    There are also things that this treaty will not do.
    As Secretary Gates and Admiral Mullen will discuss more fully, the 
New START Treaty does not compromise the nuclear force levels we need 
to protect ourselves and our allies.
    The treaty does not infringe upon the flexibility we need to 
maintain our forces, including bombers, submarines, and missiles, in 
the way that best serves our national security interests.
    The treaty does not constrain our missile defense efforts. Those of 
you who worked with me in the Senate know I take a back seat to no one 
in my strong support of missile defense, so I want to make this point 
very clearly. Nothing in the New START Treaty constrains our missile 
defense efforts.

   Russia has issued a unilateral statement on missile defense 
        expressing its view. We have not agreed to this view and we are 
        not bound by it. In fact, we've issued our own statement making 
        clear that the United States intends to continue improving and 
        deploying its missile defense systems. Nothing in the treaty 
        will constrain our missile defense efforts.
   The treaty's preamble does include language acknowledging the 
        relationship between strategic offensive and defensive forces. 
        But this is simply a statement of fact. It does not constrain 
        our missile defense programs in any way. In fact, a similar 
        provision was part of the original START Treaty and did not 
        prevent us from developing our missile defenses.
   The treaty does contain language prohibiting the conversion or use 
        of offensive missile launchers for missile defense interceptors 
        and vice versa. But as General O'Reilly, our Missile Defense 
        Director, has said, it is actually cheaper to build smaller, 
        tailor-made missile defense silos than to convert offensive 
        launchers. And the treaty does not restrict us from building 
        new missile defense launchers, 14 of which we're currently 
        constructing in Alaska.

    This administration has requested $9.9 billion for missile defense 
in FY 2011, almost $700 million more than Congress provided in FY 2010. 
This request reflects our commitment to missile defense.
    Finally, the New START Treaty does not restrict our ability to 
modernize our nuclear weapons complex to sustain a safe, secure, and 
effective deterrent. This administration has called for a 10-percent 
increase in FY 2011 for overall weapons and infrastructure activities, 
and a 25-percent increase in direct stockpile work. During the next 10 
years, this administration proposes investing $80 billion into our 
nuclear weapons complex.
    Let's take a step back and put the New START Treaty into a larger 
context. This treaty is only one part of our country's broader effort 
to reduce the threat posed by the deadliest weapons the world has ever 
known. And we owe special gratitude to Senator Lugar for his leadership 
and commitment on this issue.
    This administration is facing head on the problems of nuclear 
proliferation and terrorism. We have several coordinated efforts, 
including our new Nuclear Posture Review, the recently concluded 
Nuclear Security Summit, and the ongoing Non-Proliferation Treaty 
Review Conference. While a ratified New START Treaty stands on its own 
in terms of national security benefits for our country, it is also part 
of our broader efforts.
    Mr. Chairman, Senator Lugar, and members of the committee, thank 
you again for having us here today and for all your past and future 
attention to the New START Treaty. We stand ready to work with you as 
you undertake your constitutional responsibilities, and to answer all 
your questions today and in the coming weeks.
    We are confident that at the end of this process, you will come to 
the same conclusion that we and many others have reached--that the New 
START Treaty makes our country more secure and merits the Senate's 
advice and consent to ratification.
    Thank you.

    The Chairman. Thank you very much, Madam Secretary. We 
appreciate it.
    May I say, also, that Secretary Gottemoeller and Ellen 
Tauscher and the whole team did a terrific job of keeping the 
committee appraised and briefed. And we had a number of 
sessions and even colleagues who went to Geneva. So, we thank 
you for the cooperation. And that is very, very helpful in 
getting us here.
    Secretary Gates.

     STATEMENT OF HON. ROBERT GATES, SECRETARY OF DEFENSE, 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Secretary Gates. Mr. Chairman, Senator Lugar, members of 
the committee, thank you for the opportunity to speak today 
regarding the agreement between the United States and Russia on 
the New Strategic Arms Reduction Treaty.
    This treaty reduces the strategic nuclear forces of our two 
nations in a manner that strengthens the strategic stability of 
our relationship and protects the security of the American 
people and our allies.
    America's nuclear arsenal remains a vital pillar of our 
national security, deterring potential adversaries and 
reassuring allies and partners. As such, the first step of the 
year-long Nuclear Posture Review was an extensive analysis 
which, among other things, determined how many nuclear delivery 
vehicles and deployed warheads were needed. This, in turn, 
provided the basis for our negotiations of START.
    The results of those studies give me confidence that the 
Department of Defense will be able to maintain a strong and 
effective nuclear deterrent while modernizing our weapons to 
ensure that they are safe, secure, and reliable, all within the 
limits of the new treaty.
    The U.S. strategic nuclear deterrent will continue to be 
based on the triad of delivery systems--intercontinental 
ballistic missiles, submarine-launched ballistic missiles, and 
nuclear-capable heavy bombers--within the boundaries negotiated 
in the New START Treaty. Those are an upper boundary of 1,550 
deployed warheads, up to 700 deployed ICBMs, deployed SLBMs, 
and nuclear-capable heavy bombers, and up to 800 deployed and 
nondeployed ICBM launchers, SLBM launchers, and heavy bombers 
equipped for nuclear armaments.
    Under this treaty, we retain the power to determine the 
composition of our force structure, allowing the United States 
complete flexibility to deploy, maintain, and modernize our 
strategic nuclear forces in a manner that best protects our 
national security interests.
    The Defense Department has established a baseline force 
structure to guide our planning, one that does not require 
changes to current or planned basing arrangements. The 
Department will retain 240 deployed submarine-launched 
ballistic missiles, distributed among 14 submarines, each of 
which will have 20 launch tubes. This is the most survivable 
leg of the triad, and reducing the number of missiles carried 
on each submarine, from 24 to 20, will facilitate Navy planning 
for the Ohio-class submarine replacement.
    Recognizing the flexibility of the bomber leg of the triad, 
we will retain up to 60 deployed heavy bombers, including all 
18 operational B-2s. At the same time, we will--we have to 
consider the Air Force's planning for a long-range strike 
replacement, and plan to convert a number of B-52Hs to a 
conventional-only role.
    Finally, the United States will retain up to 420 deployed 
single warhead Minuteman-3 ICBMs at our current three missile 
bases.
    Let me also address some of the things that the New START 
Treaty will not affect, echoing Secretary Clinton.
    First, the treaty will not constrain the United States from 
deploying the most effective missile defenses possible, nor 
impose additional costs or barriers on those defenses. And I--
speaking of stories in the news this morning and the last 
couple of days, I'll be happy to discuss the article in the New 
York Times this morning about the SM-3 missile.
    As the administration's Ballistic Missile Defense Review 
and budget plans make clear, the United States will continue to 
improve our capability to defend ourselves, our deployed 
forces, and our allies and partners, against ballistic missile 
threats. We made this clear to the Russians in a unilateral 
statement made in connection with the treaty.
    Furthermore, the New START does not restrict our ability to 
develop and deploy prompt global strike--prompt conventional 
strike capabilities that could attack targets anywhere on the 
globe in an hour or less.
    The treaty's limit of 700 deployed delivery vehicles, 
combined with the associated ceiling of 1,550 deployed 
warheads, accommodates the limited number of conventional 
warheads we may need for this capability. We are also currently 
examining potential future long-range weapon systems for prompt 
global strike that would not be limited by the treaty.
    In my view, a key contribution of this treaty is its 
provision for a strong verification regime. While the 
intelligence community will provide a detailed classified 
assessment, I would like to emphasize some of the key elements 
of this regime, which provides a firm basis for monitoring 
Russia's compliance with its treaty obligations while also 
providing important insights into the size and the composition 
of Russian strategic forces.
    The treaty allows each party to conduct up to 18 onsite 
inspections each year at operating bases for ICBMs, SSBNs, and 
nuclear-capable heavy bombers, as well as storage facilities, 
test ranges, and conversion and elimination facilities.
    The agreement establishes a database, which will be 
initially populated 45 days after the treaty enters into force, 
and updated every 6 months thereafter, that will help provide 
the United States with a rolling overall picture of Russia's 
strategic offensive forces. This picture is further 
supplemented by the large number of notifications required, 
which will track the movement and changes in status of the 
strategic offensive arms covered by the treaty.
    Unique identifiers, for the first time, will be assigned to 
each ICBM, SLBM, and nuclear-capable heavy bomber, allowing us 
to track the disposition and patterns of operation of 
accountable systems throughout their life cycles.
    The treaty provides for noninterference with national 
technical means of verification, such as reconnaissance 
satellites, ground stations, and ships. This provides us with 
an independent method of gathering information that can assist 
in validating data declarations.
    While telemetry is not needed to verify the provisions of 
this treaty, the terms, nonetheless, call for the exchange of 
telemetry on up to five launches per year per side.
    I am confident that the New START Treaty will in no way 
compromise America's nuclear deterrent. In many ways, the 
primary threat to the effectiveness and credibility of the 
American deterrent is one that we control ourselves, and that 
is failing to invest adequately in our Nation's nuclear weapons 
infrastructure, a point I have made a number of times in recent 
years. Maintaining an adequate stockpile of safe, secure, and 
reliable nuclear warheads requires a reinvigoration of our 
nuclear weapons complex. That is, our infrastructure and our 
science, technology, and engineering base.
    To this end, the Department of Defense is transferring $4.6 
billion to the Department of Energy's National Nuclear Security 
Administration through fiscal year 2015. This transfer will 
assist in funding critical nuclear weapons life-extension 
programs and efforts to modernize the nuclear weapons 
infrastructure.
    The initial applications of this funding, along with an 
additional $1.1 billion being transferred for naval nuclear 
reactors, are reflected in the Defense and Energy Departments' 
FY11 budget request, which I urge the Congress to approve.
    These investments in the Nuclear Posture Review strategy 
for warhead life extension represent a credible modernization 
plan to sustain the nuclear infrastructure and support our 
Nation's deterrent.
    I would close with a final observation. I first began 
working on strategic arms control with the Russians in 1970, 40 
years ago, a United States effort that led to the first 
strategic arms limitation agreement with Moscow, 2 years later. 
The key question then, and in the decades since, has always 
been the same: Is the United States better off with a strategic 
arms agreement with the Russians, or without it? The answer, 
for successive Presidents of both parties, has always been, 
``With an agreement.'' The U.S. Senate has always agreed, 
approving each treaty by lopsided bipartisan margins.
    The same answer holds true for New START. The United States 
is better off with this treaty than without it. And I am 
confident that it is the right agreement for today and for the 
future. It increases stability and predictability, allows us to 
sustain a strong nuclear triad, and preserves our flexibility 
to deploy the nuclear and nonnuclear capabilities needed for 
effective deterrence and defense.
    In light of all these factors, I urge the Senate to give 
its advice and consent to ratification on the new treaty.
    [The prepared statement of Secretary Gates follows:]

    Prepared Statement of Hon. Robert Gates, Secretary of Defense, 
                 Department of Defense, Washington, DC

    Mr. Chairman, members of the committee, thank you for the 
opportunity to speak today regarding the agreement between the United 
States and Russia on the New Strategic Arms Reduction Treaty. This 
treaty reduces the strategic nuclear forces of our two nations in a 
manner that strengthens the strategic stability of our relationship and 
protects the security of the American people and our allies.
    America's nuclear arsenal remains a vital pillar of our national 
security, deterring potential adversaries and reassuring allies and 
partners. As such, the first step of the year-long Nuclear Posture 
Review was an extensive analysis which, among other things, determined 
how many delivery vehicles and deployed warheads were needed. This in 
turn provided the basis for our negotiations. The results of those 
studies give me confidence that the Department of Defense will be able 
to maintain a strong and effective nuclear deterrent while modernizing 
our weapons to ensure they are safe, secure, and reliable, all within 
the limits of this new treaty.
    The U.S. strategic nuclear deterrent will continue to be based on 
the triad of delivery systems--intercontinental ballistic missiles 
(ICBMs), submarine-launched ballistic missiles (SLBMs), and nuclear-
capable heavy bombers--within the boundaries negotiated in the New 
START Treaty. Those are:

   An upper boundary of 1,550 deployed warheads;
   Up to 700 deployed ICBMs, deployed SLBMs, and nuclear-capable heavy 
        bombers; and
   Up to 800 deployed and nondeployed ICBM launchers, SLBM launchers, 
        and heavy bombers equipped for nuclear armaments.

    Under this treaty, we retain the power to determine the composition 
of our force structure, allowing the United States complete flexibility 
to deploy, maintain, and modernize our strategic nuclear forces in the 
manner that best protects our national security interests. The Defense 
Department has established a baseline force structure to guide our 
planning, one that does not require changes to current or planned 
basing arrangements.

   The Department will retain 240 deployed submarine-launched 
        ballistic missiles distributed among 14 submarines, each of 
        which will have 20 launch tubes. This is the most survivable 
        leg of the triad, and reducing the number of missiles carried 
        on each boomer from 24 to 20 will facilitate Navy planning for 
        the Ohio-class submarine replacement.
   Recognizing the flexibility of the bomber leg of the triad, we will 
        retain up to 60 deployed heavy bombers, including all 18 
        operational B-2s. At the same time, we have to consider the Air 
        Force's planning for a long-range strike replacement and plan 
        to convert a number of B-52Hs to a conventional-only role.

    Finally, the United States will retain up to 420 deployed single-
warhead Minuteman III ICBMs at our current three missile bases.
    Let me also address some of the things that New START treaty will 
not affect.
    First, the treaty will not constrain the United States from 
deploying the most effective missile defenses possible, nor impose 
additional costs or barriers on those defenses. As the administration's 
Ballistic Missile Defense Review and budget plans make clear, the 
United States will continue to improve our capability to defend 
ourselves, our deployed forces, and our allies and partners against 
ballistic missile threats. We made this clear to the Russians in a 
unilateral statement made in connection with the treaty.
    Furthermore, the New START does not restrict our ability to develop 
and deploy prompt conventional strike capabilities that could attack 
targets anywhere on the globe in an hour or less. The treaty's limit of 
700 deployed delivery vehicles combined with the associated ceiling of 
1,550 deployed warheads accommodates the limited number of conventional 
warheads we may need for this capability. We are also currently 
examining potential future long-range weapons systems for prompt global 
strike that would not be limited by the treaty.
    In my view, a key contribution of this treaty is its provision for 
a strong verification regime. While the intelligence community will 
provide a detailed classified assessment, I would like to emphasize 
some of the key elements of this regime, which provides a firm basis 
for monitoring Russia's compliance with its treaty obligations while 
also providing important insights into the size and composition of 
Russian strategic forces.

   The treaty allows each party to conduct up to 18 onsite inspections 
        each year at operating bases for ICBMs, SSBNs, and nuclear-
        capable heavy bombers, as well as storage facilities, test 
        ranges, and conversion and elimination facilities.
   The agreement establishes a database, which will be initially 
        populated 45 days after the treaty enters into force and 
        updated every 6 months thereafter, that will help provide the 
        United States with a ``rolling'' overall picture of Russia's 
        strategic offensive forces. This picture is further 
        supplemented by the large number of notifications required, 
        which will track the movement and changes in status of 
        strategic offensive arms covered by the treaty.
   Unique identifiers assigned to each ICBM, SLBM, and nuclear-capable 
        heavy bomber will allow us to track the disposition and 
        patterns of operation of accountable systems throughout their 
        life cycles.
   The treaty provides for noninterference with national technical 
        means of verification, such as reconnaissance satellites, 
        ground stations, and ships. This provides us with an 
        independent method of gathering information that assist in 
        validating data declarations.
   While telemetry is not needed to verify the provisions of this 
        treaty, the terms nonetheless call for the exchange of 
        telemetry on up to five launches per year per side.

    I am confident that the New START treaty will in no way compromise 
America's nuclear deterrent. In many ways, the primary threat to the 
effectiveness and credibility of the deterrent is one that we control 
ourselves, and that is failing to invest adequately in our Nation's 
nuclear weapons infrastructure--a point I have made a number of times 
in recent years. Maintaining an adequate stockpile of safe, secure, and 
reliable nuclear warheads requires a reinvigoration of our nuclear 
weapons complex--that is, our infrastructure and our science, 
technology, and engineering base.
    To this end, the Department of Defense is transferring $4.6 billion 
to the Department of Energy's National Nuclear Security Administration 
through fiscal year 2015. This transfer will assist in funding critical 
nuclear weapons life extension programs and efforts to modernize the 
nuclear weapons infrastructure. The initial applications of this 
funding, along with an additional $1.1 billion being transferred for 
naval nuclear reactors, are reflected in the Defense and Energy 
Department's FY11 budget requests, which I urge the Congress to 
approve. These investments, and the Nuclear Posture Review's strategy 
for warhead life extension, represent a credible modernization plan to 
sustain the nuclear infrastructure and support our Nation's deterrent.
    I would close with this. I first began working on strategic arms 
control with the Russians in 1970, a U.S. effort that led to the first 
Strategic Arms Limitation Agreement with Moscow 2 years later. The key 
question then and in the decades since has always been the same: Is the 
United States better off with an agreement or without it? The answer 
for each successive President has always been: ``with an agreement.'' 
The U.S. Senate has always agreed, approving each treaty by lopsided, 
bipartisan margins.
    The same answer holds true for New START: the United States is far 
better off with this treaty than without it, and I am confident that it 
is the right agreement for today and for the future. It increases 
stability and predictability, allows us to sustain a strong nuclear 
triad, and preserves our flexibility to deploy the nuclear and 
nonnuclear capabilities needed for effective deterrence and defense. In 
light of all of these factors, I urge the Senate to give its advice and 
consent to ratification of the New START Treaty.

    The Chairman. Thank you, Secretary Gates.
    Admiral Mullen.

STATEMENT OF ADM MICHAEL MULLEN, USN, CHAIRMAN, JOINT CHIEFS OF 
                     STAFF, WASHINGTON, DC

    Admiral Mullen. Mr. Chairman, Senator Lugar, distinguished 
members of the committee, I am pleased to add my voice in 
support for ratification of the New START Treaty, and to do so 
as soon as possible, as we are in our 6th month without a 
treaty with Russia.
    This treaty has the full support of your uniformed 
military. Throughout its negotiation, Secretaries Clinton and 
Gates ensure that professional military perspectives were 
thoroughly considered. During the development of the New START 
Treaty, I was personally involved, to include two face-to-face 
negotiating session and several telephone conversations with my 
counterpart, the Chief of the Russian General Staff, General 
Makarov, regarding key aspects of the treaty.
    The Joint Chiefs and I also had time to review the analytic 
work done in the Nuclear Posture Review regarding the shape of 
future U.S. strategic nuclear forces. Its recommendations were 
transmitted as guidance to the negotiating team in Geneva 
regarding the three central limits on strategic systems, and 
the warheads associated with them, that are contained in the 
treaty.
    In short, the conclusion and implementation of the New 
START Treaty is the right thing for us to do, and we took the 
time to do it right.
    The Chiefs and I believe the New START Treaty achieves 
important and necessary balance between three critical items--
aims. It allows us to retain a strong and flexible American 
nuclear deterrent; it helps strengthen openness and 
transparency in our relationship with Russia; it also 
demonstrates our national commitment to reducing the worldwide 
risk of nuclear incidents resulting from the continuing 
proliferation of nuclear weapons.
    You should know that I firmly believe that the central 
limits established in this treaty, and the provision that 
allows each side the freedom to determine its own force mix, 
provides us with the necessary flexibility to field the right 
force structure to meet the Nation's needs.
    We plan to retain our triad of bombers, ballistic-missile 
submarines, and land-based intercontinental ballistic missiles 
in sufficient diversity and numbers to assure strategic 
stability between ourselves and the Russian Federation. We will 
also maintain sufficient capability to deter other nuclear 
states.
    In addition, the agreement provides for an array of 
important verification measures that are critical to both sides 
in monitoring compliance with the new treaty.
    This treaty is also a critical element in the President's 
agenda for reducing nuclear risks to the United States, our 
allies and partners, and the wider international community. Our 
recently concluded NPR acknowledges the continuing role for 
nuclear weapons in the defense of America while placing 
additional emphasis on positive steps to prevent nuclear 
terrorism and the risks from nuclear proliferation.
    In summary, this New START agreement is important in 
itself, and should also be viewed in a wider context. It makes 
meaningful reductions in the United States and Russian 
strategic nuclear arsenals while strengthening strategic 
stability and United States national security.
    Coupled with the administration's clear commitment to 
prudently invest in our aging nuclear infrastructure and a 
nuclear warhead life-extension programs, this treaty is a very 
meaningful step forward.
    I encourage the Senate to fully study the treaty. I believe 
you will see the wisdom of ratifying it. And I sit before you 
today recommending that you do so.
    Thank you, Sir.
    [The prepared statement of Admiral Mullen follows:]

 Prepared Statement of ADM Michael Mullen, USN, Chairman, Joint Chiefs 
                        of Staff, Washington, DC

    Chairman Kerry, Senator Lugar, distinguished members of the 
committee, I am pleased to add my voice in support for ratification of 
the New START Treaty.
    This treaty has the full support of your uniformed military. 
Throughout its negotiation, Secretaries Clinton and Gates ensured that 
professional military perspectives were thoroughly considered. During 
the development of the New START Treaty I was personally involved, to 
include two face-to-face negotiating sessions and three telephone 
conversations with my counterpart, the Chief of the Russian General 
Staff, General Makarov, regarding key aspects of the treaty.
    The Joint Chiefs and I also had time to review the analytic work 
done in the Nuclear Posture Review (NPR) regarding the shape of future 
U.S. strategic nuclear forces. Its recommendations were transmitted as 
guidance to the negotiating team in Geneva regarding the three central 
limits on strategic systems and the warheads associated with them that 
are contained in the treaty. In short, the conclusion and 
implementation of the New START Treaty is the right thing for us to 
do--and we took the time to do it right.
    The Chiefs and I believe the New START Treaty achieves important 
and necessary balance between three critical aims. It allows us to 
retain a strong and flexible American nuclear deterrent. It helps 
strengthen openness and transparency in our relationship with Russia. 
It also demonstrates our national commitment to reducing the worldwide 
risk of nuclear incident resulting from the continuing proliferation of 
nuclear weapons.
    You should know that I firmly believe that the central limits 
established in this treaty and the provision that allows each side the 
freedom to determine its own force mix provides us with the necessary 
flexibility to field the right future force to meet the Nation's needs. 
We plan to retain our triad of bombers, ballistic missile submarines, 
and land-based intercontinental ballistic missiles in sufficient 
diversity and numbers to assure strategic stability between ourselves 
and the Russian Federation. We will also maintain sufficient capability 
to deter other nuclear states. In addition, the agreement provides for 
an array of important verification measures that are critical to both 
sides in monitoring compliance with the new treaty.
    This treaty is also a critical element in the President's agenda 
for reducing nuclear risks to the United States, our allies and 
partners, and the wider international community. Our recently concluded 
NPR acknowledges the continuing role for nuclear weapons in the defense 
of America, while placing additional emphasis on positive steps to 
prevent nuclear terrorism and the risks from nuclear proliferation.
    In summary, this New START agreement is important in itself, and 
should also be viewed in wider context. It makes meaningful reductions 
in the United States and Russian strategic nuclear arsenals while 
strengthening strategic stability and U.S. national security. Coupled 
with the administration's clear commitment to prudently invest in our 
aging nuclear infrastructure and in nuclear warhead life-extension 
programs, this treaty is a very meaningful step forward. I encourage 
the Senate to fully study the treaty. I believe you will see the wisdom 
of ratifying it, and I sit before you today recommending that you do 
so.

    The Chairman. Thank you very much, Admiral Mullen.
    Secretary Gates, you wrote, last week, about the unanimous 
support of the Nation's military for this treaty. And, Admiral 
Mullen, you personally engaged with your counterpart, General 
Makarov, at a couple of points in the course of these 
negotiations. You've just testified, both of you, to a list, of 
the things that we gained--and I was quite impressed by the 
series of benefits that you articulated. I'd like to ask each 
of you if you'd kind of summarize for us, in a layperson's 
language for a moment, just why the military has such 
confidence that this, in fact, strengthens our national 
security and does not present any of the challenges that some 
of the critics have raised.
    Secretary Gates.
    Secretary Gates. Well, I think that, first of all, this 
treaty, like its predecessors, brings four benefits that we 
would not otherwise have.
    The first is transparency. Knowing what the Russians are 
doing, being able to track their systems, being able to count 
them, being able to observe them--for the first time, actually 
look at the warheads themselves, having the unique tagging that 
we've talked about--none of this kind of transparency would be 
possible without this treaty.
    Second, predictability. This has been an important feature 
of strategic arms agreements with Russia since the very first 
one, in 1972, to have some idea to--for both sides to know the 
limits on the other, and therefore, avoiding the need to hedge 
against the unknown, and having sufficient verification in 
place to be able to have confidence in that judgment.
    The third benefit is strategic stability. And the way this 
treaty is structured adds to that strategic stability. For 
example, as the number of warheads comes--the number of 
delivery vehicles comes down, putting just a single one of our 
warheads on an ICBM requires the Russians to use a one-for-one 
or two-for-one attack mode if they were to come after our 
ICBMs, so they would use up a significant portion of their 
strategic nuclear delivery vehicles trying to take out our 
ICBMS. All of this contributes to strategic stability.
    And finally, this treaty, for the first time, gives us 
actual access to Russian weapons and Russian facilities. We've 
had access to facilities, but not the weapons themselves 
before.
    So, I think, in each of these four areas, the treaty brings 
benefits to the United States and, frankly, enhances our 
security in ways that would not happen in the absence of such a 
treaty.
    The Chairman. Thank you, Secretary.
    Admiral.
    Admiral Mullen. Chairman, throughout the negotiations--and 
the ones I participated in certainly focused from the military 
perspective and our ability to maintain a very strong strategic 
deterrent. And it's my belief, and the belief of the Chiefs, 
including--in addition to the strategic commander, General 
Chilton--that, in fact, the treaty does that. Particularly 
important was the preservation, at this point in time, of the 
triad and the strength of that triad, which has been such a 
critical part of our arsenal, historically, and also in my 
interaction with our service chiefs, particularly the Chief of 
Staff of the Air Force and the Chief of Staff of the--or the 
Chief of Naval Operations, in order to be able to continue to 
invest and sustain the infrastructure and the people, the 
training, the kinds of things that we need to sustain this over 
time. So, the strength of that triad is--which has proven 
itself in the past--is still very much there, even though some 
of the numbers--the numbers are down.
    Second--and, to a limited degree, I can speak to this--but, 
what we typically need those weapons for--the ability to 
execute military operations, should that, at some point in 
time, absolutely have to--you know, have to occur--is that we 
are in very good shape with respect to any contingencies which 
are out there. And that was a substantial underpinning for this 
treaty, from the military perspective: Can we carry out the 
mission that the President of the United States has given us? 
And I just want to assure you that we can.
    In the negotiations with the Russians, specifically, to 
look at the wide array of initiatives, including verification, 
the size of the arsenal, what we would look to the future--and 
to reemphasize what Secretary Clinton said--we've done this in 
a way that has put us--or continues to put us in a great 
position of strength, while at the same time, in a--from my 
perspective, a better position, in terms of cooperation with 
Russia--you know, keeping our eyes wide open, but certainly 
cooperating with them in ways, which has been a strength of 
this treaty, not just this--is a strength of this treaty, but 
historically, as well.
    The Chairman. Thank you. I thought those were terrific 
summaries.
    Secretary Clinton, in the context of your efforts, with 
respect to a number of the global issues and challenges we 
face, and particularly nonproliferation, can you similarly sort 
of reduce to the nub what the implications would be of not 
ratifying this agreement?
    Secretary Clinton. Well, Mr. Chairman, we would obviously 
lose all of the benefits that both Secretary Gates and Admiral 
Mullen discussed. And although they are benefits with respect 
to this treaty between the United States and the Russia 
Federation, they have many ancillary implications for our 
larger efforts against nonproliferation.
    So, I would basically make five points: First, the intense 
efforts that we've engaged in, the last year, to reach this 
treaty, has built a level of understanding between the key 
decisionmakers in the United States and Russia that has been 
very helpful in other arenas, most notably with respect to 
Iran. I started my morning talking with Sergei Lavrov about, 
you know, finalizing the resolution and the agreement that it 
will be discussed later today.
    Second, the impact of our resetting of a relationship that 
resulted in the treaty has had a very salutary effect on many 
of our allies and our adversaries. Our allies, particularly in 
NATO, as I said, welcomed this agreement, because they have 
been, historically, on the front lines, and even our Central 
and Eastern European friends were very pleased to see this 
level of cooperation between the United States and Russia. And 
that has laid the groundwork for us to work on the strategic 
concept that will be introduced with respect to NATO's future, 
to reestablish the NATO-Russia Council, and to do some other 
confidence-building measures, after the very unfortunate events 
concerning Georgia, that build the feeling of alliance among 
our NATO members, but, again, with a very clear view that they 
expect to--for us to continue to provide their defense.
    Third, with respect to adversaries, or potential 
adversaries, the fact that the United States and Russia are 
working together is not good news. You know, they are not happy 
to see this level of cooperation. They're not happy that China 
and Russia have signed off on this resolution that we plan to 
introduce later. This is a real setback for them. And it has a 
very positive effect on our dealings with our international, 
you know, friends, about all of these other issues.
    Fourth, having gone this far to achieve the benefits that 
are in this treaty, to lose them would not only undermine our 
strategic stability, the predictability, the transparency, the 
other points that both the Secretary and the Admiral made, but 
it would severely impact our potential to lead on the important 
issue of nonproliferation. Countries would wonder, ``Well, if 
we can't get across the finish line on this treaty, can we get 
across the finish line on other matters, as well?''
    And finally, I can only speak from personal experience, in 
the many endless meetings that I go to around the world, that 
the fact that we've reached this treaty and have fulfilled our 
continuing obligations as an NPT member on the three pillars, 
which include disarmament, nonproliferation, peaceful use of 
nuclear weapons, gives us so much more credibility on the 
nonproliferation agenda.
    The Chairman. Thank you very much. Appreciate it.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. As you 
have already zeroed in on specific objections that have been 
raised, I want to mention, just again, how important it will be 
to answer all of the questions of Senators with regard to 
missile defense.
    Each one of you have categorically indicated there is no 
way--no way in which our missile defense will be inhibited in 
any way, at any time. But, that point still doesn't quite get 
through. Now, we have people worried about something in this 
treaty that's going to inhibit missile defense. So, I ask for 
your continued guidance as to how we make that point.
    The second point is that, on the stockpile stewardship, or 
the making certain that the warheads that we now have work, 
that, in the event we were called upon--by ourselves, our 
allies, in any way--we have, in fact, the background, in terms 
of our laboratories, our continuing research, the personnel--
some of whom have grown old, we need some young ones--all of 
these things, so that those things we now have, that are 
guaranteed by our treaties, and that we've verified everybody 
else in the world, in fact, are there, for their confidence, as 
well as our own.
    And I mention that because we've written letters, sometimes 
bipartisan letters, sometimes all the Republicans, others--
Secretary Gates has been a regular recipient of 
correspondence--and yet, at the same time, his response today, 
that $4.6 billion has been transferred over to try to meet 
this, is a significant commitment.
    So, I--but, I mention that once again, and will not belabor 
the point.
    Then the verification procedure; very important. Even 
Senators who are not enthusiastic about arms control treaties 
approached, I'm sure, the chairman and me last December the 
5th, said, ``What happens now? There are no American boots on 
the ground. We're out of there. What about that? We've counted 
on this for years, that we had American boots on the ground, 
that our verification worked.'' I'll make just one personal 
point about this. On the wall of my conference room, we have a 
chart in which the Department of Defense has contributed data 
each month for the last 15 years. At the start, 13,300 nuclear 
warheads on missiles aimed at the United States--13,300. And 
a--testimony that any one of those would have obliterated my 
entire city of Indianapolis, leveled it, gone, everybody dead. 
Now, that's impressive to Hoosiers. I hope it's impressive to 
the other 49 States. [Laughter.]
    And, by and large, they have supported anything that I 
could do to make certain that, one by one, those missiles 
left--or, rather, the warheads left the missiles. We've worked 
with the Russians to destroy the missiles, destroy the silos in 
which the missiles were located, every vestige of this, even 
the roots and branches and the finely planted daisies, or 
whatever else it is, in many fields in Siberia, or wherever we 
had them. It's critically important.
    Now, there may be Americans, who have not gone through the 
arms control talks, who don't realize what a nuclear--one 
nuclear weapon can do. And there were 13,300 of them. Now, 
there are still, by some counts, as many as 5,000, not all 
deployed, but we have some distance to go.
    Now, December 5 comes, no boots on the ground, no treaty, 
and some have always said, ``Well, you can't trust the 
Russians. You don't want to deal with the Russians.'' We even 
have some members who have said, ``We shouldn't knock out the 
very first of our weapons, we need every one of them. We ought 
to be building more.'' Now, I don't agree with that philosophy, 
I understand that's a possible way of going about this world.
    But, I would say that--as a counterargument--during one 
trip that I was privileged to have with Russians, they became 
especially friendly and decided that they would like for me to 
go up to a base where they had the so-called ``Typhoon 
submarines.'' Now the Typhoons were popularized by Tom Clancy 
in ``The Hunt for Red October.'' They were remarkable 
submarines that went up and down our eastern coast, whether we 
knew about it or not, for the better part of a generation. Each 
one of them had, reportedly, 200 nuclear missiles; a chip shot 
into New York, Philadelphia, any other place they wanted to 
shoot, all that time. We may not have known about it, but we do 
now. We did then. I have a picture, in the office, that 
Russians took of me standing in front of a Typhoon, which was 
the first time our intelligence had seen a Typhoon, at that 
stage.
    And yet, their agreement was that they wanted us to help 
them destroy the Typhoons. Taken 10 years to get through 3 of 
the 6. They are very complex situations. But, to leave three of 
the six still out there is unthinkable.
    So, if I become dogmatic or emotional about it, it's from 
some experience of seeing what could hit us, and the need to 
have boots on the ground, in terms of verification.
    So, we want to make sure we all know what the verification 
is and why it's at this particular level. And you've done your 
best, thus far.
    But--now, without being tedious, I want to submit more 
questions that our staff has formulated in detail, so that 
there can be as complete a record of every nuance of this, that 
we have.
    Now, finally, I would just say that our own experience with 
these treaties has been that, even after the treaties come, and 
we have implementing legislation, whether it be cooperative 
threat reduction or something of this variety, there have been 
Senators, perennially, who put all sorts of restrictions on all 
sorts of reports that were needed before any money could be 
spent. You were leveled, in the State Department or the Defense 
Department, with obligations to show 15 different things before 
a dollar could go. In fact, one year, no money at all was 
spent, with regard to disarmament in Russia, because of so many 
letters that never got written, and the appropriators took the 
money off the table.
    So, whether we're doing a treaty or not, we have arguments, 
every year, among skeptics who somehow believe that arms 
control is not exactly their cup of tea.
    I would just add that this is so important that I ask your 
indulgence in sending over more and more questions, and then 
publishing all of the results of those questions, so that 
anyone who is slightly interested in this, academically, will 
have every conceivable answer.
    And finally, it has to come to a gut reaction. Is this 
something that's good for our country? Now, you have all 
affirmed that you believe that it is. And we appreciate that 
very direct testimony today.
    And I thank you for indulging me in an essay rather than a 
set of questions, but they will be coming, in large numbers.
    Thank you.
    The Chairman. Senator, that's the kind of question, period, 
the panel really appreciates. So----
    [Laughter.]
    The Chairman [continuing]. Let me just say, from our point 
of view, we are enormously grateful to have your expertise in 
this effort, and I think the questions that you're going to 
pose are going to help the committee to put together precisely 
the kind of record that's needed here. So, I know the panel, as 
well as the committee, appreciates that approach.
    Senator Dodd.
    Senator Dodd. Well, thank you very much, Mr. Chairman.
    And let me thank our witnesses, as well, for your presence 
here today.
    And let me say that, for the chairman this has been a 
longstanding issue, and he's done a remarkable job on it. But, 
also a word about Dick Lugar, who I've had the privilege of 
serving on this committee with for 30 years. And I have a 
feeling, when the last nuclear weapon is gone--and we all hope 
that day will come in our world--in the story of how mankind 
put its common good above its baser instincts, the names of 
Dick Lugar and Sam Nunn will figure prominently in that 
history. And having had the privilege of serving with both of 
them for many years, I want to thank Dick Lugar personally, but 
also Sam Nunn, for their work. And the three of you, as well, 
for your tremendous efforts in this regard. This is very 
difficult work, and I think you've done a remarkable job 
getting it done.
    I have two quick questions for you. One, in fact, relates 
to the Nunn-Lugar proposals. I wonder if any analysis has been 
done to determine whether or not we need to update Nunn-Lugar, 
in light of this New START accord? Obviously, that has been a 
very valuable tool over the years, as Senator Lugar has just 
affirmed. And the question would be, Do we need to do something 
else regarding Nunn-Lugar, in light of this treaty?
    I don't know--Secretary Clinton or Admiral Mullen.
    Admiral Mullen. Actually, Senator, I'm not really sure. I--
it's a great question, and I think it's something we have--from 
my perspective, we should look at.
    Senator Dodd. Well, I'd ask if that could be done as part 
of the questions we have.
    Senator Dodd. And then, second--in a sense, you've answered 
this, Secretary--Madam Secretary Clinton, but I wonder if you 
might just reach a little further.
    First of all, congratulations, at least on the news we're 
hearing, about the Chinese and the Russians being supportive of 
the--of an international sanctions regime regarding Iran. 
That's extremely important news. As you know, we're in the 
midst, here, of a conference between the House and the Senate, 
on the Iran sanctions bill. In my other hat that I wear as 
chairman of the Banking Committee, on which Bob Corker serves, 
and others, we voted unanimously on an Iran sanctions bill. The 
House has done so, as well. And so, we need to proceed with 
that issue.
    But, we're very interested in seeing what happens, 
internationally. Every member of the Conference Committee has 
expressed the view that an international sanction makes a lot 
more sense than unilateral. And I think we all agree with that, 
although we're not going to reduce or retreat from that 
unilateral sanctions effort here. But, certainly an effort on 
the multilateral front would be a tremendous step forward. And 
so, we commend you for that.
    But, I wonder if you might comment on the reduction in 
counterproliferation efforts, more generally, and the effects 
this agreement might have on those efforts. I think, 
specifically, of India and Pakistan, for instance. To what 
extent might this agreement have the positive impact on causing 
other nations to begin to move in this direction?
    Secretary Clinton. Well, Senator Dodd, thank you. And thank 
you for all of your work on these and so many other important 
issues.
    We believe that the treaty history between the United 
States and Russia is the bedrock of disarmament. And, as 
Senator Lugar just eloquently outlined, it has certainly been 
in our interests over all of these years.
    We believe that, in the current environment in which we are 
putting forth this treaty for your consideration for 
ratification, it strengthens our hand in talking with other 
countries that have nuclear weapons.
    Now, the fact is that if--as far as we know in the world--
and I think we've got a pretty good handle on it--the United 
States and Russia have more than 90 percent of all nuclear 
weapons in the world. And we want to, as we said in the NPR--
the Nuclear Posture Review--we want to explore beginning 
conversations with other nuclear nations, starting with China, 
and see what kind of opportunity for discussion could exist.
    The United States and Russia have, now, a 30-year history 
of these discussions, but we need to begin similar discussions 
with others. We go into those with the credibility that this 
treaty gives us.
    Right now, as both the chairman and the ranking member have 
said, there is no treaty. We have no so-called ``boots on the 
ground.'' We're not inspecting anything. We're not acquiring 
the kind of information that we think is in our national 
security interest. So, this treaty is not only, on its own 
merits, in our interests, but the fact of it gives us the 
credibility to go and talk with other nuclear-armed countries. 
It also gives us the credibility to reach agreement, as we now 
have, on a resolution in the United Nations, with countries 
that are, you know, concerned about the proliferation 
represented by Iran.
    So, on this broad basis of how we can be more effective in 
making our case about what we see as the principal threat to 
the United States and the world--the proliferation of weapons 
of mass destruction, their use by rogue regimes or by networks 
of terrorists--this treaty gives us a lot of credibility, going 
forward.
    Senator Dodd. Well, I thank you. Thank you very much for 
that.
    And let me just add that although we have questions to be 
asked, obviously, and answered, I want to express my strong 
support for this treaty. And I think we need to move on this. 
And my fervent hope is that we'll get this done now, in the 
next month or so, clearly before we adjourn. I can't imagine 
adjourning from this Congress and not have been completed this 
work. So, I appreciate very much your work.
    The Chairman. Thank you very much, Senator Dodd.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank each of you for your service and what you do on 
behalf of our country.
    Madam Secretary, what recourse do each of the countries 
have against each other if there's violations in the treaty?
    Secretary Clinton. Well, Senator, there are several 
approaches.
    One, there is a bilateral commission, that exists to iron 
out differences, solve problems, to which each country may seek 
recourse if there is some kind of violation, or perceived 
violation.
    Senator Corker. What kind of recourse?
    Secretary Clinton. Well, you know, we've had this--we have 
a long history with these treaties, where presenting 
information that we believe might violate the spirit or the 
letter of the treaty leads to changes.
    I mean, there--this treaty is not a static document. It 
goes into effect, like the previous START Treaty and others, 
and then it begins to be implemented.
    So, if we believe that, under the treaty, we're not getting 
access to what we have signed up for under the treaty, we raise 
that and we get the access. So, it's a constant effort to make 
sure that both sides are complying with their agreements, as 
set forth in the treaty.
    And I--you know, Senator Lugar is the expert in the room, 
probably along with Secretary Gates, but the history of these 
treaties has been--I would characterize as positive in the 
enforcement and implementation.
    The final recourse we have is to withdraw from the treaty. 
You know, we----
    Senator Corker. Let me----
    Secretary Clinton [continuing]. We have the right to 
withdraw if we believe that this treaty is no longer in our 
security interests.
    Senator Corker. So, basically it's an understanding between 
two countries, and they act in good faith to live up to those.
    Should it, then, trouble us that, before we ever get 
started, that each of the countries has a very different 
opinion of what we've negotiated, as relates to missile 
defense? And should not all--should all of us not want a joint 
statement from both countries as to that before we begin? 
Because it's sort of troubling that we begin with two divergent 
views on what we've agreed to, as relates to missile defense.
    Secretary Clinton. Well, Senator, again, there's a history, 
here. There were similar divergent views with the first START 
Treaty, and it didn't stop us from doing anything we did, and 
intended to do, on missile defense.
    You know, it's a little bit like a political statement, I 
might suggest, that, you know, you can make an agreement and 
then you----
    Senator Corker. Duplicitous-like. Is that----
    Secretary Clinton. Yes, yes.
    Senator Corker [continuing]. What you're saying?
    Secretary Clinton. Well, no. I think that it is--you make 
an agreement. The agreement, on the face of it and in its 
terms, set forth the obligations, but, for various reasons, 
each side might want to characterize it a little bit 
differently. But, if you look at the statement--the unilateral 
statements that were made by the Russians, they basically said 
they would have a right to withdraw if, you know, we continued 
on missile defense. They have a right to withdraw anyway, and 
with the original START Treaty, they said similar things about 
missile defense; and here we are, billions of dollars later. 
And it just is not a--it's not a part of the treaty agreement 
itself.
    Senator Corker. As it relates to their ability to launch, 
it's my understanding they're already below the levels that the 
treaty stipulates, and that we're above it, and--so, as it 
relates to the ability to deliver, did we really get anything 
in this treaty at all?
    Admiral Mullen. Well, I--Senator, I think the significant 
reduction in overall nuclear weapons was very clearly a 
benefit.
    Senator Corker. But, aren't they already below the level, 
just specifically as it relates to strategic launch ability? 
Aren't they--because of the age of their system--aren't they 
already below levels that we've agreed to----
    Admiral Mullen. In terms of launching----
    Senator Corker. That's right.
    Admiral Mullen [continuing]. Launching vehicles----
    Senator Corker. That's right.
    Admiral Mullen [continuing]. Themselves, they are, yes.
    Senator Corker. OK, so----
    Admiral Mullen. But----
    Senator Corker [continuing]. So, let me ask you a question. 
We--it seems to me their neighbors are pretty concerned about 
their tactical abilities. And did we miss an opportunity, since 
they're already below on their strategic ability to deliver--
they're already below that; we're the ones that are actually 
making cuts, not them--did we miss an opportunity--and I know 
we always Monday-morning quarterback, and whenever we negotiate 
on behalf of our caucus, other Senators say, ``Well, why didn't 
you get this?''--and I know that's what I'm doing now, but I 
guess that's the purpose of this hearing--did we miss an 
opportunity to get them to do some things, tactically, that 
would have made their neighbors feel slightly more safe?
    Admiral Mullen. From my perspective, Senator, we seized an 
opportunity to come together and get to this treaty. It isn't 
everything that everybody could have wanted. Certainly, we're 
very aware of the tactical nuclear weapons that Russia has. 
That has been discussed with them, in terms of the future.
    And, in a broader context, I think the leadership position 
that we're both in right now as a result of this, from the 
perspective of overall nuclear weapons inventory, it is 
certainly something that will be addressed in the future. But, 
it just was not a part of this negotiation.
    Secretary Gates. I would also add two things, Senator.
    First of all, what is important to our allies, and 
particularly those on Russia's periphery, is our reaffirmation 
of Article 5 of the NATO Treaty and the fact that NATO 
continues to believe and attest to the fact that it has--must 
have a nuclear capability. The F-35s that we are going to 
deploy will have a dual capability. So, we have protected our 
right, with respect to tactical nuclear weapons.
    There's no question that they're concerned in Eastern 
Europe, particularly about Russian tactical nuclear weapons. 
That was not a part of this negotiation, but we have protected 
our own ability to do more.
    And, just for the record, I would point out that, while 
their strategic nuclear delivery vehicles are under the current 
levels of the treaty, the number of warheads is actually above 
the level. So, they will be reducing the number of warheads.
    Senator Corker. So, I'm going to move on to something that 
you can address. I know these other things are lookbacks, and 
the treaty is what it is, from you all's standpoint.
    I think the modernization issue is the issue that probably 
concerns all of us. And I know my time's limited now. But, I 
know there's a 23-page report that talks a little bit about, 
sort of, where we are. And I know it's a secure document. But, 
you know, it focuses mainly on our sub delivery system, and not 
the others. Our labs are telling us that, you know, they don't 
think there's any way that the amount of dollars that have been 
set aside adds up. You all talk about $80 billion in 
investment, but many of us look at it, and it looks like it's 
double counting. In other words, much of it is money that was 
already going to be spent.
    And all I would say is, as we move ahead and--I know I'm 13 
seconds over now--I think that's an area where we're going to 
want a lot of clarification as to what the real commitment is, 
modernizationwise. I think that's really important to all of 
us. I think all of us know we have a--an aged system, and we 
know that for us to really be where we need to be, real 
investment in modernization needs to take place.
    And I don't know if you want to make a quick closing 
comment.
    I will say, to all of you, thank you again for your service 
and for your willingness to be here to testify.
    Secretary Gates. Two quick comments.
    First of all, I've been trying for 3\1/2\ years to get 
money for modernization of the nuclear infrastructure. This is 
the first time I think I have a chance of actually getting 
some. And ironically, it's in connection with an arms control 
agreement. But, the previous efforts have completely failed.
    Second, I would just quote--and we will get you all the 
budgetary details and everything with respect to this--but, I 
would just quote the Director of the National Nuclear Security 
Administration, Tom D'Agostino, who said in testimony that, 
``The resources we have in the President's budget are exactly 
what we feel is needed in order to satisfy the requirements.'' 
And he said, separately, ``What is--it is what is required to 
get the job done.''
    But, we'll give you all the details.
    Senator Corker. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Corker.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for holding the 
hearing.
    This treaty stands to reduce the size of our arsenal and 
the Russian arsenal, making the world a safer place without 
constraining the ability to defend our Nation. Its ratification 
would also offer proof to the international community of the 
commitment of the United States to fulfilling our obligations 
under the Non-Proliferation Treaty, which will, of course, help 
foster the cooperation needed to stop the spread of nuclear 
weapons and materiels.
    However, this treaty makes significant changes to the 
verification and inspection regime that was in place for nearly 
two decades under the original START Treaty. We have to ensure 
that this treaty is verifiable and guarantees our ability to 
adequately monitor Russian nuclear weapons and materiel. So, as 
a member of the Senate Select Intelligence Committee, I'm in 
the process of reviewing that.
    But, let me go to Secretary Gates and just follow on 
Senator Corker's questions that have to do with modernization. 
I understand you were talking about funding issues, but let's 
get at least one clarification that I think you could provide.
    Some of my colleagues in the Senate are concerned that this 
treaty would jeopardize our ability to modernize our arsenal. 
It's my understanding that nothing in this treaty prohibits us 
from building new warheads, if needed. Is that correct, 
Secretary?
    Secretary Gates. That is correct.
    Senator Feingold. And then, let's turn to Admiral Mullen on 
the issue of verification. This treaty's verification regime 
differs in several ways from the one that was in place for 
nearly two decades, as I just mentioned. On one hand, we would 
no longer maintain an onsite inspection facility at Votkinsk. 
On the other hand, due to the change in counting rules, I 
understand that the new treaty would permit more vigorous 
onsite inspections.
    So, Admiral, on balance, would you say that this would 
increase or decrease our overall understanding of the Russian 
arsenal?
    Admiral Mullen. I think, on balance, it would increase it. 
And, specifically, with respect to Votkinsk, one of the 
provisions of this treaty calls for notification of every 
weapon that's--gets made there now--notification to us 48 hours 
before it comes out the factory, specifically. I think the 
verification procedures in this treaty are easier. Secretary 
Gates has spoken, earlier, about the number of inspections, 
about the specifics of the inspections, for the first time, to 
be able to look into, and see the number of, weapons which are 
on top of any particular missile, where we haven't been able to 
do that before.
    We will be able to count weapons on bombers, which we 
haven't been able to do before. We'll be able to, in fact, 
confirm facility elimination. There are very robust national 
technical means provisions in this treaty, and a specific 
provision which does not permit interference with that.
    The unique identifier, which will be on every single 
weapon, is a brand new provision for verification and was--as 
was mentioned earlier, the number of tests--or launches each 
year, which will have telemetry--but, the telemetry needs of 
this treaty are different from the telemetry needs we had in 
the past. And we really don't need telemetry for the kind of 
verification that we need for this treaty that we had before, 
to include the ability to understand the weight of a missile, 
when we didn't know what was actually inside it.
    So, I think the verification procedures for this treaty are 
very robust and meet the standards that we have, today, in the 
21st century, and not the ones that we needed back in previous 
treaties.
    Senator Feingold. Admiral, I'm concerned that calls for 
maintaining a large arsenal are based on a misunderstanding of 
the potential impact of any use of nuclear weapons. Independent 
studies indicate that even a so-called ``limited nuclear 
exchange'' of 100 warheads would have devastating consequences.
    Has the U.S. Government evaluated the impact of so-called 
``limited exchange''? And is it true that such an exchange 
could have a devastating global impact?
    Admiral Mullen. Yes, sir. I think the--a limited exchange 
would have a devastating global impact. Senator Lugar spoke to 
that earlier. A single--you know, a single weapon would have a 
devastating impact. And yet, we find ourselves, I think, over 
time, reducing the size of our arsenal, but also sustaining it 
at a size that preserves the deterrence aspect of it. We don't 
do this alone, and in a treaty with another country that's got 
an enormous number of nuclear weapons, as well.
    So, clearly the devastation which would occur with any 
release of a nuclear weapon--and we were speaking, earlier, 
about--that the--the merging of terrorists with nuclear 
weapons, which is another big concern and has been put at the 
top of the list in the NPR, here. All those things would be 
devastating. And from a--but, from the standpoint of the 
overall treaty, it's taken us in the right direction, and I 
think it's a very, very positive step, while preserving what we 
need, in terms of our overall strength and deterrence 
capability in a country.
    Senator Feingold. Thank you, Admiral.
    And, Secretary Gates, I understand that the verification 
regime under the treaty will supplement the information we 
gather using other intelligence-gathering capabilities, such as 
satellites. To the extent that the new treaty scales back 
certain inspection activities, are we able to compensate for 
that loss of access, through other intelligence activities?
    Secretary Gates. That certainly is the judgment of the 
intelligence community. Representatives of the DNI and CIA were 
involved in these negotiations throughout, and consulted, in 
terms of both the terms of the treaty and the verification 
terms. And I think what you are likely to hear from them is 
that they have high confidence in their ability to monitor this 
treaty until toward the end of the 10-year term, when that 
confidence level will go to moderate.
    I would tell you that's what they do on all long-term 
evaluations of their intelligence capability. The further into 
the future you go, the confidence level begins to decline.
    But, there's no question, in terms of the ability to verify 
this treaty. And, in fact, when Senator Lugar was talking about 
having his picture taken in front of a Typhoon submarine, and 
the fact that that was the first time we had seen one, I would 
only qualify that by saying that's the only time we've seen one 
from dry land. [Laughter.]
    Senator Feingold. Admiral Mullen, the Director of the 
Missile Defense Agency, Lieutenant General O'Reilly, recently 
testified that this treaty would actually reduce the 
constraints on the development of our missile defense program. 
Could you just, finally, say a bit about that?
    Admiral Mullen. Well--and the issue of missile defense has 
been one that obviously is very much in focus as a result of 
this. I mean, throughout the negotiations, there was--while we 
talked about it, there really was--it was, by and large, 
disconnected. And the purpose of this treaty was to not get at 
missile defense.
    I see no restrictions in this treaty, in terms of our 
development of missile defense, which is a very important 
system, as well. And I would actually hope that, in the long 
term, given the relationship with Russia, that we would be able 
to see our way through to more cooperative efforts with them, 
in terms of missile defense, and very well, possibly, in the 
future, have the kind of impact that General O'Reilly was 
talking about.
    Senator Feingold. Thank you all.
    Senator Isakson.
    Senator Isakson. Thank you very much, Senator Lugar.
    All of you have bragged about the--or, have talked about 
the verification improvements, or the ability to verify, in 
this. I wanted to ask a couple of questions.
    Admiral Mullen, you talk about the identification system on 
each weapon. Is that going to be like a transponder from an 
airplane? Is it going to be a technological--how are we going 
to do that? Or do we know yet?
    Admiral Mullen. I think some may know. I don't. It is very 
clear that it was going to be visible and verifiable, and every 
single weapon would have it. And there were specific criteria 
that were laid on for each weapon, because the weapons, in 
fact, are different, as well.
    Senator Isakson. But, would it be a technological 
verification versus a visible one, where they'd have some 
ability----
    Admiral Mullen. I think--I'd have to get back--I think it 
is visible, and--but, it could possibly be technologically 
verified, as well.
    Senator Isakson. Well, that is--if you would, I'd like to 
have that information, because that is impressive.
    Admiral Mullen. Sure.
    Senator Isakson Secretary Gates, thank you for being here. 
You talked about the submarine-launched missiles, and you 
talked about the number of inspections we'll now have, which is 
18. Is that correct?
    Secretary Gates. Yes, sir.
    Senator Isakson. How many inspections do we have under the 
current--well, current START's expired by 6 months. How many 
did we have under START II?
    Secretary Gates. I honestly don't remember.
    [Pause.]
    Secretary Gates. There was a quota of 28----
    Senator Isakson. There were 28 inspections----
    Secretary Gates [continuing]. For START II.
    Senator Isakson. And now there--have 18?
    Secretary Gates. Yes, sir.
    Senator Isakson. Well, that's less.
    Secretary Gates. Yes, sir.
    Senator Isakson. So, that's not really an improvement.
    Admiral Mullen. I was just informed that, actually, the 
UIDs are mechanical, they're not technically detectable.
    Senator Isakson. OK, they are----
    Admiral Mullen. And, second, I think it's important--under 
this treaty, there--under the previous treaty, there are 73 
facilities that we inspected. Under this one--Russian 
facilities--under this treaty, there are only 27. And, in fact, 
based on the number of inspections--18--there are almost twice 
as many inspections per facility per year than under the 
previous treaty. And that speaks to moving this to where we are 
right now, as opposed to where we've been in the past.
    Secretary Clinton. Senator, that's a really important 
position for us to underscore, because we spent a lot of time 
on the inspection issue. And I have to confess, at first I 
wasn't quite sure, you know, what the numbers were, because we 
go from 28 to 18. But, then one of our very able negotiators 
showed me a map of all the sites in the former Soviet Union 
that we were inspecting, and then, thanks to Senator Lugar and 
other efforts, those sites have been closed, they've been 
shrunk, they've been dismantled--because it wasn't just in 
Russia, it was in Kazakhstan and Belarus and other places. So, 
as Admiral Mullen says, in effect, we actually have twice as 
many inspections, because we have so many fewer sites to 
inspect.
    Senator Isakson. I think it would be great for an eighth-
grade-level memo on how less is more, because somebody'll 
take--I mean, that could be taken either way. I think it would 
be helpful to all of us.
    Secretary Gates. Senator, if I could just elaborate on the 
answer that I gave you before on the number of inspections, the 
18 versus 28, the 18 are divided into two categories. The first 
10 are both at deployed and nondeployed sites; 8 are at 
nondeployed sites. But, in that first category of 10, we 
actually carry out inspections that were--that required two 
inspections under START II. There was a separate inspection 
of--on data updates, and a separate inspection on RVs under 
START II. Under this treaty, we do both in the same inspection. 
So, for all practical purposes, the same--the number of 
inspections is about the same as it was under START II.
    Senator Isakson. Thank you.
    Secretary Clinton, again, thank you for being here.
    I seem to remember, from Dr. Schlesinger's testimony in our 
previous hearing, that, on this issue of short-range tactical 
weapons, they're not included in this START agreement. And it 
was an issue for the Russians, because of missile defense, 
because their old Eastern-Bloc satellite states are so close to 
them. Is that correct?
    Secretary Clinton. Senator, they were not willing to 
negotiate on tactical nukes. And history of these arms control 
agreements were always on strategic weapons. But, we have said 
that we want to go back and begin to talk to them about 
tactical nukes. We would like to, as soon as we can get this 
ratified, with all hope that the Senate will so advise and 
consent--we want to do that. And I had a very frank and useful 
discussion with our NATO allies--because you may know that 
there is a move on--or, there was a move on by a number of 
European countries to begin to put pressure on the United 
States to withdraw our tactical nukes from Europe. And we have 
said very clearly, No. 1, that has to be a NATO decision; it's 
not a unilateral decision; and, No. 2, we are not going to 
withdraw our tactical nukes unless there is an agreement for 
Russia to similarly discuss with us withdrawal of their 
tactical nukes.
    So, this is an issue that was very well vetted by our NATO 
allies, our Central and our Eastern European allies. They know 
that, you know, Russia has their tactical nukes, you know, 
close to their borders with our NATO allies. It's one of the 
reasons--and this is something that either Secretary Gates or 
Admiral Mullen can address--it's one of the reasons why we 
altered our missile defense approach in Europe to the phase-
adaptive approach, because, you know, very frankly, we were 
looking at, you know, what kind of medium-range missiles Iran 
had, you know, not the intercontinental. So, this whole 
question of shorter range missiles and the tactical nukes is 
one that we're going to address.
    Senator Isakson. So, we maintain both the leverage of our 
existing tactical weapons that are in Europe, as well as 
proceeding with missile defense.
    Secretary Clinton. Yes, we do.
    Senator Isakson. And the--our NATO partners have, I think, 
used the word ``welcomed'' this treaty. Is that correct?
    Secretary Clinton. Yes, it is.
    Senator Isakson. Thank you very much.
    The Chairman. Thank you very much, Senator Isakson.
    Senator Cardin.
    Senator Cardin. Well, first, Mr. Chairman, thank you for 
this hearing, and--appreciate it very much.
    I want to express my appreciation to our three witnesses 
for their service to this Nation.
    And I concur in the comments made by our chairman, by 
Senator Dodd, by Senator Lugar, of the importance of moving 
forward on our efforts in world leadership on nonproliferation. 
And I see this treaty as a critical part in the relationship 
between Russia and the United States in providing world 
leadership on nuclear safety issues, on nonproliferation 
issues, and on responsible reductions of our nuclear 
stockpiles.
    So, I'm pleased that we're moving forward on this, and I 
hope that we will be able to act prior to the end of this 
Congress.
    Madam Secretary, I want to follow up on a statement you 
made earlier. You know, I see that--Russia and the United 
States having some common interest here, particularly against 
the threat of nuclear arms in other countries. And you 
mentioned Iran. Well, put me down in the category as being very 
concerned about what happened with Brazil and Turkey with Iran. 
I'm certain those two countries--well, these two countries may 
have acted in good faith, but Iran is not. We've been down this 
road before. We know that Iran can change its mind at any time 
in regards to the nuclear materiel. We also know that their--
under this arrangement, they would continue on their refinement 
and--capacity to develop a nuclear weapon.
    So, I was pleased to hear your status, that we are moving 
forward with the Security Council resolutions and that we have 
at least some cooperation from Russia and China. That, to me, 
is good news. And it seems to me it's one of the by-products on 
your negotiations on the START Treaty. So, I think this all 
comes together.
    I--if there's further--more than you could elaborate on 
that now, I would appreciate it. If not, we certainly 
understand the timing that you're going through.
    Secretary Clinton. Well, Senator, thank you. And I think 
there's no doubt that our cooperation and the intensive efforts 
that so many of us, along with our Russian counterparts, put 
into the START negotiations over the last year--is part of the 
reason why we plan to circulate a draft resolution to the 
entire Security Council today, that includes Russia and China 
and their agreement on the wording of the text.
    With respect to the efforts that were undertaken by Turkey 
and Brazil, you know, we have acknowledged the sincerity of the 
undertakings by both Turkey and Brazil. They have attempted to 
find a solution to Iran's standoff with the international 
community, and they made an announcement, in Tehran, that 
included certain commitments by Iran. But, as we and the 
international community have made consistently clear over the 
last many months, it is not sufficient for Iran to stand at a 
press conference and make a declaration. Iran has to clearly 
and authoritatively convey to the International Atomic Energy 
Agency what its position is and what it is prepared to do, 
before any offer by Iran can be legitimately considered by the 
international community. That has not happened.
    And, while the removal of a significant portion of low-
enriched uranium from the territory of Iran would be a positive 
step, we are seriously concerned by a number of issues that 
were missing from the declaration announced. And the chairman 
began, today, by listing some of those. Chief among them is 
Iran's refusal to suspend its enrichment of uranium to near 20 
percent levels. That is in clear violation of its international 
obligations. It is continually amassing newly enriched uranium, 
regardless of whether it comes to agreement on the Tehran 
research reactor concerns. And as President Medvedev said 
publicly yesterday, Russia shares our concerns about this 
continuing enrichment by Iran.
    You know, we had further concerns, which I conveyed to both 
my Brazilian and Turkish counterparts, about the amorphous 
timeline for the removal of the LEU. The way that it was 
presented in this declaration, that could take months of 
further negotiation. And that is just not acceptable, to us and 
to our partners.
    And finally, we're troubled by the continued failure of the 
Iranian side in this declaration to commit to engage with the 
P5+1 on its nuclear program, despite a request to do so since 
last October.
    And we don't believe it was any accident that Iran agreed 
to this declaration as we were preparing to move forward in New 
York. With all due respect to my Turkish and Brazilian friends, 
the fact that we had Russia on board, we had China on board, 
and that we were moving, early this week--namely, today--to 
share the text of that resolution, put pressure on Iran, which 
they were trying to somehow dissipate.
    So, Senator, given our very serious concerns about Iran's 
continued violations concerning its nuclear activities, we 
remain committed to moving forward with the process in the 
United Nations, and we are very committed to working with our 
counterparts at the U.N. and--in order to get as strong a 
possible resolution as soon as we can.
    Senator Cardin. Well, thank you very much for that 
response. I share Senator Lugar's concerns that a single 
missile could cause havoc with world stability. And I know 
that, on the START Treaty, you're trying to get the right 
balance between deterrence and nonproliferation. But, it goes 
beyond Russia and the United States. And that's why I think 
these numbers are significant, and the efforts of Russia and 
the United States to work together on these issues are 
important for the international community, including what is 
happening in Iran or what's happening in North Korea. And, as 
pointed out, the India-Pakistan issues are also ones of major 
concern to all of us.
    So, I think it's extremely important that we keep focused 
on the overall objectives as we look at the Senate's 
ratification of the START Treaty, because it clearly has 
implications beyond just Russia and the United States.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cardin.
    We're going to have a vote, here, in a few minutes. What--I 
want to not interrupt the hearing at all, so I would ask 
whichever Senator is, sort of, next in line on questioning, if 
they would leave--I will also leave immediately, when the vote 
goes off, and then turn around and come back so we can continue 
the hearing without interruption.
    Senator Risch.
    Senator Risch. Mr. Chairman, thank you very much.
    First of all, let me tell you where I come from on this. 
And I suspect everybody's in the same position. And that is, 
the first responsibility of a government is the protection of 
its citizens and the defense of the American people. Secretary 
Gates, I think, probably put this in about as good a--and 
simple a--understandable terms as you can, in saying, Are we 
better off with this, or are we better off without it? I mean, 
that's probably as good a way of looking at this as possible.
    Secretary Gates, commenting on your prior testimony, you 
know, the modernization that you've been pursuing is absolutely 
critical. I mean, it's not only the number of weapons, but it's 
the technology, it's everything else. So, keep up the good work 
there, and we'll--from this Senator's standpoint, we'll help 
you, every way we can. That absolutely needs to be done.
    Secretary Clinton, your discussion about pursuing a 
discussion or a treaty on tactical weapons--nuclear weapons--is 
certainly important, and I do hope, when this is over, that 
that will be pursued.
    Secretary Gates, you talked about 40 years ago, when you 
started this. Certainly, that was an--a marvelous job that was 
done 40 years ago. It was a huge step forward for mankind and 
getting a START Treaty. But, we've had 40 years of experience 
with this now, and I kind of view it as a marriage. Things have 
changed dramatically over the last 40 years, and we seem to 
have developed irreconcilable differences on the defensive 
missile situation. And that's where--and I don't think this is 
secret; Secretary Clinton and I have discussed this--I have 
real difficulties with this. And I would have hoped that we 
would have taken advantage of this opportunity to try to smooth 
this over.
    You know, 40 years ago, when this started, the--you had the 
new treaty. We--the two parties have now dealt with it for 40 
years. Both parties have recognized what they have in their 
hands and how it would affect the world. This nonsense about a 
limited exchange--I mean, all somebody has to do is pull the 
trigger once. I mean, it doesn't matter whether it's 100, 
whether it's one; it would have profound changes on the culture 
of the world.
    So--but, in any rate, 40 years ago, we didn't have Iran 
pursuing nuclear ambitions, we didn't have North Korea, we 
didn't have the Chinese situation, we didn't have India and 
Pakistan nuclear armed, and today we do. And, to me, that is 
the--is even a more pressing need than this particular treaty.
    Now, it's a good thing to have this treaty. And the details 
of it, we can all spar about how many inspections there should 
be, and that sort of thing. But, to me, we need to be looking, 
kind of like a sports analogy, the second shot we're going to 
take; and that is, we ought to be looking at, What about these 
other situations? And the other situations are such that we 
can't sit down at a table with Iran, we can't sit down at a 
table with North Korea, and talk to them using common sense and 
using reasonableness in reaching a treaty, like we have with 
the Russians, that has really been successful over the last 40 
years. And they--I don't think anyone can argue that it hasn't 
been successful. These others don't fall in the same category.
    So, in order to protect the American people, it has--
absolutely critical that we develop, and we develop with the 
best technology, the best ability that we have, a defensive 
missile system. That's the only way we're going to protect 
ourselves from these other countries.
    So, that's why I am concerned when, at the end of the day, 
after all the discussions, we have irreconcilable differences 
with the Russians. We say this doesn't impede our abilities, 
the Russians say, ``Yes, it does.'' And I have the greatest 
respect for the ranking member, here, who says, ``We need to 
say, over and over again, that this doesn't affect our ability 
to do that.'' But, yet, when you read the preamble, when you 
read some of the language in it, and, most importantly, when 
you read the unilateral statements, we have irreconcilable 
differences. This treaty means something different to the 
Russians than it means to us when it comes to protecting our 
people using a defensive missile structure.
    So, having said all that, I'm going to give you a couple of 
minutes here to again reassure me. I've listened to all of you 
reassure me before. And I understand that the bottom-line 
answer is, ``Well, if we don't like it, we can always get out 
of the treaty.'' Well, that isn't a legitimate answer, because 
other--if that's the case, then why have the treaty at all?
    So, that's where I come from on this. That's the problem I 
have with this. I think that it's a really, really good thing 
to have this treaty. But, anything we do to convince the world, 
or suggest to the world, that we aren't going to do everything 
we possibly can to effect a legitimate defensive position 
really, really troubles me.
    Secretary Gates. Senator, the Russians have hated missile 
defense ever since the strategic arms talks began, in 1969. In 
fact, those talks started with the Russians' primary interest 
being in negotiating the Antiballistic Missile Treaty. And it 
was under the insistence of the United States that we 
accompanied with--it with an interim agreement on strategic 
offensive weapons.
    So, from the very beginning of this process, more than 40 
years ago, the Russians have hated missile defense. They hated 
it even more in 1983, when Ronald Reagan--when President Reagan 
made his speech, saying we were going to do strategic missile 
defense. And so, the notion that this treaty has somehow focusd 
this antagonism on the part of the Russians, toward missile 
defense, all I would say is, it's the latest chapter in a long 
line of Russian objections to our proceeding with missile 
defense. And, frankly, I think it's because--particularly in 
the 1970s and 1980s, and probably equally now, it's because we 
can afford it and they can't. And we're going to be able to 
build a good one, and are building a good one, and they 
probably aren't. And they don't want to devote the resources to 
it, so they try and stop us from doing it, through political 
means. This treaty doesn't accomplish that for them.
    There are no limits on us. We have made these unilateral 
statements on other issues relating to virtually every other 
strategic arms agreements we've--agreement we've had with the 
Russians, on one subject or another. Neither has ever 
considered them binding.
    And I will tell you, we are putting our money where our 
beliefs are. As Secretary Clinton pointed out, our FY11 budget 
will add about 700 million more dollars on missile defense. We 
are going forward with a second missile field at Fort Greely. 
We are--we've put--we're putting more than a billion dollars 
into the second--into the two- and three-stage ground-based 
interceptor programs. We're buying THAADs, we're buying 
Patriot-3s, we're buying SM-3s, we're buying X-band radars. We 
are--we have a comprehensive missile defense program, and we 
are going forward with all of it. And our plan is to add even 
more money to it in FY12. So, you know, the Russians can say 
what they want, but, as Secretary Clinton said, these 
unilateral statements are totally outside the treaty, they have 
no standing, they're not binding, never have been.
    Senator Risch. Thank you, Mr. Chairman. My time's up.
    The Chairman. Thank you, Senator Risch.
    Let me--as our--as Secretary Clinton knows well, the best-
laid plans of mice and men around here don't always work, and 
the Senate has delayed the vote to 12:05. So, we will continue 
in normal fashion.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much.
    And I want to thank our three witnesses for being here with 
us again. I--we recently had a briefing, which was very 
helpful, in another setting. And this is a continuation of the 
work that's been done by each of you, and those that work with 
you.
    First of all, I think we--we still have a lot of debating 
and discussion about this treaty, and that will continue, and 
that's important, to have questions raised over the next 
several weeks or months, depending on how quickly we get--this 
treaty gets to the floor. But, I think it's apparent, from the 
testimony that you've provided, and others, people outside of 
government who worked in other administrations of both parties, 
all being committed to a safe, secure, and effective nuclear 
arsenal, but also in just--in summary fashion, highlighting 
Secretary Gates's four points, on transparency, predictability, 
strategic stability, and then access to both Russian facilities 
and weapons--all under the umbrella of a safe, secure, and 
effective arsenal, but also under, I guess, a broader umbrella 
of this treaty enhancing our security. I think it's critically 
important to make that point.
    And, just by way of review, because in--the three of you 
know better than I that, in Washington, we need to review 
often, and reemphasize--Secretary Gates, I just wanted to 
review some of your testimony, just by way of emphasis and 
repetition--but, on page 3 of your testimony, you say the 
following, ``First, the treaty will not constrain the United 
States from deploying the most effective missile defenses 
possible, nor impose additional costs or barriers on these 
defenses.'' That's one statement.
    The next paragraph, ``The New START agreement''--and again, 
I'm quoting--``The New START agreement does not restrict our 
ability to develop and deploy prompt conventional strike 
capabilities that could attack targets anywhere on the globe in 
an hour or less.''
    Further along in that paragraph, you say, ``We are 
currently examining potential future long-range weapon systems 
for prompt global strike that would not be limited by the 
treaty.''
    All three of those statements, I think, meet--or rebut, I 
should say--some of the arguments that have been made, over the 
last couple of weeks, on missile defense. And I think it's 
amplified by what Secretary Clinton said, on page 2, that the 
treaty, ``does not compromise the nuclear force levels we need 
to protect ourselves and our allies. Second, the treaty does 
not infringe on the flexibility we need to maintain our forces, 
including bombers, submarines, and missiles, in a way that best 
serves our national security interests. And, third and finally, 
the treaty does not constrain our missile defense efforts.'' 
And then, of course, Secretary Clinton adds more to that 
assertion.
    And, Admiral Mullen, your statements, as well.
    So, I think that it's important that we confront that 
argument, but I think it's also important that we are very 
clear and unambiguous, as I think all three of you have been.
    The one issue that was raised, in addition to missile 
defense--one of several--and it was raised in the context of a 
Foreign Relations Committee hearing that we had, a number of 
weeks ago--it's been raised by others, but I know former 
Secretary Schlesinger raised it--and it's this question of 
tactical weapons. And it keeps arising. And I wanted to have 
you speak to that, because one sense that I have is that prior 
to and during, but especially prior to, the START Treaty 
discussions and negotiations, I think it was very clear that we 
entered into negotiations with the Russians with an 
understanding that tactical nuclear weapons would not be 
discussed, that that would, in fact, take place later, and 
that, in particular--I know Secretary Perry made this point--
that, concluding the New START Treaty was a necessary 
prerequisite to having discussions about tactical weapons.
    I wanted to have each of you, if--in the 2 minutes we 
have--I know I haven't left you much time, but--speak to that 
question about the tactical and--weapons--and deal with the 
argument that's been presented.
    Secretary Gates. Well, I think you've put your finger on 
it. I mean, there was agreement not to--that these were not a 
part of the negotiation and--from the very beginning.
    But, in the context of their number of tactical nuclear 
weapons, let me just emphasize one other aspect that hasn't 
been mentioned, in terms of where I think this treaty is of 
benefit to the United States.
    I believe the Russians are in the process of changing the--
fundamentally, their approach to their own security. In the 
mid-1950s, President Eisenhower decided that, because of the 
vast number of Soviet soldiers, that the United States would 
not try and match the Russians, tank for tank, and soldier for 
soldier, in Europe, but, rather, rely on massive retaliation, 
massive nuclear retaliation. And so, we invested very heavily 
in our nuclear capability.
    In 2010, the Russians, facing both financial constraints, 
but especially demographic constraints, are reducing the size 
of their conventional forces. And everything we see indicated 
they're increasing the importance and the role of their nuclear 
weapons in the defense of Russia, and leaving their 
conventional force more for handling problems on the borders, 
and internal problems.
    So, this treaty constrains them in an area where I believe 
they are turning their attention as their population prevents 
them from having the kind of huge land army that has always 
characterized Russia. So, keeping a cap on that, and bringing 
those numbers down in the strategic area, and then, perhaps, 
hopefully, turning to the tactical nuclear weapons, where 
they--their tactical number weapons outnumber ours, thousands 
to one, basically, in Eastern Europe--I mean, in the western 
United States--in the western Russia--I think gives us a real 
advantage.
    Senator Casey. Secretary Clinton.
    Secretary Clinton. Well, Senator, the Nuclear Posture 
Review makes clear--and the President reiterated this 
commitment on April 8, at the signing of the treaty with 
President Medvedev in Prague--that the United States intends to 
pursue, with Russia, additional and broader reductions in our 
strategic and tactical weapons, including nondeployed weapons. 
Now, we can't get to a discussion about tactical weapons until 
we get the New START Treaty ratified, because, obviously, as 
Secretary Gates said, that really provides the base from which 
we start. And addressing tactical nuclear weapons requires 
close coordination with NATO, and we're in the process, as I 
said earlier, of working out the NATO alliance approach to 
tactical nuclear weapons through the strategic concept. So, all 
these things are moving together.
    The first of business, of course, is the New START Treaty, 
because, you know, that precedes our ability to get into these 
additional discussions with the Russians.
    Senator Casey. Thank you.
    I know we're out of time, but, Admiral Mullen.
    Admiral Mullen. Just two brief thoughts.
    One is, throughout the negotiations, in the time I spent on 
this, it was a known that, one, we weren't dealing with this, 
but we needed to. And so, that's not a message that's lost on 
them.
    And then, second, my experience, both in my last job, with 
the head of their Navy, as well as in this job, with, now, two 
separate Chiefs of Defense--what Secretary Gates said, their 
investment--they are clearly changing, and they are not going 
to be able to invest in the kind of ground forces that they've 
had in the past. They are investing in strategic--in their 
strategic forces, which, to me, just strengthens the importance 
of having this kind of treaty with them as we both move 
forward.
    Senator Casey. Thank you very much.
    The Chairman. Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman. And thank you, 
Senator Lugar.
    And I want to thank all three of you for your service to 
the country, as well.
    We got the copy of the treaty on Friday. I look forward to 
getting into a lot of details. But, I'd like to express 
concerns, maybe in more of a conceptual way today, just to get 
some quick response from you and to make one request.
    The details are important, obviously, but it appears, from 
what you've said already, that, aside from the treaty with 
Russia, that the signal to the rest of the world, our 
credibility, the appearances of what it shows, as far as our 
good faith, is important. And certainly, making the world 
safer, reducing proliferation, is key. And I appreciate that 
goal, and I think we all share it.
    The concerns I have are that some of the assumptions in the 
treaty appear to suggest a different role for America in the 
future. And I'll express a few of these concerns.
    America does have a different role. As you all know, over 
30 countries count on us for their protection. So, as far as 
military and defense, we play a much different role than 
Russia. Russia's a threat to many, but a protector of none.
    America also the largest economic role in the world, as far 
as our trade with other countries, and we use it to help other 
countries. Russia uses their energy, their oil, as a threat.
    And I think we know, as we look at nuclear weapons, that 
the Russians don't like missile defense, because they don't see 
it as a deterrent. They want to use it as a threat. And I think 
that's why this treaty, and what it says about missile defense, 
is very important.
    But, the first underlying assumption, which I'm afraid is 
absurd and dangerous, is that America should seek parity with 
Russia when it comes to nuclear weapons. Russia doesn't have 30 
countries counting on them for protection. And the reduction of 
our ability to--not just to deliver, but to protect from 
nuclear weapons, is more likely to result in proliferation than 
this arms treaty with Russia.
    My biggest concern, though, is related to missile defense, 
because it's unrealistic to believe that our treaty with Russia 
is going to reduce proliferation with countries like Iran and 
Syria and other rogue nations that are intent on developing 
nuclear weapons.
    The Russians don't appear to misunderstand what's in this 
treaty. And I don't have to read the preamble to you. But, it's 
very clear that we can develop defensive missile defense, as 
long as it does not threaten their offensive capabilities. I 
mean, that's exactly what it says here. That's what they've 
said in their statement. There is a clear disconnect between 
what you are telling us and what it says in this treaty and 
what the Russians are saying. We have complete flexibility with 
missile defense, until it gets to the point where it threatens 
their ability to deliver weapons. And once that happens, not 
just for Russia, but all over the world, that we render nuclear 
missiles irrelevant if we can shoot them down--and for us to 
even include in the treaty that idea that these things are 
interrelated is somewhat frightening to me. And I don't 
believe, for 1 minute, Iran is going to see this as a good 
sign.
    What I would like, at this point--and I think other members 
of the committee would, too--after the first START Treaty was 
presented, members of the committee were given copies of the 
full negotiating record so that we can see the understandings 
that were discussed during the negotiations and that we can 
determine if missile defense is, in fact, interrelated and if 
this parity issue is one that we have discussed openly with the 
Russians.
    And I just want to ask Secretary Clinton, Will you allow 
members of the committee to see the full negotiating record?
    Secretary Clinton. Well, first, Senator, let me say that 
the language you're referring to--similar language was included 
in the START Treaty. And, you know, I hope we will be able to 
persuade you, by the end of this process, and we will certainly 
make every effort to do so, that nothing in any previous 
treaty, nor any unilateral statement or any preamble to a 
treaty, has in any way constrained our development of missile 
defense up to this date, and nothing in the current new treaty 
does, either.
    I think that the facts really refute any concerns that you 
and others might have, because we have proceeded apace, over 
the last 40 years, with the development of missile defense, 
despite, as Secretary Gates said, the 40 years of opposition 
from the Russians.
    Now, with respect to the information around the treaty, you 
know, we are submitting a detailed article-by-article analysis 
of the treaty. The analysis is nearly 200 pages long. It 
provides information on every provision of the treaty, the 
protocol, and the annexes, including how the United States will 
interpret the various provisions.
    These materials were prepared by the treaty negotiators 
and, therefore, are drawn from the negotiating history. They're 
intended to provide a comprehensive picture of U.S. obligations 
under the treaty. And I do not believe--I will double check 
this, Senator--I do not believe that the negotiating record was 
provided with the original START Treaty, because negotiating 
records, going back to, I think, President Washington, Bob told 
me, the other day, have not been provided.
    But, we will provide extensive and comprehensive 
information, and I hope, in the process, we will be able to 
persuade you that, just as in the past, despite the Russian 
dislike of our missile defense efforts, we are going forward.
    And I voted for missile defense when I was here, when the 
START Treaty, that expired in December, was in effect. And I 
can assure you that you and other members will be able to 
continue to vote for missile defense in the future.
    Senator DeMint. Thank you, Madam Secretary.
    And I just have to take what's in the treaty and what the 
Russians have said. It's clear that, at any point that our 
missile defense threatens their ability to deliver offensive 
weapons, that they feel completely free to walk away from this 
treaty. So--which means we, effectively, have no treaty unless 
it is our intent to dabble with missile defense and not create 
a global umbrella that could protect us.
    But, it seems to make only common sense, at this point, as 
we see what's happening in Iran and around the country. Our 
ability to stop the development of nuclear weapons is very 
limited, but our ability to develop a defense system that could 
make those irrelevant would be the best disincentive we could 
provide the world, if they can't deliver them anywhere.
    So, it's obvious there is a real concern here. The Russians 
apparently have gotten--the clear statement from this is that, 
at any point, if our missile defense systems threatens their 
delivery system, they're going to walk away from this treaty. 
And I hope you can convince me by what--the negotiating 
records, that that is not what was discussed. But, I do know, 
in previous negotiations of treaties, that some members of 
committees have had the opportunity to see full negotiating 
records. And I hope this is something that you'll consider.
    And I thank you, Mr. Chairman. I yield back.
    The Chairman. Well thank you, Senator.
    Just so the record is as complete as all of us want it to 
be, here, let me just state that we did not get the negotiating 
record under the START I process. We did get it with the INF 
Treaty. But, subsequent to that, the Foreign Relations 
Committee decided--and I will read from the report--that, 
``With the INF Treaty negotiations having been provided under 
these circumstances, both the administration and the Senate now 
face the task of ensuring the Senate review of negotiating 
records does not become an institutionalized procedure. The 
overall effect of fully exposed negotiations, followed by a far 
more complicated Senate review, would be to weaken the 
treatymaking process and thereby damage American diplomacy. A 
systemic expectation of Senate perusal of every key treaty's 
negotiating record could be expected to inhibit candor during 
future negotiations, and induce posturing on the part of U.S. 
negotiators and their counterparts during sensitive 
discussions.''
    I would suggest to the Senator, I think that we are going 
to be given a very frank account when we have a classified 
session with the negotiators; you'll be able to ask a lot of 
tough questions, and a lot of answers, I think, will be 
forthcoming. But, I think--personally, I think that the 
rationale that the Senate committee came to previously is a 
good rationale, and I think it stands today.
    Senator DeMint. Well, Senator, I appreciate that 
clarification. And I would be happy, at this point, even if 
it's redacted, to have some record of the discussion related to 
our missile defense and the linkage that was included in the 
preamble so that we can determine what both sides understood.
    The Chairman. Let me suggest this, Senator--we all want you 
to be satisfied, and we want you to vote for this. But, I think 
that the better way to proceed would be--let's meet with the 
team, let's meet in classified session, let's see to what 
degree those answers can satisfy you.
    I'd just share with the Senator, this is a preamble. And 
the preamble merely says, ``Recognizing the existence of the 
interrelationship between strategic offensive arms and 
strategic defensive arms''--it's something we all recognize; 
there is a relationship ``that this interrelationship will 
become more important as strategic nuclear arms are reduced.'' 
That stands to reason; if you reduce nuclear arms and you build 
up your missile defense, you can, in fact, completely 
obliterate one party's sense of deterrence. If their offense is 
totally obliterated by your defense, they no longer have an 
offense. What happens? They build. That's where we spent 40 
years. And we decided, when we had over 30,000 warheads, to 
move in the opposite direction.
    Senator DeMint. Well, Senator, you're making my point. 
Obviously, we're agreeing to keep our missile defense to the 
point where it does not render their weapons useless.
    The Chairman. No. All that's been said here is, there's a 
relationship. There's no agreement not to do anything. And it 
simply says that the current level doesn't do that. It's just 
recognizing a status quo. It does nothing to prevent us, 
unilaterally, from doing whatever we want.
    Is that correct, Secretary Gates?
    Secretary Gates. Yes.
    The Chairman. That is correct.
    Senator DeMint. But, you just told me----
    The Chairman. It simply acknowledges----
    Senator DeMint [continuing]. That if our missile defense 
can render theirs useless----
    The Chairman. I'm speaking----
    Senator DeMint [continuing]. That----
    The Chairman [continuing]. About the common sense of the 
theory, but I'm not suggesting that this in any way restrains 
us. I said, in my opening comments, it does not restrain us.
    Senator DeMint. But, is it not desirable for us to have a 
missile defense system that renders their threat useless?
    The Chairman. I don't, personally, think so, no, because 
what'll happen is, if you get near that, they will do exactly 
what we both did over the course of 50 years; they will build 
to the point that they feel they can overwhelm your defense, 
and then you're back right into the entire scenario we had 
throughout the cold war, which took us up to 30,000 warheads 
each, or more.
    Senator DeMint. So, we're still at the point of mutually 
assured destruction. I mean, that's the basis of----
    The Chairman. Yes. We certainly are. That is accurate.
    Senator DeMint. I think that's pretty----
    Secretary Gates. And I think it needs--one point needs to 
be clarified here. Under the last administration, as well as 
under this one, it has been the United States policy not to 
build a missile defense that would render useless Russia's 
nuclear capabilities. It has been a missile defense intended to 
protect against rogue nations, such as North Korea and Iran, or 
countries that have very limited capabilities. The systems that 
we have, the systems that originated and have been funded in 
the Bush administration, as well as in this administration, are 
not focused on trying to render useless Russia's nuclear 
capability. That, in our view, as in theirs, would be 
enormously destabilizing, not to mention unbelievably 
expensive.
    Senator DeMint. So, our ability to protect other countries 
is a pipedream, and we don't even intend to do that. Is that 
true?
    Secretary Gates. Our ability to protect other countries is 
going to be focused on countries like Iran and North Korea, the 
countries that are rogue states, that are not participants in 
the NPT, countries that have shown aggressive intent. And so, 
we are able to--we are putting in defenses in Europe that will 
be able to defend them. We have defenses in Asia. We're 
building defenses in the Middle East. So, we have missile 
defense capabilities going up all around the world, but not 
intended to eliminate the viability of the Russian nuclear 
capability.
    The Chairman. Senator, let me do this, because we need to 
recognize----
    Senator DeMint. Yes.
    The Chairman [continuing]. Senator Shaheen.
    It's a good discussion, it's a very important one, and it 
needs to be clarified. So, I'm going to leave the record open 
for 2 weeks so that we may submit additional questions in 
writing. The record from this particular hearing will remain 
open. The record for the entire process will still be built.
    And, with that, I recognize Senator Shaheen to close out 
the hearing.
    Senator Shaheen. Thank you----
    The Chairman. We have about 5 minutes left on the vote, but 
there's a grace period, so you'll----
    Senator Shaheen. OK.
    The Chairman [continuing]. Get your full questioning 
period.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all for being here.
    I want to follow up a little bit to make sure I'm clear on 
some of what I think I heard in your response to Senator 
DeMint. First of all, am I correct that the Russians had a 
unilateral statement similar to what is on the current START 
Treaty--on the first START Treaty?
    Secretary Clinton. There was also perambular language, but 
these unilateral statements are very much a pattern. We make 
them, they make them, but they are not binding, because they're 
not part of the treaty.
    Senator Shaheen. And is it correct that, even as we 
developed our missile defense plans and pulled out of the ABM 
Treaty, that the Russians did not pull out of the START Treaty?
    Secretary Clinton. Yes; that is correct.
    Senator Shaheen. And would you expect a similar reaction as 
we continue to develop missile defense plans with this New 
START Treaty, from the Russians?
    Secretary Clinton. Senator, we would. And furthermore, we 
continue to offer to work with the Russians on missile defense. 
We have a standing offer, and we hope that eventually they 
will, because we think we now have common enemies.
    Senator Shaheen. Well, and just to, one more time, get it 
on the record--I think you answered this for Senator Risch--
but, Secretary Gates and Admiral Mullen, are you concerned that 
this treaty constricts, in any meaningful way, our ability to 
carry out our current missile defense plans?
    Secretary Gates. No. I have no concerns whatsoever.
    And I would just add that the Russians signed this treaty 
knowing full well we intend to proceed with missile defense.
    Admiral Mullen. I have no concerns, ma'am.
    Senator Shaheen. Thank you.
    Secretary Clinton, you recently spoke at the NPT Review 
Conference, and called upon all countries to help strengthen 
the NPT, and mentioned that, 40 years ago, after the treaty 
came into force, President Kennedy warned that, by the year 
1975, we could have up to 20 countries with nuclear weapons. 
Fortunately, that hasn't happened. But, can you talk a little 
bit about how we ensure that the number of nuclear weapon 
states doesn't continue to rise, and how ratification of the 
START Treaty can help with that?
    Secretary Clinton. Well, Senator, I think it begins with 
the cooperative relationship between the United States and 
Russia, because there are three aspects to the NPT--one is 
nonproliferation, one is disarmament, and one is the peaceful 
use of nuclear energy--and the nonaligned movement states have, 
historically, come to their NPT obligations with some criticism 
that the United States is not doing its part on the disarmament 
front. There was none of that at this conference in New York, 
because of the fact that we had reached this agreement with 
Russia. So, it does provide a stronger platform on which we 
stand to make the case against proliferation.
    The cooperation that we have obtained with Russia, on both 
North Korea and Iran in our efforts to constrain and eliminate 
their nuclear programs, has been very notable. And I think it 
is fair to say that, when this administration started, our 
relationship was not very productive. But, through many 
efforts, and, most particularly, the intensive efforts around 
the New START Treaty, that has changed.
    I remember well the quote that you repeated, because the 
fears were that, once the genie was out of the bottle, we would 
have a multitude of countries with nuclear weapons. That hasn't 
happened, we're determined to prevent it from happening, and 
we're determined to continue our efforts to prevent Iran from 
having nuclear weapon. And, as I said at the beginning of the 
hearing, Russia has joined with us and is part of the agreed 
statement that is being discussed at the United Nations now.
    Senator Shaheen. Thank you.
    And just a final question. I know, in the earlier 
questioning, someone brought up the tactical nuclear weapons 
question. And I wonder if any of you could speak to what you 
think our ability to negotiate an agreement on tactical nuclear 
weapons might be if we fail to ratify this treaty.
    Secretary Clinton. Well, if we fail to ratify this treaty, 
I think it's zero. Once we ratify this treaty, which we are 
hopeful the Senate will do, it will still be hard, but it at 
least is possible, in the context of our NATO obligations.
    Senator Shaheen. Thank you.
    Would either of you like to add to that?
    Secretary Gates. No. I think that's exactly right.
    Senator Shaheen. OK.
    Thank you all very much.
    The Chairman. Secretary Clinton, Secretary Gates, Admiral 
Mullen, thank you very, very much. This has been very helpful.
    As I said, the record is open. I know some Senators want to 
submit some questions in writing.
    We're very grateful to you. Thank you for your work on 
this. Thanks for being here today.
    We stand adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


Responses of Secretary Gates, Admiral Mullen, and Secretary Clinton to 
                  Questions Submitted by Senator Lugar

                            missile defense
    For many months prior to signature of the New START Treaty, 
administration officials indicated the treaty would contain nothing 
more than a ``provision on the interrelationship of strategic offensive 
and strategic defensive arms,'' as the 2009 Joint Understanding between 
Presidents Obama and Medvedev stated.\1\
---------------------------------------------------------------------------
    \1\ At http://www.whitehouse.gov/the_press_office/The-Joint-
Understanding-for-The-Start-Follow-On-Treaty/.
---------------------------------------------------------------------------
    Congress clearly understood this when, last summer, a sense of 
Congress was adopted stating that ``the President should maintain the 
stated position of the United States that the follow-on treaty to the 
START Treaty not include any limitations on the ballistic missile 
defense systems[.]'' \2\
---------------------------------------------------------------------------
    \2\ At section 1251(b)(1) of Title XII of Public Law 111-84, the 
National Defense Authorization Act for Fiscal Year 2010.
---------------------------------------------------------------------------
    Consequently, some Senators were surprised to read paragraph 3 of 
Article V of New START, which is more than a mere statement on the 
interrelationship of strategic offensive and strategic defensive arms.
    In addition, Russian and American unilateral statements on missile 
defense as well as language in the preamble and definitions all bear on 
missile defense.

    Question. Article XIV, paragraph 3 of the treaty provides that 
either party may withdraw from the treaty ``if it decides that 
extraordinary events related to the subject matter of the treaty have 
jeopardized its supreme interests.'' Has Russia indicated that it would 
regard any current or future part of either our Ballistic Missile 
Defense System or the Phased Adaptive Approach for missile defense in 
Europe as jeopardizing its supreme interests?

    Answer. No. Regarding current capabilities, the treaty's preamble 
records the shared view of the United States and Russia that ``current 
strategic defensive arms do not undermine the viability and 
effectiveness of the strategic offensive arms of the Parties.'' This 
indicates that Russia is not concerned that current U.S. ballistic 
missile defense programs jeopardize Russia's supreme interests.
    Regarding future capabilities, Russia has expressed concerns about 
a potential buildup in the missile defense capabilities of the United 
States that would give rise to a threat to the strategic nuclear forces 
potential of the Russian Federation. In an effort to address Russian 
concerns we have provided, and will continue to provide, policy and 
technical explanations regarding why U.S. ballistic missile defense 
(BMD) capabilities such as the European-based Phased Adaptive Approach 
and the Ground-Based Midcourse Defense system will not undermine 
Russia's strategic nuclear deterrent.

    Question. To what extent has the administration discussed our 
regional, and national, missile defense plans with the Russian 
Government and the Russian military?

    Answer. The Obama administration has provided briefings to, and 
discussed U.S. regional and national ballistic missile defense (BMD) 
policy, plans, and programs with the Russian Government and the Russian 
military. Such briefings and discussions have been held in multiple 
channels such as the Arms Control and International Security Working 
Group and the Military Cooperation Working Group (consultations between 
the Joint Staff and the General Staff) which operate under the auspices 
of the United States-Russia Bilateral Presidential Commission. Such 
briefings and discussions are part of an effort to explain why U.S. 
missile defenses do not pose a threat to Russia's strategic deterrent. 
We will continue to provide such briefings as appropriate.
                            reduction levels
    Secretary Clinton's Letter of Submittal and the President's Letter 
of Transmittal state that the purpose of New START is to require 
``mutual'' reductions and limitations on U.S. and Russian strategic 
offensive arms. Some estimates indicate the United States may currently 
deploy 880 strategic nuclear delivery vehicles, while Russia may 
currently deploy just above 600. Thus, the central limitation to go to 
800 deployed and nondeployed ICBM launchers, SLBM launchers and heavy 
bombers under Article II of New START would appear to require the 
United States to make reductions, but not Russia. Moreover, the limit 
to go to 700 deployed ICBMs, SLBMs and heavy bombers appears to require 
the United States to make significant reductions below current levels, 
but not Russia.
    Admiral Mullen, your written statement indicates that: ``I firmly 
believe that the central limits established in this treaty and the 
provision that allows each side the freedom to determine its own force 
mix provides us with the necessary flexibility to field the right 
future force to meet the Nation's needs.''

    Question. Why did the United States agree to such low limits? Would 
insisting on a limit of 900 delivery vehicles have better served U.S. 
interests?

    Answer. The United States agreed to the New START Treaty's central 
limits of 1,550 deployed strategic warheads, 700 deployed strategic 
delivery vehicles, and 800 deployed and nondeployed ICBM and SLBM 
launchers and nuclear-capable heavy bombers based on strategic force 
analyses conducted in support of the Nuclear Posture Review (NPR) and 
high-level deliberations within the Department of Defense and the 
interagency. The NPR analysis and these deliberations concluded that 
the limits contained in the New START Treaty would be sufficient to 
support our deterrence requirements, including extended deterrence for 
our allies, in the current and projected international security 
environment. Operating within the limits and verification regime 
established by the New START Treaty, the United States and the Russian 
Federation will be able to maintain strategic stability at lower force 
levels.

    Question. What did the United States get in return from Russia for 
agreeing to these limits in view of the fact that all of the reductions 
appear to be on the U.S. side?

    Answer. Like the START Treaty, the New START Treaty sets equal, but 
lower, aggregate limits on the number of deployed strategic delivery 
vehicles and associated warheads that each side may have. These 
limitations on Russian forces, combined with mechanisms to verify 
compliance, constitute the basic bargain of the treaty, and are 
consistent with our objective of concluding a treaty that will provide 
predictability, transparency, and stability in the United States-
Russian strategic relationship at lower nuclear force levels.
    Seven years after entry into force of the New START Treaty, both 
Parties will have to ensure their strategic offensive forces are at 
levels within the treaty's three limits. The treaty allows the United 
States to maintain and modernize our strategic nuclear forces in a way 
that best protects our national security interests, within the overall 
limits of the treaty.
    The administration agreed to the New START central limits on the 
basis of recommendations from the Department of Defense based on 
analyses conducted by the U.S. Strategic Command in support of the 
Nuclear Posture Review. These analyses indicated that the United States 
could field a highly capable triad of strategic delivery systems that 
would be fully capable of meeting the Nation's deterrence requirements.
    The New START Treaty also reinforces America's ability to lead and 
revitalize global efforts to prevent proliferation and to strengthen 
the Nuclear Non-Proliferation Treaty by demonstrating that the world's 
two largest nuclear powers are taking concrete steps to reduce their 
nuclear arms.
                     significance of noncompliance
    A central question for the Senate in examining any arms control 
treaty is whether its terms would provide the United States with 
sufficient and timely warning to respond to noncompliance so as to deny 
a violator benefit of the violation, and well before noncompliance 
becomes militarily significant. Military significance has traditionally 
been seen in terms of the strengths of U.S. and Russian Forces and the 
motivations for Russian cheating.

    Question. To what degree would you assess the Russians have any 
motivation to cheat under New START?

    Answer. This topic is included in a classified National 
Intelligence Estimate on the Intelligence Community's ability to 
monitor the New START Treaty that was provided to the Senate on June 
30, 2010.

    Question. How would the types of OSI permitted in the New START 
Treaty (a) discover cheating relative to New START's limitations; (b) 
raise the cost of such cheating; and (c) deter cheating?

    Answer. New START contains three central limits: 1,550 warheads on 
deployed ICBMs and SLBMs and nuclear warheads counted for deployed 
heavy bombers; 700 deployed ICBMs, deployed SLBMs, and deployed 
nuclear-capable heavy bombers; and 800 total deployed and nondeployed 
ICBM launchers, SLBM launchers, and nuclear-capable heavy bombers. The 
launchers, missiles, and heavy bombers subject to these treaty limits 
are required to be based at declared facilities, most of which will be 
subject to onsite inspections under the treaty.
    As was the case under the START Treaty, onsite inspections will 
allow the Parties to confirm the declared numbers of missiles, mobile 
launchers, and deployed warheads on a spot-check basis, thereby helping 
to detect and deter misrepresentation of such numbers. The assignment 
of unique identifiers for each ICBM, SLBM, and heavy bomber, which can 
be confirmed during onsite inspections, also will serve as a deterrent 
to cheating by making it easier to track each declared strategic 
delivery vehicle.
    The Intelligence Community's assessment of its ability to monitor 
the New START Treaty is conveyed in a classified National Intelligence 
Estimate (NIE) provided to the Senate on June 30, 2010. This NIE will 
help inform the verifiability report that the State Department is 
responsible for drafting in accordance with section 306 of the Arms 
Control and Disarmament Act. The section 306 report will be provided to 
the Congress, on a timely basis, and will address the determinations 
made by the U.S. Government as to the degree to which the requirements 
of the New START Treaty can be verified.
    New START verification measures provide the ability to discover 
cheating, thus providing a basis for appropriate responses, and thereby 
helping to deter it.

    Question. What activities involving New START accountable items are 
permitted under New START and what activities involving New START 
accountable items are prohibited under New START?

    Answer. Article IV of the New START Treaty retains a number of the 
restrictions and prohibitions on activities relating to strategic 
offensive arms that contributed to predictability and stability under 
START. These include restrictions on where deployed arms and test items 
may be based, restrictions on where nondeployed strategic offensive 
arms may be located, a ban on strategic offensive arms at eliminated 
facilities with certain exceptions, and a ban on basing strategic 
offensive arms outside a Party's national territory.
    Within the framework of the specific provisions of the New START 
Treaty, the Parties have significant discretion in how their strategic 
offensive forces are composed and structured. This principle is 
reflected in paragraph 2 of Article II and paragraph 1 of Article V of 
the treaty, which states that, subject to the provisions of the treaty, 
each Party has the right to determine the composition of its force 
structure and is free to carry out modernization and replacement of 
strategic offensive arms.

    Question. Given that there are relatively few limits on warheads 
and delivery vehicles in New START as compared to START I, and the many 
administration statements that the United States and Russia are not 
likely to engage in a strategic buildup similar to that undertaken 
during the cold war, could there still be cheating under New START that 
would constitute militarily significant cheating, or would cheating 
likely be militarily insignificant and marginal?

    Answer. Any act by the Russian Federation to violate its 
obligations under the New START Treaty, and/or to deceive the United 
States in its effort to verify Russian compliance with the New START 
Treaty, would be considered extremely serious. The military 
significance of any discovered cheating scenario would have to be 
assessed in terms of its potential military and political impact in the 
context of the broader international security environment at the time 
the cheating was occurring.
    Factors that would bear on such an assessment include the 
quantitative level of cheating and the overall threat it posed to the 
military capabilities of the United States and its allies and partners; 
the kind or kinds of weapons involved and their specific capabilities; 
our assessment of the state of readiness and training of a clandestine 
force; whether the cheating scenario improved Russian strategic 
military capability in a manner that destabilized or threatened to 
destabilize the United States-Russian military balance and eroded U.S. 
deterrence; whether deployed U.S. military forces were sufficient to 
pose an effective counter to the Russian capabilities augmented by the 
clandestine force; whether the U.S. had sufficient strategic warning to 
generate additional capabilities to counter the Russian buildup; and 
the overall political and military situation surrounding the discovery 
of Russian cheating, whether it was occurring in the context of 
relative calm and stability in United States-Russian relations or 
during a period of already heightening tension between the United 
States and the Russian Federation.
                                votkinsk
    Under the INF Treaty and START I, up to 30 U.S. monitors were 
permanently stationed at the portal-and-perimeter continuous monitoring 
(PPCM) facility at Votkinsk in Udmurtia to conduct continuous 
monitoring of final assembly of Russian ICBM systems using solid rocket 
motors, including road-mobile ICBM systems such as the SS-25 Topol, the 
SS-27 Topol-M, and now, the RS-24. Monitors observed and measured 
containers as they exited the portal perimeter area (a designated space 
in which inspection occurred) at the Machine Building Plant. New START 
does not contain continuous monitoring, despite the fact that Votkinsk 
remains the only location in Russia where this integration is done, and 
Russia appears to be deploying more road-mobile ICBMs.

    Question. Why did the United States agree to terminate monitoring 
at Votkinsk?

    Answer. Continuous monitoring at the Votkinsk Machine Building 
Plant began as part of the INF Treaty and was one of the verification 
measures used to monitor mobile ICBM production under the START Treaty. 
The termination of Votkinsk monitoring coincided with the expiration of 
the START Treaty. With the expiration of START on December 5, 2009, 
there was no legal basis for maintaining the U.S. portal monitoring 
facility at Votkinsk and the United States was required to terminate 
its presence at Votkinsk.

    Question. At what point during the negotiations did the United 
States decide not to seek continued monitoring at Votkinsk as part of 
New START?

    Answer. During the later part of 2007, the United States and Russia 
determined that neither side wanted to extend the START Treaty. While 
both sides indicated a willingness to continue some transparency and 
verification measures when a follow-on treaty was discussed in 2008, 
Votkinsk was not among them. With the anticipated expiration of START, 
preparations began in 2008 for ending U.S. portal monitoring at 
Votkinsk so that the United States would be able to depart in an 
orderly way when START expired on December 5, 2009. The Russian 
Government made clear to us that it was not prepared to agree to 
continuous monitoring at Votkinsk under a new treaty.

    Question. What was the position of the Russian Government on 
continuing PPCM-Votkinsk under New START?

    Answer. During the later part of 2007, the United States and Russia 
determined that neither side wanted to extend the START Treaty. With 
the anticipated expiration of START, preparation began in 2008 for 
ending U.S. portal monitoring at Votkinsk so that the United States 
would be able to depart in an orderly way when START expired on 
December 5, 2009. The Russian Government made clear to the United 
States that it was not prepared to agree to continuous monitoring at 
Votkinsk under a new treaty.

    Question. If the previous administration decided to vacate 
Votkinsk, when was that decision made and in what context?

    Answer. In anticipation of the December 2009 expiration of the 
START Treaty, the previous administration began to negotiate an 
agreement on arrangements for closing down U.S. continuous monitoring 
at Votkinsk. On October 20, 2009, with the expiration of the START 
Treaty less than 2 months away, the START Treaty's implementation 
commission, the Joint Compliance and Inspection Commission (JCIC), 
reached an agreement relating to closure of the portal monitoring 
activity. This October 2009 agreement is identical to an agreement 
negotiated and agreed ad referendum by the Bush administration in 
November 2008, with the exception of some minor nonsubstantive edits 
made to conform the English and Russian translations.
                              verification
    Secretary Gates, appearing before this committee in 1992 on START 
I, as Director of Central Intelligence, you stated, ``the verifiability 
of this treaty has always been seen, by supporters and opponents alike, 
as the key to the Senate consent process.'' Writing in the Wall Street 
Journal last week, Secretary Gates stated that New START ``establishes 
an extensive verification regime to ensure that Russia is complying 
with its treaty obligations. These include short-notice inspections of 
both deployed and nondeployed systems, verification of the numbers of 
warheads actually carried on Russian strategic missiles, and unique 
identifiers that will help us track--for the very first time--all 
accountable strategic nuclear delivery systems.''
    If there are no limits in New START on the number of reentry 
vehicles (RVs) on any missile, it would appear that better onsite 
inspections (OSI), including improved RVOSI, do not verify any limits 
but rather confirm that there are warheads on a missile and that a 
given missile is where Russia says it is. It is also unclear how 
improved RVOSI can significantly contribute to verification of a treaty 
not limiting RVs.
    In START I, unique identifiers were used to track road-mobile 
missiles, and only these missiles. In New START, unique identifiers 
would be used for all systems, but it is not clear what verification 
value there is in these arrangements.

    Question. What are the New START onsite inspections and data 
notifications supposed to verify other than the location of a missile 
or heavy bomber in Russia?

    Answer. The New START Treaty's verification regime, which includes 
onsite inspections, a comprehensive database, a wide range of 
notifications, and unique identifiers, as discussed below, is designed 
to permit verification of each Party's compliance with the treaty's 
provisions, including the three central numerical limits contained in 
Article II of the treaty, as well as the numbers and status of treaty-
accountable strategic offensive arms.
    On-site Inspections.--The treaty provides that each Party can 
conduct up to 18 onsite inspections each year at operating bases for 
ICBMs, ballistic missile submarines (SSBNs), and heavy bombers, as well 
as storage facilities, test ranges, and conversion and elimination 
facilities. These inspection activities contribute to the verification 
of compliance with the treaty's central limits by checking on the 
accuracy of declared data on the numbers of deployed and nondeployed 
ICBMs, SLBMs, and nuclear-capable heavy bombers and on the warheads 
located on or counted for them, as well as conversions and eliminations 
of strategic offensive arms.
    Comprehensive Database.--A comprehensive database, which will be 
initially populated 45 days after the treaty enters into force, will 
receive new data constantly as notifications of changes in the force 
structures of the two Parties are conveyed in accordance with treaty 
provisions. It will also be updated comprehensively every 6 months. 
Thus, it will help provide the United States with a ``rolling'' overall 
picture of Russia's strategic offensive forces.
    Notifications.--The treaty mandates a large number of notifications 
which will help to track the movement and changes in status of systems 
covered by the treaty.
    Unique Identifiers (UID).--Unique alpha-numeric identifiers 
assigned to each ICBM, SLBM, and heavy bomber, when combined with 
required notifications and the comprehensive database, will contribute 
to our ability to track the disposition and patterns of operation of 
treaty accountable systems throughout their life cycles.

    Question. Since enhanced RVOSI does not serve to verify an RV 
limit, how will it help monitor limits in Article II of the New START 
Treaty, or constitute an improvement over similar OSI under START I?

    Answer. The New START Treaty's procedures for inspections of 
reentry vehicles are part of the treaty's more extensive type one 
inspections. These inspections confirm the accuracy of declared data on 
the numbers of warheads emplaced on designated, deployed ICBMs and 
SLBMs. These inspections will help to confirm compliance with the 
Article II central limit of 1,550 warheads on deployed ICBMs, deployed 
SLBMs, and nuclear warheads counted for deployed heavy bombers.
    For the first time, inspectors will be tasked to confirm that the 
actual number of reentry vehicles emplaced on a designated ICBM or SLBM 
is consistent with information provided during the preinspection 
briefing.
    Under the START Treaty, inspectors could only confirm that no more 
reentry vehicles than the number attributed to that type of missile 
were emplaced on an ICBM or SLBM designated for a reentry vehicle 
inspection.

    Question. To which part of each New START accountable system will 
each unique identifier be applied?

    Answer. The New START Treaty provides each Party with great 
flexibility regarding the mode of application and size of the unique 
identifiers (UIDs) it is required to affix to all of its ICBMs, SLBMs, 
and nuclear-capable heavy bombers. Currently, all U.S. strategic 
offensive systems have some form of number that will be used as the UID 
for treaty purposes.
    U.S. ICBM first stages each contain a serial number that is located 
on an identification plate on the side of the first-stage rocket motor. 
For ICBMs loaded in silo launchers, where the first stage is not 
visible during an inspection, the UID will be affixed somewhere on or 
near the launcher, either inside the personnel access hatch of the 
silo, on the launcher closure door, or on the launch facility fence.
    U.S. SLBM first stages each contain a serial number that is located 
on a plaque on the front dome of the first stage motor. For SLBM first 
stages that are not assembled with a second stage, the serial numbers 
can be directly accessed and viewed. For SLBMs that are partially or 
fully assembled, so that the serial numbers cannot be directly accessed 
and viewed, the UIDs will be affixed somewhere on or near the missile 
first stage or written on a placard in the vicinity of the missile. For 
assembled SLBMs in loading tubes, the UIDs will be written on the 
exterior of the loading tube. For an SLBM loaded in a SSBN launcher, 
the UID will be affixed somewhere on the launcher or hatch.
    Each heavy bomber carries a unique number that is located on the 
tail of the B-52 and B-1B and on the nose gear door of the B-2A.
    Part Two of the Annex on Inspection Activities requires that the 
unique identifier of a deployed ICBM and deployed SLBM be replicated 
directly on the deployed launcher of ICBMs or near it, and directly on 
the deployed SLBM launcher, so that inspectors can view and record the 
UID in the inspection activity report.

    Question. There is less stringent verification in the New START 
Treaty. Did the administration agree to this because (a) at lower 
numbers of facilities and systems less verification is needed; (b) 
because fewer treaty limits require less verification; or (c) because 
United States-Russian relations justify fewer formal nuclear 
verification and compliance mechanisms?

    Answer. The verification measures contained in New START are not 
``less stringent'' than those under the START Treaty. New START 
verification provisions are tailored to verify the requirements of the 
New START Treaty, which are different from START requirements. The New 
START Treaty allows the Parties greater operational flexibility to 
configure their strategic forces as they see fit within the overall 
treaty limits. This is possible and appropriate because of the 
knowledge accumulated during 15 years of START Treaty implementation 
and the developing relationship between the United States and Russia.
    For example, under the expired START Treaty, provisions allowed for 
confirmation that a missile of a certain type was not carrying more 
than the maximum number of warheads attributed to that type of missile. 
In the New START Treaty, there are no restrictions on how many warheads 
a certain type of missile may carry. Instead, we will have the 
opportunity during inspections to confirm the actual number of warheads 
emplaced on a designated missile and declared during the preinspection 
briefing. Verification of the actual number of warheads was not 
required by the START Treaty.
    While it is true that the new treaty provides for fewer inspections 
in a given year, 18, rather than the annual quota of 28 permitted under 
the START Treaty, the number of inspectable Russian facilities will be 
35, substantially lower than the 70 facilities belonging to the four 
successor states to the former Soviet Union that were subject to 
inspection under the START Treaty. Therefore we have fewer facilities 
for inspection, and need fewer inspections to achieve a comparable 
level of oversight. In addition, type one inspections combine many of 
the aspects associated with two different types of inspections that 
were conducted separately under START, thus requiring fewer inspections 
annually at the operating bases while achieving many of the results of 
the previous START inspection regime with a smaller number of annual 
inspections.
                          cooperative measures
    Due to limitations inherent in our NTM, START I contained a variety 
of cooperative measures, including a ban on concealment, notifications 
of missile movement, equipment exhibitions, design differences to 
distinguish variants of systems, public display of certain missiles at 
certain times, and a ban on the denial of telemetric data monitoring. 
These were used to help target our NTM to monitor declared information 
under START I.

    Question. In your view, does New START contain sufficient and 
similar cooperative measures to assist our NTM? For those cooperative 
measures not included in New START (a ban on denial of telemetric data, 
for example) why were they determined to be unnecessary? In the absence 
of such measures, would our NTM be sufficient to continue to provide 
information that, while not necessary to verify the New START Treaty, 
nevertheless remains useful for ensuring confidence and stability in 
the United States-Russian strategic relationship?

    Answer. In July 2009, Presidents Obama and Medvedev issued a joint 
statement that the new treaty would contain ``provisions on 
definitions, data exchanges, notifications, eliminations, inspections 
and verification procedures, as well as confidence building and 
transparency measures, as adapted, simplified, and made less costly, as 
appropriate, in comparison to the START Treaty.'' The verification 
regime of the New START Treaty is based upon the 15 years of successful 
implementation of START and is tailored to the specific obligations of 
the new treaty.
    The New START Treaty provides for many of the same verification 
measures that were in START, such as: extensive notifications, 
prohibitions on interference with NTM, unique identifiers, inspections 
and exhibitions.
    Further discussion about the intelligence community's ability to 
monitor the New START Treaty is included in a classified National 
Intelligence Estimate which was provided to the Senate on June 30, 
2010.
                              inspections
    Under START I, there were 12 different types of OSI. According to 
the Department of State, the United States conducted more than 600 
START I inspections in Belarus, Kazakhstan, Russia, and Ukraine. A 1992 
analysis done by the executive branch concluded that to have 95 percent 
confidence of detecting just one instance of cheating involving the 
number of RVs on 25 of Russia's SS-18 ICBMs, we would need at least 16 
inspections per year of such systems under START I. New START would 
permit up to 10 similar inspections per year on all deployed New START 
accountable systems in Russia.

    Question. On what analysis did the administration rely to arrive at 
the number of annual inspects permitted under New START--10 per year on 
deployed systems and 8 per year on nondeployed systems?

    Answer. The interagency assessed the number of type one and type 
two inspections needed annually to meet U.S. inspection objectives as 
the nature of these inspection types emerged during the New START 
negotiations. These assessments ultimately concluded that an annual 
quota of 18 such inspections would be adequate to meet U.S. inspection 
needs.
    The New START Treaty provides for an annual quota of up to 18 short 
notice, onsite inspections to aid in verifying Russian compliance with 
its treaty obligations. These inspections will provide U.S. inspectors 
with periodic access to key strategic weapons facilities to verify the 
accuracy of Russian data declarations and deter cheating. Although the 
new treaty provides for fewer inspections than the annual quota of 28 
permitted under the original START Treaty, the number of inspectable 
facilities in Russia under the New START Treaty (35) is also 
significantly lower than the declared number of such facilities in 
Russia, Belarus, Kazakhstan, and Ukraine--the former Soviet Union--when 
the START Treaty entered into force (70). Furthermore, some 
verification activities covered by two separate inspection types under 
the START Treaty have been combined into a single inspection under the 
New START Treaty.
    The New START Treaty inspection quota includes up to 10 type one 
inspections of deployed and nondeployed strategic offensive arms which 
will be conducted at operating bases for ICBMs, ballistic missile 
submarines (SSBNs), and nuclear-capable heavy bombers. The quota also 
includes up to eight type two inspections focused on nondeployed 
strategic systems, which will be conducted at facilities such as 
storage sites, test ranges, and conversion or elimination facilities, 
as well as formerly declared facilities.

    Question. Based on relevant START I data, or any data provided 45 
days after the date of signature of New START as specified in Part Two 
of its Protocol, how many facilities, by name and location, and 
systems, by name, type and total number, in the Russian Federation 
would be accountable under New START?

    Answer. Please see classified response to be provided separately.

    Question. Are you confident that, to the extent they are needed, 
enough inspections are permitted? If so, on what basis?

    Answer. The New START Treaty provides for an annual quota of up to 
18 onsite inspections to aid in verifying Russian compliance with its 
treaty obligations. While the new treaty provides for fewer inspections 
than the annual quota of 28 permitted under the START Treaty, the 35 
inspectable facilities Russia has declared under New START is also 
lower than the 70 inspectable facilities in Belarus, Kazakhstan, 
Russia, and Ukraine (55 of which were in Russia) at the time of entry 
into force of the START Treaty.
    Further discussion about the intelligence community's ability to 
monitor the New START Treaty is included in a classified National 
Intelligence Estimate, which was provided to the Senate on June 30, 
2010.

    Question. Please provide for the record the analysis, including any 
statistical examination, done regarding the number of inspections 
required to have high, medium and low confidence of monitoring limits 
under New START. This material may be submitted in classified form if 
necessary.

    Answer. This topic is included in a classified National 
Intelligence Estimate on the Intelligence Community's ability to 
monitor the New START Treaty that was provided to the Senate on June 
30, 2010.

    Question. Under START I, up to 10 ``RVOSI-only'' inspections per 
year were permitted in addition to other START I OSI. Under New START, 
there apparently will be 10 ``RVOSI-plus'' inspections minus some but 
not all other START I OSI for all deployed New START accountable 
systems. Is it the case that while the frequency of inspection activity 
goes down (expressed in numbers of inspections per year), the intensity 
of activity during each New START inspection would actually increase 
(expressed as combined START I-OSI activities and the length(s) of time 
for each such inspection)?

    Answer. Type one inspections are to be conducted at the operating 
bases for ICBMs, SLBMs, and nuclear-capable heavy bombers and will 
focus on both deployed and nondeployed strategic systems. Type one 
inspections under the new treaty combine many of the elements from two 
START Treaty inspection types, the data update inspection and the 
reentry vehicle onsite inspection (RVOSI), which were conducted 
separately at ICBM bases and submarine bases under the START Treaty. 
Although there will be a smaller annual quota for onsite inspections 
under New START than under START (a total of 18 under New START 
compared to 28 under START), the scope of the type one inspections at 
the operating bases will be greater than either a data update 
inspection or RVOSI under START, thus the time needed to complete the 
inspection may be much longer than was the case for either of the 
separate inspections conducted under the START Treaty. The period of 
time for completing the portion of the type one inspection to confirm 
the number of reentry vehicles emplaced on a designated, deployed ICBM 
or SLBM will be the time necessary for inspectors to complete the 
inspection. Following the reentry vehicle inspection portion of the 
type one inspection, inspectors are permitted up to 24 hours to 
complete the inspection of nondeployed ICBMs, nondeployed SLBMs, and 
nondeployed mobile launchers of ICBMs at the applicable portions of 
operational bases. For inspection of heavy bombers at air bases, the 
time for conducting a type one inspection is up to 30 hours.
                                 ______
                                 
 response of secretary gates, admiral mullen, and secretary clinton to 
                  question submitted by senator wicker
    Question. Has the U.S. ever made side agreements or signed side 
letters to arms control treaties in the past? If so, what treaties? 
Please share these side agreements, classified or unclassified.

    Answer. The United States has on occasion concluded side agreements 
to arms control agreements. For example, during the negotiation of the 
START Treaty, the United States and the Soviet Union concluded a number 
of side agreements and signed side letters associated with that treaty 
but not considered to be integral parts of the treaty. These included 
agreements on exhibitions of strategic offensive arms and on exchange 
of lists of inspectors, monitors, and aircrew members prior to entry 
into force of the treaty, and side letters on the phased reduction of 
deployed heavy ICBMs, on the distinguishability of B-1 bombers equipped 
for different types of nuclear armaments, and on the provision of 
photographs. These agreements and letters were provided to the Senate 
for its information as part of the START Treaty transmittal package 
(Treaty Doc. 102-20) and are also discussed in the committee's report 
on the START Treaty (Exec. Rept. 102-53).
    In addition, following signature of the INF Treaty but prior to 
ratification, three exchanges of diplomatic notes, and an agreed 
minute, were agreed between the United States and the Soviet Union and 
were provided to the Senate during its consideration of the treaty. 
These are also publicly available (http://www.state.gov/t/isn/trty/
18432.htm).
    No such side agreements or letters were concluded or exchanged with 
respect to the New START Treaty.
                                 ______
                                 

     Responses of Secretary Gates and Admiral Mullen to Questions 
                       Submitted by Senator Lugar

                          prompt global strike
    The New START Treaty will apply to ICBMs or SLBMs that carry 
conventional warheads, a so-called Prompt Global Strike (PGS) 
capability, because conventional warheads on ballistic missiles would 
count against Article II limits in New START. The treaty defines the 
term ``ballistic missile'' to mean a missile that is a weapon-delivery 
vehicle that has a ballistic trajectory over most of its flight path. 
Thus, there is a one-for-one tradeoff within New START's limitations on 
deployed ICBMs, SLBMs and warheads between each PGS system and each 
nuclear missile, warhead, and launcher limited by the New START Treaty. 
If the United States were to deploy 28 SLBMs with conventional 
warheads, the real limit on deployed strategic offensive nuclear arms 
could actually be 672 and the warhead limit would be closer to 1,500-
bringing us closer to what Russia currently deploys in strategic 
nuclear delivery vehicles, at 608.

    Question. How many PGS weapons will the United States have over the 
duration of the New START Treaty, and when and on what delivery 
vehicles will they be deployed?

    Answer. The New START Treaty protects the U.S. ability to develop 
and deploy a conventional prompt global strike (CPGS) capability, 
should the United States decide to pursue such a capability. A study of 
long range strike options, including those that would provide CPGS 
capabilities, is currently underway in the Department of Defense, but 
no decisions have been made on which, if any, CPGS delivery systems to 
acquire or when such systems would be fielded. However, based on 
analysis of alternative options, the Department of Defense has 
concluded that any deployment of conventional warheads on ICBMs or 
SLBMs during the 10-year life of this treaty would be limited, and 
could be accommodated within the aggregate limits of the Treaty while 
sustaining a robust nuclear triad.

    Question. Do the limits in New START constrain either future PGS 
capabilities or our deployed strategic nuclear weapons (missiles, 
launchers and warheads) in ways that could prove detrimental to our 
future strategic capabilities, both conventional and nuclear, and 
deterrence missions?

    Answer. No, the New START Treaty protects the U.S. ability to 
develop and deploy a conventional prompt global strike capability, 
should the U.S. decide to pursue such a capability. The treaty does not 
prohibit the United States from building or deploying conventionally 
armed, treaty-accountable ICBMs or SLBMs. Conventional warheads 
deployed on such ICBMs or SLBMs would count toward the New START Treaty 
aggregate warhead limit of 1,550, and the deployed ICBMs or SLBMs upon 
which they were loaded would count against the limits on deployed 
strategic delivery vehicles. However, based on analysis of alternative 
options, the Department of Defense has concluded that any deployment of 
conventional warheads on ICBMs or SLBMs during the 10-year life of this 
treaty would be limited, and could be accommodated within the aggregate 
limits of the treaty while sustaining a robust nuclear triad.
                  the preamble--additional reductions
    The Preamble to the New START Treaty acknowledges that the Parties 
will seek to reduce further the role and importance of nuclear weapons 
and provide new impetus to a step-by-step process of reducing and 
limiting nuclear arms while maintaining the safety and security of 
their nuclear arsenals, and with a view to expanding this process in 
the future, including to a multilateral approach.

    Question. From a military standpoint, would additional reductions 
in U.S. ICBMs, SLBMs and their launchers, warheads, and heavy bombers 
and their nuclear armaments below those contained in the New START 
Treaty be desirable, and if so, under what conditions?

    Answer. The United States will continue to take concrete steps to 
reduce the role and number of nuclear weapons in its national security 
strategy, in accordance with its long-term goal of a world without 
nuclear weapons. But this goal will not be reached quickly and its 
success will not be achieved by U.S. actions alone.
    As stated in the Nuclear Posture Review, the President has directed 
a review of post-New START arms control objectives to consider further 
reductions in nuclear weapons.
    Specifically, the U.S. goals in post-New START bilateral 
negotiations with Russia will likely include reducing nonstrategic/
tactical nuclear weapons and nondeployed nuclear weapons, as well as 
deployed strategic nuclear weapons--ICBMs, SLBMs, and nuclear-capable 
heavy bombers. Of course, any specific United States-Russian 
discussions on U.S. nonstrategic/tactical nuclear weapons will take 
place in the context of continued close consultation with allies and 
partners. The United States will maintain a nuclear arsenal to maintain 
strategic stability with other major nuclear powers, deter potential 
adversaries, and reassure our allies and partners of our security 
commitments to them.
                                breakout
    The administration's Article-by-Article Analysis for New START 
states that as negotiations proceeded, the Parties agreed to pursue a 
limit for the aggregate number of deployed and nondeployed launchers of 
ICBMs and SLBMs and for deployed and nondeployed heavy bombers equipped 
for nuclear armaments. This limit (now in clause (c) of paragraph 1 of 
Article II) is intended to limit the ability of the Parties to ``break 
out'' of treaty limits by constraining the number of nondeployed ICBM 
and SLBM launchers and nondeployed heavy bombers available for 
deployment. Each Party will have to operate within this aggregate limit 
as it considers whether to build and store new systems, and whether to 
eliminate, convert or retain older systems.
    The 1992 Foreign Relations Committee Report on the START I Treaty 
(Executive Report 102-53) stated, with regard to cheating and breakout 
scenarios, ``there is always the possibility that the other side could 
have extra warheads on undeclared, non-deployed missiles. These 
missiles would be cost effective only if they could be launched from 
mobile missiles that could be reloaded in a relatively short time.''
    START I capped road-mobile systems at 250. It also used Votkinsk 
monitoring to obtain a running count on such systems, such as SS-25s, 
and applied a unique identifier to each such system.

    Question. Under New START, do you assess that (a) Russia could 
maintain undetectable, undeclared, road-mobile missiles, and warheads 
and launchers that could be mated with them, and (b) whether Russia has 
any incentive(s) to do so?

    Answer. This topic is addressed in the classified National 
Intelligence Estimate on the Intelligence Community's ability to 
monitor the New START Treaty that was provided to the Senate on June 
30, 2010.

    Question. What specific elements in the New START Treaty would 
allow us to detect such a covert capability?

    Answer. This topic is addressed in the classified National 
Intelligence Estimate on the Intelligence Community's ability to 
monitor the New START Treaty that was provided to the Senate on June 
30, 2010.

    Question. What U.S. NTM could detect such a covert capability?

    Answer. This topic is addressed in the classified National 
Intelligence Estimate on the Intelligence Community's ability to 
monitor the New START Treaty that was provided to the Senate on June 
30, 2010.

    Question. How long would it take for elements of Russia's strategic 
forces to reload road-mobile missile launchers, in either a training or 
combat scenario?
    Does Russia have the infrastructure required to do either in an 
undetectable fashion?

    Answer. This topic is addressed in the classified National 
Intelligence Estimate on the Intelligence Community's ability to 
monitor the New START Treaty that was provided to the Senate on June 
30, 2010.

    Question. Why does New START contain a limitation only on non-
deployed launchers of road-mobile missiles and no limitation on 
nondeployed, road-mobile missiles of any kind?

    Answer. The central limits on strategic delivery vehicles and their 
associated warheads are intended to limit the deployed strategic forces 
of each Party. During the negotiations, the Parties also agreed to 
pursue a third central limit for the aggregate number of deployed and 
nondeployed launchers of ICBMs and SLBMs, including all mobile 
launchers of ICBMs, and deployed and nondeployed heavy bombers equipped 
for nuclear armaments. This third central limit is designed to limit 
the ability of the Parties to ``break out'' of the treaty limits by 
constraining the number of nondeployed ICBM and SLBM launchers and 
nondeployed heavy bombers available for deployment.
    Although there is no treaty limit on the number of nondeployed 
ICBMs and SLBMs, the ability of a Party to utilize any nondeployed 
ICBMs or SLBMs as part of a ``break out'' scenario is constrained by 
the overall limit on deployed and nondeployed ICBM and SLBM launchers 
and deployed and nondeployed heavy bombers.

    Question. START I contained a limitation on the types of systems 
that could be kept in the nondeployed category. To wit, there was a 
limit of 110 total nondeployed launchers, of which no more than 18 
could have been rail-mobile launchers. Why doesn't New START provide 
comparable specificity with regard to the types of accountable 
launchers or missiles that may be kept in a nondeployed mode?

    Answer. New START was created with a view to maintain flexibility 
for both Parties by allowing each Party to determine for itself how to 
structure its strategic nuclear forces within the treaty's limits. New 
START has three central limits: the number of warheads on deployed 
ICBMs, on deployed SLBMs, and counted for deployed heavy bombers 
equipped for nuclear armaments; the number of deployed ICBMs, SLBMs, 
and heavy bombers; and the number of deployed and nondeployed ICBM 
launchers, SLBM launchers, and heavy bombers equipped for nuclear 
armaments.
    These three limits, while separate, allow each Party a range of 
options with respect to how it will arrange its force structure. Each 
Party must make trade-offs regarding its force structure in order to 
meet all three limits.

    Question. How does the third central limit in New START on deployed 
and nondeployed launchers constrain or shape future Russian strategic 
forces given that they are already well below New START's limits on 
deployed ICBMs, SLBMs, and heavy bombers?

    Answer. This topic is addressed in the classified National 
Intelligence Estimate on the Intelligence Community's ability to 
monitor the New START Treaty that was provided to the Senate on June 
30, 2010.
                            net assessments
    For START I, the United States conducted a net assessment of 
possible U.S. force structures in response to future Russian strategic 
offensive forces. To date, I am aware of no such assessments for U.S. 
and Russian strategic forces over the duration of the New START Treaty.

    Question. Can you provide such assessments to this committee?

    Answer. Assessments regarding the projected effectiveness of 
alternative U.S. nuclear force structures in the context of strategic 
exchanges involving potential future Russian Federation nuclear force 
structures and target bases were conducted within the context of the 
Nuclear Posture Review (NPR). The postulated Russian capabilities used 
to conduct these analyses were based on the intelligence community's 
assessments of potential future Russian force structures under various 
assumptions.
    The Nuclear Posture Review analyzed the ability of notional U.S. 
force structures to meet posited deterrence and stability requirements 
at progressively lower numbers of U.S. and Russian nuclear forces to 
provide a basis for identifying acceptable strategic force levels that 
could be reflected in the interagency approved negotiating instructions 
to the U.S. New START delegation. This analysis was conducted by the 
U.S. Strategic Command in support of the Nuclear Posture Review at the 
Top Secret level.
    There was no ``final net assessment'' of the balance of U.S. and 
Russian Federation strategic offensive forces under New START limits. 
Rather, the acceptability of U.S. strategic forces fielded within 
potential treaty limits was assessed in terms of their ability to meet 
posited U.S. deterrence and stability requirements.

    Question. How will future U.S. strategic forces provide support for 
deterrence missions, in particular, extended deterrence missions, under 
New START?

    Answer. The Secretary of Defense, based on recommendations from the 
Joint Chiefs of Staff, has established a baseline strategic nuclear 
force structure that fully supports U.S. security requirements 
including those associated with extended deterrence, and conforms to 
the New START Treaty limits. This baseline force structure--which 
provides a basis for future planning--provides the flexibility to make 
adjustments as appropriate, and as permitted by the treaty:

   The United States currently has 450 intercontinental ballistic 
        missiles (ICBMs) deployed in silos. The baseline plan for 
        compliance with the New START Treaty limits will retain up to 
        420 deployed Minuteman III ICBMs, each with a single warhead.
   The United States currently has 94 deployable nuclear-capable heavy 
        bombers. Under the baseline plan, some will be converted to 
        conventional-only heavy bombers (not accountable under the 
        treaty), and up to 60 nuclear-capable heavy bombers will be 
        retained.
   The United States currently has 14 strategic ballistic missile 
        submarines (SSBNs). Under the baseline plan, all 14 will be 
        retained. The United States will reduce the accountable number 
        of submarine-launched ballistic missile (SLBM) launchers 
        (launch tubes) from 24 to 20 per SSBN, and deploy no more than 
        240 SLBMs at any time.

    Over the next decade, the United States will invest well over $100 
billion in nuclear delivery systems to sustain existing capabilities 
and modernize some strategic systems. U.S. nuclear weapons will undergo 
extensive life extension programs in the coming years to ensure their 
safety, security, and effectiveness. Maintaining a credible nuclear 
deterrent requires that the United States operate a modern physical 
infrastructure and sustain a highly capable workforce. The 
administration's modernization plan will ensure that our nuclear 
complex has the essential capabilities to support a strong nuclear 
deterrent--as well as arms control, nonproliferation, and 
counterproliferation requirements--over the next decade and beyond. The 
President is committed to modernizing the nuclear complex and 
maintaining a safe, secure, and reliable nuclear weapons stockpile 
without nuclear testing.
    The Nuclear Posture Review makes clear that as long as nuclear 
weapons exist, the U.S. will maintain a safe, secure, and effective 
nuclear arsenal to deter attacks on the U.S., our allies, and partners. 
This includes extended deterrence. Extended deterrence and assurance 
remain strong and the U.S. remains firm in its security commitments to 
all of our allies and partners. While the U.S. is retiring the nuclear-
tipped sea-launched cruise missile, the United States retains a variety 
of capabilities to forward-deploy nuclear weapons if the situation ever 
demands, including dual-capable fighters and heavy bombers.

    Question. How do Russia's many tactical nuclear weapons shape 
stability calculations relative to future U.S. strategic nuclear 
forces?

    Answer. Because of their limited range and very different roles 
from those played by strategic nuclear forces, the vast majority of 
Russian tactical nuclear weapons could not directly influence the 
strategic nuclear balance between the United States and Russia. Russian 
nuclear-armed sea launched cruise missiles, which could be launched 
from attack submarines deployed off U.S. coasts, hold locations in the 
United States at risk, but could not threaten deployed submarine-
launched ballistic missiles (which will comprise a significant fraction 
of U.S. strategic forces under New START), and would pose a very 
limited threat to the hundreds of silo-based ICBMs that the United 
States will retain under New START. Because the United States will 
retain a robust strategic force structure under New START, Russia's 
tactical nuclear weapons will have little or no impact on strategic 
stability.
                                 ______
                                 

     Responses of Secretary Gates and Admiral Mullen to Questions 
                     Submitted by Senator Barrasso

    Question. A foreign media source in India recently reported that in 
recent years Russia has developed new long-range nuclear missiles armed 
with multiple warheads that are said to be capable of ``piercing U.S. 
missile defenses.''
    The article stated that ``the land-based RS-24 missile is due to be 
deployed next year, and the submarine-launched Bulava missile is still 
undergoing tests.'' The article also states that by 2016 Russia plans 
to build a heavier land-based missile.
    I would like to hear your analysis and evaluation of Russia's 
modernization of its nuclear arsenals. How concerned are you about 
these technological developments?

    Answer. The Russian Federation has announced that it is developing 
and deploying new ICBMs and SLBMs. These include the MIRVed RS-24 ICBM, 
the new RSM-56 SLBM, a modernized SS-N-23 SLBM, and a new class of SSBN 
to carry the RSM-56. Russia has also stated that it is developing a new 
heavy ICBM and that it has signed a contract for preliminary design 
work on a new heavy bomber. Russia has also stated it is developing and 
deploying new nuclear warheads for its strategic nuclear force.
    These developments are of concern to the Department of Defense. The 
Department will take all necessary steps to ensure that U.S. forces, 
and particularly our strategic forces, are able to fulfill their 
missions regardless of Russian technological or other types of 
advances.

    Question. The United States and Russia have over 90 percent of the 
world's nuclear weapons. However, there are many nations who have 
interest in increasing their nuclear weapon supplies and capabilities.
    The Nuclear Posture Review mentions concerns from the United States 
and other nations about China's military nuclear modernization efforts. 
The lack of transparency in China's nuclear programs raises further 
questions about China's future strategic intentions.
    If we continue to reduce our nuclear force structure, do you 
believe this posture will invite other countries like China, who are 
ambitiously designing and fielding new weapons systems, to ramp up 
their nuclear programs to achieve parity with the United States and 
Russia?

    Answer. China's military modernization programs, including its 
nuclear modernization, are a significant concern which we watch 
closely. However, China presently does not appear to be seeking parity 
with either the United States or Russia, and its nuclear arsenal 
remains much smaller than the U.S. and Russian arsenals. As a declared 
nuclear weapon state under the NPT, China's restraint in its nuclear 
modernization is important to nuclear disarmament and global non-
proliferation efforts. We look to China to be more transparent about 
its strategic programs and to show restraint in them.
    As the United States and Russia conduct bilateral negotiations to 
reduce nuclear arsenals further, the United States will seek greater 
transparency and assurances from China that it does not intend to 
increase its stockpile further in an attempt to achieve nuclear parity 
with the United States and Russia.

    Question. The United States and Russia have over 90 percent of the 
world's nuclear weapons. However, there are many nations who have 
interest in increasing their nuclear weapon supplies and capabilities.
    The Nuclear Posture Review mentions concerns from the United States 
and other nations about China's military nuclear modernization efforts. 
The lack of transparency in China's nuclear programs raises further 
questions about China's future strategic intentions.
    As the United States and Russia make reductions to their nuclear 
weapons, what level of confidence do you have that other nations and 
nonstate actors will halt their pursuit or expansion of nuclear 
weapons?

    Answer. The Nuclear Posture Review (NPR) states that the United 
States will give top priority to discouraging additional countries from 
acquiring nuclear weapons capabilities and stopping terrorist groups 
from acquiring the materiels to build nuclear bombs. To that end, the 
NPR states that the United States will need to intensify its efforts to 
build broad international support for the rigorous measures needed to 
prevent those dangers while maintaining stable deterrence and an 
effective nuclear arsenal. Reductions in U.S. and Russian strategic 
nuclear forces may contribute to these efforts by facilitating 
cooperation with Russia, fortifying U.S. credibility in calling on 
other nations to reduce or forswear nuclear capabilities, and 
reinforcing the global non-proliferation regime.
    Although it is difficult to define levels of confidence regarding 
changes in other states' and nonstate actors' behavior as the United 
States and Russia make reductions in strategic nuclear forces, this 
comprises only a part of a broader effort to rebuild and strengthen the 
global nonproliferation regime and accelerate efforts to prevent 
nuclear terrorism. Other initiatives include aggressively seeking to 
secure all nuclear materiels worldwide, continuing cooperative threat 
reduction programs, impeding sensitive nuclear trade, and renewing the 
U.S. commitment to hold fully accountable any supporter or enabler of 
WMD terrorism, among others.
    Question. While the U.S. and Russia have a rough equivalence in 
their strategic nuclear weapons, there is a significant imbalance in 
tactical nuclear weapons that favors Russia. The balance of tactical 
nuclear weapons is of particular concerns as we decrease the number of 
deployed strategic nuclear weapons.
    Since the new treaty proposes reduction of deployed strategic 
nuclear weapons, what are our options to provide assurances to our 
allies in Europe?

    Answer. The security architecture in Europe will retain a nuclear 
dimension as long as nuclear threats to U.S. allies and partners 
remain. A credible U.S. ``nuclear umbrella'' is provided by a 
combination of means--the strategic forces of the U.S. triad, 
nonstrategic nuclear weapons deployed forward in NATO countries, and 
U.S.-based nuclear weapons that could be deployed forward quickly to 
meet regional contingencies. Any change in the NATO component of these 
means will be identified and agreed upon as a collective alliance 
decision. The United States will also maintain its extended deterrence 
commitments to our allies in Europe through the continued forward 
deployment of U.S. forces in the region and strengthening U.S. and 
allied nonnuclear capabilities, including regional ballistic missile 
defense.
    Tactical nuclear weapons are a concern, and, as stated in the 
Nuclear Posture Review, should be included in any future reduction 
arrangements between the United States and Russia. Ratification and 
entry into force of the New START Treaty would facilitate those 
discussions, whereas failure to ratify the treaty likely would make 
engagement with Russia on nonstrategic nuclear weapons more difficult.
                                 ______
                                 

     Responses of Secretary Gates and Admiral Mullen to Questions 
                      Submitted by Senator Wicker

                            missile defense
    Question. General O'Reilly, the current head of the Missile Defense 
Agency, testified before the House Armed Services Committee that: 
``Relative to the recently expired START Treaty, the New START Treaty 
actually reduces constraints on the development of the missile defense 
program. Unless they have New START accountable first stages (which we 
do not plan to use), our targets will no longer be subject to START 
constraints, which limited our use of air-to-surface and waterborne 
launches of targets which are essential for the cost-effective testing 
of missile defense interceptors against MRBM and IRBM targets in the 
Pacific area.
    It appears that we will now be able to launch missile defense 
targets from airplanes and surface ships. Why is this useful?

    Answer. The Missile Defense Agency has long used air launched 
targets which are not accountable under the START Treaty. Such launches 
provide the Missile Defense Agency with greater flexibility to design 
tests that are more operationally realistic by enabling them to launch 
targets along any azimuth (or angle) in relation to the interceptor 
missile. The retired Trident I SLBM remained accountable under the 
START Treaty but will no longer be accountable under New START, thus 
expanding the availability of target missiles. The use of targets 
utilizing missiles not accountable under the New START Treaty, launched 
from airplanes and surface ships, which was prohibited by START but is 
not prohibited by the New START Treaty, will support more cost-
effective testing of missile defense interceptors against medium- and 
intermediate-range ballistic missile threats in the Pacific region.

    Question. It appears that the reason we can now launch missile 
defense targets in this way is because it is no longer prohibited for 
ballistic missiles to be launched from airplanes or surface ships under 
the New START treaty. Is this correct?

    Answer. Yes. Those prohibitions do not exist under the New START 
Treaty. With respect to missile defense target launches, the New START 
Treaty actually provides greater flexibility, especially with regard to 
air-to-surface and water-borne launches of long-range ballistic 
missiles. Under START, air-to-surface ballistic missiles (called ASBMs) 
and water-borne launches of ballistic missiles from surface ships using 
treaty accountable ICBMs and SLBMs were prohibited.

    Question. Is it really a net plus for U.S. security if we can 
launch missile defense targets from these platforms but at a cost of 
greater freedom for Russia to research and develop and deploy ballistic 
missiles with nuclear warheads from these same platforms?

    Answer. We have previously been unable to exploit air-launched and 
water-borne launches of missile defense targets using the first stage 
of ICBMs and SLBMs due to prohibitions under the START Treaty. Under 
New START, we now have the flexibility to maximize our ability to test 
and develop missile defense targets, which directly enhances our 
national security. From a cost-benefit standpoint, we benefit since we 
have the opportunity to use various launch configurations to enhance 
our national security; both Parties will have equal rights to use air-
launch and water-borne launch to develop offensive capability, should 
they so choose.
                                 ______
                                 

    Responses of Secretary Gates and Secretary Clinton to Questions 
                       Submitted by Senator Lugar

    Question. For each of the following inspections and exhibitions 
provided for under START I, please specify (a) whether New START 
provides for such inspections and exhibitions; (b) where in the New 
START Treaty, its protocol and annexes such inspections and exhibitions 
are provided for; and (c) if such inspection and exhibition is not 
permitted under New START, an explanation as to why:

   Baseline data inspections/exhibitions;
   Data update inspections;
   New facility inspections;
   Suspect-site inspections;
   Reentry vehicles inspections of deployed ICBMs and SLBMs;
   Post-exercise and dispersal inspections;
   Conversion or elimination inspections;
   Close-out inspections;
   Formerly declared facility inspections;
   Technical characteristics exhibitions/inspections;
   Distinguishability exhibitions/inspections for heavy bombers and 
        long-range ALCMs.

    Answer. The New START Treaty significantly simplifies the 
inspections framework from the original START Treaty.
    Baseline data inspections under the START Treaty were designed to 
provide an opportunity during the opening months of START Treaty 
implementation to conduct an initial inspection at each inspectable 
facility in order to allow each side to familiarize itself with the 
accountable items of inspection at each of these facilities subject to 
inspection. Given the detailed familiarity of both sides with the 
declared facilities likely to be subject to inspection under the New 
START Treaty, it was agreed that similar one-time baseline data 
inspections would not be needed under the New Treaty. The procedures 
for type one and type two inspections are outlined in Sections VI and 
VII of Part Five of the Protocol to the Treaty, and further specified 
in Parts Six and Seven of the Annex on Inspection Activities.
    The functions of the data update inspections under START are 
largely served by type one and type two inspections, during which 
inspectors will confirm the accuracy of the declared data regarding 
deployed and/or nondeployed items of inspection at facilities subject 
to inspection. Procedures for the conduct of these inspections are 
outlined in Sections VI and VII of Part Five of the Protocol to the 
Treaty and are further specified in Parts Six and Seven of the Annex on 
Inspection Activities.
    The sides agreed that retaining new facility inspections was not 
necessary, because the sides are considered unlikely to open many new 
facilities during the life of the New START Treaty. Moreover, the 
functions of a new facility inspection can be readily accomplished by 
the first type one or type two inspections conducted at a new facility.
    The sides agreed that suspect-site inspections would not be 
required under the New START Treaty. The purpose of these inspections 
under the START Treaty was to confirm that the covert assembly of 
mobile ICBMs was not occurring at a few selected ballistic missile 
production facilities. Each Party was obligated to declare up to three 
facilities as potentially subject to such a suspect-site inspection, 
because they produced ballistic missiles as large as, or larger than, 
any mobile ICBM possessed by that side. During the development of the 
U.S.-proposed verification regime, the relevant departments and 
agencies concluded that suspect-site inspections provided minimal value 
in assisting the detection of potential covert production of mobile 
ICBMs. Ultimately, the United States agreed that verifying Russia's 
ballistic missile production would be accomplished through other means, 
including the combination of confirming data declarations, the 
application of unique identifiers to all strategic ballistic missiles, 
advance notification of the exit of solid fuel ICBMs or SLBMs from 
their production facilities, and the use of national technical means of 
verification.
    The functions of reentry vehicle inspections for deployed ICBMs and 
SLBMs conducted under START are served by reentry vehicle inspections 
conducted as a key component of type one inspections carried out at 
ICBM bases and ballistic missile submarine bases. The details of the 
procedures for conducting these inspections are set forth in Section VI 
of Part Five of the Protocol and Part Six of the Annex on Inspection 
Activities. The purpose of such inspections is to confirm the number of 
reentry vehicles emplaced on designated, deployed ICBMs and SLBMs.
    The sides agreed not to include post-exercise dispersal inspections 
under the New START Treaty. These inspections were never used during 
the implementation of the START Treaty, simply because the Russian 
Federation never declared exercise dispersals for its mobile ICBM 
force. The United States could use a type one inspection to conduct an 
inspection at a mobile ICBM base whose forces participated in an 
exercise dispersal, should the Russians ever conduct an exercise 
dispersal.
    The functions of the START Treaty conversion or elimination 
inspections are served by conversion or elimination inspections 
conducted under the New START Treaty, which will count against the 
annual quota for type two inspections. The overall procedures for 
conducting the conversion or elimination of strategic offensive arms 
subject to the treaty are set forth in Part Three of the Protocol, 
while the more detailed procedures for such inspections are contained 
in Section VI of Part Five of the Protocol, and further defined in Part 
Seven of the Annex on Inspection Activities.
    The functions of close-out inspections conducted under the START 
Treaty can be served by the conduct of a formerly declared facility 
inspection under New START. Eliminated facilities become subject to 
formerly declared facility inspections, which could be conducted should 
questions arise regarding the activities taking place there. Under the 
New START Treaty, formerly declared facility inspections count towards 
the type two inspection quota in accordance with Section VII of Part 
Five to the Protocol.
    Technical characteristics exhibitions and distinguishability 
exhibitions conducted under the START Treaty have been condensed in a 
single exhibition under the New START Treaty, the conduct of which is 
outlined in Section VIII of Part Five of the Protocol to the Treaty, 
with more specific procedures set forth in Part Eight of the Annex on 
Inspection Activities. The purposes of these exhibitions conducted 
under the new treaty are to demonstrate the distinguishing features and 
to confirm the technical characteristics of each new type, variant, or 
version of an ICBM, mobile ICBM launcher, SLBM, or heavy bomber 
equipped for nuclear armaments. Distinguishability exhibitions for 
long-range Air-Launched Cruise Missiles (ALCMs) conducted under START 
do not exist under the New START Treaty, because it is no longer 
necessary to establish distinguishing features of long-range ALCMs in 
order to verify compliance with the treaty.

    Question. Please indicate (a) which New START exhibitions will 
count against the 18 annual inspections the treaty permits the United 
States to conduct in Russia and specify (b) how the treatment provided 
each such exhibition in New START differs from that provided in START I 
with regard to total annual inspections permitted and the information 
or items monitored in such exhibitions.

    Answer. Exhibitions will not count against the quota of 18 annual 
inspections permitted under the New START Treaty. Similarly, 
exhibitions conducted under the START Treaty did not count against the 
annual inspection quota for that treaty. Much of the information on 
items displayed during an exhibition conducted under the New START 
Treaty remains unchanged from that obtained under the START Treaty.

    Question. New START's Preamble states that the Parties seek ``to 
create a mechanism for verifying compliance with the obligations under 
this Treaty, adapted, simplified, and made less costly in comparison 
to'' START I. Please specify what adaptations were made to START I's 
verification regime that make the New START regime simpler and less 
costly.

    Answer. A goal of each Party in the negotiations was to make the 
New START verification regime simpler and less costly. This was 
achieved by consolidating a number of START inspections into each of 
the two types of New START inspections, thereby reducing the number of 
inspections carried out at inspectable facilities.
    Under New START, elements of data update inspections and reentry 
vehicle onsite inspections conducted under START were consolidated into 
a single type one inspection. Although type one inspections at 
operational bases will be longer in duration, there will be fewer 
numbers of inspections at these facilities each year. For example, 
under START, operational ICBM and ballistic missile submarine (SSBN) 
bases were subject to up to four START inspections each year, up to two 
each of two types of inspection.
    Under New START, the maximum number of inspections at such 
facilities is two per year. New START also consolidated START data 
update inspections, formerly declared facility inspections, and 
conversion or elimination inspections into type two inspections. These 
inspections will be conducted at storage, repair, loading, maintenance, 
and conversion or elimination facilities, test ranges, eliminated 
facilities where nondeployed ICBMs, SLBMs and heavy bombers equipped 
for nuclear armaments were located, or at operational bases to confirm 
the elimination of strategic offensive arms.
    The New START verification regime is tailored to the limits of the 
treaty and will support the standard of effective verification that was 
achieved under START inspections. It combines elements of the START 
Treaty with new elements designed for the limitations of the New START 
Treaty. Type one and type two inspections conducted under New START 
were derived from the 12 different types of inspections that were 
provided for under START. Through the 15 years of successful 
implementation of START inspections, the interagency judged that some 
of the START inspections could be combined, consolidated, or eliminated 
as a way to make New START inspections simpler and less costly. 
Baseline data inspections, new facility inspections, suspect site 
inspections, post exercise dispersal inspections, and closeout 
inspections were eliminated under New START because they were not 
necessary to verify the limits of the New START Treaty.
    Costs will also be reduced through the use of the simplified 
inspection procedures that were developed to confirm the elimination of 
items subject to the treaty. Under START elimination inspections, 
inspectors were required to remain at the elimination inspection sites 
up to several weeks a year as items were undergoing the entire 
elimination process. During a type two elimination inspection under New 
START, inspectors now would confirm only the results of the elimination 
process once notified by the possessing Party that an item of 
inspection has been eliminated.

    Question. For the United States, what are annual implementation 
costs expected to be over the duration of the New START Treaty?

    Answer. The Defense Agencies and Military Departments are presently 
engaged in an analysis of annual budget costs and associated funding 
requirements. The final costs will be dependent on decisions concerning 
the future force structure, conversion and elimination procedures, 
facility requirements for supporting inspections, and the development 
of additional inspection equipment. While the Nuclear Posture Review 
provided certain recommendations concerning the force structure, it did 
not specify the New START-compliant structure nor set the schedule for 
its implementation. Costs will also be dependent on the types of 
elimination and conversion procedures that are selected for the 
conversion or elimination of U.S. strategic offensive arms. The treaty 
provides the flexibility for the U.S. to decide what conversion or 
elimination procedure is most suitable for the task at hand. In 
addition, the Services are reviewing potential facility modifications 
that may be necessary to support inspection activities. Finally, the 
treaty also provides for the possible development of new inspection 
equipment to facilitate and enhance inspection activities.
    Until the Military Departments have completed their review of these 
matters, it would be premature to speculate on the implementation 
costs.

    Question. Please provide a listing, by calendar year, over the 
lifetime of the START I Treaty, of (a) the number of inspections per 
year conducted in Russia and (b) the type of each such inspection 
(RVOSI, data update, etc.); and (c) the location in Russia where each 
such inspection was conducted.

    Answer. Please see classified response to be provided separately.
                              article iii
    Under paragraph 6 of Article III, missiles of an existing type 
cease to be subject to New START ``if all ICBM or SLBM launchers of a 
type intended for such ICBMs or SLBMs have been eliminated or converted 
in accordance with Part Three of the Protocol to this Treaty.''

    Question. Is it possible for Russian missiles of one type to be 
launched by a Russian launcher not originally designed or intended for 
that missile type?

    Answer. Please see classified response to be provided separately.

    Question. How observable are preparations to modify a launcher to 
carry a missile of a different type, i.e., a type for which it was not 
originally designed, intended or used?

    Answer. Please see classified response to be provided separately.

    Question. How many Russian INF or START accountable mobile 
launchers were eliminated from accountability but then subsequently 
used for launch of other missiles, either by Russia, or by nations to 
which Russia exported such launchers?

    Answer. There is no evidence that launchers eliminated from 
accountability under the INF or START Treaties have been used by Russia 
to launch other missiles, or have been exported to other nations to 
launch other missiles.
                       conversion and elimination
    Paragraph 4 of Section I of Part Three of the New START Protocol 
appears to state that Parties may continue to apply conversion or 
elimination procedures rendering strategic offensive arms 
``inoperable,'' (paragraph 2) or conversion of ICBM or SLBM launchers 
to make them ``incapable'' (paragraph 3) for strategic missions, even 
when, per paragraph 4, ``in the opinion of the other Party, the 
procedures developed by the Party carrying out the conversion or 
elimination are ambiguous or do not achieve the goals set forth in 
paragraph 2 or paragraph 3 of this Section,'' subject then only to 
demonstrating the ambiguous or deficient procedure to the Bilateral 
Consultative Commission. The determinations regarding inoperability and 
incapability appear to be made only by the Party applying (even 
ambiguous) conversion and elimination procedures.

    Question. For the United States, what criteria will be used to 
determine whether elimination procedures for strategic offensive arms 
subject to the New START Treaty in Russia are, or are not, ambiguous?

    Answer. Part Three of the Protocol makes clear that strategic 
offensive arms will no longer be subject to the treaty's aggregate 
limits when they are rendered inoperable, precluding their use for 
their original purpose. Such elimination may be accomplished by 
procedures described in Part Three of the Protocol or using a newly 
developed procedure. If a new procedure for elimination is developed, 
the inspecting Party will consider whether the procedure will clearly 
preclude the item's use for its original purpose.
    In determining whether newly developed elimination procedures are 
sufficient, the United States will not limit itself to a predetermined 
set of criteria. Rather, we will assess the procedures used and take 
into account the experience and knowledge gained from 15 years of START 
Treaty implementation to determine whether the procedure will render 
that item inoperable.
    In the event questions arise regarding newly developed procedures, 
a Party may request that the Party carrying out the elimination 
conduct, within the framework of the Bilateral Consultative Commission 
(BCC), a demonstration of the procedures. Demonstrations may include 
descriptions, diagrams, drawings, and photographs, as needed, or may be 
conducted onsite, if so agreed.

    Question. For the United States, what criteria will be used to 
determine whether conversion procedures for strategic offensive arms 
subject to the New START Treaty in Russia are, or are not, ambiguous?

    Answer. Part Three of the Protocol makes clear that an ICBM 
launcher, SLBM launcher, or heavy bomber will no longer be subject to 
the treaty's aggregate limits when it is rendered incapable of 
employing ICBMs, SLBMs, or nuclear armaments for heavy bombers by 
agreed procedures described in the Protocol. If a new procedure for 
conversion is developed, the inspecting Party will consider whether the 
procedure will clearly result in rendering the item incapable of 
employing ICBMs, SLBMs, or nuclear armaments for heavy bombers, as 
applicable.
    In determining whether newly developed conversion procedures are 
sufficient, the United States will not limit itself to a predetermined 
set of criteria. The procedures used for conversion must be such that 
the other Party can confirm the results of the conversion. If it 
appears that a newly developed procedure is not clear enough to confirm 
the conversion of an item, a Party may raise the issue in the framework 
of the Bilateral Consultative Commission (BCC) and require the 
inspected Party to conduct a demonstration of the new procedures.

    Question. For the United States, what criteria will be used to 
determine whether procedures for the conversion or elimination of 
strategic offensive arms subject to the New START Treaty in Russia 
would, or would not, meet the goals specified in paragraphs 2 and 3 of 
Section I of Part Three of the New START Protocol?

    Answer. The treaty provides flexibility for various conversion or 
elimination procedures, each of which must meet the specified criteria. 
These criteria ensure that the converted item must be rendered 
incapable of employing ICBMs, SLBMs, or nuclear armaments; and the 
eliminated item must be rendered inoperable, precluding its use for its 
original purpose.
    Specifically, procedures for the elimination of solid-fuel ICBMs 
and SLBMs are contained in Section II of Part Three of the Protocol. 
Procedures for the conversion or elimination of ICBM launchers are 
contained in Section III of Part Three of the Protocol. Procedures for 
the conversion or elimination of SLBM launchers are contained in 
Section IV of Part Three of the Protocol. Procedures for the conversion 
or elimination of heavy bombers are contained in Section V of Part 
Three of the Protocol. The Parties have agreed that the specific 
procedures contained in these sections meet the standards specified in 
paragraphs 2 and 3 of Section I.
    Newly developed procedures for conversion or elimination, which are 
also permitted, must meet these same standards. In determining whether 
newly developed conversion or elimination procedures are sufficient, 
the United States will not limit itself to a predetermined set of 
criteria.

    Question. How will the United States determine whether a strategic 
offensive launcher in Russia is (a) ``inoperable''; (b) ``incapable of 
employing ICBMs, SLBMs, or nuclear armaments''; and (c) completely 
eliminated?

    Answer. ICBM and SLBM launchers are rendered ``inoperable'' by 
using the procedures provided for in paragraphs 1-4 of Section III and 
paragraph 1 of Section IV, respectively, of Part Three of the Protocol 
to the New START Treaty. Once these procedures have been completed and 
applicable confirmation procedures are complied with, the ICBM or SLBM 
launcher is considered to be eliminated.
    SLBM launchers and nuclear-capable heavy bombers are considered to 
be ``incapable of employing ICBMs, SLBMs, or nuclear armaments'' once 
the procedures provided for in paragraphs 6 and 7 of Section IV and 
paragraphs 3 and 4 of Section V, respectively, of Part Three of the 
Protocol to the New START Treaty are completed. The results of these 
procedures are subject to verification through type two inspections. 
Once these procedures have been completed and applicable confirmation 
procedures are complied with, a launcher or heavy bomber is considered 
to be converted and ceases to be subject to Article II limits of the 
treaty.

    Question. Part Three of the New START Protocol lays out rules for 
conversion of strategic offensive arms subject to the treaty, but not 
reconversion, i.e., back to a role or with capability to undertake 
strategic missions and uses consistent with their original purpose. (a) 
What are the benefits of this situation for the United States; and (b) 
why is there no reconversion ban in the protocol?

    Answer. The United States is currently converting all of its B-1B 
heavy bombers such that they will be incapable of employing nuclear 
armaments. Once the conversion process is completed, the B-1B will no 
longer be subject to the New START Treaty and will not count against 
its limits. The United States also plans the similar future conversion 
of some, but not all, of its B-52H heavy bombers.
    The United States has completed the conversion of all the SLBM 
launchers on four Ohio-class submarines into cruise missile launchers 
or rendered the launchers incapable of employing SLBMs. As a 
consequence, these SLBM launchers will no longer count against the New 
START Treaty limits. The United States agreed in the Second Agreed 
Statement in Part Nine of the Protocol to conduct one-time exhibitions 
of each of the four SSGNs to confirm that the launchers in these 
submarines are incapable of launching SLBMs.
    The United States also plans to convert individual SLBM launchers 
on a number of SSBNs by rendering them incapable of employing SLBMs and 
thus reducing the accountable aggregate number of SLBM launchers while 
maintaining the existing number of SSBNs.
    The Parties also agreed to use exhibitions or inspections as set 
forth in the First, Second, Third, and Seventh Agreed Statements to 
provide assurance that the converted missile launchers remain incapable 
of launching strategic ballistic missiles and the converted heavy 
bombers remain incapable of launching nuclear armaments.
    In order to provide for future contingencies, the United States did 
not support a ban on the reconversion of ICBM and SLBM launchers and 
heavy bombers. Changes in future U.S. plans for its strategic forces or 
unforeseen events, both technological or policy related, could 
potentially require the reconversion of some launchers or heavy bombers 
to their original purpose in order to meet such future contingencies. 
Reconversion would allow such flexibility.

    Question. Why are there no provisions in Part Three of the Protocol 
specifically regarding the conversion of ICBMs and SLBMs, only 
launchers of ICBMs and SLBMs and elimination of ICBMs and SLBMs?

    Answer. Part Three of the Treaty's Protocol provides for the 
conversion of launchers of ICBMs and SLBMs by rendering them incapable 
of employing ICBMs or SLBMs. The other Party must be able to confirm 
this. The treaty's conversion procedures cannot be applied to ICBMs and 
SLBMs because these missiles cannot be rendered incapable of employing 
nuclear weapons while still remaining operable. Therefore, ICBMs and 
SLBMs are removed from accountability under the treaty by elimination, 
that is, by rendering them inoperable.

    Question. Paragraph 3 also notes that a converted strategic 
offensive arm that ceases to be subject to the New START Treaty ``may 
be used for purposes not inconsistent with the Treaty.'' Could you 
provide an illustrative list of such purposes?

    Answer. Some examples of ``purposes not inconsistent with the 
Treaty'' for which converted strategic offensive arms might be used 
are: use of a converted SLBM launcher as a launcher capable only of 
launching nonnuclear sea-launched cruise missiles; and use of a 
converted heavy bomber as a heavy bomber capable only of carrying 
nonnuclear armaments.
                    ratification and implementation
    Question. Does the executive branch believe it has authority under 
relevant U.S. law to implement reductions or limitations of United 
States strategic nuclear forces at or below limits provided in the New 
START Treaty, or other actions relevant to such reductions and 
limitations planned and described in the 2010 Nuclear Posture Review, 
before the New START Treaty, its protocol and annexes, enters into 
force in accordance with paragraph 1 of Article XIV of the New START 
Treaty?

    Answer. Part Eight of the Protocol on provisional application makes 
it clear that the executive branch is not seeking to implement the New 
START Treaty's reductions or limitations prior to entry into force of 
the treaty. Any reductions in strategic forces that may occur prior to 
entry into force of the treaty would be consistent with the President's 
authority as commander in chief and not pursuant to the treaty.
                        space launch facilities
    Part One of the Protocol defines (term no. 73.) a ``space launch 
facilit.'' as ``a specified facility from which objects are delivered 
into the upper atmosphere or space using ICBMs or SLBMs.''

    Question. How many such facilities are there in the Russian 
Federation?

    Answer. The initial Russian data declaration will be received no 
later than 45 days after entry into force of the treaty. However, the 
former Soviet START parties (Belarus, Kazakhstan, Russia, and Ukraine) 
had four declared space launch facilities under START: three in the 
Russian Federation (Nenoksa, Plesetsk, and Svobodnyy) and one in 
Kazakhstan (Leninsk-1).

    Question. Does Russia conduct peaceful space launch activities at 
any facility where it either stores or tests offensive ballistic 
missiles?

    Answer. The following facilities have been used in the past for 
both peaceful space launches and storage and/or testing of offensive 
ballistic missiles:

   Dombarovskiy ICBM Base, Russia (declared under START; Russia has 
        provided site diagrams indicating its intent to declare under 
        New START);
   Kapustin Yar Test Range, Russia (declared under START; Russia has 
        provided site diagrams indicating its intent to declare under 
        New START);
   Leninsk Test Range and Space Launch Facilities, Kazakhstan 
        (declared under START); and
   Plesetsk Test Range and Space Launch Facilities (declared as a test 
        range and as a space launch facility under START; Russia has 
        provided site diagrams indicating its intent to declare under 
        New START).

    Russia's space launch facility declarations under New START will 
not be known until the initial data declaration 45 days after EIF.

    Question. Is it possible to distinguish the launch of a rocket that 
is a strategic offensive weapon from the launch of a peaceful space 
launch vehicle?

    Answer. Please see classified response to be provided separately.
             nunn-lugar/cooperative threat reduction (ctr)
    Question. Do you believe that United States CTR assistance to the 
Russian Federation will be needed to ensure that the Russian Federation 
is able to implement the New START Treaty efficiently and to maintain 
security and accurate accounting on Russian nuclear weapons and 
weapons-usable components and materiels?

    Answer. The Russian Federation will be able to implement the New 
START Treaty without U.S. Cooperative Threat Reduction (CTR) reduction 
assistance, but we believe it will be able to do so more efficiently 
and will be better able to maintain security and accurate accounting 
with U.S. CTR assistance. The CTR program has played a major role in 
the elimination of strategic offensive arms that were taken out of 
service due to implementation of the START Treaty for almost two 
decades. The CTR program, in concert with the non-proliferation 
programs of the Department of Energy, has also played a very 
significant role in securing Russian nuclear weapons and stocks of 
fissile materiels.
    Clearly, the responsibility for implementing the New START Treaty 
will belong to the Government of Russia. The role of the CTR program 
will be, as it was throughout the implementation of START, to 
incentivize the Russian Government to continue the excellent 
cooperation it has had with the Department of Defense in eliminating 
Russian strategic delivery systems and in enhancing nuclear weapons 
storage and transportation security. It is also important to note that 
the elimination procedures that the Russian Government has requested us 
to continue to employ in some cases are more robust than those required 
under the New START Treaty, and that payment for the work funded by CTR 
is not made until the elimination activity has been confirmed as 
completed by a U.S. Government CTR official.
                                 ______
                                 

    Responses of Secretary Gates and Secretary Clinton to Questions 
                     Submitted by Senator Barrasso

    Question. Recently, former Secretary James R. Schlesinger testified 
before this committee that the Russians have consistently resisted 
efforts to deal with the imbalance of tactical weapons. He stated that, 
``The likelihood of their being willing to do so in light of New START 
is sharply diminished, for we have now forfeited substantial 
leverage.''
    Were tactical weapons addressed during the negotiations with 
Russia?
    If so, what exactly was discussed during those negotiations?
    What was the position of Russia on this issue?
    What did the United States propose regarding tactical weapons?
    If not, why did the United States not push for tactical weapons to 
be a part of the treaty negotiations?
    What is the reason for the United States to forfeit substantial 
leverage on this issue?

    Answer. No. As agreed by Presidents Obama and Medvedev, the purpose 
of the New START Treaty was to reduce and limit the two nations' 
strategic offensive arms; therefore the issue of tactical nuclear 
weapons was not raised. A more ambitious treaty that addressed tactical 
nuclear weapons would have taken much longer to complete, adding 
significantly to the time before a successor agreement, including 
verification measures, could enter into force following START's 
expiration in December 2009. Because of their limited range and 
different roles, tactical nuclear weapons do not directly influence the 
strategic balance between the United States and Russia. President 
Medvedev has expressed interest in further discussions on measures to 
further reduce both nations' nuclear arsenals. We intend to raise 
strategic and tactical nuclear weapons, including nondeployed nuclear 
weapons, in those discussions.

    Question. Did the United States get any Russian cooperation on Iran 
as a result of signing this treaty?

    Answer. Our renewed focus on improving our relations with Russia, 
including last year's negotiations on the New START Treaty, has led to 
a greater understanding and increased cooperation between the United 
States and Russia in a number of areas. This renewed relationship is 
key to curbing nuclear threats across the globe.
    We are working very closely and in cooperation with Russia on our 
shared goal of preventing Iran from acquiring a nuclear weapons 
capability. Russia does not support an Iran with nuclear weapons and--
in addition to other constructive contributions to international 
nuclear nonproliferation efforts--has joined the November 2009 
International Energy Agency (IAEA) Board of Governors resolution 
condemning Iran's lack of cooperation with the IAEA, its refusal to 
suspend enrichment, and its failure to comply with its Safeguards 
Agreement.
    Since early 2009, the United States, Russia, and our partners in 
the P5+1 have offered to constructively engage Iran--but Iran failed to 
take advantage of this opportunity. Since 2006, there have been six 
U.N. Security Council resolutions (UNSCRs) calling on Iran to suspend 
enrichment. Iran has refused to meet with the P5+1 about its nuclear 
program despite our efforts and its commitment to do so last October. 
Russia supported UNSCR 1929 passage on June 9, the sixth UNSCR of its 
kind, imposing additional sanctions on Iran. Russia also continues to 
provide key assistance in the ongoing IAEA proposal discussions to 
refuel the Tehran Research Reactor.
    We continue to discuss with Russia our concerns about advanced 
weapons sales to states such as Iran. We appreciate Russia's restraint 
in the transfer of the S-300 missile system to Iran.

    Question. There has been a variety of views on whether rail-mobile 
missile launchers will count under the New START Treaty. Secretary 
Schlesinger has indicated that rail-mobile ICMBs may not count under 
the new treaty.
    Does the New START Treaty address rail-mobile missile launchers?

    Answer. Rail-mobile ICBMs are not specifically mentioned in the New 
START Treaty because neither Party currently deploys ICBMs in that 
mode. Nevertheless, the treaty covers all ICBMs and ICBM launchers, and 
would include any rail-mobile system, should either Party decide to 
develop and deploy such a system.

    Question. Could rail-mobile missile launchers be deployed and not 
count against the New START Treaty limits?

    Answer. No. The treaty covers all ICBMs and ICBM launchers, 
including a rail-mobile system, should either Party decide to develop 
and deploy such a system.
    The New START Treaty defines an ICBM launcher as a ``device 
intended or used to contain, prepare for launch, and launch an ICBM.'' 
This is a broad definition that covers all ICBM launchers, including 
any future rail-mobile launchers.
    A rail-mobile launcher containing an ICBM would meet the definition 
of a ``deployed launcher of ICBMs,'' which is ``an ICBM launcher that 
contains an ICBM'' and, along with any nondeployed rail-mobile 
launchers of ICBMs, would fall within the limit of 800 on deployed and 
nondeployed launchers of ICBMs and SLBMs and deployed and nondeployed 
heavy bombers. The ICBMs contained in rail-mobile launchers would count 
as deployed and therefore fall within the 700 ceiling on deployed 
ICBMs, SLBMs, and heavy bombers.
    If a Party chose to develop and deploy rail-mobile ICBMs, such 
missiles and their launchers would therefore be subject to the treaty 
and its limitations. Specific details about the application of 
verification provisions would be worked out in the BCC. Necessary 
adjustments to the definition of ``mobile launchers of ICBMs''--to 
address the use of the term ``self-propelled chassis on which it is 
mounted'' in that definition--would also be worked out in the BCC.

    Question. If rail-mobile missile launchers are not provided for 
under the treaty, how will the United States be able to track and 
monitor the number and movement of these weapons?

    Answer. Neither the United States nor Russia currently deploys 
rail-mobile launchers. If a Party chose to develop and deploy rail-
mobile ICBMs, such missiles and their launchers would be subject to the 
treaty. Appropriate detailed arrangements for incorporating rail-mobile 
ICBM launchers and their ICBMs into the treaty's verification and 
monitoring regime would be worked out in the Bilateral Consultative 
Commission.

    Question. What type of measures will be used to monitor other 
activities outside the New START Treaty?

    Answer. Please see the classified National Intelligence Estimate on 
the Intelligence Community's ability to monitor the New START Treaty.

    Question. What additional information will the United States be 
able to obtain under the New START Treaty that we were not able to 
obtain under the previous START treaty?

    Answer. Each ICBM, SLBM, and heavy bomber will be assigned an 
alpha-numeric unique identifier (UID), which will be included in the 
applicable notifications, periodic data declarations, and briefings 
presented prior to inspections, and may be confirmed during 
inspections. Under the previous treaty, only mobile ICBMs had such 
UIDs.
    Routine data exchanges will contain certain information that was 
not provided under START, specifically, the declaration of the total 
number of warheads deployed on ICBMs and SLBMs based at each such 
facility. Included in the data exchanges will be the UID for each ICBM, 
SLBM, or heavy bomber based at the respective facilities. An innovation 
in New START is the requirement to notify the change between deployed 
and nondeployed status for ICBMs and SLBMs.
    As part of an inspection, the inspected Party must declare the 
number of reentry vehicles on each deployed ICBM and deployed SLBM 
present at the ICBM base or submarine base and subject to inspection, 
and the number of nuclear armaments located in or on deployed heavy 
bombers present at the heavy bomber base and subject to inspection. 
Inspections will be used to confirm the actual number of reentry 
vehicles declared for designated, deployed ICBMs and deployed SLBMs, 
and to confirm the number of nuclear armaments onboard or attached to 
designated, deployed heavy bombers, although we expect that number to 
be zero since neither Party routinely maintains nuclear armaments 
loaded on its heavy bombers. In addition, inspectors will be able to 
record the UIDs from all items that are inspected.

    Question. What information will the United States no longer be able 
to obtain under the New START Treaty that we were able to obtain under 
the previous START treaty?

    Answer. The United States will not obtain recordings of telemetric 
information from the Russian Federation for each ICBM or SLBM flight 
test, as was the case under the START Treaty. Instead, each side will 
provide telemetric information on up to five launches per year on a 
parity basis.
    Cooperative measures, under which heavy bombers or mobile ICBMs 
were, upon request, placed in the open for viewing by national 
technical means of verification, are not required by the new treaty.
    Although the New START Treaty requires 48 hours advance notice for 
solid-fueled ICBMs and SLBMs exiting Votkinsk, there will no longer be 
continuous monitoring of the facility including the presence of 
monitors as was the case under the INF and START Treaties.
    For more details, please see the classified National Intelligence 
Estimate on the Intelligence Community's ability to monitor the New 
START Treaty, published on 30 June 2010.

    Question. Do you believe that we will see similar problems with 
Russia regarding violations of the new verification procedures?

    Answer. Although the New START Treaty is less complex than the 
START Treaty, different interpretations by the Parties might arise 
regarding how to implement the inspection activities and other 
verification provisions of the New START Treaty. Should such a 
situation arise, the Parties will seek to resolve their differences in 
the Bilateral Consultative Commission.

    Question. How will the New START Treaty address similar violations 
from occurring?

    Answer. RVOSI: The New START Treaty establishes the inspected 
Party's right to cover reentry vehicles and other equipment with 
individual covers, but with the caveat that such covers must not hamper 
inspectors in accurately identifying the number of reentry vehicles 
emplaced on a front section. This provision is intended to ensure that 
covers are not used in such a manner that would obscure the actual 
number of reentry vehicles on a front section. It is similar to the 
START provision for covers that did not hamper inspectors, but 
specifies individual covers and makes the distinction between the New 
START verification task of determining the actual number of warheads 
versus the START provision of confirming that there were no more than 
the attributed number. In addition, as set forth in the Inspection 
Activities Annex, reentry vehicle covers are to be viewed, and in some 
cases measured, by inspectors prior to their use during the reentry 
vehicle inspection portion of a type one inspection.
    Telemetry: The obligations in the New START Treaty are different 
from those in START. None of the new treaty's specific obligations, 
prohibitions, or limitations requires analysis of telemetric 
information to verify a Party's compliance. Nevertheless, to promote 
openness and transparency, the Parties have agreed to exchange 
telemetric information on an agreed equal number (up to five annually) 
of launches of the testing party's choice of ICBMs and SLBMs (which 
could include launch vehicles that contain the first stage of an ICBM 
or SLBM).
                                 ______
                                 

    Responses of Secretary Gates and Secretary Clinton to Questions 
                      Submitted by Senator Wicker

                            missile defense
    Question. In the April 27 issue of Time magazine, Dimitri Simes, 
the President of the Nixon Center, wrote, ``In this official's account, 
the full spectrum of U.S. officials from the President to working-level 
negotiators clearly conveyed that the reason they rejected more 
explicit restrictions on missile defense was not because of U.S. plans, 
but because of fear that such a deal could not win Senate ratification. 
A senior U.S. official intimately familiar with the talks has confirmed 
that the Russians were advised not to press further on missile defenses 
because the administration had no intention to proceed with anything 
that would truly concern Moscow.''
    Do you disagree with this characterization?

    Answer. Yes, we disagree with this characterization. The April 1, 
2009, Joint Statement issued by Presidents Obama and Medvedev, stated 
that ``the subject of the new agreement will be the reduction and 
limitation of strategic offensive arms.'' This statement signified that 
Russia agreed that the treaty to be negotiated to replace START would 
not attempt to reduce or limit defensive arms.
    Broadly, the United States is committed to the ballistic missile 
defense policies outlined in the Ballistic Missile Defense Review. The 
United States was not interested, and is not interested, in any 
agreements that would prevent the effective implementation of these 
policies.

    Question. Will you agree to share with the Senate details/cables/
etc of any conversations in any venue with the Russians where missile 
defense was discussed?

    Answer. We are committed to providing answers in a detailed 
briefing, in a classified session if needed.
                                 ______
                                 

  Responses of Secretary Gates to Questions Submitted by Senator Lugar

                             bomber limits
    Under START I, flexible treatment was given to heavy bombers 
equipped to carry nuclear, long-range air-launched cruise missiles 
(ALCMs). The United States was permitted to count 10 weapons for up to 
150 of its heavy bombers and Russia was permitted to count 8 weapons 
for up to 180 of its heavy bombers. For both sides, each heavy bomber 
over 150 and 180 were counted as a number of weapons equal to the 
number of ALCMs with which each such heavy bomber was actually 
equipped. This rule gave the United States a considerable warhead-
counting advantage over Russia--an ability to exceed START I's limit of 
6,000 warheads by perhaps 2,500 to 3,000 warheads, given our number of 
bombers and ALCMs in 1992.
    Under New START, there would be more flexible treatment regarding 
heavy bombers, as each heavy bomber counts as one warhead. Yet, the Air 
Force plans to retire, without a follow-on system, our nuclear-capable 
ALCMs. Russia has announced plans for a new heavy bomber and a new 
nuclear-capable ALCM, and while the recent U.S. Nuclear Posture Review 
concluded the United States will maintain a triad of nuclear forces--
including bombers--no modernization plan exists for this leg of the 
triad.

    Question. If we are to maintain a bomber leg in the triad, why has 
the Air Force delayed relevant planning?

    Answer. The Air Force and the Department of Defense are committed 
to the bomber leg of the triad. With the completion of the Nuclear 
Posture Review (NPR), the Air Force is commencing an analysis of 
alternatives on the Long-Range Standoff Cruise Missile while the 
Department of Defense completes its study on Long-Range Strike systems 
that includes consideration of alternatives for a future bomber. 
Additionally, these planning efforts will coincide with legacy 
sustainment efforts for the B-2 and B-52 heavy bombers, and associated 
Air-Launched Cruise Missiles (ALCMs) and B-61 gravity bombs. The NPR 
states that a full scope Life-Extension Program will sustain the B-61 
to ensure that production begins in 2017.

    Question. Do more flexible rules regarding heavy bombers provide 
particular advantages to the United States if we would no longer 
maintain significant numbers of such aircraft and nuclear-capable 
ALCMs?

    Answer. Neither side will secure an advantage over the other under 
the New START Treaty--whether with regard to one particular system or 
in the aggregate. Instead, the treaty will allow both sides to meet 
their legitimate security needs within a set of limits while 
acknowledging a mutual desire to reduce further the role and importance 
of nuclear weapons in the strategic postures of the Parties. With this 
in mind, the United States will retain the capacity within its bomber 
force to help meet its overall nuclear deterrence requirements. At the 
same time, to meet other warfighting requirements, U.S. bomber 
conventional capabilities are unrivaled and continue to advance. In 
this context, the New START rules represent the appropriate balance of 
transparency, accountability, and flexibility. Transparency rules for 
heavy bombers reflect the need to inspect and monitor these strategic 
delivery vehicles. The New START attribution rule of one nuclear 
warhead for each nuclear-capable heavy bomber strikes a balance between 
the fact that bombers are no longer on day-to-day nuclear alert and are 
not considered first strike weapon systems, and the fact that these 
bombers nonetheless have the capability to deliver nuclear armaments 
stored on or near their air bases. In addition, the New START Treaty 
conversion and elimination procedures provide greater flexibility, for 
instance to convert heavy bombers so that they are not capable of 
employing nuclear armaments and will not count against the treaty's 
aggregate limits, resulting in reduced costs and burdens for converting 
and eliminating such bombers.

    Question. Former Secretary of Defense James Schlesinger stated in 
testimony on April 29 that the bomber rules of New START mean ``Russia 
can maintain 2,100 strategic weapons rather than the 1,550 specified in 
the Treaty.'' At the lower limits on strategic offensive arms specified 
in New START, and given our declining edge in these systems, does the 
bomber advantage now go to the Russians instead of the United States?

    Answer. The U.S. force of nuclear-capable heavy bombers is larger 
and more sophisticated than that of the Russian Federation. Under the 
New START limits, it will contain up to 60 B-2As, the world's only 
stealth bomber, and B-52Hs equipped to deliver long-range, nuclear-
armed air-launched cruise missiles. With these bombers, plus over 60 B-
1Bs that have been converted to carry only nonnuclear armaments, the 
U.S. bomber force will remain superior to that of the Russian 
Federation for the life of the New START Treaty. Counting one nuclear 
warhead for each nuclear-capable heavy bomber applies to both sides and 
does not provide Russia an advantage.

    Question. What actions will the Department of Defense undertake to 
prepare for the conversion and elimination processes envisioned under 
New START?

    Answer. The New START Treaty gives considerable flexibility beyond 
START in the procedures to convert or eliminate strategic offensive 
arms to enable both Parties to meet these central limits. The DOD is 
exploring various courses of action that utilize this greater 
flexibility in reference to ICBM launcher elimination procedures and 
heavy bomber conversion and elimination procedures. The DOD is also 
researching the cost and operational constraints of the three methods 
of conversion of SLBM launchers permitted under the New START Treaty to 
determine which method is the most cost-effective. Final 
recommendations and actions will be based on fiscally acceptable 
solutions that meet the obligations of the treaty.

    Question. What planning or other actions have been undertaken by 
your Office, the Joint Chiefs and relevant Military Departments to 
anticipate New START's entry into force and implementation in the 
United States?

    Answer. DOD has undertaken efforts to plan for the treaty so that 
we can comply with the treaty at entry into force. In February 2010, 
the Department of Defense established the New START Treaty 
Implementation Working Group (NST-IWG) to oversee and coordinate the 
Department's planning for implementation of the New START Treaty. The 
NST-IWG includes representatives from OSD, the Chairman of the Joint 
Chiefs of Staff, the Military Services, and the Defense Agencies. The 
NST-IWG currently meets weekly to review the status of preparations 
within each Service and Agency to implement the NST, including the 
identification of long lead time items and resolution of issues 
identified. The NST-IWG has also coordinated DOD efforts to fully 
comply with and successfully implement the New START Treaty 
requirements identified in Part Eight of the Protocol for provisional 
application prior to entry into force, including the exchange of site 
diagrams and provision of certain notifications. DOD Components are 
also actively engaged in planning, programming, budgeting, and 
allocating resources, including personnel, for implementation of the 
New START Treaty at entry into force.
    The Defense Threat Reduction Agency (DTRA) is preparing to perform 
its inspection and escort responsibilities should the Senate consent to 
ratification of New START. DTRA will train the agency's cadre of 
inspectors and escort personnel on the provisions of the new treaty and 
how to implement those provisions. Initial certification of DTRA 
inspectors and escorts will occur over the May-October 2010 timeframe 
and involve formal instruction on treaty provisions, self-study, mock 
inspections at U.S. facilities, and team certification standards and 
boards. DTRA has also been actively coordinating with the Air Force and 
the Navy to prepare facilities subject to inspection under New START, 
and is working to update the Web-based Arms Control Enterprise System 
to support New START.

    Question. How will the Department of Defense undertake to protect 
sensitive information under the New START Treaty, and will such 
procedures differ in any way from those applied under START I?

    Answer. The New START Treaty inspection regime was designed to 
minimize security risks while ensuring the U.S. ability to monitor 
Russian compliance. The Department of Defense is currently preparing 
the plans and procedures necessary to ensure that sensitive information 
is protected while complying with the terms of the New START Treaty. 
These plans and procedures are based on the extensive experience 
gleaned from hosting close to 500 Russian inspection missions of U.S. 
facilities during the life of the START Treaty. The Department will 
make use of the security countermeasures procedures that were developed 
and validated during implementation of the START Treaty and designed to 
limit access only to the information that is required to meet treaty 
requirements. Although some of the procedures will be modified due to 
differences between the New START Treaty and the START Treaty, they 
will be very similar to those procedures developed and improved during 
the 15 years of implementing the START Treaty.
    The Department's preparations for implementation will focus heavily 
on ensuring that any security risks at DOD facilities are identified 
and addressed well before the first Russian inspection on U.S. 
territory is conducted. Over the coming months, the Defense Agencies 
and Military Departments will conduct various training events, 
including mock inspections at facilities subject to inspection. These 
activities are designed to train national and local U.S. in-country 
escorts in their duties and responsibilities, refine inspection 
procedures, and ensure a wide range of contingencies is identified and 
addressed.
                      delivery systems modernizing
    Press reports indicate the administration will invest $100 billion 
over the next decade in strategic nuclear delivery vehicles. About $30 
billion of this total will go toward development and acquisition of a 
new strategic submarine, leaving about $70 billion. According to 
estimates by U.S. Strategic Command, the cost of maintaining our 
current dedicated nuclear force is approximately $5.6 billion per annum 
or $56 billion over the next decade. This leaves roughly $14 billion of 
the $100 billion the administration intends to invest for other items. 
Only $14 billion would remain for development and acquisition of a 
next-generation bomber, a follow-on ICBM, a follow-on nuclear-capable 
ALCM, and to develop a Prompt Global Strike capability.

    Question. In light of these figures, is $100 billion a sufficient 
investment in future strategic nuclear delivery vehicles over the next 
decade?

    Answer. The estimated investment of well over $100 billion for 
strategic delivery vehicles over the next decade, provided in the 
Section 1251 report, represents a best-estimate of costs associated 
with deployed systems and programs underway and planned. This estimate 
does not include all of the costs associated with potential future 
modernization programs. DOD is currently studying long-range strike 
options, including future bomber requirements and prompt global strike 
systems, and is also initiating an analysis of alternatives for a 
follow-on, nuclear-capable ALCM. Studies regarding a possible follow-on 
ICBM will be initiated in 2011-2012. Therefore, costs associated with 
any future program decisions on these systems would be additive to the 
estimate of well over $100 billion in the Section 1251 report.
               warhead lifetime extension policy guidance
    Language in the Nuclear Posture Review on life extension programs 
for warheads gives a clear preference to refurbishment and reuse-
raising the bar for replacement as an option. Some clarification on 
life extension programs is provided in the 1251 report.

    Question. What assurance is there that our National Laboratories 
can or would pursue objective, technical analyses (to include 
replacement) for certain stockpile options given the clear guidance in 
the NPR that this administration prefers refurbishment and reuse?

    Answer. The National Laboratories have consistently pursued their 
stockpile stewardship responsibilities in a professional and thorough 
manner, and have provided objective, technical analyses to maintain the 
safety, security, and effectiveness of the nuclear weapons stockpile. 
Since the mid-1990s the directors of the National Laboratories have 
submitted annual assessments for their respective systems and 
components, to include identification of problems and recommendations 
for future life extension or replacement action, which are compiled 
into the annual Report on Stockpile Assessment which is, in turn, 
reviewed and transmitted to the President by the Secretaries of Defense 
and Energy. These requirements and expectations of the National 
Laboratories will not change. The Nuclear Posture Review clarified that 
the National Laboratories will study the full range of approaches to 
address requirements for each warhead life extension program. In the 
``Report in Response to NDAA FY10 Section 1251; New START Treaty 
Framework and Nuclear Force Structure Plans (U)'' submitted to 
Congress, the administration noted the following: ``The Laboratory 
Directors will ensure that the full range of LEP approaches, including 
refurbishment, reuse, and replacement of nuclear components are studied 
for warheads on a case-by-case basis. While the NPR expresses a policy 
preference for refurbishment and reuse in decisions to proceed from 
study to engineering development, the Laboratory Directors will be 
expected to provide findings associated with the full range of LEP 
approaches, and to make a set of recommendations based solely on their 
best technical assessments of the ability of each LEP approach to meet 
critical stockpile management goals (weapon system safety, security, 
and effectiveness).'' In accordance with these stated policies, the 
National Nuclear Security
    Administration and the National Laboratories will work with the 
Department of Defense to identify options that meet the requirements 
and then develop a preferred life extension approach that is then 
presented to the Nuclear Weapons Council for approval, and ultimately 
recommended to the administration. The President's budget request, as 
implemented by congressional authorization and appropriations 
processes, validates that life extension approach before the production 
phase of the process begins, irrespective of whether it utilizes 
refurbishment, reuse, or replacement of nuclear components.
    Los Alamos, Lawrence Livermore, and Sandia National Laboratories 
released a ``Tri-Lab Directors' Statement on the Nuclear Posture 
Review'' on April 9th, 2010. The laboratory directors stated: ``We 
believe that the approach outlined in the NPR, which excludes further 
nuclear testing and includes the consideration of the full range of 
life extension options (refurbishment of existing warheads, reuse of 
nuclear components from different warheads and replacement of nuclear 
components based on previously tested designs), provides the necessary 
technical flexibility to manage the nuclear stockpile into the future 
with an acceptable level of risk.''

    Question. Has any Laboratory Director or Laboratory study specified 
a requirement for replacement?

    Answer. We have not yet completed the study phase of a Life 
Extension Program (LEP) under the guidance outlined in the NPR. 
Consistent with the Nuclear Posture Review, the replacement of nuclear 
components would be undertaken only if critical Stockpile Management 
Program goals could not otherwise be met and if specifically authorized 
by the President and approved by Congress. That determination would be 
made prior to the engineering development phase of a LEP.

    Question. Does this language in the NPR suggest that the 
administration does not plan to pursue replacement?

    Answer. No. The Nuclear Posture Review clarifies the 
administration's intention to consider all options to achieve the 
required life extension improvements to ensure a safe, secure, and 
effective nuclear stockpile. All approaches will be considered in the 
development of life extension program options, and the National Nuclear 
Security Administration and the National Laboratories will work with 
the Department of Defense to identify options that meet requirements 
and then propose a preferred life extension approach to the Nuclear 
Weapons Council.

    Question. Former Secretary of Defense and Energy James Schlesinger 
concluded on April 29 before the committee that this guidance was 
``slightly inconsistent'' with the approach proposed by the 2009 
Strategic Posture Commission. Why did the administration deviate from 
the Commission's recommendation(s) in this area?

    Answer. The Strategic Posture Commission recommended that all LEP) 
options be considered on a case-by-case basis, and the NPR is 
consistent with the Commission in this regard (and many others). The 
NPR additionally expressed a preference for refurbishment and reuse 
over replacement of nuclear components. We are committed to ensuring 
that the technical community is not constrained in its exploration of 
technical options for warhead life extension. Accordingly, the Nuclear 
Posture Review and supplemental guidance make clear that the technical 
community is to consider all technical options as it studies how best 
to extend the life of existing warheads in order to meet stockpile 
management goals (i.e., increased safety, security, and reliability) 
without providing new military capabilities or conducting underground 
nuclear tests. The National Nuclear Security Administration Laboratory 
Directors will ensure that the full range of Life Extension Program 
(LEP) approaches, including refurbishment, reuse, and replacement of 
nuclear components, is studied on a warhead-by-warhead basis. While the 
Nuclear Posture Review expresses a policy preference for refurbishment 
and reuse when decisions are being made to proceed from study to 
engineering development, the Laboratory Directors will be expected to 
provide findings associated with the full range of LEP approaches, and 
to make a set of recommendations based solely on their best technical 
assessment of the ability of each LEP approach to meet stockpile 
management goals. The three Laboratory Directors stated that this 
approach to life extension ``provides the necessary technical 
flexibility to manage the nuclear stockpile into the future with an 
acceptable level of risk.''
                     national laboratories funding
    In fiscal year 2010, Congress provided roughly $6.4 billion for 
atomic energy defense activities of the National Nuclear Security 
Administration (NNSA). If the FY10 budget is taken as a 10-year 
baseline, that would be $64 billion of the $80 billion proposed for 
nuclear weapons activities at NNSA, assuming no increase for inflation 
or increased costs, such as for construction, occurred. Assuming a 
standard rate of annual inflation of 3 percent to cover cost-of-living 
adjustments in salaries and increased material costs using the FY10 
appropriation as the baseline, then to hold that budget constant, a 
total of $75.6 billion in 10 years, from fiscal years 2011 to 2020, 
would be required.
    This leaves $4.4 billion over 10 years for modernization, money 
which you would transfer from your budget to the Energy Department.
    In your testimony you confirmed that the Department of Defense is 
transferring $4.6 billion to the NNSA through FY 2015 to fund 
``critical nuclear weapons' life extension programs and efforts to 
modernize the nuclear weapons infrastructure.'' You state that these 
investments ``represent a credible modernization plan.''

    Question. What are the modernization options you envision beyond 
planned lifetime extensions and planned and projected annual stockpile 
work to which you might transfer funds?

    Answer. The National Nuclear Security Administration Nuclear 
Security Enterprise will require sustained vigilance to regain and 
retain the critical skills and capabilities needed to assess and 
certify the enduring nuclear stockpile. Regular recapitalization of the 
infrastructure and continual investments in modern technologies and 
approaches are essential to achieve this goal. Regarding the stockpile 
itself, the Stockpile Stewardship and Management Plan documents all 
envisioned lifetime extensions and planned and projected annual 
stockpile work. History has shown that surveillance can uncover 
unexpected developments that can, in turn, lead to new requirements for 
future life extension activities.

    Question. Would the modernized complex you contemplate support 
parallel life extension programs and production?

    Answer. Yes. The National Nuclear Security Administration (NNSA) 
Stockpile Stewardship and Management Plan (SSMP) accounts for multiple-
phased life extension programs being conducted at the same time. With 
congressional support and necessary funding, the phasing will allow 
different elements of a modernized NNSA capacity-based enterprise to 
work in parallel for greater overall efficiency. For example, NNSA is 
presently producing extended life W76-1 reentry body warheads, while at 
the same time conducting a series of feasibility studies and a detailed 
cost-estimate for refurbishing the B61-3/4/7/10 family of nuclear 
bombs. The SSMP commits the Department of Energy to delivering all of 
the W76-1 warheads required by the Navy, fully completing the B61 Life 
Extension Program (LEP) in support of the Air Force requirements, and 
initiating a 2011 LEP study of alternatives for the W78 reentry vehicle 
warhead. The phases of these various LEP activities will overlap in 
time and will be performed in parallel.

    Question. To what degree is it desirable to establish a capability 
to execute parallel life-extension programs?

    Answer. As stated in the response to the preceding, the National 
Nuclear Security Administration (NNSA) Stockpile Stewardship and 
Management Plan (SSMP) accounts for multiple-phased life extension 
programs being conducted at the same time. With congressional support 
and necessary funding, the phasing will allow different elements of a 
modernized NNSA capacity-based enterprise to work in parallel for 
greater overall efficiency.

    Question. If the complex plan does not support parallel life 
extension programs, what additional funding would be required in the FY 
2011 to FY 2015 timeframe to support such an objective?

    Answer. As discussed in the responses to previous questions, the 
National Nuclear Security Administration fiscal year 2011 Stockpile 
Stewardship and Management Plan (SSMP) does account for multiple phased 
life extension programs being conducted simultaneously. We believe this 
plan, when implemented, will adequately support the Department of 
Defense's evolving military requirements. Sustained support of the 
program is essential. Additional capabilities beyond those outlined in 
the SSMP are not deemed necessary; therefore, cost estimates for 
additional capabilities have not been generated.

    Question. What facility improvements would be required in the 
weapons complex to undertake parallel life extensions, and could they 
be completed before any scheduled LEPs are to be completed?
    As discussed in the responses to previous questions, the National 
Nuclear Security Administration fiscal year 2011 Stockpile Stewardship 
and Management Plan (SSMP) does account for multiple phased life 
extension programs being conducted simultaneously. We believe this 
plan, which includes facility improvements, will, when implemented, 
adequately support the Department of Defense's evolving military 
requirements. With Congressional support of current and planned 
administration budget requests, the Department of Energy and National 
Nuclear Security Administration will be funded through FY 2015 to 
achieve the life extension and facility milestones contained in the 
SSMP.
                              1251 report
    The recently released 1251 report reaffirms the 2010 NPR policy 
that, ``the United States will give strong preference to options for 
refurbishment or reuse'' of our nuclear weapons. This position is at 
odds with the recommendations of the bipartisan Congressional 
Commission on the Strategic Posture of the United States.

    Question. What are the guarantees that critical skills will not be 
lost if our Nation relies solely on refurbishment and reuse of existing 
pits in life extension programs?

    Answer. We are committed to ensuring that the technical community 
is not constrained in its exploration of technical options for warhead 
life extension. Accordingly, the Nuclear Posture Review (NPR) makes it 
clear that the technical community is to consider all technical options 
as it studies how best to extend the life of existing warheads in order 
to meet stockpile management goals (e.g., increased safety, security, 
and reliability) without providing new military capabilities and 
without underground nuclear tests. The Laboratory Directors will ensure 
that the full range of life extension program (LEP) approaches, 
including refurbishment, reuse, and replacement of nuclear components, 
is studied on a case-by-case basis. Although the NPR expresses a policy 
preference for refurbishment and reuse in decisions to proceed from 
study to engineering development, the Laboratory Directors will be 
expected to provide findings associated with the full range of LEP 
approaches, and to make a set of recommendations based on their best 
technical assessment of the ability of each LEP approach to meet 
stockpile management goals.

    Question. How will the capability to design new pits be maintained 
in the absence of the actual exercise of those skills--through 
replacement or new pit production programs--and what current or planned 
stockpile work would maintain these skill sets in the absence of such 
weapons activities?

    Answer. The response to this question is the same as the response 
to the previous question. Additionally, the core National Nuclear 
Security Administration program to develop a predictive capability for 
anticipating the evolution in performance margin and quantifying the 
possibilities of failure modes as nuclear explosives age is a 
significant and long-term scientific challenge that exercises key 
critical skills. This goal requires a vigorous science, technology, and 
engineering base where the skills are developed and honed through 
meaningful design and experimental work, and are additionally 
challenged through ongoing stockpile surveillance and annual 
assessments. These activities produce the necessary learning 
environment needed to retain the critical skills for Stockpile 
Stewardship and Management.

    Question. Do you have any estimate as to the result New START 
Treaty implementation in Russia will have on U.S. CTR assistance to the 
Russian Federation?

    Answer. Preliminary discussions with our Russian CTR partners have 
indicated their intent to meet New START Treaty targets in a manner 
consistent with CTR nonproliferation and threat reduction objectives. 
We therefore have every reason to believe that the excellent 
cooperation and close collaboration that has developed between U.S. and 
Russian partners over the past several years will continue under the 
new treaty.
                                 ______
                                 

 Responses of Secretary Gates to Questions Submitted by Senator DeMint

    Question. Why has the U.S. (in the Nuclear Posture Review) 
committed to the unilateral retirement of Sea-Launched Cruise Missiles 
(SLCM)? Does not Russia retain SLCMs?
    Answer. Russia does retain SLCMs. Although the United States will 
retain its highly capable force of conventionally armed SLCMs that can 
be launched from attack submarines as well as several types of surface 
combatants, the Tomahawk Land Attack Missile--Nuclear (TLAM-N) will be 
retired as stated in the Nuclear Posture Review (NPR). TLAM-N has not 
been operationally deployed aboard submarines since the 1991 
Presidential Nuclear Initiatives were announced and subsequently 
implemented. Based on analysis performed as part of the NPR, including 
numerous consultations with allies, the administration determined that 
TLAM-N was a redundant capability and could be retired. The United 
States will maintain its strong commitment to the defense and security 
of allies, including our commitment to provide extended deterrence with 
dual-capable fighters and heavy bombers if the situation ever demands.

    Question. How will nondeployed ICBMs be maintained? Precisely how 
long will be necessary to ``deploy'' a formerly nondeployed ICBM?
    Answer. Nondeployed ICBMs will be stored in accordance with the 
provisions of the New START Treaty either at declared storage 
facilities or at ICBM bases. The United States stores the bulk of its 
ICBMs in stages and not as fully assembled missiles. The United States 
will continue to maintain a small number of nondeployed, fully 
assembled missiles at each ICBM base in mission-ready status (i.e. 
spares).
    The length of time to deploy a former nondeployed ICBM would depend 
on a number of factors. A fully assembled, nondeployed ICBM located at 
its ICBM base would take a matter of days to deploy, whereas an ICBM 
stored in stages at a storage facility located far from an ICBM base 
could take weeks to deploy due to the time necessary to transport the 
ICBM to the base, assemble, and deploy within a silo. Consequently, 
depending on a number of variables, the deployment time for a 
nondeployed ICBM to be emplaced in a launch silo could take from days 
to weeks.

    Question.  In your testimony to the Senate Foreign Relations 
Committee, you outlined a plan to reduce the number of missiles on each 
submarine by four, to convert some B-52s to a conventional role, and to 
remove at least 30 Minuteman III missiles. What is the anticipated cost 
of these activities? Were the costs of elimination contained in the 
budget projections considered in the formulation of the 1251 report 
plan?
    Answer. The Section 1251 Report outlines a baseline U.S. force 
structure associated with the New START Treaty. Its budget projections 
do not include the costs of elimination and conversion. The treaty 
provides flexibility for both sides to decide what procedures would be 
most suitable to achieve those reductions in ways that would be cheaper 
and less burdensome. The Department of Defense is presently conducting 
analyses to determine the preferred types of conversion and elimination 
procedures as well as the associated financial costs.

    Question.  Can you precisely define what a Unique Identifier (UID) 
is? Where have they been employed in the past?
    Answer. There are numerous methods a Party may use to affix a UID 
to missiles and heavy bombers; for instance, a UID could be painted, 
stenciled, engraved, emplaced on a placard, or etched. All U.S. 
strategic offensive systems currently have some form of UID. For 
example, U.S. ICBM first stages carry a unique serial number that is 
located on an identification plate on the side of the first-stage 
rocket motor. Heavy Bombers have a unique number that is located on the 
tail of the B-52 and B-1 and on the nose gear door of the B-2.
    A Unique Identifier (UID) is a unique, nonrepeating alphanumeric 
identifier. Under the START Treaty, UIDs were used to track only mobile 
ICBMs and Russia utilized and reported UIDs on its mobile ICBM force. 
For the United States, the Peacekeeper system was designated as a 
mobile system under the START Treaty, which meant that it also 
contained a UID that was utilized and reported. Within the U.S. Armed 
Forces, the serial numbers and tail numbers on all other systems were 
used for maintenance and tracking purposes, but were not required to be 
reported under the START Treaty.
    Under the New START Treaty, unique alphanumeric identifiers will be 
applied to all ICBMs, SLBMs, and heavy bombers equipped for nuclear 
armaments. These unique identifiers will be included in the database 
and in applicable notifications, so that individual strategic delivery 
vehicles may be tracked. During inspections, the Parties will be able 
to confirm these unique identifiers, as appropriate, which will provide 
additional confidence in the validity of the information in the 
database and notifications.

    Question.  You stated that, ``While telemetry is not needed to 
verify the provisions of this treaty, the terms nonetheless call for 
the exchange of telemetry on up to five launches per year per side.'' 
If telemetry exchange is not for verification, what purpose does it 
serve to intelligence collection? How will the U.S. benefit from this 
provision, if Russia can select their own five flights, effectively 
preventing evaluation of new delivery platforms?
    Answer. There are no obligations, prohibitions, or limitations in 
the New START Treaty that require the analysis of telemetric 
information in order to verify a Party's compliance with the treaty. 
For instance, the treaty does not limit the development of new types of 
missiles so there is no requirement to determine the technical 
characteristics of new missiles, such as their launch weight or throw-
weight, in order to distinguish them from existing types. Nevertheless, 
the United States and Russia agreed to exchange telemetric information 
on an equal number of launches of ICBMs and SLBMs each year (up to five 
annually), with the testing party deciding the launches for which it 
will exchange information, to promote transparency and predictability. 
The value of such exchanges will depend on the specific launches for 
which telemetric information is exchanged.
    For more discussion about the purpose served by telemetry for 
intelligence collection, please see the classified National 
Intelligence Estimate on the intelligence community's ability to 
monitor the New START Treaty.
                                 ______
                                 

Responses of Secretary Gates to Questions Submitted by Senator Barrasso

    Question. The force structure of our nuclear triad is critical to 
maintaining an effective deterrent. The 2001 Nuclear Posture Review 
laid out our force structure in plain view while the 2010 Nuclear 
Posture Review is silent on force structure.
    Your current force structure plan only provides a range of options. 
In your May 13, 2010 Wall Street Journal op-ed arguing for the New 
START Treaty, you stated: ``Based on recommendations of the Joint 
Chiefs of Staff, we plan to meet the Treaty's limits by retaining a 
triad of up to 420 ICBMs, 14 submarines carrying up to 240 SLBMs, and 
up to 60 nuclear-capable heavy bombers.''
    Secretary Gates, how do you expect Members from States like North 
Dakota, Montana, Washington, Georgia, Missouri and Wyoming to vote on 
this treaty without a detailed force structure?

    Answer. The Department of Defense has provided to the Congress a 
report in response to Section 1251 of the National Defense 
Authorization Act, Fiscal Year 2010 providing substantial detail on our 
nuclear force structure plans in light of the New START Treaty. As 
explained in greater depth in that report, the United States will 
sustain and, in appropriate cases, modernize its robust triad of 
strategic delivery vehicles.
    Because the treaty covers a 10-year period after entry into force, 
the Department has outlined a baseline force structure that fully 
supports U.S. strategy. This structure is important for planning 
purposes and shows our commitment to maintaining the triad, but also 
allows us to modify our force structure plans while fielding a force of 
700 deployed strategic delivery vehicles, as circumstances dictate. 
Furthermore, the baseline nuclear force structure fully supports U.S. 
security requirements without requiring changes to current or planned 
basing arrangements.

    Question. When will the detailed force structure plan be submitted 
to Congress?

    Answer. The Department of Defense has submitted a detailed force 
structure plan, along with the New START Treaty, in accordance with 
Section 1251 of the National Defense Authorization Act, Fiscal Year 
2010. Future force structure decisions will be briefed to Congress 
expeditiously.

    Question. As you know, Damage Expectancy (DE) is the main criteria 
for weapon selection by war planners.

          Damage Expectancy = Probability of Arrival x Probability of 
        Damage

    The ICBM and SLBM weapons have a high Probability of Arrival (PA) 
on target. The air breathing weapons or bombers (B-52 and B-2) must 
have a substantially lower PA because they must potentially fly through 
a defensive enemy environment (SAMs, fighters) or a deteriorated air 
environment (atmospheric first strike dust, volcanic ash). As we 
recently learned, a volcano eruption can ground an entire continent of 
aircraft.
    Secretary Gates, can you explain the rationale for including so 
many aging bombers in the force structure given the lower damage 
expectancy for this weapons system?

    Answer. The B-52 and B-2 bombers serve two principal purposes as 
part of the U.S. strategic triad. First, these heavy bombers could be 
placed on quick reaction alert, as an effective hedge, were a technical 
problem to emerge with regard to one of the other triad legs, or in 
response to a sharp deterioration of the international political 
situation. Second, they can be deployed to a threatened region in order 
to provide a visible and deployable signal of U.S. commitment and 
resolve as we meet our extended deterrence commitments to U.S. allies 
and partners during a crisis situation.
    In addition, the ability to recall nuclear-equipped heavy bombers, 
if launched for survival, provides a critical capability to help manage 
the threat of nuclear escalation during a crisis or at the beginning of 
an armed conflict.

    Question. In 2008, Secretary Gates coauthored a paper titled the 
``National Security and Nuclear Weapons in the 21st Century.'' This 
paper argued for a strong nuclear deterrent. In the foreword, Secretary 
Gates stated: ``We believe the logic presented here provides a sound 
basis on which this and future administrations can consider further 
adjustments to U.S. nuclear weapons policy, strategy, and force 
structure.''
    The white paper recommended a U.S. strategic nuclear force baseline 
that includes:

   450 Minuteman III ICBMs;
   14 Ohio-class submarines; and
   76 bombers (20 B-2 and 56 B-52 bombers)

    Total of 862.

    Question. Secretary Gates, can you please explain how the threat 
environment has changed to allow our nuclear deterrent to be reduced to 
700 delivery vehicles since your 2008 recommendation to maintain 862 
delivery vehicles?

    Answer. The Nuclear Posture Review (NPR) conducted detailed 
analysis of current and future threats, as well as potential reductions 
in strategic weapons, including delivery vehicles that would allow the 
United States to sustain stable deterrence at lower force levels. The 
conclusion from the NPR analysis is that stable deterrence could be 
maintained at lower strategic delivery vehicle levels, given our 
estimates of current and future Russian strategic forces.
    It is also worth noting that the NPR and New START plans call for 
retaining all 14 SSBNs, but New START counting rules will allow the 
United States to count the missiles as deployed only when mated with 
launchers. This New START counting rule and the treaty's elimination 
and conversion provisions will allow the United States to retain all 14 
SSBNs while having them account for only 240 deployed strategic 
delivery vehicles--some 96 fewer than assumed in the 2008 paper.
                                 ______
                                 

 Responses of Secretary Gates to Questions Submitted by Senator Wicker

                            missile defense
    Question. The New START Treaty prohibits the U.S. from placing 
Missile Defense interceptor missiles on submarines. Why did our 
negotiators permit this?

    Answer. Article V of the treaty prohibits a Party from converting 
or using ICBM or SLBM launchers for the placement of missile defense 
interceptors or vice versa. The United States accepted this proposal 
because, as LTG Patrick O'Reilly, Director, Missile Defense Agency 
(MDA), explained, the MDA had studied the concept of launching missile 
defense interceptors from submarines and determined that such a course 
would be operationally impractical and extremely expensive. 
Furthermore, submerged submarines are not easily integrated into our 
missile defense command and control network.

    Question. Secretary Gates, you said of the New START treaty on 
March 26 at the White House, ``Nor does this treaty limit plans to 
protect the United States and our allies by improving and deploying 
missile-defense systems.''
    Will you clarify this statement?

    Answer. The New START Treaty does not constrain the United States 
from deploying the most effective missile defenses possible, nor does 
it add any additional cost or inconvenience to our missile defense 
plans. As the Ballistic Missile Defense Review, our budget submission 
and projections, and the U.S. unilateral statement made in connection 
with the New START Treaty all make clear, the United States will 
continue to improve its missile defenses throughout the next decade.

    Question. Is it appropriate to have any restriction at all on our 
ability to adapt to future changes in threats to the United States? 
Article V of the treaty has now taken at least one option off the 
table, has it not?

    Answer. Regarding the treaty's ban in Article V, paragraph 3, on 
the conversion of ICBM or SLBM launchers to missile defense interceptor 
launchers and vice versa, this ban does not constrain the Department's 
missile defense plans in any way. We currently have a sufficient number 
of missile defense silos to accommodate the 30 Ground-Based 
Interceptors (GBIs) that we are fielding. Furthermore, should the 
decision be made in the future to field additional GBIs, we will 
already have eight extra, unoccupied missile defense silos in the 
ground at Fort Greely, Alaska.
    The new treaty prohibits the conversion of ICBM or Submarine 
Launched Ballistic Missile (SLBM) launchers to missile defense 
launchers while ``grandfathering'' the five former ICBM silos at 
Vandenberg Air Force Base (VAFB) already converted for Ground Based 
Interceptors. The Department never had a plan to convert additional 
ICBM silos at VAFB. In 2002, we began converting ICBM silos to 
operational silos for launching GBIs because we had not developed a 
silo specifically for GBIs at that time. Since then, we have developed 
a GBI silo that costs $20M less than converting ICBM silos and is 
easier to protect and maintain.
    Likewise, the conversion of SLBMs into missile defense 
interceptors, or the modification of our submarines to carry missile 
defense interceptors, would be very expensive and impractical. 
Furthermore, submerged submarines are not easily integrated into our 
missile defense command and control network.
                       united states-russia reset
    Question. Secretary Gates, on March 26, you stated that ``this 
treaty strengthens nuclear stability.'' The U.S. and Russia were well 
on their way toward achieving reductions to a range of 2,200-1,700 
warheads as called for by the 2002 Moscow Treaty, and it was the 
opinion of most informed observers that U.S. and Russian nuclear 
weapons did not pose a threat to each other. In fact, it is the 
disparity in tactical nuclear weapons--not addressed by this treaty--
that most threatens stability. Former Secretary James Schlesinger told 
the Senate Foreign Relations Committee in May that ``the significance 
of tactical nuclear weapons rises steadily as strategic nuclear arms 
are reduced.''
    What was wrong with nuclear stability before this agreement was 
negotiated?
    How does it strengthen nuclear stability?
    By not eliminating the huge disparity in Russian tactical nuclear 
weapons, does this contribute to nuclear instability?
    The President announced in his Nuclear Posture Review that he will 
move to de-MIRV all our land-based ICBMs. START II eliminated all land-
based MIRVs. I understand that START II never entered into force, but 
seeing as how land-based MIRVs have always been considered particularly 
de-stabilizing, why shouldn't it be considered a tremendous step 
backwards for arms control to complete a treaty where the Russians will 
be allowed to deploy large numbers of land-based MIRVs, which they have 
announced they plan to do?
    Should we be concerned that this treaty does not prevent Russia 
from moving to large numbers of land-based MIRVs?

    Answer. The immediate impetus behind the negotiation of the New 
START Treaty was the expiration of the START agreement, a treaty whose 
limitations and verification regime had been an important component of 
strategic stability for 15 years. As the Congressional Strategic 
Posture Commission recommended, it was important to negotiate a 
successor agreement that would preserve the nuclear arms control 
architecture between the United States and Russia, including the 
extensive verification provisions so essential for transparency and 
predictability. Beyond that, the negotiating effort was prompted by the 
objective of reinvigorating the arms control process in order to enable 
progress on additional issues of importance in the bilateral strategic 
relationship, including negotiation of a future nuclear arms reduction 
treaty that includes Russian tactical nuclear capabilities.
    The New START Treaty strengthens strategic stability. It does so by 
imposing lower limits on strategic delivery vehicles and the strategic 
warheads they carry and by promoting predictability and transparency in 
our relationship with Russia, the world's other principal nuclear 
power. At the same time, the New START Treaty enables both the United 
States and the Russian Federation to field diverse, survivable, 
effective strategic nuclear forces that minimize the incentives for 
either side to strike first against the other, even in severe political 
crises. The New START Treaty will also enable the United States to 
maintain and modernize our robust and redundant triad of strategic 
delivery systems, our vital nuclear weapons complex, and our important 
ballistic missile defense capabilities. It also accommodates our 
possible deployment of conventional prompt global strike capabilities.
    Tactical (nonstrategic) nuclear weapons are not limited by New 
START although, as the NPR makes clear, the United States intends to 
pursue additional and broader reductions with Russia that include all 
nuclear weapons, including tactical nuclear weapons and nondeployed 
nuclear weapons.
    Because of their limited range and different roles, tactical 
nuclear weapons do not directly influence the strategic nuclear balance 
between the United States and Russia. Furthermore, within the regional 
context, the United States relies on multiple capabilities to support 
extended deterrence and power projection, including: its superior 
conventional force capabilities, tactical nuclear capabilities, the 
U.S. strategic nuclear deterrent, ballistic missile defenses, and 
allied capabilities.
    While encouraging Russian de-MIRVing of its silo-based ICBMs was a 
longstanding U.S. arms control objective during the cold war, this was 
not an objective in either the Moscow Treaty or the New START Treaty. 
It is important to note that MIRVed mobile ICBMs differ from fixed, 
silo-based MIRVed ICBMs, because the former, when deployed to the 
field, are more survivable and thus do not present a stark ``use or 
lose'' choice in the fashion that silo-based ICBMs do. Limiting land-
based MIRVed ICBMs was not an objective in the New START Treaty 
negotiations, which focused on extending the overarching arms control 
and verification architecture and permitting each Party to define its 
own strategic nuclear force structure and composition.
    The United States will observe closely Russian force developments 
as they relate to MIRVing of land-based systems. Of particular interest 
will be Russian decisions regarding allocation of multiple warheads to 
silo-based ICBMs relative to the allocation of warheads to mobile ICBMs 
and SLBMs.
                                 ______
                                 

 Responses of Secretary Gates to Questions Submitted by Senator Inhofe

                           start (generally)
    Question. In your testimony, you argue that the de-MIRVed ICBM 
force is stabilizing due to the need for Russia to use one-for-one or 
two-for-one attacking.
    Was de-MIRVing necessary to achieve this stability?
    If not, why were limitations on the number of warheads on ICBMs not 
a part of the treaty, and why is the United States taking a unilateral 
step?

    Answer. The U.S. Nuclear Posture Review (NPR) decision to complete 
the de-MIRVing of the silo-based Minuteman III ICBM force was made 
because de-MIRVing enhances the strategic stability of the nuclear 
balance by reducing the incentives of a would-be attacking side to 
strike first. This is the case because de-MIRVing allows for the 
retention of a larger number of delivery vehicles and the silos that 
house them and thus forces the attacker to expend at least as many 
warheads (one attacking RV to destroy one RV of the opponent) and 
probably more (two or more attacking RVs to destroy the one RV of the 
opponent) to execute a first strike to neutralize the ICBM force. This 
means that an exchange would result in a net loss for the attacker in 
terms of RVs expended compared to the number of U.S. RVs destroyed. In 
addition, the deployment of hundreds of U.S. ICBMs in silos would 
compel the attacker to launch many hundreds of RVs, to attempt to 
neutralize this highly capable force.
    Under the New START Treaty, each side will have the flexibility to 
determine the composition of its strategic forces. The U.S. de-MIRVing 
of ICBMs is being taken unilaterally because it enhances stability, 
irrespective of Russia's strategic force structure.

    Question. The Russians have resumed attack submarine patrols off 
the East and West coasts of the United States. They have announced that 
these submarines could be equipped with cruise missiles carrying 
tactical nuclear weapons. How does this treaty, which fails to capture 
this important threat, improve our National Security?

    Answer. The New START Treaty, in line with predecessor arms control 
treaties such as the START Treaty and the Treaty on Limitation of 
Strategic Offensive Arms (SALT), covers strategic forces, which do not 
include nuclear-armed, sea-launched cruise missiles. However, in 1991, 
the United States and the Soviet Union, as a political commitment, 
voluntarily agreed to cease deploying any nuclear SLCMs on surface 
ships or multipurpose submarines. Throughout the period of START 
implementation, including as recently as December 2008, Russia has 
declared that it planned to deploy zero nuclear SLCMs.
    The United States intends to pursue discussions with Russia about 
arms control initiatives covering tactical nuclear weapons, including 
nuclear-armed, sea-launched cruise missiles, in the pursuit of a 
stable, long-term strategic relationship during the next round of 
United States-Russian nuclear arms reduction negotiations.
    The New START Treaty improves our national security by 
strengthening strategic stability, providing for key data exchange and 
verification measures, preserving the ability of the United States to 
sustain and modernize its strategic triad, allowing each side freedom 
to choose and alter its mix of strategic forces, and fully protecting 
the U.S. flexibility to deploy important nonnuclear capabilities, 
including prompt global strike and missile defenses.

    Question. You stated that a feature of arms agreements is, ``to 
have some idea for both sides to know the limits on the other and 
therefore avoiding the need to hedge against the unknown.''
    a. Upon ratification of the treaty, and the reduction in deployed 
weapons, will there be a reduction in the hedge due to ``having 
sufficient verification in place to be able to have confidence in that 
judgment''?
    b. Is the U.S. hedge size connected to the treaty?
    c. Is the U.S. hedge something Russia is interested in limiting due 
to perceptions about an advantage it affords the U.S. to upload its 
strategic missiles?

    Answer a. The United States has benefited during the START Treaty 
from reduced uncertainty regarding the size and status of Russian 
strategic forces. Those benefits continue today but uncertainty will 
rise over time in the absence of a new treaty and its strong 
verification regime. The limits and verification provisions of the New 
START Treaty, if it is ratified and enters into force, will reduce 
uncertainty relative to what it otherwise would have been the case, and 
therefore will reduce the requirement for the United States to hedge.

    Answer b. The treaty limit of 800 on deployed and non-deployed ICBM 
launchers, deployed and nondeployed SLBM launchers, and deployed and 
nondeployed heavy bombers sets a practical upper bound on what could be 
uploaded onto strategic delivery vehicles from the nondeployed warhead 
hedge. This upload capability will be more than sufficient under New 
START. The long-term U.S. hedge provided by the responsiveness of the 
U.S. nuclear weapons infrastructure is not affected by the treaty.

    Answer c. Whatever concerns the Russian Federation may have had, 
Russia agreed to the treaty, which permits the U.S. to maintain a 
significant upload capability that serves as a hedge against technical 
and geopolitical uncertainties.
                        stockpile modernization
    Question. The anticipated funding directed to nuclear weapons in 
the 1251 Report is $80B for weapons and $100B for delivery vehicles.
    a. How much of the $80B over 10 years has been ``donated'' by the 
DOD?
    b. What specific programs are anticipated for delivery vehicle 
modernization, and in what year will these programs commence?

    Answer a. The DOD transferred nearly $4.6 billion in top-line over 
the period FY 2011-2015 for National Nuclear Security Administration 
weapon activities for infrastructure enhancement, Life Extension 
Programs, and enhanced stockpile stewardship. This $4.6 billion 
includes a $145 million transfer in top-line over the period FY 2012-
2015 for science, technology, and engineering activities in the 
Enhanced Stockpile Stewardship Program. In addition, another nearly 
$1.1 billion was transferred to Naval Reactors for reactor design and 
development during the same period. The specific annual breakdown of 
the DOD topline transfer ($M) is:

                                  Annual Breakdown of the DOD Topline Transfer
                                              [Millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                      FY 2011      FY 2012       FY 2013     FY 2014      FY 2015       TOTAL
----------------------------------------------------------------------------------------------------------------
Weapons...........................       561.0        736.4        858.5      1,148.9      1,292.6      4,597.4
Naval Reactors....................        80.6        150.9        223.7        278.8        350.9      1,084.9
----------------------------------------------------------------------------------------------------------------


    Answer b. The FY 2011-2020 costs provided in the section 1251 
report include funds for sustaining and upgrading existing systems, 
including the B-2A and B-52H bombers, Minuteman III ICBMs, and the 
Ohio-class SSBN. In addition, the report includes estimated costs for 
the Ohio-class SSBN replacement, with the initial funding for this 
program having been provided in the FY 2010 DOD budget. These FY 2011-
2020 cost estimates do not provide funds for possible follow-on 
systems--the ALCM follow-on and the Minuteman III ICBM follow-on, and a 
possible follow-on heavy bomber--as studies are now underway regarding 
the analysis of options for these systems. As specific decisions are 
made regarding these systems, any necessary funding will be requested 
in future DOD budget requests.
                                 ______
                                 

  Response of Admiral Mullen to Question Submitted to by Senator Lugar

    Question. From your standpoint, how specifically does the 
flexibility provided in New START, both in terms of its central limits 
and other provisions bearing on modernization and flexibility regarding 
strategic forces, benefit the U.S. military?

    Answer. Under New START, each Party retains the right to determine 
for itself the structure and composition of its strategic forces within 
the treaty's overall limits. This provides the United States with the 
flexibility to deploy, maintain, and modernize its strategic nuclear 
forces in the manner that best protects U.S. national security 
interests. This means that the United States will be able to maintain a 
triad of ICBMs, SLBMs, and nuclear-capable heavy bombers under the New 
START Treaty--and the U.S. will retain the ability to ``upload'' a 
significant number of nuclear warheads as a hedge against any future 
technical problems with U.S. delivery platforms or warheads, a 
technical breakthrough by an adversary that threatens to neutralize a 
U.S. strategic delivery system, or as a result of a fundamental 
deterioration in the international security environment. The United 
States also maintains the freedom to take steps necessary to sustain 
existing capabilities, including those necessary to ensure the safety, 
security, and effectiveness of the U.S. stockpile of nuclear weapons.
    Furthermore, the treaty does not restrict the U.S. ability to 
develop, test, or deploy conventional prompt global strike capabilities 
that could enable it to precisely attack targets anywhere on the globe. 
Should the United States deploy conventional warheads on treaty-
accountable ICBMs or SLBMs, they would count toward the treaty's 
aggregate deployed warhead limit of 1,550, just as conventional 
warheads would not have been distinguished from nuclear warheads in 
terms of accountability under the START Treaty. However, the treaty's 
limit of 700 deployed delivery vehicles combined with the associated 
ceiling of 1,550 deployed warheads would accommodate any plans the 
United States might pursue during the life of this treaty to deploy 
conventional warheads on ballistic missiles. Moreover, the treaty does 
not prohibit the development, testing, or deployment of potential 
future long-range weapons systems for conventional prompt global strike 
that are currently under development. We would not consider such 
nonnuclear systems that do not otherwise meet the definitions of the 
New START Treaty to be accountable as ``new kinds of strategic 
offensive arms'' for the purposes of the treaty.
                                 ______
                                 

  Responses of Admiral Mullen to Questions Submitted by Senator DeMint

    Question. The Nuclear Posture Review is rather unclear regarding 
nuclear targeting policy. Under this treaty, will the U.S. maintain a 
counterforce targeting capability, one that will hold at risk the 
targets that constitute the means of strategic attack on the U.S. in a 
timely and effective manner?

    Answer. Utilizing existing targeting policies, the NPR conducted 
detailed analysis of potential reductions in strategic weapons, and 
concluded that stable deterrence could be maintained at lower levels, 
assuming parallel reductions by Russia to meet the lower ceiling of the 
New START Treaty.
    The President, through the National Security Staff (NSS), 
establishes the Nation's targeting policies. These targeting policies 
are currently under review and, once the review is complete, will 
provide the foundation for revisions to appropriate nuclear planning 
directives within the Department of Defense.

    Question. In your testimony to the Senate Foreign Relations 
Committee, you state that the United States ``will also maintain 
sufficient capability to deter other nuclear states.'' Is this 
capability separate from, or in addition to, the ability to deter 
against Russia, if needed?

    Answer. The aggregate U.S. deterrent capability includes 
capabilities to deter other nuclear states as well as those 
capabilities needed to deter Russia.

    Question. During the campaign, President Obama asserted that the 
U.S. strategic nuclear force was on ``hair-trigger'' alert. Was that 
assessment accurate? Under this treaty, will the alert levels of the 
U.S. strategic nuclear forces remain as they were earlier in the 
decade?

    Answer. As outlined in the 2010 Nuclear Posture Review, the 
President concurred that the current alert posture of U.S. strategic 
forces--with heavy bombers off full-time alert, nearly all ICBMs on 
alert, and a significant number of SSBNs at sea at any given time--
should be maintained for the present. The President also agreed that 
the United States should continue to posture U.S. forces and enhance 
command and control arrangements for strategic nuclear forces to reduce 
further the possibility of nuclear launches resulting from accidents, 
unauthorized actions, or misperceptions, while maximizing the time 
available to the President to consider whether to authorize the use of 
nuclear weapons. Looking to the longer term, the Department of Defense 
will explore whether new modes of basing may ensure the survivability 
of the triad while eliminating or reducing incentives for prompt 
launch.

    Question.  In New START, Votkinsk will not be monitored, but 
notification of every launcher made there will be preceded by 48 hour 
notification. The fundamental philosophy of START monitoring was to 
assume that deception might occur. It appears that the fundamental 
philosophy of New START is that deception is unlikely. Would you 
characterize this as a weakening of the verification process?
    Answer. No. The standard for the New START Treaty verification 
regime remains, as under the START Treaty, ``effective verification.'' 
As explained by Ambassador Paul Nitze in the context of the INF Treaty 
ratification deliberations in 1988, effective verification means ``we 
want to be sure that, if the other side moves beyond the limits of the 
treaty in any militarily significant way, we would be able to detect 
such violation in time to respond effectively and thereby deny the 
other side the benefit of the violation.'' This standard was reaffirmed 
in the START Treaty context by Secretary of State James Baker in 1992. 
As discussed during the START Treaty advice and consent deliberations, 
the required stringency of an effectively verifiable treaty regime is 
influenced by political circumstances, military capabilities, economic 
constraints, and other such factors. For instance, a major objective of 
the United States in negotiating the START Treaty verification regime 
was to establish means to verify that treaty in an environment of 
strictly limited access due to the closed nature of the Soviet Union.
    In this light, the requirements of effective verification have 
changed since the negotiation of the START Treaty. Today, the United 
States and Russia are not enemies, and each has developed a much more 
complete understanding of the strategic nuclear forces of the other 
Party in large part due to implementation of the START Treaty, 
including its inspection, notification, and telemetry regime. The 
United States now has a significantly clearer understanding of Russia's 
capabilities than the United States had when negotiating the START 
Treaty 20 years ago. The United States, therefore, sought to negotiate 
a more tailored verification regime for the New START Treaty that would 
involve lower costs and less administrative and operational burdens to 
both Parties than under the START Treaty.
    Regarding continuous perimeter and portal monitoring at the 
Votkinsk Production Facility, this began as part of the INF Treaty and 
was one of the verification measures used to monitor mobile ICBM 
production under the START Treaty. During the last administration, the 
United States and Russia agreed that neither side wanted to extend the 
START Treaty. Preparations for ending the monitoring at Votkinsk began 
in 2008 so that the United States would be able to depart in an orderly 
way when the START Treaty expired on December 5, 2009.
    The New START Treaty contains a new, simplified provision to track 
and account for new solid-fueled ICBMs and SLBMs being produced at 
Votkinsk. The New START Treaty specifically requires Russia to notify 
the United States 48 hours in advance every time a solid-fueled ICBM or 
SLBM leaves its production facility. The United States agreed to 
provide this same notification regarding the exit of any solid-fueled 
ICBM or SLBM from its production facility. The New START Treaty also 
continues the requirement from the START Treaty that each side notify 
the other of completion of a missile's transit and of its new location. 
These provisions will facilitate monitoring through National Technical 
Means. In addition, the New START Treaty requires the application of 
unique alphanumeric identifiers on all ICBMs and SLBMs as well as heavy 
bombers to help track and account for them from the time they are 
produced until they are eventually eliminated or converted, or 
otherwise removed from accountability.
                                 ______
                                 

 Responses of Secretary Clinton to Questions Submitted by Senator Lugar

    Question. Might the Russian Duma and Federation Council specify, as 
they did in ratifying START II, conditions under which Russia may 
withdraw from New START relative to missile defense?

    Answer. We have no information regarding whether the Russian Duma 
and Federation Council might specify conditions under which Russia may 
withdraw from New START. We will promptly inform the committee if such 
information becomes available to us.

    Question. Do you have any information regarding what the Kremlin is 
likely to suggest in a draft law on ratification for New START relative 
to missile defense and the withdrawal clause in New START?

    Answer. No. We will promptly inform the committee if such 
information becomes available to us.

    Question. In your view, would the language on missile defense in 
New START impose constraints on our missile defense plans, programs and 
policies similar to those contained in the 1972 Anti-Ballistic Missile 
Treaty?

    Answer. No. The 1972 ABM Treaty included specific limits on the 
number, location, and character of the ABM deployment sites and 
components for both the United States and the Soviet Union. The New 
START Treaty does not include any such limitations, and will not 
constrain the United States from deploying the most effective missile 
defenses possible, nor will it impose additional costs or barriers on 
those defenses. The treaty does not impose legal obligations or 
conditions that constrain existing or projected U.S. missile defense 
programs. As the administration's Ballistic Missile Defense Review and 
budget plans make clear, the United States will continue to improve our 
capability to defend the U.S. homeland, our deployed forces, and our 
allies and partners against the threat of limited ballistic missile 
attack and regional missile threats.

    Question. Aside from its right to withdraw from New START, has 
Russia asserted a separate right to suspend implementation of New 
START, as it purported to do with the Conventional Forces in Europe 
(CFE) Treaty?

    Answer. No.

    Question. Does this administration intend to negotiate, as a part 
of missile defense cooperation with Moscow, agreements similar to those 
made in the Standing Consultative Commission in September 1997?

    Answer. The Obama administration does not intend to negotiate, as a 
part of its missile defense cooperation talks with Russia, agreements 
similar to those agreed to in the Standing Consultative Commission in 
September 1997. Those agreements were signed within the context of the 
ABM Treaty and established criteria for differentiating between 
strategic and nonstrategic BMD systems. Our view is that the evolution 
of BMD technologies, especially since the U.S. withdrawal from the ABM 
Treaty in 2002, has made the distinction between strategic and 
nonstrategic BMD systems no longer valid, particularly as regional BMD 
systems are capable of enhancing the protection of the U.S. homeland 
and could thereby assume a strategic role.
    We also believe that attempting to negotiate a distinction between 
strategic and nonstrategic missile defense systems, in the manner of 
the September 1997 agreements, would wrongly signal a willingness to 
negotiate limitations on BMD systems based on such a distinction. The 
Obama administration has consistently informed Russia that while we 
seek to establish a framework for United States-Russia BMD cooperation, 
the United States cannot agree to constrain or limit U.S. BMD 
capabilities numerically, qualitatively, operationally, geographically, 
or in other ways.
                  verification process, new verses old
    Verification under START I consisted of a three-step process of (a) 
notification, (b) monitoring, and (c) verification of compliance. 
Eighty types of notification were required and the Parties had to 
exchange this data pursuant to the START I MOU. Monitoring included 12 
different types of onsite inspection, PPCM, cooperative measures, and 
the use of our National Technical Means (NTM). Special access 
inspection rights existed, although with a right of refusal given to 
the inspected Party. Verification of compliance consisted of taking 
into account any uncertainties presented by declared data in 
conjunction with START I's terms to make a finding on the likelihood of 
a violation or noncompliance by the Parties to START I.

    Question. With respect to each of the following START I-accountable 
items or actions, please specify (a) whether New START contains 
provisions for notification, monitoring, and verification for each such 
item; (b) where in the New START Treaty, its protocol and annexes such 
notification, monitoring, and verification is specified or permitted; 
or (c) if notification, monitoring, and verification of such items is 
not included in New START, an explanation as to why it was not 
included:

   The number, by type, of deployed, fixed land-based ICBMs and SLBMs 
        and their launchers;
   The number, by type, of deployed and non-deployed road-mobile and 
        rail-mobile ICBMs and their launchers, and the production/final 
        integration of mobile ICBMs;
   The aggregate throw weight of ballistic missiles;
   The number of warheads on ICBMs and SLBMs;
   The number of nondeployed mobile missiles;
   The aggregate number of deployed missiles;
   Technical parameters for new types of both missiles and ALCMs 
        through technical exhibitions, exchange of telemetric data and 
        NTM;
   The number, by type, of deployed heavy bombers that are equipped 
        for nuclear-capable ALCMs;
   The number, by type, of deployed heavy bombers that are not 
        equipped for nuclear ALCMs but that carry other nuclear 
        munitions;
   The number, by type, of formerly nuclear-capable heavy bombers, 
        training aircraft, and heavy bombers equipped for conventional 
        munitions that no longer carry nuclear munitions;
   The elimination of strategic nuclear launchers and delivery 
        vehicles;
   Monitoring production of ICBMs for mobile launchers of ICBMs to 
        confirm the number of ICBMs for mobile launchers of ICBMs 
        produced;
   Elimination of declared facilities.

    Answer. The number, by type, of deployed, fixed land-based ICBMs 
and SLBMs and their launchers;
    Article VII, paragraphs 1 and 2; Article XI, paragraphs 2 and 3; 
Protocol, Part Two, Section I, paragraph 5; Protocol, Part Two, 
Sections III and IV; Protocol, Part Four, Sections II and III; 
Protocol, Part Five, Section VI.

          The number, by type of deployed and non-deployed road-mobile 
        and rail-mobile ICBMs and their launchers, and the production/
        final integration of mobile ICBMs;
    Article VII, paragraphs 1 and 2; Article XI, paragraphs 2 and 3; 
Protocol, Part Two, Section I, paragraph 5; Protocol, Part Two, Section 
III; Protocol, Part Four, Sections II and III; Protocol, Part Five, 
Sections VI and VII.

          The aggregated throw weight of ballistic missiles;
    There are no provisions for verifying throw weight in the New START 
Treaty because the Treaty does not limit the aggregate throw weight of 
ballistic missiles.
    Throw weight was used under the START Treaty as an indirect measure 
of a missile's capability with respect to the number of warheads it 
could carry, and its assessment was part of the calculation of the 
number of warheads attributed to a new type of missile under the START 
Treaty.
    In contrast, the New START Treaty requires a Party to provide 
during pre-inspection procedures the actual number of warheads emplaced 
on each ICBM or SLBM subject to the inspection, and does not utilize 
the warhead attribution method for counting ICBM and SLBM warheads. The 
warhead inspection portion of a New START Type One inspection is used 
to confirm the accuracy of the declared data on the actual number of 
warheads emplaced on a designated, deployed ICBM or SLBM.

          The number of warheads on ICBMs and SLBMs;
    Article VII, paragraphs 1 and 2; Article XI, paragraph 2; Protocol, 
Part Two, Section I, paragraph 5; Protocol, Part Two, Sections III and 
IV; Protocol, Part Four, Section II; Protocol, Part Five, Section VI.

          The number of non-deployed mobile missiles;
    Article VII, paragraphs 1 and 2; Article XI, paragraphs 2 and 3; 
Protocol, Part Two, Section I, paragraph 5; Protocol, Part Two, Section 
III; Protocol, Part Four, Sections II and III; Protocol, Part Five, 
Sections VI and VII.

          The aggregate number of deployed missiles;
    Article VII, paragraphs 1 and 2; Article XI, paragraph 2; Protocol, 
Part Two, Section I, paragraph 5; Protocol, Part Two, Sections III and 
IV; Protocol, Part Four, Section II; Protocol, Part Five, Section VI.

          The technical parameters for new types of both missiles and 
        ALCMs through technical exhibitions, exchange of telemetric 
        data and NTM;
    For missiles: Article VII, paragraphs 1 and 2; Article XI, 
paragraph 4; Protocol, Part Two, Section VII; Protocol, Part Four, 
Section II; Protocol, Part Five, Section VIII.
    For ALCMs: The New START Treaty does not specifically limit long-
range nuclear ALCMs, nor are there any Treaty provisions that would 
require the exchange or confirmation of technical parameters for ALCMs.

          The number, by type, of deployed heavy bombers that are 
        equipped for nuclear-capable ALCMs;
    Article VII, paragraphs 1 and 2; Article XI, paragraph 2; Protocol, 
Part Two, Section I, paragraph 5; Protocol, Part Two, Section V; 
Protocol, Part Four, Sections II and III; Protocol, Part Five, Section 
VI.

          The number, by type, of deployed heavy bombers that are not 
        equipped for nuclear ALCMs but that carry other nuclear 
        munitions;
    Article VII, paragraphs 1 and 2; Article XI, paragraph 2; Protocol, 
Part Two, Section I, paragraph 5; Protocol, Part Two, Sections V; 
Protocol, Part Four, Sections II and III; Protocol, Part Five, Section 
VI.

          The number, by type, of formerly nuclear-capable heavy 
        bombers, training aircraft, and heavy bombers equipped for 
        conventional munitions that no longer carry nuclear munitions;
    Article VII, paragraphs 1 and 2; Article XI, paragraph 2 and 3; 
Protocol, Part Two, Section I, paragraph 5; Protocol, Part Two, 
Sections V; Protocol, Part Four, Sections II and III; Protocol, Part 
Five, Section VI and VII; Protocol, Part Nine, First Agreed Statement.

          The elimination of strategic nuclear launchers and delivery 
        vehicles;
    Article VII, paragraphs 1 and 2; Article XI, paragraph 3; Protocol, 
Part Two, Section I, paragraph 5; Protocol, Part Two, Sections II and 
III; Protocol, Part Three, Sections I, II, III, IV, V, and VI; 
Protocol, Part Four, Section V; Protocol, Part Five, Section VII.

          Monitoring production of ICBMs for mobile launchers of ICBMs 
        to confirm the number of ICBMs for mobile launchers of ICBMs 
        produced.
    Article VII, paragraphs 1 and 2; Protocol, Part Two, Section I, 
paragraph 5; Protocol, Part Two, Section III; Protocol, Part Four, 
Section III; Protocol, Part Five, Sections VI and VII.

          Elimination of declared facilities;
    Article VII, paragraphs 1 and 2; Article XI, paragraph 3; Protocol, 
Part Two, Section IX, paragraphs 7 and 8; Protocol, Part Three, Section 
VII; Protocol, Part Four, Section V; Protocol, Part Five, Section VII, 
paragraphs 5 and 6.

    Question. Please describe verification tasks that would be carried 
out in the 7 years after entry into force of the New START Treaty and 
in the period of time thereafter.

    Answer. Verification of the New START Treaty will be carried out 
throughout the ten-year duration of the New START Treaty using all the 
measures and procedures provided for in the Treaty. These include on-
site inspections, national technical means of verification, unique 
identifiers, data exchanges, and notifications:

   ON-SITE INSPECTIONS.--The Treaty provides that each Party can 
        conduct up to 18 on-site inspections each year. These 
        inspections are divided into two groups.
          Type One inspections are conducted at the operating bases for 
        ICBMs, ballistic missile submarines (SSBNs), and nuclear-
        capable heavy bombers and focus on both deployed and non-
        deployed strategic arms. Each Party is allowed to conduct up to 
        ten Type One inspections annually.
          Type Two inspections are focused on non-deployed strategic 
        arms and conducted at places such as storage sites, test 
        ranges, and conversion or elimination facilities. Each Party is 
        allowed to conduct up to eight Type Two inspections annually.
          The New START Type One inspections combine many of the 
        aspects associated with two different types of inspections 
        conducted separately under the START Treaty, thus requiring 
        fewer inspections annually at the operating bases while 
        achieving many of the results of the previous treaty's 
        inspection regime.
          Type One inspections contribute to verification of the 
        Treaty's central limits by assessing the accuracy of declared 
        data on the numbers of deployed and non-deployed ICBMs, SLBMs, 
        and nuclear-capable heavy bombers and on the warheads located 
        on or counted for them.
          Type Two inspections may also be used to confirm the 
        conversion and elimination of strategic offensive arms and to 
        determine whether eliminated facilities are being used for 
        purposes inconsistent with the Treaty.

   NATIONAL TECHNICAL MEANS (NTM).--The Treaty provides for the use of 
        national technical means of verification (e.g., reconnaissance) 
        to verify compliance with the provisions of the New START 
        Treaty.
          NTM will provide an independent method of gathering 
        information that will contribute to the validation of Russian 
        data declarations.
          The Treaty, in Article X, commits both Parties not to 
        interfere with the NTM of verification of the other Party 
        operating in accordance with that article.

   UNIQUE IDENTIFIERS (UID).--Each Party will assign and provide a 
        unique alpha-numeric identifier for each of its deployed and 
        non-deployed ICBMs, SLBMs, and heavy bombers subject to the 
        Treaty.
          These unique identifiers, when combined with required 
        notifications and inspections, will contribute to the ability 
        to track the disposition and patterns of operation of such arms 
        throughout their life cycles, including their production, 
        movement between facilities, changes in deployment status, 
        possible storage, and eventual conversion or elimination.

   DATA EXCHANGE.--The Parties are required to exchange aggregate data 
        on their strategic offensive arms and related facilities 45 
        days after entry into force of the Treaty and semi-annually 
        thereafter.
          The sides will exchange data on the numbers, locations, and 
        technical characteristics of deployed and non-deployed 
        strategic offensive arms subject to the Treaty, listed by 
        unique identifier for ICBMs, SLBMs, and heavy bombers, as well 
        as data on the facilities where these arms are located.
          This exchange of data will help provide the United States 
        with an overall picture of Russia's accountable strategic 
        offensive arms. Each Party will be able to use on-site 
        inspections and other means in order to check the validity of 
        the other Party's data declarations.

   NOTIFICATIONS.--The Treaty establishes a comprehensive 
        notifications regime to track the movement and changes in 
        status of strategic offensive arms subject to the Treaty.
          This notifications regime ensures that the database is an 
        updated, ``living document'' that provides transparency 
        regarding the disposition of each Party's strategic offensive 
        arms.
          Through such notifications, and through tracking ICBMs, 
        SLBMs, and heavy bombers by their UIDs, the United States will 
        be better able to track the status of Russian strategic 
        offensive arms throughout their life cycles.

    Question. The preamble implies that additional reductions would be 
possible only in a multilateral context. What steps are being taken in 
this regard with countries other than Russia, and could future U.S. 
reductions, below those in New START, occur only if undertaken by other 
countries, such as China?

    Answer. Preserving continuity in our strategic nuclear relationship 
with Russia is important. Thus, our first order of business is to work 
with the Senate in support of the ratification and entry into force of 
this Treaty. As stated in the Nuclear Posture Review, the President has 
directed a review of post-New START arms control objectives to consider 
further reductions in nuclear weapons. The President has also expressed 
his desire to address non-strategic nuclear weapons and non-deployed 
nuclear weapons in future bilateral negotiations with Russia. It is 
also our goal to expand this process to a multilateral approach in the 
future.When the New START Treaty is ratified and enters into force, we 
can begin to move to expand the process of further reducing and 
limiting nuclear arms.
                         unilateral statements
    In connection with signing the treaty, both Russia and the United 
States made unilateral statements regarding missile defense. The 
President's Letter of Transmittal states that they are not legally 
binding and are not integral parts of the New START Treaty.

    Question. What is the legal status and significance of these 
statements?
    How do these statements differ from the statements on missile 
defense made by the Soviet Union and the United States in connection 
with the signing of the START I Treaty in 1991?

    Answer. These unilateral statements do not change the legal rights 
or obligations of the Parties under the treaty and are not legally 
binding. Thus, these unilateral statements have the same legal status 
as the unilateral statements made by the Soviet Union and the United 
States in connection with the signing of the START Treaty in 1991.
    The New START Treaty, like most other arms control treaties, 
provides that a Party may withdraw from the treaty if that Party 
decides that extraordinary events related to the subject matter of the 
treaty have jeopardized its supreme interests. Under this standard, 
each Party may decide when extraordinary events related to the subject 
matter of the treaty have jeopardized its supreme interests.
    The unilateral statement made by the Russian Federation reflects 
its current view that such ``extraordinary events'' would include a 
build-up in the missile defense system capabilities of the United 
States ``such that it would give rise to a threat to the strategic 
nuclear forces potential of the Russian Federation.''
    President Medvedev explained the Russian view regarding the 
significance of the Russian unilateral statement during a television 
interview in April 2010 in which he said: ``That does not mean that if 
the USA starts developing missile defense the treaty would 
automatically be invalidated, but it does create an additional argument 
that binds us and that makes it possible for us to raise the question 
of whether quantitative change to missile defense systems would affect 
the fundamental circumstances underlying the treaty. If we see that 
developments do indeed represent a fundamental change in circumstances, 
we would have to raise the issue with our American partners. But I 
would not want to create the impression that any changes would be 
construed as grounds for suspending a treaty that we have only just 
signed.''
    The 1991 Soviet unilateral statement on ``the interrelationship 
between reductions in strategic offensive arms and compliance with the 
Treaty between the U.S. and the USSR on the Limitation of Anti-
Ballistic Missile Systems'' stated that the START Treaty may be 
effective and viable only under conditions of compliance with the ABM 
Treaty, and further that the extraordinary events referred to in the 
relevant provision in the START Treaty also include events related to 
withdrawal by one of the Parties from the ABM Treaty or related to its 
materiel breach.'' When the United States withdrew from the ABM Treaty 
in 2002, however, the Russian Federation (as a successor state to the 
Soviet Union) did not withdraw from the START Treaty.
    In both U.S. unilateral statements--made in connection with the New 
START Treaty and with the START Treaty--the United States provided 
reasons why its activities related to missile defense should not raise 
concerns for Russia (or, in the case of START, the Soviet Union).
                       initial data notification
    Part Two of the New START Protocol specifies that not later than 45 
days after the date of signature the Parties will provide certain 
categories of data to each other relating to their strategic offensive 
arms--(a) site diagrams of facilities and, if applicable, (b) 
coastlines and waters diagrams for each facility at which inspection 
activities may be conducted; (c) an initial exchange of data according 
to the categories of data contained in Part Two; and in accordance with 
the Annex on Inspection Activities to the Protocol, (d) photographs, 
unless such photographs were previously provided in connection with 
fulfilling the requirements of the START Treaty. Given that the treaty 
was signed on April 8, the 45-day period for submitting this data ended 
on May 23.

    Question. Has Russia provided this data to the United States and 
vice versa?

    Answer. The United States and the Russian Federation have conducted 
their initial exchange of site diagrams and coastlines and waters 
diagrams pursuant to the requirements of Part Two of the Protocol. As 
provided in the Protocol, the initial exchange of data and photographs 
will not take place until 45 days after entry into force of the treaty.

    Question. Will the State Department brief the Committee on Foreign 
Relations on the Russian submission when and if this information is 
received?

    Answer. In accordance with paragraph 6 of Article VII of the 
treaty, which is being provisionally applied, site diagrams and 
coastlines and waters diagrams may not be released to the public unless 
so agreed within the framework of the Bilateral Consultative 
Commission. The State Department therefore will provide these diagrams 
to the Committee through classified channels.
    The administration will be prepared to brief the committee 
regularly on treaty implementation, including the data exchanged 
between the Parties.
                              common names
    Question. Why does Article III in New START fail to provide the 
common American names (``known to the United States of America as'') 
for Russian ICBM and SLBM systems, as was the case in Article III of 
START I?

    Answer. Article III lists the existing types of ICBMs and their 
launchers, SLBMs and their launchers, and heavy bombers as of the date 
of signature of the treaty. The Parties agreed to use the formal 
designations that each Party had established for each ICBM and its 
launcher, each SLBM and its launcher, and each heavy bomber rather than 
the NATO designation which had been used by the United States under the 
START Treaty. By using a single designation to reference a treaty-
accountable item, the possibility for confusion is reduced and the 
implementation of treaty provisions is simpler.
                        provisional application
    Part Eight of the Protocol specifies that paragraph 2 of Article V, 
will be provisionally applied.

    Question. Has Russia developed or deployed any new kinds of 
strategic offensive arms other than the existing types listed in 
paragraph 8 of Article III since December 4, 2009? If so, what are 
they?

    Answer. Please see classified response to be provided separately.

    Question. Why does the New START Treaty define a ``new type'' 
(defined term number 46. in Part One of the Protocol) but not a ``new 
kind'' of strategic offensive arm?

    Answer. Both the START Treaty and the New START Treaty have 
definitions for ``new type''; however, neither Treaty contains a 
definition of a ``new kind of strategic offensive arm.'' Leaving the 
term ``new kind of strategic offensive arm'' undefined allows the 
Parties to discuss and reach agreement regarding new arms that do not 
fall within any definition established by the treaty.

    Question. Why is the notification in the relevant annex concerning 
``a new kind of strategic offensive arm'' limited to questions and 
clarifications, with no reference to characteristics, capabilities or 
distinguishing features for new kinds of strategic offensive arms?

    Answer. The notification concerning a ``new kind of strategic 
offensive arm'' is structured to provide flexibility in the event that 
a Party raises a question about any new kind of strategic offensive 
arm. Such questions and clarifications could include, but are not 
limited to, references to characteristics, capabilities, or 
distinguishing features.
    The notification also provides for responding to any such 
questions.
    Part Eight of the Protocol specifies that paragraph 1 of Article VI 
will be provisionally applied.

    Question. Since December 4, 2009, has the Russian Federation 
carried out any conversion, elimination, or removed by other means from 
accountability any strategic offensive arms and facilities?

    Answer. Since the end of the START Treaty, the Russians have 
continued to eliminate and convert missiles systems and facilities, 
similar to how they did under that treaty. For instance, missile and 
rocket motor eliminations are under Cooperative Threat Reduction 
contracts. Examples of the conversion and elimination activities since 
the expiration of START include:

   Elimination of SS-25 ICBMs at Votkinsk
   SS-25 ICBM launchers have been eliminated at Pibanshur
   SS-25 ICBM rocket motors have been burned at Krasnoarmeysk
   SS-N-23 SLBMs have been eliminated at Krasnoyarsk.

    Question. Which New START verification provisions would apply to 
any strategic offensive arms and facilities converted, eliminated, or 
removed by other means from accountability during provisional 
application of the New START Treaty?

    Answer. While there are many verification provisions that will 
apply to strategic offensive arms and facilities converted, eliminated, 
or removed by other means from accountability once the New START Treaty 
enters into force, notification of any launch of an ICBM or SLBM is the 
only such provision that will be applied during the provisional 
application period. This provision adopts by reference the existing 
``Agreement Between the United States of America and the Union of 
Soviet Socialist Republics on Notification of Launchers of 
Intercontinental Ballistic Missiles and Submarine-Launched Ballistic 
Missiles of May 31, 1988.''
    Russian strategic offensive arms are being eliminated during this 
period of provisional application in cooperation with U.S. personnel 
under the Cooperative Threat Reduction Program, but there are no 
provisions for providing notification thereof under the New START 
Treaty for this period.
    Part Eight of the Protocol specifies that paragraph 2 of Article 
VII of the treaty will be provisionally applied by the two sides 
pending the treaty's entry into force, but says that such provisional 
application shall be ``only to the extent required to provide the 
notifications provided for in this Part.''
    Paragraph 2 of Article VII of the treaty provides that ``Each Party 
shall notify the other Party about changes in data and shall provide 
other notifications in a manner provided for in Part Four of the 
Protocol to this Treaty.''

    Question. Please specify which notifications the Parties have 
agreed to provide in the period prior to the treaty's entry into force 
by virtue of the provisional application of paragraph 2 of Article VII 
of the treaty.

    Answer. The Parties agreed to provisionally apply the following 
notifications:

 1. Paragraph 5, Section III, Part Four of Protocol: the beginning of a 
        major strategic exercise involving heavy bombers.
 2. Paragraph 6, Section III, Part Four of Protocol: the completion of 
        a major strategic exercise involving heavy bombers.
 3. Paragraph 1, Section IV, Part Four of Protocol: any launch of an 
        ICBM or SLBM, in accordance with the Agreement Between the 
        United States of America and the Union of Soviet Socialist 
        Republics on Notification of Launches of Intercontinental 
        Ballistic Missiles and Submarine-Launched Ballistic Missiles of 
        May 31, 1988.
 4. Paragraph 1, Section VII, Part Four of Protocol: a request to 
        convene a session of the BCC.
 5. Paragraph 2, Section VII, Part Four of Protocol: a response to a 
        request to convene a session of the BCC.
 6. Paragraph 3, Section VII, Part Four of Protocol: other messages 
        relating to the activities of the BCC.
 7. Paragraph 4, Section VII, Part Four of Protocol: a request for 
        clarification of a notification.
 8. Paragraph 5, Section VII, Part Four of Protocol: a clarification, 
        correction, or modification of a notification.
 9. Paragraph 6, Section VII, Part Four of Protocol: additional 
        messages with respect to the Treaty.

    Question. Does this include all notifications provided for in Part 
Four of the Protocol to the treaty?

    Answer. No. The notifications provisionally applied, prior to entry 
into force of the New START Treaty, do not include all notifications 
provided for in Part Four of the Protocol to the Treaty, but only the 
nine notifications specified in the response to the previous question.

    Question. Is it limited to notifications relating to provisions of 
the treaty that are being provisionally applied pursuant to Part Eight 
of the Protocol?

    Answer. Yes, the Part Four notification provisions that are being 
provisionally applied are limited to the nine notifications referred to 
in Part Eight of the Protocol.
    Part Eight of the Protocol specifies that paragraph 4 of Article 
VII will be provisionally applied.

    Question. What ``additional notification.'' does Article VII 
contemplate?

    Answer. Paragraph 4 of Article VII permits the Parties to provide 
additional notifications on a voluntary basis beyond those specified in 
paragraph 2 of the Article if a Party deems this necessary to ensure 
confidence in the fulfillment of obligations assumed under the treaty. 
Such notifications would be determined by the transmitting Party.

    Question. Would these notifications be of a different type or 
provide different data than specified in the other treaty 
notifications, or are they merely additional notifications of an 
identical type and content?

    Answer. The notifications provided for in paragraph 4 of Article 
VII could, for example, provide additional information necessary to 
ensure confidence in the fulfillment of obligations assumed under the 
treaty. However, there are no specific criteria regarding what the 
notifications should include, and the content of the notification will 
be determined by the transmitting Party.
            provisional application of start i and new start

    Question. Does the Russian Federation have the necessary domestic 
legal authority to permit it to provisionally apply relevant provisions 
of the treaty and Protocol in the period prior to their entry into 
force as provided for in Part Eight of the Protocol?

    Answer. Yes. The Russian negotiators advised that the Russian 
Federation does have the necessary domestic authority to permit it to 
provisionally apply those provisions listed in Part Eight of the 
Protocol.

    Question. What was the record regarding provisional application of 
the START I Treaty? Did Russia permit or carry out actions under 
provisional application or did it wait until START I entered into force 
before initiating all activities under START I, its Protocols and the 
MOU?

    Answer. Under the START Treaty, Russia fulfilled the obligations 
the Parties had agreed to provisionally apply, which were primarily 
related to the operation of the Joint Compliance and Inspection 
Commission; the development of telemetry-related procedures; the 
exchange of site diagrams and photographs; early exhibitions; and the 
exchange of inspector, monitor, and aircrew lists.

    Question. Is Russia presently applying all provisions identified in 
Part Eight of the New START Protocol on a provisional basis under its 
terms?

    Answer. Yes. In signing the Treaty, Russia agreed to provisionally 
apply the portions of the treaty and its Protocol that are listed in 
Part Eight of the Protocol (Provisional Application) during the interim 
between signature and entry into force of the Treaty. We have no reason 
to conclude that Russia is not fulfilling its obligations under Part 
Eight of the Protocol on provisional application.
                   substantive rights and obligations
    Article XV of the treaty provides that the Parties may use the 
Bilateral Consultative Commission (BCC) created by the treaty to make 
changes to the treaty's protocol ``that do not affect substantive 
rights or obligations unde.'' the treaty. Such changes would be made 
without resorting to the regular procedures for amending the treaty.

    Question. Does the executive branch intend to submit changes 
adopted through this procedure to the Senate for advice and consent as 
it would do with formal amendments to the treaty?

    Answer. The START Treaty contained similar language in each of its 
Protocols, under which the Parties used the Joint Compliance and 
Inspection Commission (JCIC) to make changes in the Protocols that did 
``not affect substantive rights or obligations unde.'' that treaty. The 
executive branch intends to use the same procedures with respect to 
making such changes in the New START Treaty as it did in making them 
within the framework of the START Treaty's JCIC. Accordingly, changes 
to the Protocol that do not affect substantive rights or obligations 
under the treaty will not be submitted to the Senate for advice and 
consent. Any change that does affect substantive rights or obligations 
would be an amendment and would require Senate advice and consent. 
Every agreement reached in the BCC will be provided for the Senate to 
view. The authority to agree on such changes through the JCIC was an 
important tool for the successful implementation of the START Treaty.

    Question. What criteria does the executive branch intend to use to 
determine whether a particular change to the treaty will ``affect 
substantive rights or obligations?''

    Answer. The START Treaty provides many helpful precedents for 
analyzing the question of whether a particular change in the New START 
Protocol will ``affect substantive rights or obligation.'' under the 
treaty. In most cases, the nonsubstantive changes made in the JCIC 
under the START Treaty were related to verification procedures and 
information exchange and were of a technical nature. The executive 
branch intends to consult with the Senate in those cases in which there 
could be a question as to whether a proposed change in the Protocol 
will affect substantive rights or obligations under the treaty.

    Question. Please provide examples of the kinds of changes the 
executive branch envisions being adopted through this procedure.

    Answer. Some provisions of the treaty are highly detailed and may 
require adjustment over the life of the treaty. This would include, for 
example, provisions regarding the content and timing of notifications 
in New START or the detailed procedures related to inspections.
    The experience of the START Treaty's Joint Compliance and 
Inspection Commission (JCIC) provides some helpful examples of the type 
of changes that might be agreed upon within the framework of the New 
START Treaty's Bilateral Consultative Commission. For example, the JCIC 
agreed on the releasability of treaty-related data, as is also provided 
for under paragraph 5 of Article VII of the New START Treaty, on 
specific procedures for use of radiation detection equipment, and on 
changes to types of inspection equipment.

    Question. Does the executive branch intend to consult with the 
Senate in making determinations about whether a particular change 
affects substantive rights or obligations under the treaty?

    Answer. As with the START Treaty, the executive branch intends to 
consult with the Senate in those cases in which there could be a 
question whether a proposed change in the Protocol would affect 
substantive rights or obligations under the treaty.
                                 ______
                                 

Responses of Secretary Clinton to Questions Submitted by Senator DeMint

    Question. Are you familiar with 22 U.S.C. Sec.  2578, which 
requires the Secretary of State to compile and maintain the negotiating 
history of all arms control agreements. The text reads:

          (a) Preparation of Records.--The Secretary of State shall 
        establish and maintain records for each arms control, 
        proliferation, and disarmament agreement to which the United 
        States is a party and which was under negotiation or in force 
        on or after January 1, 1990, which shall include classified and 
        unclassified materials such as instructions and guidance, 
        position papers, reporting cable and memoranda of conversation, 
        working papers, draft texts of the agreement, diplomatic notes, 
        notes verbal, and other internal and external correspondence.
          (b) Negotiating and Implementation Records.--In particular, 
        the Secretary of State shall establish and maintain a 
        negotiating and implementation record for each such agreement, 
        which shall be comprehensive and detailed, and shall document 
        all communications between the parties with respect to such 
        agreement. Such records shall be maintained both in hard copy 
        and magnetic media.

    Will you agree to share all of these materials with Senators and 
their staffs? How soon will you submit this material, unclassified and 
classified?
    Answer. A detailed article-by-article analysis of the New START 
Treaty that is nearly 200 pages long was provided to the Senate in the 
transmittal package from the President on May 13, 2010. This analysis 
provides information on every provision of the treaty, protocol, and 
annexes and was prepared by the treaty negotiators with relevant 
information drawn from the negotiating record.
    The treaty text and these materials, as well as testimony provided 
at hearings on the treaty, and the regular briefings to the committee 
by senior officials, including the negotiating team, provide a 
comprehensive picture of U.S. obligations under the treaty. However, 
should you have any outstanding questions we are committed to providing 
answers in detailed briefings, in a classified session, if needed.

    Question. During Senate consideration of the START I Treaty and 
implementation of the ABM Treaty, members of the Senate were provided 
the negotiating records. Indeed, the Senate advice and consent process 
for START was led by a Senate Arms Control Observer Group led by 
Senators Nunn, Lugar, Byrd, Warner, and the Majority and Minority 
Leaders, Mitchell and Dole. Access to the record and the negotiators 
were critical to achieving a clear understanding of the treaty's 
provisions and thus facilitated the approval process. Please explain 
why the administration does not support full transparency in the advice 
and consent process and why it does not support providing the U.S. 
Senate--charged constitutionally with providing advice and consent to 
treaties--full access to the negotiating record?

    Answer. The Executive does not traditionally submit to the Senate 
the ``negotiating record'' of a treaty for which the Senate's advice 
and consent is being sought. For example, the Senate gave advice and 
consent to 90 treaties during the 110th Congress. In not one of those 
cases did the Executive provide to the Senate ``full access to the 
negotiating record.''
    So far as we are aware, Senators were not provided ``full access to 
the negotiating record'' during Senate consideration of the START 
Treaty. Nor was the negotiating record provided to the Senate during 
its consideration of the ABM Treaty. Rather, information from the 
negotiating record was provided to the Senate in relation to a 
controversial interpretation of the ABM Treaty after the Senate had 
provided its approval and the treaty had entered into force.
    As the committee noted in its report on the treaty between the 
United States and the USSR on the Elimination of Their Intermediate-
Range and Shorter-Range Missiles, ``a systemic expectation of Senate 
perusal of every key treaty's `negotiating record' could be expected to 
inhibit candor during future negotiations and induce posturing on the 
part of U.S. negotiators and their counterparts during sensitive 
discussions.'' The committee report further noted that regularly 
providing the negotiating record would ultimately ``weaken the treaty-
making process'' and ``damage American diplomacy.''
    Of course, Senators being asked to provide advice and consent to 
ratification of a treaty should have a full understanding of what 
obligations would be undertaken by the United States upon ratification 
of that treaty. Thus, when a treaty is submitted by the President it is 
accompanied by a detailed article-by-article analysis of the treaty. 
The analysis of the New START Treaty transmitted to the Senate by the 
President on May 13, 2010, is nearly 200 pages and provides information 
on every provision of the treaty, protocol, and annexes. This analysis 
was prepared by the treaty negotiators with relevant information drawn 
from the negotiating record. The treaty text and these materials 
provide a comprehensive picture of U.S. obligations under the treaty. 
Should you have any outstanding questions we are committed to providing 
answers in detailed briefings, in a classified session, if needed.

    Question. You argued that there is no custom of sharing the full 
negotiating record with the Senate, stating that administrations going 
back to President Washington have chosen not to provide the negotiating 
records of treaties to the Senate.
    Is it not the case that President Washington submitted the full 
negotiating record of Jay's treaty to the Senate?
    Can you please explain how not sharing the negotiating record of 
this treaty is consistent with President Obama's memo from his first 
days in office that said ``Administration is committed to creating an 
unprecedented level of openness in Government''?

    Answer. As noted in my answer to the previous question, the 
Executive does not traditionally submit to the Senate the ``negotiating 
record'' of a treaty for which the Senate's advice and consent is being 
sought. In the case of the Jay Treaty, President Washington may have 
provided aspects of the negotiating record to the Senate, but that is 
certainly not standard practice. Instances in which the negotiating 
record or portions thereof have been provided to the Senate are 
extremely rare exceptions to the rule. For example, it is notable that 
although the Senate gave its advice and consent to 90 treaties during 
the 110th Congress, in not one of those cases did the Executive provide 
to the Senate ``full access to the negotiating record.''
    President Obama's Memorandum on Transparency and Open Government 
was designed to strengthen our democracy and promote efficiency and 
effectiveness in Government. The principles articulated in the 
President's Memorandum mandate that Senators be provided with a 
comprehensive picture of U.S. obligations under the treaty. This is 
accomplished in the detailed article-by-article analysis of the treaty 
that accompanied the President's transmittal of the New START Treaty on 
May 13, 2010. This analysis, which is nearly 200 pages and provides 
information on every provision of the treaty, protocol, and annexes, 
was prepared by the treaty negotiators with relevant information drawn 
from the negotiating record.
    Regularly providing full access to the negotiating record of 
treaties would not only be unnecessary to a full understanding of the 
treaty's provisions, but would also have a negative impact on the 
effectiveness of the U.S. Government. As the committee noted in its 
report on the treaty between the United States and the USSR on the 
Elimination of Their Intermediate-Range and Shorter-Range Missiles, ``a 
systemic expectation of Senate perusal of every key treaty's 
`negotiating record' could be expected to inhibit candor during future 
negotiations and induce posturing on the part of U.S. negotiators and 
their counterparts during sensitive discussions.'' The Committee Report 
further noted that regularly providing the negotiating record would 
ultimately ``weaken the treaty-making process'' and ``damage American 
diplomacy.''

    Question.  Secretary Clinton, in your testimony you stated, ``And 
we have said very clearly, number one, that it has to be a NATO 
decision [to withdraw our tactical nukes from Europe]. It's not a 
unilateral decision. And, number two, we are not going to withdraw our 
tactical nukes unless there is an agreement for Russia to similarly 
discuss with us withdrawal of their tactical nukes.'' Would you be 
willing to support a restatement of your second point to read, ``We are 
not going to withdraw our tactical nukes unless there is an agreement 
for Russia to similarly withdraw their tactical nukes.''?
    Answer. As stated in the April 2010 U.S. Nuclear Posture Review, we 
will seek to include non-strategic and non-deployed nuclear weapons in 
the next round of arms control negotiations with Russia. While we don't 
want to prejudge the outcome of future negotiations, we have 
consistently stated that NATO's nuclear posture should be discussed and 
decided together by Allies. It is the U.S. view that in any future 
reductions, our aim should be to seek Russian agreement to increase 
transparency on non-strategic nuclear weapons in Europe, relocate these 
weapons away from the territory of NATO members, and include non-
strategic nuclear weapons in the next round of U.S.-Russian arms 
control discussions alongside strategic and non-deployed nuclear 
weapons.
                                 ______
                                 

Responses of Secretary Clinton to Questions Submitted by Senator Wicker

                                  nie
    Question. Secretary Clinton, what is timeline for the completion of 
the national intelligence estimate and the formal verification 
assessments required to completely evaluate the treaty? What are the 
terms of reference of that NIE? Will it be limited to an estimate of 
the verifiability of the treaty or will it also evaluate how the treaty 
contributes, along with our national technical means, to an 
understanding of Russian nuclear forces?

    Answer. The National Intelligence Estimate on the Intelligence 
Community's ability to monitor the New START Treaty was published on 
June 30, 2010, and has been provided to the Senate.
    The verifiability assessment of the New START Treaty is conveyed in 
the State Department's Section 306 report which addresses the 
determinations of the U.S. Government as to the degree to which the 
limits of the New START Treaty can be verified. The Section 306 report 
was published on July 12, 2010 and has been provided to the Senate.
                            missile defense
    Question. Secretary Clinton, the Ballistic Missile Defense Review 
Report states, ``The United States will continue to engage [China and 
Russia] on this issue to help them better understand the stabilizing 
benefits of missile defense . . .'' Regarding Russia, would you detail 
how the U.S. side used the New START negotiations to help the Russians 
better understand the stabilizing benefits of missile defense?

    Answer. The United States did not use the New START Treaty 
negotiations as a medium to help the Russians better understand the 
stabilizing benefits of missile defense. From the outset, the United 
States and Russia agreed that the New START Treaty was intended to 
replace the START Treaty, and that it would focus on the reduction and 
limitation of strategic offensive arms.
    U.S. missile defense discussions with Russia have been conducted in 
the Arms Control and International Security Working Group, which is 
cochaired by Under Secretary of State Ellen O. Tauscher and Deputy 
Foreign Minister Sergei Ryabkov. This working group operates under the 
umbrella of the United States-Russia Bilateral Presidential Commission 
which was established by President Obama and President Medvedev at the 
Moscow Summit, July 6-8, 2009.
    We have provided, and will continue to provide, policy and 
technical explanations to Russia regarding why U.S. ballistic missile 
defense (BMD) capabilities such as the European-based Phased Adaptive 
Approach will not undermine Russia's strategic nuclear deterrent. The 
United States has also offered to provide transparency and confidence-
building measures to demonstrate that existing and planned U.S. BMD 
programs are not directed against Russia and do not threaten Russia's 
strategic deterrent and to develop various forms of missile defense 
cooperation between the United States and the Russian Federation.

    Question. In remarks at the Atlantic Council on April 21, 2010, 
Under Secretary of State Ellen Tauscher said, ``Our Russian friends 
needed some assurances as it negotiated deeper reductions in the 
absence of an ABM Treaty. The United States made a unilateral statement 
to clarify that our missile defense systems are not intended to affect 
the strategic balance with Russia.''
    Why was it necessary to provide such assurances to Russia?

    Answer. A number of public statements made by Russian leaders about 
the treaty have shown that they considered such assurances necessary in 
the context of reaching agreement on the treaty. Under Secretary 
Tauscher's statement to the Atlantic Council was based on standing U.S. 
policy as articulated in the 2010 Ballistic Missile Defense Review that 
``while the GMD system would be employed to defend the United States 
against limited missile launches from any source, it does not have the 
capacity to cope with large scale Russian [or Chinese] missile attacks, 
and is not intended to affect the strategic balance with those 
countries.''
    The United States has made clear that U.S. missile defense efforts 
are not directed against Russia. As Secretary Gates stated in his May 
18 testimony before the SFRC:

          Under the last administration, as well as under this one, it 
        has been U.S. policy not to build a missile defense that would 
        render useless Russia's nuclear capabilities. It has been a 
        missile defense intended to protect against rogue nations such 
        as North Korea and Iran, or countries that have very limited 
        capabilities. The systems that we have, the systems that 
        originated and have funded in the Bush administration, as well 
        as in this administration, are not focused on trying to render 
        useless Russia's nuclear capability. That, in our view, as in 
        theirs, would be enormously destabilizing, not to mention 
        unbelievably expensive.

    Because Russia has expressed concerns that U.S. ballistic missile 
defense (BMD) capabilities could eventually be a threat to Russia's 
nuclear deterrent, the United States has sought to explain to Russia 
our approach to missile defense, consistent with the testimony of 
Secretary Gates quoted above. To this end, we have provided, and will 
continue to provide, policy and technical explanations regarding why 
U.S. BMD capabilities such as the European-based Phased Adaptive 
Approach do not and cannot pose a threat to Russian strategic deterrent 
forces.

    Question. What other ``assurances'' did U.S. negotiators provide 
with respect to future U.S. missile defense plans?

    Answer. U.S. missile defense was not the subject of New START 
negotiations. U.S. negotiators did not provide Russia with 
``assurances'' with respect to future U.S. missile defense plans, 
openly or otherwise. Nonetheless, we have stated, in various fora, that 
U.S. missile defense is not intended to affect the strategic balance 
with Russia.

    Question. Were the Russians informed that the U.S. intends to 
deploy the SM-3 block IIB missile in Europe to defend against the ICBM 
threat from the Middle East? What was the Russian response?

    Answer. The potential deployment of the SM-3 Block IIB was clearly 
explained during the President's September 19, 2009 announcement of the 
``Phased Adaptive Approach'' to ballistic missile defense in Europe as 
well as in the Ballistic Missile Defense Review Report to Congress, 
which was published on February 1, 2010. Additionally, the Obama 
administration has provided briefings on U.S. regional and national 
ballistic missile defense (BMD) policy, plans, and programs to 
representatives of the Russian Government and the Russian military. The 
briefing and discussion conducted in Moscow in October 2009 within the 
Arms Control and International Security Working Group of the United 
States-Russia Bilateral Presidential Commission included a clear 
description of all four phases of the U.S Phased Adaptive Approach 
(PAA) to missile defense in Europe, including the possible deployment 
of the SM-3 Block IIB under Phase 4 to defend against the ICBM threat 
from the Middle East. A second briefing and discussion were held 
between representatives of the U.S. Joint Staff and the Russian General 
Staff in a meeting of the Military Cooperation Working Group.
    Russia has expressed concerns that the ability to defend against 
ICBMs launched from the Middle East that is slated to be deployed under 
Phase 4 of the PAA in Europe could pose a threat to Russia's strategic 
nuclear deterrent. This is not the case. Representatives of the Obama 
administration have explained and will continue to explain that U.S. 
missile defenses, including those to be deployed during all phases of 
the European PAA, do not pose a threat to Russia's strategic deterrent.

    Question. Do the Russians view the IIB as a qualitative improvement 
to U.S. missile defense systems that would justify withdrawal from the 
treaty?

    Answer. To date, the Russians have not identified specific missile 
defense systems whose deployment would justify Russian withdrawal from 
the treaty. At a press conference on April 6, 2010, just prior to the 
signing of the treaty, Foreign Minister Lavrov, in speaking about the 
prospective deployment of U.S. SM-3 systems in Romania, said that 
``[w]ith respect to the practical aspects of the contemplated 
unilateral U.S. missile defense systems. We have noted that in the 
first stages, the system will not have strategic characteristics. When 
and if the strategic features of this system emerge, we will look into 
the extent to which they create risks to our strategic nuclear 
forces.''

    Question. Given the disparity in views between the U.S. and Russia 
on missile defense, do you think this treaty is setting the stage for 
future confrontation over this issue as the U.S. continues to deploy 
missile defense systems, especially in Europe?

    Answer. No, I do not believe the treaty is setting the stage for 
future confrontation over this issue. The New START Treaty does not 
constrain U.S. plans for fielding and continuing to develop missile 
defenses. The U.S. unilateral statement in response to Russia's 
statement makes it clear that the United States intends to continue to 
improve and deploy the most effective missile defense capabilities 
possible.
    Beyond the context of the New START Treaty, Russia has expressed 
concerns that future U.S. BMD capabilities--including the later phases 
of the Phased Adaptive Approach--could eventually be a threat to 
Russia's strategic nuclear deterrent. In an effort to address Russian 
concerns, we have provided, and will continue to provide, policy and 
technical explanations regarding why U.S. BMD capabilities such as 
those associated with the Phased Adaptive Approach will not undermine 
Russia's strategic nuclear deterrent. The United States has also 
offered to provide transparency and confidence-building measures to 
demonstrate that existing and planned U.S. BMD programs are not 
directed against Russia and do not threaten Russia's strategic 
deterrent. These discussions with Russia regarding our missile defense 
plans will continue to take place independent from bilateral New START 
Treaty discussions.
    These efforts seek to minimize future friction with Russia 
regarding U.S. missile defense programs. Regardless, the United States 
is committed to implementing the BMD policies outlined in the Ballistic 
Missile Defense Review Report, including deployment of the Phased 
Adaptive Approach in Europe, as needed to respond to long-range missile 
threats that emerge in the Middle East.
                       united states-russia reset
    Question. In a GAO report concerning the Russia 123 last June, that 
agency stated:

          We identified weaknesses in the process State used to ensure 
        interagency consultation during the development of the 
        classified NPAS annex that accompanied the United States-Russia 
        123 agreement, including a lack of formal guidelines, failure 
        of NRC to analyze the final version of the annex prior to the 
        Commission's vote on the agreement, and concerns with the 
        consultative process involving the intelligence community.

    As the administration has opted to resubmit the Russia 123 
Agreement, can you assure this committee that those issues have all 
been addressed?

    Answer. In its report on the United States-Russia Nuclear Agreement 
(GAO-09-743R, released June 29, 2009), the GAO report outlined three 
recommendations for Executive Action.
    The first recommendation was that the Secretary of State should 
work with the Secretary of Energy (DOE), Chairman of the Nuclear 
Regulatory Commission (NRC), and Director of National Intelligence 
(DNI), as appropriate, to clarify how interagency participants will 
implement their statutorily assigned roles and responsibilities in the 
review process for agreements for peaceful nuclear cooperation entered 
into under Section 123 of the Atomic Energy Act of 1954, as amended 
(``123 Agreements'') and associated documents, such as the Nuclear 
Proliferation Assessment Statement (NPAS) and classified annex that 
accompany 123 Agreements. In the course of preparing and clearing the 
documents needed for resubmission to Congress in May 2010 of the United 
States-Russia 123 Agreement, the Department of State informed all 
relevant interagency officials of their roles and responsibilities in 
reviewing and clearing the submittal package, and the National Security 
Council (NSC) sent all involved agencies a timetable that agencies were 
expected to meet in completing those responsibilities. The Department 
of State also took steps throughout the clearance process to keep 
interagency officials informed of the status of the transmittal 
package.
    The second recommendation was that the Secretary of State should 
work with the Secretary of Energy, NRC Chairman, and the DNI, as 
appropriate, to establish written procedures to carry out the process 
used to develop, review, and transmit 123 Agreements and associated 
documents. While the Department has not yet drafted a formal set of 
written procedures for interagency consideration, we were cognizant of 
the concerns underlying this recommendation and took steps throughout 
the process of reviewing and clearing the United States-Russia 123 
Agreement transmittal package to make sure that all relevant 
interagency officials understood their responsibilities, and that the 
objective of the recommendation was fulfilled within the time available 
to complete the relevant documents and forward them to the Congress.
    The third recommendation was that the Secretary of State should, 
with the Secretary of Energy, NRC Chairman, and DNI, as appropriate, 
ensure adequate time for consultation with the NRC and provide for the 
NRC to be given the final versions of all necessary documents prior to 
any vote on approval for, and submission of its views and 
recommendations on, a 123 agreement. In the course of preparing and 
clearing the 2010 United States-Russia 123 Agreement transmittal 
package, the Department of State kept relevant NRC officials informed 
about the status of the various documents in the package and ensured 
that the NRC received the last versions of those documents prior to 
their submission to the President for his approval of the 123 Agreement 
and requisite statutory determination.

    Question. As you know, the House version of the Iran Sanctions 
legislation now in conference includes a provision that would prevent 
the Russia 123, or any other 123 agreement for nuclear cooperation, 
from being implemented unless the President determines that the country 
in question is not providing Iran with nuclear weapons technology or 
ballistic missile or advanced conventional weapon technology.
    Do you agree with this provision? If not, why did you cosponsor S. 
970 when you were a Senator? As you may recall, that legislation 
contained almost the exact same provision?
    Do you think the President would be able to issue such a 
determination in the case of Russia?

    Answer. The administration continues to believe that there are 
significant benefits to the United States in concluding an agreement 
for peaceful nuclear cooperation with Russia (``123 Agreement''). Once 
it enters into force, the 123 Agreement will provide a solid foundation 
for long-term civil nuclear cooperation, create commercial 
opportunities for U.S. industry, and enhance cooperation on important 
global nonproliferation benefits. The Nuclear Proliferation Assessment 
Statement (NPAS) submitted as part of the 2010 transmittal package is 
based on a current assessment of Russia's nonproliferation behavior and 
reaches the conclusion that the 123 Agreement will promote, and will 
not constitute an unreasonable risk to, the common defense and 
security.
    We are working very closely and in cooperation with Russia on our 
shared goal of preventing Iran from acquiring a nuclear weapons 
capability. Russia does not support an Iran with nuclear weapons and--
in addition to other constructive contributions to international 
nuclear nonproliferation efforts-- joined the November 2009 IAEA Board 
of Governors resolution condemning Iran's lack of cooperation with the 
IAEA, its refusal to suspend enrichment, and its failure to comply with 
its Safeguards Agreement. Russia has supported all six U.N. Security 
Council resolutions calling on Iran to suspend enrichment, and also 
continues to provide key assistance in the ongoing IAEA proposal 
discussions to refuel the Tehran Research Reactor.

    Question. The President, in a statement released on May 10 said, 
``After review of the situation and of the NPAS and classified annex, I 
have concluded: (1) that the situation in Georgia need no longer be 
considered an obstacle to proceeding with the proposed Agreement.'' Has 
Russia withdrawn from its illegal occupation of South Ossetia and/or 
Abkhazia? If not, why is the illegal invasion no longer a concern of 
the Department of State?

    Answer. Enhancing peace and security in the Caucasus is a priority 
for the United States. The decision to move forward with the 123 
Agreement was made on its own merits and in order to advance 
nonproliferation, a goal which Georgia shares. Advancing civil nuclear 
energy cooperation with Russia through this Agreement in no way 
diminishes our unwavering support for Georgia's sovereignty and 
territorial integrity. We still have serious differences with Russia 
over its actions and posture in Georgia. We are frank and forthright in 
making our views known to Russia, bilaterally as well as through the 
Geneva process and in other international fora. We continue to urge 
Russia to abide by its August 12, 2008, cease-fire commitments. In 
particular, we have expressed concern over the Russian Government's 
construction of permanent bases in South Ossetia and Abkhazia, and its 
refusal to withdraw to prewar positions, both of which we think are 
inconsistent with those commitments.

    Question. According to a May 11 Reuters report, a senior Kremlin 
official said that, ``Russia wants `the swiftest removal' of U.S. 
sanctions against Russian state arms exporter Rosoboronexport and three 
other enterprises he indicated were under U.S. restrictions aimed at 
preventing weapons proliferation. `We will demand it--seeing as they 
are counting on our position in working out (measures) against Iran 
with the international community.' ''
    Can you assure this committee that any decision to remove sanctions 
on entities in any country will be based solely on whether the entity 
is proliferating technology in violation of our law and not as a result 
of a quid pro quo with Russia where they agree to support sanctions, 
especially sanctions they have already watered down?

    Answer. There has been no quid pro quo with the Russian Government 
on the issue of sanctions. We decided to lift penalties on several 
Russian entities because doing so was determined to be in the foreign 
policy and national security interests of the United States.
    We believe that securing the 1929 UNSC resolution will have a 
significant impact on Iran's ability to develop weapons of mass 
destruction and acquire conventional weapons. The UNSC resolution will 
put international legal constraints on potential exports of concern by 
entities in all U.N. Member States, including Russia.
    Nonproliferation is a high priority for the United States, and the 
Russian Government is a key partner in this effort. We will continue to 
work cooperatively with the Russian Government to prevent entities from 
contributing to weapons of mass destruction, missile programs, or 
conventional weapons programs of concern. At the same time, we will 
continue to implement U.S. nonproliferation penalties when appropriate. 
We will continue to monitor the activities of Russian entities and will 
make determinations consistent with existing legislation and other 
legal authorities.

    Question. When will you submit the Iran, North Korea, Syria Non 
Proliferation Act (INKSNA) reports that are due semiannually, but have 
not been submitted since October 2008?

    Answer. The Department acknowledges that delivery of the INKSNA 
report was delayed considerably. The Department has completed the 
determinations mandated by the legislation and provided a classified 
report to the Foreign Affairs Committees of the Congress on July 10, 
2010. The Department is prepared to brief on the report's content and 
judgments.

    Question. Secretary Clinton, in your prepared remarks you asserted 
that the completion of New START ``conveys to other nations that we are 
committed to real reductions, and to holding up our end of the bargain 
under the Non-Proliferation Treaty.'' The United States has been 
reducing its nuclear weapons stockpile for 40 years, and that fact is 
very well-known. It did not take the declassification of our stockpile 
numbers at the NPT Review Conference to demonstrate it. In this 
respect, what benefits to the nonproliferation regime can we expect to 
come from the particular reductions embodied in this treaty that have 
not come from the previous 40 years of US nuclear reductions?

    Answer. The cornerstone of the nonproliferation regime is the 
Nuclear Non-Proliferation Treaty (NPT), which contains three pillars--
disarmament, nonproliferation, and access to peaceful uses of nuclear 
energy--all of which are interlinked. The treaty obligates nuclear-
weapon states to pursue negotiations on effective measures relating to 
disarmament, and without measures for this purpose, the willingness of 
non-nuclear-weapon state Parties to support a strong nonproliferation 
regime would likely diminish. We can expect that the New START Treaty, 
combined with further nuclear reductions and nonproliferation efforts 
such as holding Iran accountable for Treaty violations, will strengthen 
the NPT regime and ensure that it remains the principal legal barrier 
to nuclear proliferation.
    The United States and Russia are the world's two largest nuclear 
powers. Although both nations have made significant cuts to their 
stockpiles, both still possess significantly more warheads than any 
other nation. For this reason, the world looks to the United States and 
Russia to uphold the architecture of arms control and nonproliferation.
                                 ______
                                 

Responses of Secretary Clinton to Questions Submitted by Senator Inhofe

                        tactical nuclear weapons
    Question. Secretary Clinton, the 2010 Nuclear Posture Review 
concludes that ``large disparities in nuclear capabilities could raise 
concerns on both sides and among U.S. allies and partners, and may not 
be conducive to maintaining a stable, long-term relationship, 
especially as nuclear forces are significantly reduced.'' Under this 
treaty, the U.S. will reduce deployed strategic nuclear warheads to 
1,550 and the Russians will do the same. At the same time, the Russians 
will continue to deploy at least 3,800 tactical nuclear warheads in 
addition to their strategic nuclear warheads, compared to only a couple 
of hundred deployed U.S. tactical nuclear weapons. Not only will the 
Russians maintain 10-1 superiority in tactical nuclear weapons, their 
tactical nuclear weapons will outnumber our strategic nuclear weapons 
by at least 2-1.
    What impact will this disparity have on allied views of the U.S. 
nuclear umbrella?
    What leverage do we have to address this disparity in the future, 
and why didn't we make this an objective for this agreement?

    Answer. Because of their limited range and different roles, 
tactical nuclear weapons do not directly influence the strategic 
balance between the United States and Russia. Furthermore, within the 
regional context, the United States relies on additional capabilities 
to support extended deterrence and power projection, including: 
conventional force capabilities, ballistic missile defenses, allied 
capabilities, advanced technologies, and modernization and maintenance 
of existing forces, to name a few. As President Obama stated in Prague 
last year, we are committed to maintaining a safe, secure, and 
effective nuclear arsenal to deter any adversary and guarantee that 
defense to our allies. During the Nuclear Posture Review (NPR) 
consultations, our NATO allies were engaged on the issue of extended 
deterrence and were assured of our continued commitment to their 
defense. Allies have welcomed the outcome of the NPR, as well as the 
signing of the New START Treaty.
    A more ambitious treaty--one that addressed tactical nuclear 
weapons or additional nuclear weapons states--would have taken much 
longer to complete, adding significantly to the time before a successor 
agreement, including verification measures, could enter into force 
following START's expiration in December 2009. We hope the New START 
Treaty will set the stage for further negotiations with Russia on 
measures to reduce both our strategic and tactical nuclear weapons, 
including nondeployed nuclear weapons.

    Question. Secretary Clinton, it is common knowledge that Russia was 
going down to 600-800 strategic delivery vehicles whether or not there 
was a NEW START Treaty. At Russia's request, the administration decided 
to forgo the leverage it had to include tactical nuclear weapons in 
this treaty--for which the Russians have a 10 to 1 advantage over the 
United States.
    What was the rationale for forgoing that leverage?
    What is the Russian incentive to open new negotiations on tactical 
nuclear weapons now that they have NEW START?

    Answer. A more ambitious treaty that addressed tactical nuclear 
weapons would have taken much longer to complete, adding significantly 
to the time before a successor agreement, including verification 
measures, could enter into force following START's expiration in 
December 2009. Because of their limited range and different roles, 
tactical nuclear weapons do not directly influence the strategic 
balance between the United States and Russia.
    President Medvedev has expressed interest in further discussions on 
measures to further reduce both nations' nuclear arsenals. The Russians 
are concerned with the totality of the U.S. nuclear stockpile, the 
upload capability of our strategic ballistic missiles as well as U.S. 
tactical weapons located in Europe. Also, Article VI of the Nuclear 
Nonproliferation Treaty (NPT) stipulates that nuclear weapons states 
are to work toward achieving nuclear disarmament. The Russians are 
sensitive to world opinion and want to be seen as favorably working 
towards this goal. As stated in the April 2010 Nuclear Posture Review 
and by the President at the signing of the New START Treaty in Prague, 
we intend to raise strategic and tactical nuclear weapons, including 
nondeployed nuclear weapons, in those discussions.
                        stockpile modernization

    Question. Secretary Clinton, you testified that the NNSA budget for 
FY11 shows a 10-percent increase in the weapon and infrastructure and a 
25 percent increases in direct stockpile work. You stated, ``This was 
not in previous budgets.'' Since you are comfortable discussing the 
NNSA budget, please answer the following questions:
    Isn't it true that the FY07, FY08 and FY09 budgets each showed an 
anticipated FY11 budget requirement of about $7 billion, the amount 
requested by the Obama administration this year.

    Answer. The prior years referenced are correct for the Weapons 
Activities account. The President's FY 2011 budget request is 
specifically focused on the implementation of administration objectives 
as stated in the 2010 Nuclear Posture Review.

    Question. It is true that the direct stockpile work budget, under 
weapon activities, is 25 percent higher than prior budgets. Does the 
direct stockpile work increase come at the expense of infrastructure 
requirements outlined in the FY07-FY09 budgets (including essential 
replacement facilities for plutonium and uranium operations)?

    Answer. The President's FY 2011 budget request increases directed 
stockpile work by 26 percent compared to FY 2010, and includes 
increases in science and selected infrastructure investments to satisfy 
Department of Defense requirements. The President's FY 2011 budget 
request reflects a balanced approach to satisfy planned directed 
stockpile work, science capabilities, infrastructure investment, and 
continuity of essential capabilities for plutonium and uranium 
operations, consistent with requirements identified in the Nuclear 
Posture Review and plans outlined in the Stockpile Stewardship and 
Management Plan.

    Question. What is the assurance that NNSA will be able to modernize 
the complex, with sufficient capacity and with an adequate time-line, 
at these lower levels?

    Answer. The recently completed NNSA Stockpile Stewardship and 
Management Plan provides the comprehensive resource planning document 
for modernizing the nuclear security enterprise over the long term to 
support the administration's objectives detailed in the Nuclear Posture 
Review. The Secretary of Energy and the Secretary of Defense are 
confident that we have a credible modernization plan necessary to 
sustain the nuclear infrastructure and support our nation's deterrent.

    Question. Table 3 of the DOD/DOE 1251 report shows the Readiness in 
Technical Base and Facilities (RTBF) account as essentially flat until 
FY16, yet the NNSA is going to be starting work on the CMRR and the UPF 
facilities prior to that year. Please explain how the RTBF account will 
be sufficient to cover design and construction work on those two 
facilities and will cover, with next-to-no increases, current 
requirements for RTBF funding for facilities and operations costs 
across the NNSA enterprise.

    Answer. The current Future Years Nuclear Security Program (FYNSP) 
RTBF construction budget for fiscal years 2011-2015 has been 
prioritized to enable design completion and the start of construction 
for the CMRR nuclear facility and the Uranium Processing Facility 
(UPF).

    Question. Please explain the apparent slip in the date for initial 
operations for CMRR from 2020 to 2022. Is this due to insufficient 
funding?

    Answer. There is no slip in the date for initial operations for the 
CMRR nuclear facility. Construction of the CMRR nuclear facility is 
scheduled to be completed in 2020, with transition to full operations 
to be completed in 2022.

    Question. Should the administration have requested more money?

    Answer. No, we believe the budget we have set forth meets 
requirements and is executable.

    Question. Please provide detailed breakdowns on a site-by-site 
basis for FY11-16 for RTBF spending.

    Answer. Please see the spreadsheets that follow.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Question. Secretary Clinton, when you were a member of the Senate 
Armed Services Committee, that committee and several others, supported 
the Reliable Replacement Warhead program. As you know, it was stopped 
by one House subcommittee.
    Is that your recollection?
    Do you still support the RRW, which you consistently supported when 
you served on the SASC?

    Answer. This administration has made clear that we will maintain a 
safe, secure, and effective nuclear arsenal, and our recent budget 
request for a 10% increase in NNSA weapons funding is indicative of 
this commitment. After months of extensive analysis, our Nuclear 
Posture Review (NPR), which was led by DOD and included the NNSA and 
the State Department, concluded that we can maintain the safety, 
security, and reliability of our nuclear arsenal through life extension 
programs (LEPs). Reliable Replacement Warhead (RRW) was a program to 
replace all existing nuclear warheads with a common family of new 
warhead designs. In contrast to that approach, the NPR adopted a 
nuclear warhead LEP under which our experts will study options for 
ensuring the safety, security, and reliability of nuclear warheads on a 
case-by-case basis, consistent with the congressionally mandated 
Stockpile Management Program. The full range of LEP approaches will be 
considered: refurbishment of existing warheads, reuse of nuclear 
components from different warheads, and replacement of nuclear 
components. In any decision to proceed to engineering development for 
warhead LEPs, the United States will give strong preference to options 
for refurbishment or reuse. Replacement of nuclear components would be 
undertaken only if critical Stockpile Management Program goals could 
not otherwise be met, and if specifically authorized by the President 
and approved by Congress.

    Question. Secretary Clinton, I am concerned that the administration 
is laboring under the misconception that nuclear disarmament, which 
this treaty is designed to advance, must progress simultaneously with 
the pursuit of nonproliferation goals. I believe this is a serious 
matter of sequencing. The danger is that the administration will be 
advancing towards nuclear disarmament goals--which include unilateral 
steps like the change declaratory policy, the virtual prohibition on 
building new nuclear weapons and disclosing the size of the U.S. 
nuclear stockpile--while it is entirely possible that the 
nonproliferation regime is running off the rails. Put differently, the 
administration appears to be pursuing nuclear disarmament on nothing 
more than the hope that the nonproliferation regime will not break 
down.
    Should not fulfillment of the nonproliferation agenda precede 
steps, particularly unilateral and bilateral ones, toward nuclear 
disarmament?

    Answer. The cornerstone of the nonproliferation regime is the 
Nuclear Nonproliferation Treaty (NPT), which contains three pillars--
disarmament, nonproliferation, and access to peaceful uses of nuclear 
energy--all of which are interlinked. The treaty obligates nuclear-
weapon states to pursue negotiations on effective measures relating to 
disarmament, and without measures for this purpose, the willingness of 
non-nuclear-weapon state Parties to support a strong nonproliferation 
regime would likely diminish. Despite years of calls by many of the 
latter states for a sequential or exclusive focus on disarmament, the 
United States has promoted strengthening the NPT in a balanced fashion 
across all three of its pillars. The success of the 2010 NPT Review 
Conference is a testament to the success of this approach. We will 
continue to advocate continued progress on all three pillars 
simultaneously, not sequentially, and we observe growing international 
agreement on the fairness of this approach, as evidenced by the 
progress at this year's Review Conference.
    U.S. and Russian arms control and reduction efforts play an 
important role in nonproliferation. We cannot achieve a world free of 
nuclear weapons without the United States and Russian Federation, which 
between them hold 90 percent of the world's nuclear weapons, taking 
significant and substantial disarmament steps.
    In part due to the substantial efforts of the United States in such 
arms reductions, there has been significant progress in furthering the 
multilateral nuclear nonproliferation agenda in recent months. In May, 
the NPT Review Conference produced a consensus final document that 
endorses the Additional Protocol to International Atomic Energy Agency 
(IAEA) safeguards, supports a strengthened IAEA with sufficient 
resources to meet its safeguards responsibilities effectively, and 
calls for strengthened export controls, among other important measures 
to strengthen nonproliferation. With the NPT Review Conference 
producing a substantive final document for the first time in a decade, 
the nonproliferation agenda certainly is not ``running off the rails''; 
to the contrary, it is currently ``getting back on track.''


                    THE HISTORY AND LESSONS OF START

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Shaheen, Lugar, Corker, Isakson, 
Risch, and DeMint.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Thank you very much for being here. And I'm particularly 
grateful to one of our Nation's leading statesmen, whom it is 
my pleasure to welcome here today: James Baker. He has been a 
top advisor to three Presidents over the course of two decades, 
including serving as the 67th Secretary of the Treasury and the 
61st Secretary of State.
    Most significantly for our purposes today, as President 
George H.W. Bush's chief diplomat, he negotiated and concluded 
the original START agreement. And some of us have been around 
here long enough to remember his visit to this committee to 
present the START Treaty in June 1992. All of us are very 
fortunate to have Secretary Baker here today to put that treaty 
in the context of decades of arms control efforts and to 
explain how those efforts advanced American interests and 
diplomacy during the cold war and after.
    When President Bush and President Gorbachev signed the 
original START Treaty in July 1991, it was indeed a remarkable 
moment; it was the first time that America and Russia agreed to 
reduce the number of strategic nuclear weapons that they had 
deployed. But, less than 6 months later, before the treaty was 
even ratified, the Soviet Union fell apart, ending the cold war 
and leaving us in a very transformed world.
    Some suggested that START became irrelevant when our enemy 
of many decades disappeared, but Secretary Baker argued that 
the treaty remained important because it strengthened strategic 
stability between nations that still possess thousands of 
nuclear weapons and still didn't fully trust each other. As he 
testified, that stability rested on ``the predictability that 
START mandates through its openness and transparency 
provisions.''
    The fact is that, because America and Russia were no longer 
engaged in an arms race, they were able to begin to work 
together. At an uncertain moment, arms control was a familiar 
mechanism through which to extend the habits of cooperation as 
our two countries wrestled with contentious issues, like the 
reunification of Germany, and others. As Secretary Baker 
testified, START was a gateway to a new era of cooperation.
    As much as times have changed, I think there are parallels 
with today. Like its predecessor, New START is going to 
significantly reduce the number of nuclear weapons that the 
United States and Russia can deploy, and it will revitalize our 
relations with Moscow.
    When Secretary of Defense Gates testified before this 
committee yesterday about the benefits of New START, he cited 
many of the same advantages that Secretary Baker had enumerated 
two decades earlier, specifically: transparency, 
predictability, and strategic stability. Now, as then, 
verification remains vital.
    Unfortunately, the verification measures that Secretary 
Baker negotiated expired on December 5 of last year. Since 
then, day by day, we have been losing crucial visibility into 
the Russian nuclear program. The New START Treaty will restore 
that visibility and, in some ways, enhance it. As Admiral 
Mullen said yesterday, the United States should ratify this 
agreement as soon as possible, because we are in our sixth 
month without a treaty.
    But, the confidence this new treaty builds extends beyond 
the verification measures that it puts in place. It presents an 
opportunity to expand United States-Russian cooperation on a 
range of issues, including Iran. In fact, as we learned from 
Secretary Clinton yesterday, Russia and the United States have 
agreed on a draft U.N. resolution sanctioning Iran for its 
nuclear activities.
    Further, as Secretary Baker can testify, the original START 
Treaty was a powerful demonstration of how bilateral arms 
control can strengthen our global effort to halt the spread of 
nuclear weapons. Today, New START is winning us new credibility 
and leverage at this month's Review Conference on the Nuclear 
Non-Proliferation Treaty. Our progress on United States-Russian 
arms control has helped ensure that Iran cannot distract the 
world with charges of nuclear hypocrisy.
    Yesterday, some of my colleagues raised questions about the 
New START Treaty. In response, Secretary Gates and Admiral 
Mullen made absolutely clear that there is nothing in this 
treaty whatsoever that inhibits our missile defense plans. They 
are firm that its verification procedures are excellent, far 
better than what we have with no treaty. And they assured us 
that the $80 billion the administration has committed to our 
nuclear weapons infrastructure will maintain the safety and 
effectiveness of our stockpile.
    So, today is the third in a series of hearings on the 
treaty. We will continue to give it the thorough review that it 
warrants. And, as I mentioned yesterday to Senator DeMint, we 
will, shortly, have a classified hearing with the negotiators 
themselves so that we can probe into the negotiation record 
within those confines, and we'll continue, in other ways, to 
review this record. I'm confident that at the end of this 
process we're going to be able to reach a strong bipartisan 
consensus on advice and consent, just as we did on the original 
START Treaty, which, I remind people, the Senate approved by a 
vote of 93 to 6, and the Moscow Treaty, which was approved, 95 
to nothing.
    So, Secretary Baker, I thank you for traveling and coming 
here and refreshing yourself on all of the START issues in 
order to inform the committee. We genuinely value your advice 
and insights, and we look forward to hearing from you today.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, Mr. Chairman, I join you in welcoming 
our esteemed witness and our friend, former Secretary of State 
James Baker.
    Yesterday, the Foreign Relations Committee was briefed on 
the New START Treaty by Secretaries Gates and Clinton and 
Admiral Mullen. Today, we will benefit again from the 
perspective of an architect of the original START agreement.
    As President George H.W. Bush's Secretary of State, Jim 
Baker testified on the START Treaty before the Foreign 
Relations Committee on June 23, 1992. At that time, he was 
heavily engaged not only in bringing the treaty to fruition, 
but also in transitioning our relationship with Russia from 
cold-war antagonism to a more open post-cold-war dynamic.
    Much has changed in the intervening 18 years, but most of 
the basic strategic concerns that motivated the Reagan and Bush 
administrations to pursue nuclear arms control with Moscow in 
the 1980s and early 1990s still exist today.
    We are seeking mutual reductions in nuclear warheads and 
delivery vehicles that contribute to stability and reduce the 
costs of maintaining the weapons. We are pursuing transparency 
of our nuclear arsenals, backed up by strong verification 
measures and formal consultation methods. We are attempting to 
maximize the safety of our nuclear arsenals and to encourage 
global cooperation toward nonproliferation goals. And we're 
hoping to solidify United States-Russian cooperation on nuclear 
security matters while sustaining our knowledge of Russia's 
nuclear capabilities and intentions.
    The Reagan-Bush arms control strategy led to the 
Intermediate-Range Nuclear Forces Treaty and the START 
Treaties. These agreements shifted the goal of nuclear arms 
control from limiting weapons buildups to making substantial 
verifiable cuts in existing arsenals. These treaties and their 
successors have made us safer. They have greatly reduced the 
amount of weaponry threatening the United States, and have 
served as a powerful statement of the intent of the United 
States to curtail the spread of weapons of mass destruction.
    They also helped open the Russian military and defense 
establishments, facilitated relationships between American and 
Russian officials, and provided mechanisms promoting 
predictability, and regularized consultations. This remains a 
fundamental tenet of the New START Treaty, which contains 
nearly all of the confidence-building measures first initiated 
in treaties negotiated and signed by Presidents Reagan and 
Bush.
    We know, however, that bilateral treaties are not neat 
instruments, because they involve merging the will of two 
nations with distinct, and often conflicting, interests. 
Treaties come with inherent imperfections and questions. As 
Secretary Gates testified yesterday, even successful agreements 
routinely are accompanied by differences of opinion by the 
parties. The ratification process, therefore, is intended to 
consider whether limits on strategic forces and verification 
procedures are fully consistent with U.S. national security.
    Having served as White House Chief of Staff, Secretary of 
the Treasury, and Secretary of State during the Reagan and Bush 
years, our witness is in a unique position to offer insights 
about the historical legacy of START as it pertains to the 
context of a New START Treaty.
    I also look forward to his perspective on our relationship 
with Moscow and the broader geopolitical impact of the START 
agreements. How important is the New START Treaty to our long-
term relationship with Moscow? And does it advance strategic 
goals beyond Russia?
    I thank the Chair again for holding this hearing, and look 
forward to our discussions.
    The Chairman. Thank you very much, Senator Lugar.
    Mr. Secretary, thank you. You can choose to use your text 
or summarize, as you wish, and I'll put the full text in the 
record; however you want to proceed.

   STATEMENT OF HON. JAMES A. BAKER III, FORMER SECRETARY OF 
STATE, FORMER SECRETARY OF THE TREASURY, SENIOR PARTNER, BAKER 
                     BOTTS LLP, HOUSTON, TX

    Secretary Baker. What I'd like to do----
    The Chairman. If you push the button on the--there's a 
button there--yes.
    Secretary Baker. Yes. What I would like to do is to go 
ahead and give you my statement, because I've tried to make it 
complete, both with respect to my view of the treaty itself and 
my view of some other peripheral questions that you might want 
to----
    The Chairman. Absolutely, please.
    Secretary Baker [continuing]. To address.
    The Chairman. Proceed.
    Secretary Baker. And I thank you for the opportunity to 
appear again before the Foreign Relations Committee. I think 
the staff told me, when I walked in this afternoon, this was 
the 20th time that I've been up here. And I'm delighted to be 
back. But, I do come here today, not as an expert on the 
particulars of this New START Treaty, but, rather, really, as 
you pointed out, as the Secretary of State who negotiated much 
of START I, all of the Lisbon Protocol, and much of START II.
    So, I want to begin by speaking about the role that arms 
control has played in enhancing American security over the 
decades, because I happen to be one who strongly believes that 
it is important for our country, and for Russia, to maintain a 
vigorous commitment to arms control as a part of our efforts to 
create and maintain an effective nonproliferation regime.
    When they're carefully enacted, arms control treaties can 
reduce the threat of global nuclear devastation while also 
preserving our Nation's nuclear arsenal as a critical component 
of our security and the security of our allies. As a result, 
it's my view that any treaty the Senate ratifies has to 
maintain our decades-long combination of intercontinental 
ballistic missiles, submarine-launched ballistic missiles, and 
heavy bombers, as well as retain our ability to change our 
force mix, as needed.
    Negotiations on the original START Treaty began, as you 
indicated, Mr. Chairman, in the early 1980s, during some of the 
most contentious years in the United States-Soviet rivalry, 
when the United States and Soviet Union were running the arms 
race at a really fast clip. Many feared that the cold war would 
turn hot, and START was about stopping that race. It was about 
beginning to shrink the enormous nuclear arsenals that each 
side had built, and it was about stabilizing the nuclear 
relationship between the two countries so that our diplomatic 
relationship could evolve without the fear that either side was 
going to seek an atomic advantage.
    By dramatically reducing each side's nuclear forces, START 
took a relationship that was filled with uncertainty and made 
it far more predictable. The original treaty provided a 
foundation for Washington and Moscow to reduce their arsenals 
and to improve diplomatic ties and overall cooperation; and 
that's just what we did in those years.
    START made the United States-Soviet nuclear balance more 
predictable, and not simply by putting numbers on a piece of 
paper; it made the balance more predictable by imposing 
stringent verification provisions, including onsite 
inspections.
    President Ronald Reagan was famously focused on the 
importance of verification. ``Trust, but verify'' was a maxim 
that he quoted to the Soviets many, many times. And President 
George H.W. Bush shared that insistence.
    START provided an unprecedented transparency. It gave us a 
window into what had been the world's most secretive and most 
threatening military establishment.
    The secrecy that had been a hallmark of the cold war, and 
one of its most destabilizing characteristics, was replaced by 
an openness that was an invaluable asset to our national 
security. Of course, when I was Secretary of State and 
testified before this committee about START I, in June 1992, 
conditions had changed dramatically from when the negotiations 
had first started, in the early 1980s. The Soviet Union had 
dissolved, leaving Boris Yeltsin in charge of Russia. The 
decades-long United States-Soviet conflict was coming to an 
end.
    But, as I said then, if START was a product of the cold 
war, it was not a relic of the cold war. The breakup of the 
Soviet Union produced a time of great potential, but it also 
produced a time of great uncertainty. Amid that uncertainty, 
START was an anchor of stability, promising that our nuclear 
security would remain assured as relations between the two 
countries evolved.
    I think that promise was fulfilled. Despite ups and downs 
in relations between Washington and Moscow over the last 18 
years, START ensured strategic stability between the United 
States and Russia. It reduced nuclear arsenals by 30 percent to 
40 percent, and it did so in a verifiable way.
    Later, START II, which, of course, was ratified by the 
United States Senate, but not by the Russian Duma, pushed for 
the elimination of multiple nuclear warheads on 
intercontinental ballistic missiles.
    Even after the Moscow Treaty, signed by Presidents George 
W. Bush and Vladimir Putin in 2002, had further lowered the 
ceilings for the United States and Russian arsenals, START 
remained essential and important. It provided the verification 
mechanisms for the Moscow Treaty, which had none, propping open 
that key window into Russian nuclear forces, a window that only 
becomes more important as our arsenals shrink further.
    But, the legacy of START extends well beyond the provisions 
of the treaty. START really initiated an era of broader nuclear 
cooperation with Russia. Two months after he signed START, on 
July 31, 1991, President George H.W. Bush announced his 
intention to unilaterally withdraw most tactical nuclear 
weapons that the United States deployed abroad. That was a 
decisive step that was quickly reciprocated by Mikhail 
Gorbachev.
    START also enabled our diplomatic, scientific, and military 
establishments to form deeper levels of trust and 
collaboration. And as the ranking member knows very well, a 
direct result of that was the Nunn-Lugar Cooperative Threat 
Reduction Program, which immeasurably improved our security by 
helping keep nuclear material out of the hands of terrorists.
    I really don't think Nunn-Lugar would have been nearly as 
successful as it was if the Russians had lacked the legally 
binding assurance of parallel United States reductions through 
the START Treaty.
    START I also served as a sign of the United States and 
Russian commitment to nonproliferation, generally, during the 
period when George H.W. Bush was President and I served as 
Secretary of State.
    As I also testified before this committee in 1992, the 
reductions under START I constituted a major step by the United 
States and Russia toward fulfilling their obligations under 
Article 6 of the Nuclear Non-Proliferation Treaty. Nonnuclear 
states have long regarded these reductions as keys to the 
success of that treaty, and really to their cooperation with 
it.
    Most concretely, through the Lisbon Protocol, START 
actually removed nuclear weapons from three former Soviet 
states--Belarus, Kazakhstan, and Ukraine--ensuring, thereby, 
that the breakup of the Soviet Union did not lead to a 
breakdown of the Nuclear Non-Proliferation Treaty.
    START, therefore, was a turning point, I think, in United 
States-Russian relations. And today, the threat of nuclear war 
really is only a shadow of what it once was. But, that does not 
mean that arms control is no longer important. It is precisely 
at times when relations are warming that we can accomplish the 
most by reducing nuclear dangers and reinforcing our ability to 
cooperate. That enhanced cooperation, in turn, enables us to 
further reduce nuclear dangers, establishing a virtuous circle 
that strengthens American security.
    Although I'm not an expert on the nuances of the proposed 
New Treaty, Mr. Chairman, it appears to take our country in a 
direction that can enhance our national security while at the 
same time reducing the number of nuclear warheads on the 
planet. It can also improve Washington's relationship with 
Moscow regarding nuclear weapons and delivery vehicles, a 
relationship that is going to be vital if the two countries are 
going to cooperate in order to stem nuclear proliferation in 
countries such as Iran and North Korea.
    I agree with Secretary of Defense Bob Gates when he wrote, 
last week in the Wall Street Journal, that the new treaty 
provides verification that has been needed since START I 
expired in December. An effective verification regime is a 
critical component of arms control, and I believe that the 
world is safer when the United States and Russia are abiding by 
one.
    So, in my view, Mr. Chairman, the New START Treaty is a 
modest and appropriate continuation of the START I Treaty that 
expired this past December, subject, however, to there being 
satisfactory answers to a few questions that have been raised. 
And so, I would like to mention a couple of those questions for 
your consideration as the committee moves forward. Although 
this may not be a complete list, it includes questions that I 
personally believe should be answered before a ratification 
vote is taken.
    And let me begin with missile defense. Any arms treaty that 
goes into effect should focus on nuclear weapons reduction, and 
not on missile defense limitations. In the New START Treaty, 
however, there is at least one clear limitation on U.S. missile 
defense systems. Specifically, Article 5 limits the conversion 
of ICBM and SLBM launchers into launchers from missile defense 
interceptors. Now, I understand that the current administration 
has no plans for transforming strategic weapons launchers into 
missile defense launchers. The administration believes that it 
is less expensive to build new systems rather than to convert 
existing ones. But, I'm not so sure how wise it is to restrict 
future administrations.
    Another question concerns the verification program, because 
it does not appear as rigorous or extensive as the one that 
verified the numerous and diverse treaty obligations and 
prohibitions under START I. This complex part of the treaty is 
even more crucial when fewer deployed nuclear warheads are 
allowed than were allowed in the past. As a result, I think the 
proposed verification regime deserves thorough scrutiny.
    It is also important that we maintain a nuclear stockpile 
that would allow the United States to adequately cover the 30-
or-so countries allied with us around the world that are 
currently under our nuclear umbrella. And we should make sure 
that we have enough nuclear capacity, in case we decide to 
expand that nuclear umbrella, to include perhaps another 9 to 
10 countries, should Iran acquire a nuclear weapons capability.
    And finally, Mr. Chairman, while not a part of the New 
START Treaty, I would like to call the committee's attention to 
two other issues that I think are related to it.
    First, there is a section in the administration's Nuclear 
Posture Review that appears on page 8 of the executive summary 
and that says, ``The United States will not use, or threaten to 
use, nuclear weapons against any non-nuclear-weapons states 
that are a party to the NPT and in compliance with their 
nuclear nonproliferation obligations.'' Presumably, that would 
apply even if a country were to use chemical or biological 
weapons against us. And I question the wisdom of that position.
    And, frankly, Mr. Chairman, my apprehension in this regard 
comes from my own real-world experience. On January 9, 1991, as 
the George H.W. Bush administration was in the final stages of 
the buildup to remove Saddam Hussein's troops from Kuwait, I 
had a 7-hour meeting in Geneva with Tariq Aziz, Iraq's Foreign 
Minister. At the end of our discussion, when it was quite clear 
that war was inevitable, I warned him against using weapons of 
mass destruction against our troops. ``If conflict ensues,'' I 
told Aziz, ``and you use chemical or biological weapons against 
U.S. forces, the American people will demand vengeance, and we 
have the means to exact it.'' And I further said, ``Mr. 
Minister, this is not a threat, it is a promise.''
    It is entirely possible, and even likely, in my opinion, 
that Iraq did not use its chemical weapons against our forces 
because of that warning. Of course, that warning was broad 
enough to include the use of all types of weapons that America 
possessed.
    Years later, when Saddam Hussein was captured, debriefed, 
and asked why he had not used his chemical weapons, he recalled 
the substance of my statement to Aziz in Geneva.
    So, I think, Mr. Chairman, that the Nuclear Posture Review 
should not limit our flexibility, not just our military 
flexibility, but also our diplomatic flexibility, in responding 
either to the threat of a biological or chemical attack upon us 
or to an actual attack.
    Second, let me say that I think it's critical that we beef 
up the reliability of our nuclear stockpile. Because our 
security is based upon the safety and reliability of our 
nuclear weapons, it is important that our Government budget 
enough money to guarantee that those weapons can carry out 
their mission. As we reduce warheads and launchers, it is more 
and more imperative that those we have left be safe and be 
reliable.
    Members of the committee, as you continue your 
consideration of this treaty, I know that you will thoroughly 
examine these questions, and others that some may have, about 
New START. It is important that nuclear weapons treaties have 
the broadest bipartisan support possible so that leaders in 
Moscow and other international capitals understand that our 
country wholeheartedly supports the treaty. Bipartisan support 
was important, as you pointed out, Mr. Chairman, when the 
Senate ratified START I in 1992 by a vote of 93 to 6, and START 
II in 1996 by a vote of 87 to 4. And bipartisan support will be 
equally important with the New START Treaty,
    Thank you again for the opportunity to appear before you 
today, and I would be happy to try and respond to your 
questions.
    [The prepared statement of Secretary Baker follows:]

 Prepared Statement of James A. Baker III, Senior Partner, Baker Botts 
                          L.L.P., Houston, TX

    Thank you, Chairman Kerry and Ranking Member Lugar. It is a 
pleasure to appear again before the Foreign Relations Committee.
    I come here today not as an expert on the particulars of the New 
START Treaty. But rather, as the Secretary of State who negotiated much 
of START I, all of the Lisbon Protocol, and much of START II.
    I want to begin by speaking about the role that arms control has 
played in enhancing American security over the decades. I strongly 
believe that it is important for our country and Russia to maintain a 
vigorous commitment to arms control as part of our effort to create and 
maintain an effective nonproliferation regime. When carefully enacted, 
arms control treaties can reduce the threat of global nuclear 
devastation while also preserving our Nation's nuclear arsenal as a 
critical component of our security and the security of our allies. As a 
result, any treaty the Senate ratifies must maintain our decades-long 
combination of Intercontinental Ballistic Missiles, Submarine-Launched 
Ballistic Missiles, and heavy bombers as well as retain our ability to 
change our force mix as needed.
    Negotiations on the original START Treaty began in the early 1980s, 
during some of the most contentious years in the United States-Soviet 
rivalry, when the United States and the Soviet Union were running the 
arms race at a fast clip. Many feared that the cold war would turn hot.
    START was about stopping that race. It was about beginning to 
shrink the enormous nuclear arsenals that each side had built, and 
about stabilizing the nuclear relationship between the two countries so 
that our diplomatic relationship could evolve without the fear that 
either side was seeking an atomic advantage. By dramatically reducing 
each side's nuclear forces, START took a relationship filled with 
uncertainty and made it far more predictable. The original treaty 
provided a foundation for Washington and Moscow to reduce their 
arsenals and improve diplomatic ties and cooperation--and we did.
    START made the United States-Soviet nuclear balance more 
predictable, and not simply by putting numbers on a piece of paper. It 
made the balance more predictable by imposing stringent verification 
provisions, including onsite inspections. President Ronald Reagan was 
famously focused on the importance of verification. ``Trust but 
verify'' was a maxim that he quoted to the Soviets many times--and 
President George H.W. Bush shared that insistence. START provided 
unprecedented transparency. It gave us a window into what had been the 
world's most secretive and most threatening military establishment. The 
secrecy that had been a hallmark of the cold war--and one of its most 
destabilizing characteristics--was replaced by an openness that was an 
invaluable asset to our national security.
    Of course, when I was Secretary of State and testified before this 
committee about the START I Treaty in June 1992, conditions had changed 
dramatically from when negotiations began in the early 1980s. The 
Soviet Union had dissolved, leaving Boris Yeltsin in charge of Russia. 
The decades-long United States-Soviet conflict was coming to an end.
    But, as I said then, if START was a product of the cold war, it was 
not a relic of the cold war. The breakup of the Soviet Union produced a 
time of great potential but also tremendous uncertainty. Amid that 
uncertainty, START was an anchor of stability, promising that our 
nuclear security would remain assured as relations between the two 
countries evolved.
    That promise was fulfilled. Despite ups and downs in relations 
between Washington and Moscow over the last 18 years, START ensured 
strategic stability between the United States and Russia; it reduced 
nuclear arsenals by 30 percent to 40 percent; and it did so verifiably. 
Later, START II, which was ratified by the U.S. Senate but not the 
Russian Duma, pushed for the elimination of multiple nuclear warheads 
on ICBMs. Even after the Moscow Treaty signed by Presidents George W. 
Bush and Vladimir Putin in 2002 further lowered the ceilings for the 
United States and Russian arsenals, START remained essential. It 
provided the verification mechanisms for the Moscow Treaty, which had 
none, propping open that key window into Russian nuclear forces--a 
window that only becomes more important as our arsenals shrink further.
    But the legacy of START extends well beyond the provisions of the 
treaty. START initiated an era of broader nuclear cooperation with 
Russia. Two months after he signed START on July 31, 1991, President 
George H.W. Bush announced his intention to unilaterally withdraw most 
tactical nuclear weapons that the United States deployed abroad--a 
decisive step that was quickly reciprocated by Mikhail Gorbachev. START 
also enabled our diplomatic, scientific, and military establishments to 
form deeper levels of trust and collaboration. A direct result of that 
was the Nunn-Lugar cooperative threat reduction program, which 
immeasurably improved our security by helping keep nuclear material out 
of the hands of terrorists. I do not believe Nunn-Lugar would have been 
nearly as successful as it was, if the Russians had lacked the legally 
binding assurance of parallel U.S. reductions through START.
    The START I Treaty also served as a sign of the United States and 
Russian commitment to nonproliferation during the period when George 
H.W. Bush was President and I served as his Secretary of State. As I 
also testified before this committee in 1992, the reductions under 
START I constituted a major step by the United States and Russia toward 
fulfilling their obligations under Article VI of the Nuclear Non-
Proliferation Treaty. Non-nuclear states have long regarded such 
reductions as key to the success of that treaty--and to their 
cooperation with it. Most concretely, through the Lisbon Protocol, 
START actually removed nuclear weapons from three former Soviet 
states--Belarus, Kazakhstan, and Ukraine--ensuring that the breakup of 
the Soviet Union did not lead to a breakdown of the Nuclear Non-
Proliferation Treaty.
    START, therefore, was a turning point in United States-Russian 
relations, and today, the threat of nuclear war is only a shadow of 
what it once was. But that does not mean that arms control is no longer 
important. It is precisely at times when relations are warming that we 
can accomplish the most by reducing nuclear dangers and reinforcing our 
ability to cooperate. That enhanced cooperation in turn enables us to 
further reduce nuclear dangers, establishing a virtuous circle that 
strengthens American security.
    Although I am not an expert on the nuances of the proposed New 
START treaty, it appears to take our country in a direction that can 
enhance our national security while at the same time reducing the 
number of nuclear warheads on the planet. It can also improve 
Washington's relationship with Moscow regarding nuclear weapons and 
delivery vehicles, a relationship that will be vital if the two 
countries are to cooperate in order to stem nuclear proliferation in 
countries such as Iran and North Korea.
    I agree with Secretary of Defense Bob Gates when he wrote last week 
in the Wall Street Journal that the new treaty provides verification 
that has been needed since START I expired in December. An effective 
verification regime is a critical component of arms control and I 
believe that the world is safer when the United States and Russia are 
abiding by one.
    In my view, the New START treaty is a modest and appropriate 
continuation of the START I treaty that expired this past December, 
subject, however, to there being satisfactory answers to a few 
questions that have been raised. And so, I would like to mention a few 
of those questions for your consideration as the committee moves 
forward. Although this may not be a complete list, it includes 
questions that I believe should be answered before a ratification vote 
is taken.
    Let me begin with missile defense. Any arms treaty that goes into 
effect should focus on nuclear weapons reductions and not missile 
defense limitations. In the New START treaty, however, there is at 
least one clear limitation on U.S. missile defense systems. 
Specifically, Article V limits the conversion of ICBM and SLBM 
launchers into launchers for missile defense interceptors. Now, I 
understand that the current administration has no plans for 
transforming strategic weapons launchers into missile defense 
launchers. The administration believes that it is less expensive to 
build new systems rather than convert existing ones. But I am not sure 
it is wise to restrict future administrations.
    Another question concerns the verification program because it does 
not appear as rigorous or extensive as the one that verified the 
numerous and diverse treaty obligations and prohibitions under START I. 
This complex part of the treaty is even more crucial when fewer 
deployed nuclear warheads are allowed than were allowed in the past. As 
a result, the proposed verification regime deserves thorough scrutiny.
    It is also important that we maintain a nuclear stockpile that will 
allow the United States to adequately cover the 30 or so countries 
allied with us around the world that are currently under our nuclear 
umbrella. And we should make sure that we have enough nuclear capacity 
in case we decide to expand that nuclear umbrella to include perhaps 
another 9-10 countries should Iran acquire a nuclear weapons 
capability.
    Finally, Mr. Chairman, while not a part of the New START treaty, I 
want to call the committee's attention to two other issues that I 
believe are related to it.
    First, a section in the administration's Nuclear Posture Review 
that appears on page 8 of the Executive Summary says that ``the United 
States will not use or threaten to use nuclear weapons against 
nonnuclear weapons states that are party to the NPT and in compliance 
with their nuclear non-proliferation obligations.'' Presumably that 
would apply even if a country were to use chemical or biological 
weapons against us. I question the wisdom of that position. And my 
apprehension comes from my own real-world experience.
    On January 9, 1991, as the George H.W. Bush administration was in 
the final stages of the buildup to remove Saddam Hussein's troops from 
Kuwait, I had a
7-hour meeting in Geneva with Tariq Aziz, Iraq's Foreign Minister. At 
the end of our discussion, when it was clear that war was inevitable, I 
warned against using weapons of mass destruction against our troops.
    ``If conflict ensues,'' I told Aziz, ``and you use chemical or 
biological weapons against U.S. forces, the American people will demand 
vengeance. And we have the means to exact it. this is not a threat, it 
is a promise.''
    It is entirely possible, and even likely in my opinion, that Iraq 
did not use its chemical weapons against our forces because of that 
warning. Of course, the warning was broad enough to include the use of 
all types of weapons that America possessed. Years later, when Saddam 
Hussein was captured, debriefed and asked why he had not used his 
chemical weapons, he recalled the substance of my statement to Aziz in 
Geneva.
    The Nuclear Posture Review should not limit our flexibility--not 
just military, but also diplomatic flexibility--in responding either to 
the threat of a biological or chemical attack upon us, or to an actual 
attack.
    Second, let me say that it is critical that we beef up the 
reliability of our nuclear stockpile. Because our security is based 
upon the safety and reliability of our nuclear weapons, it is important 
that our government budget enough money to guarantee that they can 
carry out their mission. As we reduce warheads and launchers it is more 
and more imperative that those we have left are safe and reliable.
    Members of the committee, as you continue your consideration of 
this treaty, I know that you will thoroughly examine these questions 
and others that some may have about New START. It is important that 
nuclear weapons treaties have the broadest bipartisan support possible 
so that leaders in Moscow and other international capitals understand 
that our country whole-heartedly supports the treaty.
    Bipartisan support was important when the Senate ratified START I 
in 1992 by a vote of 93-6 and START II in 1996 by a vote of 87-4. And 
bipartisan support will be equally important with New START.

    The Chairman. Well, thank you very much, Mr. Secretary. 
That's a very helpful and comprehensive view. And I appreciate 
the questions that you've raised. They are questions that the 
committee is going to have to analyze, and we're already 
starting to; I think they were raised yesterday. And I look 
forward to furthering that discussion a little bit with you 
now, perhaps.
    With respect to the missile defense question, you noted the 
point about the conversion of the silo, and you wouldn't want 
to tie somebody's hands in the future. Would it be relevant to 
you, would it affect your judgment about that, at all, if the 
Missile Defense Agency, themselves, said to you, ``Mr. 
Secretary, that's a particularly time-consuming as well as 
expensive proposition, and we see no benefit from putting the 
missile defense interceptor in the Midwest in our country, 
because we want to continue to build the silos in what we 
consider to be better locations, such as Alaska''? If they said 
that to you, would that have an impact on you?
    Secretary Baker. They have said that to me, Senator, 
because I was given a brief by the administration, and I was 
grateful for that, so I know that that's their position, and I 
understand that position. I'm simply saying that I think that 
the Senate, in discharging its duty to advise and consent, will 
want to satisfy itself that, indeed, that it makes good sense, 
not only to agree to it now, but to agree to it with respect to 
future administrations, because it is treaty language. But, I 
understand that the administration position is, it's cheaper to 
build new ones, and we have no plans to use current launch 
platforms for missile defense interceptors.
    The Chairman. Let me ask you a question with respect to 
barring the threat of nuclear retaliation, in the negative 
security assurance, as we refer to it with respect to countries 
that don't possess, and aren't seeking, nuclear weapons. I 
remember very starkly, as a matter of fact, that 7-hour 
meeting, and we were all glued to the television when you came 
out of it. And I remember the very stark assessment that you 
made about that meeting.
    Secretary Baker. Yes.
    The Chairman. So, I think we all recall that very, very 
pointedly. And I think your diplomacy in those days, let me 
also comment, was quite extraordinary. I think you were--if I 
recall, you made about your 15th trip to Syria, 16th--15 or 16 
trips--when you finally secured the support of Hafez al-Assad 
and----
    Secretary Baker. I think it was 15 trips to the Middle 
East, but maybe only 9 to Syria.
    The Chairman. Well, 9 to Syria. I'm trying to help--you 
know, I'm telling a Texas tale, here. [Laughter.]
    But, at any rate, Mr. Secretary, let me express my 
admiration for what you did put together there. It was a 
genuine coalition, it was a superb piece of diplomacy, and I 
think we all respected it enormously then, and do----
    Secretary Baker. Thank you.
    The Chairman [continuing]. Today.
    In that context, I have no doubt that the veiled threat of 
nuclear retaliation, I would assume, must have helped. 
Certainly I'm sure that Tariq Aziz understood it, and I would 
hope that Saddam Hussein did. And the way things played out, 
one has to assume that, of course, he did.
    Now, that was a country that was trying to build a nuclear 
weapon, so it would not be one of the cases that would fall 
under this current concept.
    Secretary Baker. Well, they were not in compliance with 
their NPT obligations, is the point I think you're making, 
Senator.
    The Chairman. Agreed.
    Secretary Baker. Yes. So, they really were not--they were 
not a country that--with respect to which there would be any 
prohibition----
    The Chairman. Right.
    Secretary Baker [continuing]. Under the current policy--the 
new policy.
    The Chairman. What I'm trying to get at is that--correct, I 
agree with that. That's the point I'm making. But, it's really 
a dilemma, and I'm trying to figure out how we deal with this. 
We had been making a negative security assurance for over a 
decade, I think, when you became Secretary of State. And we 
never mentioned chemical or biological threat. And I suspect 
that you didn't--I think, in your account now you didn't 
specifically mention nuclear retaliation to Tariq Aziz. I think 
you were veiled in the comment. There was a constructive 
ambiguity. Is that correct?
    Secretary Baker. I said, ``If you use weapons of mass 
destruction against our forces, the American people will demand 
vengeance, and we have the means to exact it.'' That's all I 
said.
    The Chairman. Perfect. That's exactly what I'm trying to 
underscore here.
    Now, in 2001, the policy that you, in fact, carried out 
with Tariq Aziz changed, and it went from constructive 
ambiguity to an outright threat, openly, of nuclear 
retaliation. And that change had an impact in a lot of 
different places; some would say, negatively in many places. 
And the current administration has been trying to sort of work 
back, if it can, to this place where you get the genie back in 
the bottle, but it's hard to get back to ambiguity after 
someone else has sort of thrown it out.
    So, this is where we are today. And my question to you 
really is--we have only a partial ambiguity with respect to 
biological weapons--Do you see any way out of this? Is there 
any construct that you think gets us back into the, perhaps, 
virtues of a constructive ambiguous statement?
    Secretary Baker. Well, there's some specific language that 
I don't have, right now, in my head, in the new Nuclear Posture 
Review, with respect to biological weapons, I think, that would 
give us--there's wiggle room in the new Nuclear Posture Review 
with respect to biological. There's none--there is none with 
respect to chemical.
    And I guess what I'm saying is, I don't see the harm or 
lack of benefit, if you want to put it that way, in our being 
able to tell a country that threatens the use of chemical 
weapons against our forces, or that uses chemical weapons 
against our forces, that is nevertheless in compliance with its 
NPT obligation--I don't see the harm in our being able to tell 
them, ``Hey, you do this at your peril. We're warning you,'' 
and not go any further than that. I mean, you could certainly 
write it that way, I think. I don't understand why we want to 
have--I understand, now, that there's only, if I'm not 
mistaken--and you may want to delve into this in a closed 
session, not--so, I won't name it, but I understand there's 
really only--right now, only one country that would qualify for 
the--that would be a problem under the current Nuclear Posture 
Review. There's one country that has chemical weapons, that 
would--that might be dissuaded from using them against our 
forces if we were able to make such a threat.
    The Chairman. We're going to take up that in classified 
session. I think it's appropriate. I think it's a good 
question----
    Secretary Baker. And those are chemical, they're not 
biological.
    The Chairman. Yes, I understand.
    Secretary Baker. Because there is--there's wiggle room on 
the biological.
    The Chairman. Would you reject a strategic arms control 
agreement unless the administration went back on its Nuclear 
Posture Review position?
    Secretary Baker. Would I reject this particular----
    The Chairman. Would you see that as a----
    Secretary Baker [continuing]. Treaty?
    The Chairman. Right.
    Secretary Baker. No. What I said in my statement was, I 
think this is related. I think it's something that, given the 
fact that this committee is considering ratifying a far-
reaching treaty, you know, it's a treaty that is expected to 
last for some time--it might not be a bad time to look at that 
related question. That's all I'm saying.
    The Chairman. Fair enough. It's a good point, and we will 
do that. That's a good point.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    Secretary Baker, in your statement, you noted that START 
also enabled our diplomatic, scientific, and military 
establishments to form deeper levels of trust and 
collaboration. And you've also generously mentioned that the 
Nunn-Lugar Act was a result of that kind of openness that 
happened through diplomacy. And I would just say that one of 
the effects of this, which you guided, was that--we talked a 
little bit about chemical and biological--the START Treaty 
dealt with nuclear weapons and counts and so forth, but, as a 
part of your statement, you point out how the relationship 
deepened, and, as a result, we began to talk about chemical 
weapons and biological weapons. Now, this led to a very long 
debate in this country over the Chemical Weapons Convention.
    Secretary Baker. Yes.
    Senator Lugar. And, as you recall, ratification of that was 
not an easy task.
    Secretary Baker. No.
    Senator Lugar. And the Russians felt that we would never 
ratify it. But, once we did, they were on the spot. And so, 
they had to come along with it.
    Now, this all came to mind last year at Sucha, which is now 
a very large facility brought together by Russians and 
Americans to destroy what may be as many as 100,000, and some 
would estimate 200,000, missiles that contain nerve gas. And 
the process is literally draining the nerve gas out of every 
one of these, bituminizing it, as they say, and burying it in 
the ground. And these are very mobile situations. You can put 
one in the proverbial suitcase.
    Secretary Baker. Yes.
    Senator Lugar. Now, this was not contemplated by the START 
Treaties, but nevertheless a very important product, because it 
led to Americans and Russians coming together to understand 
that they had a problem with the Caucasus, they had a problem 
with terrorists, as well as we did. They even had problems with 
their old nuclear warheads buried in vaults. I remember being 
invited in to see some of these, which I--they were in a 
morgue, bodies there in the tomb, with records of what sort of 
servicing they'd had and how long they had been there, and some 
hopes by the Russians, we would take out the oldest ones first 
so there might not be an accident in Russia. Well, none of this 
is contemplated by the treaty, but it comes about in sort of 
the ambience that you describe as Americans actually get boots 
on the ground in Russia and begin to take this seriously.
    Now, at Sucha, I would just add, there was a press 
conference with the Russians. I was fortunate to have at least 
somebody who knew much more about our own chemical weapons 
situation than I did, because the Russians assured the world 
they were going to meet the deadline of the Chemical Weapons 
Convention. There's no conceivable possibility.
    Secretary Baker. No.
    Senator Lugar. And the very plant we were dedicating 
indicated there's at least a 7-year period of time, which all 
the rest of the world saw at the same time. But, we had three 
instances, in our country, in which we're not going to meet it, 
either. And the point that I'm making is that sometimes there 
is ambiguity in these situations, but if we're all standing on 
the same platform, all talking to the same world press, there's 
a degree of openness there that clearly was not true before you 
and the Presidents that you served opened up the process. And 
this is, I think, critically important for us to understand, 
because, since December the 5th, we still are--have been 
allowed into Russia. It's not a closed society. But, there 
isn't any obligation on the part of the Russians to open up 
anything.
    Now, I appreciate--you know, we're getting arguments that, 
``Why should we, in fact, destroy anything more?'' And so, I 
want to ask this question of you today. Scorecards that we have 
in our office indicate that there may be ``X'' number of 
nuclear weapons deployed by both countries, a good many more 
involves nondeployed, sort of, not destroyed, either. But, what 
assurance can we give to those who would ask, ``Do we have 
enough weapons to protect 30 countries, or more? Do--should we 
be destroying anything or does this, in fact, inhibit our 
security?'' In other words, some would say, ``Why in the world 
are we even discussing an arms control agreement? We may need 
every one of those bombs, and prepared to shoot them all off in 
every direction necessary, at least to give the impression that 
we're likely to do so.''
    Give us some idea of the perspective you have of how many 
weapons, for instance, we really need to fulfill these 
obligations, quite apart from the condition they need to be in.
    Secretary Baker. Well, Senator Lugar, I'm not someone who 
would have expertise on that, particularly now, although I 
think you have to rely on the judgment of your military 
leadership. If the military leadership tells you that 1,550 
nuclear warheads is sufficient to carry out our nuclear 
umbrella responsibilities, I think you're not going to get any 
better judgment than what they give you; or that 700 deployed 
launchers is enough, 800 in total. So, if you're going to go 
1,550 and 700-800, and the military says, ``This is all we 
need''--and it's my understanding that's what they say; at 
least that's what they told me when I asked them for a 
briefing--that's--I don't know where else you go to get a 
judgment on that.
    You know, when I was negotiating START I, we were in excess 
of--we were north of 6,000 warheads. I mean, and I think 1,550 
warheads is a heck of a lot of warheads, seems to me, just as a 
layman. But, I'm a layman on this, and I think if the military 
leadership, the Joint Chiefs, and the Office of the Secretary 
of Defense, and the national nuclear agency said, ``This is 
what we need,'' I don't know where you'd get better judgment 
than that.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you, Senator Lugar.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for the great context that 
you provide us, and background. And, you know, we advise and 
consent; we don't really have an opportunity to change much. 
What we can do is focus on modernization, which is not a part 
of this, and ensure that what we do have is reliable. And 
certainly if we knew that, we might even reduce more than we 
have. So, that's something that's very, very important to us.
    The missile defense piece is kind of interesting. I mean, 
we started out in Russia's--has sent out a unilateral statement 
that's very different than ours as it relates to missile 
defense. And then you bring up the issue of if, in fact, we're 
saying that there's no way this limits our missile defense, why 
in the world would we say that we're going to do away with our 
offensive launchers' ability to be converted. And I'm just 
wondering if you might help us think through what somebody 
might have been thinking, in basically restricting our ability 
to do that, when, in essence, missile defense in no way was to 
be impeded.
    Secretary Baker. Well, the preambular language in the 
treaty that's a little bit opaque and ambiguous, if you will, 
is not something that I see as particularly unusual, given the 
position the Russians--the Soviets, first, and then the 
Russians, have had for many, many years, going way, way back. 
And I think that Secretary Gates may have testified about this 
yesterday. But, they've always had a fear of our ability with 
respect to missile defense, our ability to construct a missile 
defense system, because they can't afford it, and we can.
    It was--it goes all the way back to Star Wars, certainly, 
and maybe a little back before that. When Ronald Reagan 
announced that he was going to do this, they went into 
paroxysms of fear over there. And it was one of the things, I 
think, that helped bring about the changes that Gorbachev 
instituted in the Soviet Union. I think they concluded, at some 
point, they weren't going to compete with the United States, 
primarily economically, but also militarily, particularly with 
respect to missile defense.
    So, I think, if you'll look at the negotiating record of 
this treaty--and I don't know this for a fact, but I've heard, 
that the Russians wanted a limitation from the United States on 
our ability to construct missile defense systems. And we said, 
``No, we're not going to give you that.''
    They made noises about missile defense even when I was 
negotiating Start I and II with them. And even--but, back in 
those days, we have the ABM Treaty, and it was in force. But, 
they were still nervous about it.
    So, it's--I think it just reflects what has been a 
pervasive and is a systemic nervousness on their part that 
somehow we're going to build a missile defense system that will 
totally negate their offensive nuclear capabilities and will 
lead to a destabilizing situation, because they'll be worried 
about first strike, and so forth. That's why, I think, it's in 
there. I think it was a matter of giving--tipping the hat, if 
you will, to their concern, without really giving them 
anything; although, as I pointed out in my statement, I do 
think the one thing we did give them, in my view, is that we 
agreed we will not use our current launchers, we will not put 
our missile defense interceptors in those current launchers.
    Senator Corker. And I know you've questioned that, whether 
we should have done that, or not.
    So, let me ask you this. So, we--we, I think, have all--
we're all focused, in a proactive way, in ensuring that the 
administration invests properly in modernization.
    Secretary Baker. Right.
    Senator Corker. And we're--we have concerns about the 
numbers and some double counting and all of that, that may be 
taking place. We'll find out, certainly, soon.
    But, as it relates to our relationships with Russia and, 
just, others, what should our posture be, as far as our 
aggressiveness, on spending money on missile defense right now? 
I mean, if they have tremendous concerns about it, we obviously 
have done something to--maybe it was a chit that we weren't 
going to use anyway--but, what should our--in the Senate, in 
the House, what should our posture be toward our country in 
building up our missile defense program even more?
    Secretary Baker. Well, I think that the posture should be 
that we're going to pursue the recommendations of our military 
leadership and the people who are versed in this field with 
respect to what we need, because we have--as I understand it, 
we have refused, in this treaty, to agree with the Russians 
that we're going to put limitations on it, save that one I 
mentioned.
    Senator Corker. You know, everybody kind of Monday-morning-
quarterbacks around here. Do you see any missed opportunities 
in this treaty? I know that many of the neighbors and--of 
Russia are concerned about their tactical abilities. Were 
there--are there things that you see that we might have 
pursued, that we didn't?
    Secretary Baker. In this treaty?
    Senator Corker. Yes, sir.
    Secretary Baker. I can't think of any, Senator. But, I did 
characterize this as a modest and appropriate continuation of 
what we've been--what we were doing, back during START I and 
START II.
    Senator Corker. So, we refer to NATO--and I know there have 
been some discussions about our ability, with the number of 
warheads we have, to protect the 30 countries. Just, while 
you're here, and you're a person of--that we all respect 
greatly, on both sides of the aisle--we've had discussions 
about NATO here, and it seems to me that what's happened with 
NATO is, we've sort of been--become the protector of all. The 
budgets that the countries were supposed to maintain as it 
relates to defense have not been there. And obviously, with 
what's happening, that's going to diminish even more.
    Would you give us any editorial comment, since you're 
someone, again, that we all listen to, regarding what our 
posture ought to be, as far as expansion of NATO, and just what 
our relationship ought to be to NATO, in general?
    Secretary Baker. Well, I've always seen NATO as a very 
successful military alliance. It was an extraordinarily 
successful military alliance as long as it was a defensive 
alliance. Once it became a little bit of an offensive alliance, 
it became less successful. And we're experiencing difficulties 
with our NATO partners coming forward with their commitments, 
particularly in Afghanistan.
    Nevertheless, we have had a nuclear umbrella extended to 
many, many of those--of our nuclear partners for many, many 
years. I'm not sure that they--that they're all beneficiaries 
of it. Maybe some of the newer members may not be; I'm not 
positive about that. But, it goes back to the 40 years of the 
cold war, Senator. And we've had that nuclear--we've had that 
commitment out there for a long time. I don't think we ought to 
walk away from that. But, we ought to take a position with our 
partners that, ``If you want to--if you want the benefits of 
this alliance, then you have to bear your share of the 
burdens.''
    Senator Corker. My time is up. Thank you for your service, 
and thanks for being here.
    Secretary Baker. Thank you, Senator.
    The Chairman. Thank you very much, Senator Corker.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    It's very nice to have a chance to hear from you, Secretary 
Baker.
    Secretary Baker. Thank you, Senator.
    Senator Shaheen. In your testimony, you talked about the 
importance of an effective verification regime as being a 
critical component to arms control, and the importance of 
having that kind of regime with Russia and--I assume, so that 
we can have a sense of what Russia is doing. Are you worried--
or, can you talk about the benefit of the verification measures 
that are in this new version of START?
    Secretary Baker. In this treaty?
    Senator Shaheen. Yes.
    Secretary Baker. No. What I said in my prepared remarks, 
Senator, was that this is one of the issues I think the 
committee ought to take a close look at. And you really--I 
don't think you can satisfy yourself just on a casual 
examination of the literal language of the treaty. It's 
important, I think, to talk to the people in our--again, in our 
military who are going to be involved with the actual onsite 
verifications and that kind of thing.
    We have things today that--I pointed out that this 
verification regime is nowhere near as intrusive and extensive 
as what we negotiated in START I. But, today we have national 
tactical means that we didn't, maybe, have then. There are 
provisions in this treaty that say you can't interfere with 
national technical means that commit the parties not to do 
that. It's my understanding that we only have 27 Russian 
nuclear facilities that we have to inspect under this treaty; 
whereas, under START I, we had 73. So, you have all those 
differences. But, I don't think anybody can tell you that the 
verification regime is sufficient until you actually get down 
there in the weeds--it's very, very complicated--and study the 
details of it. The administration's point people will tell you, 
as they've told me, that they're quite comfortable with the 
verification provisions that are in there, and their ability to 
verify Russia's obligations under this treaty. That doesn't 
mean it--it might not--it wouldn't hurt to delve deeply into 
it. All I'm saying is, it's a far different verification regime 
than we had in START I, and therefore, it's worth a look. 
That's what I'm saying.
    Senator Shaheen. But, I'm correct that, right now, given 
that START has expired, we don't have any verification----
    Secretary Baker. We have nothing.
    Senator Shaheen [continuing]. In place.
    Secretary Baker. No. That's correct.
    Senator Shaheen. And your point is that it's important to 
have verification measures----
    Secretary Baker. It's really important that we be in there. 
It's been quite some--I think START expired December the 5th. 
It's been a number of months now since we've been able to 
really go in there and verify anything. And it's important that 
we have that right. And not just so much because we might think 
the Russians are cheating, which I personally wouldn't suspect 
right now--first place, I think it would be, economically, very 
difficult for them--but because it gives us a sense of 
assurance, and them as well, when they're over here--it 
promotes stability. It promotes atomic and nuclear stability. 
And it's very good. And it leads to the kind of things that we 
discussed in my colloquy with the chairman. If you can do 
things diplomatically that would be impossible, in my view, if 
you're on a razor's edge with another country, with respect to 
whether you're going to have a nuclear conflagration with that 
country.
    Senator Shaheen. In your testimony, you also make a link 
between arms control and an effective nonproliferation regime. 
Do you think the START Treaty will be a signal to the 
international community that the United States is serious about 
carrying out its responsibilities under the Non-Proliferation 
Treaty?
    Secretary Baker. I think it will, Senator. And I think it 
was. I think START I was, and I think START II was, frankly, 
even though it was deMIRVing, which, of course, never got 
ratified by the Russian Duma. But, yes, I think it's a signal 
that the United States is honoring--or, United States and 
Russia are taking steps to meet their obligations under--I 
think it's Article 6 of the Nuclear Non-Proliferation Treaty. 
That may not be the right article; I'm not sure.
    Senator Shaheen. And what do you think it would signal to 
the rest of the world if we fail to ratify this START Treaty? 
Are you concerned about what the interpretation from the rest 
of the world might be to that?
    Secretary Baker. I don't think that the rest of the world 
would see it as the end of the world, but they would say, 
``Wait a minute, now. You're sitting there with all those 
nuclear weapons, and you negotiate a treaty, and then you don't 
ratify it. What's your--where are you going? What is your 
objective? What's your goal?'' But, having said that, you don't 
want to ratify it unless you satisfy yourself with respect to 
these questions that have been raised. And I'm sure you will.
    We had these--we had questions like this, let me assure 
you, with respect to START I and, to a lesser extent, with 
START II. By the time of START II, the relationship between the 
Soviet Union and Russia--and Russia and the United States had 
totally changed. I mean, things were moving in the direction 
that we--both countries wanted to see them go. And--but, I 
think if you ratify, this treaty will help promote, in the 
future, that kind of cooperation rather than confrontation.
    Senator Shaheen. So, you're affirming what we heard 
yesterday from the Secretaries Clinton and Gates, that there 
are additional benefits, other than----
    Secretary Baker. There are no--there were, with START I, 
Senator; there were clearly a lot of additional benefits. 
Senator Lugar has talked about one of them, the Nunn-Lugar 
Initiative, and the Chemical Weapons Treaty--no, sorry--
Chemical Weapons Convention flowed from START I. The Lisbon 
Protocol, where we were able to take--where we were able to 
denuclearize three countries--Belarus, Kazakhstan, and 
Ukraine--all flowed from the START Treaty.
    Senator Shaheen. Thank you.
    The Chairman. Thank you, Senator Shaheen.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Secretary Baker, thank you for what you did, on behalf of 
America, on behalf of the world, the original work you did on 
the START Treaty. I think, when you talk about 6,000 warheads, 
and now we're down to--I--you know, I thought--I think 1,500 is 
a considerable amount. When you think of 6,000--I mean, you 
only need one or two, really, if--to bring a country to its 
knees. But, in any event, thank you for that.
    Secretary Baker. Thank you.
    Senator Risch. Thank you for the conversation you had with 
Mr. Aziz. I can think of a couple of countries right now in the 
world that it would be nice to have you go and have a sitdown 
with them and tell them what's going to happen if they do 
certain things, and have them believe you. It might make the 
world a safer place.
    You bring a lot of wisdom to this, which we really 
appreciate. And you're focused on something that I've had a 
concern about since the onset of this, and that is the advice 
you gave, of not ensnaring the issue of missile defense in a 
arms treaty that's not a defensive treaty, but, rather, an 
offensive treaty. I think that's wise counsel. And it has 
troubled me that it is in here. It's in the preamble. It's in 
the--as you pointed out, it's in the body of the treaty itself.
    But, one of the things that's most disconcerting to me is 
the unilateral statements. And I've heard Secretary Clinton and 
others who have come in here and said, ``Oh, don't worry about 
that. Those are just unilateral statements. They're just 
postures.''
    You know, I come from a part of the country that you either 
have an agreement or you don't have an agreement. And when I 
read those unilateral agreements, we don't have an agreement. 
In fact, indeed, we have irreconcilable differences when it 
comes to missile defense. And it seems to me, if we're going to 
have an agreement, we ought to have an agreement. And so, 
again, I'm troubled by that. And I think your wisdom about not 
ensnaring the two issues together, I think, is important. And I 
think that's particularly true in light of the fact of where we 
find the world today.
    When you originally started this, we had the United States 
and we had Russia that had nuclear weapons. And we were doing 
the things that we did, and rightfully so, and it was important 
that we had the treaty. But, you know, today it is really 
important--the--our job, as a Congress, our job, as a 
government, our first job, is to defend the American people. 
And it seems to me, where we now have other countries--Iran, 
North Korea, Pakistan, India--and the other issues out there--
it seems to me that a missile defense is more important now 
than it's ever been. And I am particularly concerned about the 
irreconcilable differences that we have, and how far apart we 
are on the missile defense issue.
    Secretary Baker. Well, I raised that question, Senator, 
because I think it's something the committee should look at 
before it takes its ratification vote. And I know it will. I, 
frankly, would not share that much concern about it, for this 
reason. The Russians are saying, ``We're now entitled to 
claim--if America increases its missile defense, we're entitled 
to claim that that's inimical to our strategic offensive 
capability and withdraw from the treaty.'' Well, fine. They can 
withdraw from the treaty anyway. And so can we. So, I don't 
know how we are prejudiced by that, if the end result is, we're 
going to--parties are just going to withdraw from the treaty.
    There is, in fact, no restriction on the United States of 
America's ability to move forward on missile defense, in 
whatever way it wants, except one. That is, we cannot use our 
current platforms--offensive weapons platforms for missile 
defense interceptors. That's the only restriction.
    Senator Risch. And I agree with that. I only wish that it 
said that right in the preamble, and say, ``Look, this thing 
has got nothing to do with missile defense, and the parties are 
going to go their own ways on it.'' I wish it was in there.
    Let me--I've only got a little time left--first of all, I--
you know, to me, nobody can argue that we really need a treaty 
in order to have an inspection regime. And the inspection 
regime, to me, is the most important part of this, because, as 
you pointed out, I mean, either party can withdraw, for any 
reason, or no reason at all, from the treaty, as it exists. So, 
an inspection regime is important.
    I shared your concerns, that you raised in your testimony, 
about why the inspection regime was ratcheted back, here, when 
it is the most important part of the treaty. Did you get a 
satisfactory answer from the administration when you talked to 
them about that?
    Secretary Baker. I got a pretty complete answer, Senator, 
because I asked them that question. And part of the answer was 
what I've already said. There are fewer installations that need 
to be inspected now, and there are unique identifiers that we 
are now putting on every Russian nuclear weapon, that we didn't 
used to be able to put on, as a part of our verification 
process.
    And the military, for what it's worth, are very comfortable 
with the inspection regime that we now have. It is intrusive. 
It is onsite. I raised a question about the counting rules in 
this treaty, because in the treaty I negotiated, if a bomber 
could carry 20 warheads, we counted it as 20. Today, you count 
it as one. If you could--if you could put five nuclear warheads 
on top of a missile--in my treaty, we counted it as five; in 
this treaty, you count it as one. I said, ``Well, how--why 
would you--how can you do that? How do you feel comfortable?'' 
They said, ``Well, we can climb up there and we can look at 
those warheads on the top of that missile, and we can verify 
whether they're there.'' And I agree with that. They're right 
about that. I said, ``Well, what about the bombers?'' Well, a 
bomber is a second-strike weapon, and it's not a first-strike 
weapon, and it's not something that we're worried about not 
being able to determine whether there's one or 14 warheads on a 
heavy bomber.
    But, the counting rules, Senator, apply, as well, for us. I 
mean, whatever latitude there is, by virtue of a lack of 
attribution of warheads, we get the benefit of that, just like 
the Russians do.
    So, all I'm saying about verification is, you ought to just 
make sure that you look carefully, have your experts get in 
there, and have detailed briefings to satisfy yourselves that 
you've got enough verification capability. The military will 
tell you that you do. And, you know, prima facie, you--I think 
you have to take their word for it. But, you can go in there 
and dig deeper and see if you have any reason to doubt it.
    Senator Risch. Again, Secretary Baker, thank you for great 
service to America.
    And thank you, Mr. Chairman.
    Senator Lugar [presiding]. Senator DeMint.
    Senator DeMint. Thank you, Senator Lugar.
    Mr. Secretary, honored to be with you today. And they've 
called a vote, so I'm just going to have to have one focused 
question here.
    I know you know better than anyone, when Ronald Reagan 
first envisioned a strategic missile defense----
    Secretary Baker. Right.
    Senator DeMint [continuing]. System, that he had hoped, at 
some point in the future, that that technology could render 
nuclear missiles obsolete. And obviously, at the time, Russia 
had the nuclear weapons, that defense system was focused at 
them.
    Yesterday, it became, in the hearing here, that--of why 
there is an apparent discrepancy between what we say about the 
treaty's effect on missile defense and what the Russians say. 
And Secretary Clinton and Secretary Gates made it clear that 
their vision of missile defense has nothing to do with 
defending against Russian missiles, that our current-day vision 
in this administration is that missile defense is aimed at 
North Korea or Iran or some rogue nation that could fire a 
missile or two at us. But, the--but, this whole START Treaty is 
based on the assumption that we will not develop a missile 
defense system that in any way threatens Russia's offensive 
capacity. That's what Secretary Clinton told me yesterday, 
Senator Kerry agreed to. And for me, given the fact that Russia 
is, in some ways, a defunct socialist Third World country at 
this point, and we're agreeing to nuclear parity with them, the 
idea that we are agreeing to a treaty that binds us to not 
defend ourselves against nuclear missiles takes us back 30 
years to a mutually assured destruction strategy----
    Secretary Baker. Yes.
    Senator DeMint [continuing]. Which seems to be a huge step 
backward.
    Secretary Baker. Well, Senator, I understand that. I think 
the only answer to the question you pose is that mutually 
assured destruction worked for 40 years, and it can work for a 
few more years with respect to one country. If we have a 
certain number of missiles, and they know, if they launch on 
us, they're wiped off the face of the Earth, it's likely to 
work. I think that's what they were--what the Secretary of 
State and the Secretary of Defense were probably saying 
yesterday.
    And therefore, the focus of this administration, at least--
maybe future administrations will have a different focus--is to 
build missile defenses against the other threats that you 
pointed out----
    Senator DeMint. Right.
    Secretary Baker [continuing]. The threats of Iran and North 
Korea and maybe some other countries.
    Senator DeMint. Right.
    Secretary Baker. And we're quite free to build as--whatever 
we want, with respect to those threats.
    Senator DeMint. Thank you. That makes----
    Secretary Baker. Yes.
    Senator DeMint [continuing]. Clear. Thank you, sir.
    Thank you.
    Senator Lugar. Secretary Shaheen, do you have--Senator 
Shaheen, any more questions?
    I know Senator Kerry is hurrying to get back to the hearing 
to keep it open. And--however, I think Senators, for the 
moment, will have to vote, there being 6 more minutes----
    Secretary Baker. It's all right.
    Senator Lugar [continuing]. Left to get there.
    So, I will, on behalf of the chairman, recess the hearing, 
because the chairman may, in fact, have an additional question 
or two, or comment. I just want to express my own appreciation 
again to you, Secretary Baker, for the constancy of your 
observation about all these issues over the years, just as 
fresh as 22 years ago, or whenever----
    Secretary Baker. Yes, thank you, Senator.
    Senator Lugar [continuing]. We commenced the first START 
Treaty.
    Secretary Baker. Thank you, Senator.
    Senator Lugar. We are recessed for a few minutes until the 
chairman arrives.
    [Recess.]
    The Chairman [presiding]. We'll come back to order.
    Thank you, Mr. Secretary. I apologize for the interruption.
    I gather Senator DeMint did get to question.
    Secretary Baker. Yes, he did.
    The Chairman. So, I think we're through almost all the 
questions, unless Senator Kaufman is going to come over, which 
I don't know.
    If I could just ask your indulgence for a few minutes 
longer and ask you a couple of things.
    You noted in your testimony that the verification program 
is less extensive than the START I Treaty. When you say that, 
are you referring strictly to the numbers of inspections, but 
not necessarily to the quality or rigor of them?
    Secretary Baker. Yes, Senator, I am. But, as I mentioned, 
when I think--when you were out of the room, the military and 
the people who are going to be in charge of running the 
inspections tell me they've got all the ability and rights and 
capabilities they need in order to assure--to verify compliance 
with this treaty, and they're very comfortable about that. And 
I mentioned, I think, as well when you were out of the room, 
that there's far more latitude to use unique identifiers, and 
that every Soviet missile, as I understand it, is going to have 
its own unique identifier number. We didn't have that back in 
the days of START I. We may have had it with respect to mobile 
missiles, but not with respect to anything else. I think that's 
right.
    And there's going to be much more use of national technical 
means and their provisions that say you can't interfere with 
national technical means.
    So, they're comfortable with it. All I'm saying is, I think 
it's an area where--since it's so critical to the treaty, 
that--where the committee will want to do its own due diligence 
and dig in to make certain that it shares that comfort.
    The Chairman. Indeed, we have that obligation, and we're--
--
    Secretary Baker. Yes.
    The Chairman [continuing]. Going to do that, for certain. I 
would note that, in addition, I think, yesterday, Secretary 
Gates advised the committee, or reminded the committee, that, 
in this particular instance, a single inspection is going to be 
able to be used in order to confirm data on launchers and 
missiles, and then to count the reentry vehicles at the same 
time, so they're combining two into one, so you get a twofer, 
in a sense, which may account for some of the----
    Secretary Baker. And there are fewer installations to 
inspect, which I mentioned.
    The Chairman. And there are only 27.
    Secretary Baker. And you have telemetry exchange rights and 
so forth.
    The Chairman. Correct. Yes.
    If I can ask you, generically, sort of looking at the 
nuclear landscape today, I'd like to take advantage of your 
presence here to share with the committee what levers you think 
may or may not exist, or if there are any that haven't been 
used by us, with respect to strengthening the NPT regime as a 
whole, sort of the challenge that we face--in India, Pakistan, 
North Korea, and Iran now. While you succeeded in reducing the 
nuclearization of a number of states, and while some other 
states have chosen to give it up since then, we still have this 
very significant moment, at this point, with respect to Iran, 
and what the implications would be for the gulf and a number of 
Arab States. I just wonder if you'd sort of share your sense of 
how you see that now, from afar, not dealing with it on a day-
to-day basis, but I know you follow it.
    Secretary Baker. Well, I think that the NPT Review is an 
extraordinarily important thing to see successfully 
accomplished. But I, frankly, Senator, I'm--Mr. Chairman, I'm 
not sure what you do when you have as many new nuclear powers 
as we see today. I was not a big fan, for what it's worth, of 
fudging a little bit with respect to nuclear cooperation with 
some countries that developed nuclear weapons outside of the 
NPT. I mean, I think--but, I can't--I don't know that there's 
anything more we can do, other than to concentrate on the NPT, 
try to strengthen it, consistently have a strong review, and do 
the best we can to fight proliferation.
    I do believe this, that--and I said this in my testimony--
if we have a good arms control agreement with Russia, that is 
being observed by both countries, that will help us, in my 
opinion, in the U.N. Security Council, deal with the problem of 
Iran. And that is extraordinarily important. I mean, Pakistan 
and India and North Korea and Israel, now, all have the bomb, 
and some of them have it in violation of the NPT that they 
signed, and some of them have it because they were never NPT 
countries to begin with.
    The Chairman. What, if any, observations would you make, 
generically, about the Russian state, at this point, with 
respect to how it might view its own need for these weapons? I 
mean, we obviously lived--you lived, we lived--in a very 
different world 20 years ago. You, yourself, said, a moment 
ago, that you thought the chances of this kind of confrontation 
are significantly reduced. Does that, do you think, lay the 
foundation, potentially, for even further reductions?
    Secretary Baker. You mean further reductions after this 
treaty?
    The Chairman. Yes.
    Secretary Baker. Well, I think the logical path would be to 
continue to try and reduce the number of warheads in the world 
and the number of launch vehicles. You're not going to be able 
to do any good, with respect to the problem you've just asked 
me about, and that is the countries that have proliferated, 
unless you are seen to be willing to reduce along with them.
    Now, you know, some very prominent and distinguished voices 
in American foreign policy--among them, Henry Kissinger and 
George Shultz and Sam Nunn and Will Perry--have called for the 
goal of a world without nuclear weapons. Well, the first person 
that I ever heard call for that was my boss, Ronald Reagan. 
And, of course, I don't think you can just dismiss that as 
being an airy-fairy notion, but, at the same time, you've got 
to realize how extraordinarily difficult that will be. I, for 
one, would welcome an effort to see that happen--I really 
would--without saying, for 1 minute, that we would get rid of 
our nuclear capability or our nuclear deterrent.
    And I would put at least three conditions on any such 
effort.
    Condition No. 1: Everybody would have to be at the table--
nuclear-capable nations and threshold states, as well--states 
that might become nuclear.
    And, second, everybody would have to take reductions 
proportionately. None of this stuff about, ``You powers--the 
United States and Russia--you've got to get rid of yours before 
we're going to talk about--or, you've got to get yours down to 
the level we are.'' No, sir. Everybody reduces proportionately.
    If you do those two things--and that is, everybody at the 
table and it--and stated as simply an aspiration or a goal, and 
make it clear that America's not going to get rid of her 
nuclear deterrent until such an agreement is negotiated.
    And the third condition is the one we've been talking about 
a lot here with this treaty verification: unlimited 
verification, onsite, anywhere, anytime, anyplace.
    You do those three things. Everybody's at the table, 
including nuclear threshold states and nuclear-capable states, 
proportionate reductions, and intrusive verification. That's 
the only way you'll ever get something like that negotiated. 
When you think about it, when you think about the countries 
that will have to sign on to that, including the ones that 
we've just mentioned--Pakistan, India, North Korea, Israel, and 
all the other nuclear states, and some nuclear threshold 
states, like Iran.
    The Chairman. Well, I think those are very good criteria to 
try to satisfy. I had the privilege of speaking at Wehrkunde 
this year on this subject, and I don't disagree with you, it is 
a noble and worthy goal; it is very complicated, obviously. And 
a lot of aspects of conflict resolution between states would 
have to be changed, attitudinally. But, in addition to that, I 
wonder if it wouldn't also require, as a prerequisite, some 
kind of restraints on conventional weapons, because if all you 
do is shift it over to another place, the balance of power can 
be played out in its own, you know, dangerous ways.
    Secretary Baker. I think--I understand what you're saying, 
but I think that would really complicate it.
    The Chairman. Yes.
    Secretary Baker. I really do. And what we're really talking 
about is a nuclear cataclysm. I mean, conventional weapons 
don't have that----
    The Chairman. No, they don't. But, with respect to----
    Secretary Baker [continuing]. Destructive capacity.
    The Chairman [continuing]. War, if you go back and read the 
history--I mean, this is all a sidebar--but, if you go--and you 
know the history--when you're dealing with conventional 
weapons--and somehow people think there's an exhaustion factor 
or a supremacy factor that you wear out the other side, one way 
or the other--it can be costly. And as we recall in the battles 
of World War I, when they just threw people at it, with 
expendability, generations were lost in a lot of countries. 
I've sometimes wondered whether--I just wonder aloud--whether 
that deterrent--I mean, there were thoughts, as we all recall, 
with Lyndon Johnson, in Vietnam, about whether or not we 
shouldn't invade the North. And most people would make the 
judgment that one of the reasons we didn't was the presence of 
two nuclear powers on the other side--Russia and China.
    Secretary Baker. Yes.
    The Chairman. So, you know, these are long-term goals.
    Secretary Baker. Absolutely. And nobody ought to 
underestimate the excruciating difficulty of ever getting to a 
world without nuclear weapons.
    The Chairman. But, you will agree with me, I know, that 
every step one takes moving in that direction makes the world a 
safer place, if you can do it in company with----
    Secretary Baker. As long as it's done in balance, yes.
    The Chairman. Right.
    Secretary Baker. As long as it's not done unilaterally or--
--
    The Chairman. Exactly.
    Secretary Baker [continuing]. Or in a way that would be 
destabilizing.
    The Chairman. Agreed.
    Secretary Baker. But, again, Mr. Chairman, I know you're 
not advocating that we should go for a world without nuclear 
weapons in which we reduce first and then everybody comes 
along. I mean, that's a nonstarter.
    The Chairman. Absolutely a nonstarter. By no means. I'm 
also not willing to do it without the kinds of terms that you 
described. I mean, if you don't have unlimited verification, 
and you don't have everybody at the table, it would be 
impossible.
    Secretary Baker. You don't have everybody at the table, 
unlimited verification, and proportionate reductions only. So, 
if we've got a lot more than a small proliferator out there, 
they nevertheless--if we take a 10-percent cut, they've got to 
take a 10-percent cut. It's the only way you're ever going to 
get the countries--in my opinion, you'll ever be able to 
negotiate it diplomatically with the countries.
    The Chairman. Well, Mr. Secretary, as always, thank you for 
being here to help us think through this treaty. I think your 
comments today are important and well taken, and I think they 
will help a number of folks here to sort of sift through the 
pros and cons of this agreement, and to focus on the questions 
that you've put to us, which are already, I think, surfacing as 
the principal areas of concern that we have to flesh out. And 
we'll be doing that over the next weeks.
    Next Tuesday, we'll have Secretary Kissinger here, and then 
we'll be moving in to get the negotiating team and have some 
classified sessions and, hopefully, be able to move to the 
resolution and ratification relatively quickly.
    Thank you.
    Secretary Baker. Well, thank you for having me, Mr. 
Chairman.
    The Chairman. We're honored. Thank you, sir, very much.
    We stand adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]


      THE ROLE OF STRATEGIC ARMS CONTROL IN A POST-COLD-WAR WORLD

                              ----------                              


                         TUESDAY, MAY 25, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Cardin, Casey, Kaufman, Lugar, 
Corker, Risch, and Barrasso.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Good morning, everybody. This morning we are enormously 
privileged to welcome one of America's most distinguished 
statesmen, perhaps the dean of diplomacy in the United States, 
Dr. Henry Kissinger, who served as National Security Advisor 
and Secretary of State to Presidents Nixon and Ford.
    This is our fourth hearing on the New START Treaty. And by 
our count, this is Dr. Kissinger's 66th appearance before this 
committee. We are particularly fortunate to have him--that's 
more than some Senators on the committee, I think--we are 
particularly fortunate to have him back to testify, because of 
his deep expertise on great power relations and nuclear 
strategy.
    It was 1957 when Dr. Kissinger helped define the study of 
nuclear deterrents by publishing one of the classic books on 
the subject: ``Nuclear Weapons and Foreign Policy.'' And while 
serving President Nixon, he successfully negotiated the SALT I 
accord, the first agreement to limit United States and Soviet 
nuclear weapons.
    In 2007, precisely 50 years after publishing his book, Dr. 
Kissinger once again shaped public debate on nuclear security 
when he joined with George Shultz, William Perry, and our 
former colleague, Sam Nunn, to endorse the goal of a world free 
of nuclear weapons. That suggestion surprised many people. But 
Dr. Kissinger and his coauthors wrote that the spread of 
nuclear weapons to rogue states and possibly even terrorists 
means that the world is now on the precipice of a new, 
dangerous nuclear era. That, they argued, demanded a new way of 
thinking.
    Now, as you know, Dr. Kissinger does not just throw out 
empty strategy pronouncements. And that's precisely why his 
article laid out a list of concrete steps that would enhance 
our security in the immediate future. One of the steps 
Secretary Kissinger recommended is that we continue reducing 
the size of United States and Russian nuclear arsenals. New 
START, which lowers the legal limit on deployed warheads by up 
to 30 percent, is a responsible move in that direction. Four 
decades of bilateral arms control treaties with Moscow have 
decreased fears of nuclear aggression and helped the United 
States and Russia to work together. The New START Treaty 
continues and advances the tradition of reductions that was 
forged in the original START agreement and the Moscow Treaty.
    Secretary Kissinger and his coauthors have also argued that 
strategic arms control can help us to fight nuclear 
proliferation. The United States and Russia, together, hold 
more than 90 percent of the world's nuclear weapons. That is 
why they wrote that we have a special responsibility--we and 
Russia--a special responsibility, an obligation, and the 
experience to demonstrate leadership. They said bilateral 
nuclear reductions are key to our global effort to reduce the 
spread of nuclear weapons.
    This is a crucial point in time. Some have said that other 
countries don't care how many nuclear weapons the United States 
and Russia have. But, in fact, we've already seen that New 
START can help us fight nuclear proliferation, and therefore, 
nuclear terrorism.
    Last week, Secretary Clinton testified to this committee 
that New START had renewed American credibility at this month's 
conference in New York to review the Nuclear Non-Proliferation 
Treaty. That means we've already been better able to isolate 
Iran and prevent it from diverting attention from its own 
troubling behavior. And the New START Treaty has reenergized 
our relationship with Russia, helping us to persuade Moscow to 
support a new round of U.N. sanctions against Iran.
    Since 2007, Dr. Kissinger and his coauthors have elaborated 
on their groundbreaking work. They have emphasized, among other 
things, the importance of the original START Treaty's 
verification mechanisms, which expired on December 5 of last 
year. Skeptics have argued that the New START Treaty's 
verification provisions are not as effective, because they 
provide for fewer inspections. But that argument overlooks 
three crucial details. First, there are many fewer facilities 
to inspect today than when START was first signed. Second, for 
the first time ever, Russian missiles will be given a unique 
identification number that allows us to track that specific 
missile. And third, United States inspectors will be able, for 
the first time, to determine how many reentry vehicles are on a 
Russian missile. Our military, at every level, as testified to 
by Admiral Mullen, the Chairman of the Joint Chiefs of Staff, 
is confident that New START's verification provisions get the 
job done. And the New START Treaty safeguards are better than 
what we have right now. The fact is that until we ratify a 
treaty, we have none. So, that's the choice.
    Secretary Kissinger has also argued that we must reduce 
tensions with Russia on missile defense so that we can 
cooperate more effectively.
    The preamble to the New START Treaty acknowledges the 
relationship between offensive forces and missile defenses. It 
does nothing more than acknowledge the relationship. As 
Secretary Jim Baker testified last week, we're tipping our hat 
to Russia's concerns without giving anything away.
    Some people have insisted that the preamble constrains our 
ability to deploy missile defenses against rogue states. So, 
let me be clear on this point. This accord imposes no 
restriction--zero--none--no restriction on our ability to 
defend ourselves. In fact, the administration has been clear 
that we will not be limited in any way in plans to continue to 
build missile defenses to protect America from Iran or North 
Korea or any other individual nuclear threat.
    Dr. Kissinger knows how important bipartisanship is in our 
consideration of arms control agreements. The Senate approved
SALT I by a vote of 88 to 2 during his tenure as National 
Security Advisor. Many years later, the Senate endorsed the 
original START Treaty, 93 to 6. The Moscow Treaty was approved 
with 95 Senators voting in favor and none voting against. I am 
confident that once this committee concludes its deliberations, 
we will find overwhelming support for the New START Treaty, as 
well.
    And part of that deliberation takes place today, as it has 
in our prior hearings, by inviting distinguished statespeople 
from our country to share their thoughts with us. Today, as 
I've said previously, we are pleased to have one of our most 
distinguished statesmen of all, Dr. Henry Kissinger.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming our 
friend and distinguished witness, former Secretary of State and 
National Security Advisor, Dr. Henry Kissinger.
    Last week, the Foreign Relations Committee received 
testimony, as you pointed out, on the New START Treaty from 
Secretaries Gates and Clinton and Admiral Mullen, and former 
Secretary of State James Baker. In April, we heard from former 
Defense Secretaries Jim Schlesinger and William Perry.
    Our witnesses have expressed the common view that while 
there are questions to be answered about the treaty and our 
broader nuclear posture, a decision not to ratify the treaty 
would forgo an opportunity and exacerbate the broader 
challenges to U.S. foreign policy.
    Our hearings on the New START Treaty come at a time when we 
are witnessing fundamental changes in United States strategic 
planning.
    In addition to consideration of the treaty, this committee 
is studying the full meaning of the new Nuclear Posture Review. 
Moreover, the treaty has coincided with the Nuclear Non-
Proliferation Treaty review conference underway in New York; 
Iran's continued pursuit of nuclear programs; the development 
of a new Strategic Concept for NATO; and discussions related to 
the Ballistic Missile Defense Review.
    The New START Treaty has been, both directly and 
indirectly, linked to each of these issues, and Senate's 
decision on START will reverberate throughout our strategic 
relationships worldwide.
    The New START Treaty follows a period when we have had 
severe disagreements with Russia. Russian actions related to 
Iran, Afghanistan, and North Korea, for example, often have 
exhibited a reflexive resistance to United States positions 
even when we have substantial commonality of interest. Russia's 
repeated use of energy exports as a political weapon and its 
treatment of Ukraine and Georgia demonstrate a hard-line on 
regional issues. In this context, we should avoid ratcheting 
between excessive expectations and severe disappointment in our 
attitude toward Russia.
    We also should avoid the idea that the New START Treaty can 
reset our relationship with Russia on its own.
    But recent difficulties in the United States-Russian 
relationship make the New START Treaty more important, not 
less. Distancing ourselves from nuclear engagement with Russia 
would greatly reduce our knowledge of what is happening in 
Russia, hinder our ability to consult with Moscow in a timely 
manner on nuclear and national security issues, further strain 
our own defense resources, weaken our nonproliferation 
diplomacy worldwide, and potentially, heighten arms 
competition.
    As Secretary Baker said last week, ``Despite ups and downs 
in relations between Washington and Moscow over the last 18 
years, START ensured strategic stability between the United 
States and Russia.'' Dr. Kissinger, I hope that you will 
elaborate on what role such treaties play in our relationship 
with Moscow, as well as in sustaining United States influence 
worldwide.
    Beyond Russia, we must think strategically about how we 
hope to shape the world in an era when developed nations are 
contending with an explosion of debt that limits the resources 
they are willing to apply to international problems, even as 
opponents practice asymmetrical warfare that is expensive to 
combat and terrorist cells seek weapons of mass destruction.
    Meanwhile, the systemic risks to the global economic system 
have increased sharply in recent years due to the debt 
situation and the growing fragility of energy, food, and water 
supplies, which are likely to be the subject of increasing 
international conflict. In such an environment, few security 
problems will be solved by increasing U.S. defense 
expenditures.
    Our margins for error in preventing nuclear proliferation 
in the coming decades will be especially narrow. Reaching 
common ground on START provides some foundation for continuing 
United States-Russian cooperation on reducing the nuclear, 
chemical, and biological dangers facing our world.
    The NPT is under stress from the actions of Iran and North 
Korea and the concerns of neighboring countries. The treaty is 
also contending with the complications that arise out of an 
expansion of global interest in nuclear power. The national 
security of both Russia and the United States will suffer if 
the world experiences a breakdown of the nonproliferation 
regime. Unless the United States and Russia provide strong 
leadership in this area, the coming surge in demand for nuclear 
power will lead more and more nations to seek their own 
enrichment facilities. If non-nuclear-weapons states opt for 
major nuclear power programs and their own fuelmaking 
capabilities, they could produce enough nuclear materiel for 
thousands of nuclear bombs. This could generate a raft of new 
nuclear weapons states, exponentially increase the threat of 
nuclear terrorism, and provoke highly destabilizing arms races.
    The New START Treaty, by itself, cannot address these 
threats. But without a strategic nuclear treaty with Russia and 
all the consultations and transparency measures that come with 
it, we will have very little hope of tackling the more acute 
security problems that confront both of our nations.
    We are very fortunate to have Dr. Kissinger with us today 
to examine the New START Treaty, our relationship with Russia, 
and the broader strategic environment that we are attempting to 
shape. And I look forward to his insights and our discussion, 
as always.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Dr. Kissinger, we welcome your testimony.
    As I said, your full testimony will be placed in the record 
as if read in full. And if you choose to summarize or read part 
of it, or all of it, the choice is yours.
    Thank you, sir.

 STATEMENT OF HON. HENRY KISSINGER, FORMER SECRETARY OF STATE, 
               KISSINGER ASSOCIATES, NEW YORK, NY

    Dr. Kissinger. Mr. Chairman----
    The Chairman. Can you push the--I think there's a button on 
there. And if you pull it down a little closer, it'd be great.
    Dr. Kissinger. Mr. Chairman, Mr. Ranking Member, it's a 
great privilege to be able to testify before this committee, 
after a fairly long interval, actually.
    I have submitted a statement. And I think it might be most 
efficient if I summarize my views and gave the Senators an 
opportunity to question me about them.
    And I broke my statement, in effect, into two parts. One, 
an assessment of the agreement. And second, the strategic and 
geopolitical issues we need to deal with as a country, 
independent of the treaty, as a result of a new, evolving 
situation.
    The subject of nuclear arms control grew out of the effort 
of those who had created the largest and most destructive 
weapons that had ever existed to resolve by negotiations some 
of the ultimate consequences of the decisions that had been 
made over a period of years.
    A number of objectives have characterized these 
negotiations: to reduce or eliminate the danger of war by 
miscalculation, which requires transparency and verification; 
to bring about the maximum stability in the balance of forces 
to reduce incentives for nuclear war by design, especially by 
reducing incentives for surprise attack; and to overcome the 
danger of accidents fostered by the automaticity of the new 
technology. All of these measures, combined, might merge into 
an international system that would reduce or limit--and, in the 
end, hopefully, eliminate--the use of these weapons as a 
conscious choice.
    And in the last decade, there have emerged two vast 
additional dangers that profoundly affect the way we think of 
weapons of mass destruction: the proliferation of these weapons 
and the consequent danger that nonstate groups might acquire 
some of these weapons.
    As the chairman and ranking member have pointed out, the 
treaty before you is an evolution of agreements that go back to 
the 1970s, and particularly of the series of START agreements 
that were started in the Reagan administration and then 
continued, in some form, in every subsequent administration.
    In my view, the agreement is a modest step forward, 
stabilizing American and Russian arsenals at a somewhat reduced 
level. It provides transparency. It reintroduces many of the 
verification measures that lapsed with the expiration of the 
last START agreement. It encourages what the Obama 
administration has described as ``the reset of political 
relations with Russia,'' and it may provide potential benefits 
in dealing with the issues of proliferation.
    I want to emphasize the point that both the chairman and 
the ranking member have made, the importance of a continuing 
dialogue with a country that, together with us, possesses 95 
percent of the world's nuclear weapons, on the measures to deal 
with these weapons. Without such a dialogue, the world would be 
rudderless in front of its greatest dangers.
    I have not had an opportunity to study the full text of the 
treaties, including the associated protocols. And I'm aware 
that, at the end of any negotiation, controversies arise 
because the treaty merges the views of the parties with 
different requirements and sometimes adversarial purposes. I 
would have preferred some of the provisions to be somewhat 
different. But, I do not believe they affect the central 
purpose of the treaty. And having negotiated arms control 
agreements myself, I recognize the difficulty of achieving 
every objective.
    In deciding on ratification, the concerns need to be 
measured against the consequences of nonratification, 
particularly interrupting a process that has been going on for 
decades, the relationship to the NPT, and to the attempt to 
achieve a strategic coherence.
    So, for all these reasons, I recommend ratification of this 
treaty, unless the deliberations of this committee reveal 
material that is not before me and that I do not anticipate 
encountering.
    Having said this, let me raise a number of concerns that 
affect, not the text of the treaty, but the nature of the 
international situation within which this treaty takes place 
and to which the deliberations of this committee could play an 
important role.
    The first is that, when SALT agreements were negotiated in 
the 1970s, the Soviet Union was a global adversary. And the 
danger of strategic war with the Soviet Union was a major 
factor in all our deliberations. Today, a strategic war with 
Russia is a relatively negligible danger. We have an obligation 
and should attempt to control the nuclear armaments. But, the 
relationship with Russia now has to be defined, importantly, in 
political and not only in strategic terms.
    Second, when arms control started, the world was 
essentially bipolar. As weapons are reduced and as other 
arsenals proliferate, we can envision a world of multilateral 
nuclear establishments. And in the interval before--where we 
are and where, perhaps, we may wind up after a period that 
President Obama described could--would not be reached in his 
lifetime. When all--when nuclear weapons are hugely reduced, we 
have to, as a country, ask ourselves a series of questions of 
how one defines a multilateral strategic balance, how one 
defines the number of delivery vehicles, what happens when 
nuclear countries make an alliance with each other, confronting 
a third state, and what will be the impact on the international 
situation when we achieve our objective and deterrence has to 
be achieved primarily by conventional weapons.
    I repeat, I'm not raising these concerns as an objection to 
the treaty, but as a guide to issues that need to be discussed 
as our debate continues.
    Two considerations follow from this. The first is that, at 
some early point, the negotiations that are now bilateral have 
to merge into multilateral discussions. We will reach a point 
where further reductions of American and Russian weapons, by 
themselves, will have to take into account the growing relative 
importance of the arsenals of other countries that are being 
augmented.
    The second point is that, as we go through these 
reductions, tactical nuclear weapons will have to be included 
in any further deliberations. The imbalance in tactical nuclear 
weapons between Russia and the states around it cannot be made 
up under reduced nuclear strategic weapons on our side or 
decreasingly made up by our own strategic forces.
    So, those two considerations should guide future 
approaches.
    And finally, I would like to say two things. Concerns have 
been raised with respect to missile defense and with respect to 
modernization. I agree with the chairman. I do not believe this 
treaty is an obstacle to a missile defense program or 
modernization. Those are decisions that the United States can 
and should take as part of its own strategic design. And I 
share the view that a robust program of modernization must be 
an integral part of the ratification of this treaty and be 
discussed between the administration and the Senate as the 
treaty deliberations go forward.
    In short, this committee's decision will affect the 
prospect for peace for a decade or more. It is, by definition, 
not a bipartisan, but a nonpartisan, challenge.
    I thank you for the opportunity of appearing before you.
    [The prepared statement of Dr. Kissinger follows:]

   Prepared Statement of Dr. Henry A. Kissinger, Former Secretary of 
               State, Kissinger Associates, New York, NY

    Thank you, Mr. Chairman and Ranking Member Lugar. It is a pleasure 
to meet again with this committee, whose membership has substantially 
turned over since I last testified before it.
    Let me begin by placing the treaty into the context of arms control 
issues as they have evolved in the half-century that I have dealt with 
them. I consulted in the Kennedy administration during discussions on 
Berlin and the Nuclear Test Ban Treaty in the 1960s. As National 
Security Advisor and Secretary of State, I participated in the 
negotiations of several arms control agreements in the 1970s. In 
various advisory capacities and as a concerned citizen ever since, I 
have advocated both arms control measures as well as a strong national 
defense.
    The subject of nuclear arms control grew out of the seemingly 
paradoxical effort of those who had created the largest and most 
destructive arsenals to avoid by negotiation the ultimate consequences 
of their own decisions. The advent of nuclear weapons and other 
instruments of mass destruction causes strategy to be conducted at the 
edge of an abyss from which, should we fall into it, there may be no 
return. An increasing familiarity with the implications of modern 
weapons technology has generated a growing desire to mitigate its 
consequences to the greatest extent compatible with our security.
    A number of objectives characterize these negotiations: to reduce 
or eliminate the danger of war by miscalculation, which requires 
transparency of design and deployment; to bring about the maximum 
stability in the balance of forces to reduce incentives for nuclear war 
by design, especially by reducing incentives for surprise attack; to 
overcome the danger of accidents fostered by the automaticity of the 
new technology. All these measures combined might, if successful, merge 
into a strategy that would reduce or limit--and, in the end, perhaps 
eliminate--the use of these weapons as a conscious choice.
    In the last decade, there have emerged two vast additional dangers 
that profoundly affect the way we think of weapons of mass destruction 
and arms control: the proliferation of weapons of mass destruction and 
the consequent danger that nonstate groups might acquire some of these 
weapons.
    The treaty before this committee is the latest of a series of 
measures seeking to control strategic arms going back to the 1970s when 
the numbers of strategic nuclear weapons were limited in the so-called 
SALT agreements. The treaty before this committee is an evolution of 
the START treaties begun in the Reagan administration and elaborated by 
its successors of both parties. It is, as I shall argue, probably the 
last agreement on strategic arms that can be made without taking 
tactical nuclear weapons into account. It is also approaching the end 
of what can be achieved by bilateral negotiations on the subject 
between the United States and Russia. Growing existing arsenals and 
proliferation will soon impose a multilateral context.
    The current agreement is a modest step forward stabilizing American 
and Russian arsenals at a slightly reduced level. It provides a measure 
of transparency; it reintroduces many verification measures that lapsed 
with the expiration of the last START agreement; it encourages what the 
Obama administration has described as the reset of political relations 
with Russia; it may provide potential benefits in dealing with the 
issue of proliferation.
    I have not had an opportunity to study the full text of the treaty 
including its associated protocols. I understand that the Senate has 
not yet received the obligatory National Intelligence Estimate required 
for ratification procedures nor the State Department judgments on 
compliance performance. Before making its final decision, this 
committee will no doubt carefully review those documents. The committee 
has also available to it the concerns of previous witnesses, 
particularly those of Secretaries Baker and Schlesinger. The committee 
could make a significant contribution by clarifying some of the 
treaty's ambiguities.
    At the end of any negotiation, controversies arise because a treaty 
merges the views of parties with different requirements and sometimes 
adversarial purposes. I personally would have preferred to avoid 
establishing a separate category for deployable but not deployed 
missiles or a different counting rule for airplanes. I would also have 
preferred to avoid prohibiting the use of missile launching sites for 
strategic defense as unnecessarily limiting strategic options of a 
future President. But having negotiated arms control agreements myself, 
I recognize the difficulty of achieving every objective. In deciding on 
ratification, these concerns need to be measured against the 
consequences of nonratification, which would profoundly affect global 
confidence in American purposes.
    Based on the evidence currently available, I would submit these key 
judgments:

  <bullet> The treaty, if observed, would maintain strategic stability 
        with Russia over the next decade at somewhat lower force levels 
        than currently existing.
  <bullet> The treaty allows for the necessary modernization of our 
        forces. The obstacles to the necessary modernization are not 
        provisions in the treaty but strategic decisions within our 
        unilateral capacity to make.
  <bullet> The treaty does not unduly restrict our ability to build and 
        deploy an effective missile defense system--again, a decision 
        that will be shaped by strategic choices in our power to make.
  <bullet> The treaty, with its inspection and verification regime, is 
        a significant confidence-building measure that may help lay the 
        foundation for more constructive United States-Russian 
        relations.
  <bullet> Verification must be adequate to detect any attempt to break 
        out in sufficient time to devise an appropriate response. The 
        committee will want to pay special attention to the protocols 
        dealing with these subjects and to expert testimony on that 
        subject.
                            long-term issues
    Having said this, allow me to use this opportunity to raise 
additional concerns not as obstacles to ratification but to shape 
further negotiations we might pursue on the subject of arms control. 
The committee might use the ratification process to help shape a 
bipartisan consensus with respect to them.
    We need to adapt our policies to the changed political context. 
While negotiating traditional arms control, we must recognize that the 
danger of a strategic nuclear conflict with Russia is negligible. The 
United States-Russian relationship can no longer be defined in purely 
strategic terms. Nor should arms control bear the entire weight of this 
relationship. The contribution of the Russian-American relationship to 
world peace must be judged importantly in political terms--on the 
global issues like nuclear proliferation, environment, and energy.
    When strategic arms control with the Soviets began 40-plus years 
ago, the strategic world was bipolar. Other nuclear arsenals were not 
of sufficient dimension to affect the overall balance because the 
numbers of strategic warheads and delivery systems were so vast.
    Three key elements have changed in the intervening years:

  <bullet> First, the number of nuclear weapons states has grown, as 
        have the arsenals of some smaller nuclear weapons states.
  <bullet> Second, the numbers of American and Russian strategic 
        warheads and deliveries systems have been radically reduced and 
        are approaching levels where the arsenals of other countries 
        will bear on the strategic balance, as will tactical nuclear 
        weapons, particularly given the great asymmetry in their 
        numbers in Russia's favor.
  <bullet> Third, nonproliferation policies have failed to arrest the 
        spread of nuclear weapons--including in the immediate issues of 
        North Korea and Iran.

    A multilateral strategic context is inherently more complex than a 
bilateral one. It obliges us to think through questions as these:

  <bullet> How is a multilateral strategic balance to be defined?
  <bullet> How many warheads and delivery vehicles of which kind are 
        needed to deal with other contingencies, including those 
        arising from proliferation and terrorism, and still have a 
        sufficient residue to maintain a credible deterrent posture 
        vis-a-vis Russia?
  <bullet> How would we deal with a potential hostile alliance of 
        nuclear-armed states? And, further, how does the prospect of 
        nuclear alliances affect the strategic equation?
  <bullet> What are the requirements of a credible war-fighting 
        strategy in this context?
  <bullet> As nuclear arsenals are reduced and conventional defenses 
        grow in relative significance or as deliberate substitute, what 
        is the relevance of the lessons of history that deterrence is 
        difficult to calculate with conventional weapons, hence the 
        frequency of wars throughout history?

    As we move toward lower numbers, extended deterrence guaranteeing 
allies and partners needs to be dealt with. For as strategic arsenals 
are reduced, the distinction between tactical and strategic nuclear 
weapons is bound to erode. The large Russian stockpile of tactical 
nuclear weapons, unmatched by a comparable American deployment, could 
threaten the ability to undertake extended deterrence. This challenge 
is particularly urgent given the possible extension of guarantees in 
response to Iran's nuclear weapons program and other programs that may 
flow from it. For all these reasons, as the Nuclear Posture Review 
suggests, we are approaching with this treaty the limit beyond which 
further reductions are inadvisable unless they include Russia's 
tactical systems.
    This committee is not in a position to settle all of these issues 
in the context of one ratification debate. But it can start--and indeed 
already has--the discussion, raise public awareness and convey a sense 
of the Senate with respect to them to guide future national decisions.
                             modernization
    The United States is the only nuclear weapons state not currently 
modernizing its nuclear capabilities and supporting infrastructure. The 
pool of scientists, engineers, designers, and technicians that has 
underpinned our nuclear forces is shrinking as we continue to rely on 
designs 20 years old.
    As part of a number of recommendations, my colleagues, Bill Perry, 
George Shultz, Sam Nunn, and I have called for significant investments 
in a repaired and modernized nuclear weapons infrastructure and added 
resources for the three national laboratories. We expressed this view 
in a statement of January 20, 2010, as follows: ``Maintaining high 
confidence in our nuclear arsenal is critical as the number of these 
weapons goes down. It is also consistent with and necessary for U.S. 
leadership in nonproliferation, risk reduction, and arms reduction 
goals . . . Departures from our existing stewardship strategies should 
be taken when they are essential to maintain a safe, secure, and 
effective deterrent.'' In determining what is essential, I believe that 
great weight should be given to the findings of the bipartisan 
Schlesinger-Perry Commission: ``So long as modernization proceeds 
within the framework of existing U.S. policy, it should encounter 
minimum political difficulty.''
    Bill Perry has summed up the challenge before our country: We must 
``move in two parallel paths--one path which reduces nuclear dangers by 
maintaining our deterrence, and the other which reduces nuclear dangers 
through arms control and international programs to prevent 
proliferation. Given today's threats of nuclear proliferation and 
nuclear terrorism, these are not mutually exclusive imperatives. To 
protect our Nation's security, we must succeed in both.''
    This committee's decision will affect the prospects for peace for a 
decade or more. It is, by definition, not a bipartisan but a 
nonpartisan challenge. Thank you for the opportunity to contribute to 
your deliberations.

    The Chairman. Well, thank you very much, Secretary 
Kissinger. We appreciate the testimony.
    I was particularly struck when I read your testimony. I'm 
particularly struck by the strategic overlay that you set out, 
in the back part of your testimony that you've just referred 
to. You raise an intriguing and important set of questions.
    I do think--I'd like to come to that, but I first want to 
try to bear in on the treaty itself, for a moment, if I can. 
But, I think those questions that you have posed with respect 
to the geopolitical, slash, long-term nuclear challenge are 
very, very important ones. And they're, in some ways, more 
interesting and challenging.
    With respect to the tactical nuclear weapons, there is, I 
think, a complete agreement in this committee and in the 
administration that that is the next step, that we cannot 
proceed further, in a sense. It was never assumed that that 
would, in fact, be part of this discussion. It was sort of the 
next discussion. I think you would agree that, notwithstanding 
the imbalance on the tactical weapons, that the levels that 
we've arrived at, the 1,550 warheads and the 700 delivery 
vehicles, leave you confident that this arrangement that comes 
out of this treaty will, in fact, leave the United States in 
the position of strength and the position of deterrence that it 
needs. Is that correct?
    Dr. Kissinger. Yes. Yes, it does. The--any employment--any 
use of nuclear weapons will produce hugely catastrophic 
consequences. So, one should not visualize an unlimited use of 
tactical nuclear weapons that one would not respond to. I think 
the present numbers will enable us to maintain deterrence.
    The Chairman. And in your prepared testimony, you said that 
a failure by the United States to ratify this treaty would 
profoundly affect global confidence in American purposes. I 
think that's an important warning, and I wonder if you would 
elaborate a little bit.
    Dr. Kissinger. Well, I would argue, on two levels. One, 
under the NPT, the United States obligated itself to negotiate 
about the reduction, and indeed eventual elimination, of its 
nuclear weapons. Second, the expectation, globally, that a 
serious effort is being undertaken to limit the prospects of 
nuclear war, has become an almost permanent feature of the 
international negotiating scene and a major commitment, 
especially of this administration.
    This START Treaty is an evolution of treaties that have 
been negotiated in previous administrations, of both parties. 
And its principal provisions are an elaboration or continuation 
of existing agreements. Therefore, a rejection of them would 
indicate that a new period of American policy has started that 
might rely largely on the unilateral reliance of its nuclear 
weapons and would, therefore, create an element of uncertainty 
in the calculations of both adversaries and allies. And 
therefore, I think it would have an unsettling impact on the 
international environment.
    The Chairman. And also in your opening, you said that, with 
the inspection and verification regime that's in this treaty, 
you deem it to be, ``a significant confidence-building measure 
that may help lay the foundation for more constructive United 
States-Russian relations.'' Could you also elaborate, perhaps, 
on what you could envision coming out of this, on the plus 
side, as a result of that confidence-building?
    Dr. Kissinger. Well, we will need, as I indicated in the 
second part of my statement, a reevaluation of global strategy, 
in the light of the emerging pattern. One could imagine an 
ultimate goal in which the incentive to initiate nuclear war is 
removed, to the greatest extent possible. And this, of course, 
would have to be coupled with a redesign of our own military 
forces so that they can fill whatever gaps occur as a result of 
that decision. So, as negotiations proceed, verification of the 
strategic forces of an increasing number of countries should be 
included in the negotiation process to bring about these 
objectives.
    The Chairman. Fair enough.
    With respect to the modernization issue of our forces, you 
have deemed that this treaty allows for sufficient 
modernization to take place to maintain the security of our 
deterrent. Is that accurate?
    Dr. Kissinger. I'm not aware of any provisions in the 
treaty that prevents the modernization of our forces. The 
modernization of our forces depends largely on unilateral 
decisions we make--and should make--as part of our own 
strategic design.
    The Chairman. And you say that; that is, in fact, what you 
said in the testimony. I just wanted to make that a more 
visible part of this colloquy, if you will, that there's 
nothing in the treaty that restrains that modernization. That 
is really a decision that is made by the executive department 
and the Congress. Correct?
    Dr. Kissinger. The--modernization, in my view, depends on 
decisions made by the executive branch of the government and 
approved by the Congress.
    The Chairman. Thank you, sir.
    Senator Lugar.
    Senator Lugar. Secretary Kissinger, I wanted to ask you, 
again, the broad question which faces this committee. The 
committee has been discussing a good number of aspects of our 
strategic posture and future defense plans, which constitute a 
great deal of importance to us. But, the immediate question, it 
seems to me, is, What would be the consequences of failure to 
ratify the New START Treaty with regard to United States-Russia 
relations or our broader nonproliferation agenda?
    Dr. Kissinger. Since Russia and we possess 95 percent of 
the world's nuclear weapons, an understanding between the 
United States and Russia about the consequences of their use, 
and restraining their use, where that is possible, and 
restraining their numbers, is very important. For a long time, 
the dialogue with respect to nuclear weapons has been sometimes 
the principal feature of our relationship.
    During the period of bipolarity, this was understandable. 
But, now we are moving into a period where, actually, strategic 
conflict between the United States and Russia is extremely 
unlikely. So, what we negotiate with each other should become a 
pattern that ought to spread to the rest of the world. But, it 
also ought to be considered, by both sides, as a means to 
restrain the pressures they put on each other in the political 
field. So, it is not really compatible with the spirit of this 
treaty, or with the purpose of this treaty, if, on the one 
hand, there is restraint in the deployment and building of 
nuclear weapons while, on the other side, issues like 
proliferation are not dealt with in a compatible fashion.
    So, the long-term impact of the treaty will have to be 
judged, importantly, by the degree to which Russia is willing 
join in a regime, not only of the relations of Russia to the 
United States, but of the spread of nuclear weapons to other 
countries; at the moment, specifically, Iran.
    Senator Lugar. Well, that's a very important consideration. 
I know, from your experience, as you've proceeded through 
treaty-building on several occasions, the conversation may have 
started out with regard to nuclear weapons, but very frequently 
the relationship involved other weapons of mass destruction--
chemical weapons, even allegations of biological weapons. And 
one reason for the treaties, both on the Russian side and ours, 
was the degree of transparency illustrated by the transport of 
American service personnel and contractors to Russia, which was 
of value to the Russians themselves. This was the case simply 
because the Russians were fearful, with the breakup of the 
Soviet Union, that elements in the Caucasus, or various other 
people that were fairly close by, might gain access to fissile 
materiel, or, in smaller situations, chemical weapons in the 
form of shells.
    Now, I mention this because the relationship that has been 
denoted by these treaties has brought this degree of 
transparency, in terms of counting and vision, but, likewise, 
with the sheer numbers of Americans with boots on the ground in 
Russia who were very helpful and were perceived that way by the 
Russians.
    Now, what I perceive, as we proceed in this particular 
situation, is that the appreciation of how important that has 
been is sort of being lost in translation. This is of concern 
to me. The transparency aspect of this is critically important. 
Now, I'm convinced the treaty does not restrain, as you pointed 
out, any developments of our own weapon systems, nor our 
missile defense. But, I am concerned the verification aspects, 
the relationship, the status of American personnel implementing 
agreements in Russia, and so forth could be vastly inhibited if 
we do not have accord with this treaty. Do you share that 
feeling?
    Dr. Kissinger. I agree that the verification provisions of 
this treaty, even if they are somewhat modified from the 
previous one, are extremely important for this relationship.
    I would also like to supplement an answer I gave to the 
chairman when he asked what other steps might occur. I believe 
that the control of fissible materiel around the world will 
have to be a crucial aspect of a continuation of this process, 
and that, again, requires that some of the key verification 
provisions of this agreement should be put into force.
    Senator Lugar. Well, I thank you for that statement. With 
regard to developments in related areas, for instance, chemical 
weapons, the plant at Shchuchye providing for the destruction 
of nearly 2 million chemical weapons shells and nerve agent was 
established last year. It appears that both Russia and the 
United States, although we are parties to the Chemical Weapons 
Convention, will not be able to meet the April 2012 deadline 
for possessor states.
    One of the values of having this close relationship with 
the Russians regarding the destruction of our chemical weapons 
stockpiles is that we both know what the other has at this 
point, and so does the rest of the world.
    So, I get back to the point that transparency is 
tremendously important, in terms of our relations with every 
other country, as well as our joint work with the Russians in 
trying to stop proliferation efforts by other actors around the 
world. This is going to be difficult for both of us, even if we 
currently possess 90 to 95 percent of the weapons.
    But, I thank you again for your testimony today.
    The Chairman. Thank you Senator Lugar.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Dr. Kissinger, thank you for your testimony and the help 
you're providing this committee as we consider the ratification 
question.
    I wanted to highlight a couple of bullet points in your 
testimony. Page 3--and I'm reading in pertinent part, I won't 
read every bullet point--but, you say, on page 3 of your 
prepared testimony, that, ``Based upon the evidence currently 
available, I'd submit these key judgments.'' The first one is 
the following: ``The treaty, if observed, would maintain 
strategic stability with Russia, over the next decade, at 
somewhat lower force levels than currently existing.'' The 
second bullet point--I'm just reading the first sentence of 
that, ``The treaty allows for the necessary modernization of 
our forces.'' And then the third bullet point has this full 
sentence, ``The treaty does not unduly restrict our ability to 
build and deploy an effective missile defense system--again, a 
decision that will be shaped by strategic choices in our power 
to make.''
    All three are--including the other statements you make in 
that section--key considerations for us as we deliberate.
    And I guess the one that has had a lot of attention paid to 
it is missile defense. And I just wanted to comment further, if 
you have any further comments, about the question of missile 
defense and the ratification impact in that question.
    Dr. Kissinger. Well, first, with the relationship of the 
treaty to missile defense. There are two aspects in which the 
treaty talks about missile defense. One is in the preamble, and 
the other is in the prohibition against using missile-launching 
silos--offensive missile-launching silos for missile defense.
    The first of these provisions is not prescriptive. It 
states that the strategic equation will be affected by changes 
in missile defense status. In an abstract world, and if I could 
have written the treaty without a Russian counterpart, I might 
not have put that in. But, it's a statement of--it's a truism. 
It is not an obligation. It's something to which countries can 
react unilaterally.
    The second one, about prohibiting the use of existing 
offensive silos, my understanding is--and reinforced by 
conversations with Admiral Mullen and General Cartwright--we 
have no plan to do this. So that the only argument one could 
raise with respect to it is to say, ``Why constrict the 
flexibility of a future President with respect to deployments 
that he might make, even though no current plan exists for 
making them?'' I have sympathy for that argument, but I don't 
think it is central, because it does not inhibit anything that 
the military chiefs have asked for or that has ever been in our 
plans.
    Now, on the second question: the degree of missile defense. 
I don't think any country, any President, or any administration 
can adopt a strategy that leaves the country totally vulnerable 
to any kind of attack. So, it seems to me there is a fair 
degree of consensus that one should have missile defense 
against accidental launches, terrorist attacks, and the kind of 
attacks that the emerging proliferating regimes develop. So, 
the area of controversy would be to what degree one should also 
protect against less-than-all-out attacks from major countries, 
since there also seems to me a consensus that a total defense 
against an all-out attack is, at present, not possible. So, 
it's in this range of the degree of protection against less-
than-all-out attacks, we should move toward missile defense, 
and the degree to which this might primarily serve to trigger 
another offensive buildup by a major opponent. That is the 
range within which the debate will be taking place. But, I 
don't think the treaty is relevant to that debate.
    Senator Casey. I wanted to ask you a question that's not 
central to the ratification issue, but is a point that you've 
raised. And that's the connection between the very real concern 
that we have about nuclear terrorism and this particular 
treaty.
    I was very fortunate to see the film, ``The Nuclear Tipping 
Point,'' where you were--you and others were raising real 
concerns about where we are in the world, in terms of the 
threat posed by nuclear terrorism. And I was struck by one of 
your statements, where you said, ``With the classical notion of 
deterrence, there are consequences before which an aggressor 
would recoil. In the world of suicide bombers, that calculation 
does not compute in any comparable way.'' Your statement. And 
then later, you said, ``Once nuclear weapons are used, we will 
be driven to take global measures to prevent it from happening 
again.'' So, some of us have said, ``Let's ask ourselves, `If 
we have to do it afterward, why don't we do it now?' ''
    If you could elaborate on those statements, and especially 
in the connection between the very real threat of nuclear 
terrorism and this process of ratification.
    Dr. Kissinger. Let me describe the problem of deterrence as 
I have experienced it in my own life.
    I started writing about this when I was a young professor 
at Harvard, almost by accident, because I commented on a 
personal letter that a friend had received regarding the then 
new doctrine of massive retaliation. I have always been in 
favor of a strong national defense. But, I must also tell you 
that the most searing issue I faced, in my own mind, when I was 
Security Advisor or Secretary of State, is what I would do if 
the President asked me that--he had exhausted all his 
diplomatic options and the time had come to move to the--to 
nuclear war. Because the consequences of nuclear war go beyond 
anything that any leader has ever had to face previously.
    And so we've, for all this period, been caught in the 
dilemma that we need a strong defense and we need to find some 
way to limit its consequences. And that's what these 
discussions are about.
    How one strikes this balance has to be rediscovered every 
decade or so. And I don't know--I may have forgotten what the 
precise point of your question was.
    Senator Casey. Oh, about the nuclear terrorism itself, and 
how that affects our debates about the----
    Dr. Kissinger. Well, it's----
    Senator Casey [continuing]. START Treaty----
    Dr. Kissinger [continuing]. The point I made, ``What 
happens if nuclear weapons are used?'' If we woke up one 
morning and found that 500,000 people had been killed somewhere 
in which, I think, there would be perhaps overwhelming 
pressures for two things: One, to avoid it happening in this 
country, if it hasn't happened in this country; and second, to 
prevent it from ever happening again. I don't think one will be 
able to live with the consciousness that this could happen as a 
regular feature of international diplomacy. So, I raise this 
question: ``Why don't we ask ourselves the question now of what 
we would do then, before it has happened?''
    Senator Casey. Thank you.
    The Chairman. Thank you.
    Secretary Kissinger, it's a sobering thought. An important 
one.
    Senator Corker. Mr. Chairman.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Secretary, thank you for your testimony 
and your service. I've certainly respected your career.
    I found your opening comments semirevealing. I mean, in 
essence, you haven't spent a lot of time on the treaty itself, 
and haven't seen the protocols, and do not anticipate, though, 
that anything is going to be in the written document that is 
problematic, but believe that we should ratify it. And the 
reason I find that revealing is, it seems to me that what 
you're saying is, the treaty itself is not particularly 
important, that what is important is the dialogue that we have 
with Russia, and that we need to continue that dialogue, and, 
regardless of what the document says, that that dialogue is 
more important than the document.
    Dr. Kissinger. Senator, I have not addressed the protocols 
because they are not yet available. But, in order to prepare 
myself for the testimony, I have consulted the following 
officials: Admiral Mullen, Secretary Gates--regarding 
modernization--interdepartmental briefing team including 
General Cartwright and headed by Under Secretary Ellen Tauscher 
and another briefing team from the National Security Council 
headed by Gary Samore. As for the treaty itself, I called it a 
``modest step and--of somewhat reduced numbers.'' Then I listed 
a number of things which I would have--about which I have some 
questions, some of which I have mentioned here. But, then that 
raises the issue, is that a reason not to ratify it? Well, some 
of them can be fixed by dialogue between the committee and the 
administration. But, the fact that I might have avoided this 
distinction between nondeployable--nondeployed deployable 
weapons, and that I might have put this 100 into this limit, 
rather than make one limit of 700 and another limit of 100 
which might have been more designed to permit a claim of 
substantial reductions than of the architecture of the treaty, 
all that, in my view, is no reason not to ratify the treaty. 
But it should be clearly understood that the missile defense 
issue and the modernization issue are not affected by the 
treaty, that the treaty supplies a modest progress toward 
reduction and perhaps a possibility to build Russia into the 
nonproliferation process.
    Senator Corker. So, it seems to me that, though, in many 
ways, you look at this, just--if I look at the--everything that 
you've said, that this is sort of form over substance, that us 
continuing to negotiate with Russia helps us, as it relates to 
other nonproliferation efforts. And even thought the treaty is 
modest and we don't really know, necessarily, everything that 
the outcome is going to be, but we should continue to support 
these negotiations.
    Let me ask you this question. It seems to me that we put a 
lot of weight on the negotiations with Russia as it relates to 
nonproliferation. I wondered, in your previous life, if the 
conditionality of our relationship with countries is of greater 
problem, as it relates to nonproliferation. In other words, our 
friends, we know, have nuclear weapons, and we wink and nod at 
that, or create unusual relationships, as we have with India. 
Has that--is that more of a problem, as it relates to dealing 
with nonproliferation with other countries, than the positive, 
if you--which is the greater issue, us dealing with Russia, or 
that other issue?
    Dr. Kissinger. Well, the history of our relationship with 
Russia has been that of a strategically adversarial 
relationship. And throughout the cold war, all policymakers had 
to consider the possibility that a conflict with Russia might 
occur, or at least would affect the calculations of key 
countries. So, there is that history.
    On the other hand, there is--this adversarial relationship 
need not be frozen and, therefore, one could hope, or expect, 
that Russia would build itself into an international system.
    I'm disappointed at the conduct of Russia with respect to 
the Iranian issue. And I'm disappointed that they have 
specifically excluded the air defense system that they have 
agreed to sell to Iran from the sanctions that they have 
joined.
    So, improvement is still very important in our relationship 
with Russia. I'm saying that this treaty should contribute to 
inducing Russia to conduct itself in a more restrained fashion 
internationally. It can contribute to such a dialogue but, in 
the end, Russia will have to be judged, like other nations, on 
the degree to which it builds itself into a peaceful 
international system.
    Now, of course, countries with a different history, like 
France--we treat their nuclear establishments in a different 
way. But, I would argue that the further spread of nuclear 
weapons, regardless of the domestic structure of the regime, 
will create instabilities which will make the danger of nuclear 
war greater and, in time, intolerable. In the cold-war period, 
there was only one deterrent balance one had to worry about. In 
a multipolar nuclear world--in a world with multiple deterrent 
forces, countries have to calculate so many deterrent balances 
simultaneously, and they may not have the technical means of 
controlling their weapons, and they may have value systems that 
are less stringent with respect to the loss of life than ours--
that some accident or miscalculation becomes more probable. 
Therefore, we must oppose the spread of nuclear weapons, 
regardless of the domestic structure of the countries that are 
acquiring them.
    Senator Corker. But, we really--but, we don't. And we 
continue to sort of go down a path of everybody knowing things, 
but not acknowledging things. And I just wonder how that 
affects our nonproliferation efforts.
    And I know my time is up.
    I've noticed, in the past, that you have--or, in recent 
times, you've said that you have a vision of a--you believe 
that we should have a nuclear-free world. And as I look at the 
tremendous weight that you placed on that answer to your friend 
and--about the--you know, if you were faced with--or, I guess, 
later in life, faced with going to the nuclear board, and what 
your answer would be. I mean, I'd love to hear, at some point--
and I realize, today, my time is up and we'll move on to 
another topic--but, it seems to me that there's a--having 
nuclear weapons, on one hand, keeps countries from engaging 
with each other militarily, and, on the other hand, as you 
mentioned, people, domestically--not having the ability to keep 
them from being used inappropriately, creates other issues. And 
it seems to me there's a tension there that's interesting, that 
I know we won't get to today.
    But, I find your remarks interesting, and would love to 
talk with you more, offline.
    Dr. Kissinger. Let me make a comment on that point, 
Senator. The--if you read the statements that the so-called 
``Gang of 4'' have made, they've usually described the nuclear-
free world as a vision that might happen at the end of a 
process. But, while this process is going on, we are still 
living in a nuclear world in which the issues of deterrence and 
security will have to be respected and taken seriously.
    And we have also said--and it has been particularly well 
expressed by Senator Nunn--that vision is like climbing a 
mountain which is covered in clouds, and you don't really know 
what the summit looks like and what obstacles you'll find, but 
that doesn't mean you can't establish a way station along the 
way, in the territories that you can see, and discover what you 
might see later on.
    So, the vision, it's what might be the end process, but the 
policy choices are the choices that are before your committee. 
And let the various administrations that have dealt with them, 
and this administration that is dealing with them, has to 
consider in a concrete, and not in a visionary, way.
    The Chairman. Thank you, Dr. Kissinger.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Secretary Kissinger, we thank you very much for your 
extraordinary service to our country. And it's a real pleasure 
to have you before our committee.
    I want to get the benefit of your thoughts as to this 
treaty and its way that it's being judged as toward the 
relationship of Russia and the United States. I'd be interested 
in your assessment as to why Russia believes that ratification 
of this treaty, from its point of view, benefits its country.
    Some could argue that Russia is interested in getting a 
strategic advantage over the United States on nuclear weapons, 
and whether this treaty has that impact, or whether Russia 
wants to improve its relationship with the United States or 
improve its international leadership on these types of issues. 
And I would welcome your thoughts as to why you believe Russia 
was interested in extending the START Treaty, and the specifics 
as to what it sees as its advantage.
    Dr. Kissinger. Of course, one should not look at this 
treaty in isolation. This treaty is an evolution of treaties, 
that have been made by a series of American and Russian 
administrations, which suggests that an unconstrained nuclear 
arms race has appeared too dangerous to leaders of both 
American political parties and almost every incarnation of 
Russian leaders over the last 30 years.
    Russia now, in it since the collapse of the Soviet Union, 
has faced a problem of identity. Through much of Russian 
history, the Russian state has been identified with its foreign 
expansion and with what the outside world certainly considers a 
kind of imperial expansion. This collapsed in the 1990s. And, 
since then, Russia has attempted to redefine a new role.
    Undoubtedly, there are some elements of imperial nostalgia. 
Equally, there are elements of recognition that, with frontiers 
of thousands of miles of demographic imbalance with China, of 
ideological challenge from Islam, and new frontiers in Europe, 
that the era of the Russian global expansion is coming to an 
end.
    So, how can Russia define itself in these circumstances? 
For them, being taken seriously by the United States is an 
important element. At the same time, there is probably also--
temptation of creating a situation that enables Russia to 
assert its power around its periphery. And this undoubtedly 
contributes to their reluctance--and, in fact, so far, 
refusal--to discuss tactical nuclear weapons, at all.
    So, one should not look at this treaty as a means by which 
Russia seeks to achieve a great advantage over the United 
States. The most they can achieve is to mitigate the decline of 
its global role by a measure of parity with the United States.
    It is certainly true that they have limited themselves to 
what the economy undoubtedly imposes on them, anyway. But, I 
don't know what we would gain by the slightly higher ceilings 
of less than 100 missiles that have been talked about.
    Senator Cardin. Thank you for that response.
    As we look forward to our relationship with Russia, 
confronting other nuclear threats around the world, you 
commented briefly about Iran and your disappointment about 
certain provisions not being included in the sanction 
legislation. Do you believe that Russia will be a reliable 
partner with the United States in dealing with the threat of 
Iran becoming a nuclear state? Or, for that matter, we could 
expand that to North Korea or problems develop in Pakistan or 
India. Is Russia focused with us, or not?
    Dr. Kissinger. In the mid-term future, a nuclear Iran is a 
greater danger to Russia than it is to the United States, 
because it is contiguous. And the border populations of Russia, 
which are mostly Islamic, are also adjoining Iran. And, based 
on my own conversations with Russian leaders, I'm convinced 
that they are very concerned about Iran.
    On the other hand, they are reluctant to be drawn into a 
conflict in which they might bear the brunt while we begin to 
ease out of it. And, second, their economy creates temptations 
to benefit from sales to Iran, even while they recognize the 
long-term dangers.
    But, if present trends continue, and if Iran continues to 
build its nuclear establishment, I don't see how Russia can 
avoid facing some of the consequences.
    Senator Cardin. Thank you, Secretary Kissinger. Appreciate 
it.
    The Chairman. Thank you, Senator Cardin.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Secretary Kissinger, thank you for your many years of 
service to the United States.
    I noted, in your opening statement, you observed that, ``We 
must recognize that the danger of a strategic nuclear conflict 
with Russia is negligible.''
    And I think that that fact is virtually universally 
recognized or accepted on our side. And the result of that, I 
think, is that there are a lot of people in the same place you 
are, that they haven't really looked at the treaty that 
closely, because they're more interested in the form than they 
are the substance, because, obviously, that form has served us 
very well over the last four decades.
    The question I have for you is this. Obviously, we are 
where we are today, and it's very different than where we were 
40 years ago, as far as our relationship with Russia is 
concerned. Do you anticipate, or do you foresee, any 
circumstances in the future where that might change and we'd go 
back to a much more hostile relationship than what we have 
today? What are your thoughts on that?
    Dr. Kissinger. Well, if Russia were to try to rebuild its 
empire in Central and Eastern Europe, it would undoubtedly be 
opposed by the United States. That would produce the conflicts 
that occurred during the cold war. And I can imagine other 
circumstances of Soviet expansion which we would surely resist. 
But, in the cold war, the adversarial relationship was almost 
congenital, in the sense that Russia attempted to intervene in 
every part of the globe. There was a period, in the 1970s, 
where Cuban troops were sent around to Africa, Russian troops 
marched into Afghanistan, and pressure was exerted on China. I 
don't think Russia has the capability for that kind of foreign 
policy today.
    But, the reason to approve this treaty is not to placate 
Russia. We conducted negotiations with Russia on these weapons 
at the height of the adversarial relationship, because we 
thought that it was essential to have a dialogue with Russia, 
with a country that had this huge capability, if only to avoid 
war by accident. Also, the nature of these weapons was so 
unique that they could not be dealt with in the manner of 
foreign policy before World War I.
    I can imagine that we will have disagreements with Russia 
in the decades ahead, but I do not believe that they will reach 
the intensity of the cold-war period. I consider it possible 
that Russia and we will develop congruent views of what a 
peaceful international order should look like. But, under no 
conditions should a treaty be made as a favor to another 
country, or to make another country feel better. It has to be 
perceived to be in the American national interest.
    Senator Risch. Thank you for those observations, Mr. 
Secretary.
    The other point, in your opening statement, that caught my 
eye was your comments about modernization. Your observation 
that the United States is the only nuclear power that is not 
going through modernization, I think, is an important 
observation. And I appreciate that, and there are a lot of us 
in this body that are very concerned about that, particularly 
in light of the fact that we are going to further reduce our 
numbers. Modernization is absolutely critical.
    So, I appreciate your thoughts on that, and I hope you'll 
continue to keep----
    Dr. Kissinger. Well, I strongly support a robust 
modernization program. And I put several criteria into my 
statement that apply to that.
    Senator Risch. Thank you, Secretary Kissinger.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch.
    Senator Kaufman.
    Senator Kaufman. Mr. Chairman, thank you for having this 
hearing.
    And, Mr. Secretary, thank you for testifying, and for your 
long service.
    Can you talk, a few minutes, about what the implications 
would be of failure to ratify this treaty by the U.S. Senate?
    Dr. Kissinger. Well, it would signal a reversal of an 
American policy that has been carried on for several decades, 
and it would be particularly upsetting, in the light of the 
rhetoric of the incumbent administration, if it were disavowed 
by the Senate in its first major initiative on this subject. It 
would impose on us the necessity of taking some concrete steps 
to indicate that we are now conducting a different policy, to 
define its character, and seek public acceptance for it. The 
likelihood of the rejection would be that both sides would 
carry out the provisions anyway, without a formal treaty, as 
happened with respect to SALT II. But, then there would be no 
verification in Russia, and we would be much less certain about 
the framework of the strategic balance.
    Senator Kaufman. Well, what do you think it would affect, 
in terms of United States-Russian relations?
    Dr. Kissinger. In?
    Senator Kaufman. United States-Russian relations. How do 
you think that would be affected if we----
    Dr. Kissinger. It would certainly lead to some less 
cooperation in the proliferation field. The likelihood is that, 
after some years, things would get back to about the point 
where we are now, and some other agreement would emerge. When 
negotiations have gone on for 50 years, in one way or another, 
and when they have been carried out by every American 
administration, in some manner, and by every Russian 
administration, in some manner, you would not simply move into 
an uncontrolled environment.
    But, I want to make absolutely clear that I am not here 
because of whatever benefit Russia gets out of it. The reason 
for ratifying the treaty is the benefit to America's national 
interest and global peace.
    Senator Kaufman. How about what the impact would be if we 
fail to ratify on nonproliferation efforts, do you think?
    Dr. Kissinger. Ratifying the nonproliferation?
    Senator Kaufman. No, not ratifying this treaty would have 
no efforts to----
    Dr. Kissinger. That would----
    Senator Kaufman [continuing]. Get nonproliferation----
    Dr. Kissinger. Nonproliferation has to be a central 
American objective, for the reasons that I gave. And the 
ability to achieve these objectives depends on the credibility 
of your government. It would be more difficult for us to 
achieve the objective that, again, has been proclaimed on a 
bipartisan basis for many decades if we abandoned a treaty 
negotiated by this administration and that formalizes numbers 
substantially agreed to by the Bush administration before it.
    Senator Kaufman. Can you talk about why it's so difficult 
to get a technical--I mean, a tactical nuclear weapons 
agreement with Russia?
    Dr. Kissinger. Russia--part of the reason is that the 
strategic perspectives of the two sides are different. Russia 
has major countries on its borders whose populations outnumber 
Russia's. It substitutes tactical nuclear weapons for manpower. 
Second, Russia has had a long history of invasion from foreign 
countries. Third, undoubtedly there are vestiges of the 
imperial and Communist tradition in their system. So, 
negotiations with Russia are always difficult.
    As I pointed out in my formal statement, we cannot go 
further toward strategic reductions without including tactical 
nuclear weapons. But this statement applies to follow-on 
agreements. With respect to the current agreement, the argument 
always has to be, does the overall direction that this treaty 
represents justify proceeding, particularly when weighed 
against the consequences of nonratification? And second, will 
we carry out those things, like modernization and in the 
missile defense area, that we can do on our own, and that are 
not constrained by the treaty, and where we should not use the 
treaty as a means of--by inventing arguments that they are 
constrained?
    Senator Kaufman. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    Dr. Kissinger, just a few questions to wrap up here and 
perhaps take advantage of you, if we can, for a moment, on some 
broader issues.
    You recently wrote, regarding the Nuclear Posture Review, 
that you agree with the basic thrust of trying to reduce our 
reliance on nuclear weapons, ``where we can safely do so,'' I 
think is the language it uses. And, of course, that makes 
sense, and that's what we've been trying to do. But, you took 
issue with the statement that the United States would not 
respond to chemical or biological attacks with nuclear weapons, 
and you said that should be left ambiguous.
    I agree with you. I think the constructive ambiguity has 
been, in fact, a fairly effective way to deal with this through 
the years. But, it was the last administration, the previous 
administration, that actually gave up on ambiguity, in 2001, in 
that Nuclear Posture Review, when it dropped the negative 
security assurances that had existed under President Carter, 
President Clinton, and President Bush--George H.W. Bush--and it 
then proposed using nuclear weapons to take out the chemical or 
biological capacities of an enemy.
    The question is, sort of, twofold. I think the current 
Nuclear Posture attempts to restore some of that old ambiguity, 
but the question is, Can you restore the ambiguity after you've 
gotten rid of that? Can you put the genie back in the bottle, 
or not? Or maybe you can, just by the statement. Maybe the mere 
statement of a new administration, in fact, recreates the 
ambiguity.
    I'm wondering if you might comment on that. Can you get it 
back? Is it better to live with it than without it?
    Dr. Kissinger. Well, I thought that the statement in the 
NPR was unnecessary. What it said, if I remember it correctly, 
was that we would not retaliate against non-nuclear-weapon 
states, that use biological or chemical weapons, with nuclear 
weapons. I thought that this could be read to say to non-
nuclear-weapon states, ``You don't need nuclear weapons, 
because you can use biological and chemical weapons.'' So, I 
thought that interpretation was--could be dangerous.
    And, second, I thought it was a mistake that one provide a 
roadmap for our use of nuclear weapons in such extreme 
circumstances.
    Now, can this be retrieved? There will, of course, always 
be an element of uncertainty, having made the original 
statement, even if it is revoked. But, the President can 
undoubtedly find authoritative ways of saying it, and people 
tempted to use chemical and biological weapons will not be 
sitting there parsing it so finely, because the consequences of 
our retaliating would be very severe.
    What I think would be important is that a clear tone be 
established about firm resistance--one, to proliferation, and 
second, to weapons of mass destruction--that do not leave any 
impression that, within the administration, there is a big 
contest going on that has an unresolved outcome. This is within 
the power of the President to accomplish.
    The Chairman. With respect to this treaty that you've 
testified on today, last month you were quoted, in the 
Christian Science Monitor, as saying that, ``It's a useful step 
that deserves ratification.'' Is it fair to say that--I think, 
listening to your testimony today, that that is still your 
bottom line with respect to this treaty?
    Dr. Kissinger. Yes, that's the essence. That's the essence 
of my position. And it is based on the belief that it is in the 
interest of the United States and it's not done to placate some 
other group of powers.
    The Chairman. Mr. Secretary, I do want to take advantage of 
your being here, for a moment--I think we'd be remiss if we 
didn't--in looking at the back part of your testimony, which 
is, I think, important. And you say there, that, ``The 
contribution of the Russian-American relationship to world 
peace must be judged, importantly, in political terms, on the 
global issues, like nuclear proliferation, environment, and 
energy.''
    I wonder if you'd just share with the committee, for a 
moment, based on your long experience of dealing with these 
issues, and your observations now, sort of, Where do you think 
we are in our foreign policy? Is there a missing ingredient? 
What could we do better? Should there be a focus that we're not 
paying enough attention to? And to what degree is the global 
economic situation going to have an impact on the 
implementation of our foreign policy goals?
    Dr. Kissinger. Well, I mean, I'm doing this off the top of 
my----
    The Chairman. You're very good at that, Mr. Secretary. 
[Laughter.]
    Dr. Kissinger. As a general proposition, I would be happier 
if the administration didn't find it necessary, in every 
statement it makes on foreign policy, to attack the previous 
administration. I think this has--this is--whatever the 
differences were, I think it should stand on its own direction 
and try to build as broad a basis of foreign policy as they 
can. It also weakens necessary continuity because it raises the 
question whether successors to this administration will disavow 
it as it so frequently does its predecessor.
    Then, on the general view of foreign policy, I probably 
would look at foreign policy more from a point of view of 
balancing incentives and penalties based on the national 
interest than on the belief that one can build a consensual 
basis of foreign policy largely on the emotional rapport with 
the American leadership. The world contains countries with 
vastly different cultures and vastly different stages of 
development. So, it would be very difficult to believe that 
stability can be brought about entirely by a single formula. 
But, this is my basic approach to foreign policy. But, I have 
also made every effort to be nonpartisan about the 
administration, and I think what we need is the broadest 
possible basis of bipartisan foreign policy.
    On issues like Iran, I believe that the consequences of 
failure of negotiation need to be brought home more 
emphatically than they have been. But, I would also point out, 
I'm not volunteering this, I'm doing this in response to the 
chairman's question. [Laughter.]
    The Chairman. I thank you.
    It's a subject that I'd enjoy--I'm sure we all would--sort 
of, following up with you sometime, perhaps privately. I don't 
want to abuse the privilege that brought you here today.
    We're very grateful to you for coming in to help build the 
record.
    Senator Lugar, do you have any additional comments? 
Questions?
    Senator Lugar. Mr. Chairman, let me just take advantage of 
the opportunity to mention, as you note, Dr. Kissinger, that a 
123 Agreement with Russia has been proposed by the 
administration. It sort of backs up some of the dialogue we've 
had today in this hearing about working with the Russians, 
potentially, to provide fissile materiel to other countries for 
peaceful use in their power industries, and therefore trying to 
retain some control over the use of fissile materiel worldwide. 
Given the fact that Russia and the United States possess so 
much of the world's supply of fissile materiel, we have some 
mutual interest in working constructively together to try to 
control the use of it.
    But, do you have any views on the 123 Agreement that you 
would share with us?
    Dr. Kissinger. Let me first make a general comment about 
Russia. In the decades ahead, I think a cooperative 
relationship with Russia seems to me in the benefit--to the 
benefit of both countries. The historic Russia that existed has 
no scope anymore for its traditional expansionist policy, and 
it has to fit itself into some kind of cooperative 
international system. With the changing situation in Europe and 
in Asia, new possibilities for partnership with Russia exist. 
But it will be a difficult process with many ups and downs.
    On fissile materiel, it seems to me crucial that the 
fissile materiel that has been and is being produced will be 
brought under some kind of international regimen. Otherwise, 
the spread of peaceful uses of nuclear technology is going to 
create incentives to divert into nuclear weaponry. On this, we 
and Russia have a particular opportunity--and indeed, over 
time, necessity. So, I would be sympathetic, without having 
studied that agreement in detail.
    Senator Lugar. Thank you, sir.
    And let me just comment, finally, Mr. Chairman, that I 
think our conversation with the Secretary today has been 
important with regard to many issues, but it particularly 
illustrates that the New START Treaty has brought to the fore 
the possibilities for discussion of half a dozen foreign policy 
issues which relate to Russia, but go beyond the treaty. As 
you've perhaps observed, Dr. Kissinger, it's been a long time 
since this committee or the Senate actually held a process in 
which debate and deliberations took place on a new arms control 
treaty. People have been making reports as to how many Senators 
were around the last time such a thing occurred. And what has 
struck me is that--and I appreciate the point that you've made 
with regard to bipartisanship in foreign policy--these hearings 
and the discussion of the START Treaty have sometimes offered a 
platform for discussion of half a dozen different 
administration foreign policy initiatives, some of which have 
greater accord between the two parties than others.
    What I've feared a bit is that we sometimes fail to get 
back to the deliberations as to whether this treaty should be 
ratified, as opposed to ``this treaty should or should not be 
ratified, if, in fact, five or six other things occur.'' That 
is problematic. So, I appreciate your comments specifically 
about the importance of ratifying this treaty and the basis 
that we have, therefore, for carefully considering, with or 
without Russia, nonproliferation efforts or our own buildup, as 
we see fit. I think it's going to be important, at least for a 
moment, to isolate some of our attention on the treaty, 
notwithstanding all these other arguments that we may be 
having.
    And we thank you for coming, with your broad experience, 
having dealt in a bipartisan way, really, for decades, as you 
had to, both inside and outside administrations because that's 
an important ongoing part of our history.
    Dr. Kissinger. Well, thank you both for the manner in which 
this hearing has been conducted.
    The Chairman. Senator Lugar, thanks for focusing in on the 
task at hand. We appreciate it.
    And, Secretary Kissinger, we're enormously grateful.
    Again, let me just comment that I know the Secretary is 
going to celebrate his 87th birthday this Thursday, so we join 
in wishing you well. Happy birthday. Many happy returns. And 
thank you for coming here today.
    We stand adjourned. Thank you.
    [Whereupon, at 11:12 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. Russell D. Feingold,
                      U.S. Senator From Wisconsin

    Secretary Kissinger, thank you for being here today. There has been 
confusion during the previous hearings on this treaty about the 
relative importance of reducing the Russian and United States strategic 
arsenals, particularly compared with the importance of pursuing missile 
defenses and reducing tactical nuclear weapons. I would like to use 
this hearing to get some clarity on what is really needed for us to 
maintain a credible deterrent, what we can realistically expect from 
missile defenses, and the risks associated with maintaining an arsenal 
larger than what we need for sufficient deterrence.
    You have written that we are in a new era, where the threat of 
proliferation and the danger that terrorists would gain access to 
nuclear materiels requires us to prioritize bilateral efforts to reduce 
the size of our arsenals. Some of my colleagues on this committee who 
oppose this treaty do not seem to have taken this call for action to 
heart.
                                 ______
                                 

        Responses of Dr. Henry Kissinger to Questions Submitted 
                          by Senator Feingold

    Question. Please describe the danger of terrorists accessing 
nuclear weapons and materiels and why this threat requires us to work 
to reduce the size of our arsenals so that they are no larger than is 
needed to maintain a deterrent.

    Answer. Al-Qaeda and other terrorist organizations have made it 
clear that they seek to acquire nuclear weapons. We should have no 
doubt that, should they obtain one, they will be inclined to use it: A 
nuclear weapon in the hands of a terrorist is the ultimate weapon of 
terror. The simple credible threat to use a nuclear weapon would give 
terrorists considerable leverage to blackmail states and advance their 
goals. We do not know how to deter a terrorist use of a nuclear weapon. 
The condition that undergirds deterrence against states--namely, the 
possibility of putting another society at existential risk--does not 
obtain with regard to terrorists.
    As a result, it is imperative to secure nuclear weapons and their 
components, including fissile materiel, against efforts by terrorist 
organizations to acquire them. One key element of such an effort is 
reducing the size of nuclear arsenals to the minimal level consistent 
with strategic deterrence and strategic stability because that reduces 
to the greatest extent possible the number of targets that need to be 
secured against terrorists. Where that level is, is a matter of debate, 
but it lies without doubt well below the current levels of the American 
and Russian arsenals and below the levels stipulated in the new START 
agreement before the Senate.

    Question. Some of my colleagues on this committee have argued that 
we gave up something for nothing with this new treaty, particularly 
with regard to the limitations on nuclear delivery vehicles. My own 
assessment differs significantly from that view. For example, we have 
agreed to go from 880 to 800 launchers under this treaty. This leaves 
us with a clear advantage over the Russians, who--according to the 
Congressional Research Service--are estimated to have 620 launchers and 
limits on their ability to produce a higher number. Meanwhile, 
according to independent reports, we have the capacity to upload far 
more warheads onto our launchers than the Russians.

  <bullet> a. Given this calculus, would you agree with the assessment 
        that this treaty actually preserves our own strategic 
        advantage?

    Answer. The issue is not whether this new treaty preserves our own 
strategic advantage; it is whether this treaty preserves strategic 
stability. In my judgment, the numbers of nuclear warheads and delivery 
vehicles stipulated in the treaty and the verification and monitoring 
regimes provided for by it reduce to an acceptable level the risk that 
Russia could break out of this treaty and undermine strategic stability 
to our disadvantage.

  <bullet> b. Would you also agree that the reduction in launchers we 
        have agreed to in the treaty still leaves us with more than 
        enough to provide a credible deterrent, including a deterrent 
        to Russia's tactical nuclear weapons?

    Answer. The number of launchers agreed to in the treaty is, in my 
judgment, sufficient to provide a credible deterrent against Russia's 
use of strategic or tactical nuclear weapons. But, as I noted in my 
testimony, I do not believe we could go to lower numbers without making 
Russia's tactical nuclear weapons an element in the overall limits. We 
have reached levels, from which further reductions in strategic 
weapons, absent reductions in Russia's tactical arsenal, would raise 
questions about the credibility of our guarantees of extended 
deterrence among our allies in Europe and Asia.

  <bullet> c. On balance, would it be fair to say that the very modest 
        concessions we made in this treaty are far outweighed by the 
        need to retain the ability to do inspections and to maintain 
        strategic stability through having a treaty?

    Answer. As I said in my testimony, in deciding on ratification, the 
concerns have to be measured against the consequences of 
nonratification. This treaty is an evolution of treaties that have been 
negotiated in previous administrations of both parties. Its principal 
provisions are an elaboration or a continuation of existing agreements. 
Therefore, a rejection of this treaty would indicate that a new period 
of American policy had started that might be founded largely on 
unconstrained reliance on our nuclear weapons. That would create an 
element of uncertainty in the calculations of both adversaries and 
allies, it would erode strategic stability, and it would have an 
unsettling impact on the international environment. In my judgment, 
whatever concessions we might have made in negotiating this treaty are 
outweighed by the imperative to maintain and enhance strategic 
stability, as this treaty does.

  <bullet> d. Could we go further in reducing our launchers, consistent 
        with Russian levels, and still have a credible deterrent?

    Answer. As I noted in my testimony, how much further we can go in 
reducing our launchers and still retain a credible deterrent and 
maintain strategic stability is a matter that requires further study. 
Reductions below the ones stipulated in the new treaty would require us 
to take into account Russia's tactical nuclear weapons and, depending 
on the size of the reductions contemplated, might also require us to 
take into account the arsenals of other nuclear weapons states, notably 
China, and the possible proliferation of nuclear weapons to additional 
states. We have reached, or will soon reach, the point where strategic 
stability--and credible deterrence--is not a bilateral equation, as it 
has been since the beginning of the cold war, but a more complicated, 
multilateral one.

    Question. Some of my colleagues on this committee have stated that 
we need to make sure that we do not constrain our ability to deploy 
missile defenses to deal with the emerging threats, for example, Iran. 
I agree. However, there seems to be a misunderstanding about whether 
this treaty has any bearing on our ability to develop this system. In 
your view, is Russia likely to withdraw from the treaty if we develop a 
limited missile defense system clearly designed to address the threat 
posed by a particular rogue nation with a small number of nuclear 
weapons?

    Answer. Russia has reserved the right to withdraw from this treaty 
if it concludes that the United States is developing and deploying a 
missile defense system that threatens its strategic arsenal. Russia 
will seek to use that threat in ways that ensure that any American 
missile defense system remains limited both in scope and capabilities. 
That said, financial constraints have led Russia to reduce its 
strategic arsenal over the past two decades and will probably continue 
to do so during the 10-year term of this treaty. A Russian decision to 
withdraw from the treaty for any reason would risk putting Russia at a 
strategic disadvantage--both in terms of numbers and capabilities and 
of its ability to monitor our nuclear arsenal. As a result, I believe 
the risks of a Russian withdrawal to be quite low.


              STRATEGIC ARMS CONTROL AND NATIONAL SECURITY

                              ----------                              


                        THURSDAY, JUNE 10, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:11 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Shaheen, Kaufman, Lugar, Corker, 
and Barrasso.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    This morning we are very, very privileged to welcome two 
men who have served at the highest levels in the White House 
and over a long period of time. Gen. Brent Scowcroft is one of 
the country's leading strategic thinkers. After a storied, 
three-decade career in the Air Force, he served as National 
Security Adviser to Presidents Ford and George H.W. Bush. And 
Stephen Hadley was National Security Adviser during the last 
administration and has been a dedicated and involved public 
servant during one of the most challenging periods in our 
recent history.
    Both General Scowcroft and Mr. Hadley have long experience 
with strategic arms control. They both worked on the START I 
and START II accords and they have both testified many times 
before this committee on strategic issues during the 1980s and 
1990s. Mr. Hadley also served as Deputy National Security 
Adviser during the negotiation and ratification of the Moscow 
Treaty.
    This is our sixth hearing on the New START Treaty and the 
degree of bipartisan support from the witnesses who have 
testified so far has been significant. Henry Kissinger 
recommended ratification because he said it is in America's 
national interest. James Baker testified that the treaty 
appears to take our country in a direction that can enhance our 
national security while reducing the number of nuclear warheads 
on the planet. William Perry said the treaty advances American 
security objectives, and James Schlesinger called ratification 
``obligatory.''
    The reasons for supporting this treaty are, in my judgment, 
powerful. Together the United States and Russia have more than
90 percent of the world's nuclear weapons. By making the size
and structure of their nuclear arsenals transparent and 
predictable, the New START Treaty will stabilize the strategic 
relationship between Washington and Moscow. And by 
strengthening the relationship, the treaty can open the door to 
cooperation on other issues of mutual concern.
    The most important of those issues is stopping the spread 
of nuclear weapons to rogue states and terrorists. James Baker, 
who spent many years negotiating with the Soviets and the 
Russians, told this committee last month that the New START 
Treaty can improve the United States-Russian relationship and 
help stem nuclear proliferation in countries like Iran and 
North Korea.
    Already New START has yielded benefits. Yesterday Russia 
reversed its prior position and voted to impose further U.N. 
sanctions on Iran for its nuclear activities. I am 100 percent 
convinced that it is no stretch at all to say that our 
negotiations on the New START Treaty helped to make yesterday's 
outcome possible.
    New START is already encouraging greater cooperation from 
other states. Last month at the conference reviewing the 
Nuclear Non-Proliferation Treaty, the United States was able to 
isolate Iran and prevent it from diverting attention from its 
own troubling behavior. At the end of the conference, we 
secured unanimous support for a document that strengthened the 
treaty. We were able to do this because by reducing the role 
that nuclear weapons play in our own security policy, we have 
increased our credibility with the more than 180 states that do 
not have nuclear weapons. Today, far more than in recent years, 
those nations are rallying behind the United States in its 
efforts to keep nuclear weapons out of the hands of rogue 
states, entities, or terrorists. This is an obviously positive 
development, but if we reject this treaty, that will be quickly 
reversed. As Henry Kissinger testified 2 weeks ago, rejection 
of the treaty would suggest we were emphasizing a new 
unilateral reliance on nuclear weapons. It would risk injecting 
a new element of uncertainty into the calculations of our 
adversaries and allies.
    This committee has been working to answer all the questions 
that members have about the treaty. Some members have raised 
concerns about the treaty's impact on missile defense, but all 
of the witnesses that have testified before this committee so 
far--witnesses from both sides of the aisle with decades and 
decades of collective national security experience--have 
testified that this treaty does not limit America's ability to 
defend itself from rogue state missile attack.
    In addition, they have testified, as I am confident they 
will next week when the negotiators testify before the 
committee, that there are no side agreements, no back door 
agreements, no unwritten agreements, none whatsoever. This 
treaty is what it is on its face.
    The committee has been assured repeatedly by our top 
defense officials that the treaty does not limit our ability to 
develop and deploy new missile defense systems, and next week 
we are going to have the opportunity to hear directly from the 
head of the Missile Defense Agency.
    So we will take the time needed to review and debate this 
treaty. That is appropriate. And all of our colleagues on this 
committee have the right to ask all the questions that they 
want and need to have confidence in their vote.
    We have an aggressive schedule of hearings planned over the 
next several months, but we also recognize this: Each day 
without a treaty in force, we lose the concrete benefits that 
the treaty provides for American security. Why? Because the 
verification mechanisms depend on the ratification of the 
treaty. The arrangements that we had in place to monitor 
Russia's strategic nuclear forces lapsed in December when the 
original START Treaty expired. And with every day that has 
passed since then, our ability to see what Russian forces are 
doing is diminished. This treaty will restore the information 
exchanges, label each missile and bomber with a unique 
identifying number that allows us to better track it, and 
permit onsite inspections with a very rigorous, tight surprise-
announcement schedule. These are obviously critical measures, 
and the desire to put them in place as soon as possible is one 
reason why we plan to hold a full committee vote on the treaty 
before the August congressional recess.
    When Dr. Kissinger was here, he said that consideration of 
the treaty had not been bipartisan, but nonpartisan. And I take 
that as a compliment to the work of Senator Lugar, our 
colleagues on the committee and the way we ought to approach 
this. It is in that spirit that we have invited our two 
distinguished witnesses today and we look forward to hearing 
their views.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, it is a privilege to join you 
in welcoming our distinguished witnesses, former National 
Security Advisers, Brent Scowcroft and Stephen Hadley. Having 
served for 29 years in the U.S. Air Force and in the White 
House under Presidents Nixon, Ford, and George H.W. Bush, 
General Scowcroft was at the forefront of United States 
strategic policy during many critical periods. Steve Hadley was 
a leader in shaping U.S. arms control policy and managing our 
relationship with Russia while in the White House and as 
Assistant Secretary of Defense.
    In recent weeks, the Foreign Relations Committee has heard, 
as you pointed out, Mr. Chairman, testimony on the New START 
Treaty from former Secretaries of State, Henry Kissinger and 
James Baker, and former Secretaries of Defense, James 
Schlesinger and William Perry, as well as from the Obama 
administration's national security team. The committee has also 
met in closed session with the New START Treaty's negotiators 
and will continue to hold hearings throughout this month.
    Following commitments made at the 2001 Crawford summit, 
Presidents Bush and Putin signed the Moscow Treaty in 2002. 
This strategic arms control treaty built upon the reductions 
codified in START I by committing both parties to reduce 
operationally deployed strategic nuclear warheads to between 
1,700 and 2,200 by December 31, 2012.
    At the first strategic arms control treaty negotiated after 
the collapse of the Soviet Union, the Moscow Treaty advanced an 
agenda with Russia based on mutual interests and ensured that 
the United States and Russian arms control cooperation did not 
stagnate.
    The Moscow Treaty relied entirely upon the verification and 
transparency measures established by START I, which expired on 
December 5, 2009. In President Bush's letter of transmittal to 
the Senate accompanying the Moscow Treaty, he noted that START 
I would remain the foundation for confidence, transparency, and 
predictability in further strategic offensive reductions.
    Thus, while reductions of deployed strategic warheads have 
continued apace for both parties since December, our confidence 
regarding Russian nuclear strategic offensive forces has been 
narrowed. Without a binding treaty, there will be no basis for 
onsite verification of the reductions and limitations from 
previous arms control treaties or the broader status of 
Russia's nuclear posture.
    As I have stated before, verification is a key to Senate 
consideration of arms control treaties. The Bush administration 
recognized the perils posed to our national security absent 
verification measures. Near the end of his term, President Bush 
concluded a strategic framework declaration with Russia which 
stated--and I quote--``we will continue development of a 
legally binding post-START arrangement.''
    Most of the basic strategic concerns that have motivated 
Republican and Democratic administrations to pursue nuclear 
arms control with Moscow during the last several decades still 
exist today. We are seeking mutual reductions in nuclear 
warheads and delivery vehicles that contribute to stability and 
reduce the costs of maintaining the weapons. We are pursuing 
transparency of our nuclear arsenals backed up by strong 
verification measures and formal consultation methods. We are 
attempting to maximize the safety of our nuclear arsenals and 
encourage a global cooperation toward nonproliferation goals. 
And we are hoping to solidify United States-Russian cooperation 
on nuclear security matters while sustaining our knowledge of 
Russian nuclear capabilities and intentions.
    The committee is pleased to have both of you as 
distinguished witnesses once again to examine the New START 
Treaty in relation to these objectives, and I look forward to 
our discussion and your testimony.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    General Scowcroft, if you would lead off and then, Mr. 
Hadley, if you would follow. Thank you.

STATEMENT OF LT. GEN. BRENT SCOWCROFT, USAF (RET.), PRESIDENT, 
              THE SCOWCROFT GROUP, WASHINGTON, DC

    Mr. Scowcroft. Thank you very much, Mr. Chairman, Senator 
Lugar, members of the committee. I greatly appreciate the 
opportunity to appear before this committee to discuss 
ratification of the New START Treaty.
    I do not consider myself an expert on arms control, but I 
have been, as the chairman remarked, involved in some degree in 
every strategic nuclear weapons agreement between the United 
States and the Soviet Union and Russia since SALT I in 1972 and 
through START II which did not come into force.
    Based on that, let me say just a word about what I think 
has been our philosophy in strategic arms control from the 
beginning, and that is it has really had three phases. The 
first SALT Treaty was designed to stop the increase in weapons. 
It did almost nothing else but just put a stop to the growth in 
weapons which really had been the impetus for the treaty.
    SALT II was designed to then try to equilibrate, if that is 
a good word, the forces of the two sides so that they could be 
comparable in terms of what to do about them because our force 
structures were very different and how do you equate the two 
structures together. SALT II did not make it through the 
ratification process. That was picked up at Vladivostok with 
President Ford, and there was a general understanding about the 
equivalency measures to use. That effort was brought down by 
the Backfire bomber and nuclear armed cruise missiles. But then 
it was restored in START I which did do that measure.
    Now, part three was after you decide how to compare these 
two sides, then you can make reductions which both sides think 
are comparable, maybe not one for one, but comparable in 
capability. And that is really what we are about to do.
    Now, START II tried that because it was not only to reduce 
the numbers, but also to increase the stability of the forces. 
And one of the measures in START II, which was not agreed upon, 
was to eliminate MIRVed ICBMs as being an incentive for a first 
strike in a crisis.
    So that has generally been the pattern of all these: SALT 
I, SALT II, START I, and START II.
    I do not have extensive comments to make. I largely agree 
with the opening statements of a number of your witnesses such 
as Henry Kissinger and Bill Perry. I believe this treaty will 
achieve the purposes for which it is intended, and I support 
its ratification.
    As I understand it and based on the comments of the 
chairman and Senator Lugar, this treaty was not designed to 
move strategic arms control in a great leap forward. Instead, 
it was designed to preserve or renew the myriad verification 
rules, counting rules, definitions, and other measures to give 
both sides the confidence in the process to move ahead, and 
that I think this treaty has done.
    A number of assertions have been raised about technical 
difficulties of the treaty, such as rail-mobile ICBM. I have 
not read the vast detail or material accompanying the treaty, 
but I have seen nothing which on the surface seems to me 
alarming.
    I do recommend, however, that the committee satisfy itself 
on ambiguities and loopholes that might exist through a 
discussion with the administration negotiators. There will also 
be an NIE on verification shortly forthcoming from the 
intelligence community, as well as the required State 
Department verification documents, and I recommend they be 
studied carefully by the committee.
    This treaty makes no provision, of course, for the 
maintenance of our deterrent capability. I believe it is 
essential that our strategic nuclear capability be safe, 
reliable, and capable, including assuring a continued 
outstanding capability of the entire nuclear complex. I urge 
the early appropriation of the administration requests in this 
regard.
    Several of the criticisms of the treaty deal with what it 
does not do, and as I said, this treaty was not designed to 
move the process forward but to preserve the confidence-
building measures that the two sides over a half a century have 
built to assure themselves that they could have confidence as 
they move ahead that they were not going to be cheated in some 
way.
    However, one of the additional measures for which this 
treaty has been criticized would certainly, I think, be a 
candidate for follow-on negotiations and that is dealing with 
short-range nuclear weapons. They have not been included in the 
strategic nuclear arms negotiations in the past, in part 
because the strategic issues were pressing in and of themselves 
and were complicated enough by themselves that the addition of 
tactical weapons were likely to overburden the process. But 
those shorter range systems now have relatively greater impact, 
and the numbers are so imbalanced that the next negotiations 
must almost certainly take them into consideration.
    In summary, Mr. Chairman, I support ratification of the 
treaty, examination by the committee of administration 
negotiators of all the alleged loopholes and ambiguities, 
review of administration verifiability documents when they are 
submitted, and funding of all necessary measures to keep our 
nuclear weapons safe, reliable, and capable and our nuclear 
complex modern and effective.
    Thank you very much.
    The Chairman. Thank you very much, General.
    Mr. Hadley.

    STATEMENT OF HON. STEPHEN J. HADLEY, SENIOR ADVISER FOR 
   INTERNATIONAL AFFAIRS, UNITED STATES INSTITUTE OF PEACE, 
                         WASHINGTON, DC

    Mr. Hadley. Mr. Chairman, Senator Lugar, members of the 
committee, thank you for the opportunity to appear before the 
committee to discuss the New START Treaty.
    I have a five-page statement. If I might, I would like to 
submit that for the record and just summarize some of the key 
points here if I may.
    The Chairman. Without objection, the full statement will be 
put in the record, and we look forward to your summary.
    Mr. Hadley. The statement tries to talk a little bit about 
the historical context and make the point that the New START 
Treaty is the latest step in a two-decade United States-Russian 
effort since the end of the cold war to reduce the nuclear 
arsenals of the two nations. And General Scowcroft has outlined 
that clearly. The one I was most recently associated with was 
the 2002 Moscow Treaty which required a further reduction of 
almost 40 percent, down to between 1,700 and 2,200 deployed 
weapons. The expectation at the time was that the United States 
would deploy about 2,200 strategic nuclear weapons, while the 
Russians would probably deploy about 1,700.
    The point I would make is that the result of these treaties 
and this two-decades-long effort is a cumulative reduction in 
the number of strategic nuclear weapons deployed by each 
country by over 80 percent from the end of the cold war. That 
is a remarkable achievement for which I think our two nations 
do not get enough credit.
    The New START Treaty stands on the shoulders of these past 
efforts. Its principal contribution is really not in making 
further reductions. While it reduces the limit on deployed 
strategic nuclear weapons to 1,550, this is a modest, but only 
modest, reduction, about 10 percent, from the 1,700 that Russia 
was expected to deploy under the Moscow Treaty.
    Now, a number of people have said that because of the 
counting rules, the number of strategic nuclear weapons 
deployed under the New START Treaty could theoretically be 
higher than the number deployed under the Moscow Treaty. I do 
not think the committee should be too much concerned by this 
fact. In fact, the bomber counting rules of the New START 
Treaty do not, to me, appear to convey any intrinsic advantage 
to either country, and I suspect that the actual levels of 
strategic nuclear weapons deployed by the two sides will have 
as much, if not more, to do with budget levels and 
modernization programs as it will with the counting rules.
    I think the best case for the New START Treaty is that it 
replaces the set of counting rules, definitions, and 
verification measures that were provided by the START I Treaty 
until it expired in December 2009. Both Democrats and 
Republicans have accepted the need for such provisions in order 
to build confidence and allay suspicion.
    As it reviews the New START Treaty, I would hope the 
committee would give priority to four issues. General Scowcroft 
talked about a couple of them.
    First, of course, is whether the definitions, counting 
rules, and verification measures are adequate to ensure not 
only compliance with the terms of the treaty, but also to rule 
out strategic surprise, what might undermine the stability of 
the relationship. And the answer to this question, of course, 
is going to have to await the monitoring and verification 
reviews now being conducted by the intelligence community and 
the State Department.
    Second, does the treaty permit the United States to 
maintain the forces it needs to safeguard its security? The 
Moscow Treaty limited only deployed strategic nuclear weapons. 
The New START Treaty also limits the ballistic missiles and 
bombers that deliver those weapons. Will the ceilings on 
delivery vehicles allow the United States to deploy a robust 
triad of strategic nuclear forces adequate to meet our security 
needs? The committee is going to hear witnesses on this. My own 
guess is that the answer will probably be, yes, that it is 
adequate.
    The New START Treaty requires that conventional warheads 
placed on ICBMs or SLBMs be counted as strategic nuclear 
warheads under the New START weapons ceiling, and that will 
effectively force a tradeoff between nuclear and nonnuclear 
warheads. The question for the committee will be, despite these 
limitations, Will the United States be able to deploy the long-
range conventional strike capability it needs? And you will, of 
course, hear from administration witnesses on that.
    Are there any gaps and loopholes in the treaty that put the 
United States at a strategic disadvantage? General Scowcroft 
and critics have talked about the rail-mobile ICBM issue. I 
think my own view is that this and other similar ambiguities 
need to be addressed if necessary by conditions or reservations 
to the treaty, and they can be addressed in that way.
    Third, to enhance deterrence, the New START Treaty needs to 
be accompanied by a joint commitment by the Congress and the 
administration to a specific 10-year program that will 
recapitalize our nuclear infrastructure, modernize our 
strategic nuclear delivery systems, and ensure safe, secure, 
and reliable nuclear weapons to include building replacement 
weapons if that is the best way to achieve the latter 
objective. I believe these concerns can be addressed by 
legislation developed and enacted by the Congress in parallel 
with the treaty ratification process.
    Finally, as part of the ratification process, the Congress 
and the administration must make absolutely clear that the 
treaty will not be permitted to prohibit or limit in any way 
what the United States might want to do on missile defense. 
Cold war thinking took as an article of faith that the United 
States and Russia could not both build ballistic missile 
defenses and reduce their strategic nuclear forces at the same 
time. Yet, just 5 months after the United States announced its 
withdrawal from the ABM Treaty in December 2001, Russia and the 
United States concluded the Moscow Treaty. The message of these 
two initiatives was the same. Since Russia and the United 
States no longer presented an existential threat to each other, 
they now had a common interest in cooperating to make their 
nuclear deployments smaller, safer, and more secure and to work 
together on developing ballistic missile defenses against 
common threats.
    Regrettably, the language of the New START Treaty and 
accompanying administration and Russian statements reflect 
somewhat of a regression from this position by suggesting that 
some level of United States missile defenses, perhaps anything 
beyond the current levels even, could justify withdrawal from 
the treaty. The Senate in its ratification process needs to 
make clear that it will accept no limits whatsoever on U.S. 
ballistic missile defenses. Ballistic missile defense should 
instead become an area of strategic cooperation between Russia 
and the United States to counter ballistic missiles that 
threaten both countries.
    In summary, by leading the way in addressing these and 
other concerns--and I believe these concerns should be 
addressed and can be addressed in the ratification process, the 
committee can ensure that the New START Treaty makes its modest 
but nonetheless useful contribution to the national security of 
the United States and to international stability.
    Thank you very much.
    [The prepared statement of Mr. Hadley follows:]

      Prepared Statement of Stephen J. Hadley, Senior Adviser for 
     International Affairs, U.S. Institute of Peace, Washington, DC

    Mr. Chairman, Senator Lugar, and members of the committee, thank 
you for the opportunity to appear before this committee to discuss the 
New START Treaty.
    I would like to begin with a little historical context.
    The New START Treaty is the latest step in a two-decade United 
States/Russian effort since the end of the cold war to reduce the 
nuclear arsenals of the two nations.
    The 1992 START I Treaty permitted each country to deploy 6,000 
accountable strategic nuclear weapons. Because of START I counting 
rules for bomber weapons, this meant that each side could have about 
8,000 deployed strategic nuclear weapons--about a 30-percent reduction 
from the roughly 10,000 to 12,000 such weapons deployed by each side 
when the Berlin Wall fell in 1989. As importantly, the START I Treaty 
established a comprehensive set of definitions, counting rules, and 
verification measures to increase the transparency and reduce the 
uncertainty associated with the nuclear activities of the two nations.
    The 1993 START II Treaty effectively limited each country to 
between 3,000 and 3,500 deployed strategic nuclear weapons. This 
required a cut of roughly 60 percent from actual START I levels. 
Although the START II Treaty never entered into force, both countries 
nonetheless reduced their forces so that by 2001 each country was 
roughly at or approaching START II levels.
    The 2002 Moscow Treaty required a further reduction of almost 40 
percent down to between 1,700 and 2,200 deployed weapons. The treaty 
specified a range to reflect differences in the strategic nuclear 
forces of the two nations. The expectation at the time was that the 
United States would deploy about 2,200 strategic nuclear weapons while 
Russia would deploy about 1,700.
    The result of these three treaties was a cumulative reduction in 
the number of strategic nuclear weapons deployed by each country of 
over 80 percent from the end of the cold war. That is a remarkable 
record, and the two nations have not received the credit they deserve 
in the context of meeting their obligations as nuclear weapon states 
under the Non-Proliferation Treaty.
    The New START Treaty stands on the shoulders of these past efforts. 
Its principal contribution is not in making further reductions. While 
it reduces the limit on deployed strategic nuclear weapons to 1,550, 
this is only a modest reduction--about 10 percent--from the 1,700 that 
Russia was expected to deploy under the Moscow Treaty. Because the 
counting rules under the New START Treaty attribute only 1 weapon per 
heavy bomber, the number of strategic nuclear weapons deployed under 
the New START Treaty could theoretically be higher than the number 
deployed under the Moscow Treaty which counted the number of weapons 
operationally deployed on each bomber (up to 16 or 20 per bomber for 
the United States and up to 6 or 16 for Russia). This fact does not in 
itself appear to convey an intrinsic advantage to either country. 
Moreover, actual deployment levels may be more driven by budget levels 
and modernization efforts than by counting rules.
    The best case for the New START Treaty is that it replaces the set 
of counting rules, definitions, and verification measures that were 
provided by the START I Treaty until it expired at the end of 2009. 
Both Democrats and Republicans accepted the need for such provisions in 
order to build mutual confidence and allay suspicion. For this reason, 
in 2008 the Bush administration tabled a legally binding treaty text 
that retained appropriate verification and other measures from START I 
but simplified to reflect post-cold-war realities and to reduce burden 
and cost.
    As it reviews the New START Treaty, the committee should give 
priority to four key issues.
    First, are the definitions, counting rules, and verification 
measures adequate to ensure compliance with the terms of the treaty and 
to rule out strategic surprise? An answer to this question must await 
the monitoring and verifications reviews now being conducted by the 
Intelligence Community and the State Department.
    Second, does the treaty permit the United States to maintain the 
forces it needs to safeguard its security?

--The Moscow Treaty limited only deployed strategic nuclear weapons. 
    The New START Treaty also limits the ballistic missiles and bombers 
    that deliver those weapons. Will the ceilings on delivery vehicles 
    allow the United States to deploy a robust triad of strategic 
    nuclear forces adequate to meet our security needs?
--The New START Treaty does not prohibit long-range conventional 
    strike, but it does limit such systems. Conventional warheads 
    placed on ICBMs or SLBMs will be counted as strategic nuclear 
    warheads under the New START weapons ceiling, thus forcing a 
    tradeoff between nuclear and nonnuclear warheads. Despite these 
    limitations, will the United States be able to deploy the long-
    range conventional strike capability it needs?
--Are there any gaps or loopholes in the treaty that put the United 
    States at a significant disadvantage? The one most mentioned by 
    critics involves rail-mobile ICBMs. While such systems are not 
    prohibited under the treaty, and neither country currently deploys 
    them, the Russians have done so in the past. Should the Russians do 
    so again, critics allege that such systems would not be captured by 
    the language of the treaty. This and other similar ambiguities need 
    to be addressed, if necessary by a condition or reservation to the 
    treaty.

    Third, to enhance deterrence, the New START Treaty needs to be 
accompanied by a joint commitment by the Congress and the 
administration to a specific 10-year program that will recapitalize our 
nuclear infrastructure, modernize our strategic nuclear delivery 
systems, and ensure safe, secure, and reliable nuclear weapons--to 
include building replacement weapons if that is the best way to achieve 
this latter objective. At a time when other nuclear weapon states are 
modernizing their nuclear forces--and Iran and North Korea are actively 
pursuing nuclear weapons--a failure by the United States to 
recapitalize and modernize is not leading by example to a nonnuclear 
world but gambling with our national security. I believe these concerns 
can be addressed by legislation developed and enacted by the Congress 
in parallel with the treaty ratification process.
    Finally, as part of the ratification process, the Congress and the 
administration must make absolutely clear that the treaty will not be 
permitted to prohibit or limit in any way what the United States might 
want to do on missile defense. Cold-war thinking took as an article of 
faith that the United States and Russia could not both build ballistic 
missile defenses and reduce their strategic nuclear forces at the same 
time. Yet just 5 months after the United States announced its 
withdrawal from the ABM Treaty in December 2001, Russia and the United 
States concluded the Moscow Treaty. The message of these two 
initiatives was the same: Since Russia and the United States no longer 
presented an existential threat to each other, they now had a common 
interest in cooperating to make their nuclear deployments smaller, 
safer, and more secure--and to work together on developing ballistic 
missile defenses against common threats.
    Regrettably, the language of the New START Treaty and accompanying 
administration and Russia statements reflects a clear regression from 
this position by suggesting that some level of United States missile 
defenses--perhaps anything beyond even current levels--could justify 
Russian withdrawal from the treaty. Even more troubling, the Bilateral 
Consultative Commission seems to have been given authority to adopt 
without Senate review measures to improve the viability and 
effectiveness of the treaty which could include restrictions on missile 
defenses. The Senate in its ratification process needs explicitly to 
proscribe the Commission from doing so. More fundamentally, however, 
the Senate needs to make clear that it will not accept a return to the 
false offense/defense linkage of the cold war--and that it will accept 
no limits whatsoever on U.S. ballistic missile defenses. Ballistic 
missile defense should instead become an area of strategic cooperation 
between Russia and the United States to counter ballistic missiles that 
threaten both countries.
    In summary, by leading the way in addressing these and other 
concerns, this committee can ensure that the New START Treaty makes its 
modest but nonetheless useful contribution to the national security of 
the United States and to international stability.
    Thank you very much.

    The Chairman. Thank you very much, Mr. Hadley.
    Let me begin by following up on a number of points you 
made, but first on the question of ambiguity. You point out in 
your prepared testimony that some critics have alleged that if 
Russia were to again build the rail-mobile missiles, which no 
one expects them to do, but somehow if they did, those missiles 
might not count under New START's limits. Now, it is true some 
critics have alleged this, but I am curious as to why those 
claims impress you at all given, No. 1, that article 2, 
paragraph 1(a) of the treaty sets a limit of 700 ``deployed 
ICBMs, deployed SLBMs, and deployed heavy bombers.'' Paragraph 
12 of part 1 of the Protocol defines a deployed ICBM as an ICBM 
that is contained in or on a deployed launcher of ICBMs, and 
paragraph 13 of part 1 of the Protocol defines deployed 
launcher of ICBMs as ``an ICBM launcher that contains an ICBM 
and is not an ICBM test launcher, an ICBM training launcher, or 
an ICBM launcher located in a space launch facility.''
    So it seems to me, analyzing those very specific 
definitions, that a rail-mobile ICBM, if either side decided to 
deploy one, very clearly fits under the 700 limit and a 
nondeployed launcher of a rail-mobile ICBM similarly fits under 
the 800 limit. Am I wrong?
    Mr. Hadley. You are not wrong. I think as I have read the 
critics, it comes to the fact that all the provisions of the 
START I Treaty that dealt with rail-mobiles have been 
eliminated, and what remains are the provisions dealing with 
mobiles that seem tailored to land-mobile systems. They talk 
about the definition of a launcher on a self-propelled vehicle 
which is a very good description of a land-mobile, but not a 
particularly good description of a rail-mobile. I think it is--
--
    The Chairman. Let me interrupt for a minute. Rail-mobile or 
land-mobile or whatever mobile, the limit is 700 deployed 
ICBMs, SLBMs, and heavy bombers. So you have got a limit of 
deployed missiles in one of the three potential categories.
    Mr. Hadley. Right.
    The Chairman. Then there is a definition of what 
``deployed'' means, that it is contained in or deployed on a 
launcher--rail launcher, submarine launcher, whatever. And then 
it says if it contains that ICBM and it is not a test launcher, 
et cetera, you know, if it is meant to be part of that 
strategic effort, which we get to see because we inspect and 
because all of these are numbered and targeted, I do not see 
any ambiguity there, nor do the negotiators incidentally, nor 
do the Russians.
    Mr. Hadley. I think that is all positive, and I think in 
some sense, Mr. Chairman, you have shown the way out of this 
which is to emphasize the breadth of that language that would 
seem to catch any launcher even if it was on a rail platform, 
but then deal with the fact that there are not provisions in 
the treaty about notifications, inspections, and all the other 
procedures about how to handle rail-mobiles by making clear 
that should either side deploy such a system, the sides would 
then need to sit down and develop the applicable regimes for 
including them operationally in the inspections and all those 
other things that are called for in the treaty. I think again, 
I called it an ambiguity, not a flaw, and I think there is a 
way in which--you have suggested a way in which it can be 
addressed in the ratification process.
    The Chairman. I think that we will have the verification 
folks here for a hearing shortly, and we will pursue this with 
them. But under the verification/notification process, there is 
a 4-hour--you notify where you want to go and that can be to a 
rail facility. It can be any facility. So, I think we are going 
to find the answer to that. It is an appropriate question to 
raise, but I think we will find that that is going to be 
satisfied.
    Now, also you asked the question, will the ceilings on 
delivery vehicles allow the United States to deploy a robust 
triad of strategic nuclear forces. Bob Gates was here a few 
weeks ago, together with Admiral Mullen, and both of them--you 
have served with both of them, and I know you have great 
respect for both of them--both of them said that this does 
allow us to deploy a robust triad. That is their testimony. Do 
you have any reason to doubt their testimony?
    Mr. Hadley. No. When I was briefed, what I was told was 
that despite some of the discussion in the press, the number 
that they thought they needed for the triad was in the 650 to 
700 range. I think, as they will tell you, if you go much below 
those numbers, I think they start having concerns and problems. 
But I think when you hear further from them, that is what they 
will tell you. And as I said in my opening statement, I think 
it is probably going to turn out that the committee will judge 
that the numbers are adequate.
    The Chairman. What do you judge?
    Mr. Hadley. Without going through all the analysis that you 
really need your military and Defense Department people to do--
and I am not in that business anymore. But as I look at it, I 
think when they come to you--and I think they will say to you 
it is adequate. I do not have any grounds at this point to say 
it is not.
    The Chairman. And in your statement you also said that New 
START reduces the limit on deployed warheads by only about 10 
percent from the 1,700 that Russia was expected to deploy under 
the Moscow Treaty.
    Mr. Hadley. Right.
    The Chairman. But the Moscow Treaty does not actually 
require any reduction of Russia's warheads below 2,200. Does 
it? There is a range.
    Mr. Hadley. That is correct.
    The Chairman. So if you compare limits to limits--the limit 
is 2,200 on the up side--there actually is a 30-percent 
reduction here in terms of the limit. Correct?
    Mr. Hadley. That is correct. What I said in my statement 
was the reason we did a range in the Moscow Treaty was to 
accommodate the expectation that the Russians could not get 
much above 1,700 and we did not want to get below 2,200, but we 
did not want to make it look like a one-sided treaty. So we 
basically had the range. And all I was saying, Senator, was the 
expectation is that we would be on one end, and the Russians 
would be at the other.
    The Chairman. Fair enough.
    But I agree with your judgment, and I do not think the 
administration is claiming otherwise--and I think General 
Scowcroft has appropriately characterized this as a step 
forward. It is a limited one. It is a modest advance, but it is 
not breaking some enormous new ground with the exception that 
some of the inspection pieces are more rigorous and the 
counting of the warheads is more rigorous, and I think we got 
some advantage out of that.
    Senator Lugar, I have to apologize. I just need to step 
downstairs and meet with Secretary Geithner for a few minutes, 
but I will be back. Thank you.
    Senator Lugar [presiding]. Thank you, Mr. Chairman.
    I just want to pick up a thought that came in your 
testimony, and that is that despite the fact we are talking 
about limits--and I think General Scowcroft talked about the 
very beginning of this process in which both the United States 
and the former Soviet Union had very large numbers of missiles 
and warheads and other strategic weapons. And perhaps there was 
a feeling on either side at that point that for various reasons 
we wanted to produce more. At least reason prevailed at this 
point, and that was the gist of, I guess, the conversations 
that we had enough, and the question then was how do you scale 
down appropriately so there is not a disadvantage for either 
party. The rest of the world looked at all of this with awe 
because these were huge amounts of destructive potential and no 
sign necessarily that we were at least foreswearing ever using 
them.
    Now, year by year and treaty by treaty, some ratified and 
some not, and so forth, we have scaled down now to the Moscow 
Treaty.
    But I just note as a practical matter--and I want your 
comments--that in Russia, at least, there have been real 
stresses with regard to their defense budget. This is obvious 
in the so-called conventional forces, the number of people 
under arms and so forth. We have not witnessed the same type of 
debate. By and large, our defense appropriation debates are 
ones in which we want to make sure that the troops are fully 
supported, that American defense is never in question. Yet, at 
the same time in recent weeks and months, Secretary Gates has 
indicated there probably are limits to what our defense budget 
can be, given the huge deficit that our country is running. It 
is a curious fact that when we have Senate debates on the floor 
and most of us decry the fact that we are running abnormal 
deficits and a $13 trillion national debt, that this does not 
come under consideration.
    But I sort of pose the question to both of you as statesmen 
who have seen a long stretch of this and simply the practice of 
this, that we are in the process, I think advisedly so, of 
making certain that even though this is not covered by the 
START Treaty, it is not prohibited, that we make certain that 
our warheads would work, the delivery vehicles and our 
laboratories that have not been run down, but nevertheless, we 
are losing scientists. We are losing potential--that this is 
refurbished. So this is going to be expensive, and it is an 
expense outside of the treaty but one that we feel that we need 
to have.
    Inside the treaty, it may be that we will want to maintain 
all of the 1,700 or whatever we are entitled to, as well as 
every single delivery vehicle. But is it possible that given 
the way the world works presently, even our own budget, that we 
will find it possible to get along even with smaller limits if, 
in fact, we have relationship with the Russians and, in fact, 
some look-see, some verification that gives confidence? As I 
shared with you before we came into the hearing, I have a 
scoreboard in my office--and I appreciate the Defense 
Department monthly, now for two decades, sending over reports. 
This month we took six warheads off of missiles. We destroyed 
two missiles. We got rid of another submarine and so forth. 
Interestingly enough, those reports have continued since 
December 5.
    Now, this is a surprise to many that something is still 
going on with Americans and Russians working together without 
the verification measures and without the treaty, but it is in 
our practical interest to do so and has been for a long time. 
Many of the reductions have come not because of the treaties, 
because really very practical statesmen in the military and 
civilian components in both governments have said we really do 
not need all of this and we are going to get rid of it, treaty 
or no treaty. The treaty does not prohibit downsizing, but a 
lot of this has occurred. It is a very practical measure.
    Can you give some insight as to what is likely to be the 
evolution of affairs? How many weapons--1,700, 2,200, however 
you count them--are really required for us to have the 
strategic defenses that we believe that we need in this 
respect, plus the options of going into other types of things 
that are not prohibited by the treaty?
    Mr. Hadley. I think that we are at an interesting point in 
this 20-year history, and it is why I think you will hear from 
administration witnesses that they are OK with the current 
level, but if the level goes down, then it raises difficult 
questions. And it does. One is, can you continue economically 
and practically to maintain a triad of land-based, sea-based, 
air-based systems? What are the implications if we were to go 
to a dyad? That is a big idea. It needs some thinking. For 
those countries that depend on our nuclear deterrence, to 
provide extended deterrence to protect them, how will they see 
something very visible in our coming down further and maybe 
going to a dyad?
    A question that you and others have raised: What do you do 
about continuing to go down on so-called strategic nuclear 
weapons when there are all these tactical nuclear weapons out 
there, anywhere from 2,200 to 3,800? And if you are living in 
Eastern or Central Europe, a so-called tactical nuclear weapon, 
if you are within range, looks pretty strategic to you. So what 
are we going to do about those?
    What are we going to do about the fact that there are other 
countries with strategic nuclear deterrents? Some of them are 
bringing them down, but some of them, like China, are 
increasing. And then, of course, there is the problem of the 
nuclear wannabees, Iran and North Korea.
    So I think we are at the point where people will, I think, 
feel comfortable as to where we are, but if you are going to go 
dramatically further down, it is going to raise a lot of 
questions that it is not beyond the mind of man to work them 
through, but they need to be worked through. It is not just a 
ratchet that you can keep bringing down 40 percent every 5 to 
10 years. We are at a point where a lot of difficult questions 
need to be addressed.
    Mr. Scowcroft. I would only add, Senator Lugar, that the 
number required depends significantly on the targeting 
philosophy. How many are needed for these various roles? Now, 
that is something we cannot talk about in this venue, but it is 
a very important issue and it is something I know personally 
that Presidents have wrestled with over and over again. What do 
we need to do in the event we have to use these very difficult 
weapons?
    The other aspect of it is that in an atmosphere of 
reductions, you mentioned the Russians now. Now, they find 
themselves embarrassed with their conventional forces and they 
seemingly are placing increasing reliance on their nuclear 
forces. We, I think, have found in the past that they are not 
substitutable, and in the world we have today, we need 
competent conventional forces for the tasks we have before us, 
and you cannot simply say, no, we will rely on nuclear forces. 
This is something I think we all need to look at very seriously 
as the world changes and what this balance needs to be, and 
there is no absolute.
    Senator Lugar. Well, my time is up. I would just say that 
to the extent that we have an opportunity to talk about the 
tactical weapons with the Russians, this is going to require 
another set of negotiations. The importance of ratifying this 
treaty is so that we might get on with that. I am not saying 
things we are discussing now are unimportant, but we have a 
whole agenda still ahead of us and the need, it seems to me, to 
have partners who are willing to negotiate in our defense and 
theirs.
    Let me now recognize Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Good morning. Thank you both for being here.
    General Scowcroft, I am not sure that I accurately wrote 
down what I thought you said this morning, so let me try and 
paraphrase if I can. I think you said something like this 
treaty is designed to give both sides confidence again in the 
process of arms control. And then you pointed out that it does 
not address tactical weapons and how important that is.
    Can you relate this treaty to the potential for us to 
address tactical weapons? What happens if we do not ratify this 
treaty and what would that do to our ability to address the 
tactical weapons piece that you are suggesting should come 
next?
    Mr. Scowcroft. Senator, I think the principal result of 
nonratification would be to throw the whole nuclear negotiating 
situation into a state of chaos. The reason this treaty is 
important is over the decades we have built up all these 
counting rules, all these verification procedures, and so on so 
that each side feels, yes, we can take these steps. If you wipe 
those out, you are back to zero again. And they have taken 
since the late 1960s to put together. So that is the real part 
of it.
    Tactical weapons are going to have to, in part, stand on 
their own. I might say I heard a Russian recently berating us 
for still having tactical nuclear weapons deployed in Europe. 
Now, the ratio is mind-boggling. So it is a complicated issue, 
but it needs to be addressed because many of the missions now 
that used to be covered by strategic weapons can now be covered 
by these shorter range weapons. So it has to be brought in in 
the future, not right now, but as we move forward.
    Senator Shaheen. Thank you.
    I see you are nodding, Mr. Hadley. Do you agree with that?
    Mr. Hadley. I do but I think it is going to be a challenge 
to deal with tactical nuclear weapons in a negotiation 
precisely because it is kind of a 10 to 1 advantage for the 
Russians. And the risk is that they will want compensation for 
an asymmetric reduction and want to take it by limiting 
defenses or limiting our conventional strike.
    And I hope the administration would consider looking at 
what President George H.W. Bush did--and Brent was at the 
center of that in 1991--about proposing that the two sides 
reciprocally, without formal negotiation, just bring their 
levels down. And we did that and that is what got the tactical 
nuclear weapons out of our ground forces and off our deployed 
naval surface forces.
    And we did that because in the wake of the breakup of the 
cold war, both the Russians and we were worried about Russian 
tactical nuclear weapons in countries that were now no longer 
part of the former Soviet Union, and the two countries had an 
interest that it was in their interest, and the interest of 
stability, and because verification of tactical nuclear 
warheads is a very difficult proposition, that it was in their 
mutual interest of stabilizing the situation just to bring them 
down. And we did. And it may be that that is a model that at 
least I hope the administration would look at to do it in a 
little different way to take into account the real asymmetries 
there are in the deployments of the two sides.
    Senator Shaheen. But you are not suggesting that we can get 
to that without ratifying this New START Treaty, are you?
    Mr. Hadley. No. As I say, I think the case for this New 
START Treaty is in the counting rules, definitions, 
verification measures, and as I tried to indicate in my 
testimony, I think the questions that have been raised can be 
addressed by the committee in the ratification process and 
should be.
    Senator Shaheen. You both talked about the importance of 
that verification and the fact that we lost the ability to do 
the inspections and the verification when the old START expired 
in December. Can you talk a little bit more about the value of 
this New START's verification regime and why it is so important 
for us to be able to do the inspections and see what is going 
on with the Russians?
    Mr. Scowcroft. This treaty changes a number of the 
verification measures. It makes some of them tougher, makes 
some of them--removes some of them. And I think that is based 
on the character of our own national means of verification and 
the character of weapons themselves. But if we agree on numbers 
and types and so on and there is no way to check on the other 
as to whether or not those agreements are being carried out, we 
do not have a level of confidence with the Russians now that 
would allow either side to go forward. So that is what is 
needed.
    You know, besides just these rules, it restores the sense 
that the United States and Russia have a community of interest 
here as the possessors of 95 percent of all the world's nuclear 
weapons to deal responsibly with them, and I think that is part 
of what this treaty is about.
    Senator Shaheen. Mr. Hadley, do you want to add anything 
relative to verification----
    Mr. Hadley. I do not think there is any disagreement on 
that. We in the Bush administration in 2008, I think as Senator 
Lugar mentioned, tabled a legally binding treaty of counting 
rules, definitions, and verification measures that took the 
START I provisions, adapted them to reflect that we were in a 
post-cold-war world and, quite frankly, to ease some of the 
cost and operational burden where we thought we could and still 
do two things, which is, one, make sure that the parties are 
each in compliance with the treaty, and then generally to 
contribute to stability by making sure there is not going to be 
some kind of strategic surprise in the process.
    Senator Shaheen. So just to finalize that point, so 
ratification of this treaty is going to be important if we are 
going to get back to that kind of a verification and inspection 
regime.
    Thank you.
    The Chairman [presiding]. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. I appreciate it. 
No problem.
    I want to thank you both for your service and for being 
here today and being coherent in your presentations. Thank you 
very much.
    If I understand and paraphrase I guess what has been said 
today, as it relates to arms reduction, I mean, this really is 
not much of a treaty. It is more about continuing the process 
and understanding how we verify and do those types of things. 
This really is not much of a step toward reductions. It is more 
just keeping the process going and may lead to other things. Is 
that, generally speaking, what both of you have said?
    Mr. Scowcroft. Yes, I think that is very much the case, 
Senator. What it does is clear the way for whatever the two 
sides want to do now in proceeding with this overall plan to 
now reduce the numbers and reduce them in a way that improves 
the stability of the balance between us. Without this treaty, 
you cannot move forward to that other step.
    Senator Corker. There are some people that--I mean, I think 
it is recognized by all that the limitations on the Russian 
side were limitations that were going to be met by them anyway 
because of just their decreasing abilities within their country 
budgetarily and other reasons, that the only real restrictions 
are coming on our side where we are actually reducing our 
capabilities per the treaty. But it seems to me that both of 
you all are all OK with that. Is that correct?
    Mr. Hadley. Yes. I think you do need to see this treaty in 
context of really a 20-year effort spanning Republican and 
Democratic administrations. Even if budgetary and modernization 
considerations push the forces down, this does provide some 
transparency, some predictability in the relationship. Quite 
frankly it is an indication of one more thing where Russia and 
the United States have found it in their common interest to 
work together cooperatively, and that is an important 
contribution to the overall environment of Russian and United 
States relations.
    So in this context, it is a logical next step, and again, I 
would urge the committee to deal with some of the questions 
that have arisen. I think they can be addressed, and when they 
are, I think the treaty should be ratified and it will make a 
modest but useful contribution in this overall process.
    Senator Corker. And for people like you that obviously care 
deeply about national security, as I think everybody up here 
does too, the fact that the only real reductions that are 
taking place are on our side--and that may be a good thing for 
us. The offsetting effort that I think you are both saying we 
should all vigorously pursue is making sure that the arsenal we 
have left is modernized. The real opportunity for us in this 
country today with this treaty, because we are not really 
getting any reductions from Russia, is to use the event of this 
treaty to modernize what we have in this country and ensure 
that that takes place. Is that correct?
    Mr. Scowcroft. Yes, I think so, Senator. You know, the 
reductions we have to take are pretty minimal. We may, for 
example, convert a few bombers from the nuclear to the 
conventional role, and we will probably have to leave around 
100 silos or submarine missile launchers empty. We do not have 
to retire them, but they will not be deployed. So it is fairly 
minimal. And as Mr. Hadley said, we have been at the high end 
of the balance going down. The Russians have been at the low 
end. So I do not think this is a significant issue.
    Mr. Hadley. Brent is right. We are not--except for maybe a 
couple dozen Minuteman IIIs, I think when the administration 
testifies, you will find we are not carving up delivery 
platforms. We are able to reach those levels by doing the kinds 
of adjustments that Brent talked about, taking bombers, putting 
them in the conventional force, reducing the number of missiles 
on some of our submarines. So I think it is a pretty modest 
reduction, but I would underscore very strongly the importance 
of a firm commitment by the Congress and the United States to a 
modernization effort of our infrastructure, our delivery 
platforms, and our weapons so that it is clear to everybody 
that we have the capacity to stay in this business because that 
is part of deterrence to show that our commitment is and can be 
enduring. It is terribly important.
    Senator Corker. Well, thank you for underlining that, and I 
hope that all of us will pursue modernization. It is something 
that is very important.
    On missile defense, you know, there have been these 
conflicting statements. I mean, basically a treaty is only as 
good as the two people who agree to it, and either one of them 
can step aside. It is not like a law that is created. And so 
when you have these statements right after the treaty is agreed 
to that seem to be in opposite directions, it is concerning.
    We had a hearing the other day in a secure setting, and I 
appreciate so much the chairman continuing to have so many 
hearings. I finally think I have figured out what that 
disconnect is. We, per the Russians--and this is not 
classified, so I am not breaking any rules. These, per the 
Russians--I think the Russians agree that we can continue to 
have missile defense systems against a few rogue countries, and 
that is kind of what we are doing right now. We are pursuing 
missile defense systems against those rogue countries we are 
concerned about. And today we are not concerned about Russia. I 
think what they are saying is, though, if we develop any 
capabilities--any capabilities--as it relates to defense 
against Russia, they can get out of this treaty. So that is 
what they are saying on their side. I finally realized what it 
is--whether it is back room or conversations that always take 
place, I think there is an understanding that Russia can get 
out of this treaty if we develop any missile defense 
capabilities against them. So we are in a situation where we 
are saying we can continue to develop missile defense, but we 
know the obvious outcome of what would be if it is against 
Russia; they will get out.
    Does any of that in any way trouble you? Are we OK with 
being in that scenario?
    Mr. Hadley. I think you have characterized it rightly. The 
problem in a way is the worst casers on both sides. In 
connection with the deployments in Poland and the Czech 
Republic, we spent several years trying to demonstrate to the 
Russians that those deployments were directed at ballistic 
missiles coming out of Iran that could threaten Russia, Europe, 
or the United States. And we tabled document after document and 
offered various kinds of inspections to give them confidence 
that it was not directed against them.
    But if you are a worst caser, you can find in almost any 
deployment something that leads you to say ``aha,'' see it 
threatens us. And the problem is we are getting back into that 
mindset of suspicion and uncertainty of the cold war, and I 
think the record is a little bit untidy and the way forward is 
for this committee in the ratification process with the 
administration to make clear that we accept no limits on our 
missile defense capabilities and that rather than being 
directed at Russia, in fact, this is an opportunity for Russia 
and the United States to work together on ballistic missile 
defense to design a system in Europe that can protect all 
three. And I think if we can generate that kind of cooperation, 
we can build some confidence so that you do not have this sort 
of worst-case analysis all the time.
    But as Senator Lugar once told me a couple decades ago in 
an arms control treaty hearing that was up for ratification, 
the record is a little muddy if you take the preamble language, 
the Russians' statement and our statement. We need to be very 
clear that we do not accept any implicit limits on our ability 
to go forward with missile defense and at the same time offer 
to the Russians the opportunity to work with us to build 
defenses against ballistic missiles that threaten each and both 
of us.
    Senator Corker. Thank you both for your testimony and for 
your public service. I look forward to seeing you many times, I 
hope, in the future.
    Thank you.
    The Chairman. Thank you, Senator Corker.
    Senator Kaufman.
    Senator Kaufman. I too--we all say it, but we really mean 
it--thank you for your service. The two of you are a great 
asset for the country and thank you for coming up and helping 
to keep us straight on this very, very important treaty.
    START I we had--the Russians and the United States could 
unilaterally get out of. Right? I mean, the United States could 
unilaterally--just as we said in this treaty that we can 
unilaterally get out of the treaty, we could.
    Mr. Scowcroft. Oh, yes. Either side can. They can use 
ballistic missile defense or anything else.
    Senator Kaufman. Why would you think it is suspicious and 
why do we need a long explanation of the fact that the Russians 
are just saying that they can get out of this treaty? I hear 
this but it was in START I. It is kind of a standard thing. You 
talk about suspicion. You know, the suspicion is out there. I 
do not think we have suspicions of the cold war. I just think 
we have some folks who want to look at this treaty and say this 
is really suspicious behavior when, in fact, it has been in 
every one of the treaties we have done.
    Mr. Hadley.
    Mr. Hadley. You are right. This has the same kind of 
language that is in all the arms control agreements that says 
that if--and I cannot quote you the language, but if there are 
developments that arise, a party may withdraw on the basis of 
its supreme national interest.
    The problem is that in terms of the preamble and in terms 
of some Russian statements, there is the suggestion that while 
the current level of United States defense effort is 
appropriate, if we should change it qualitatively or 
quantitatively, they want to put a marker down right now that 
they have the right and will get out. What people worry about 
is that there is an effort to put pressure on us not to go 
forward with missile defense. And so we need to take that gloss 
off the language.
    Senator Kaufman. The simplest explanation is the best. I 
think it is pretty clear they are doing this for domestic 
political consumption. That is the reason they are doing it. 
And as you said so eloquently about Senator Lugar, who we have 
all learned a lot from, the preamble and these unilateral 
statements, if you take them into account, do not mean a whole 
lot in terms of international treaties. Is that fair to say?
    Mr. Hadley. It is true. I think they are doing it for 
domestic political purposes. I think they are doing it to put 
some pressure on us, and I think, quite frankly, they still 
believe, I think wrongly, that there is active opposition to 
ballistic missile defense in the United States and they want to 
give those folks another debating point.
    Senator Kaufman. It is a lot of stuff to do in a preamble 
and unilateral statements.
    General Scowcroft.
    Mr. Scowcroft. I think also, Senator, there is a lot of 
confusion in our discussion between ballistic missile defense 
against rogue states and ballistic missile defense between 
Russia and the United States. And we use those terms 
interchangeably. There is ambiguity in the systems themselves. 
But if you make those clear and if each side agrees that they 
are clear, that would simplify the thing a lot because, as 
Steve says, there is a lot of room for cooperation on defenses 
against rogue nations.
    Senator Kaufman. Right. But I want to make sure that 
everyone is clear because you raised some things here, that the 
main thing the U.S. Government wants to do is maintain our 
ability to do a missile defense. And I, frankly, have a hard 
time kind of looking through the ashes of this or even looking 
at the preamble and unilateral. I mean, critics and 
everything--I have been around this town for a long time. There 
is a really slender thread on which to base a suspicion that 
there is really something going on here that we have got to 
watch out for.
    Mr. Hadley. Though a lot of us have earned bruises and 
scars around the issue of ballistic missile defense over the 
last couple decades. So maybe a little paranoia is not 
unreasonable given the history.
    Senator Kaufman. And that brings me to the other point 
because I have sat in these hearings and the chairman has had 
some extensive hearings on this from the very beginning. And I 
do not know what else this administration can do outside of 
running a billboard in downtown Washington to say that missile 
defense is not included in this treaty. I mean, they have said 
it over and over in hearing after hearing and everyone we have 
had up here to testify wherever they are in the administration, 
whether it is the military or Ambassador Gottemoeller or 
whoever else it is, they start out discussions with, ``let us 
make it perfectly clear,'' because they realize that this is an 
issue that is very sensitive. So I do not know what else they 
can do to kind of convince folks that this is not part of the 
deal.
    Either one of you, do you think there is some kind of 
secret deal that is going on, which is what is also implied by 
many of the critics?
    Mr. Scowcroft. No. I would say that on both sides, this is 
an issue of domestic politics. The treaty is amply clear. It 
does not restrict us. Would the Russians like it to restrict 
us? Yes, of course. I do not think there is substance to this 
argument.
    Senator Kaufman. Mr. Hadley.
    Mr. Hadley. I do not think there are secret understandings. 
I think it is a muddy record. I think the administration has 
and will make it clear that they do not accept any limitations. 
I think the trick is that it is not just the program they want 
to pursue that is OK. I think it needs to go further and say no 
limitations whatsoever on either their program or the program 
of some other administration. And I think the way to do it is 
to have the administration on the record and then for the 
Senate of the United States as part of the ratification to be 
on the record that they do not accept any limitations on our 
ability to pursue ballistic missile defense either.
    Senator Kaufman. I think maybe the Senate part of it, but I 
do not see how this administration can do anything more to 
communicate the fact. I mean, it is really better I think--this 
is just a matter of personal opinion on how to deal with this 
problem--to do what they have done, which is to say it is not 
in this treaty. It was not part of negotiations. It was never 
part of negotiations as opposed to start picking it out and 
saying, well, we need a special counterforce or something in 
here to do. And I think that calls attention to--but that is 
just a matter of strategy.
    Mr. Hadley, I would like to also address the 10-year plan. 
I think everyone here is for nuclear modernization. I mean, 
sometimes I hear my colleagues talk about nuclear 
modernization, that there is a group of people up here that do 
not want to modernize our nuclear weapons. I sit here in the 
hearings in the Foreign Relations Committee. I just do not see 
anybody that does not want to modernize nuclear weapons.
    As usual, I think Senator Lugar raises an excellent point 
and that is we are in a tough economic situation. To put 
together a 10-year plan on just about anything right now is 
going to lock us into spending money, and especially in an area 
where if we ever have to change it, we are sending a message 
that our economic issues are overcoming our strategic concerns. 
Can you just comment on that a little bit?
    The other thing, by the way, to finish up on that--and then 
that will be the end of my questions--is then put it to the 
House to have to pass on. If you would just comment on--you 
would not have these two linked or locked so that we could not 
go ahead with the treaty until we got the House and the Senate 
and the President to sign the modernization. It would just be a 
parallel thing. Is that correct?
    Mr. Hadley. I think the dilemma, as you describe it, is 
that we are in a time of great budgetary pressure, yet I do 
think it is important for deterrence to show our commitment to 
stay in this nuclear game since our security and the security 
of a lot of others depends on it. So I think it would be 
important to try to get agreement on a 10-year plan 
legislatively to raise its priority, show our commitment, and 
make it hard to take the money out of that program. I think it 
is an issue of prioritization.
    And then second, it starts by finding a way to get year-one 
money actually out the door so we can start this process.
    I think we ought to try to do those two things, but I 
recognize it is very difficult in the times we are in.
    Senator Kaufman. And thank you both again.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kaufman. You always ask a 
good set of questions. We appreciate it.
    Just two quick wrap-ups, if I can, General Scowcroft and 
Mr. Hadley, coming back to the missile defense thing for a 
minute. I just want to make sure the record is crystal clear 
from your own testimonies. And, General Scowcroft, you just 
made a very important comment about it with respect to the 
domestic politics.
    Bob Gates at our hearing last month said the following: 
``We are putting our money where our beliefs are.'' As 
Secretary Clinton pointed out, our fiscal year 2011 budget will 
add about $700 million more on missile defense. We have a 
comprehensive missile defense program and we are going forward 
with all of it.
    Does that satisfy you, Mr. Hadley, that the administration 
has spoken on that issue?
    Mr. Hadley. Yes, with one caveat. I think you are going to 
find and probably have already found, Mr. Chairman, that people 
will ask you, well, does it just mean that they have cleared 
the administration's missile defense program with the Russians 
and they are OK, or are we really saying that there are no 
restrictions whatsoever on missile defense so that if events 
occur and this administration changes its ballistic missile 
defense program or another administration comes in and has a 
different one, that they will not be faced with argumentation 
that says, oh, no, this program was OK under the treaty but 
yours is not? So I think, Mr. Chairman, it really needs to be 
``no limitation whatsoever.''
    The Chairman. But both Secretaries and the Chairman of the 
Joint Chiefs of Staff further testified--I just read you one 
paragraph--to the effect that there are no limitations 
whatsoever on what the United States can deploy, that we are 
pursuing the program we need to now according to the national 
security community's judgments about what is necessary to 
protect America and that they are free to change that at any 
point in time.
    Mr. Hadley. And I have been told that by administration 
officials as well, and I think that is a good----
    The Chairman. Have you been told that by the 
administration?
    Mr. Hadley. Right. And I think the next step is, as part of 
the ratification effort, for the Senate of the United States to 
say that you see it the same way.
    The Chairman. Well, I think if we ratify the treaty, we 
will be saying that we see it the same way. I mean, that is 
what advice and consent to ratification are. But I am not sure 
anything is necessary beyond the full hearing record and all of 
the questions that have been asked and the answers that have 
been given by the administration with respect to those things. 
I mean, they make it pretty clear. I think you spent--how long 
did you spend trying to convince the Russians that the program 
was not directed at them?
    Mr. Hadley. A long time, Mr. Chairman. A lot of effort.
    The Chairman. So I am not sure that we are going to 
necessarily convince them of that. I think they have put us on 
notice that if they finally make a determination that it is a 
threat to their deterrent, what they may do to protect their 
interests, but that has been true of the arms race since it 
began in the 1940s.
    Mr. Hadley. Mr. Chairman, not to prolong it, I think given 
the history and the debates we have had in this country over 
30-40 years on missile defense, if there is a way in the 
ratification process for the Senate of the United States, 
Republicans and Democrats with a, hopefully, overwhelming vote 
for the treaty that says we agree, no limitations means no 
limitations, I think that would help put these debates of the 
past to rest.
    The Chairman. Well, I am confident that there are ways to 
do that without necessarily changing the treaty.
    Mr. Hadley. I am not suggesting that.
    The Chairman. There are ways to do that. I am glad you are 
not suggesting that and that is important in this process.
    And finally, just on the 10-year plan again, the President 
has requested $7 billion for fiscal year 2011 for stockpile 
sustainment and infrastructure investments. That is a 10-
percent increase over last year and they have laid out the path 
for their $80 billion of investment. I have talked with Senator 
Kyl. We are working with Senator Inouye and others to guarantee 
that money will be available. I assume if it is, you are 
satisfied that we are serious about moving forward with the 
modernization program. General Scowcroft, are you comfortable 
on the modernization?
    Mr. Scowcroft. Yes, I am. I am comfortable. I did not use 
the term ``modernization'' in my comments. I said safe, 
reliable, assurance. Modernization for the sake of 
modernization, in light of the comments that Senator Lugar has 
made about the overall defense budget, is a separate question. 
Some things need to be modernized in order to be safe, secure, 
and reliable. Other things do not need to be. And I would not 
put modernization itself as a key to what we need to do. We 
need to be assured that the system will work the way we want it 
to work.
    The Chairman. That is a very important distinction, and I 
really appreciate your drawing that because I think it is vital 
to the debate.
    Senator Lugar, do you have any additional comments or 
questions?
    Senator Lugar. Thank you, Mr. Chairman. I have no 
additional questions. I just simply want to thank the witnesses 
and likewise our colleagues for raising questions and providing 
answers today to some issues that have clearly been disturbing 
in other hearings. This, it seems to me, was a hearing in which 
we made progress. I am hopeful that the public record will 
indicate the questions and answers. I think it will be helpful 
to our colleagues as they come to a decision.
    Thank you again, both of you, for your thoughtful 
testimony.
    The Chairman. Thank you, Senator Lugar. That is important 
and I agree with you. I think it has contributed. Thank you 
very, very much. It was helpful today. We appreciate it.
    And the record will remain open for the rest of the week in 
the event there are any additional questions, but I think you 
have probably escaped that burden.
    Thanks very much for being here. We stand adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]


                            THE NEGOTIATIONS

                              ----------                              


                         TUESDAY, JUNE 15, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Edward E. 
Kaufman, presiding.
    Present: Senators Kaufman, Lugar, and DeMint.

          OPENING STATEMENT OF HON. EDWARD E. KAUFMAN,
                   U.S. SENATOR FROM DELAWARE

    Senator Kaufman. This afternoon the Foreign Relations 
Committee meets to consider the New Strategic Arms Reduction, 
or START, Treaty. This the eighth time--the eighth time--the 
committee has met to discuss this topic since the treaty's 
signing, including classified meetings. We have heard from the 
Secretary of State, Secretary of Defense, and the Chairman of 
the Joint Chiefs of Staff. We have also heard from former 
Secretaries of State and Defense in both Republican and 
Democratic administrations, former National Security Advisors, 
and others, all of whom have voiced their support for the 
ratification of the treaty.
    This is a good treaty. From the historical perspective, it 
is another step contributing to our decades-long process of 
responsible, safe, and secure nuclear arms reduction.
    First, it gives our military enough warheads and means to 
deliver them to meet our current and future defense 
requirements.
    Second, it in no way limits U.S. missile defense strategy. 
We intend to deploy a missile defense system that will protect 
the United States, Europe, and Russia from attacks from rogue 
states, and our strategic relationship with Russia will 
continue to rely on the deterrence theory that has kept us safe 
for half a century.
    I want to repeat missile defense is not part of the New 
START because President Medvedev and President Obama agreed in 
April 2009 that missile defense would not be part of the START 
follow-on treaty. This was reiterated in the July 2009 United 
States-Russian Joint Statement and by every witness who has 
come before the committee. As the lead negotiators of the 
treaty, I look forward to hearing our witnesses' perspective on 
this issue and others.
    Third, the treaty contains an important clause that will 
allow us to withdraw at any time in accordance with changing 
calculations pertaining to national and global security. Such 
language is boilerplate in international arms reduction 
treaties and was included in START I and START II and the 
Moscow Treaty. This is nothing new about this. This is a 
standard provision that has been in the START I, START II, and 
Moscow Treaty. It allows us to put the interest of the American 
people first and it is a military priority.
    Finally, the treaty provides long-needed verification 
standards which represent significant improvement over the old 
START Treaty. This is possibly the most important portion of 
the treaty because the required notifications and inspections, 
combined with the work of our intelligence community, give us 
the confidence to reduce the number of deployed warheads. The 
new verification system allows for more detailed inspections 
for the first time allowing United States inspectors to open a 
Russian missile and view nuclear warheads. When the Senate 
first began considering nuclear arms reduction between the 
United States and the Soviet Union, I could never have imagined 
the time when Americans and Russians would have agreed to such 
access and transparency.
    Another element of the treaty which strengthens our 
verification abilities are the unique identifiers on every 
missile from its moment of creation to its moment of 
destruction. Combined with notifications and national technical 
means, this gives us an unprecedented ability to understand the 
Russian strategic force. Additionally, it enhances our ability 
to identify any possible cheating.
    These verification measures are of particular importance 
and of urgency. The original START verification provision 
expired with that treaty 7 months ago, leaving us with the bare 
minimum of notifications for New START to which both sides 
provisionally agreed. If the treaty should be rejected by the 
Senate, however, these provisional notifications will become 
null and void. As we speak, the United States military and 
strategic decisionmakers know less about the Russian strategic 
force than they did in December because of the expiration of 
the first START Treaty. It is in our, the United States, short-
term and long-term strategic interest to restore inspections 
and notifications and strengthen our verification regime.
    In closing, I welcome--truly welcome--our distinguished 
witnesses, Rose Gottemoeller, who is Assistant Secretary of 
State for Verification and Compliance and the chief negotiator 
of the treaty; Ted Warner, who is a former Assistant Secretary 
of Defense and was representative of the Department of Defense 
to negotiations. Together they are uniquely qualified to answer 
questions about what was included in negotiations and what was 
not, which will constitute an important part of our record here 
today. This is the second time they have testified before the 
committee since the treaty was ratified, the first being a 
classified hearing last week. It is a testament to the 
importance of their perspectives that we have brought them back 
to continue conversations for the record today.
    There is an old expression that when a shark stops 
swimming, it drowns, and I think that perfectly summarizes 
where we stand with regard to arms control and why we have to 
keep swimming.
    Some witnesses have testified who have wholeheartedly 
supported the treaty, and some have voiced specific areas of 
concern, but each has insisted that nonratification would be a 
setback for global security. In the words of Lt. Gen. Brent 
Scowcroft, ``The principal result of nonratification would be 
to throw the whole nuclear negotiating situation into a state 
of chaos.''
    The decades of cooperative limits and reductions provided 
by SALT and subsequently by the robust verification systems in 
the first START Treaty provided the United States and Russia 
with the confidence needed to reduce nuclear weapons because 
both sides knew it was in their national interest. Failure to 
ratify this essential follow-on treaty would represent an 
unraveling of past cooperation between the United States and 
Russia on arms reduction and pose a significant setback for 
nuclear security.
    Thank you again.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in welcoming our good friends, Assistant Secretary of 
State Rose Gottemoeller and chief negotiator for the START 
Treaty and Dr. Edward Warner, the Secretary of Defense's 
representative for negotiations on the treaty. We appreciate 
again the closed session, and we look forward to raising 
questions in the public session that will be helpful to our 
members and to the broader group of Americans who are watching 
carefully this ratification procedure.
    Today we will explore technical issues related to the 
treaty's negotiations. Tomorrow we look forward to examining 
with Defense Department witnesses its deeper military 
implications, including modernization and missile defense 
issues.
    Last week, the committee heard in the closed-door testimony 
from both of you, and that session was extremely valuable in 
advancing our understanding of missile defense considerations 
in the treaty. We gained a much better picture of the intent of 
our negotiators, and I hope that we will continue to make 
progress on that issue today. What were the understandings of 
the negotiators relative to missile defense and the meaning and 
effect of these provisions, especially concerning the grounds 
for withdrawal from the New START Treaty? Did the Russians say, 
as has often been asserted, that these provisions were merely 
for their domestic political consumption, or do they view them 
as a binding obligation on the United States that will inhibit 
future missile defense development and deployment on our part?
    Tomorrow we will be able to ask Defense Department 
witnesses, Dr. James Miller and General O'Reilly of the Missile 
Defense Agency, about their conversations with the Russians on 
missile defense. But today we will hear from the negotiators 
about what their goals were in agreeing to the missile defense 
language in the treaty.
    We also have heard testimony about tactical nuclear 
weapons, in particular, from former Secretary of Defense James 
Schlesinger and former National Security Adviser Brent 
Scowcroft. What consideration was given to tactical nuclear 
weapons during negotiations on the New START Treaty, and how 
would the treaty contribute to achieving binding limits on 
tactical weapons in the future? It will be important for Dr. 
Warner to share with us the views of the Defense Department and 
how these were reflected in the final treaty. Does the New 
START Treaty provide the flexibility sufficient to deal with 
strategic changes and to meet our deterrence missions?
    Bomber counting rules under New START have been criticized, 
but in this area the treaty appears to continue guidance first 
set down by President Reagan. The START I Treaty counted 10 
warheads for 150 U.S. bombers and 8 warheads for up to 180 
Russian bombers. Bombers in excess of these limits counted for 
the number of warheads deployed on each. New START counts just 
one weapon for every bomber.
    Now, President Reagan's position was to minimize the 
counting of bombers reflecting their stabilizing nature. 
Counting bomber warheads at all in START I was a concession. 
Testifying before this committee on START I in 1992, Ambassador 
Ronald Lehman stated ``even as we establish lower ceilings on 
the most destabilizing ballistic missile system, we sought 
flexible treatment of bombers and cruise missiles, and we've 
succeeded in achieving our objective.''
    In counting one weapon per bomber, the New START Treaty 
advances the legacy of bomber stability and flexibility 
initiated by President Reagan. Verification of compliance and 
our ability to monitor the limits of this treaty remain central 
to the Senate's evaluation. Secretary Gottemoeller has stated 
that she believes that the New START Treaty fixes a number of 
the compliance issues we faced under START. Our witnesses 
should discuss at length how the verification regime has been 
modified under New START and why these changes will fulfill our 
current verification requirements.
    As I noted during our May 18 hearing with Secretaries 
Clinton and Gates and Admiral Mullen, the administration must 
make a special effort to produce the National Intelligence 
Estimate and formal verification assessment related to the 
treaty. The verification assessment is the direct 
responsibility of the State Department, and I asked the 
Secretaries that day to devote their personal energies to 
accelerating the delivery of these reports to the Senate.
    Today I would ask Secretary Gottemoeller and Dr. Warner to 
do the same. The President has declared the New START Treaty to 
be a top legislative objective and has called for Senate 
approval this year. Failing to deliver these reviews related to 
START in an expedited fashion would diminish the perceptions of 
the priority of the treaty and complicate Senate debate.
    The task facing members of this committee is to continue to 
clarify areas of ambiguity so that we can craft a responsible 
and transparent resolution of ratification. I believe that such 
a resolution can command strong support in the Senate and that 
we can act on this treaty with confidence this year.
    I thank you again, Mr. Chairman, for chairing our hearing.
    Senator Kaufman. Thank you, Senator.
    Now we will hear from our witnesses. I understand 
Ambassador Gottemoeller is going to go--I think if you limit 
your remarks to no more than 10 minutes, the full written 
statement can be inserted in the record.
    Thank you.

  STATEMENT OF HON. ROSE GOTTEMOELLER, ASSISTANT SECRETARY OF 
 STATE FOR VERIFICATION, COMPLIANCE, AND IMPLEMENTATION, CHIEF 
   U.S. NEGOTIATOR IN POST-START NEGOTIATIONS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ms. Gottemoeller. Thank you very much, Mr. Chairman, and 
thank you for your very extensive remarks to introduce the 
session. Senator Lugar, thank you also for your extensive 
remarks. I think it launches us well on our discussions today.
    I did want to underscore, Mr. Chairman, that I am not 
actually appointed to the post of Ambassador for this position. 
I am the Assistant Secretary and also the chief negotiator of 
this treaty. But thank you for the title.
    Thank you again, sir, and I am very happy to have this 
opportunity today to provide my perspective as the chief 
negotiator of the treaty between the United States of America 
and the Russian Federation on measures for the further 
reduction and limitation of strategic offensive arms, known as 
the New START Treaty, and to respond to your questions.
    Mr. Chairman, with your permission, I would like to give an 
abbreviated version of my remarks today and submit the rest of 
them for the record.
    Senator Kaufman. Without objection.
    Ms. Gottemoeller. Thank you, sir.
    I believe that there is every reason for the Senate to 
provide its advice and consent to ratification of the New START 
Treaty. The treaty is a continuation of the international arms 
control and nonproliferation framework that the United States 
has worked hard to foster and strengthen for the past 50 years. 
It will provide ongoing transparency and predictability 
regarding the world's two largest deployed nuclear arsenals 
while preserving our ability to maintain the strong nuclear 
deterrent that remains an essential element of U.S. national 
security and the security of our friends and allies.
    Our negotiations benefited from our long experience with 
implementing the INF Treaty, the START Treaty, and the Moscow 
Treaty. We began with a far better understanding of each 
other's strategic forces than we had when we were negotiating 
the original START agreement in the 1980s and early 1990s. 
Several members of both delegations had extensive experience 
implementing the START Treaty, including inspections of 
strategic facilities. The U.S. negotiating team was especially 
rich in experienced inspectors, as Dr. Warner can attest.
    Indeed, my colleague, Ted Warner, and I are two 
representatives of a strong interagency negotiating team that 
cooperated very effectively in agreeing through a thorough 
interagency process on the concept and substance of this 
treaty. The strength of the treaty rests on the fact that we 
took into account the broad perspectives of the State 
Department, the Defense Department, the uniform military, the 
Energy Department, and other agencies at the outset and at 
every step throughout the negotiating process.
    As I often noted during the negotiations, the New START 
Treaty is a hybrid of START and the Moscow Treaty. New START 
has its conceptual roots in both treaties. It contains a 
comprehensive verification regime, as does START, to provide 
for predictability, but it also recognizes that at the current 
time we are no longer in a cold-war relationship with the 
Russian Federation. Thus, it allows each party to determine for 
itself the composition and structure of its strategic offensive 
arms and to decide how reductions will be made. This 
flexibility is the great contribution of the Moscow Treaty and 
it will be important to our national security as we move 
forward to further reductions.
    The warhead counting rules in this treaty are a significant 
innovation. The parties will receive realistic accounting of 
the number of reentry vehicles actually emplaced on each 
party's deployed ICBMs and SLBMs and the opportunity to monitor 
the declared numbers through onsite inspections. Mr. Chairman, 
you already made reference to this in your remarks.
    While neither party carries any nuclear armaments on its 
bombers on a day-to-day basis, the parties agreed to an 
attribution rule of one warhead per nuclear-capable heavy 
bomber rather than count them as zero. And Senator Lugar, thank 
you for your comments with regard to the bomber counting rules. 
As you said, this attribution rule strikes a balance between 
the fact that neither side loads nuclear armaments on its 
bombers on a day-to-day basis and the fact that these bombers 
have a nuclear mission. Furthermore, heavy bombers have long 
been considered to be more stabilizing than ICBMs or SLBMs 
because, as slow-flying weapons systems, compared to ballistic 
missiles, they are not well-suited to first-strike missions.
    The treaty's verification regime will give us an important 
window into the Russian strategic arsenal, and I will turn to 
Dr. Warner for a more extensive discussion of the verification 
regime, but I would like only to note that the verification 
regime will provide each party confidence that the other is 
upholding its obligations while also being simpler and less 
costly to implement than START.
    The treaty protects our ability to develop and deploy a 
conventional prompt global strike capability, should we decide 
to pursue such a capability. We were firm during the 
negotiations that the treaty must allow for strategic missiles 
and conventional configuration and also that future nonnuclear 
systems of strategic range that do not otherwise meet the 
definitions of the treaty should not be considered new kinds of 
strategic offensive arms for the purposes of this treaty.
    The administration shares the Congress' concern that there 
should not be any constraints on U.S. efforts to defend 
ourselves or our allies from missile attacks launched by third 
parties. The treaty does not constrain our current or planned 
missile defenses and in fact contains no meaningful 
restrictions on missile defenses of any kind. The preamble's 
acknowledgment of the interrelationship between offensive and 
defensive arms is not new. It has been acknowledged for decades 
in prior strategic arms control treaties.
    Moreover, for decades it has not been the policy of the 
United States of America to undermine the Soviet or Russian 
strategic offensive forces with ballistic missile defenses. 
Ronald Reagan, at the time he announced the Strategic Defense 
Initiative in 1983, said, ``We seek neither military 
superiority nor political advantage. Our only purpose, one all 
people share, is to search for ways to reduce the danger of 
nuclear war.'' Beginning with George H.W. Bush, our missile 
defense policy has focused on defending the United States, our 
troops, our friends and allies from limited ballistic missile 
threats.
    Regarding the unilateral statements on missile defense 
associated with the treaty, the United States has made clear 
our intention to continue improving and deploying our missile 
defense systems in order to defend ourselves and our allies 
against limited attacks. We did not agree with the Russian 
Federation's unilateral statement, and the Russian statement in 
no way changes the legal rights or obligations of the parties 
under this treaty. The fact that Russia felt compelled to make 
its unilateral statement is, in fact, a striking piece of 
evidence that they were unable to restrict our missile defenses 
in the agreement itself.
    To those who may have concerns regarding alleged backroom 
deals during the treaty negotiations, let me state 
unequivocally today on the record before this committee that 
there were no--I repeat no--backroom deals made in connection 
with the New START Treaty, not on missile defense nor on any 
other issue. Everything we agreed to is in the treaty documents 
transmitted to the Senate on May 13 of this year.
    The New START Treaty represents a significant step forward 
in building a stable, cooperative relationship with Russia, but 
this treaty is not about Washington and Moscow alone. It 
advances the security of the entire world by giving added 
stability and transparency to the relationship between the 
world's two largest nuclear powers, and by demonstrating that 
we are living up to our obligations under Article 6 of the Non-
Proliferation Treaty, we enhance our credibility to convince 
other governments to help strengthen the international 
nonproliferation regime and confront proliferation.
    Mr. Chairman, in sum, I believe that the New START Treaty 
is in the interest of the United States and is the right treaty 
for today.
    Thank you very much.
    [The prepared statement of Ms. Gottemoeller follows:]

  Prepared Statement of Rose E. Gottemoeller, Assistant Secretary of 
 State for Verification, Compliance, and Implementation, Department of 
                         State, Washington, DC

    Mr. Chairman, Senator Lugar, and members of the Foreign Relations 
Committee, I am very happy to have this opportunity today to provide my 
perspective as chief negotiator of the Treaty Between the United States 
of America and the Russian Federation on Measures for the Further 
Reduction and Limitation of Strategic Offensive Arms, the ``New START'' 
Treaty, and to respond to your questions.
    I believe there is every reason for the Senate to provide its 
advice and consent to ratification of the New START Treaty. The treaty 
is a continuation of the international arms control and 
nonproliferation framework that the United States has worked hard to 
foster and strengthen for the last 50 years. It will provide ongoing 
transparency and predictability regarding the world's two largest 
deployed nuclear arsenals, while preserving our ability to maintain the 
strong nuclear deterrent that remains an essential element of U.S. 
national security and the security of our allies and friends.
    Presidents Obama and Medvedev described it best when, upon signing 
the treaty on April 8 in Prague, President Obama called it ``an 
important milestone for nuclear security and nonproliferation, and for 
United States-Russia relations'' and President Medvedev declared it a 
``win-win situation.''
    A little over a year ago, the administration set out to negotiate 
the New START Treaty with the goal of replacing the expiring START 
Treaty with a new agreement mandating lower levels of strategic 
offensive arms. We were also determined to move beyond cold-war 
mentalities and chart a fresh start in our relations with Russia. The 
2010 Nuclear Posture Review concluded that U.S. national security would 
not be negatively affected by a reduction in our nuclear arsenal, 
especially considering that the most immediate threats we face today 
are nuclear proliferation and terrorism. The United States could 
sustain a stable deterrence with significantly fewer deployed warheads 
and strategic delivery vehicles than permitted under earlier arms 
control agreements. It further recognized that we need to cooperate 
with Russia as our partner to meet these threats and other global 
challenges.
    The negotiations benefited from our long experience with 
implementing the INF Treaty, the START Treaty, and the Moscow Treaty. 
We began with a far better understanding of each other's strategic 
forces than we had when we were negotiating the original START 
agreement. Several members of both delegations had extensive experience 
implementing the START Treaty, including inspections of strategic 
facilities. The United States negotiating team was especially rich in 
experienced inspectors, as Dr. Warner can attest.
    Indeed, my colleague, Ted Warner, and I are two representatives of 
a strong interagency negotiating team that cooperated very effectively 
in agreeing, through a thorough interagency process, on the concept and 
substance of the treaty. The strength of this new treaty rests on the 
fact that we took into account the broad perspectives of the State 
Department, the Defense Department, the uniformed military, the Energy 
Department, and others at the outset and at every step throughout the 
negotiation process.
    As I often noted during the negotiations, the New START Treaty is a 
hybrid of START and the Moscow Treaty--New START has its conceptual 
roots in both treaties. It contains a comprehensive verification regime 
as does START, to provide for predictability, but it recognizes that we 
are no longer in a cold-war relationship. Thus, it allows each Party to 
determine for itself the composition and structure of its strategic 
offensive arms and how reductions will be made. This flexibility is the 
great contribution of the Moscow Treaty, and it will be important to 
our national security as we move forward to further reductions.
    The three central numerical limits in the New START Treaty will 
affect the Parties in different ways because our strategic forces are 
structured differently. Each Party must make decisions regarding its 
force structure with respect to all three limits. For example, Russia 
currently has fewer operational launchers than the United States, but 
it has a number of inactive submarines and ICBM launchers that it will 
have to eliminate in order to meet the aggregate limit of 800 deployed 
and nondeployed launchers and nuclear-capable heavy bombers.
    The warhead counting rules in this treaty are a significant 
innovation. The Parties will receive a realistic accounting of the 
number of reentry vehicles actually emplaced on each Party's deployed 
ICBMs and SLBMs, and the opportunity to monitor the declared numbers 
through onsite inspections. While neither Party carries any nuclear 
armaments on its bombers on a day-to-day basis, the Parties agreed to 
an attribution rule of one warhead per nuclear-capable heavy bomber 
rather than count them at zero. This attribution rule strikes a balance 
between the fact that neither side loads nuclear armaments on its 
bombers on a day-to-day basis and the fact that these bombers have a 
nuclear mission. Furthermore, heavy bombers have long been considered 
to be more stabilizing than ICBMs or SLBMs because, as ``slow-flyers'' 
compared to ballistic missiles, they are not well suited to be used as 
first-strike weapons.
    The treaty's verification regime will give us an important window 
into the Russian strategic arsenal. The regime includes extensive 
provisions that contribute to verification of the Parties' compliance, 
including notifications, data exchanges, agreed conversion and 
elimination procedures, inspections, demonstrations, and exhibitions. 
It also includes some significant innovations over the START 
verification regime, such as the provision of unique identifiers for 
all ICBMs, SLBMs, and heavy bombers, and reentry vehicle onsite 
inspections that are designed to monitor the exact number of reentry 
vehicles emplaced on individual missiles.
    The verification regime will provide each Party confidence that the 
other is upholding its obligations, while also being simpler and less 
costly to implement than START. The regime reflects the improved United 
States-Russian relationship since the end of the cold war and reduces 
the disruptions to operations at strategic nuclear forces facilities 
imposed by START.
    The treaty protects our ability to develop and deploy a 
conventional prompt global strike capability, should we pursue such a 
capability. As eminent Russian foreign policy expert Dr. Sergei 
Karaganov has noted, it was not possible for Russia to secure a ban on 
United States development and deployment of high-precision nonnuclear 
strategic systems.\1\ We were firm during the negotiations that the 
treaty must allow for strategic missiles in conventional configuration, 
and also that future nonnuclear systems of strategic range that do not 
otherwise meet the definitions of the treaty should not be considered 
``new kinds of strategic offensive arms'' for purposes of the treaty.
---------------------------------------------------------------------------
    \1\ http://karaganov.ru/en/publications/preview/206.
---------------------------------------------------------------------------
    The administration shares the Congress' concern that there should 
not be constraints on U.S. efforts to defend ourselves and our allies 
from missile attacks launched by third parties. The treaty does not 
constrain our current or planned missile defenses, and in fact contains 
no meaningful restrictions on missile defenses of any kind. The 
preamble's acknowledgement of the interrelationship between offensive 
and defensive arms is not new; it has been acknowledged for decades in 
prior strategic arms control treaties.
    Moreover, for decades it has not been the policy of the United 
States to undermine the Soviet or Russian strategic offensive forces 
with ballistic missile defenses. Ronald Reagan, at the time he 
announced the Strategic Defense Initiative in 1983, said, ``We seek 
neither military superiority nor political advantage. Our only 
purpose--one all people share--is to search for ways to reduce the 
danger of nuclear war.'' Beginning with George H.W. Bush, our missile 
defense policy has focused on defending the United States, our troops, 
our friends and allies, from limited ballistic missile threats.
    Regarding the unilateral statements on missile defense associated 
with the treaty, the United States has made clear our intention to 
continue improving and deploying our missile defense systems, in order 
to defend ourselves and our allies against limited attacks. We did not 
agree to Russia's unilateral statement, and the Russian statement in no 
way changes the legal rights or obligations of the Parties under the 
treaty. The fact that Russia felt compelled to make its unilateral 
statement is, in fact, a striking piece of evidence that they were 
unable to restrict our missile defenses in any meaningful way in the 
agreement itself. Russian Deputy Foreign Minister Ryabkov said in an 
interview published in the newspaper Russia Today on April 19, ``We 
have never ever believed that it would be possible through this treaty, 
the scope of which covers exclusively strategic offensive arms, to be 
able to limit capabilities of another Party in the area of strategic 
defence.'' \2\
---------------------------------------------------------------------------
    \2\ http://rt.com/Top_News/2010-04-19/ryabkov-nuclear-programme-
iran.html.
---------------------------------------------------------------------------
    In addition, Russian President Medvedev said in an interview with 
ABC News on April 9, ``I would not want to create the impression that 
any change would be construed as grounds for suspending a treaty that 
we have only just signed. Moreover, we agreed--I discussed this with 
President Obama, and our respective administrations discussed it--that 
we should cooperate on building a global missile defence system. But if 
events develop in such a way as to ultimately change the fundamental 
situation Russia would be able to raise this issue with the USA.'' \3\
---------------------------------------------------------------------------
    \3\ http://eng.news.kremlin.ru/transcripts/l.
---------------------------------------------------------------------------
    To those who may have concerns regarding alleged back-room deals 
during the treaty negotiations, let me state unequivocally today on the 
record before this committee that there were no/no secret deals made in 
connection with the New START Treaty; not on missile defense or any 
other issue. Everything we agreed to is in the treaty documents 
transmitted to the Senate on May 13. I also want to make clear that 
Article XV of the treaty authorizes the Bilateral Consultative 
Commission to make changes in the protocol without resorting to the 
treaty amendment procedures only where such changes do not affect 
substantive rights or obligations under the treaty. This provision is 
similar to the provisions contained in, and successfully implemented 
under, the START Treaty.
    The New START Treaty represents a significant step forward in 
building a stable, cooperative relationship with Russia. But this 
Treaty is not just about Washington and Moscow. It advances the 
security of the entire world. By giving added stability and 
transparency to the relationship between the world's two largest 
nuclear powers and by demonstrating that we are living up to our 
obligations under Article VI of the Nuclear Non-Proliferation Treaty 
(NPT), we enhance our credibility to convince other governments to help 
strengthen the international nonproliferation regime and confront 
proliferators.
    Mr. Chairman, in sum, I believe that the New START Treaty is in the 
interests of the United States and is the right treaty for today. It 
will restore the transparency and predictability that START provided, 
preserve the flexibility enshrined in the Moscow Treaty, contribute to 
our efforts to reinvigorate the Nuclear Non-Proliferation Treaty, and 
take us another step toward achieving the ultimate goal of a nuclear 
weapons-free world.

    Senator Kaufman. Dr. Warner.

  STATEMENT OF DR. EDWARD L. WARNER III, SECRETARY OF DEFENSE 
 REPRESENTATIVE TO POST-NEW START NEGOTIATIONS, DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Dr. Warner. Thank you, Mr. Chairman, Senator Lugar. It is a 
privilege to appear before this committee once again to discuss 
the New START Treaty.
    I served as the representative of the Secretary of Defense 
on the New START negotiating team and was involved in the 
effort from its very beginning in April 2009 through the 
signing of the treaty almost a year later. The Department of 
Defense stands firmly behind this treaty. It strengthens 
strategic stability, enables the United States to modernize its 
triad of strategic delivery systems and protects our 
flexibility to deploy important nuclear and nonnuclear 
capabilities. Because of this, the treaty has the full support 
of the U.S. defense leadership. This includes the Secretary of 
Defense, the Chairman of the Joint Chiefs of Staff, the service 
chiefs, and the Commander of the U.S. Strategic Command, the 
command responsible for sustaining our strategic nuclear 
deterrent. In light of my role in the negotiation of the New 
START Treaty, I would like to focus my remarks today on the 
defense-related aspects of the agreement and on the inspections 
framework of the treaty which I was responsible for negotiating 
on the U.S. side. In my role, I had particular responsibility 
to ensure that the national defense interests of the United 
States were properly incorporated into our negotiating 
positions and in any provisions of the treaty that were agreed. 
I am confident that we did so.
    Throughout the negotiations, my colleague representing the 
Joint Chiefs of Staff, Mr. Mike Elliott, and I were in close 
contact with the Defense Department leadership. We did not 
agree to the inclusion of any provisions without securing their 
approval. Indeed, the final treaty, protocol, and supporting 
annexes very much reflect the input of the senior Department of 
Defense leaders to an effective governmentwide process. This 
included the personal involvement of the Secretary of Defense 
and of Admiral Mullen, the Chairman of the Joint Chiefs of 
Staff, who participated directly at key junctures in the 
negotiation of the treaty itself.
    Let me address some of the key national defense issues that 
are contained within this treaty.
    First, the United States sought to conclude a treaty that 
would significantly limit and reduce United States and Russian 
strategic offensive arms while preserving strategic stability 
in a manner that provides predictability and is supported by an 
effective, extensive verification system. While pursuing 
stabilizing reductions in strategic offensive forces, the U.S. 
negotiators sought to protect our ability to field a flexible, 
effective, strategic triad of nuclear delivery systems and to 
enable the modernization of these delivery systems and the 
nuclear weapons that they carry. The United States negotiators 
also sought agreement on ceilings on strategic warheads and 
strategic delivery vehicles that were lower than those in the 
Moscow Treaty but sufficient to meet the needs of the Nation as 
established and assessed within the recently completed nuclear 
posture review.
    We did achieve these objectives. The agreement of the 
Department of Defense leadership to the limits was based on the 
force analyses that were conducted during the nuclear posture 
review by the U.S. Strategic Command and reviewed throughout 
the Pentagon by the services, the Joint Chiefs of Staff, and 
the Office of the Secretary of Defense.
    It was also conditional upon Russian agreement to allow 
removal of converted B-1B bombers, cruise missile submarines, 
so-called SSGNs, and eventually a number of conventionally 
armed B-52H bombers from accountability under the treaty. This 
is one of the examples of the flexibility in the treaty where 
it does allow conversion of systems from nuclear to nonnuclear 
roles and specifies particular procedures, including inspection 
activities associated with such conversions.
    Second, the treaty affords us the freedom to deploy, 
maintain, and modernize our forces as we deem appropriate. As 
outlined in the section 1251 report to the Congress, the 
administration plans to maintain and modernize all three legs 
of the triad. By the time the treaty reductions go into effect 
7 years after the treaty enters into force, the Department 
intends to field strategic nuclear forces within the central 
limits of the treaty that include up to 420 deployed Minuteman 
III ICBMs, 240 deployed Trident II D5 submarine-launched 
ballistic missiles, or SLBMs, and up to 60 B-2A and B-52H 
nuclear-capable heavy bombers. Over the next decade, DOD plans 
to invest over $100 billion in sustaining and modernizing our 
strategic nuclear delivery systems, and the Department of 
Energy plans to invest over $80 billion in sustaining and 
modernizing the nuclear weapons stockpile and the nuclear 
weapons complex that supports that stockpile.
    Third, protecting our ability to develop and deploy the 
most effective missile defenses possible was one of the most 
important U.S. objectives during the treaty negotiations, and 
we clearly did so. Under the treaty, the United States is free 
to pursue its current and planned ballistic missile defense 
programs, as well as any other courses of action we might 
choose to pursue. The one exception, as has been previously 
pointed out, is the ban on the conversion of ICBM or SLBM 
launchers for use as missile defense interceptor launchers and 
vice versa. As previously explained and as will be, I am sure, 
discussed by General O'Reilly in his appearance here tomorrow, 
such a course of action would be costly and impractical. 
Nothing in this treaty or in the Russian unilateral statement 
concerning missile defenses, which is not legally binding, will 
constrain us from developing and deploying the most effective 
missile defenses possible to protect the United States homeland 
from limited missile attack and to protect U.S. forces deployed 
abroad and partners and allies from growing regional ballistic 
missile threats. Nor will the treaty impose additional costs or 
burdens on these missile defense efforts.
    And fourth, the administration was also intent on 
protecting the U.S. ability to develop and deploy conventional, 
prompt global strike systems. We, therefore, agreed to a 
permit-and-count regime whereby conventionally armed ICBMs or 
SLBMs would be permitted but counted under the strategic 
delivery vehicle and strategic warhead ceilings. In addition, 
the United States stated during the negotiations it would not 
consider future strategic range nonnuclear systems that do not 
otherwise meet the definitions of this treaty to be new kinds 
of strategic offensive arms for purposes of this treaty and 
thus captured by its provisions. We are confident that this 
arrangement accommodates our defense requirements regarding the 
possible development and deployment of conventional prompt 
global strike capabilities for the 10-year lifetime of the 
treaty.
    Achieving an effective verification framework was another 
key U.S. and Department of Defense objective in the 
negotiations. Let me, therefore, turn very briefly now to my 
role as the U.S. chairman of the Inspections Working Group 
during the negotiation of the treaty.
    During the course of the negotiations, we met more than 90 
times with our Russian counterparts to hammer out an effective 
tailored inspections framework for the treaty. In this effort, 
I was aided, as Rose noted, by a cadre of veteran inspectors 
who brought many years of combined experience, both carrying 
out inspections in Russia and hosting such inspections here in 
the United States. We brought that experience to the 
negotiating table.
    Our objectives were to craft an inspection framework that 
continues the appropriate verification and transparency 
functions provided for under START while streamlining the 
overall process and reducing unnecessary burdens in line with 
the July 2009 joint understanding signed by Presidents Obama 
and Medvedev. We achieved these objectives.
    The treaty provides that each party may conduct up to 18 
short-notice, onsite inspections each year. These inspections 
are divided into two groups. Type one inspections will be 
conducted at the operating bases for ICBMs, SLBMs, and nuclear-
capable heavy bombers and will include inspection of both 
deployed and nondeployed systems. Type two inspections are 
focused on nondeployed strategic systems, as well as formerly 
declared facilities, and confirming the results of the 
elimination or conversion of strategic offensive systems. These 
inspections will be conducted at places such as storage sites, 
test ranges, formerly declared facilities, and conversion or 
elimination facilities. Each side is allowed to conduct up to 
10 type one inspections and up to 8 type two inspections 
annually. Type one inspections combine many of the aspects 
associated with two different types of inspections that were 
conducted separately under START, thus requiring fewer 
inspections annually at the operating bases while achieving 
many of the results of the previous START inspection regime 
with a smaller number of annual inspections.
    The inspection activities contribute to the verification of 
the treaty's central limits by confirming the accuracy of 
declared data. Inspections may also be used to confirm weapon 
system conversions and eliminations and to confirm that 
formerly declared facilities are not being used for purposes 
inconsistent with the treaty, that is, they are not being used 
to support strategic offensive arms anymore.
    The use of unique identification or identifier numbers, 
notifications, and the regularly updated comprehensive database 
on all strategic offensive arms and the use of national 
technical means of verification will complement onsite 
inspections in providing for a robust treaty verification 
regime.
    Thank you, Mr. Chairman, Senator Lugar, for the opportunity 
to discuss this very important treaty.
    [The prepared statement of Dr. Warner follows:]

 Prepared Statement of Dr. Edward L. Warner III, Secretary of Defense 
 Representative to the New START Negotiations, Department of Defense, 
                             Washington, DC

    Mr. Chairman, Senator Lugar, distinguished members of the 
committee, thank you for the opportunity to speak today regarding the 
New Strategic Arms Reduction Treaty. I served as the Representative of 
the Secretary of Defense on the New START Treaty negotiating team and 
was involved in the effort from the beginning of our discussions with 
the Russians in late April 2009 through to the signing of the treaty 
almost a year later.
    The Department of Defense stands firmly behind this treaty. The 
agreement strengthens strategic stability, enables the United States to 
modernize its triad of strategic delivery systems, and protects our 
flexibility to develop and deploy important nuclear and nonnuclear 
capabilities needed for effective deterrence and defense. Because of 
this, the treaty has the support of the U.S. defense leadership--
including the Secretary of Defense, the Chairman of the Joint Chiefs of 
Staff, the Service Chiefs, and the Commander of the U.S. Strategic 
Command, the command responsible for the U.S. strategic nuclear 
deterrent.
    In light of my role in the negotiation of New START Treaty, I would 
like to focus my remarks today on the national defense-related aspects 
of the agreement and on the inspections framework for the treaty, which 
I was responsible for negotiating on the U.S. side.
    As the Representative of the Secretary of Defense for the talks, I 
had a particular responsibility to ensure that the national defense 
interests of the United States, as viewed by the leadership in the 
Department of Defense, were properly incorporated into our negotiating 
positions and in any provisions that were agreed for inclusion in the 
treaty and its supporting documents. I am confident that we did so. 
Throughout the negotiations, my colleague representing the Joint Staff 
and I were in close contact with Defense Department leadership, and we 
did not agree to the inclusion of any provisions without securing their 
approval. Indeed, the final treaty, protocol, and supporting annexes 
very much reflect the input of senior DOD leaders to an effective 
governmentwide process, including the personal involvement of the 
Secretary of Defense and Admiral Mullen, the Chairman of the Joint 
Chiefs of Staff, at key junctures in the negotiation of the treaty.
    Let me address some of the key national defense-related issues in 
the treaty and how the U.S. side handled them.
    First, the United States sought to conclude a treaty that would 
significantly limit and reduce United States and Russian strategic 
offensive arms while preserving strategic stability in a manner that 
provides predictability and is supported by an effective verification 
system.
    While pursuing stabilizing reductions in strategic offensive 
forces, the U.S. negotiators sought to protect our ability to field a 
flexible, effective strategic triad composed of ICBMs, SLBMs, and 
nuclear-capable heavy bombers, and to enable modernization of our 
strategic delivery systems and the nuclear weapons they carry. The 
United States negotiators also sought agreement on ceilings on 
strategic warheads and strategic delivery vehicles that were lower than 
those in the Moscow Treaty, but sufficient to meet the needs of the 
Nation as established by the Nuclear Posture Review.
    We achieved these objectives. The New START Treaty will entail 
stabilizing limits on deployed strategic nuclear forces and nondeployed 
ICBM launchers, SLBM launchers, and heavy bombers, as well as 
associated verification measures. We agreed to these limits based on 
analysis conducted in the Nuclear Posture Review prior to and during 
the course of the negotiations, which determined that the ceilings 
would be sufficient to allow us to meet U.S. strategic deterrence 
requirements and to maintain the triad of delivery systems. The 
agreement of the Defense Department leadership to the limits was also 
conditional upon Russian agreement to allow removal of converted B-1s, 
cruise missile submarines (SSGNs), and, eventually, a number of 
conventionally armed B-52Hs from accountability under the New START 
Treaty.
    We achieved agreement on these points as well.
    The treaty affords us the freedom to deploy, maintain, and 
modernize our forces as we determine appropriate in a manner consistent 
with the central limits of the treaty. As outlined in the report to 
Congress issued in compliance with section 1251 of the National Defense 
Authorization Act, 2010, the administration plans to maintain and 
modernize all three legs of the triad. By the time that the treaty 
reductions go into effect, 7 years after entry into force, the 
Department intends to field strategic nuclear forces within the central 
limits of the treaty that include: up to 420 deployed Minuteman III 
ICBMs; 240 deployed Trident II D5 SLBMs; and up to 60 deployed B-2A and 
B-52H heavy bombers equipped for nuclear armaments. Over the next 
decade, DOD plans to invest over $100 billion in sustaining and 
modernizing our strategic nuclear delivery systems, and the Department 
of Energy plans to invest over $80 billion in sustaining and 
modernizing the nuclear weapons stockpile and the nuclear weapons 
complex.
    Protecting our ability to develop and deploy the most effective 
missile defenses possible was one of the most important U.S. objectives 
during the treaty negotiations, and we clearly did so. Under the 
treaty, the United States is free to pursue its current and planned 
ballistic missile defense programs, as well as any other courses of 
action we might choose to pursue. The one exception, as has been 
previously pointed out, is the conversion of ICBM or SLBM launchers for 
use as missile defense interceptor launchers, or vice versa. As 
previously explained, such a course of action would be costly, and is 
not part of our plans for future missile defense programs.
    Nothing in this treaty or in the Russian unilateral statement 
concerning United States missile defenses, which is not legally 
binding, will constrain us from developing and deploying the most 
effective missile defenses possible, nor will the treaty impose 
additional costs or burdens on these efforts.
    The administration was also intent on protecting the U.S. ability 
to develop and deploy conventional prompt global strike systems. We 
therefore agreed to a ``permit and count'' regime whereby 
conventionally armed ICBMs or SLBMs would be permitted but counted 
against the strategic delivery vehicle and strategic warhead ceilings. 
In addition, the United States stated during the negotiations that it 
would not consider future, strategic range nonnuclear systems that do 
not otherwise meet the definitions of this treaty to be ``new kinds of 
strategic offensive arms'' for purposes of the treaty. We are confident 
that this arrangement accommodates our defense requirements regarding 
the possible development and deployment of conventional prompt global 
strike capabilities for the lifetime of the treaty.
    Overall, the New START Treaty will strengthen stability and 
predictability. It will allow us to sustain a strong nuclear triad, to 
deploy ballistic missile defenses to meet growing regional missile 
threats, to defend the U.S. homeland against the threat of limited 
ballistic missile attack, and to maintain the flexibility to deploy the 
nuclear and nonnuclear capabilities needed for effective deterrence.
    Achieving an effective verification framework was another key U.S. 
and Department of Defense objective in the negotiations. Let me 
therefore turn now to my role as the U.S. Chairman of the Inspections 
Working Group during the negotiation of the treaty. In this capacity, I 
led the U.S. side in negotiating the inspections framework that will 
form a central pillar of the treaty's verification regime. During the 
course of the negotiations, we met more than 90 times with our Russian 
counterparts to hammer out an effective, tailored inspections framework 
for the treaty. In this effort, I was aided by a cadre of veteran 
inspectors who brought many years of combined experience in 
implementing inspections under the START and INF Treaties to the 
development of our negotiating positions and to the negotiating table.
    The inspections framework that we negotiated with Russia is an 
essential part of the treaty's overall verification regime. Our 
objectives were to craft an inspection framework that continues the 
appropriate verification and transparency functions provided for under 
START, while streamlining the overall process and reducing unnecessary 
burdens, in line with the July 2009 Joint Understanding signed by 
Presidents Obama and Medvedev. We achieved these objectives.
    The treaty provides that each Party may conduct up to 18 short-
notice, onsite inspections each year. These inspections are divided 
into two groups. Type one inspections will be conducted at the 
operating bases for ICBMs, SLBMs, and nuclear-capable heavy bombers and 
will include inspections of both deployed and nondeployed systems. Type 
two inspections are focused on nondeployed strategic systems, as well 
as formerly declared facilities, and confirming the results of the 
elimination or conversion of strategic offensive systems. These 
inspections will be conducted at places such as storage sites, test 
ranges, formerly declared facilities, and conversion or elimination 
facilities. Each side is allowed to conduct up to 10 type one 
inspections and up to 8 type two inspections annually. Type one 
inspections combine many of the aspects associated with two different 
types of inspections that were conducted separately under START, thus 
requiring fewer inspections annually at the operating bases while 
achieving many of the results of the previous START inspection regime 
with a smaller number of annual inspections.
    These inspection activities contribute to the verification of the 
treaty's central limits by confirming the accuracy of declared data on 
the numbers of deployed and nondeployed ICBMs, SLBMs, and nuclear-
capable heavy bombers and of the warheads located on or counted for 
them. Inspections may also be used to confirm weapon system conversions 
and eliminations and to confirm that formerly declared facilities are 
not being used for purposes inconsistent with the treaty.
    Unique identifiers, notifications, the regularly updated 
comprehensive database, and the use of national technical means will 
complement inspections in providing for a robust treaty verification 
regime.
    Thank you for the opportunity to testify on New START. I would be 
happy to answer any questions.

    Senator Kaufman. Thank you.
    We will begin the question period. Each Senator will have 7 
minutes and if there is time, we will do a second round.
    Assistant Secretary Gottemoeller, in practical terms, how 
will the New START Treaty limit Russia's forces and options in 
terms of things that they can do because they signed the 
treaty?
    Ms. Gottemoeller. Thank you for the question, sir.
    In fact, the Russian forces are spread across three 
categories in the central limits: warheads, delivery vehicles, 
and launch systems. The Russians, of course, have been 
experiencing over time some degradation in their strategic 
forces, and so they have already been, in fact, taking some 
reductions in their strategic delivery vehicles due to the fact 
that some systems are reaching obsolescence.
    I do want to emphasize, however, that for the Russians they 
have, as we do, a fairly significant number of launchers such 
as submarines and ICBMs and their launch silos that will be 
reduced and eliminated under this treaty. So it will cause some 
significant restructuring and reductions in the Russian 
launchers, in addition to which the treaty will require them 
overall to submit to a verification regime, as it will cause us 
to submit to a verification regime, which will give both sides 
a significant view into the strategic nuclear forces of both 
parties. So that, I think, is significant in that it helps to 
guide decisionmaking in both governments. It helps to prevent 
worst-case decisionmaking and the kind of financial decisions, 
resource decisions that might go with that, but furthermore 
gives both sides a very, I think, clear notion of what kinds of 
threats we are facing, and as systems are eliminated over time, 
it gives us a sense that that threat is beginning and steadily 
declining. So for both sides, it is a net increase to a sense 
of strategic security, and in fact, of course, that is why both 
sides enter into such strategic reduction negotiations and 
eventual achievement of such agreements in order to essentially 
achieve an enhancement in national security.
    So I would underscore, I think, those two things, that it 
does help us to understand the structuring of the Russian 
strategic forces and will cause some elimination over time in 
their launchers, and furthermore, it will also enhance 
predictability by giving us a clear view into their strategic 
forces and vice versa.
    Senator Kaufman. And as a negotiator, what makes you 
confident the new verification process will be effective?
    Ms. Gottemoeller. I think, sir, more than anything it is 
our 15-year history of implementing the START Treaty and, 
behind that, our experience in implementing the INF Treaty 
since 1988. Those were the first treaties that brought us into 
an onsite inspection regime, got us our boots on the ground, as 
Senator Lugar likes to say, gives us the opportunity to 
actually get inside the strategic nuclear forces of the Russian 
Federation, the bomber forces, the submarines, and the ICBM 
forces, and really helps us to understand what is going on 
there.
    It is the very experience of implementing those treaties 
and understanding how both sides implement. Have there been 
compliance concerns over time? Yes. START was a very complex 
treaty, over 500 pages. From time to time, both parties had 
difficulties with complying with some of the constraints and 
obligations of the treaty. We have been trying to do everything 
we can to ensure that such questions are not coming forward 
into this new treaty. But as a matter of fact, in general terms 
both sides implemented the START Treaty well, and it is that 
history that gives us a good sense going forward that this 
treaty is well worthwhile in its implementation particularly of 
the verification regime.
    Senator Kaufman. Thank you.
    Dr. Warner, you are quoted as saying that in the new 
regime, the notification unique identifiers will enable us to 
follow a missile from the cradle to the grave. How precisely 
will that contribute to verification?
    Dr. Warner. Well, there is a combination of three elements, 
Senator, that come together here. One is the massive database, 
the comprehensive database. There is a requirement of both 
sides to really register the data about all strategic offensive 
arms that, in fact, fall within the provisions of the treaty. 
Within 45 days after entry into force, both sides will exchange 
data on these systems, where they are located, and so forth.
    In combination with this is this idea of unique 
identifiers, an alphanumeric designator assigned uniquely to 
each ICBM, each SLBM, and each nuclear-capable heavy bomber, 
just each heavy bomber as a matter of fact. These numbers, if a 
system is newly created, will be present from birth all through 
their operational lifetime in storage facilities and test 
ranges, at operational bases, and we will also be tracking them 
down to conversion or elimination at the end of their lifetime. 
And that is what we mean.
    The third part of the combination here, a troika of 
reinforcing verification provisions, was database, the unique 
identifiers, and then the necessity for notifications. Every 
time that a system changes status from deployed to nondeployed 
or is moved between facilities from a production plant to a 
test range to a storage facility to an operating base and so 
forth, notifications must be provided to the other side within 
5 days of the completion of that activity. The notification 
again will include the unique identifier.
    So it is this combination of identifiers, notifications, 
and comprehensive database that give us this ability to track, 
and it is on that basis that we launch our inspections. 
Inspectors go to a facility knowing in their case in advance 
where they want to go, doing their homework, preparing, knowing 
the information. Then they are able to verify the accuracy of 
that information through the inspection itself.
    Senator Kaufman. Senator Lugar.
    Senator Lugar. I would like to ask either one of you to 
give an answer to this question. The United States maintained a 
permanent, continuous, boots-on-the-ground inspection capacity 
in START I to monitor Russian missile production. Why was this 
not continued under the New START?
    Ms. Gottemoeller. Perhaps I'll begin, Senator Lugar, and 
then perhaps Dr. Warner would like to continue with some 
comments.
    You are referring to the site that was located at the 
Votkinsk production facility in the Russian Federation. It was 
first established again under the intermediate range nuclear 
forces treaty and continued under the START Treaty.
    As START was nearing the end of its implementation in 2007-
08, the United States and the Russian Federation began to 
confer about what would be the transition from New START, 
whether there would be a new legally binding treaty, what 
negotiations would ensue, and furthermore began to prepare for 
an orderly transition from the START Treaty to whatever would 
follow. In the course of those discussions, in 2008 it was 
discussed what continuing obligations would both sides like to 
see with regard to the verification regime, and during that 
period, the continuing permanent presence, continuous 
monitoring site at Votkinsk did not come into those 
discussions. And so there was a preparation that began to 
essentially bring about an orderly shutdown of the facility at 
Votkinsk and to move to the next stage, whatever that would be.
    So in essence, as the United States and the Russian 
Federation in 2007 and 2008 were considering the future and 
what they would like to do, one key decision that was made was 
both parties decided they did not want to extend the START 
Treaty per se for an additional 5-year period, which would have 
been one way to go about extending the Votkinsk facility, but 
in addition to which they simply decided to enter into an 
agreement on the orderly shutdown of that facility. So that 
process was unfolding at the time that we began our new 
negotiations.
    I would just like to comment, sir, that indeed we did work 
very hard to try to continue some permanent presence during the 
early course of the negotiations, but we also looked very hard 
at what was actually required to verify the obligations, the 
central limits of this treaty, and took a very good look at the 
combination of notifications associated with the production and 
being able to track missiles coming out of the Votkinsk plant 
through their unique identifiers. That was an absolute 
requirement for us to be able to track from the time that the 
systems left the production plant until they arrived at their 
either deployment site, storage site, or the test range. And so 
there was very thorough consideration given to what would be 
satisfactory in terms of following and tracking systems as they 
left Votkinsk.
    In fact, we did achieve that under the treaty. We have 48 
hours advance notification of the departure of solid rocket 
missiles from the production facility. This essentially allows 
our national technical means to be cued and to be watching as 
systems leave the production facilities. So we do feel that 
there is a very thorough way to continue to track missiles 
under this treaty.
    Senator Lugar. I thank you for that response. I would 
mention, without getting into criticism of either 
administration, that in fact a comment was made with regard to 
the last administration that time is running out. We are coming 
down the trail toward December the 5th. There did not appear to 
be accurate negotiations going on with the Russians at that 
period of time. And so that on December 5 when the last 
observers left Votkinsk, there was at least some anxiety on the 
part of some of us as to what follows because a transition was 
inevitable and before you and this administration could 
negotiate a new treaty. But it appears to me that you have 
taken into consideration the lay of the land at that point and 
at least picked up the particulars of this treaty in terms of 
what needs verification and the means of doing it.
    My second question really comes down then to these new 
means. For either one of you, please outline for us the 
difference between START I and New START on the provision of 
telemetric data. Why is New START different from START I? Will 
the United States ever need to return to the kind of telemetric 
data exchange with Russia contained in START I? And why do you 
believe your negotiations concluded with a successful outcome 
on telemetry?
    Ms. Gottemoeller. Again, sir, I will start on this question 
and my colleague may wish to add something.
    Telemetry or the exchange of telemetric information is not 
required to verify the central limits of this treaty. The START 
Treaty was formulated somewhat differently. There were some 
particular provisions of the treaty that required telemetric 
data in order to be able to verify them. Particularly, I will 
just give one example. That is the attribution rule. START used 
an attribution rule, that is, if a system was tested with 10 
warheads, it was always counted with 10 warheads. And in order 
to determine that attribution for a particular missile, 
telemetric information was required. In this new treaty, we use 
a completely different kind of counting rule. I noted it is an 
innovative and different kind of approach, but it does not 
require telemetric information to confirm.
    So telemetry under this treaty is a useful transparency 
measure. Both Presidents, after some very serious discussion of 
the matter, came to agree that it was a good transparency 
measure under this treaty and will continue to unfold with the 
exchange of up to five missile flight tests per year, that is, 
telemetric information on up to five missile flight tests. We 
believe--and because there is an annual review possible in the 
bilateral consultative commission for the telemetry regime 
under this treaty, we believe that over time it will prove its 
utility because both sides will have an opportunity to make 
adjustments in the telemetric data exchange throughout the life 
of the treaty. Sir, I am confident that it will prove its 
utility in this treaty, but as a transparency measure rather 
than a verification measure.
    Senator Lugar. Dr. Warner, do you have any further comment?
    Dr. Warner. The only point that I might add is--Rose got to 
it at the latter part--for the audience telemetric information 
is really information monitoring the performance of missiles 
during flight tests. And the issue here is when you are flight 
testing an ICBM or SLBM, both sides use telemetry in order to 
monitor and understand how the missile performed in flight.
    One of the other issues--Rose's answer was exactly correct. 
The point is it is not needed for verification of this treaty.
    The other primary area was in the START Treaty, there were 
limits on throw weight, the aggregate, really size and lifting 
capacity of ballistic missiles. There is no such--and that 
could only be monitored as an effective manner to see what was 
the size of the missiles being tested. Again, there is no limit 
on throw weight. Because of that idea of flexibility, sides 
should be able to determine the composition of its forces as it 
sees fit. Without that needed, there was no need to have to 
exchange telemetric information of that nature.
    Senator Lugar. Thank you.
    Senator Kaufman. Assistant Secretary Gottemoeller, how did 
you craft the New START Treaty to avoid future compliance 
disputes?
    Ms. Gottemoeller. Mr. Chairman, this was actually a process 
that was begun in the latter years of implementation of the 
START Treaty. There is and was a Joint Compliance and 
Inspection Commission that worked very hard throughout the life 
of the treaty on implementing the treaty and ensuring that 
issues of difference between the two sides on compliance with 
the treaty were resolved over time. It is one of the core 
functions of that particular body. And by the way, in the new 
treaty, we have a bilateral consultative commission that will 
have, as one of its core functions, that very same type of 
work.
    But what we did with the JCIC in the latter stages of the 
START Treaty was begin to resolve some longstanding questions 
between the two sides. For example, there were questions 
related on the U.S. side to the reentry vehicle onsite 
inspection of the Minuteman III. The Russians addressed those 
questions to us. We addressed questions to the Russians with 
regard to the reentry vehicle onsite inspection of the SS-27. 
And in the course of work in the JCIC and some demonstrations 
and exhibitions, both sides were able to reassure the other 
regarding these reentry vehicle onsite inspections, so that by 
the time START was going out of force, we had achieved what are 
called clean RVOSI inspections on both sides. That is, the 
inspectors had no comments for each other. And so that was a 
real accomplishment.
    And we took that spirit into the negotiations because we 
wanted to ensure that the new treaty had a real problem-solving 
attitude from the very outset. So we transferred the attitude 
of problemsolving and trying to work through questions in the 
JCIC to the negotiating table in Geneva and really tried to 
take some of the solutions that they were coming up with. The 
SS-27 RVOSI is a very good example because it looked at some of 
the covers that had been used during previous inspections that 
had been problematic that the Russians had put into use, and we 
really worked with them and they worked with us to come up with 
a cover that would be acceptable for a reentry vehicle onsite 
inspection of the SS-27 and then could be brought forward again 
into the new treaty as a cover that will be used in the new 
treaty.
    So that is the way we, I guess I would say, tried to bring 
a new attitude to this effort, and I do believe that we have 
succeeded.
    Dr. Warner. In my inspections working group, we had to do 
the negotiation of these things in detail, and I would just 
note very briefly this is where we got an invaluable 
contribution of these former inspectors. These were people--
some of them had also participated in the JCIC deliberations on 
these matters. They had attended the demonstration that 
resolved these matters. They had been there, if I get the 
chronology right, in the first place when the problems had 
arisen.
    So we were very careful. And if you look into the protocol 
and then the annexes, especially in the annexes, which are at a 
level of detail that most people do not want to wander into, 
those annexes are basically a handbook for the conduct of 
inspections, the ones that affect the inspection activities. We 
got right down to the specifics of the character of the covers 
for reentry vehicles, how they could be displayed, displayed 
ahead of time, then used, make sure they did not hamper the 
ability to count accurately the number of reentry vehicles 
there.
    So again, very much in the spirit of what Secretary 
Gottemoeller spoke of, we brought that to specific 
manifestation in literally the individual provisions. These 
were often hammered out with considerable intensity, but in the 
end, we did, in fact, achieve--and I think both sides came to 
understand that they had a better--I do not know--``guarantee'' 
may be too strong, but better assurances that we were setting 
in motion a set of provisions that could, in fact, be 
implemented very effectively.
    Senator Kaufman. Dr. Warner, as we talked about earlier, 
START I expired in December. From a military perspective, how 
important is it to get back in the verification business?
    Dr. Warner. I think it is very, very important. I had the 
opportunity to speak with General Chilton, Commander of 
Strategic Command, within the last couple of days. He certainly 
shares that assessment. I think we all do.
    It has now been 6 months more since the expiration. In 
truth, we did not fall off a cliff. We had lots of accumulated 
information, but with each passing month, that information gets 
more dated. In the Russian case, for instance, a new, very 
important system has been introduced since the end of that, the 
long-awaited mobile MIRVed ICBM called the RS-24. We will have 
an opportunity, once START begins to have an exhibition of that 
system to understand it in great detail, and we will have an 
opportunity to track it and others through onsite inspections.
    So the insights that are available to us cannot be 
overestimated. I have spent much of my professional life as a 
student of first Soviet and then Russian military affairs, 
including strategic nuclear affairs. And I remember very well 
the ``Through a Glass Darkly'' kind of assessments that we had 
to make in the 1970s, in the 1980s about these systems. The 
appearance of onsite inspections and the opportunity to get 
this firsthand exposure to these systems--by the way, the 
cooperative threat reduction program that is named for Senator 
Lugar and his former colleague, Senator Nunn, was also crucial 
in this regard because it came into being here in the early 
1990s and it too brought this kind of direct exposure. In this 
case, it was often exposure to systems leaving the inventory, 
but nevertheless, this is a qualitatively different basis for 
being able to understand Russian strategic nuclear forces. We 
need to get back into the position where we will have those 
insights available to us.
    Senator Kaufman. Thank you.
    Senator Lugar.
    Senator Lugar. Let me ask either one of you for a response 
to this question. The key to our consideration to the New START 
Treaty will be a discussion of various cheating scenarios which 
the intelligence community will discuss with us next month. 
Secretary Gottemoeller and Dr. Warner, how do you design the 
verification regime under this treaty to deter and detect 
cheating, and are the most useful elements of START I that 
enabled detection of cheating retained in New START?
    Ms. Gottemoeller. Senator Lugar, again I will let Mr. 
Warner deal with most of that question as it relates to the 
verification regime.
    But I did want to say one thing to begin with, and that is 
I wanted to reiterate the point that I made at the outset, that 
this was a very thorough interagency effort. We worked very 
hard to ensure that we were airing all concerns across the 
interagency and thinking through very carefully what the 
various effects could be on our national security in terms of 
threats to the United States from Russian strategic forces and 
in terms of potential threats from cheating scenarios. So we 
did do a very thorough job in my view on an interagency basis 
of getting everybody to our table in-house, so to speak, and 
making sure that such concerns were aired. So I do feel like we 
did our due diligence and more in the preparation of the 
verification regime of this treaty.
    So now let me hand over to Dr. Warner for his comments.
    Dr. Warner. I have not participated with the intelligence 
community on whatever analyses they are doing on cheating 
scenarios and the like, so I certainly cannot speak to what the 
specifics of what they are examining.
    But as a general proposition, I think the overall 
comprehensiveness of the verification regime, that 
comprehensive database, the unique identifiers, notifications, 
and then the ability to do the sampling with onsite 
inspections--it is the combination of all of that that gives 
you the confidence that were a side try to cheat, it would run 
significant risks of having it detected.
    I should make mention, of course, which I have not noted, 
the role of national technical means, the euphemism we use for 
our overhead satellite reconnaissance of various types for the 
use of other sort of standoff systems. We still monitor Russian 
strategic nuclear force activity very intensively with our own 
intelligence collection systems. So the combination of the 
intelligence collection systems and this extensive verification 
regime, in combination--and then the inspections where you do, 
in fact, verify the accuracy of the declared data, meaning that 
entire database as a whole--when you got those opportunities, 
it just raises the strong possibility that were either side to 
cheat, it would be detected, and were it to be detected, the 
political ramifications would be very considerable.
    Now, in this question of verification, they often argue 
what you want to be able to ensure you can do is to detect any 
militarily significant change in a way where you would have 
time to react. That is kind of the standard that I think the 
intelligence community will apply to itself, and they will give 
their evaluation.
    But I think that we have in combination between our 
national technical means, our independent sources of 
information, and those that are boned up with the treaty, 
between the two, either side, were it to try to cheat--and they 
think of it from their point of view. I am simply giving it 
equal time, if you will. But certainly if the Russians were 
going to cheat on this in any substantial way, they would have 
a very strong possibility of having that detected and would be 
very harmful I think for their political interests.
    Senator Lugar. Let me thank you for your generous comment 
about the cooperative threat reduction, the so-called Nunn-
Lugar program.
    I would just mention that on the verification side, one of 
the things that I am certain Senator Nunn and I visited with 
over the years was the fact that the Russians frequently were 
very forthcoming with thoughts of their own which were not 
required. By that I mean, for example, an invitation to Sevmash 
was totally unexpected. No American had ever seen the typhoons 
up there. I was asked to go up there. The Russians took a 
picture of me standing in front of one, which is more than our 
intelligence had ever seen. This was not covered by START, but 
it was a part of the relationship.
    And the importance of having a treaty is to have a 
relationship which in fact Americans and Russians are very 
likely to come and say, as they did with the typhoons, we do 
not have the money to dismantle these. We do not have the 
technical skills in terms of the size of the force that we 
need. But it is an important thing for both of us to take 200 
missiles that could be nuclear-armed off of submarines that 
have run up and down your coast for 20 years. This was not a 
part of the treaty, but it is a part of the whole consideration 
here.
    And I mention this because occasionally people say, well, 
why do we need a treaty at all? What is the point of all of 
this? I have seen vividly the point of this. In terms of our 
national security, a lot of things would never have happened 
without there being this relationship. It is a very personal 
one that came about because of that format.
    So I appreciate your mention of that as an auxiliary part 
of verification because I perceive that it is an important one. 
Likewise, being invited down into the tombs where all the 
warheads were situated, almost like corpses in a morgue, but 
with a small tablet at the top telling them when the warhead 
was created, what the servicing had been of it, what the 
dangers might be of something happening to that without proper 
servicing and hope that we would help eliminate the oldest ones 
first so something would not happen in Russia unexpectedly, 
quite apart of the purpose of the warhead to begin with, these 
are also realities of our discussion now which I was tempted by 
your comment to launch into.
    Let me cease-fire for the moment because another Senator 
has joined us, and we appreciate that. I yield, Mr. Chairman.
    Senator Kaufman. Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman and Ranking Member 
Lugar.
    Thank you both for your service.
    I would like to hone in for just a few moments on the 
missile defense aspect of the negotiations. It appeared that 
there was a disagreement between what the Russians were saying 
about the linkage between missile defense and the reduction of 
offensive weapons. We had a good hearing with Secretary Clinton 
and Secretary Gates. It became apparent to me--and I would just 
like to confirm with you--that the reason for the disagreement 
is when the Russians speak of missile defense, they feel the 
START Treaty is a clear limitation of the United States ability 
to develop any strategic defense system against multiple 
missiles such as those that could be fired by the Soviet Union. 
When we speak of having flexibility with missile defense, we 
mean it is a nominal defense system that could shoot down an 
isolated missile by a rogue nation or one that was fired 
accidentally by a superpower.
    I just want to clarify with you, being involved with the 
negotiation, is it your understanding that the START Treaty is 
an agreement that the United States will not attempt to develop 
a missile defense system capable of shooting down multiple 
missiles fired by the Soviet Union. Is that your understanding? 
I will just allow either witness here to answer that.
    Ms. Gottemoeller. Thank you, Senator. I appreciate your 
very thoughtful questions, as always.
    I wanted to underscore a remark that I made in my testimony 
that I thought would just bear repeating at this moment, and 
that is, that for decades it has not been the policy of the 
United States to undermine Soviet or Russian strategic 
offensive forces with ballistic missile defenses. Ronald 
Reagan, at the time he announced the Strategic Defense 
Initiative in 1983, said, ``We seek neither military 
superiority nor political advantage. Our only purpose, one all 
people share, is to search for ways to reduce the danger of 
nuclear war.'' Beginning with George H.W. Bush, our missile 
defense policy has focused on defending the United States, our 
troops, our friends and allies from limited ballistic missile 
threats.
    One other point I would like to just stress at this 
juncture, if I may, sir, is that regarding the unilateral 
statements, the United States made clear in our unilateral 
statement our intention to continue improving and deploying our 
missile defense systems in order to defend ourselves and our 
allies against limited attacks. We did not agree with Russia's 
unilateral statement, and I can tell you that, sir, as our 
negotiator.
    Senator DeMint. I just want to make sure we are clear, and 
I appreciate what you said. I know Reagan's vision was to use 
missile defense to render nuclear missiles obsolete, that we 
would not be in danger of them.
    Ms. Gottemoeller. Yes, sir, and he made reference to 
speaking to arms control----
    Senator DeMint. In the Bush administration, they realized 
our technology was not there and we were not capable of moving, 
at least at that point, to a system that could deal with 
multiple missiles, but it was never George W. Bush's policy, as 
I understand from his people, that we would not have that as an 
ultimate goal. So I do not accept the premise that going into 
the future that the United States should accept a mutual 
assured destruction policy, which I am assuming that is what 
you are telling me. That is what Secretary Clinton, Secretary 
Gates--the START Treaty is a continuation of the mutually 
assured destruction pact with Russia. Is that your 
understanding?
    Ms. Gottemoeller. Perhaps, sir, with your permission I will 
allow my Defense Department colleague to provide----
    Senator DeMint. And I do not have much time. So I really 
would like some direct answers. Is the START Treaty a 
continuation of mutually assured destruction?
    Dr. Warner. The START Treaty's concept of strategic 
stability includes the idea of having a secure second strike, 
the ability for both sides to be able to retaliate 
substantially or devastatingly against one another. That has 
been characterized as mutual assured destruction.
    Senator DeMint. And it is your understanding that it is the 
American policy that we will not attempt to develop a missile 
defense system that could shoot down multiple missiles. Is that 
your understanding?
    Dr. Warner. Well, that of course is the choice of each new 
administration. That is not embodied in the New START Treaty.
    Senator DeMint. But that is clearly the understanding of 
the Russians, that we will not develop any defense system that 
threatens their offensive capability.
    Dr. Warner. They made clear that should we develop a system 
that would threaten their ability to have deterrence, to have 
strategic retaliatory deterrence, that they would consider 
leaving the treaty. That was their unilateral statement, sir.
    Senator DeMint. Right. Well, it is a very important issue 
to us because I think if we told the American people that we 
are going to continue with the cold-war strategy with Russia of 
mutually assured destruction, that if they shoot at us, we will 
destroy them, they will destroy us, and that we will not 
attempt to use our technology to develop a system that could 
not only protect us against the Soviet Union but multiple 
missiles from China or some other nation that was capable of 
developing multiple systems, I do not think that is something 
that the American people would like. I know it is something I 
do not like. But implicitly, if not explicitly, that is 
apparently the terms of the agreement with the START Treaty.
    Dr. Warner. First of all, I do not think there is even in 
our missile defense policy--the treaty set aside. We are 
committed to being able to protect the homeland against limited 
missile attack. Limited missile attack has not been 
specifically defined. So it certainly could include multiple 
missiles. It does not say only one missile, but it does, as 
Secretary Gates spoke in his colloquy with you on this matter--
it is not the search for a comprehensive shield, but it is 
against limited missile attack. So I agree with that.
    Senator DeMint. The disagreement here really compels me to 
ask for the negotiating record so that I can understand more 
clearly what has been discussed. In the meeting that you 
referenced, Secretary Clinton said going back to George 
Washington, that negotiating records were not shared. In fact, 
George Washington shared the negotiation records of the Jay 
Treaty. The Senate committees were availed the negotiating 
records of the 1972 Anti-Ballistic Missile Treaty, the 1987 
Intermediate Range Nuclear Forces, and we have the Senate Arms 
Control Observer Group who tells us that we actually got the 
negotiating records from the first START Treaty. Now, we can 
quibble about that. I asked for these and I was told that is 
unprecedented. It is not unprecedented.
    Is there any reason that the Senate committee cannot review 
the negotiating records?
    Ms. Gottemoeller. Sir, first of all, I did want to 
underscore that we, in preparing our package for ratification, 
worked very hard to ensure that our article-by-article 
analysis, 200-plus pages, really gives you a full viewing of 
the obligations that the United States would be assuming under 
this treaty. Certainly we have done everything we can to ensure 
that we are providing you the information that you will need, 
including extensive briefings and continuing to provide 
information both in closed and open sessions. So I do want to 
underscore for you our commitment to continuing to provide all 
the information you need to make your decisions about this 
treaty and also to answer any questions that you have.
    My understanding of the precedents are different from 
yours, I will say. It is my understanding that the negotiating 
record was not, in fact, provided for the START Treaty, the 
START II Treaty, or the SORT Treaty, known as the Moscow 
Treaty. As a matter of usual practice, negotiating records are 
not provided. For example, looking into it, we understand that 
in the 110th Congress, there were 90 treaties ratified by the 
Senate, and in none of those cases were the negotiating records 
provided. So it is my understanding, as a normal practice, that 
they have not been provided.
    Senator DeMint. Well, we can discuss and debate that. The 
issue here is: There is a serious disagreement between what the 
Russians say and what we say that this treaty entails, and it 
is about one of the most important aspects of the defense of 
our country, which is a missile defense system. We are saying 
we have complete flexibility to develop a nominal system. The 
Russians say there is clear linkage and we cannot develop 
anything that threatens their ability to destroy us. That is 
not an acceptable scenario, and I will continue to ask for the 
full negotiating records so that I can determine, as well as my 
colleagues on the committee, what has this country agreed to 
when it comes to missile defense.
    And there are clearly definitional differences here. When 
we speak of missile defense, it is very different from what the 
Russians consider missile defense.
    So again, I have gone way over time. I thank you for your 
indulgence, Chairman, and I again thank the witnesses for their 
hard work.
    Senator Kaufman. Never an indulgence, Senator. Never an 
indulgence.
    It is true, though, that the basic decision that was 
announced in April 2009 that President Medvedev and President 
Obama said that missile defense was not part of this treaty.
    Ms. Gottemoeller. Correct, sir.
    Senator Kaufman. And it is also correct that in terms of 
START treaties--the INF Treaty we did have access, but START I 
we did not, although this is new to me, but I will look into 
this that they did. But clearly under START II and the Moscow 
Treaty, on both those treaties, we did not have access to 
negotiating records.
    Ms. Gottemoeller. That is correct, sir.
    Senator Kaufman. And it is also true that after the INF 
Treaty in the record of the Senate Foreign Relations Committee, 
it reads, when the INF treaty negotiating record, having been 
provided under these circumstances, both the administration and 
the Senate now face the task of ensuring that Senate review of 
negotiating records does not become an institutionalized 
procedure. First, a systematic expectation of Senate perusal of 
every key treaty's negotiating record could be expected to 
inhibit candor during future negotiations and induce posturing 
on the part of the U.S. negotiators and their counterparts 
during sensitive sessions. The overall effect of fully exposed 
negotiations, followed by a far more compelling Senate review, 
would be to weaken the treatymaking process and thereby damage 
the American diplomacy.
    That is not me speaking. That was in the record after the 
implementation of the INF Treaty.
    Senator DeMint. Mr. Chairman, I will summarize the 
information I have and forward it to you, as well as Senator 
Lugar. But certainly having our public hearings here inhibit 
some of the things that we might say----
    Senator Kaufman. Sure.
    Senator DeMint [continuing]. But it certainly enhances the 
democratic process. So I thank you very much.
    Senator Kaufman. Thank you for your participation, Senator.
    I just have one final question and that is we spent a lot 
of time talking about the benefits of the treaty and, as I 
said, every single person that has come to testify has said 
they are in favor of ratifying the treaty. But I do think it is 
important to put into perspective--I have asked this from a 
number of witnesses, and Senator Lugar has asked about the ones 
that I have not asked just so people can put it in perspective. 
What would be the implications of failure to ratify this 
treaty? Let me start with you, Secretary Gottemoeller and then 
Dr. Warner.
    Ms. Gottemoeller. Sir, I really think that there are three 
major implications. I will start with the most fine-grained one 
and move to the highest level.
    In my view, the immediate fine-grained is with regard to 
the phrase we have used several times in this hearing, that is, 
with regard to boots on the ground, with regard to our ability 
to get inside the Russian strategic nuclear forces and 
understand what is going on in those forces. We would not have 
available to us the verification and inspection regime of this 
treaty, including onsite inspection.
    Would we be completely bereft of knowledge? No. Dr. Warner 
mentioned our national technical means which would continue to 
operate, but it is the interplay between national technical 
means and the important verification regime of this treaty that 
I think really gives us a thorough understanding of what is 
going on in the Russian strategic forces.
    The second point has to do with the predictability with 
regard to what is going on in the Russian strategic forces and 
our understanding of where they are going in the future, what 
their numbers will look like. This, in turn, is our planning 
and helps us to understand what scarce resources we need to 
spend on our nuclear forces and what we can continue to spend 
in other areas of the defense establishment. As we have very 
important continuing requirements for our soldiers in Iraq and 
Afghanistan and so forth, it is an important, I think, 
mechanism for us to be able to decide what our priorities are 
with regard to our defense budget.
    The third is this more top-level issue and that is the role 
of the United States on the international stage. I made 
reference in my opening comments to our ability to lead in the 
implementation of the Non-Proliferation Treaty regime. I can 
only say to you, sir, this effect is not a direct, easily 
linked effect, but I have seen it myself operate both at the 
NPT review conference, in the unfolding of the U.N. Security 
Council resolution over Iran in the past 10 days, and 
furthermore in the little known regime in Vienna, the Open 
Skies regime, which is an important part of our European arms 
control regimes. In fact, we were able to achieve significant 
successes in recent weeks. Because, I think, of the strong 
leadership that the United States showed with the Russian 
Federation in concluding the START Treaty, it enables us to get 
things done in the international arena. And so I would say that 
it would also have an effect on our international leadership 
role.
    The final point. I was asked in recent hearings and 
Secretary Clinton was asked as well about the future. What 
about getting at nonstrategic nuclear weapons, so-called 
tactical nuclear weapons? Sir, I believe our chances of 
proceeding to reductions on tac nukes would be zero if we do 
not ratify and put this treaty into force.
    Senator Kaufman. Thank you.
    Dr. Warner.
    Dr. Warner. Ms. Gottemoeller has covered most of the issues 
here. The one broad one that I would go back to is basically 
just Russian-American cooperation on broader measures, even 
beyond arms control. I mean, this has been a signal event in 
the relationship between our two countries since the Obama 
administration has come into office. The failure to ratify and 
move ahead with this will certainly set back the prospects for 
United States-Russian cooperation. Again, is this a 
catastrophe? Of course, not. But it would sacrifice 
opportunities to have the Russians work with us on a variety of 
issues, whether it is countering terrorism, countering 
proliferation, U.N. Security Council resolutions, the role of 
the Russians in the six-party talks on North Korea. I mean, all 
these areas of cooperation.
    We have built a very tangible partnership within the scope 
of the national interests of these two great powers, but very 
effective working relationships have been developed from the 
Presidential level, at the Secretary of State level, Foreign 
Minister level. All of that will be more difficult if, in fact, 
we do not follow through and implement this important treaty.
    Senator Kaufman. Thank you.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Now, let me follow along questions raised by the Senator 
from South Carolina which he raised at an earlier hearing and 
referenced responses by Secretary Gates.
    As I understand your responses and as I remember 
historically, at least at the time that the START Treaty 
proposition began, a scoreboard we have in my office shows 
there were 13,300 nuclear warheads aimed at the United States. 
There may have been more or less, but that was the best 
verification we had at that moment. We have eliminated almost 
6,000 of those, but that is still leaves 6,000-plus to go.
    I cannot recall at any point during this period of time 
that either Russia or the United States seriously discussed 
creating a sufficient missile defense that would stop several 
thousand missiles, all aimed with additional warheads on them, 
at the United States. In other words, neither side was able 
really to do very well with missile defense at all. The numbers 
of starts and flourishes and finishes of that are legend, 
although we keep trying. We keep trying now to maybe make 
certain a single warhead that was aimed at the United States 
might be stopped if, for instance, the North Koreans got a 
long-range missile, for example.
    But this is a new concept altogether that is coming in on a 
debate on a fairly limited treaty. Granted, it is an important 
one.
    Now, perhaps we should have a national debate on this 
subject. Perhaps, as the Senator has said, mutually assured 
destruction is unacceptable. It is a horrible thought. It is 
still possible. This is one reason this is serious business. 
But I do not know any serious thinker with regard to defense 
matters or technical matters who has envisioned the thought of 
a comprehensive missile defense system that would stop multiple 
warheads coming into the United States.
    Now, I say this having gone down into a silo in Siberia one 
time and visiting with the Russian who was monitoring this. It 
was a chilling experience because on the wall there were 
pictures of American cities, 10 of them, as I recall. There 
were 10 warheads on this one missile. They were all going to go 
different directions to hit the 10 cities in America. This was 
one single missile with those warheads. Our ability to develop 
a means of stopping even that 10-warhead situation seemed to me 
to be not in the cards then. Now, maybe there has been such an 
evolution of thought, unknown to most of us, that we ought to 
be thinking about this now.
    But I mention this because I think that proponents of the 
treaty are going to have to face this particular issue, if in 
fact this is being raised. If this treaty somehow inhibits in 
any way the defense of our country and accepts or ensures 
mutually assured destruction, why, that becomes a rather 
volatile message that somehow or other we were derelict in our 
duties, myopic with regard to the world in which we are.
    So I raise this question really quite openly to the two of 
you. In your knowledge at any time, in any Presidency, any 
administration, has there been serious thought given to the 
thought we would develop a comprehensive missile defense system 
for our country, not just protecting our NATO allies from the 
Iranian missile or various topical things we have, but our 
country? And furthermore, if we thought about such a thing, was 
there also thought on the part of our military leaders that the 
Russians might be unlikely to let us have a decade or 2 to get 
it all set up, in other words, that they would remain passive 
in the midst of all of this? That might have been one thing 
that deterred us from undertaking such a system to begin with, 
given the huge number of warheads both sides had at the end of 
the cold war.
    Do either of you have any comments on this discussion?
    Dr. Warner. Certainly my recollection is that was the 
vision of Ronald Reagan for a time under the Strategic Defense 
Initiative which was popularly known as Star Wars because it 
had both space and ground-based components. There was an 
aspiration--an aspiration to explore many ways simultaneously 
to try to have multilayered defense through all phases of a 
ballistic missile's travel from the boost phase to the 
midcourse phase to the terminal phase.
    The fact of the matter was that despite all the research 
and money put against it, it was, I think, the conclusion of 
virtually all that we were nowhere near being able to 
accomplish that objective against a substantial inventory of 
adversary missiles, particularly given the fact that the 
adversary would employ countermeasures of one sort or another, 
decoys, chaff, a variety of measures, faster-burning rocket 
motors to prevent boost-phase intercept and so forth.
    In the Bush 1 administration, near the end of that 
administration, they backed off. They continued to be loyal in 
the SDI effort, to continue to try to find that magic shield, 
if you will, or that comprehensive shield.
    In the latter years of the Bush administration, they went 
to a process called GPALS, the Global Protection Against 
Limited Strikes. They began to say, look, we cannot do the 
comprehensive job. Let us shift toward limited. Their version 
of limited was still very ambitious. It included some space-
based interceptors, what they called Brilliant Pebbles. It did 
include what has become the root of the systems we are pursuing 
today, the ground-based interceptor for midcourse intercept to 
go against a few.
    By the time it came to the Clinton administration, it began 
to focus--and by the way, it was in the Bush administration 
they began to be worried about third countries. This was not so 
much about Russia or China. It was more about the proliferation 
of missiles falling into hands of hostile regimes like North 
Korea, like what has become the Iranian effort. So that 
transition occurred. In the Clinton administration, it went 
very much to a limited homeland missile defense.
    Now, were we there by choice or by necessity? At a minimum, 
we were there by necessity. We cannot effectively defend 
against a very substantial volley of attack by a sophisticated 
adversary. So given that fact, we are de facto in a situation 
of mutual deterrence. Now, that can be characterized as mutual 
assured destruction. Well, in the presence of nuclear weapons, 
that is certainly what it in fact means. If mutual deterrence 
means both can retaliate, even after being exposed to a first 
strike, they retaliate effectively in a very devastating 
manner. We are not there because we like it. We are there 
because it is just the way it is. That situation does prevail.
    So the missile defense, followed by the most recent Bush 
administration and by this administration has two components. 
It defends the homeland. It defends the homeland against 
limited attacks, but it could try to defend against an 
accidental or unauthorized launch that came out of Russia or 
China. It would depend on how sophisticated the missiles that 
had accidentally been launched would be whether it would be 
effective. We would certainly try to use them. We would not sit 
idly by. But it is designed for limited defense against these 
kind of first generation capabilities of these emerging 
adversarial nations.
    The second phase, of course, is theater missile defense, 
and that has been present across many administrations. We do 
seek to protect our troops, protect our friends and allies on a 
regional basis against shorter range missiles. We used those 
defenses in their first manifestation in the gulf war. We had 
them available but did not have to use them in the war with 
Iraq that occurred just a few years ago, and we are certainly 
strengthening that capability.
    But it is just a reality that you cannot have this 
comprehensive defense. We have been able to ratchet those 
offensive forces down very dramatically, but it is a legitimate 
issue to say as they come down, what is the offense/defense 
situation. And that will remain a concern or consideration as 
we look into the future.
    Senator Lugar [presiding]. I would just add that parallel 
with this is, of course, an intense look at our strategic 
posture review and whether our warheads work, whether our 
missiles--in other words, the credibility of our retaliation 
comes down to the fact that we have all of these weapons. And 
now we want to make certain that they work. So as I understand 
the Defense Department is asking for several billion dollars 
more over the course of the next few years to either upgrade or 
make certain or to relook at all of this so that there is 
credibility on our part, and a major reason why we do not 
anticipate another nation is going to strike is because we do 
have a plethora of these weapons with which to retaliate.
    Dr. Warner. It is that combination of delivery systems, of 
modern, effective retaliatory delivery systems, and the weapons 
themselves. And an important issue that has been raised by the 
Members of the Senate is this question of the reliability, the 
safety, effectiveness, and reliability of our nuclear weapons 
stockpile. And I made reference to it. It will be discussed 
tomorrow. There is a major investment being made into life 
extension programs for the weapons that go into--for missiles 
and for the bombs that can be delivered by, for instance, the 
B-2 bomber. And there is a major investment to be made in the 
physical infrastructure and the human capital infrastructure of 
the system that maintains our nuclear stockpile of reliable, 
effective weapons.
    Senator Lugar. Secretary Gottemoeller, do you have a 
comment?
    Ms. Gottemoeller. Senator Lugar, I would just like to 
underscore one point that we have not yet addressed this 
afternoon, and that is that the United States has been talking 
very extensively to Russia about missile defense cooperation. 
And indeed, although we emphasized throughout these 
negotiations in Geneva on the New START Treaty that this treaty 
was only about strategic offensive armaments, not about 
strategic defenses, nevertheless my Under Secretary, Ellen 
Tauscher, has been working very extensively with the Russians 
to develop missile defense cooperation, and that was a theme 
that in another venue we would be very keen to work with them 
on developing missile defense cooperation because we do take 
note in the preamble to the treaty that as the numbers of 
strategic offensive forces are reduced, the interrelationship 
between strategic offensive arms and strategic defensive arms 
will become more important and that, therefore, we will have to 
take account of these trend lines and so will the Russian 
Federation. But the view is that a considerable cooperative 
program could be developed in the course of the coming years 
that would lead both sides to be able to work together to 
tackle missile problems both on a regional basis and perhaps on 
a national basis as well.
    Senator Lugar. Well, that would be an ideal outcome and a 
way of ratification that we began to work with Russia seriously 
on missile defense in which both of us undertook steps and 
cooperation as opposed to there being an adversarial 
relationship taken for granted that was a great peril to both 
of our nations. It could be the peoples of both countries would 
appreciate that new turn of events in much the same way that 
you hope--and I do too--that a new treaty negotiation would get 
into the tactical nuclear weapons in a serious way because this 
is a question raised by some who are not certain about 
ratification of this treaty. That is, the Russians are left 
with a 10-to-1 ratio, or however they characterize it in terms 
of tactical nuclear weapons, and nothing really is resolved in 
this treaty. This is still down the trail.
    One response has been, well, it will not be resolved until 
we really get back to the table again, and to set the table, 
the ratification of this treaty is required as an interim step 
in all of this as I understand it.
    I mention once again, as I did at the outset, in part as 
conclusion, that some Members of the Senate who are undecided 
about ratification on the treaty are still focused on what is 
in the report we are going to have from the intelligence 
agencies, quite apart from the additional report from the State 
Department.
    Now, it could very well be that officials in both of these 
instances feel that there has never been that much urgency in 
the past, that when they got around to it, they would forward 
the reports. I would just say that given the timetables of the 
Senate schedule and our requests of Senator Reid, the majority 
leader, for a time to consider this treaty during this calendar 
year, quite apart from the stretch of time after the Fourth of 
July recess or the stretch of time between Labor Day and 
dismissal for the elections, with or without a lame duck 
session, we are really coming down to a point of urgency that 
all the cards on the table and all the information is 
available.
    Now, in terms of history, whenever it comes forward, it 
will be interesting to somebody. But in terms of ratification 
of this treaty now, this is why I keep droning on and on about 
the need to get on with it. I am hopeful this has not caused 
great bureaucratic distress, but if so, I am prepared to try to 
create some of that just to make sure that we are serious about 
something that is going to be required.
    It may be, as you pointed out, that the diplomatic record 
as a matter of precedent is not available so there is not 
posturing during the negotiations and so forth. But at the same 
time, the intelligence record is usually available, and we are 
going to have probably more closed hearings to try to discuss 
that, in addition to open hearings that will give citizens an 
opportunity to form an opinion.
    Well, we thank both of you very much for your preparation 
for both hearings, the closed hearing and this very important 
open hearing and likewise for your continued counsel of the 
committee. Thank you for your leadership in formulating this 
treaty.
    Having said that, on behalf of the chairman, I will state 
that we will keep the record open for questions and statements 
for 1 week from today.
    That then would conclude our committee record of this 
particular session. And having said that, the committee is 
adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Assistant Secretary Rose Gottemoeller and Dr. Edward L. 
           Warner III to Questions Submitted by Senator Lugar

                              the preamble
    The article-by-article analysis states that, with regard to the 
seventh preambular paragraph, ``In the U.S. view, follow-on 
negotiations with Russia should address nonstrategic nuclear weapon and 
nondeployed nuclear weapon stockpiles.''

    Question. What is the view of the Russian Federation with regard to 
future negotiations regarding nonstrategic, that is, tactical nuclear 
weapons?

    Answer. As agreed by Presidents Obama and Medvedev in April 2009, 
the New START Treaty was negotiated in order to reduce and limit the 
two nations' strategic offensive arms; therefore the issue of tactical 
nuclear weapons was not part of the negotiations. President Medvedev 
has expressed interest in further discussions on measures to further 
reduce both nations' nuclear arsenals. As President Obama commented in 
Prague when he signed the New START Treaty, we intend to pursue further 
reductions in strategic and nonstrategic/tactical nuclear weapons, 
including nondeployed weapons, in future discussions with Russia. Such 
discussions will follow appropriate consultations with our allies.

    Question. In connection with the New START Treaty, during its 
negotiation, did the United States raise the issue of Russia's tactical 
nuclear weapons?

    Answer. No. From the outset, the New START Treaty negotiations were 
to be about strategic offensive arms. This direction from President 
Obama and President Medvedev was contained in their Joint Statement 
issued in London on April 1, 2009, as the negotiations were about to 
begin.

    Question. What is the position of the Russian Federation regarding 
limitation or reduction of ``nondeployed nuclear weapon stockpiles''?

    Answer. To date, there have been no treaties with Russia that 
include limitations on or reductions of nondeployed nuclear weapons 
stockpiles. We intend to explore limitations on and reductions in 
strategic and nonstrategic/tactical nuclear weapons, including 
nondeployed weapons, in future discussions with Russia.

    Question. Does Russia maintain a significant number of nondeployed 
nuclear weapons or stockpiles of such?

    Answer. A classified response to be provided separately.

    Question. How do you define a ``nondeployed nuclear weapon 
stockpile.''

    Answer. The term ``nondeployed nuclear weapon stockpile'' is not 
used in the New START Treaty. Generally speaking, the term 
``nondeployed nuclear weapon stockpile'' refers to all nuclear warheads 
and armaments that are not physically emplaced or located on a deployed 
delivery vehicle.

    Question. The preamble notes that the Parties are ``endeavoring to 
reduce further the role and importance of nuclear weapons.'' For the 
United States, what steps have been taken consistent with this 
statement, and what steps has Russia taken, in the opinion of the 
administration, that are consistent with this statement?

    Answer. The U.S. 2010 Nuclear Posture Review Report outlines 
concrete steps for reducing the role and numbers of nuclear weapons in 
U.S. security strategy. Given changes in the security environment and 
the strong and improving U.S. conventional military capabilities, the 
United States can deter adversaries and assure allies of our continuing 
commitment with reduced reliance on nuclear weapons and at the lower 
nuclear force levels represented by the New START Treaty.
    As stated in the Nuclear Posture Review Report, the United States 
would only consider the use of nuclear weapons in extreme circumstances 
to defend the vital interests of the United States or its allies and 
partners. The United States will continue to strengthen missile 
defenses, counter-WMD capabilities, and other conventional 
capabilities, and to reduce the role of nuclear weapons in deterring 
nonnuclear attacks, with the objective of making deterrence of nuclear 
attack on the United States or our allies and partners the sole purpose 
of U.S. nuclear weapons. The United States will not develop new nuclear 
warheads.
    By signing the New START Treaty, Russia has joined us in 
endeavoring to reduce the role and importance of nuclear weapons. 
Russia's implementation of the New START Treaty will result in the 
lowest levels of deployed strategic nuclear weapons and their delivery 
vehicles since the early days of the cold war.

    Question. Paragraph 10 of the preamble states the Parties are 
``Mindful of the impact of conventionally armed ICBMs and SLBMs on 
strategic stability.''

  <bullet> For the United States, what would be the impact on strategic 
        stability of such systems?
  <bullet> What numbers and kinds of such systems (ICBMs or SLBMs) have 
        the greatest impact on strategic stability?
  <bullet> For the Russian Federation, what is the impact on its 
        strategic stability of conventionally armed ICBMs and SLBMs?

    Answer. In our efforts to reduce the role of nuclear weapons and to 
develop the capability to precisely strike time-sensitive, high value 
targets, the United States is considering the development of prompt 
conventional global strike capabilities. The number of such systems, if 
the United States elects to deploy them, will be small and they will 
not threaten strategic stability. The deployment of a nonnuclear prompt 
global strike system would provide the United States with a capability 
that we currently lack: the ability to hit precisely a target anywhere 
on the earth in less than 1 hour using a nonnuclear warhead. At the 
same time, depending on technical and operational details, such systems 
could raise a number of challenges, including potential overflight of 
other countries, and the ability to distinguish between the launch of 
nonnuclear-armed as opposed to nuclear-armed systems.
    While our analysis of potential U.S. nonnuclear prompt global 
strike systems is still underway, DOD has concluded that any deployment 
of conventionally armed ICBMs or SLBMs, which would count under the 
treaty's limits, should be limited to a niche capability. DOD is also 
exploring the potential of conventionally armed, long-range systems not 
associated with an ICBM or SLBM that fly a nonballistic trajectory 
(e.g., boost-glide systems). Such systems would have the advantage that 
they could ``steer around'' other countries to avoid overflight and 
have flight trajectories distinguishable from an ICBM or SLBM.
    If the United States chooses to acquire conventional prompt global 
strike systems, such systems would not be acquired for use against 
Russia. Moreover, because any U.S. plans for acquiring conventional 
prompt global strike systems would be limited to small number of such 
systems, Russia could be assured that they would not pose a threat to 
the survivability of the Russian nuclear deterrent.
    It appears that Russia believes the deployment of conventionally 
armed ICBMs and SLBMs would have an impact on strategic stability, if 
they were accurate and numerous enough to hold at risk a significant 
portion of Russia's deployed strategic deterrent systems. Russian 
commentators have raised the concern that the threshold for launching 
conventionally armed ICBMs and SLBMs might be lower than that for 
launching a nuclear-armed missile, and that this would be 
destabilizing. Finally, Russian observers have also expressed concerns 
about the possibility that one would not be able to determine whether a 
conventionally armed ICBM or SLBM in flight was, in fact, 
conventionally armed, and whether it was being targeted on a third 
country or on Russia.

    Question. The preambular paragraphs note the Parties' deep 
appreciation for the contributions of Belarus, Kazakhstan, and Ukraine 
as nonnuclear weapon states to strengthening the NPT regime. What role 
did Nunn-Lugar/Cooperative Threat Reduction assistance play in ensuring 
that these three states became nonnuclear weapon states?

    Answer. The Nunn-Lugar/Cooperative Threat Reduction (CTR) program 
was instrumental in ensuring that these three states became nonnuclear 
weapon states. The program provided these states with essential 
confidence that they would not be saddled with the entire bill for the 
denuclearization process. Some key examples: The program funded the 
shipment of 1,900 warheads from Ukraine to Russia for eventual 
dismantlement. This was an important precedent, which led to the longer 
term Nuclear Weapons Transportation Security (NWTS) program with 
Russia. To date, NWTS has completed 477 rail shipments of nuclear 
weapons from operational sites to dismantlement facilities or from less 
secure to more secure central storage sites.
    Additional projects under the CTR program included the development 
of Government-to-Government Communications Links (GGCL), defense 
conversion projects, and security enhancements (e.g., Kevlar blankets 
to protect nuclear weapons in transit and refurbished railcars with 
security sensors) for the shipment of the nuclear warheads from 
Belarus, Kazakhstan, and Ukraine back to Russia.
              start i and new start terms and definitions
    Question. Under New START, the term ``air base'' means ``a 
facility, other than a production facility for heavy bombers, a heavy 
bomber flight test center, or a training facility for heavy bombers, at 
which heavy bombers or former heavy bombers are based and their 
operation is supported.'' Under START I, this definition included 
``other than a production facility for heavy bombers, a heavy bomber 
flight test center, or a training facility for heavy bombers'' but that 
language is omitted from the definition of ``air base'' in New START. 
What is the significance of this omission? Why does New START appear to 
narrow the definition?

    Answer. Under New START, the term ``air base'' means a facility at 
which ``deployed'' heavy bombers are based and their operation is 
supported. The term does not include any reference to production 
facilities for heavy bombers, repair facilities for heavy bombers, or 
heavy bomber flight test centers because a heavy bomber based at such a 
facility would not be considered to be a ``deployed heavy bomber,'' as 
that term is defined in the New START Treaty (definition #12); i.e., 
``a heavy bomber equipped for nuclear armaments, other than a test 
heavy bomber or a heavy bomber located at a repair facility or at a 
production facility.'' In START, the term ``air base'' also included 
bases for ``former'' heavy bombers; i.e., those not equipped for 
nuclear armaments, and this category was not carried over into New 
START.

    Question. Under New START Terms and Definitions 3, why is the 
reference to the provisions of the Inspection Protocol not included in 
the definition of ``aircrew member''?

    Answer. The reference to the Inspection Protocol was deemed useful 
in the START Treaty because definitions in START were contained in an 
Annex to the treaty and not located within the same instrument as the 
inspection procedures. In New START, both the definitions and the 
inspection-related provisions are contained in the same instrument, the 
Protocol, with little likelihood of ambiguity. Therefore, this 
definition was simplified, with no change in the meaning of the 
underlying provisions.

    Question. Under New START Terms and Definitions 9, the definition 
of the term ``conversion or elimination facility'' does not include 
language in START I describing launch canisters ``that remain after 
flight tests of ICBMs for mobile launchers of ICBMs, or ICBMs for 
mobile launchers of ICBMs or first stages of such ICBMs that remain 
after static testing.'' Why was this language excluded?

    Answer. It is important to recognize that conversion or elimination 
may be carried out at any declared facility, not just at the facilities 
declared to be ``conversion or elimination facilities.'' That being 
said, under the New START Treaty, conversion or elimination facilities 
may be used to eliminate all types of launch canisters, and not only 
those that remain after flight tests. Therefore, the New START 
Definition 9 states simply that, for ICBMs or SLBMs, a conversion or 
elimination facility is ``a specified facility for the elimination of 
ICBMs, SLBMs, and launch canisters.'' In addition, under New START, 
static testing is another means of eliminating an ICBM or SLBM. It can 
be carried out at a conversion or elimination facility, or at a 
specified location where static testing is conducted. There is also no 
requirement to transport to a conversion or elimination facility any 
launch canister that remained after a flight test from a test range, 
for instance; such a launch canister could be eliminated in situ, that 
is, at the test range.

    Question. Under New START Terms and Definitions 12, why was the 
phrase ``other than a test heavy bomber or a heavy bomber located at a 
repair facility or at a production facility'' included in the 
definition of a ``deployed heavy bomber''? It was not in START I. Why 
were ``training heavy bombers'' excluded?

    Answer. The reason for the inclusion of this phrase was based on 
the definition of the term ``air base'' in New START; i.e., a facility 
at which ``deployed'' heavy bombers are based and their operation is 
supported. Because that term does not include an exemption for 
production facilities for heavy bombers, repair facilities for heavy 
bombers, or heavy bomber flight test centers, as was done in the 
corresponding definition in START (definition #1), it was necessary to 
include those exemptions in the definition of ``deployed heavy 
bomber.'' Training heavy bombers were not included in New START because 
neither Party has them.

    Question. Under New START Terms and Definitions 13, what is the 
significance of defining a ``deployed ICBM'' as ``in or on a deployed 
launcher of ICBMs''? Why does the definition of a ``deployed ICBM'' no 
longer include ICBMs that are ``considered to be contained'' in a 
deployed launcher of ICBMs, as was the case under START I?

    Answer. Deployed ICBMs for silo launchers are contained ``in'' 
their launchers, while deployed ICBMs for mobile launchers are 
contained ``on'' their launchers.
    The definitions for when ICBMs are deployed and nondeployed are 
different in New START from the START Treaty. In New START, a deployed 
ICBM or deployed SLBM is an ICBM or SLBM that is contained in or on a 
deployed launcher of ICBMs or SLBMs. When ICBMs or SLBMs are removed 
from their launchers for any reason--for example, for maintenance--both 
the missile and launcher become nondeployed for purposes of the treaty, 
and a notification of this change in status is provided within 5 days, 
leading to a corresponding adjustment in the New START Treaty's 
database. Under START, each deployed launcher of ICBMs was considered 
to contain one deployed ICBM, whether or not it actually contained an 
ICBM. The concept of ``considered to contain'' is not used in New 
START.

    Question. Under New START Terms and Definitions 14, a ``deployed 
launcher of ICBMs'' is defined as an ``ICBM launcher that contains an 
ICBM and is not an ICBM test launcher, an ICBM training launcher, or an 
ICBM launcher located at a space launch facility.'' Why are silo 
launchers or deployed mobile launchers of ICBMs no longer referenced in 
this definition, as they were in START I?

    Answer. The term ``ICBM launcher'' (definition #28) means a device 
intended or used to contain, prepare for launch, and launch an ICBM, 
and thus includes both silo launchers of ICBMs and mobile launchers of 
ICBMs. Upon review of the corresponding START Treaty definitions, it 
was determined that there was no treaty-based need to distinguish 
between silo and mobile launchers when using the defined term ``ICBM 
launcher'' in this context.

    Question. Under New START Terms and Definitions 15, why does the 
definition of ``deployed launcher of SLBMs'' now include the phrase 
``that contains an SLBM, and is not intended for testing or training''?

    Answer. The definitions for when SLBMs are deployed and nondeployed 
are different in New START from the START Treaty. Under New START, only 
launchers that contain missiles are considered to be deployed. When 
SLBMs are removed from their launchers for any reason--for example, for 
maintenance--both the missile and launcher become nondeployed for 
purposes of the treaty, and a notification of this change in status is 
provided within 5 days, leading to a corresponding adjustment in the 
New START Treaty's database. Under START, each deployed launcher of 
SLBMs was considered to contain a deployed SLBM, whether or not it 
actually contained an SLBM.
    The phrase ``not intended for testing or training'' reflects the 
definition of the term ``nondeployed launcher of SLBMs'' (definition 
#50); i.e., an SLBM launcher, other than a soft-site launcher, that is 
intended for testing or training, or an SLBM launcher that does not 
contain a deployed SLBM. Thus, the phrase is used as a way to 
distinguish between deployed and nondeployed launchers of SLBMs, and, 
to be consistent with the two defined terms, the phrase must be stated 
in the negative and affirmative, respectively.

    Question. Under New START Terms and Definitions 16, why does the 
definition of ``deployed mobile launcher of ICBMs'' no longer include 
mobile launchers of ICBMs that are ``considered to contain'' ICBMs, as 
was the case in START I?

    Answer. The definitions for when ICBMs are deployed and nondeployed 
are different in New START from the START Treaty. Under New START, a 
deployed ICBM is an ICBM that is contained in or on a deployed launcher 
of such missiles. When ICBMs are removed from their launchers for any 
reason--for example, for maintenance--both the missile and launcher 
become nondeployed for purposes of the treaty, and a notification of 
this change in status is provided within 5 days, leading to a 
corresponding adjustment in the New START Treaty's database. Under 
START, each deployed mobile launcher of ICBMs was considered to contain 
a deployed ICBM, whether or not it actually contained an ICBM.

    Question. Under New START Terms and Definitions 17, why does the 
term ``deployed SLBM'' no longer refer to SLBMs that are ``considered 
to be contained'' in a deployed launcher of SLBMs, as was the case in 
START I?

    Answer. The definitions for when SLBMs are deployed and nondeployed 
are different in New START from the START Treaty. Under New START, only 
launchers that contain missiles are considered to be deployed. When 
SLBMs are removed from their launchers for any reason--for example, for 
maintenance--both the missile and launcher become nondeployed for 
purposes of the treaty, and a notification of this change in status is 
provided within 5 days, leading to a corresponding adjustment in the 
New START Treaty's database. Under START, each deployed launcher of 
SLBMs was considered to contain a deployed SLBM, whether or not it 
actually contained an SLBM.

    Question. Under New START Terms and Definitions 20, why does the 
definition of ``facility'' include basing areas? Why does this 
definition eliminate references to rail garrisons, restricted areas, 
parking sites, and static display sites that were included in START I?

    Answer. Unless a Party declares a base or other area to be a 
``facility,'' treaty-limited items are not permitted to be located at 
that location. A basing area had to be considered a ``facility'' under 
New START because it is a place where deployed mobile launchers of 
ICBMs are based and at which fixed structures for mobile launchers of 
ICBMs are located.
    The terms ``rail garrison,'' ``restricted area,'' ``parking site,'' 
and ``static display'' site are not used in New START and thus are not 
included in the definition of ``facility.''

    Question. Under New START Terms and Definitions 21, what is the 
significance of defining a ``fixed structure for mobile launchers of 
ICBMs'' as a ``unique structure, within a basing area, designed to 
contain mobile launchers of ICBMs'' instead of a fixed structure for 
both road-mobile launchers and rail mobile launchers of ICBMs as was 
the case in START I?

    Answer. Neither side has rail-mobile launchers of ICBMs, so a 
reference to them was deemed unnecessary. The START term ``fixed 
structure for road-mobile launchers of ICBMs'' (definition #31) was 
defined as a ``unique structure, within a `restricted area', that can 
contain road-mobile launchers of ICBMs.'' Because the concept of 
``restricted area'' is not used in New START, the corresponding concept 
of ``basing area'' was substituted for ``restricted area'' in New 
START, and the editing of the phrase, ``can contain,'' to ``designed to 
contain'' was intended to clarify, rather than change, the intent of 
that phrase as it is used in New START.

    Question. Under New START Terms and Definitions 24, why does the 
definition of ``heavy bomber equipped for nonnuclear armaments'' omit 
references to ``nonmodern heavy bombers'' and the conversion 
requirements of the New START Conversion and Elimination Protocol? Why 
does it define nonnuclear armaments as any armaments other than ``long-
range nuclear ALCMs, nuclear air-to-surface missiles, or nuclear 
bombs''?

    Answer. In START, only nonmodern heavy bombers could be converted 
to heavy bombers equipped for nonnuclear armaments, which limited such 
conversions to heavy bombers of a type, any one of which was initially 
based at an air base more than 10 years prior to the time at which the 
determination of ``modern'' versus ``nonmodern'' status is being made. 
At the time of signature of the START Treaty, no such bombers existed 
for either side. The New START Treaty no longer has this limitation.
    New START Treaty Terms and Definitions (definition #53) define 
nuclear armaments as ``long-range nuclear ALCMs, nuclear air-to-surface 
missiles, or nuclear bombs.'' To ensure that there was no ambiguity, 
the words ``nonnuclear armaments'' that appear in the phrase, 
``equipped for nonnuclear armaments'' are clarified to mean exactly the 
obverse of what ``nuclear armaments'' means.

    Question. Under New START Terms and Definitions 27, why are rail-
mobile launchers and road-mobile launchers not specifically mentioned 
in the definition of an ICBM base? Why do ``basing areas'' replace 
START I's ``restricted areas'' in this definition?

    Answer. Neither side has rail-mobile launchers of ICBMs, so a 
distinction between rail-mobile launchers and road-mobile launchers was 
unnecessary.
    The term ``restricted area'' is not used in New START. The 
corresponding concept of ``basing area'' was substituted for 
``restricted area.'' Under START, deployed road-mobile launchers of 
ICBMs and their associated missiles could be based only in restricted 
areas, the number and type of such launchers and missiles was limited 
within a restricted area, the size of the restricted area was limited 
to no more than 5 square kilometers, and restricted areas could not 
overlap. There are no equivalent restrictions in the New START Treaty 
related to basing areas.

    Question. Under New START Terms and Definitions 30, what is the 
significance of omitting references to monitors and the Inspection 
Protocol in the definition of an ``in-country escort''?

    Answer. In START, a monitor was defined as ``an individual 
specified by one of the Parties to conduct continuous monitoring 
activities'' (definition #66). Under New START, there are two types of 
inspection activities as well as exhibitions, but there are no 
continuous monitoring activities as were carried out under START. With 
respect to the omission of the reference to the Inspection Protocol, 
the reference to the Inspection Protocol was deemed useful in the START 
Treaty because definitions in START were contained in an Annex to the 
treaty and not located within the same instrument as the inspection 
procedures. In New START, both the definitions and the inspection-
related provisions are contained in the same instrument, the Protocol, 
with little likelihood of ambiguity. Therefore, this definition was 
simplified, with no change in the meaning of the underlying provisions.

    Question. Under New START Terms and Definitions 34, what is the 
significance of excluding a ``facility'' in the definition of an 
``inspection site''?

    Answer. The inclusion of words, ``facility'' and ``location,'' in 
the corresponding definition in START (definition #51), was due to a 
linguistic issue raised by the Russian side during the negotiation of 
that treaty. Based on Russian usage, in certain contexts the word 
``facility'' in English was translated by a Russian word that in other 
contexts would mean ``location,'' and in other contexts by the Russian 
word that meant ``facility.'' Thus, to ensure that there was no 
ambiguity, both words, ``facility and location,'' were used in START. 
During the negotiation of the New START Treaty, however, the Russian 
side agreed that it was not necessary to make this distinction and 
agreed to use the word with the widest application; i.e., ``location.''

    Question. Under New START Terms and Definitions 39, why does the 
definition of a ``launch canister'' capture SLBMs?

    Answer. When the START Treaty was agreed, Russia did not have any 
SLBMs that employed launch canisters. However, Russia's new Bulava SLBM 
is maintained, stored, and transported in a launch canister.

    Question. Under New START Terms and Definitions 45, the term 
``mobile launcher of ICBMs'' is defined as an ``erector-launcher 
mechanism for launching ICBMs and the self-propelled device on which it 
is mounted.'' Why does this definition exclude the terms road-mobile 
launcher and rail-mobile launchers of ICBMs as was the case in START I?

    Answer. Neither side has rail-mobile launchers of ICBMs, so a 
distinction between rail-mobile launchers and road-mobile launchers was 
unnecessary.

    Question. Under New START Terms and Definitions 46, what is the 
significance of the decreased percentages associated with the length of 
the assembled missiles without front sections, the length of first 
stages, and the diameter of accountable first stages?

    Answer. Under the START Treaty there were a number of restrictions 
that applied to new types of ICBMs or SLBMs that do not apply under the 
New START Treaty. These restrictions were driven by START's 
attribution-based approach for warhead counting. For example, under the 
START Treaty, a Party could not attribute a new type of ICBM or SLBM 
with a number of warheads greater than the lowest number of warheads 
attributed to a type of ICBM or SLBM, respectively, for which the 
attribution had been reduced. It was agreed in START that only 
significant changes to ICBMs or SLBMs should trigger these new type 
restrictions.
    The New START Treaty contains no such attribution rules. Therefore, 
the Parties agreed that the percentage changes previously associated 
with a new variant under START (see START's 25th Agreed Statement) 
would be the criteria for declaring a new type under New START.
    The New START Treaty requires exhibitions of each new type of ICBM 
or SLBM. The reduced amount of change necessary to meet the new type 
criteria reflects a tighter standard for requiring the conduct of new 
type exhibitions after changes are made from existing types of ICBMs 
and SLBMs.

    Question. Under New START Terms and Definitions 48, what is the 
significance of adding ``on a deployed launcher of ICBMs'' to the 
definition of ``nondeployed ICBMs''? What is the significance of 
excluding ICBMs ``not considered to be contained'' in a deployed 
launcher of ICBMs from the definition?

    Answer. Deployed ICBMs for silo launchers are contained ``in'' 
their launchers, while deployed ICBMs for mobile launchers are 
contained ``on'' their launchers.
    A deployed ICBM or SLBM is an ICBM or SLBM that is contained in or 
on a deployed launcher of such missiles. When ICBMs or SLBMs are 
removed from their launchers for any reason--for example, for 
maintenance--both the missile and launcher become nondeployed for 
purposes of the treaty, and a notification of this change in status is 
provided within 5 days, leading to a corresponding adjustment in the 
New START Treaty's database. Under START, each deployed launcher of 
ICBMs was considered to contain one deployed ICBM, whether or not it 
actually contained an ICBM.

    Question. Under New START Terms and Definitions 51, why does the 
definition of ``nondeployed mobile launcher of ICBMs'' include the 
phrase ``unless otherwise agreed by the Parties'' which was not 
included in START I's definition? Why are mobile launchers ``not 
considered to contain'' ICBMs excluded from this definition?

    Answer. A classified response will be provided separately.

    Question. Under New START Terms and Definitions 52, why does the 
definition of the term ``nondeployed SLBM'' exclude SLBMs ``not 
considered to be contained'' in a deployed launcher of SLBMs?

    Answer. There is no concept of ``considered to contain'' or ``not 
considered to contain'' a missile in New START. A deployed SLBM is an 
SLBM that is contained in a deployed launcher of such missiles. When 
SLBMs are removed from their launchers for any reason--for example, for 
maintenance--both the missile and launcher become nondeployed for 
purposes of the treaty, and a notification of this change in status is 
provided within 5 days, leading to a corresponding adjustment in the 
New START Treaty's database. Under START, each deployed launcher of 
SLBMs was considered to contain one deployed SLBM, whether or not it 
actually contained an SLBM.

    Question. Under New START Terms and Definitions 57 part A.i, why 
are SLBMs included in the New START definition of a ``production 
facility''? In part C, why is the phrase ``self-propelled chassis, 
trailer chassis, railcar, or flatcar'' omitted from this definition?

    Answer. SLBMs are included in the New START definition of a 
``production facility'' because Russia's new Bulava SLBM is maintained, 
stored, and transported in a launch canister. When the START Treaty was 
agreed, Russia did not have any SLBMs that employed launch canisters.
    Neither side has rail-mobile launchers of ICBMs, so the references 
to trailer chassis, railcars, or flatcars were not included in New 
START. The phrase, ``self-propelled device,'' was deemed to be more 
inclusive than ``self-propelled chassis'' that was used in START and 
was therefore substituted. This is also the phrase used in the 
definition of ``mobile launcher of ICBMs'' (definition #45).

    Question. Under New START Terms and Definitions 58, why are 
missiles referred to as ``launched'' instead of ``flight-tested'' in 
this definition?

    Answer. The START Treaty definition of ``flight test'' (definition 
#32) was ``the launch and subsequent flight of a missile;'' there was 
no definition of ``launch'' in START. Under the New START Treaty, the 
term ``launch'' (definition #38) means the initial motion and 
subsequent flight of an ICBM or SLBM. The term ``launch'' as used in 
this treaty has the same meaning that the term ``flight test'' had in 
START. Despite the change in terminology, the Parties' understanding of 
their treaty obligations with regard to such limitations under New 
START will remain the same as they were in START. The term ``launch'' 
does not require flight for a minimum distance or period of time.

    Question. Under New START Terms and Definitions 65, why is the 
``silo launcher of ICBMs'' no longer defined as a ``fixed'' site?

    Answer. The word ``fixed'' was considered to be redundant within 
the context of the remainder of the definition: an ICBM launcher ``in a 
silo structure located in the ground'' (emphasis added). There is no 
change in the intent of the sides as to what is a silo launcher of 
ICBMs.

    Question. Under New START Terms and Definitions 74, why is the 
phrase ``that can provide its payload with an additional velocity of 
more than 1,000 meters per second'' omitted? Why does a ``self-
contained dispensing mechanism'' qualify as an exception in New START?

    Answer. The velocity criterion was used in START (definition #105) 
to distinguish a stage from other propulsive devices, such as self-
contained dispensing mechanisms. By specifying in the New START 
definition that the ``self-contained dispensing mechanism'' was not a 
stage, there was no need to include this criterion, but the result is 
identical under START and New START as to what is considered to be a 
stage.

    Question. Under New START Terms and Definitions 76, why is a 
provision added that addresses ``submarines that had been previously 
equipped with SLBM launchers but after conversion are incapable of 
launching SLBMs''?

    Answer. This acknowledges the existence of submarines that have 
been converted from ballistic missile submarines to submarines equipped 
with launchers of cruise missiles, which are known as SSGNs by the 
United States and are further described in the Second Agreed Statement 
in Part Nine of the Protocol. Such submarines may be located at 
submarine bases where SSBNs are based, but the converted, former SLBM 
launchers in them are not accountable as launchers of SLBMs under New 
START.

    Question. Under New START Terms and Definitions 78, what is the 
significance of defining ``telemetric information'' in terms of 
``initial motion and subsequent flight that is broadcast'' instead of 
all information broadcasted and recorded during flight tests?

    Answer. The START Treaty definition of ``flight test'' (definition 
#32) was ``the launch and subsequent flight of a missile.'' As noted in 
the answer to question #32, there was no definition of ``launch'' in 
the START Treaty. ``Launch'' is defined (definition #38) in the New 
START Treaty as ``the initial motion and subsequent flight of an ICBM 
or SLBM.'' Despite the change in terminology, the Parties' 
understanding of their treaty obligations under New START will remain 
the same as those in START. The change in terminology from ``flight 
test'' in the START Treaty to ``launch'' in the New START Treaty makes 
the New START Treaty consistent with the terminology used in the 
Ballistic Missile Launch Notification Agreement of 1988. The term 
``launch'' as used in the New START Treaty has the same meaning that 
the term ``flight test'' had in START.
    The START Treaty definition of ``telemetric information'' 
(definition #111) was ``information that originates on board a missile 
during its flight test that is broadcast or recorded for subsequent 
recovery.'' The New START Treaty definition of ``telemetric 
information'' (definition #78) is ``information that originates on 
board a missile during its initial motion and subsequent flight that is 
broadcast.'' This should be read to mean that the only substantive 
change from the START Treaty definition to the New START Treaty 
definition of ``telemetric information,'' which substitutes the meaning 
of the term ``launch'' for the term ``flight test,'' is the deletion of 
the phrase ``or recorded for subsequent recovery.'' This means that 
encapsulated information recorded during the test launch of an ICBM or 
SLBM is not considered to be telemetric information for purposes of the 
New START Treaty, while it was considered to be telemetric information 
for the purposes of the START Treaty.

    Question. Under New START Terms and Definitions 80, why is the 
phrase ``unless otherwise provided for in the treaty'' eliminated from 
the definition of a ``test launcher''?

    Answer. Under the START Treaty, the reason for that phrase was so 
that rail-mobile test launchers could conduct limited movements for the 
purpose of testing outside a test range. Since neither side has rail-
mobile launchers, and there is no equivalent provision concerning 
movement of a test launcher outside of a test range, this phrase was 
not carried forward into New START.

    Question. Under New START Terms and Definitions 82, why is the 
reference to heavy bombers made in START I eliminated from the 
definition of a ``training facility''?

    Answer. Since neither Party has training heavy bombers, the Parties 
agreed that there was no need for the category of ``training facilities 
for heavy bombers.''

    Question. Under New START Terms and Definitions 85, why does the 
definition of ``transit'' omit references to ICBMs and SLBMs of a 
retired or former type? Why does this definition omit provision C (from 
START I, term 119) addressing a ``launch canister that remains after 
the flight test of an ICBM for mobile launchers of ICBMs''?

    Answer. The New START Treaty did not retain the START concepts, or 
the terms associated with those concepts, of ICBMs and SLBMs of a 
retired type or a former type, so the definition of transit does not 
include references to such types of ICBMs or SLBMs.
    The New START Treaty does not require the movement to an 
elimination facility of launch canisters that remain after the flight 
test of an ICBM for mobile launchers of ICBMs, so there is no 
requirement for a notification of their transit from one facility to 
another. However, paragraph 4 of Section II of Part Three of the 
Protocol provides for the elimination of such launch canisters when 
their associated missiles are eliminated. Launch canisters that remain 
after the flight test of an ICBM can be eliminated in situ, that is at 
the test range,

    Question. Under New START Terms and Definitions 87, why is 
provision B (from START I, term 121) regarding long-range nuclear ALCMs 
omitted from the New START definition of ``variant''? Why are ICBMs and 
SLBMs distinguished as ``ICBMs of one type or SLBMs of one type'' 
instead of ``ICBMs or SLBMs of the same type''?

    Answer. There is no requirement in New START that technical data 
for long-range nuclear ALCMs be provided, so there is no need to 
distinguish between ALCMs that have different characteristics within 
the same type.
    The change in wording with respect to ICBMs and SLBMs was for 
textual clarification only and does not change the intent of the sides 
on what constitutes a variant of an ICBM or SLBM.

    Question. Under New START Terms and Definitions 88, why are ``fixed 
structures for mobile launchers of ICBMs and support equipment'' not 
included in the definition of ``version''? What is the significance of 
adding the words ``functional differences'' to this definition?

    Answer. The START Treaty definition of ``version'' (definition 
#122) included the categories of ``fixed structures for mobile 
launchers of ICBMs'' and ``support equipment'' that could be further 
classified, upon declaration by the inspected Party, into different 
versions of that category based on external differences from other such 
items for a particular type of ICBM or SLBM. Such ``versions'' would be 
considered to be equally authoritative models of a given category. 
Because no versions of either fixed structures or support equipment 
were declared during the 15 years of implementing the START Treaty and 
were not envisioned during New START, these categories were not carried 
into the new treaty.
    Under New START, the term ``version'' refers only to mobile 
launchers of ICBMs, and, because versions can be declared at the option 
of the inspected Party, that Party was given the choice of establishing 
differences based on either external differences or functional 
differences, which would then be subject to inspection. The Russian 
delegation during the negotiations made clear that all such versions of 
mobile launchers would have visible distinguishing features.

    Question. Under New START Terms and Definitions 90, why was the 
word ``launched'' added to the description of a ``weapon-delivery 
vehicle''?

    Answer. The START Treaty definition (definition #124) of ``weapon-
delivery vehicle'' used the defined term ``flight test'' to cover both 
the flight test and launch of a missile. The START Treaty definition of 
``flight test'' (definition #32) was ``the launch and subsequent flight 
of a missile;'' there was no definition of ``launch'' in START. Under 
the New START Treaty, the term ``launch'' means the initial motion and 
subsequent flight of an ICBM or SLBM. The term ``launch'' as used in 
the New START Treaty has the same meaning that the term ``flight test'' 
had in START. Despite the change in terminology, the Parties' 
understanding of their treaty obligations will remain the same as in 
START. The term ``launch'' does not require flight for a minimum 
distance or period of time.
                               article i
    Question. The article-by-article analysis notes that the term 
``strategic offensive arm'' is not defined in the New START Treaty. It 
was not defined in START I, either, and yet both treaties reduce and 
limit such arms. Why have the Parties consistently determined not to 
define this term, instead opting for references to existing types of 
weapons the Parties determine to be strategic offensive arms?

    Answer. The term ``strategic offensive arms'' is well understood by 
the Parties to mean strategic delivery vehicles and their launchers. 
``Strategic'' indicates that, in general, the forces covered are those 
of intercontinental range, in contrast to intermediate-range weapons, 
ground-launched variants of which are covered by the treaty between the 
United States of America and the Union of Soviet Socialist Republics on 
the Elimination of Their Intermediate-Range and Shorter-Range Missiles 
(INF Treaty), and shorter range weapons. ``Offensive'' is in contrast 
to defensive strategic arms, such as ballistic missile defense systems.
    The term ``strategic offensive arms'' was also used, but not 
defined, in the Interim Agreement Between the United States of America 
and the Union of Soviet Socialist Republics on Certain Measures With 
Respect to the Limitation of Strategic Offensive Arms'' (SALT I) of May 
26, 1972, the Treaty Between the United States of America and the Union 
of Soviet Socialist Republics on the Limitation of Strategic Offensive 
Arms (SALT II) of June 18, 1979, the Treaty Between the United States 
of America and the Russian Federation on Further Reduction and 
Limitation of Strategic Offensive Arms (START II) of January 3, 1993, 
and the Treaty Between the United States of America and the Russian 
Federation on Strategic Offensive Reductions (Moscow Treaty) of May 24, 
2002.
    As a practical matter, the ``strategic offensive arms'' constrained 
by the New START Treaty are existing delivery systems of strategic 
range--ICBMs, SLBMs, ICBM launchers, SLBM launchers, and heavy bombers 
equipped for nuclear armaments, each of which is defined in the New 
START Treaty. The New START Treaty does not include a general 
definition for strategic offensive arms because it might inadvertently 
fail to address all the theoretical, or as yet undeveloped, systems 
that could or should be considered as strategic offensive arms subject 
to this treaty, or may inadvertently include a system that was not 
intended to be covered by the New START Treaty.
    To overcome the need for such a definition, for the purposes of the 
reductions and limitations provided for in this agreement, the United 
States and Russia have simply listed the specific types of systems to 
be limited and defined those systems so as to capture their modernized 
replacements.
    The New START Treaty also provides that, if a Party believes a new 
kind of strategic offensive arm is emerging, it can raise the issue 
within the Bilateral Consultative Commission for consideration as to 
whether the new arm is a new kind of strategic offensive arm that 
should be subject to the treaty. There is no requirement in the treaty 
for the deploying Party to delay deployment of the new system pending 
such resolution.
                               article ii
    Question. The article-by-article analysis states that: ``A deployed 
ICBM or SLBM is an ICBM or SLBM that is contained in or on a deployed 
launcher of such missiles. Similarly, a deployed launcher of ICBMs is a 
launcher that contains an ICBM and is not an ICBM test launcher, an 
ICBM training launcher, or an ICBM launcher located at a space launch 
facility. A deployed launcher of SLBMs is an SLBM launcher installed on 
a submarine that has been launched, that contains an SLBM, and is not 
intended for testing or training.''

  <bullet> For each existing type of both Russian and U.S. ICBM, SLBM, 
        heavy bomber, ICBM and SLBM launcher listed in paragraph 8 of 
        Article III, describe how each system will be counted as 
        deployed and nondeployed under the criteria described above.

    Answer. For the Russian Federation, existing types of ICBMs are the 
RS-12M, RS-12M2, RS-18, RS-20, and RS-24, and existing types of SLBMs 
are the RSM-50, RSM-52, RSM-54, and RSM-56. When a missile is installed 
in or on a launcher, that missile will be deployed, as will its 
launcher. When the missile is removed from its launcher, that missile 
and its launcher will both be nondeployed.
    For the United States, existing types of ICBMs are the Minuteman 
II, Minuteman III, and Peacekeeper, and the existing type of SLBM is 
the Trident II. When a missile is installed in or on a launcher, that 
missile will be deployed, as will its
launcher. When the missile is removed from its launcher, that missile 
and its launcher will both be nondeployed.
    For the Russian Federation, existing types of heavy bombers are the 
Tu-95MS and Tu-160. For the United States, existing types of heavy 
bombers are the B-52G, B-52H, B-1B, and B-2A. All heavy bombers 
equipped for nuclear armaments are counted as deployed heavy bombers 
unless they are test heavy bombers, or they are heavy bombers equipped 
for nuclear armaments that are located at a repair facility or at a 
production facility. This provision recognizes the reality that heavy 
bombers located at a repair or production facility are not available 
for operational deployment and thus are placed in a nondeployed status.

  <bullet> Clause (b) of paragraph (1) of Article II requires, within 7 
        years from the date of entry into force, that the Parties 
        deploy no more than 1,550 warheads on deployed ICBMs, SLBMs and 
        deployed heavy bombers. How will this limit be verified using 
        NTM and measures contained in the treaty to verify that this is 
        the total number of warheads deployed by Russia?

    Answer. The aggregate number of warheads emplaced on deployed ICBMs 
and SLBMs is declared for each ICBM and submarine base as part of the 
regular data exchange required by the treaty. Type One inspections are 
conducted at ICBM and submarine bases for the purpose of spot checking 
the declarations regarding the number of warheads emplaced on deployed 
ICBMs and SLBMs by counting reentry vehicles. During Type One 
inspections, inspectors will be informed of the number of warheads 
emplaced on each individual ICBM or SLBM located at the ICBM or 
submarine base, respectively, at the time of the inspection and will 
have the right to select one deployed ICBM in or on its launcher or one 
SLBM in its SLBM launcher for inspection for the purpose of confirming 
the number of warheads declared to be emplaced on that missile, and to 
confirm the Unique Identifier for that missile.
    The numbers of deployed and nondeployed heavy bombers equipped for 
nuclear armaments are limited in that they are included within the 
aggregate limits on deployed strategic delivery vehicles and deployed 
and nondeployed ballistic missile launchers and heavy bombers. Each 
deployed heavy bomber is attributed with one warhead.
    The combination of notifications, UIDs, inspections, NTM, and 
independent intelligence will greatly facilitate the ability of the 
United States to maintain an accurate accounting of all declared ICBMs, 
SLBMs, their warheads, and heavy bombers.
    For more information on the use of NTM and treaty verification 
measures, please see the classified National Intelligence Estimate on 
the Intelligence Community's ability to monitor the New START Treaty.

  <bullet> In particular, please explain how the criteria noted in (a) 
        would apply to mobile launchers of ICBMs.

    Answer. When a missile is installed on a mobile launcher of ICBMs, 
that missile will be deployed, as will the launcher. When the missile 
is removed from its launcher, that missile and its launcher will be 
nondeployed.

  <bullet> Language in the article-by-article analysis regarding the 
        preamble notes that a future treaty may govern ``nondeployed 
        nuclear weapon stockpiles.'' Does this administration 
        contemplate that warheads the United States does not deploy 
        (those not emplaced on a delivery system) would be the subject 
        of any negotiations with Russia concerning its tactical nuclear 
        weapons?

    Answer. Just over a year ago in Prague, President Obama stated his 
commitment to take concrete steps toward a world without nuclear 
weapons. The New START Treaty is an important first step which will set 
the stage for further cuts. But it is just one step. As the Nuclear 
Posture Review Report makes clear, and as the President reiterated in 
Prague on April 8 of this year, the United States intends to pursue 
with Russia additional and broader reductions in our strategic and 
nonstrategic/tactical nuclear weapons, including nondeployed weapons.

    Question. The article-by-article analysis states that: ``Previous 
practice under START was to use attribution rules to determine the 
number of warheads counted for each type of ICBM and SLBM. Under this 
practice, each deployed missile of a given type was counted as if it 
carried a particular number of warheads, even if the individual missile 
carried fewer reentry vehicles than its attributed number of warheads. 
Under the Moscow Treaty, each Party used its own methodology for 
counting which of its warheads it considered to be ``deployed'' and 
thus subject to the treaty's limits. Under the New START Treaty, one 
set of warhead counting rules will be used by both Parties and the 
warhead count will reflect the number of reentry vehicles actually 
emplaced on each ICBM and SLBM.''

  <bullet> Did attribution rules applied in START I correspond with 
        missile throw-weight?
  <bullet> What is the maximum number of warheads each existing type of 
        Russian ICBM or SLBM listed in paragraph 8 of Article III could 
        carry, based on information provided under START I, or other 
        information?
  <bullet> If you do not obtain telemetric information on developmental 
        Russian ICBM or SLBM systems that have not been previously 
        attributed any number of warheads, and there is no obligation 
        to attribute warheads nor an RV limit per Russian ICBM or SLBM, 
        how will you know that the number of warheads you find on any 
        such system is the accurate and only number of warheads that 
        are deployed on all missiles of that type?
  <bullet> How would you determine margins of warhead uncertainty for 
        new kinds and types of Russian ICBMs and SLBMs if there is a 
        doubt as to its warhead capacity?

    Answer. Classified responses to be provided separately.

    Question. The article-by-article analysis states that: ``In 
accordance with the Eighth Agreed Statement in Part Nine of the 
Protocol, the Parties have agreed that nonnuclear objects on the front 
sections of ICBMs or SLBMs declared to carry at least one nuclear-armed 
reentry vehicle will not be counted as warheads. This statement is 
premised on the shared assumption that there is no military utility in 
carrying nuclear-armed and conventionally armed reentry vehicles on the 
same ICBM or SLBM. In practice, this means that objects such as 
penetration aids and inert ballast objects that may be carried on an 
ICBM or SLBM will not count toward the treaty's warhead limits. 
Inspectors will have the opportunity to confirm that these objects are 
not nuclear through the use of radiation detection equipment during the 
reentry vehicle portion of Type One inspections.''

  <bullet> What is the likelihood that U.S. inspection teams would 
        actually be permitted access to a Russian ICBM or SLBM that 
        carried penetration aids?
  <bullet> Which Russian New-START-accountable missiles are known to 
        contain penetration aids and inert ballast objects?

    Answer. Classified responses to be provided separately.
                          strategic stability
    The administration has said New START reduces and limits strategic 
offensive arms ``in a manner that enhances strategic stability.''

    Question. Is the use of multiple independently targetable reentry 
vehicle (MIRV) systems by either the United States or Russia 
destabilizing?

    Answer. De-MIRVing silo-based ICBMs enhances the stability of the 
nuclear balance by reducing the incentives of either side to strike 
first against these high-value, fixed targets. For this reason, the 
United States will continue to de-MIRV its Minuteman III ICBMs. The 
United States will also seek to encourage Russia to de-MIRV its silo-
based ICBMs.
    However, the use of MIRVed ICBMs or SLBMs on mobile launchers of 
these missiles is considered to be comparatively stabilizing because 
mobile launchers deployed at sea or in the field are difficult to find 
and strike and are thus more survivable. Consequently, these MIRVed 
missiles on mobile launchers assist the Parties in fielding 
sufficiently capable, survivable, second-strike capabilities which are 
critical for maintaining the mutual deterrence that is a critical 
component of strategic stability.

    Question. The Nuclear Posture Review states that ``All U.S. ICBMs 
will be de-MIRVed to a single warhead each to increase stability,'' yet 
Russia is permitted to MIRV its New-START accountable ballistic 
missiles, and has announced plans to field a number of road-mobile, 
MIRVed systems during the duration of the New START Treaty. Given this 
situation, is the New START Treaty more or less stabilizing a treaty 
than were its predecessors, which attempted to move Russia away from 
more destabilizing, MIRVed systems?

    Answer. The New START Treaty reflects the strategic balance that 
exists today and is projected to exist over the lifetime of the treaty. 
The Soviet Union's aggressive deployment of highly MIRVed, hard target-
kill capable silo-based ICBMs during the 1970s and 1980s prompted the 
United States to seek to shift the Soviet Union away from such systems 
during the START negotiations of the 1980s. In large part due to the 
U.S. achievement of this objective in START, during the course of START 
implementation Russia dismantled and plans to continue dismantling much 
of its highly MIRVed, hard target-kill capable silo-based ICBM force.
    While Russia continues to possess such MIRVed, silo-based ICBMs, 
the force's age and smaller size meant that the United States 
determined it was less important to prioritize discouraging the 
deployment of such systems. Instead, the treaty prioritizes the ability 
of the Parties to determine the composition of their own forces, 
reflecting the assessment that both sides will continue to emphasize 
survivable systems--including but not limited to MIRVed strategic 
missiles located in SSBNs on the U.S. side and on both SSBNs and road-
mobile ICBMs on the Russian side--which, when deployed at sea or in the 
field, do not pose the destabilizing ``use or lose'' concerns posed by 
MIRVed silo-based ICBMs.
                        unique identifiers (uid)
    During the committee's May 18 hearing, Secretary Gates stated 
``Unique identifiers, for the first time, will be assigned to each 
ICBM, SLBM, and nuclear-capable heavy bomber, allowing us to track the 
disposition and patterns of operation of accountable systems throughout 
their lifecycles.'' Admiral Mullen stated that ``[Unique identifiers] 
are going to be visible and verifiable and every single weapon would 
have it.'' Later, Admiral Mullen stated ``actually, UIDs are 
mechanical, they're not technically detectable.''

    Question. The New START Inspection Annex notes that UIDs ``shall be 
applied by the inspected Party, using its own technology . . . Such a 
unique identifier shall not be changed. Each Party shall determine for 
itself the size of the unique identifier,'' and inspectors are supposed 
to be able to verify them.
  <bullet> Will such UIDs be visible from national technical means 
        (NTM)?
  <bullet> How will you confirm that there are no duplicate UIDs 
        applied to New-START-accountable Russian systems?

    Answer. Unique identifiers (UIDs) will not be visible from NTM. 
UIDs will be read by inspectors during Type One and Type Two 
inspections to confirm the accuracy of the declared data. In the New 
START Treaty, unique alphanumeric identifiers will be applied to all 
ICBMs, SLBMs, and heavy bombers. These unique identifiers will be 
included in the database and in applicable notifications, so that 
individual strategic delivery vehicles may be tracked. During 
inspections, the Parties will be able to confirm these unique 
identifiers, which will provide additional confidence over time 
regarding the validity of the information in the database and 
notifications, thus reducing the likelihood that duplicate UIDs will be 
applied to strategic systems.
                                 ______
                                 

    Responses of Assistant Secretary Rose Gottemoeller to Questions 
                       Submitted by Senator Lugar

          new start reentry vehicle onsite inspection (rvosi)
    Question. You have claimed that RVOSI under New START is improved 
over START I, and indeed that it may remedy compliance issues 
encountered in START I RVOSI.

  <bullet> Did START I permit the use of shrouds, hard and soft covers 
        for missile front sections?

    Answer. The START Treaty permitted the inspected Party to cover 
reentry vehicles (RVs) and other equipment, including the mounting 
platform, with covers in such a manner that these covers did not hamper 
inspectors from ascertaining that the front section of a particular 
missile contained no more RVs than the number of RVs attributed to a 
missile of that type under the treaty. Both hard and soft covers were 
permitted, with inspectors having the right to only view soft covers 
and to view and measure hard covers.

  <bullet> Does New START permit the Parties to use shrouds, hard and 
        soft covers for existing types of weapons listed in paragraph 8 
        of Article III. If so, please explain how Russia will likely 
        employ such covers and on which systems.

    Answer. Like START, the New START Treaty establishes the inspected 
Party's right to cover RVs and other equipment, including the mounting 
platform, with individual covers in such a manner that such covers must 
not hamper inspectors in accurately identifying the number of RVs 
emplaced on the front section of a missile. In addition, as set forth 
in the Inspection Activities Annex, soft reentry vehicle covers are to 
be viewed, hard covers are to be viewed and measured, and combined 
covers (a cover made of both hard and soft components that when fully 
assembled has a fixed shape) are to be viewed and measurements of the 
fully assembled cover are to be permitted for the base diameter and 
height of the fully assembled combined covers prior to their use during 
the inspection.
    Until the treaty enters into force and the first reentry vehicle 
inspection is conducted as part of the Type One inspection in Russia, 
we cannot be certain how Russia intends to cover its reentry vehicles 
on each of its systems under the New START Treaty. However, the New 
START Treaty has a provision that requires that before a hard or 
combined RV cover is used for the first time during a reentry vehicle 
inspection, the fully assembled cover must first be demonstrated, 
including the right to measure the cover. This approach is intended to 
help address issues early on if Russia elects to use reentry vehicle 
covers that hampered the ability of U.S. inspectors to accurately count 
the number of RVs emplaced on an ICBM or SLBM during the implementation 
of START.

  <bullet> Is it true that there were substantial compliance issues 
        involving Russian shrouds, hard and soft covers under START I 
        that effectively prevented verification of RVs emplaced under 
        such covers?

    Answer. During the life of the START Treaty, Russian RV covers and 
their method of emplacement did, in some cases, hamper U.S. inspectors 
from ascertaining that the front section of the missiles contained no 
more RVs than the number of warheads attributed to a missile of that 
type under the treaty. Russian cooperation in the use of RDE and other 
measures has been helpful in addressing most, but not all, of the 
difficulties encountered by U.S. inspectors. Further discussion of 
issues related to Russia's compliance with reentry vehicle onsite 
inspections are addressed in the July 2010 Compliance Report and the 
June 2010 National Intelligence Estimate on the Intelligence 
Community's ability to monitor the New START Treaty.

  <bullet> How does use of radiation detection equipment, which is not 
        unique under New START (it was permitted by JCIC decision under 
        START I) enable you to deal with potentially problematic 
        shrouds, hard and soft covers that Russia may employ?

    Answer. Under New START, radiation detection equipment (RDE) may be 
used at the discretion of the inspected Party to demonstrate that 
additional objects declared by the inspected Party as nonnuclear, which 
could also be located on the front sections of deployed ICBMs and SLBMs 
equipped with no less than one nuclear-armed RV, are in fact, 
nonnuclear. If these nonnuclear objects can be confirmed by inspectors 
to be nonnuclear, such additional objects will not count against the 
aggregate warhead limit in accordance with the Eighth Agreed Statement 
of Part Nine of the Protocol. Such objects may be covered or uncovered. 
No radiation measurements of actual reentry vehicles were conducted 
under the START Treaty and none will be conducted under the New START 
Treaty.
                 new kinds of strategic offensive arms
    Question.The article-by-article analysis of paragraph 2 of Article 
V states: ``The Parties understand that they may use the BCC to discuss 
whether new kinds of arms are subject to the treaty. The United States 
stated during the negotiations its view that not all new kinds of 
weapon systems of strategic range would be ``new kinds of strategic 
offensive arms'' subject to the New START Treaty. Specifically, the 
United States stated that it would not consider future, strategic range 
nonnuclear systems that do not otherwise meet the definitions of this 
treaty to be ``new kinds of strategic offensive arms'' for purposes of 
the treaty. The Parties understand that, if one Party deploys a new 
kind of strategic range arm for delivering nonnuclear weapons that it 
asserts is not a ``new kind of strategic offensive arm'' subject to the 
treaty, and the other Party challenges that assertion, the deploying 
Party would be obligated to attempt to resolve the issue within the 
framework of the BCC. There is no requirement in the treaty for the 
deploying Party to delay deployment of the new system pending such 
resolution.''

  <bullet> a. Did the Russian Federation indicate agreement with the 
        U.S. approach to ``strategic range nonnuclear systems that do 
        not otherwise meet the definitions of this treaty?''

    Answer. The Russian Federation did not make a definitive statement 
regarding this matter. The provision on new kinds of strategic 
offensive arms in the New START Treaty recognizes that, during the life 
of the treaty, the Parties could develop new kinds of strategic-range 
systems not currently in existence and provides a mechanism for the 
Parties to discuss such systems should they emerge. If such a system 
does not meet the definitions in the treaty, a Party could raise the 
issue of whether the new system should nonetheless be made subject to 
the treaty. The United States stated its view (similar to the U.S. view 
stated during the START negotiations) that it would not consider 
future, strategic-range nonnuclear systems that do not otherwise meet 
the definitions of this treaty to be ``new kinds of strategic offensive 
arms'' for purposes of the treaty.

  <bullet> b. If the answer to (a) is yes, is this agreement contained 
        in any of the documents submitted to the Senate with the New 
        START Treaty?

    Answer. Not applicable.

  <bullet> c. If the answer to (a) is yes, but the answer to (b) is no, 
        please provide a detailed explanation of how Russian agreement 
        on this issue was communicated.

    Answer. Not applicable.

  <bullet> d. What other issues, if any, prompted U.S. interpretive 
        statements in the negotiations that were not contained in any 
        of the treaty documents before the Senate?

    Answer. None.
                                 ______
                                 

 Responses of Assistant Secretary Rose Gottemoeller and Dr. Edward L. 
         Warner III to Questions Submitted by Senator Barrasso

                            missile defense
    Question. In the New START Treaty, the preamble states that 
``Recognizing the existence of the interrelationship between strategic 
offensive arms and strategic defensive arms, that this 
interrelationship will become more important as strategic nuclear arms 
are reduced, and that current strategic defensive arms do not undermine 
the viability and effectiveness of the strategic offensive arms of the 
Parties.''

  <bullet> Did the administration oppose the provision during 
        negotiations?
  <bullet> Why was this language included in the preamble?
  <bullet> What did the United States get in exchange for the inclusion 
        of this provision?

    Answer. The preamble language referred to is simply a statement of 
fact acknowledging the interrelationship of strategic offensive and 
defensive arms. It also affirms that currently deployed strategic 
defensive arms do not undermine the viability and effectiveness of 
either Party's strategic offensive arms. This preambular statement was 
negotiated and agreed between the Parties in accordance with the Joint 
Understanding signed by President Obama and President Medvedev on July 
6, 2009. As stated in the Article-by-Article Analysis of the treaty, 
this statement is part of the shared view of the Parties of the 
importance of predictability and strategic stability.
    This statement in the preamble creates no constraints regarding 
future U.S. strategic defense programs, including those for any form of 
missile defense. Neither the preamble nor Russia's unilateral statement 
will constrain our efforts to develop and deploy the most effective 
missile defenses possible.

    Question. There seems to be some disagreements between the United 
States and Russia on the interpretation of the missile defense language 
in the treaty.

  <bullet> Why is there this misunderstanding?
  <bullet> Did these different views come up during the negotiations?
  <bullet> Did you reach an agreement during the negotiations on these 
        differences?

    Answer. There is no difference of opinion between the United States 
and Russia with respect to the meaning of the treaty's provisions as 
they relate to missile defense. Both Parties understand that the New 
START Treaty does not constrain U.S. plans for fielding and continuing 
to develop missile defenses. Both the United States and the Russian 
Federation also understand that the only constraint on missile defense 
in the New START Treaty is the provision in paragraph 3 of Article V, 
prohibiting the placement of missile defense interceptors in ICBM or 
SLBM launchers and the conversion of missile defense interceptor 
launchers to launch ICBMs or SLBMs.
    The Russian unilateral statement in no way changes the legal rights 
or obligations of the Parties under the treaty, and our unilateral 
statement in response makes it clear that the United States intends to 
continue to improve and deploy the most effective missile defense 
capabilities possible, in order to defend the U.S. homeland from 
limited ballistic missile attacks and to defend U.S. deployed forces 
and our allies from growing regional ballistic missile threats.
    While, as Secretary Gates acknowledged during the SASC hearing on 
June 17, ``there is no meeting of the minds [between the United States 
and the Russian Federation] on missile defense,'' the United States did 
not use the New START Treaty negotiations to discuss missile defense 
with the Russians. From the outset, the United States and Russia agreed 
that the New START Treaty would focus on the reduction and limitation 
of strategic offensive arms. Thus, missile defense discussions fell 
outside the scope of the New START Treaty negotiations.

    Question. Article V prohibits the conversion of launchers for ICBMs 
and SLBMs into launchers for missile defense interceptors.

  <bullet> Did the administration oppose the provision during 
        negotiations?
  <bullet> Why was this language included in the treaty?
  <bullet> Which country proposed the language of Article V?
  <bullet> What did the United States get in exchange for the inclusion 
        on this provision?
  <bullet> What is the reason and policy consideration for including 
        any type of limit on U.S. strategic missile defense in the 
        treaty?

    Answer. Paragraph 3 of Article V of the treaty prohibits the 
conversion of ICBM or SLBM launchers to launchers for missile defense 
interceptors and the conversion of missile defense interceptor 
launchers to launch ICBMs or SLBMs. The paragraph also ``grandfathers'' 
the five former ICBM silos at Vandenberg Air Force Base that were 
converted to house Ground Based Interceptors (GBI) several years ago.
    The U.S. side agreed to this Russian-proposed provision in the 
treaty for several reasons. It resolves a longstanding ambiguity that 
arose during implementation of the START Treaty. Specifically, it 
ensures that our five previously converted ICBM silo launchers at 
Vandenberg that now are used for missile defense interceptors will not 
be a continuing subject of dispute with Russia and will not count 
against the New START Treaty's limits on nondeployed ICBM launchers.
    This provision will have no operational impact on U.S. missile 
defense efforts. As Lieutenant General O'Reilly, Director of the 
Missile Defense Agency, has testified, the United States has never had 
any plans to convert additional ICBM silos to missile defense 
interceptor launchers. Doing so would be much more expensive than 
building smaller, tailor-made GBI silos from scratch. Moreover, as 
Lieutenant General O'Reilly has also stated, newly built GBI silos are 
easier both to protect and maintain.
    With regard to the conversion of SLBM launchers into missile 
defense interceptor launchers, as Lieutenant General O'Reilly stated in 
his testimony, the Missile Defense Agency had examined earlier the 
concept of launching missile defense interceptors from submarines and 
found it operationally an unattractive and extremely expensive option. 
He added that the United States already has a very good and 
significantly growing capability for sea-based missile defense on 
Aegis-capable surface ships, which are not constrained by the New START 
Treaty.
    For these reasons we were comfortable including this militarily 
insignificant provision within the New START Treaty, and have been 
unequivocal in stating that the treaty does not constrain the United 
States from deploying the most effective missile defenses possible, nor 
does it add any additional cost or inconvenience. Rather, the treaty 
enables this President and his successors to develop the missile 
defenses needed to defend our Nation, our deployed forces abroad, and 
our allies.
    Lieutenant General O'Reilly also noted that the New START Treaty 
offers certain advantages for development of the U.S. ballistic missile 
defense system: ``Relative to the recently expired START Treaty, the 
New START Treaty actually reduces constraints on the development of the 
missile defense program. Unless they have New START accountable first 
stages (which we do not plan to use), our target [offensive missiles 
used as targets during tests of our missile defense interceptors] will 
no longer be subject to START constraints, which limited our use of 
air-to-surface and waterborne launches of targets which are essential 
for the cost-effective testing of missile defense interceptors against 
MRBM and IRBM targets in the Pacific area. In addition, under New 
START, we will no longer be limited to five space launch facilities for 
target launches.''

    Question. Under Article V of the New START Treaty, the five U.S. 
ICBM silo launchers at Vandenberg Air Force Base in California are 
excluded.

  <bullet> Why were the five U.S. ICBM silo launchers at the Vandenberg 
        Air Force Base in California specifically excluded from the 
        provision?
  <bullet> Was any consideration made to excluding other U.S. ICBM 
        silos?

    Answer. Paragraph 3 of Article V of the treaty prohibits the 
conversion of ICBM or SLBM launchers to serve as launchers for missile 
defense interceptors and the conversion of missile defense interceptor 
launchers to launch ICBMs or SLBMs. The paragraph also ``grandfathers'' 
the five former ICBM silos at Vandenberg Air Force Base, CA, that were 
converted to house and launch the Ground Based Interceptors (GBI) 
several years ago.
    As stated in the article-by-article analysis of the treaty, this 
statement has the effect of ensuring that the paragraph's prohibition 
does not apply to the five converted former ICBM launchers at 
Vandenberg. It also resolves a longstanding ambiguity that arose during 
implementation of the START Treaty. Specifically, it ensures that these 
five previously converted ICBM silo launchers at Vandenberg Air Force 
Base that now are used for missile defense interceptors will not be a 
continuing subject of dispute with Russia and will not count against 
the New START Treaty's limit on nondeployed ICBM and SLBM launchers and 
heavy bombers equipped for nuclear armaments.
    There are no other missile defense interceptor silos that have been 
converted from ICBM silo launchers. And as Lieutenant General O'Reilly, 
Director of the Missile Defense Agency, has testified, the United 
States has never had any plans to convert additional ICBM silos to 
missile defense interceptor launchers.
                             general issues
    Question. What were the priorities for the administration regarding 
the New START Treaty? Which of the priorities were accomplished?

    Answer. The administration's top priorities going into these 
negotiations were to reach agreement on a new bilateral treaty between 
the United States and Russia to replace the expiring START Treaty that 
would reduce and limit strategic nuclear forces, promote strategic 
stability by ensuring transparency and predictability regarding U.S and 
Russian strategic nuclear forces over the life of the treaty, ensure 
effective verification of the treaty's provisions, advance our nuclear 
nonproliferation agenda, and set the stage for further nuclear arms 
limitations and reduction agreements. In addition, we sought to ensure 
the continuing sufficiency of our nuclear deterrent for ourselves and 
our allies at lower levels, and to ensure we would have flexibility 
regarding how we would structure our strategic forces within the 
treaty's overall limits and to maintain the capability to deploy 
conventional prompt global strike capability, including on our ICBMs 
and SLBMs, should we elect to do so.
    We believe that when the New START Treaty enters into force, each 
of these goals will have been achieved.

    Question. Which of the treaty provisions did the administration 
receive the most resistance on from the Russians? Why?

    Answer. A classified response to be provided separately.

    Question. How has the New START Treaty improved relations with 
Russia?

    Answer. Concluding the New START Treaty was one of the most 
immediate tasks in putting the United States-Russia relationship back 
on a track of stability and cooperation. The completion of the New 
START Treaty shows that the United States and Russia can work together 
on many issues of mutual interest, including top priorities like 
nuclear security and nonproliferation. The treaty gives the United 
States and Russia a better opportunity to work together and to gain 
mutually assured stability. That our two countries were able to 
conclude this mutually beneficial agreement is both a reflection of 
improved relations, as well as a foundation for further cooperation and 
dialogue across a broad range of issues. The process of negotiating the 
New START Treaty involved a year-long, focused, professional 
interaction, which sometimes occurred at the very highest levels of our 
governments and demonstrated our ability to successfully work together 
in a mutually respectful way toward a common goal. Such interactions 
have contributed significantly to the ``reset'' of our relationship 
with Russia.
    Conclusion of the New START Treaty has improved bilateral relations 
and thus facilitated cooperation on other top priorities, including 
collective international efforts to prevent Iran from acquiring a 
nuclear weapons capability, as demonstrated by our combined support for 
the passage of UNSC Resolution 1929, which imposes new sanctions on 
Iran.
    Implementation of the treaty will result in continued close, 
professional contact between our governments both at the Bilateral 
Consultative Commission in Geneva and on the ground in Russia and the 
United States during inspections and exhibitions. The openness and 
transparency fostered by these interactions will continue to foster 
improved U.S. relations with Russia.

    Question. Did the United States get any Russian cooperation on Iran 
as a result of signing this treaty?

    Answer. Our renewed focus on improving our relations with Russia, 
including last year's negotiations on the New START Treaty, has led to 
a greater understanding and increased cooperation between the United 
States and Russia in a number of areas. This renewed relationship is 
key to curbing nuclear threats across the globe.
    We are working very closely and in cooperation with Russia on our 
shared goal of preventing Iran from acquiring a nuclear weapons 
capability. Russia does not support an Iran with nuclear weapons and--
in addition to other constructive contributions to international 
nuclear nonproliferation efforts--has joined the November 2009 
International Energy Agency (IAEA) Board of Governors resolution 
condemning Iran's lack of cooperation with the IAEA, its refusal to 
suspend enrichment, and its failure to comply with its Safeguards 
Agreement.
    Since early 2009, the United States, Russia, and our partners in 
the P5+1 have offered to constructively engage Iran--but Iran failed to 
take advantage of this opportunity. Since 2006, there have been six 
U.N. Security Council resolutions (UNSCRs) calling on Iran to suspend 
enrichment. Iran has refused to meet with the P5+1 about its nuclear 
program despite our efforts and its commitment to do so last October. 
Russia supported UNSCR 1929 passage on June 9, the sixth UNSCR of its 
kind, imposing additional sanctions on Iran. Russia also continues to 
provide key assistance in the ongoing IAEA proposal discussions to 
refuel the Tehran Research Reactor.
    We continue to discuss with Russia our concerns about advanced 
weapons sales to states such as Iran. We appreciate Russia's restraint 
in the transfer of the
S-300 missile system to Iran.

    Question. Please indicate and explain which provisions in the New 
START Treaty are most beneficial to the United States.

    Answer. The New START Treaty as a whole provides predictability and 
transparency regarding the strategic nuclear relationship between the 
United States and Russia. One of the most important concrete benefits 
the United States derives from the treaty is the transparency regarding 
Russian strategic forces. The New START Treaty's verification regime 
and transparency measures allow each side to gain important insights 
into the other side's strategic forces. Without this window, our 
knowledge of Russia's strategic forces will decline over time. Treaty 
information will reduce uncertainty about the future direction of 
Russian strategic forces and assist in improved planning for our future 
defense needs. But the benefits are not all one-way: Shared knowledge 
of U.S. and Russian strategic forces is crucial for maintaining 
strategic stability between the two major nuclear powers.
    The United States also benefits from the requirement that Russia 
maintain lower force levels or reduce its forces to meet the treaty's 
central limits. In the absence of a treaty, Russia could, if it so 
desired, field greater numbers of strategic delivery vehicles and 
strategic nuclear warheads than are permitted under the New START 
Treaty. While the New START Treaty should be evaluated in terms of the 
entirety of the treaty regime rather than with regard to its individual 
provisions, there are numerous examples of provisions that are 
particularly beneficial to the United States, including:
    (1) The provision in paragraph 2 of Article II of the New START 
Treaty, which gives us the right to determine for ourselves the 
composition and structure of our strategic offensive arms, was also 
very important to the United States.
    (2) The flexibility in the conversion or elimination regime 
allowing the United States to decide what procedures would be most 
suitable to achieve required reductions in ways that would be cheaper 
and less burdensome. In the case of SLBM launchers, the United States 
will have the flexibility to convert individual launchers such that 
they are no longer capable of launching SLBMs. This allows the United 
States to reduce the number of deployed and nondeployed SLBM launchers 
under the treaty's limits without having to eliminate an entire SSBN.
    (3) The counting rules for deployed warheads associated with ICBMs 
and SLBMs are also very useful for the United States. Under these 
rules, the actual number of reentry vehicles emplaced on the missiles 
is counted toward the treaty's aggregate limit on warheads. U.S. ICBMs 
and SLBMs will routinely be deployed with a lesser number of reentry 
vehicles emplaced on them than the number of warheads that was 
attributed to them under START, so this more accurate way of counting 
warheads associated with ICBMs and SLBMs will benefit the United 
States.

    Question. What did the United States get from the negotiations on 
the New START Treaty?

    Answer. The United States concluded a treaty with the Russian 
Federation that will provide verifiable limitations and reductions in 
the strategic offensive arms of the United States and the Russian 
Federation as well as ongoing transparency and predictability regarding 
the world's two largest nuclear arsenals, while preserving the ability 
of the United States to maintain the strong nuclear deterrent that 
remains an essential element of U.S. national security and the security 
of our allies and friends. We got a treaty that includes an effective 
verification regime to assess Russian compliance with the treaty's 
limits and other constraints while also allowing us the flexibility to 
determine for ourselves the composition and structure of our strategic 
offensive arms and how we will make our reductions to meet the treaty's 
limits. Finally, we also got a treaty that will help provide a safer, 
more secure, and more stable strategic nuclear environment for our 
citizens.

    Question. How many United States negotiators participated in the 
negotiations of the New START Treaty?

    Answer. The U.S. delegation to the negotiations with the Russian 
Federation on the New START Treaty was led by Assistant Secretary of 
State Rose Gottemoeller. Her team included two Deputy Negotiators, and 
three additional senior representatives from agencies of the 
interagency policy community. The negotiating team also consisted of 
agency advisors, administrative staff, and linguists. The peak number 
of delegation personnel in Geneva at one time during the New START 
negotiations was approximately 50 but this was not a static number and 
varied over time.
    In addition, President Obama, Secretary Hillary Clinton, and Under 
Secretary Ellen Tauscher of the Department of State, Chairman of the 
Joint Chiefs of Staff Admiral Mullen, National Security Advisor Gen. 
James Jones, and other senior officials in the administration 
participated in negotiations with their counterparts as needed.
                              verification
    The original START Treaty had an extensive verification regime 
which included onsite inspections, methods for providing telemetry, and 
transparency measures. Reports indicate that Russia continued to 
violate verification provisions on the counting of ballistic missile 
warheads, monitoring of mobile ballistic missiles and telemetry. The 
new treaty will be making numerous changes to the verification and 
inspection procedures.

    Question. Do you believe that we will see similar problems with 
Russia regarding violations of verification procedures?

    Answer. Although the New START Treaty is less complex than the 
START Treaty, different interpretations by the Parties might arise 
regarding how to implement the inspection activities and other 
verification provisions of the New START Treaty. Should such a 
situation arise, the Parties will seek to resolve their differences in 
the Bilateral Consultative Commission.

    Question. What were the most common violations by Russia with 
regards to the verification and inspection provisions under the START 
Treaty?

    Answer. The most common Russian violations encountered during START 
involved problems regarding reentry vehicle onsite inspections (RVOSI) 
and with regard to the exchange of telemetric information.
    RVOSI: In some cases, Russian reentry vehicle covers and their 
method of emplacement hampered U.S. inspectors from ascertaining that 
the front section of the ICBMs and SLBMs being inspected contained no 
more reentry vehicles than the number of warheads attributed to a 
missile of that type under the START Treaty. Russian cooperation in the 
use of radiation detection equipment and other measures were helpful in 
addressing some, but not all, of the difficulties encountered by U.S. 
inspectors.
    Telemetry: Russia in some instances failed to comply with START 
Treaty requirements regarding the provision of telemetric information 
on missile flight testing.
    Additional details on compliance issues may be found in the 2010 
Compliance Report, which was submitted to Congress on July 1, 2010. The 
portions of the report related to START Treaty implementation issues 
were updated through the expiration of the START Treaty on December 5, 
2009.

    Question. What is the total number of Russian violations of the 
verification and inspection procedures under the START Treaty?

    Answer. Issues related to Russia's compliance with verification and 
inspection procedures under the New START Treaty are addressed in the 
Report on Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments (the 
Compliance Report) that was provided to the Senate on July 1, 2010.

    Question. What verification and inspection measures were put in 
place to ensure that these or similar violations do not occur in the 
future?

    Answer. With regard to RVOSI: The New START Treaty establishes the 
inspected Party's right to cover reentry vehicles and other equipment 
with individual covers, but with the caveat that such covers must not 
hamper inspectors in accurately identifying the number of reentry 
vehicles emplaced on a front section. This provision is intended to 
ensure that covers are not used in such a manner that would obscure the 
actual number of reentry vehicles on a front section. It is similar to 
the START provision for covers that did not hamper inspectors, but 
specifies individual covers and makes the distinction between the New 
START verification task of determining the actual number of warheads 
versus the START provision of confirming that there were no more than 
the attributed number. In addition, as set forth in the Inspection 
Activities Annex, reentry vehicle covers are to be viewed, and in some 
cases measured, by inspectors prior to their use during the reentry 
vehicle inspection portion of a Type One inspection.
    With regard to telemetry: The obligations in the New START Treaty 
are different from those in START. None of the new treaty's specific 
obligations, prohibitions, or limitations requires analysis of 
telemetric information to verify a Party's compliance. Nevertheless, to 
promote openness and transparency, the Parties have agreed to exchange 
telemetric information on an agreed equal number (up to five annually) 
of launches of the testing party's choice of ICBMs and SLBMs (which 
could include launch vehicles that contain the first stage of an ICBM 
or SLBM).

    Question. What information will the United States no longer be able 
to obtain under the New START Treaty that we were able to obtain under 
the previous START Treaty?

    Answer. The United States will not obtain recordings of telemetric 
information from the Russian Federation for each ICBM or SLBM flight 
test, as was the case under the START Treaty.
    Cooperative measures, under which heavy bombers or mobile ICBMs 
were, upon request, placed in the open for viewing by national 
technical means of verification, are not required by the new treaty.
    Although the New START Treaty requires 48 hours advance notice for 
solid-fueled ICBMs and SLBMs exiting the Votkinsk Production Facility, 
there will no longer be continuous monitoring of the facility, 
including the presence of monitors, as was the case under the INF and 
START Treaties.
    For more details, please see the classified National Intelligence 
Estimate on ``Monitoring the New START Treaty,'' published on 30 June 
2010.
                     rail mobile missile launchers
    There has been a variety of views on whether rail-mobile missile 
launchers will count under the New START Treaty. Secretary Schlesinger 
has indicated that rail-mobile ICMBs may not count under the new 
treaty.

    Question. Does the New START Treaty specifically address rail-
mobile missile launchers?

    Answer. Rail-mobile ICBMs are not specifically mentioned in the New 
START Treaty because neither Party currently deploys ICBMs in that 
mode. Nevertheless, the treaty covers all ICBMs and ICBM launchers, and 
would include any rail-mobile system, should either Party decide to 
develop and deploy such a system.

    Question. Were rail-mobile missile launchers specifically mentioned 
and discussed during the New START Treaty negotiations?

    Answer. During the New START negotiations, the Parties discussed 
the fact that neither side currently deploys rail-mobile ICBMs and, 
therefore, agreed that there was no need to reference such systems in 
the new treaty.

    Question. Could rail-mobile missile launchers be deployed in Russia 
and not count against the New START Treaty limits?

    Answer. No. The treaty covers all ICBMs and ICBM launchers, 
including a rail-mobile system, should either Party decide to develop 
and deploy such a system.
    The New START Treaty defines an ICBM launcher as a ``device 
intended or used to contain, prepare for launch, and launch an ICBM.'' 
This is a broad definition intended to cover all ICBM launchers, 
including rail-mobile launchers.
    A rail-mobile launcher containing an ICBM would meet the definition 
of a ``deployed launcher of ICBMs,'' which is ``an ICBM launcher that 
contains an ICBM'' and, along with any nondeployed rail-mobile 
launchers of ICBMs, would fall within the limit of 800 on deployed and 
nondeployed launchers of ICBMs and SLBMs and deployed and nondeployed 
heavy bombers. The ICBMs contained in rail-mobile launchers would count 
as deployed and therefore fall within the 700 ceiling on deployed 
ICBMs, SLBMs, and heavy bombers.
    If a Party chose to develop and deploy rail-mobile ICBMs, such 
missiles and their launchers would therefore be subject to the treaty 
and its limitations. Specific details about the application of 
verification provisions would be worked out in the BCC. Necessary 
adjustments to the definition of ``mobile launchers of ICBMs''--to 
address the use of the term ``self-propelled chassis on which it is 
mounted'' in that definition--would also be worked out in the Bilateral 
Consultative Commission.

    Question. If rail-mobile missile launchers are not provided for 
under the treaty, how will the United States be able to track and 
monitor the number and movement of these weapons?

    Answer. Neither the United States nor Russia currently deploys 
rail-mobile launchers. If a Party chose to develop and deploy rail-
mobile ICBMs, such missiles and their launchers would be subject to the 
treaty. Appropriate detailed arrangements for incorporating rail-mobile 
ICBM launchers and their ICBMs into the treaty's verification and 
monitoring regime could be worked out in the Bilateral Consultative 
Commission.

    Question. Under the New START Treaty, are there verification and 
inspection provisions to gather the information needed to track and 
monitor possible rail-mobile missile launchers?

    Answer. If a Party chose to develop and deploy rail-mobile ICBMs, 
such missiles, their warheads, and their launchers would be subject to 
the treaty, including its notification, verification, and inspection 
provisions. Necessary adjustments to the definition of ``mobile 
launchers of ICBMs''--to address the use of the word ``self-propelled'' 
in that definition--would be addressed in the Bilateral Consultative 
Commission (BCC). Similarly, application of the treaty's verification 
and inspection provisions to rail-mobile launchers would be addressed 
in the BCC.

    Question. What type of measures will be used to monitor other 
activities outside the New START Treaty?

    Answer. Please see the classified National Intelligence Estimate on 
``Monitoring the New START Treaty,'' published on 30 June 2010.
                                 ______
                                 

     Responses of Dr. Edward L. Warner III to Questions Submitted 
                          by Senator Barrasso

                            force structure
    Question. The force structure of our nuclear triad is critical to 
maintaining an effective deterrent. In 2008, Secretary Gates issued a 
white paper recommending a U.S. strategic nuclear force structure 
baseline of around 862.

  <bullet> Who provided you with the guidance to reduce our strategic 
        nuclear delivery vehicles down to 700?

    Answer. All New START Treaty guidance reflects administration-
approved, interagency-developed guidance.
    This guidance was developed based on input from the Nuclear Posture 
Review (NPR), which made it an early task to develop U.S. positions for 
the New START Treaty negotiations. The Office of the Secretary of 
Defense, the Joint Staff, the Military Departments, and U.S. Strategic 
Command conducted analyses during the NPR to inform the relevant U.S. 
Government Departments and Agencies and the New START Treaty 
negotiation team.

  <bullet> What was the rationale and policy consideration for reducing 
        our strategic nuclear delivery vehicles down to 700?

    Answer. The United States agreed to the New START Treaty's central 
limits based on strategic force analyses conducted in support of the 
Nuclear Posture Review (NPR) and high-level deliberations within the 
Department of Defense and the relevant U.S. Government Departments and 
Agencies. The NPR strategic force analysis performed by the U.S. 
Strategic Command staff and these deliberations concluded that U.S. 
strategic forces fielded within the limits contained in the New START 
Treaty would be sufficient to support U.S. deterrence requirements, 
including extended deterrence for our allies, in the current and 
projected international security environment.
    Specifically, the NPR determined that the United States should 
retain a nuclear triad and determined the appropriate number of 
strategic delivery vehicles based on four requirements: supporting 
strategic stability through maintenance of an assured second-strike 
capability that is able to meet the national nuclear deterrence 
guidance; retaining sufficient force structure in each leg to allow the 
ability to hedge effectively by shifting weapons capabilities from one 
triad leg to another, if necessary, due to unexpected technological 
problems or operational vulnerabilities; retaining a delivery 
capability margin above the minimum-required nuclear force structure 
for the possible addition of nonnuclear, prompt-global strike 
capabilities that would be accountable within the treaty limits; and 
providing the basis for maintaining the needed strategic offensive 
capabilities over the next several decades or more, including retaining 
a sufficient cadre of trained military and civilian personnel and 
adequate infrastructure to support the strategic nuclear deterrence 
mission. Based on this analysis, the inclusion in the treaty of 
provisions for excluding conventional-only B-1B bombers and U.S. SSGN 
submarines from accountability under the New START Treaty, the New 
START definitions of ``deployed'' and ``nondeployed'' ICBMs and SLBMs, 
and the potential conversion of a subset of the
B-52H fleet to a conventional-only capability, the Secretary of 
Defense, the Joint Chiefs of Staff, and the Commander, U.S. Strategic 
Command supported reductions to the central ceilings of 700 deployed 
strategic delivery vehicles and 800 deployed and nondeployed ICBM 
launchers, SLBM launchers, and nuclear-capable heavy bombers.

  <bullet> In your opinion, how has the threat environment changed to 
        allow the United States to negotiate down to 700 delivery 
        vehicles?

    Answer. Fundamental changes in the international security 
environment in recent years--including the growth of unrivaled U.S. 
conventional military capabilities, major improvements in U.S. missile 
defenses, and the easing of cold war rivalries--enable us to deter 
potential adversaries and reassure allies and partners at lower nuclear 
force levels. The decision to agree to the limits of 700 deployed 
strategic delivery vehicles and 800 deployed and nondeployed ICBM 
launchers, SLBM launchers, and nuclear-capable heavy bombers was also 
based on the assumption that the Russian Federation would reduce its 
strategic nuclear forces to comply with the New START Treaty limits. 
U.S. strategic forces fielded within these limits were assessed to be 
sufficient to support an assured second strike capability that will 
meet the national nuclear deterrence guidance, provide a hedge 
capability in the event of unexpected technological problems, 
operational vulnerabilities, or a significant deterioration in the 
international security environment, retain a margin for possible 
fielding of conventionally armed prompt-global strike capabilities 
accountable within these limits under the New START Treaty, and 
maintain the necessary capabilities in personnel and infrastructure to 
support the New START-compliant U.S. strategic nuclear force.
    Therefore, we were able to agree to the treaty's ceilings, assured 
that a U.S. strategic nuclear force fielded within these limits will be 
fully capable of sustaining stable deterrence and meeting our 
traditional deterrence and reassurance goals.

    Question. How many strategic nuclear delivery vehicles will Russia 
need to destroy from its arsenal in order for Russia to meet the New 
START Treaty limit of 700 nuclear deployed ICBMs, SLBMs, and heavy 
bombers equipped to carry nuclear weapons?

    Answer. A classified response to be provided separately.

    Question. The New START Treaty contains a combined limit of 800 
deployed and nondeployed ICBM launchers, SLBM launchers, and heavy 
bombers. In addition, the New START Treaty provides a separate limit of 
700 deployed ICBMs, deployed SLBMs, and deployed heavy bombers.

  <bullet> What was the purpose and reasoning for creating a separate 
        category for deployable but not deployed missiles?
  <bullet> What is the benefit and disadvantage of creating the 
        separate category?

    Answer. There is no separate category in the treaty for 
``deployable but not deployed missiles.'' While there is no limit on 
nondeployed ICBMs or SLBMs, there is an aggregate limit of 800 deployed 
and nondeployed ICBM launchers, deployed and nondeployed SLBM 
launchers, and deployed and nondeployed heavy bombers equipped for 
nuclear armaments, which is intended to limit the ability of the 
Parties to ``break out'' of the treaty limits by constraining the 
number of nondeployed ICBM and SLBM launchers and nondeployed heavy 
bombers available for deployment. Each Party must operate within this 
aggregate limit as it considers whether to build and store new 
launchers and heavy bombers, and whether to eliminate, convert, or 
retain older launchers and heavy bombers. Limiting ``break out'' 
capability is a measure that helps to ensure neither Party upsets the 
strategic stability between the United States and Russia that the 
treaty is intended to preserve.

    Question. The New START Treaty contains a combined limit of 800 
deployed and nondeployed ICBM launchers, SLBM launchers, and heavy 
bombers. In addition, the New START Treaty provides a separate limit of 
700 deployed ICBMs, deployed SLBMs, and deployed heavy bombers.

  <bullet> Why is there a different counting rule for bombers?

    Answer. For the purposes of counting toward the aggregate limit of 
700 for deployed ICBMs, deployed SLBMs, and deployed heavy bombers 
equipped for nuclear armaments, the counting rule is the same--each 
deployed ICBM, each deployed SLBM, and each deployed heavy bomber 
equipped for nuclear armaments is counted as one. Similarly, for the 
purposes of counting toward the aggregate limit of 800 for deployed and 
nondeployed ICBM launchers, SLBM launchers, and heavy bombers equipped 
for nuclear armaments, the counting rule is the same--each deployed or 
nondeployed ICBM launcher, each deployed or nondeployed SLBM launcher, 
and each deployed or nondeployed heavy bomber equipped for nuclear 
armaments is counted as one.
    For the purposes of counting toward the 1,550 aggregate limit for 
warheads on deployed ICBMs and deployed SLBMs, and nuclear warheads 
counted for deployed heavy bombers, one nuclear warhead is counted for 
each deployed heavy bomber. This attribution rule was adopted because 
on a day-to-day basis neither the United States nor the Russian 
Federation maintains any nuclear armaments loaded on its deployed heavy 
bombers. If the counting approach adopted for deployed ballistic 
missiles had been applied to deployed heavy bombers, each deployed 
heavy bomber would have been counted with zero nuclear warheads. The 
New START Treaty approach strikes a balance between the fact that 
neither side loads nuclear armaments on its bombers on a day-to-day 
basis and the fact that these bombers, nonetheless, have the capability 
to deliver nuclear armaments stored in nuclear weapons storage bunkers 
on or near their air bases.
    Additionally, as was the case under START, the New START Treaty 
``discounts'' bomber weapons because heavy bombers are considered to be 
more stabilizing than ICBMs or SLBMs because, as ``slow-flyers'' 
compared to ballistic missiles, they are not well suited to be used as 
first-strike weapons. Consequently, the number of weapons counted for 
bombers in arms control agreements has traditionally been much less 
than the bombers are capable of carrying, i.e., bomber weapons are 
``discounted'' by the treaties.

    Question. During Dr. Henry Kissinger's testimony before the Senate 
Committee on Foreign Relations, he emphasized the importance of 
understanding the needs for warheads and delivery vehicles in order to 
handle third party contingencies that may arise while still maintaining 
a credible deterrent position with Russia.

  <bullet> What is the number of warheads needed to handle third party 
        or country contingencies involving proliferation and terrorism 
        while maintaining a credible nuclear deterrent with Russia? How 
        many delivery vehicles are needed?

    Answer. The Nuclear Posture Review analyses and deliberations 
concluded that the force levels permitted by the New START Treaty, as 
well as the maintenance of a stockpile of nondeployed nuclear warheads, 
would be sufficient to support U.S. deterrence requirements, including 
extended deterrence for our allies, against a range of potential 
adversaries in the current and projected international security 
environment.

  <bullet> Was this information considered during the negotiations with 
        Russia?

    Answer. Yes.
                            tactical weapons

    Question. Recently, Former Secretary James R. Schlesinger testified 
before this committee that the Russians have consistently resisted 
efforts to deal with the imbalance of tactical weapons. He stated that, 
``The likelihood of their being willing to do so in light of New START 
is sharply diminished, for we have now forfeited substantial 
leverage.''

  <bullet> Were tactical weapons addressed during the negotiations with 
        Russia?

    <all> If so, what exactly was discussed during those negotiations? 
            What did the United States propose regarding tactical 
            weapons?
    <all> If not, why did the United States not push for tactical 
            weapons to be a part of the treaty negotiations?

  <bullet> Did the United States get a commitment from Russia to reduce 
        tactical weapons?
  <bullet> Did the United States get a commitment from Russia on 
        initiating negotiations on tactical weapons?
  <bullet> What would be the rationale for the United States to forfeit 
        substantial leverage on this issue?

    Answer. No. As agreed by Presidents Obama and Medvedev, the purpose 
of the New START Treaty was to reduce and limit the two nations' 
strategic offensive arms; therefore the issue of tactical nuclear 
weapons was not raised. A more ambitious treaty that addressed tactical 
nuclear weapons would have taken much longer to complete, adding 
significantly to the time before a successor agreement, including 
verification measures, could enter into force following START's 
expiration in December 2009. Because of their limited range and 
different roles, tactical nuclear weapons do not directly influence the 
strategic balance between the United States and Russia. Though 
numerical asymmetry in tactical nuclear weapons exists, this asymmetry 
must be considered within the context of our total nuclear and 
nonnuclear capabilities, including the strategic force levels as 
structured to conform to New START. President Medvedev has expressed 
interest in further discussions on measures to further reduce both 
nations' nuclear arsenals. We intend to raise strategic and 
nonstrategic/tactical nuclear weapons, including nondeployed nuclear 
weapons, in those discussions.


                        VIEWS FROM THE PENTAGON

                              ----------                              


                        WEDNESDAY, JUNE 16, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Casey, Shaheen, Kaufman, 
Lugar, and Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Good morning. The hearing will come to order. 
And thank you all for coming.
    Today, we're pleased to welcome three individuals with long 
and distinguished careers in defense of American security. And 
they're here to testify about the United States nuclear 
posture, modernization of the nuclear weapons complex, and our 
missile defense plans.
    Dr. James Miller is the Principal Deputy Under Secretary of 
Defense for Policy, advising Secretary Gates on a wide range of 
vital strategic issues. He has extensive experience, both 
inside and outside of government, on WMD security. Gen. Kevin 
Chilton is an accomplished Air Force officer, a pilot, and the 
rare witness who has flown on the space shuttle. He is now the 
Commander of U.S. Strategic Command in charge of America's 
nuclear deterrent. And Lt. Gen. Patrick O'Reilly is the 
Director of the Missile Defense Agency, which gives him 
responsibility for the systems that we're developing and 
deploying to protect America and our forces, and indeed even 
some other countries, from missile attack. He has also served 
as a physics professor, I might add, at West Point.
    This is our eighth hearing on the New START Treaty. And 
members of the Obama administration, the treaty's negotiators, 
and many former officials, Republicans and Democrats, have 
urged us to ratify the New START agreement.
    James Baker and William Perry said that ratifying the New 
START Treaty is crucial if few want to keep nuclear weapons out 
of the hands of rogue states and terrorists. Henry Kissinger 
and Stephen Hadley explained that New START is fundamental to 
the United States-Russian relationship. James Schlesinger 
called ratification ``obligatory.'' And Brent Scowcroft warned 
that if we don't ratify the treaty, we'd throw all of our 
diplomatic efforts to control nuclear weapons into ``a state of 
chaos.''
    Each of our witnesses has emphasized the importance of 
reinstituting the monitoring and verification measures that 
lapsed when the original START Treaty expired last December. I 
believe that all of the arguments that our witnesses have made 
are powerful arguments, and important with respect to the 
ratification process.
    But, today's hearing is particularly important because we 
have the opportunity to talk with the people who are tasked 
with the operational details of both the offensive and 
defensive side of our nuclear strategy.
    The New START Treaty limits offensive forces, but some of 
our colleagues have raised the question, with respect to the 
treaty, as to whether or not it might affect our missile 
defense plans.
    From everything that I have heard--and I believe Senator 
Lugar would agree with me, that everything that we have heard 
from all of our witnesses--this treaty does not undercut our 
ability to protect our country from missile attack. It doesn't 
undercut us in any way whatsoever.
    Numerous witnesses, including the Secretary of Defense and 
the Chairman of the Joint Chiefs of Staff, have testified that 
the treaty will not affect America's ability to defend itself 
from an Iranian or North Korean missile, now or in the future.
    But, today we have an even better opportunity to ascertain 
opinion and judgment with respect to those issues, because we 
will hear from the head of the Missile Defense Agency. And we 
can pose the question, yet again, with respect to the potential 
of the treaty to pose any impediment to our missile defense 
plans.
    Some members have also expressed concern about this issue 
because, in the preamble, the New START Treaty acknowledges the 
relationship between offensive forces and strategic defensive 
forces. I happen to believe that that's the most obvious sort 
of acknowledgment of an existing relationship that you could 
make without effect--and I mean without effect--despite the 
fact that the Russians have issued a unilateral statement 
saying that if our missile defenses ever threaten their 
deterrent, they could withdraw from the treaty. Well, they can. 
And so can we. And so could either party, historically, with 
the other treaties that we've been party to.
    But, those aren't reasons to oppose the treaty and the 
verification measures and gains that we get with respect to our 
deterrence. Obviously, the preamble is not legally binding. And 
that should have some impact, I would think.
    Finally, Secretary Gates testified before the committee: 
``Neither the last administration nor this one have any plans 
to build a missile defense that would undermine Russia's 
nuclear deterrent.''
    The New START Treaty is intended to strengthen strategic 
stability. It reduces the number of nuclear weapons that the 
United States and Russia deploy, while increasing the 
transparency and the predictability of strategic forces. Of 
course, as we reduce the number of nuclear weapons that we 
deploy, yes, it becomes even more crucial that we have the 
ability to maintain the safety and the reliability of our 
nuclear deterrent. That is why the Obama administration has 
submitted an $80-billion plan to maintain the effectiveness of 
our nuclear weapons and to revitalize our Nation's nuclear 
weapons infrastructure over the next decade.
    What's more, the administration plans to invest $100 
billion over the next 10 years to maintain and modernize our 
nuclear delivery systems. By any measure, that's a significant 
investment. And I'm particularly glad we have General Chilton 
here today to address the plans for our nuclear forces.
    So, together, our witnesses today can explain the difficult 
work of maintaining America's strategic offenses and defenses, 
and state unequivocally why the New START Treaty improves 
America's security. This is an open hearing, but I would say, 
to any of the witnesses, if at some point that you need to 
reference sensitive material, we could move to a classified 
setting at the appropriate time, or at the end of the hearing 
even, in order to establish that record.
    So, we thank you all for being here today. And we very much 
look forward to your testimony.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Today, as you've mentioned, the committee holds its eighth 
open hearing--or rather, seventh open hearing, eighth hearing 
overall--on the New START Treaty, and we're fortunate to have 
before us three distinguished Defense Department witnesses who 
will discuss strategic modernization and missile defense: Dr. 
James Miller, Gen. Kevin Chilton, and Gen. Patrick O'Reilly.
    The New START Treaty comes to the Senate at a time when 
Senators also are considering a new Nuclear Posture Review, a 
Ballistic Missile Defense Review, and the implications of the 
Obama administration's phased adaptive approach to missile 
defense in Europe.
    Article V of the New START Treaty explicitly provides that, 
``Modernization and replacement of strategic offensive arms may 
be carried out.'' The treaty is an opportunity for the Senate 
and the administration to engage in a serious debate about 
future plans for our nuclear warheads and their delivery 
vehicles.
    In September 2008, General Chilton and Admiral Mullen 
wrote, ``The United States is the only nuclear-weapons state 
not currently modernizing its nuclear capabilities and 
supporting infrastructure.'' The United States has not produced 
a new Minuteman ICBM since 1975. And the last new B-52 bomber 
was produced in 1964. Indeed, under the current plan, the B-52 
will have been flying for 80 years when it's finally retired. 
The United States has not tested a nuclear weapon since 1992, 
and, unlike Russia and China, extends the lifetimes of its 
warheads through selective replacement, refurbishment, and 
recertification.
    With the New START Treaty, the administration submitted a 
10-year modernization plan as it was required to do under 
section 1251 of the National Defense Authorization Act for 
Fiscal Year 2010. The plan notes that, over the next decade, 
$80 billion will be invested in sustainment and modernization 
of a nuclear weapons complex, and $100 billion in nuclear 
weapons delivery systems. Most funding on the 1251 report would 
go to sustaining existing warheads and delivery vehicles, not 
building new ones.
    The Nuclear Posture Review states that this administration 
will ``give strong preference to options for refurbishment or 
reuse.'' Replacement of nuclear warhead components would be 
``undertaken only if critical. The stockpile management program 
goals could not otherwise be met, and it is specifically 
authorized by the President and approved by the Congress.''
    Greater discussion is warranted, in Congress and the 
executive branch, about modernization of nuclear delivery 
systems beyond the 10 years covered in the 1251 report. We have 
some time to consider options now, but we should be planning 
how to respond to the decline of multiple systems. For example, 
there is no clear plan for the maintenance of a nuclear-capable 
air-launched cruise missile for our heavy bombers. With each 
bomber accounting for just one warhead under the New START, 
bombers would play an especially important and stabilizing role 
in our nuclear triad of air-, land-, and sea-based nuclear 
forces.
    We also have a chance today to explore the military 
considerations related to missile defense. Last September, 
President Obama announced that plans to build a so-called 
``third site,'' for ground-based midcourse interceptor missiles 
in Poland and a supporting radar installation in the Czech 
Republic were to be scrapped. Instead, the United States will 
focus on a phased adaptive approach that would provide, 
according to the administration, more capability in a shorter 
period of time against more mature Iranian short- and medium-
range ballistic missile threats.
    Yesterday, our treaty negotiators told us that missile 
defense language, including the unilateral Russian and American 
statements accompanying the New START Treaty, in no way 
inhibits future missile defense deployments, and that there are 
no secret deals with Moscow on missile defense. General 
O'Reilly and Dr. Miller both have spoken to Russian officials 
about our missile defense plans and programs. I'm hopeful they 
will establish a clear outline of discussions in this area.
    Again, I thank our witnesses for testifying today. And I 
look forward to their insights.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Secretary Miller, if you would lead off, General Chilton, 
and then General O'Reilly. Thank you.

 STATEMENT OF DR. JAMES N. MILLER, JR., DEPUTY UNDER SECRETARY 
  OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Dr. Miller. Mr. Chairman, Senator Lugar, thank you for the 
opportunity to testify.
    It is a pleasure to join General Chilton----
    The Chairman. Pull the mic up a little closer to you. 
Thanks.
    Dr. Miller. OK.
    The Chairman. Just pull it up--if you bend it there.
    Dr. Miller. Is this better, sir?
    The Chairman. Bend the mic up. Yes, there you go. Good.
    Dr. Miller. OK.
    The Chairman. Thanks.
    Dr. Miller. Mr. Chairman, Senator Lugar, thank you for the 
opportunity to testify. It is a pleasure to join General 
O'Reilly and General Chilton here today.
    The committee asked for a Department of Defense perspective 
on the New START Treaty, so let me provide that up front.
    DOD's view of the treaty is that it will allow us to 
sustain effective deterrence and strengthen strategic stability 
with Russia at reduced force levels. It will improve 
transparency and mutual confidence with key data exchange and 
verification provisions. It will enable the United States to 
retain and modernize a robust triad of strategic delivery 
systems. It will allow us the freedom to mix our strategic 
forces over time. And it will protect our ability to deploy 
nonnuclear capabilities, including prompt global strike and 
ballistic missile defenses. In short, the New START Treaty will 
make the United States and our allies and partners more secure.
    I'd like to briefly summarize some highlights of my 
prepared statement and then ask that the full statement be 
entered into the record.
    The Chairman. The full statement of each witness will be 
placed in the record as if read in full. And we'll appreciate 
your summary comments.
    Dr. Miller. Thank you.
    An early priority of the year-long Nuclear Posture Review, 
which concluded in April, was to develop U.S. positions for the 
New START Treaty negotiations. The Secretary of Defense, the 
Joint Chiefs of Staff, General Chilton were all deeply involved 
in the NPR and all deeply involved in decisions on New START 
Treaty limits.
    The NPR's early, extensive, and continued attention to New 
START produced guidance to negotiators that ensured the treaty 
would meet key strategic objectives for the United States. In 
particular, I'd like to note several.
    First, the treaty's limits of 1,550 accountable warheads 
will allow the United States to sustain effective nuclear 
deterrence, including sufficient survivable nuclear forces for 
an assured devastating second-strike capability.
    Second, the treaty's limit of 700 deployed ICBMs, SLBMs, 
and heavy bombers will support strategic stability by allowing 
the United States to retain a robust triad.
    The treaty's limit of 800 deployed and nondeployed 
launchers of ICBMs, launchers of SLBMs, and nuclear-capable 
heavy bombers, combined with additional New START provisions--
for example, allowing conversions of bombers to a conventional-
only role--will allow the United States to minimize 
irreversible changes to our strategic force structure.
    Fourth, by providing the freedom to mix U.S. strategic 
forces, the treaty will allow us to rebalance, as necessary 
over the timeline of the treaty, to adapt to any future 
technical or geopolitical changes that could affect a given leg 
of the triad.
    Fifth, the treaty allows us to maintain our stockpile of 
nondeployed warheads in an upload capacity with our strategic 
delivery systems, which provide a hedge against adverse 
technical developments or a serious deterioration in the 
international security environment.
    The treaty's data exchange and verification provisions will 
increase transparency and confidence in the numbers and status 
of Russia's nuclear forces without imposing significant burdens 
on our ability to operate United States nuclear forces. And, as 
noted before, the treaty does not constrain our ability to 
develop and deploy nonnuclear prompt global strike 
capabilities, nor does the treaty constrain our ability to 
develop and deploy effective missile defenses.
    The Department has developed a baseline force plan for New 
START that fully supports U.S. security requirements without 
requiring any changes to current or planned basing 
arrangements. I'd like to say, very briefly, what this baseline 
force involves. It includes retaining all 14 current Ohio-class 
strategic submarines, and deploying no more than 240 Trident II 
D5 SLBMs. It also includes retaining up to 420 deployed 
Minuteman II--Minuteman III, excuse me--ICBMs, all with a 
single warhead. And finally, the baseline force includes up to 
60 nuclear-capable B-2 and B-52 heavy bombers, while converting 
remaining B-1B and some B-52H heavy bombers to a conventional-
only capability, under which they won't be accountable under 
the treaty's central limits.
    And, as was noted by Senator Lugar, over the next decade 
DOD plans to invest well over $100 billion to sustain exiting 
strategic delivery systems and capabilities, and to modernize 
these systems, and, as the chairman noted, over $80 billion to 
sustain our nuclear infrastructure and our nuclear stockpile.
    DOD is currently studying the appropriate mix of long-range 
strike capabilities, including heavy bombers, as well as 
nonnuclear prompt global strike systems, in follow-on analysis 
to the Quadrennial Defense Review and to the NPR. The results 
of this ongoing work will be reflected in the Department's FY12 
budget submission.
    While our analysis of nonnuclear prompt global strike is 
still underway, DOD has concluded that any deployment of 
conventionally armed ICBMs or SLBMs with a traditional 
trajectory, which would count under the treaty limits, should 
be limited to a niche capability. That's based on military 
considerations. The required number could easily be accounted 
for under the treaty's limits while still retaining a robust 
nuclear triad.
    DOD is also exploring the potential of conventionally armed 
long-range systems that fly a nonballistic trajectory; for 
example, boost-glide systems. We are confident that such 
nonnuclear systems, which do not otherwise meet the definitions 
for the New START Treaty, would not be accountable as ``new 
kinds of strategic offensive arms'' for the purposes of the 
treaty.
    Maintaining an adequate stockpile of safe, secure, and 
effective nuclear warheads is a core U.S. objective identified 
in the 2010 Nuclear Posture Review and requires a 
reinvigoration of our nuclear security enterprise. The New 
START Treaty does not in any way constrain our ability to 
pursue the additional investments needed, and the 
administration is committed to doing so.
    Now on ballistic missile defenses, where General O'Reilly 
will add some additional information. The New START Treaty does 
not constrain the United States from deploying the most 
effective missile defenses possible, nor does it add any 
additional cost or inconvenience. It enables this President and 
his successors to develop the missile defenses needed to defend 
the Nation, our deployed forces abroad, and our allies and 
partners, from the threat of ballistic missile attack.
    The New START Treaty's preamble states that there is an 
interrelationship between strategic offensive and strategic 
defensive arms, and that strategic defensive forces do not 
threaten to undermine the effectiveness of either party's 
strategic offensive arms. Given that the United States has only 
30 ground-based interceptors--and with the past administration, 
it was 44--the same statement would be true--and that Russia 
will likely field well over 1,000 ICBM and SLBM warheads under 
the treaty, missile defenses of the United States can increase 
very significantly, and the same would be true: no effect on 
stability.
    It's also important to note that the preamble does not 
require the United States to anything, nor does it prohibit 
anything.
    Article V of the treaty prohibits any future conversion of 
ICBM silos or SLBM launchers to house and launch BMD 
interceptors, or vice versa. As LTG O'Reilly will explain 
further, such conversion would be neither cost-effective nor 
necessary. Consequently, the Article V limitation on launcher 
conversion does not constrain the realistic options available 
to this or any future President.
    As was noted, Russia made a unilateral statement about 
missile defense, in connection with this treaty. It's not--this 
statement is not part of the treaty and not legally binding.
    The United States also made a unilateral statement 
associated with New START which makes clear that our missile 
defense systems are not intended to affect the strategic 
balance with Russia, and that we will continue to improve our 
missile defense capabilities to provide for effective missile 
defenses against limited attacks.
    As the 2010 Ballistic Missile Defense Review, our budgetary 
plans, the U.S. unilateral statement, extensive testimony by 
administration officials, and other public statements make 
clear, the United States can and will continue to expand and 
improve missile defenses, as necessary.
    One final issue I'd like to raise. Some have asked whether 
if Russia were to again deploy a rail-based ICBM, such as its 
former rail-based SS-24, if that system would be accountable 
under New START. The answer is ``Yes.'' The treaty's central 
terms and definitions cover all ICBMs and all ICBM launchers, 
which would, therefore, include any rail-mobile systems. In the 
event that Russia deploys rail-mobile ICBMs in the future, the 
launchers and the ICBMs they carry would be--and the warheads, 
as well--would be accountable under the New START Treaty.
    In conclusion, the New START Treaty is strongly in the 
national security interests of the United States. The 
Department of Defense fully supports the treaty.
    Thank you. And I look forward to answering your questions.
    [The prepared statement of Dr. Miller follows:]

Prepared Statement of Dr. James N. Miller, Jr., Deputy Under Secretary 
      of Defense for Policy, Department of Defense, Washington, DC

    Mr. Chairman, Senator Lugar, distinguished members of the 
committee, thank you for the opportunity to testify today. It is a 
pleasure to join Gen. Kevin Chilton, commander of U.S. Strategic 
Command, and Lt. Gen. Patrick O'Reilly, Director of the Missile Defense 
Agency, in discussing the New Strategic Arms Reduction Treaty (START) 
and key military capabilities, including our strategic nuclear force 
structure, nonnuclear prompt global strike, and ballistic missile 
defenses.
    The New START Treaty will strengthen strategic stability with 
Russia at reduced nuclear force levels, improve transparency with key 
data exchange and verification provisions, enable the United States to 
retain and modernize a robust triad of strategic delivery systems, 
allow the freedom to alter our mix of strategic forces over time, and 
protect our ability to develop and deploy non-nuclear prompt global 
strike and missile defenses. In short, the New START Treaty will make 
the United States, and our allies and partners, more secure.
                  nuclear posture review and new start
    An early priority of the year-long 2010 Nuclear Posture Review 
(NPR) was to develop U.S. positions for the New START negotiations, 
including how many strategic delivery vehicles and deployed warheads 
were needed to field an effective, credible, and flexible nuclear 
deterrent for the duration of the treaty. The Secretary of Defense, the 
Joint Chiefs of Staff, and General Chilton were all deeply involved in 
the NPR, and in decisions on New START Treaty limits.
    The NPR's early, extensive, and continued attention to New START 
resulted in guidance to negotiators that ensured the treaty would meet 
key strategic objectives for the United States. In particular:

   The treaty's limit of 1,550 accountable warheads will allow the 
        United States to sustain effective nuclear deterrence, 
        including sufficient survivable nuclear forces for an assured 
        devastating second-strike capability.
   The treaty's limits of 700 deployed intercontinental ballistic 
        missiles (ICBMs), submarine launched ballistic missiles 
        (SLBMs), and nuclear-capable heavy bombers will support 
        strategic stability by allowing the United States to retain a 
        robust triad of strategic delivery systems--while downloading 
        all Minuteman III ICBMs to a single warhead.
   The treaty's limit of 800 deployed and nondeployed launchers of 
        ICBMs, launchers of SLBMs, and nuclear-capable heavy bombers 
        will allow the retention of up to 100 ICBM and SLBM launchers, 
        and nuclear-capable bombers, in a nondeployed status. When 
        combined with the New START counting rule that a launcher is 
        deployed only when mated with a missile, and the treaty's 
        provisions on conversion of heavy bombers to a conventional-
        only configuration, this will allow the United States to 
        minimize irreversible changes to nuclear force structure.
   By providing the freedom to mix U.S. strategic nuclear forces as we 
        see fit, the treaty will allow the United States to rebalance 
        its strategic forces as necessary to adapt to any future 
        technical and geopolitical challenges that could affect a given 
        leg of the triad.
   The treaty allows us to maintain our stockpile of nondeployed 
        warheads and an ``upload'' capacity for strategic delivery 
        systems, which provide a hedge against adverse technical 
        developments or a serious deterioration in the international 
        security environment. More broadly, the treaty does not in any 
        way constrain the ability of the United States to sustain our 
        nuclear weapons stockpile, and rebuild the nuclear security 
        enterprise that supports it.
   The treaty's data exchange and verification provisions will 
        increase transparency and confidence in the numbers and status 
        of Russia's nuclear forces, without imposing significant 
        burdens on our ability to operate U.S. nuclear forces.
   As I will discuss in more detail, the treaty does not constrain our 
        ability to develop and deploy non-nuclear prompt global strike 
        capabilities.
   As I will also discuss in more detail, the treaty does not 
        constrain the ability of the United States to develop and 
        deploy effective ballistic missile defenses, including the 
        ability to improve these defenses both qualitatively and 
        quantitatively.
              u.s. nuclear force structure under new start
    The Department of Defense has developed a baseline nuclear force 
structure that fully supports U.S. security requirements without 
requiring changes to current or planned basing arrangements. 
Specifically, under baseline plans, the administration plans to field a 
force that meets New START limits by:

   Retaining 14 Ohio  class SSBNs and deploying no more than 240 
        Trident II D5 SLBMs at any time.
   Retaining up to 420 deployed Minuteman III ICBMs, all with a single 
        warhead.
   Retaining up to 60 nuclear-capable B-2A and B-52H heavy bombers, 
        while converting remaining nuclear-capable B-1B and some B-52H 
        heavy bombers to conventional-only capability.

    This force structure--which provides a basis for future planning--
affords the flexibility to make appropriate adjustments as necessary.
    The Department of Defense plans to sustain and modernize U.S. 
strategic delivery capabilities, as outlined in detail in the 
classified report submitted to Congress in response to section 1251 of 
the National Defense Authorization Act of 2010. To this end, over the 
next decade, the United States will invest well over $100 billion to 
sustain existing strategic delivery systems capabilities and modernize 
some strategic systems.
                    nonnuclear prompt global strike
    DOD is currently studying the appropriate long-term mix of long-
range strike capabilities, including heavy bombers as well as 
nonnuclear prompt global strike systems, in follow-on analysis to the 
2010 Quadrennial Defense Review and the NPR. The results of this 
ongoing work will be reflected in the Department's fiscal year 2012 
budget submission.
    The deployment of a nonnuclear prompt global strike system would 
provide the United States with a capability that we currently lack: the 
ability to hit a target anywhere on the earth in less than 1 hour using 
a nonnuclear warhead. At the same time, depending on technical and 
operational details, such systems could raise a number of challenges, 
including potential overflight of other countries, and the ability to 
distinguish the launch of nonnuclear as opposed to nuclear-armed 
systems.
    While our analysis of nonnuclear prompt global strike is still 
underway, DOD has concluded that any deployment of conventionally armed 
ICBMs or SLBMs, which would count under the treaty's limits, should be 
limited to a niche capability. For example, if the Conventional Trident 
Modification program were deployed, it would involve two missiles for 
each of 12 to 14 submarines, or 24-28 strategic delivery vehicles 
total. This number of SDVs could easily be accounted for under the 
limit of 700 deployed SDVs under the treaty, while still retaining a 
robust nuclear triad.
    DOD is also exploring the potential of conventionally armed, long-
range systems not associated with an ICBM or SLBM that fly a 
nonballistic trajectory (e.g., boost-glide systems). Such systems would 
have the advantage that they could ``steer around'' other countries to 
avoid overflight and have flight trajectories distinguishable from an 
ICBM or SLBM. We would not consider such nonnuclear systems that do not 
otherwise meet the definitions of the New START Treaty to be 
accountable as ``new kinds of strategic offense arms'' for the purposes 
of the treaty.
      sustaining the nuclear weapons stockpile and infrastructure
    In addition to sustaining U.S. delivery systems, maintaining an 
adequate stockpile of safe, secure, and reliable nuclear warheads is a 
core U.S. objective identified in the 2010 NPR, and requires a 
reinvigoration of our nuclear security enterprise. To this end, the 
Department of Defense transferred $4.6 billion of its top-line to the 
Department of Energy's National Nuclear Security Administration (NNSA) 
through fiscal year 2015. This transfer will assist in funding critical 
nuclear weapons life extension programs and efforts to modernize the 
nuclear weapons infrastructure. The initial applications of this 
funding, along with an additional $1.1 billion being transferred for 
naval nuclear reactors, are reflected in the Defense and Energy 
Departments' FY 2011 budget requests. The NNSA budget request for 
weapons activities for FY 2011 represents a 10-percent increase over FY 
2010, and increased funding levels are planned for the future, as 
reflected in the administration's recent section 1251 report.
                       ballistic missile defenses
    As made clear in the report of the 2010 Ballistic Missile Defense 
Review, the ballistic missile threat to our deployed military forces 
and to our allies and partners is growing rapidly, with significant 
implications for our ability to project power abroad, to prevent and 
deter future conflicts, and to prevail should deterrence fail. One of 
the most significant threats to the U.S. homeland is the continued 
efforts of Iran and North Korea to develop weapons of mass destruction 
and long-range ballistic missiles to deliver them. The protection of 
the United States, our deployed forces, and our allies and partners 
from the threat of ballistic missile attack is a critical national 
priority.
    A core U.S. aim during the New START negotiations was to protect 
the U.S. ability to deploy the most effective missile defenses 
possible. U.S. negotiators achieved this objective. The New START 
Treaty does not constrain the United States from deploying the most 
effective missile defenses possible, nor does it add any additional 
cost or inconvenience. Rather, the treaty enables this President and 
his successors to develop the missile defenses needed to defend the 
Nation, our deployed forces abroad, and our allies and partners from 
the threat of ballistic missile attack.
    The New START Treaty addresses missile defenses in two places: the 
Preamble and Article V. First, the Preamble of the Treaty states that 
there is an interrelationship between strategic offensive and strategic 
defensive arms, and that current strategic defensive forces do not 
threaten to undermine the effectiveness of the Parties' strategic 
offensive arms. Given that the United States has only 30 Ground Based 
Interceptors and Russia will likely field well over 1,000 ICBM and SLBM 
warheads under the treaty, U.S. missile defenses can increase very 
significantly and the same would remain true. It is also important to 
note that the treaty's Preamble statement does not require or prohibit 
either side from doing anything.
    Second, Article V of the treaty prohibits any future conversion of 
ICBM silos or SLBM launchers to house and launch BMD interceptors--or 
vice versa. As Lieutenant General O'Reilly will explain further, such 
conversion would be neither cost-effective nor necessary. For example, 
converting 10 ICBM silos to house GBIs would cost about $550 million, 
compared to $360 million for building 10 new silos. The placement of 
midcourse missile defense interceptors in converted SLBM launchers 
would be operationally impractical and very expensive. Consequently, 
the Article V limitation on launcher conversion does not constrain U.S. 
plans or programs.
    In addition, Russia made a unilateral statement about missile 
defense in connection with the treaty. This statement is not part of 
the treaty and is not legally binding.
    The United States also made a unilateral statement associated with 
the New START Treaty, which makes clear that our missile defense 
systems are not intended to affect the strategic balance with Russia, 
and that we will continue to improve our missile defense capabilities 
to provide for effective defense of our homeland against limited 
missile attacks and of our deployed forces, allies, and partners 
against growing regional threats. We have also explained that the 
missile defense capabilities associated with the European Phased 
Adaptive Approach will not affect the United States-Russian strategic 
balance.
    As the 2010 Ballistic Missile Defense Review, our budgetary plans, 
and the U.S. unilateral statement made in connection with New START all 
make clear, the United States will continue to expand and improve 
missile defenses as necessary.
        accountability of rail mobile icbms and their launchers
    Before concluding, I would like to address an additional issue that 
has arisen recently regarding the treaty. Some have asked whether a 
Russian rail-mobile ICBM system, should Russia again deploy a system 
such as its former rail-based SS-24, would be accountable under New 
START. The answer is yes. Such systems were not specifically addressed 
in the treaty because, unlike the situation when the previous START 
Treaty was being negotiated, neither party currently deploys rail-
mobile ICBMs. Nevertheless, the treaty's terms and definitions cover 
all ICBMs and ICBM launchers, including railmobile systems. Therefore, 
in the event that Russia deploys rail-mobile ICBMs in the future, the 
launchers and the ICBMs they carry would be accountable under the New 
START Treaty.
                               conclusion
    The New START Treaty promotes stability and transparency in our 
strategic relationship with the Russian Federation. It allows us to 
maintain and modernize a robust triad of strategic delivery systems, 
and if desired, deploy nonnuclear prompt global strike capabilities. 
The New START Treaty does not affect our ability to revitalize our 
nuclear security enterprise or improve our ballistic missile defense 
capabilities both qualitatively and quantitatively. For these reasons, 
the Department of Defense fully supports this agreement.

    The Chairman. Thank you, Secretary Miller.
    General Chilton.

  STATEMENT OF GEN. KEVIN P. CHILTON, USAF, COMMANDER, UNITED 
      STATES STRATEGIC COMMAND, OFFUTT AIR FORCE BASE, NE

    General Chilton. Chairman Kerry, Senator Lugar, it's truly 
a pleasure to appear before your committee and testify here 
today. It's also a great pleasure to testify again with Dr. 
Miller, whom I've testified with before--and also with 
Lieutenant General O'Reilly. These two great gentlemen have 
worked very important national security issues for our country, 
and I'm always pleased to be in their presence.
    Mr. Chairman, I want to begin by assuring you that I was 
fully consulted during the treaty negotiation process, and I 
support ratification of New START.
    Today, I would like to briefly discuss three reasons why 
our Nation will be safer and more secure with this treaty than 
without it, and to highlight current challenges that must be 
addressed to ensure the long-term safety, security, and 
effectiveness of the U.S. strategic deterrent.
    Mr. Chairman, throughout the Nuclear Posture Review process 
and New START negotiations, U.S. Strategic Command's team 
played important analytic and advisory roles. As the combatant 
command responsible for strategic deterrence planning, 
advocating for related capabilities, and executing operations 
at the President's direction, no military organization has a 
greater interest in the treaty's specifics than we do. The 
breadth and depth of our involvement gives me great confidence 
that both the NPR and START bodies of work enhance America's 
ability to continue to deter potential adversaries, assure our 
allies, and sustain strategic stability.
    I believe that there are three reasons why the New START 
agreement represents a positive step forward.
    First, New START limits the number of Russian ballistic 
missile warheads and strategic delivery vehicles that can 
target the United States.
    Second, New START retains sufficient flexibility in 
managing our deterrent forces to hedge against technical or 
geopolitical surprise.
    And third, New START will reestablish the strategic nuclear 
arms control verification regime that provides access to 
Russian nuclear forces and a measure of predictability in 
Russian force deployments over the life of the treaty.
    It is equally important, I believe, to remember what New 
START will not do. Secretary Gates noted here last month that 
the treaty will not constrain the United States from deploying 
the most effective missile defenses possible, nor impose 
additional cost or barriers on those defenses.
    As the combatant command also responsible for synchronizing 
global missile defense plans, operations, and advocacy, I note 
that this treaty does not constrain any current missile defense 
plans.
    In closing, let me say a word about the need to sustain a 
safe, secure, and effective nuclear deterrent. As Secretary 
Gates also noted in his statement before you last month, 
America's nuclear arsenal remains a vital pillar of our 
national security, deterring potential adversaries and 
reassuring allies and partners. Today the deterrent is indeed 
safe, secure, and effective. But, it is also in need.
    The Nuclear Posture Review and administration plans 
recognize needs in infrastructure, human capital, life 
extensions, and delivery platform developments, and they 
include support for improving our nuclear enterprise, 
sustaining today's nuclear triad of delivery platforms, and 
exploring future triad platforms.
    In order to sustain the deterrent and implement the NPR, we 
must commit to long-term investment--investments that begin 
with several increases outlined in the President's fiscal year 
2011 budget--most notably, a 13-percent increase in NNSA 
funding, full-rate production of the W76-1 warhead for our 
submarine leg of the triangle, full-scope nuclear and 
nonnuclear life extensions of the
B-61 bomb to sustain its strategic deterrent and extended 
deterrent roles, and initiating studies to develop life-
extension options for the W-78 ICBM warhead. These investments 
are not only important, they are essential, in my view.
    Chairman, thank you, again, for the opportunity to be here 
with you today. And I look forward to your questions during 
this session.
    [The prepared statement of General Chilton follows:]

  Prepared Statement of GEN Kevin P. Chilton, USAF, Commander, United 
          States Strategic Command, Offutt Air Force Base, NE

                              introduction
    Chairman Kerry, Senator Lugar, and members of the committee, thank 
you for the opportunity to meet with you today. United States Strategic 
Command was closely consulted before and during negotiations on the New 
Strategic Arms Reduction Treaty (START), and I look forward to 
discussing the treaty with you today. I would like to note at the 
outset how proud I am of the extraordinary work the command performed 
in support of these negotiations. We have an amazing team, and their 
diligence, expertise, and tireless work continue to ensure our ability 
to deliver global security for America.
                               new start
    New START will enhance the security of the United States of 
America, and I support its ratification. Our Nation will be safer and 
more secure with this treaty than without it. Let me briefly explain 
why, from the perspective of the combatant commander responsible for 
planning and executing strategic deterrence and nuclear operations.
    First, New START limits the number of Russian ballistic missile 
warheads that can target the United States, missiles that pose the most 
prompt threat to our forces and our nation. Regardless of whether 
Russia would have kept its missile force levels within those limits 
without a New START treaty, upon ratification they would now be 
required to do so. The New START bomber counting rules are unlikely to 
result in a reduction in Russian nuclear bomber forces, but these 
platforms have much less potential to be destabilizing, and we will 
retain the option to sustain equivalent capabilities.
    Second, New START retains sufficient flexibility in managing our 
deterrent forces to hedge against technical or geopolitical surprise. 
To support the New START negotiation effort, U.S. Strategic Command 
analyzed the required nuclear weapons and delivery vehicle force 
structure and posture to meet current guidance. The options we provided 
in this process focused on ensuring America's ability to continue to 
deter potential adversaries, assure our allies, and sustain strategic 
stability for as long as nuclear weapons exist. This rigorous approach, 
rooted in deterrence strategy and assessment of potential adversary 
capabilities, supports both the agreed upon limits in New START and 
recommendations in the Nuclear Posture Review (NPR). We will retain a 
triad of strategic nuclear delivery systems, and if we have a technical 
failure in one of our nuclear systems, we can rearrange our deployed 
force posture and structure within the treaty limits to compensate.
    Third, New START will reestablish a strategic nuclear arms control 
verification regime that provides intrusive access to Russian nuclear 
forces and a measure of predictability in Russian force deployments 
over the life of the treaty. Such access and predictability contribute 
to our ability to plan confidently our own force modernization efforts 
and our hedging strategy. Without New START, we would rapidly lose 
insight into Russian strategic nuclear force developments and 
activities, and our force modernization planning and hedging strategy 
would be more complex and more costly. Without such a regime, we would 
unfortunately be left to use worst-case analyses regarding our own 
force requirements. Further, we would be required increasingly to focus 
low density/high demand intelligence collection and analysis assets on 
Russian nuclear forces.
                        deterrence capabilities
    The nuclear enterprise remains, today and for the foreseeable 
future, the foundation of U.S. deterrence strategy and defense posture. 
The NPR recognizes this and makes a series of recommendations that I 
strongly urge the Congress to fully support. Specifically, the NPR 
recommends moving forward with a number of nuclear enterprise 
sustainment projects, including strengthening our nuclear command and 
control structure; continuing development and deployment of our triad 
of delivery systems; maintaining a safe, secure, and effective 
stockpile; and revitalizing the National Nuclear Security 
Administration's aging infrastructure. America's triad of diverse and 
complementary delivery systems provides unique synergies that make our 
deterrent highly credible and resilient in the face of a variety of 
potential technological and geopolitical developments. The NPR endorses 
DOD efforts to explore future triad systems, specifically to extend the 
Minuteman III ICBM through 2030 and conduct studies now to inform 
decisions on a follow-on ICBM; to replace the Ohio class SSBN at end of 
life for existing ships; and to study future long-range bomber 
capabilities. It also supports moving forward with full rate production 
for the W76-1 warhead for our submarine leg of the triad; full-scope 
life extension of the B61 bomb (including enhancing safety, security, 
and use control) to sustain its strategic deterrence and extended 
deterrence roles; and initiating studies to develop life extension 
options for the W78 ICBM warhead, including the possibility of also 
adapting the resulting warhead for sea launched ballistic missiles and 
thereby reducing the number of warhead types.
    Additionally, the NPR and the President's budget recognize the need 
to improve, sustain, and ensure all necessary elements of a safe, 
secure, and effective deterrence enterprise, including weapons, 
delivery systems, warning and communications capabilities, and their 
supporting human capital and technological infrastructures, and to make 
sustained investments to adequately preserve these capabilities for the 
foreseeable future. These investments are required in order to 
confidently reduce the overall U.S. stockpile while sustaining the 
credibility of our nuclear stockpile, which is fundamental to effective 
deterrence. Investments that revitalize NNSA's aging infrastructure and 
intellectual capital strengthen our security with the facilities and 
people needed to address technological surprises, geopolitical change, 
and a range of cutting-edge national security challenges. In order to 
sustain the deterrent and implement the NPR, we must commit to long-
term investments that begin with several increases outlined in the 
President's Fiscal Year 2011 Budget, most notably a 13-percent increase 
in NNSA funding. These investments are not only important--they are 
essential.
                                closing
    Every day, U.S. Strategic Command remains focused on providing the 
President and future Presidents with the options and flexibility needed 
for deterrence. Today, our deterrent is safe, secure, and effective; 
our forces are trained and ready; and the Command is faithfully and 
fully carrying out its mission each and every day. I am confident that 
the combination of New START ratification, implementation of the NPR's 
recommendations, and funding of associated investments will enable the 
men and women of U.S. Strategic Command to continue delivering global 
security for America today and in the future. Thank you again for the 
opportunity to testify before this committee.

    The Chairman. Thank you, General.
    General O'Reilly.

 STATEMENT OF LTG PATRICK J. O'REILLY, USA, DIRECTOR, MISSILE 
                 DEFENSE AGENCY, WASHINGTON, DC

    General O'Reilly. Good morning, Chairman Kerry and Senator 
Lugar.
    It is an honor to testify before you today on the impact of 
New START on the U.S. missile defense program.
    The Department of Defense's recent Ballistic Missile 
Defense Review set our objectives for developing and fielding 
increasingly more capable sensors, ground-based midcourse 
defense, terminal high-altitude area defense, Aegis ballistic 
missile defense, and international missile defenses, to counter 
the growing global proliferation of ballistic missiles.
    The U.S. missile defense program includes developing new 
space-based sensors, expanding our command-and-control 
networks, improving our ground-based interceptor reliability 
and testing, and giving the Aegis system a capability against 
future intercontinental ballistic missiles launched from 
today's regional threats, to increase the robustness of our 
homeland defense.
    Throughout the treaty negotiations, I frequently consulted 
with the New START team on all potential impacts to missile 
defense. The New START does not constrain our plans to execute 
the U.S. missile defense program. Although Article V of the New 
START prohibits the conversion of ICBM or submarine-launched 
ballistic missiles--launchers--to missile defense launchers, 
while grandfathering five former ICBM silos already converted 
for launching ground-based interceptors, MDA has never had a 
plan to convert additional ICBM silos.
    In 2002, we first began converting ICBM silos to 
operational silos for launching ground-based interceptors 
because we had not yet developed a silo specific for GBI 
launches. Since then, we have developed a GBI silo that costs 
$20 million less than converting ICBM silos, and is easier to 
protect and maintain. Likewise, the conversion of submarine-
launched ballistic missiles, or SLBMs, into missile-defense 
interceptors, or the modification of submarines to carry 
missile defense interceptors, would be very expensive and 
impractical. Furthermore, submerged submarines are not easily 
integrated into our missile defense command-and-control 
network.
    The New START Treaty actually reduces previous START 
Treaty's constraints on developing a missile defense program, 
in several areas. For example, MDS's intermediate-range target 
booster system, used in key tests to demonstrate homeland 
defense capabilities, and components of the new European phased 
adaptive approach, are accountable under the previous START 
Treaty because it employed the first stage of the now-retired 
Trident I SLBM. Under New START, the Trident I missile is not 
accountable, so we will have greater flexibility in using it as 
a missile defense test target with regards to launcher 
locations, telemetry collection, and data processing; thus, 
allowing more efficient test architectures and operationally 
realistic intercept geometries.
    Thank you, Mr. Chairman. And I look forward to answering 
the committee's questions.
    [The prepared statement of General O'Reilly follows:]

 Prepared Statement of LTG Patrick J. O'Reilly, USA, Director, Missile 
                     Defense Agency, Washington, DC

    Good morning, Chairman Kerry, Senator Lugar, other distinguished 
members of the committee. It is an honor to testify before you today on 
the impact of the New START Treaty on the U.S. missile defense program.
    The Department of Defense's recent Ballistic Missile Defense Review 
set our objectives for developing and fielding increasingly more 
capable sensors, Ground-Based Midcourse Defense, Terminal High Altitude 
Area Defense, Aegis Ballistic Missile Defense, and international 
missile defenses to counter the growing global proliferation of 
ballistic missiles. The program includes developing new space-based 
sensors, expanding our command and control networks, improving Ground-
Based Interceptor (or GBI) reliability and testing, and giving the 
Aegis system a capability against future ICBMs launched from today's 
regional threats, to increase the robustness of our homeland defense.
    Throughout the treaty negotiations, I frequently consulted the New 
START team on all potential impacts to missile defense. The New START 
Treaty does not constrain our plans to execute the U.S. Missile Defense 
program. Although the new treaty prohibits the conversion of ICBM or 
Submarine Launched Ballistic Missile (SLBM) launchers to missile 
defense launchers while ``grandfathering'' the five former ICBM silos 
at Vandenberg Air Force Base (VAFB) already converted for Ground-Based 
Interceptors, MDA never had a plan to convert additional ICBM silos at 
VAFB. In 2002, we began converting ICBM silos to operational silos for 
launching GBIs because we had not developed a silo specifically for 
GBIs at that time. Since then, we have developed a GBI silo that costs 
$20M less than converting ICBM silos and is easier to protect and 
maintain.
    Likewise, the conversion of Submarine Launched Ballistic Missiles 
into missile defense interceptors, or the modification of our 
submarines to carry missile defense interceptors, would be very 
expensive and impractical. Furthermore, submerged submarines are not 
easily integrated into our missile defense command and control network.
    The New START Treaty reduces constraints on the development of the 
missile defense program in several areas. For example, MDA's 
intermediate-range LV-2 target booster system, used in key tests to 
demonstrate homeland defense capabilities and components of the new 
European Phased Adaptive Approach, was accountable under the previous 
START Treaty because it employed the first stage of the now-retired 
Trident I SLBM. Under New START, this missile is not accountable, thus 
we will have greater flexibility in conducting testing with regard to 
launch locations, telemetry collection, and processing, thus allowing 
more efficient test architectures and operationally realistic intercept 
geometries.

    The Chairman. Thank you very much, all of you, for your 
testimony, which is helpful.
    Let me just try to just bear in on a few points 
particularly relevant to the ratification process.
    I'd like to ask both the Generals, in their role as active 
commanders of relevant commands, to address this issue: General 
Chilton and General O'Reilly, as this negotiation began, as we 
reentered the discussions with the Russians about New START, 
did each of you have a specific set of concerns which you 
articulated to the negotiators? And, if so, were those concerns 
met in the course of the negotiations?
    General Chilton.
    General Chilton. Chairman, I guess I would say that I 
didn't have any particular concerns that I transmitted. Our job 
was to support the negotiations. And I guess I would say my 
concerns were more internal to DOD as we started to think about 
where we wanted to go, both with NPR and START. And if you 
recall, maybe 2 years ago, there were initial ideas of just 
putting numbers on the table, so let's reduce the total force 
to 1,000. And my position was, don't give me a number, give me 
a strategy and a policy that you want me to execute. Let us do 
the analysis, and we'll come back and tell you what it will 
take to do that. And that, at the end of the day, was the 
approach that we took, that the Department took.
    And so, that allowed us to do the military analysis to 
support the civilian leadership guidance and present that 
forward so that as the negotiators went into negotiation, they 
had solid underpinnings for the positions that were being 
presented forward.
    And so, a little bit of a different answer to your 
question, but I didn't go to the negotiators and demand, you 
know, ``You need to hold the line here.''
    The Chairman. No. I----
    General Chilton. Except----
    The Chairman [continuing]. Understand that.
    General Chilton. Yes.
    The Chairman. But, as they came to you and sought your 
counsel and advice and input----
    General Chilton. Right.
    The Chairman [continuing]. What, if any, strategic concerns 
did you express? Any?
    General Chilton. Well----
    The Chairman. Or did you simply take their concept and then 
you ran the numbers and evaluated their concept?
    General Chilton. No. We actually began, before the 
negotiations, looking at--because we did the NPR in concert----
    The Chairman. Right.
    General Chilton [continuing]. With START. And so, as we 
looked at the Nuclear Posture Review we began with--the first 
criteria that was established was, ``Look, STRATCOM, go off 
with current guidance, current strategy, and tell us what it 
will take to support that today.''
    And then we had to make two assumptions, at that point. One 
was that as the treaty was negotiated and lower positions were 
taken on both sides--is that, one, an assumption was made that 
the Russians would not cheat, that they would abide by that. I 
mean, I think you have to make that assumption as you do your 
work in support of it. And the second one was that the follow-
on work in NPR would not demand an increase in total U.S. 
strategic forces.
    And then, based on those assumptions and the direction to 
follow current guidance, we were able to provide the support 
that they needed.
    The Chairman. The verification procedure, which we both 
want, is to guarantee that neither side cheats, correct?
    General Chilton. Senator, what we want is transparency and 
insight so that we can understand that each side is complying 
with the treaty, that's correct.
    The Chairman. And in your judgment, from the strategic 
interests of the country, is there an adequate capacity in this 
treaty to do that?
    General Chilton. Senator, I guess I would defer to the NIE 
that's going to come out from the intelligence community, since 
that is their job, to assess that strictly. And from a broader 
context, though, what I would worry about would be any ability 
for Russia to make a strategically significant change or 
breakout from the treaty without us being able to detect it.
    And I would just define ``strategically significant'' as 
one that would surprise us to the point that we couldn't react 
to it.
    What gives me some confidence, just looking at it from the 
DOD perspective, is that we have preserved a hedge capability, 
both for technical failure and for geopolitical surprise, that 
I think makes me comfortable with where we are at this time.
    But, as to the specifics of verification, I would defer to 
the intelligence community, Senator.
    The Chairman. Fair enough. And we will be hearing from them 
also.
    General O'Reilly.
    General O'Reilly. Sir, I did not have concerns, going into 
this, as much as objectives, which I expressed to the parties 
that were negotiating on our part.
    And that was primarily--a major part of the missile defense 
development is the actual testing of our missile defense 
systems. It is not a minor fact that we are emulating and 
duplicating long-range ballistic missiles, which are very 
difficult to develop. And we wanted to ensure that our 
resources were more effectively focused on developing our 
missile defense capabilities, not on the targets.
    So, I was asking if there was an ability to have greater 
capability to use retired missile--or offensive missiles in a 
role that we could use them as targets. Because we were so 
involved in the previous treaty, with our targets, the 
negotiating team was very familiar with what those limitations 
were, and they knew which systems that we could employ most 
cost-effectively in our flight testing. And that was a 
significant objective of mine. And we were, as General Chilton 
said, very closely coupled to the negotiating team on all 
issues that would affect our use of particular targets and 
flight testing.
    And then second of all was the general ability to develop 
the most capable, cost-effective missile defense, and ensuring 
there was not limitations on it which would affect our plans, 
especially as we just finished last year's Comprehensive 
Ballistic Missile Defense Review, which set forth what those 
objectives were.
    The Chairman. So, in your judgment, will this treaty 
prevent the Missile Defense Agency from pursuing any aspect of 
the phased adaptive approach to missile defense in Europe that 
the administration has outlined?
    General O'Reilly. No, sir, it will not prevent or affect in 
any way our plans.
    The Chairman. And is there, to your knowledge, any kind of 
side deal or unspoken agreement with respect to missile defense 
in this, that you're aware of?
    General O'Reilly. No, sir. I have no knowledge of that.
    The Chairman. And General Chilton?
    General Chilton. No, sir. No knowledge.
    The Chairman. In the view of the Strategic Command, is the 
New START counting rule better than the rule that was obtained 
under the START Treaty originally?
    General Chilton. Senator, I think it is, for the time we're 
in right now. The flexibility that we have, with regard to the 
numbers of 700 deployed and a total of 800 deployed and 
nondeployed, gives us operational flexibility, with regard to 
our force. So, when we do maintenance on a missile or we have a 
submarine come into port, we can use that nondeployed category 
as a way of balancing our force and ensuring we have the 
deterrent available that's required at any given time.
    Additionally, the counting of the warheads also adds to 
operational flexibility for us, as opposed to attribution of a 
number of warheads to a particular delivery-system type.
    So, these two points that add flexibility to us, I think, 
are an improvement over the START--the original START Treaty 
for us.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    I have three very technical questions, which I raise 
specifically to make a record with your testimony.
    And the first involves this. Some suggest New START 
constitutes a political limit on future defensive deployments, 
given that a Russian withdrawal from the New START is tied to 
missile defense.
    Well, I'd like to ask Dr. Miller and General O'Reilly this. 
If ratified this year by both sides, New START would expire 
sometime in 2020. Based on announced plans, am I correct that 
the third phase of the phased adaptive approach could provide 
protection against intermediate-range ballistic missiles and 
will be deployed in 2018, and the fourth phase, which could 
provide protection against ICBMs using the Standard Missile 3 
Block 11B interceptor missile, will be deployed in 2020? Could 
we field defensive capabilities during the treaty's duration, 
particularly in 2018 to 2020, to which the Russians might 
object?
    Dr. Miller. Senator Lugar, both General O'Reilly and I, 
along with others, have briefed the Russians, at various times 
and in various fora, on the phased adaptive approach for 
Europe. My first one was with Ambassador Kislyak the day of the 
announcement, in September, of the phased adaptive approach. 
We've gone through each of the phases, including, in detail, 
phases three and four.
    And your description is correct. As we move to the later 
phases, it will be the Standard Missile 3 2A, and then 2B for 
phases three and four.
    We have no plans, within this timeframe, that would take 
our ballistic missile defenses to a place that would threaten 
strategic stability with Russia. We have made that clear, as a 
matter of policy, in the Ballistic Missile Defense Review, that 
we don't intend to do so. But, the reality is that we don't 
have the technical ability to deploy the sophisticated defenses 
that would be necessary to really make a dent or to try to 
negate the extensive Russian nuclear strategic arsenal.
    Senator Lugar. General O'Reilly.
    General O'Reilly. Sir, I, also, have briefed Russian 
officials in Moscow on the capabilities and limitations of our 
missile defense plans throughout all four phases of the phased 
adaptive approach. And based on fundamental physics and first-
principle engineering, it is well understood of where we have 
capability and where
we don't have capability, especially in regards to their 
strategic arsenals.
    And, throughout those conversations, it was very clear to 
me, through their questions and responses, that they fully 
understood my presentation.
    Senator Lugar. Let me follow on with this question. In 
testimony before the House Armed Services Committee last April, 
the administration was asked if the United States had provided 
an assurance to Russia that the fourth phase of the plan--or, 
of the phased adaptive approach would not threaten Russian 
strategic nuclear forces, to which the witness replied, ``To my 
knowledge, no.''
    Now, I ask, once again, Dr. Miller and General O'Reilly, 
when did either of you discuss missile defense, either the 
phased adaptive approach or as specific elements, with the 
Russians? In particular, did either of you discuss the fourth 
phase of the adaptive approach? And did any Russians state that 
capabilities you discussed constitute a threat to the strategic 
nuclear force potential of the Russian Federation?
    Dr. Miller. Senator Lugar, as I noted before, my first 
briefing of any Russian on the phased adaptive approach was in 
September 2009, just--as part of the rollout, just after the 
announcement.
    I did--I've briefed Russians, a number of times since, on 
all of the phases, and at no time did any Russian with whom I 
was meeting state that phase three or four was perceived to be 
a threat to undermine their strategic deterrent.
    They have asked for a lot of information about these 
systems. We have provided it. General O'Reilly has provided 
extensive technical analysis of the capabilities of the system, 
in layperson's terms. With those systems deployed in Europe, 
the Standard Missile 3 would be in a tail-chase if it were to 
go after a Russian ICBM. It wouldn't have the range or the 
velocity to get there. There are other reasons, as well, that 
it would be unable to do so.
    But, I'd like to state, sir, that the purpose of the 
missile defense deployment in Europe with the phased adaptive 
approach is to provide effective missile defense in the early 
phases of Europe, including of our deployed forces there. And 
in the--in phase four, defense against an ICBM that could come 
from Iran or somewhere else in--potentially, in the region.
    We built the system to provide effective missile defenses 
against the threats that we perceive as--today and potentially 
emerging in the future. And, as it turned out, those missile 
defenses did not--do not pose a threat to their--to the 
Russians. But it's important to understand which was the 
objective. The objective was effective missile defense against 
the threats that we see today, and that we believe may emerge, 
from Iran and others in the region.
    Senator Lugar. General O'Reilly.
    General O'Reilly. Sir, I also have briefed Russian 
officials in Moscow, a rather large group of them in October 
2009. I went through the details of the--all four phases of the 
phased adaptive approach, especially phase four. And while the 
missiles that we have selected as interceptors in phase four, 
as Dr. Miller says, provide a very effective defense for a 
regional-type threat, they are not of the size that have a long 
range to be able to reach their strategic missile fields. And 
it's a very verifiable property of these missiles, given their 
size and the Russian expertise in understanding what the 
missiles' capabilities will be, given the size of the missiles 
that we're planning to deploy and develop. It was not a very 
controversial topic of the fact that a missile, given this size 
of a payload, could not reach their strategic fields.
    And, as Dr. Miller said, even if they flew a missile within 
range of our phase-four interceptors, given the time we would 
see the missiles and the velocity of their much larger 
strategic missiles and our smaller ones, we would not be able 
to catch up with those missiles in order to have an intercept. 
And they seemed to be very knowledgeable of this, and 
acknowledged my points that I made.
    Senator Lugar. Now, I'd like to raise my final question. 
Some suggest we should place interceptor technology into 
existing silos and perhaps even on existing strategic 
submarines, which New START would not permit.
    General Chilton and General O'Reilly, in the absence of New 
START, we could take Minuteman ICBMs and Trident SLBMs out of 
their launchers and replace them with interceptor missiles. If 
we did, wouldn't we reduce our missiles, launchers, and 
deployed nuclear warheads further below even New START limits 
on strategic offensive arms? And what are the dangers of 
placing interceptor missiles in ICBM fields or commingling them 
with our strategic offensive forces, generally?
    General Chilton and then General O'Reilly.
    General Chilton. Sir, I would not support going down in 
those--in either of those directions, for a couple of reasons.
    One, the missile tubes that we have are valuable, in the 
sense that they provide the strategic deterrent. And I think 
the value of the nuclear deterrent far--per missile--far 
outweighs the value of a single missile defense interceptor. 
So, I would not want to trade Trident D5, and how powerful it 
is and its ability to deter, for a single missile defense 
interceptor.
    From an ICBM-field perspective--and General O'Reilly, I 
know, can address the cost and technical piece of this--but, 
there would be some issues that would be raised if you were to 
launch a missile defense asset from an ICBM field, with regard 
to the opposite side seeing a missile come off and wondering, 
``Well, was that a missile defense--was that a defensive 
missile or is that an offensive missile?'' So, just in my 
opinion, I don't see that either of those two options would be 
particularly beneficial as you laid them out.
    Senator Lugar. General O'Reilly.
    General O'Reilly. Sir, from a technical basis and being 
responsible for the development of our missile defenses, I 
would say that either one of those approaches, of replacing 
ICBMs with ground-based interceptors or adapting the submarine-
launched ballistic missiles to be an interceptor, would be--
would actually be a setback--a major setback to the development 
of our missile defenses; one, because of the extensive amount 
of funding required, and resources, to redesign both the fire-
control system, the communications system, but especially the 
interceptors. They're of completely different size and 
completely different functionality, different fuels, so they 
are incompatible, our interceptors are, with submarines. And 
also, the submarine-launched ballistic missiles have a launch 
environment which is significantly different than what our 
interceptors have today. And the front end, the most critical 
part of our interceptors, would have to be completely 
redesigned in order to withstand the shocks and the other 
launch environments.
    So, in both cases, there would have to be an extensive 
redesign of our systems, and some of the basic, fundamental 
engineering that we've been doing over the past decade would 
have to be redone in order to adapt them for either one of 
those applications.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    Dr. Miller. Senator Lugar, could I just add, very briefly, 
a couple of quick points?
    The first is that the possibility of deploying an 
interceptor in a submarine, or the possibility of alternative 
deployments of interceptors on land, were both looked at 
extensively prior to us agreeing to this position in the New 
START Treaty, including studies going back several years, in 
terms of operational effectiveness and cost. And the 
conclusions that were reached then informed the negotiations 
and our willingness to accept this provision.
    And second is that the senior leadership of DOD was well 
apprised of these, and comfortable with these, with Article V, 
section 3.
    Senator Lugar. Thank you, sir.
    The Chairman. Thank you, Senator Lugar.
    Let me just give everybody a heads-up. We have a vote or 
two, I think, at 10:40. We may have time, here, to get through 
the next two rounds, if that's all that appears.
    So, Senator Feingold.
    Senator Feingold. Thanks so much, Mr. Chairman.
    And I'd like to also welcome the witnesses.
    There's been some confusion, during the previous hearings 
on this treaty, about the relative importance of reducing the 
Russian and United States strategic arsenals, particularly 
compared with the importance of pursuing missile defenses and 
reducing tactical nuclear weapons. And I'd like to take this 
opportunity to get a little clarity on what is really needed 
for us to maintain a credible deterrent, and the risks 
associated with maintaining an arsenal larger than what we 
actually need for sufficient deterrence.
    This treaty makes significant changes to the verification 
regime that was in place for nearly two decades under the 
original START Treaty, and I intend to review this issue 
carefully. I'm looking forward to receiving the National 
Intelligence Estimate in order to better understand the 
implications of the new verification regime.
    But, General Chilton, some of my colleagues on this 
committee have argued that we gave up something for nothing 
with this new treaty, particularly with regard to the 
limitation on nuclear delivery vehicles. Now, my own assessment 
so far differs significantly from that view. For example, we've 
agreed to go from 880 to 800 launchers under this treaty. This 
leaves us with a clear advantage over the Russians, who, 
according to the CRS, are estimated to have 620 launchers, and 
limits on their ability to produce a higher number than that.
    Meanwhile, according to independent reports, we have the 
capacity to upload far more warheads onto our launchers than 
the Russians.
    So, General, given this calculus, would you agree with the 
assessment that this treaty actually preserves our own 
strategic advantage?
    General Chilton. Senator, I wouldn't go as far as to say 
that a strategic advantage existed before or after the treaty, 
but a strategic balance continues to exist between both sides. 
I don't think we would come to a resolution in the negotiations 
if both sides didn't feel that way. And I certainly feel that 
we have adequate forces, adequate ready forces, to----
    Senator Feingold. So, it--so, to use your language, it 
preserves the balance that we had before.
    General Chilton. I believe so. And I believe we can 
adequately use Strategic Command to fulfill our mission to 
provide strategic deterrence adequate to defend this Nation.
    Senator Feingold. OK. On balance, would it be fair to say 
that the very modest concessions we made in the treaty are far 
outweighed by the need to retain the ability to do inspections 
and to maintain strategic stability through having a treaty?
    General Chilton. Senator, I would say that the importance 
of the treaty is threefold. One, it allowed us to preserve our 
ability to provide a strategic deterrent. Two, it also put 
limits on the Russians that would not have been there had this 
treaty not been negotiated. START I had expired. And so, there 
were no limits on where the Russians might go. And, third, the 
treaty provides us with insight into the Russian program that 
we would not have had without this new treaty. All three of 
these things, I think, are the big advantages of this new 
treaty, which I support.
    Senator Feingold. General, as I mentioned before, the 
reductions mandated by this treaty are really quite modest. 
There's no limit on the number of warheads we can keep in 
reserve. And some have argued that we're maintaining far more 
launchers that needed to maintain a credible deterrent. Indeed, 
some experts argue that, with just over 300 strategic nuclear 
weapons, we would have 10 times the amount of explosive power 
that Secretary McNamara thought we needed to incapacitate the 
Soviet Union. Do you agree that this treaty allows us to 
maintain a nuclear arsenal that is more than is needed--that is 
more than is needed to guarantee an adequate deterrent?
    General Chilton. Sir, I do not agree that it is more than 
is needed. I think the arsenal that we have is exactly what is 
needed today to provide the deterrent.
    And I say this in light of--when we talk about the 
nondeployed portion of the arsenal, it is sized to be able to 
allow us to hedge against both technical failures in the 
current deployed arsenal and any geopolitical concerns or 
changes in the geopolitical environment that might cause us to 
need more weapons deployed.
    The reason we have to maintain this large inventory is 
because we no longer have the ability to produce nuclear 
weapons in this country. The infrastructure has been allowed to 
decay and get to a point where we cannot do that. The Russians, 
on the other hand, have an ability to produce nuclear weapons. 
That is how they hedge. And so, this is why I think the NPR 
findings and the investments in the nuclear infrastructure, in 
the personnel and expertise that is required to sustain the 
stockpile, are so important, so that, by the time we get to the 
next decade, we'll be in a position to look at our nondeployed 
arsenal and consider future reductions to that. But, today I 
think we have what we need to support the deterrent.
    Senator Feingold. General, you talked a little bit about 
verification already. There's some concern that we'll not be 
able to make up for a lack of onsite inspections at the missile 
assembly facility in Votkinsk through other intelligence 
sources, and this may somehow enable Russia to develop a 
breakout capability. Reports indicate that Russia has not been 
producing large numbers of missiles for some time, and may 
actually have some struggle maintaining the number of missiles 
even permitted under the treaty.
    How accurate is that? And, if so, is it fair to say that it 
would be very difficult for Russia to increase its missile 
production without our detecting it?
    General Chilton. Sir, I'd have to defer to the intelligence 
community estimates on that, because they are the ones who will 
be asked to show that they can verify that these types of 
things couldn't happen.
    I would point out, though, there are three parts of the 
treaty that attempt to address this area. One is the 
requirement for a declaration of current status and data 
exchanges. Two is the requirement for notification of any 
change to that status. And three is the application of specific 
identification numbers to delivery platforms. And these help 
mitigate the closing of the Votkinsk observation area. But, 
again, I'd defer to the NIE final report on their comfort with 
verification in this area.
    Senator Feingold. And I look forward to reviewing that.
    General O'Reilly, Secretary Gates testified that it is not 
our policy to develop missile defenses to counter Russia's 
deterrence--deterrent, because this would be cost-prohibitive 
and deeply destabilizing. Could you just lay out for us what it 
might cost to develop a missile defense system capable of 
rendering Russia's arsenal useless, and how Russia would 
respond to such an initiative that we took forward?
    General O'Reilly. Sir, the precise answer on that would 
depend on the firing doctrine which the combatant commanders--
specifically, NORTHCOM, in this case--would use. But, if they 
used--for example, as a minimum, we usually set aside at least 
two interceptors for every missile in the air--threat missile--
that we're concerned about. And therefore--and in some cases, 
some doctrines have four missiles--interceptors--dedicated 
toward one intercept. So, you would need at least two to four 
times the number of interceptors than you would the launch 
platforms. And that means maintaining missile fields--well over 
1,000. And currently, our plans are to have a capability to 
counter and protect the United States against any regional 
threat that could develop the ICBM capability. So, right now, 
our plans are to have 30 deployed missiles.
    So, this tremendously larger inventory of interceptors 
would be needed, and the command-and-control, the sensor-and-
fire control, would be tremendously more complex than what 
we're developing today.
    Senator Feingold. Thank you.
    And thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Feingold.
    Dr. Miller. Senator, if I--Mr. Chairman, if I could just 
add, very briefly--General O'Reilly answered exactly right what 
it might take to begin to try to render the Russian arsenal, as 
President Reagan has said, ``impotent and obsolete.'' If we 
think about it, we need to understand that we're talking about 
thousands of reentry vehicles, we're talking about 
sophisticated countermeasures. The Russians would have the 
option for alternative delivery systems, including today's 
systems of bombers and cruise missiles and so on. And they'd 
have the ability to grow those over time, so that the--there 
would be--you would expect an offense-defense interaction, as 
well, so that the--at this time, it is--we don't see a 
possibility that, with any investment of resources over the 
duration of the treaty--barring a fundamental breakthrough that 
we don't, at this point, see in technology--we don't see the 
possibility of rendering their nuclear arsenal useless. Our 
missile defense research continues. If--obviously, if something 
were to someday arise that would allow that, it would be--it 
would be an important change, but we don't see it on the 
horizon.
    Senator Feingold. Thank you.
    The Chairman. Senator Risch.
    Senator Risch. Thank you.
    General O'Reilly, I assume you've read the third-party 
statements, or the--what are they called? The statements that 
each part--the unilateral statements that each party makes--I 
assume you've read those.
    General O'Reilly. Yes, sir.
    Senator Risch. You would agree with me that we have deep 
differences with the Russians on what this treaty actually 
means when it comes to defending ourselves. Would you agree 
with that?
    General O'Reilly. Sir, I don't have the insight to think 
how they interpret that, but the relationship between offense 
and defensive capabilities is understood, and the impact on--as 
Dr. Miller just said, the impact on the ability to affect that 
strategic balance was understood.
    Senator Risch. But, would you agree with me that they said, 
in their unilateral statements, that they believe the treaty is 
such that we cannot defend ourselves using missile defense 
systems? Would you agree with me that that's what their 
unilateral statement says?
    General O'Reilly. Sir, my understanding of the statement 
is, is that we would not develop ballistic missile defense 
systems to counter their strategic balance of forces with us.
    Senator Risch. And you understand our position is that 
that's not what the treaty says. Are you in agreement with 
that?
    General O'Reilly. My understanding is, sir, that the treaty 
does not limit my ability to develop the most cost-effective 
missile defenses possible.
    Senator Risch. And we have so stated. Is that correct?
    General O'Reilly. Yes, sir, within the policies that the 
Ballistic Missile Defense Review has outlined.
    Senator Risch. And, as a result of that, would you now 
agree with me that we have a difference, as far as the Russians 
are concerned, as to what this treaty actually says when it 
comes to our ability to defend ourselves?
    General O'Reilly. Sir, my--actually looking at the treaty 
itself, the legally binding aspects of the treaty, I do not see 
any limitation on my ability to develop missile defenses.
    Senator Risch. Well, that's not absolutely true, though, is 
it? Can you use the silos that we have right now to defend 
ourselves?
    General O'Reilly. Sir, given our plans, I would not use a 
silo that is less hardened, more--it would not be--I don't 
think it affects our ability to defend and develop the 
capability against missile defenses, sir. I think the options 
that are prohibited would be ones that we would not choose--I 
wouldn't choose, and any other director of Missile Defense--
because it is--it gives us less capability than what we are 
currently pursuing now.
    Senator Risch. But, your statement that the treaty does not 
limit you in that regard isn't true, is it? I mean, there are 
limitations in the treaty, as far as our ability to defend 
ourselves using, for instance, those silos.
    General O'Reilly. Sir, there are no limitations in the 
treaty that affect our plans for developing missile defense. 
There are limitations, as I've stated before, in Article V, 
that state the ability to limit--for us not to convert an ICBM 
silo, which I would never recommend, for many different 
reasons; and the same for SLBMs. So, yes, there are constraints 
against aspects of developing missile defense that I do not 
believe are prudent or operationally effective.
    Senator Risch. So, is it your position, then, that we do 
not have a disagreement with the Russians, as far as what this 
treaty says regarding our ability to defend ourselves from a 
missile attack?
    General O'Reilly. In the treaty itself, sir, I see no 
limitations to us for the plan that we are pursuing.
    Senator Risch. I understand that. You've read the 
unilateral statements. Do you agree with me that the two 
parties, in their unilateral statements, disagree with what the 
treaty says regarding that point?
    General O'Reilly. Sir, I don't have the ability to 
understand how they interpret it, but I have briefed the 
Russians, personally in Moscow, on every aspect of our missile 
defense development. I believe they understand what that is. 
And that those plans for development are not limited by this 
treaty.
    Dr. Miller. Senator, might I--sir, might I----
    Senator Risch. On that--on----
    Dr. Miller [continuing]. Comment----
    Senator Risch. No.
    Dr. Miller [continuing]. Briefly?
    Senator Risch. Just a minute, please.
    General, if they understand, why are they making unilateral 
statements that say they've won and that they have bested us in 
our ability to defend ourselves from a missile attack? Why are 
they saying that in a unilateral statement?
    General O'Reilly. Sir, I don't interpret their unilateral 
statements in saying that they've ``bested us'' or they have 
some advantage over us. I do believe what it says is, is that 
if there is an imbalance in our strategic forces, then they 
would reconsider staying with this treaty. However, the treaty 
itself does not constrain any of our plans.
    Senator Risch. Well, General, I can tell you, you're the 
first witness to come before this committee that has 
interpreted their unilateral statement, written in the clearest 
of language, that they believe that they have an advantage over 
us when it comes to the--our ability to defend ourselves from a 
missile attack.
    Thank you.
    Sir, did you want to comment?
    Dr. Miller. Thank you, Senator, yes, very briefly.
    I just--I'd say there is no question that the Russians have 
made statements, not just with respect to this treaty, but over 
the last years and decades, that indicate that they would like 
to constrain our missile defenses. I think the Secretary of 
Defense noted that in his testimony. Their unilateral statement 
makes a connection between missile defenses and offense, in the 
context of strategic stability, that, on its face, one could 
accept it, because it says that they would be concerned if it 
gave rise to a threat to the strategic nuclear force potential 
of the Russian Federation. We don't have the capacity to build 
defenses that will do that in--over this timeframe.
    At the same time, we have made clear, in multiple face-to-
face meetings with the Russians, at all levels, we have made 
clear, as a statement of policy, on the Ballistic Missile 
Defense Review, it's backed up by our budget--$9.9 billion this 
year--and in multiple statements, that we will continue to 
improve and expand our missile defenses, as necessary, to 
provide missile--to provide defense of this country, and to 
provide defense of our deployed forces overseas, and to support 
that of our allies and friends. We do not have the capacity to 
provide an umbrella over the United States entirely against a 
large, sophisticated Russian threat, and we see no way of 
getting there within the--certainly within the timeline of this 
treaty.
    Senator Risch. Do you agree with me that they interpret the 
treaty different than we do in that regard?
    Dr. Miller. Sir, I would put it differently. I think that 
there are at least some on the Russian side that would like to 
use the discussion of the treaty to attempt to constrain our 
options on missile defense. We have made it absolutely clear--
as I said, in multiple venues, not just on unilateral 
statements--that we will not go there.
    Senator Risch. So, as far as you'll go is, you will at 
least admit that there are some on the other side who interpret 
this differently than we do. Would you go that far?
    Dr. Miller. Senator Risch, I don't believe that there's a 
different interpretation of the treaty. I think that there are 
some Russians who would like to use the process of 
ratification, on their side and in our discussion, to try to 
constrain what we do, not through the treaty, but through some 
other mechanism, to have us make statements that would suggest 
that would be the case. We have made very clear statements to 
the contrary, repeatedly.
    Senator Risch. I understand what we have said. My problem 
is what they're saying.
    Thank you, Mr. Chairman.
    The Chairman. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    We want to thank our witnesses for being here. I know we 
have a vote coming up, so I might be less than my allotted 
time.
    I wanted to first start with Dr. Miller. You know we've had 
a number of witnesses here, in addition to the three of you--
many distinguished witnesses. One of them was Dr. Kissinger. 
When he testified, he talked about, among other things, three 
objectives. One was to reduce or eliminate the dangers of war 
by miscalculation, which requires transparency. Two, he said, 
bringing about the maximum stability in the balance of forces. 
Three, he said, to overcome the danger of accidents fostered by 
the automaticity of the new technology.
    I'd ask, you, first, Dr. Miller, in your--based upon your 
experience and based upon your knowledge of the treaty and our 
current security posture as it will be impacted by the treaty, 
do you believe this treaty in any way hinders the United States 
from responding to any and all threats against it?
    Dr. Miller. Senator Casey, no, I do not believe it hinders 
us in any way. And, in fact, the provisions of the treaty, 
including those for verification and transparency, 
significantly aid our ability to identify potential challenges 
and to be prepared to respond to them.
    Senator Casey. And I wanted to also follow up with General 
O'Reilly on some questions that we've all asked about--over 
time, about missile defense. I know that when you were in front 
of the House, the House Armed Services Committee, you said a 
number of things that spoke to this question of missile 
defense. You said ``Relative to the recently expired START 
Treaty, the New START Treaty actually reduces constraints on 
the development of the missile defense program. And under the 
New START Treaty our targets will no longer be subject to START 
constraints.''
    In a similar vein, in the question I asked Dr. Miller, Does 
the START Treaty in any way hinder our ability to carry out 
these objectives that you set forth in the House--in your House 
testimony?
    General O'Reilly. No, sir, it does not.
    Senator Casey. And, in addition to asserting that, why do 
you say that? What are your----
    General O'Reilly. Well, sir, for----
    Senator Casey [continuing]. What do you point to as 
evidence?
    General O'Reilly [continuing]. For one thing, the treaty 
actually, in Article III, excludes interceptor development, 
which is what is the mainstay of our missile defense. So, it 
explicitly addresses the fact that the development of our 
interceptors is not under this--covered under this treaty.
    Second of all, I have talked about the use of targets, 
which are a challenge for us, to come up with longer range 
targets as we mature the missile defense system. But, there are 
other aspects, too, such as--the previous treaty limited our 
ability to encrypt our information from our targets in flight 
testing. And what we do not want to do is share, in broad, open 
forum, our data, as it's coming off our flight tests. And so, 
there are various other aspects, besides the discussion we have 
had before about limiting our launchers. The areas which they 
limited--converting silos or putting them on submarines--are 
not part of our plan, for operational, for technical, and for 
resource reasons.
    Senator Casey. Thank you. And I'll make this my last so we 
have time--a little extra time.
    The verification measures in--that would be in place, upon 
ratification of the treaty, can any one of you--any one of you 
want to speak to that, the benefits of those verification 
provisions?
    Dr. Miller. Senator Casey, I'll just start with the three 
that General Chilton mentioned earlier.
    The first is a database of deployed and nondeployed systems 
and facilities that is--will be put in place, I believe, 45 
days after the entry into force of the treaty.
    Linked to that is a requirement for notification of any 
change in the status of forces under the treaty.
    Third is the unique identifiers. And under START, there 
were unique identifiers associated with mobile missiles only. 
This treaty has them associated with all delivery systems. And 
so, it will improve our ability to track the--what--the status 
and--of their systems over time.
    So, the database, the notifications, and the unique 
identifiers, together, really provide a very strong basis. Add 
on top of that the inspections under the treaty--18 inspections 
of--overall, of deployed and nondeployed systems, and of 
facilities.
    Just note that 18 inspections for 35 sites under New 
START--compare that to 28 inspections under START for 70 
facilities. In fact, the ratio is improved under the New START 
Treaty, relative to the START Treaty.
    All of that backed up by national technical means that we 
can collect by ourselves and provide an independent means of 
validating the data that we collect across these multiple 
different pathways. Very, very solid verification regime.
    Senator Casey. Thank you very much.
    The Chairman. Thank you, Senator Casey.
    And, Senator Kaufman, have you voted?
    Senator Kaufman. No.
    The Chairman. OK. Well--how long do you think you're going 
to be, Senator Shaheen?
    Senator Shaheen. Probably 5 minutes.
    The Chairman. Why don't you stay, then, and try to wrap up? 
My suggestion would be that, Senator Shaheen, you proceed; 
Senator Kaufman, you wrap up; and I'll go over and--we're 
trying to hold the vote.
    I'll thank you, ahead of time, very, very much for being 
here today.
    We're going to leave the record open for--I guess, until 
the end of the week, in case there are any questions that want 
to be submitted.
    Thank you very much.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    And thank you all for being here.
    I missed the beginning of the interchange with Senator 
Risch, but I just wanted to follow up and make sure I 
understand what your bottom line is on that, General O'Reilly. 
Do you believe that the Russian unilateral statement is a 
reason for concern, from a military perspective?
    General O'Reilly. No, ma'am.
    Senator Shaheen. Thank you.
    And, General Chilton, in your testimony you suggested that 
the verification regime would be very important so that we 
could continue to know what was going on in Russia, basically. 
Can you be more specific about what you think the impact of 
failure to ratify this treaty would have on our military 
planning and our knowledge of what's happening in Russia?
    General Chilton. Senator, we would have no verification 
regime, because there is none under the Moscow Treaty, and, of 
course, START I has expired. And so, I think that's a 
significant point, that we would lose any transparency or right 
to inspect the Russian force structure. And I think that's 
important, that we have that visibility into their forces.
    Senator Shaheen. And what happens if we don't get that 
visibility?
    General Chilton. Well, if we don't get the treaty: a, 
they're not constrained in their development of force 
structure, and b, we have no insight into what they're doing. 
So, it's the worst of both possible worlds. And so, what that 
means to us is that we have to guess or, through other national 
technical means, estimate what their force structure and what 
the capability of their weapons are, which then leads us to do 
analysis on what we need. And the less precise that is, the 
more the probability that we either under- or overdevelop the 
force structure we require. And neither is a good result. 
``Under,'' it would be a security issue; ``over'' would be a 
cost issue. We could end up developing capabilities that we 
really didn't require.
    Senator Shaheen. Thank you.
    You also pointed out in your testimony that--you talked 
about the modernization plan for the administration. Can you 
talk about why you feel like what's being proposed is 
sufficient, or not, to address modernization?
    General Chilton. Senator, this is the first substantial 
increase in the funding toward addressing the stockpile issues 
that we have, to address the infrastructure issues that we have 
in the Department of Energy, in the NNSA. This is something I 
have personally been advocating for, for the last 2\1/2\ years, 
and so, I'm greatly encouraged by this Presidential budget that 
has come forward, and I strongly support--completely support 
the FY11 budget, as well as the request for FY10 reprogramming 
to address the issues with the B-61 bomb.
    We're at a very, very important point in history, in the 
decision making progress to ensure we can sustain our nuclear 
stockpile for the future. The stockpile is safe, secure, and 
reliable today, but the decisions we make will impact the 
stockpile in 2020, in 2030, and it's important that we make 
those decisions, support these funds, so that we can move 
forward to assure future generations will have the security 
provided that we benefit from today.
    Senator Shaheen. Thank you.
    And thank you all very much for being here.
    Senator Kaufman [presiding]. Thank you for your service. As 
usually happens, when you get to me, most of the questions have 
been asked and answered, and answered very well.
    And I just--the point to make here is that we've had--I 
think this is our ninth hearing, and all the witnesses have 
said this is a treaty and it's good for us, and we should be 
ratifying.
    And you talked about some of the problems if we do not 
ratify the treaty. What are some limitations on the Russians 
that are incorporated in this treaty? If you were in the 
Russian Defense Department, what are some of the things you 
will not be able to do, that you might like to do, once this 
treaty is ratified?
    Dr. Miller. Senator Kaufman, I would start with the overall 
limits of the treaty. And should there be a future Russian 
decision to try to deploy larger numbers of ICBMs, SLBMs, heavy 
bombers, and associated warheads, the treaty's limits will be 
in place. As was noted earlier, we expect them to be below the 
treaty's limit of 700 deployed ICBM and SLBM launchers--I'm 
sorry--deployed ICBMs and SLBMs and heavy bombers. But, the 
treaty makes clear that that--in fact, that they will be, and 
therefore, will help us on the planning side, as well.
    From a verification perspective--without the treaty, 
obviously the Russians would not be required to open up their 
facilities and to open up the--for inspection--the deployed 
forces, as well. And I would hope that they would see that as 
something that would be not a positive. In other words, I would 
hope that they would see the transparency in the same positive 
way that we do. But, in any event, it would be something that, 
without the treaty, Russia would not be obliged to provide.
    Senator Kaufman. Great.
    General O'Reilly, you said the New START Treaty reduces--
this is a quote--``The New START Treaty reduces constraints on 
the development of the missile defense programs in several 
areas.'' Can you just expand on that a little bit?
    General O'Reilly. Sir, as I've said, the area--the targets 
which we use--as the missile defense program is maturing, we 
are testing against longer and longer range targets. And the 
targets themselves become a challenge for us. Being able to use 
previously retired strategic systems greatly enhances our 
ability to conduct a target--or, a flight-test program. Plus, 
the way the data is processed. And previously, when we had 
accountable targets, where part of the targets were accountable 
under the previous treaty, we were limited from where we could 
launch. And that also is an issue. So, in those regards, sir, 
this is a--it gives us much greater flexibility into developing 
a cost-effective and very insightful flight-test program.
    Senator Kaufman. And finally, we talked about--you talked 
about some of the problems if we do not ratify the treaty. Why 
is there a sense of urgency to get the treaty ratified?
    Dr. Miller. Senator Kaufman, today, as you know, we have no 
verification procedures in place for for Russian forces. We--
without the treaty, we wouldn't have the database, we would not 
have notifications, we would not have the unique identifiers, 
nor the inspections to provide us a good understanding of the 
status of--and size of--Russian forces. So, the--in terms of 
the desire to get this--have the treaty ratified and enter into 
force relatively soon, the longer that we wait before those are 
in place, the greater the uncertainty associated with our 
understanding of their strategic systems.
    Senator Kaufman. Great, thank you. So, we have a very--we 
have a very good treaty here. We've had a number of--9, 10 
hearings. Everyone agrees the treaty should ratify, and there's 
a real sense to have--it's a real sense to have it done, and 
done as quickly as possible.
    I want to thank you for your testimony, and I want to thank 
you especially for your service. The American people are well 
helped by the service that you've created over the years. And 
I--when I look and listen to what your testimony, it makes me 
more and more proud that we have the very best people working 
on these issues. And the American people should feel safe that 
we're going to have a new treaty, and it's been well worked 
out, and it's been checked out by people in all parts of the 
government.
    So, I want to thank you for your service.
    And I adjourn the hearing.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of GEN Kevin P. Chilton to Questions Submitted 
                            by Senator Lugar

          modernization of the u.s. nuclear weapons enterprise
    Question. General Chilton, how important is the modernization of 
the U.S. nuclear weapons enterprise, including the nuclear weapons 
stockpile, the delivery systems, and the supporting infrastructure?

    Answer. Modernization of the U.S. nuclear weapons enterprise is 
critical to meeting the President's commitment to sustain credible, 
reliable, and effective nuclear deterrence capabilities as long as 
nuclear weapons exist. The Nuclear Posture Review reaffirmed the value 
of the triad and the need to recapitalize our nuclear forces. The DOD 
1251 Report and the DOE 1331 Report provide summaries of plans and 
requirements needed for the sustainment and recapitalization of a safe, 
secure, and effective strategic deterrent.
                      b-61 warhead life extension
    Question. General Chilton, how vital and urgent is the pending 
reprogramming request for the B-61 warhead Life Extension?

    Answer. The National Nuclear Security Administration reprogramming 
request for the full scope (nuclear and nonnuclear) B-61 Life Extension 
Program (LEP) is extremely vital and urgent to sustaining our theater 
and strategic nuclear air-delivered capabilities. Delaying action on 
the pending B-61 reprogramming request will delay completion of the LEP 
study that determines the technical approach by the end of FY11 and 
jeopardizes availability of the first production unit required in FY17. 
In addition, timely approval of the reprogramming request is needed to 
mature technologies, including critical safety and security features, 
for incorporation in the LEP. In short, further delays will impact the 
operational availability and reliability of the B-61, limit the ability 
to incorporate vitally needed safety and security features, increase 
costs, and introduce risks to future stockpile management efforts.
              atomic energy defense activities of the nnsa
    Question. General Chilton, how is the uniformed military leadership 
supporting appropriation of the FY11 budget submission with regard for 
atomic energy defense activities of the National Nuclear Security 
Administration? How important is it to your mission that this request 
by fully funded?

    Answer. The President's FY 2011 budget request for NNSA resulted 
from close coordination between DOD, DOE and the National Security 
Council on required funding for atomic energy defense activities of the 
National Nuclear Security Administration and represents a very 
important first step in recapitalizing our infrastructure to more 
effectively sustain our stockpile and manage risk.
    It is imperative that we get a solid start on the critical 
recapitalization and sustainment efforts necessary to sustain our 
nuclear deterrence capabilities. Fully funding the President's FY 2011 
budget request and the future program years is needed to begin to meet 
sustainment requirements in several already compressed program 
schedules. This recapitalization will take many years and require 
continued bipartisan support and funding.
               executive-legislative cooperation in fy11
    Question. General Chilton, how can we work together to ensure that 
the Congress and administration continue to build on the increases 
provided in FY11 over the coming decade?

    Answer. An administration and congressional commitment to a clear, 
long-term plan for managing delivery systems, the nuclear stockpile and 
supporting infrastructures will support sustained funding for U.S. 
strategic deterrence capabilities. We must build partnerships and 
continue our dialogue to refine a shared vision and understanding of 
the nuclear weapons policies and posture articulated in the Nuclear 
Posture Review (NPR). DoD's recent 1251 Report is a first step that 
builds on the NPR and describes plans for maintaining delivery 
platforms for nuclear weapons; sustaining a safe, secure, and reliable 
U.S. nuclear weapons stockpile; and modernizing the nuclear weapons 
complex while neither supporting new military missions nor providing 
new military capabilities.
                              1251 report
    Question. General Chilton, how useful was the 1251 report to 
planning for the future nuclear weapons enterprise? Should Congress and 
the administration regularly reasses the plan to ensure it provides for 
a safe, secure, and reliable nuclear deterrent for the United States?

    Answer. The 1251 report was very useful in providing an outline of 
force structure and NNSA plans. We worked very closely with OSD, Joint 
staff, and the National Security Council staff. It allowed for 
increased visibility of important issues by both Congress and the 
administration. Sufficient and sustained funding will be critical to 
the sustainment and recapitalization of force structure, stockpile, and 
nuclear enterprise infrastructure. We will continue to work to ensure 
the required recapitalization of our delivery vehicles to provide for a 
safe, secure, and reliable nuclear deterrent.
     involvement of national laboratories in nuclear weapons safety
    Question. General Chilton, do you believe it is important for the 
National Laboratories to explore the full range of options to ensure 
that U.S. nuclear weapons are safe, secure, and reliable into the 
future, including, when and where appropriate, replacement options?

    Answer. Yes, I agree it is important that our scientists and 
engineers explore all options to ensure the safety, security, and 
reliability of our nuclear weapons and bring their recommendation to 
the Nuclear Weapons Council for assessment of the path forward. The 
Nuclear Posture Review (NPR) codified the full range of LEP approaches 
will be considered on a case-by-case basis to sustain current stockpile 
capabilities: refurbishment of existing warheads, reuse of nuclear 
components from different warheads, and replacement of nuclear 
components. This is consistent with the congressionally directed 
Stockpile Management Program objectives. I do not view the NPR language 
as a ``restriction,'' but an important part of the administration's 
internal review before it submits a budget request for stockpile 
sustainment activities executed by the National Nuclear Security 
Administration.
                                 triad
    Question. General Chilton, do current plans enable us to maintain a 
triad of
air-, land-, and sea-based strategic offensive forces and how are you 
working to ensure that planning is brought forward to present a 
credible, stabilizing family of delivery vehicles well into the next 
decade, and beyond?

    Answer. Yes, current plans support the triad as clearly articulated 
in the NPR, however, there are acquisition decisions that will be 
needed to support the sustainment and recapitalization of the triad 
over the long term. USSTRATCOM, with the assigned mission of strategic 
deterrence, participated in the process of identifying requirements and 
advocating for funding for the modernization and sustainment of triad 
forces and nuclear stockpile. We are working very hard in conjunction 
with our Service Components to carefully study the requirements and 
tradespace necessary to make the most cost-effective investments, while 
looking for leveraging opportunities and innovative ways to meet our 
national security commitments. We will need to work together to 
continue to address sustainment and recapitalization requirements to 
provide a safe, secure, and effective strategic deterrent.
                                 ______
                                 

     Response of Hon. James N. Miller, Jr., to Question Submitted 
                          by Senator Feingold

                          prompt global strike
    Question. Dr. Miller, You testified with regards to a prompt global 
strike capability that, DOD is also: . . . exploring the potential of 
conventionally armed, long-range systems not associated with an ICBM or 
SLBM that fly a nonballistic trajectory (e.g., boost-glide systems). 
Such systems would have the advantage that they could ``steer around'' 
other countries to avoid overflight and have flight trajectories 
distinguishable from an ICBM or SLBM. We would not consider such 
nonnuclear systems that do not otherwise meet the definitions of the 
New START Treaty to be accountable as ``new kinds of strategic offense 
arms'' for the purposes of the treaty. Is there a possibility that 
other countries would not be certain that such a ``system'' was armed 
with a conventional warhead, notwithstanding the nonballistic 
trajectory, and that any launch of such a ``system'' would 
inadvertently provoke a nuclear confrontation?

    Answer. The Department of Defense is currently evaluating the 
potential costs, risks, and benefits of nonnuclear prompt global strike 
capabilities, as well as alternative deployment options and scenarios 
for their possible employment. A range of measures could help to 
distinguish nonnuclear from nuclear systems and reduce the risks of 
misinterpretation, including deploying nonnuclear and nuclear systems 
at different locations, having different flight trajectories (e.g., 
hypersonic glide only for nonnuclear weapons), limiting the number of 
nonnuclear systems deployed and/or employed at any one time so that it 
was clear that a first-strike was not possible/underway, and providing 
launch notifications and implementing other transparency measures.
                                 ______
                                 

       Response of LTG Patrick J. O'Reilly to Question Submitted 
                          by Senator Feingold

                         missile defense system
    Question. During the hearing you testified that the development of 
a missile defense system that might be able to overcome Russian nuclear 
forces, at least temporarily, would be significantly more expensive 
than the current, planned system. Dr. Miller indicated that even if we 
developed such a system, it would not alone be sufficient as the 
Russians would likely develop additional means to overcome any such 
system, effectively renewing the arms race. Putting aside the wisdom of 
such a course of action, can you give a rough estimate of the cost of 
developing such a system? Specifically, I would appreciate it if you 
would provide the following information:

  <bullet> The per unit cost of developing, deploying and maintaining 
        an interceptor missile, all related equipment and property.
  <bullet> The cost of developing, deploying, and maintaining two 
        interceptor missiles, all related equipment and property, per 
        Russian missile permitted under the New START Treaty.
  <bullet> The cost of developing, deploying, and maintaining two 
        interceptor missiles, all related equipment and property, per 
        50,000 Russian missiles.

    Answer. U.S. missile defense capabilities are intended to counter 
regional threats and provide a viable homeland defense against a 
limited ballistic missile attack. MDA has not been directed to attempt 
to develop a system to defend the high volume and complexity of 
Russia's ICBM arsenal and thus cannot estimate a cost for such an 
effort. The Ground Based Interceptors deployed today--not intended to 
cope with high-volume complex attacks--cost on average $70 million to 
produce (procurement costs only), and each new silo is estimated to 
cost approximately $36 million.
                                 ______
                                 

       Responses of GEN Kevin P. Chilton to Questions Submitted 
                            by Senator Risch

                           funding increases
    Question. In your testimony you stated ``you are confident that the 
combination of NEW START ratification, implementation of the NPR's 
recommendations, and funding of associated investments will continue to 
provide global security.'' If the necessary increases in funding do not 
materialize, would you still maintain your same level of confidence?

    Answer. No, sustained funding will be required to ensure our 
continued confidence in our strategic deterrent. If increases contained 
in the FY11 budget submission do not materialize, we will experience 
delays in addressing aging concerns with our systems. Reduced funding 
will also delay the incorporation of important safety and security 
improvements; reduce our ability to sustain weapons, platforms, and 
human capital; and impact necessary platform modernization efforts. 
Over time, these combined impacts will erode the effectiveness of the 
stockpile and the credibility of the deterrent. Funding requested is 
both prudent and necessary.

    Question. During testimony in 2009, General Cartwright expressed 
the view that he ``would be very concerned if we got below 800 deployed 
delivery vehicles.'' The New Start Treaty establishes a level of 700 
deployed strategic delivery vehicles. Are you concerned that this 
number is 100 below General Cartwright's comfort level?

2009 SASC Testimony:

          Senator Thune. Do you agree with the commitment to reduce our 
        strategic delivery vehicles as somewhere in the range of 500 to 
        1,100 systems? And in your view, at what point in this range 
        between that 500 and 1,100 would the delivery vehicle 
        reductions necessitate making our nuclear triad into a dyad?
          General Cartwright. When we get into that range--and that's 
        what drove the--the range, is that from--from about 1,100 down 
        to about 500, 500 being principally where the Russians would 
        like to be, 1,100 being principally where we would like to be, 
        now the negotiation starts. I would be very concerned if we got 
        down below those levels about midpoint.

    Answer. No, I'm not concerned. Under the 700 limit on deployed 
ICBMs, SLBMs, and nuclear-capable heavy bombers, and 800 limit on 
deployed and nondeployed ICBM launchers, SLBM launchers, and nuclear-
capable heavy bombers, the United States will maintain a sufficiently 
robust and flexible deterrent force.
    The Nuclear Posture Review conducted detailed analysis of potential 
reductions in strategic weapons, including delivery vehicles, which 
would allow the United States to sustain stable deterrence at lower 
force levels. This analysis assumed negotiated limits with Russia. The 
conclusion from the NPR analyses that stable deterrence could be 
maintained at lower strategic delivery vehicle levels, which took 
advantage of New START counting and conversion rules, formed the basis 
for U.S. negotiations with Russia.
                        nuclear force structure
    Question. The administration's one-page fact sheet on the 1251 
report shows that the U.S. nuclear force structure under this treaty 
could comprise up to 420 ICBMs, 240 SLBMs, and 60 bombers. 
Additionally, the use of the ambiguous ``up to'' means anything up to 
that level, meaning it could be much less than that number. This adds 
up to 720, which is 20 over the 700 limitation on strategic delivery 
systems, which suggests additional decisions need to be made with 
respect to U.S. force structure under New Start.

  <bullet> Where will you find the additional 20 delivery systems to 
        eliminate?
  <bullet> With the added complexity of the counting rules for Prompt 
        Global Strike systems, as we add PGS systems where would you 
        cut delivery vehicles to make way for these systems?

    Answer. Yes, additional decisions are required to meet the 700 
deployed strategic delivery vehicle limit of New START. We must be 
within the treaty limit of 700 deployed strategic delivery systems 
before the end of the 7-year treaty implementation period. In 
anticipation of determining this force size, U.S. Strategic Command 
will continue to work with the Services as they develop post-Nuclear 
Posture Review modernization and sustainment plans for our nuclear 
forces. We will continue to assess the force size required for an 
effective deterrent and provide a recommendation to the Secretary of 
Defense well in advance of the treaty requirement.
    Whether or not deployment of PGS requires additional adjustment in 
the strategic launchers will be a function of the type PGS system 
deployed. Given this uncertainty, it is premature to speculate on where 
possible reductions may or may not come from.

    Question. What kind of input did you provide to the SecDef 
regarding the numbers of ICBMS, SLBMs, and bombers should be deployed 
under New Start? Will you share that input?
    What is your estimate of how the Russians will configure their 
strategic forces under New Start? What new strategic systems will the 
Russians deploy within the timeframe of this treaty? Have the Russians 
deployed their new road-mobile ICBM with multiple warheads? Are we able 
to track this missile?
    Have you conducted a net assessment to determine whether the United 
States can carry out its deterrence missions in the face of likely 
Russian strategic and tactical nuclear weapons force structure? Please 
provide details.
    What if the United States decides to deploy 20 conventionally armed 
ballistic missiles for prompt global strike--which of the three legs of 
the nuclear triad will be further reduced to accommodate this 
deployment?
    With the failure of the recent boost glide prompt global strike 
test, will the United States look more seriously at more traditional 
ballistic prompt global strike? What is the timeline for those 
decisions to be made?

    Answer. [Deleted.]
                need for a nuclear force net assessment
    Question. Assume there are some 425 critical targets for the 
Russians to strike--420 ICBMs, 2 submarine bases, and 3 bomber bases--
and the Russians have at least 1,550 nuclear warheads as allowed under 
New Start (they could have more since bombers count only as 1 despite 
the number of nuclear bombs they actually carry).

  <bullet> Walk us through your understanding of how this contributes 
        to strategic stability? Why aren't U.S. forces vulnerable to a 
        Russian first strike?
  <bullet> Please explain why Russian tactical nuclear weapons (which 
        could number approximately 3,800 according to the Strategic 
        Posture Commission) don't upset strategic stability?
  <bullet> Did U.S. Strategic Command, perform a net assessment of the 
        ability of U.S. nuclear forces to survive a Russian first 
        strike and carry out their respective missions in support of 
        U.S. deterrence objectives, including U.S. security guarantees 
        to allies? Can you provide the Senate a classified briefing and 
        the written analysis on this?

    Answer. Our nuclear forces are postured today to deter other 
nuclear capable nations from attacking the United States and to also 
assure allies to whom the United States has extended an umbrella of 
strategic deterrence. The mix of ICBMs on alert, SSBNs at sea and 
unlocated by potential adversaries, and bombers that could be generated 
to alert in a timely fashion in addition to serving as an effective 
deterrent also provide a high degree of strategic stability. These 
forces, combined with our missile warning systems and redundant and 
highly survivable nuclear command and control systems provide the 
response options for the President to consider should the United States 
be attacked. Finally, the focused collection of intelligence supporting 
strategic deterrence is intended to allow sufficiently timely 
generation of additional forces above our day-to-day posture if 
required in a developing crisis. The combination of day-to-day force 
posture, ability to generation additional forces in a timely manner, 
and focused intelligence and warning provides a highly survivable 
deterrent force.
    Under the assumptions of limited range and different roles, Russian 
tactical nuclear weapons do not directly influence the strategic 
balance between the United States and Russia. Though numerical 
asymmetry exists in the numbers of tactical nuclear weapons the United 
States has and we estimate Russia possesses, when considered within the 
context of our total capability and given force levels as structured in 
New START, this asymmetry is not assessed to substantially affect the 
strategic stability between the United States and Russia.
    Furthermore, within the regional context, the United States relies 
on additional capabilities to support extended deterrence and power 
projection, including: conventional force capabilities, ballistic 
missile defenses, allied capabilities, advanced technologies, and 
modernization and maintenance of existing forces, to name a few. As 
President Obama stated in Prague last year, we are committed to 
maintaining a safe, secure, and effective nuclear arsenal to deter any 
adversary and guarantee that defense to our allies. During the Nuclear 
Posture Review (NPR) consultations, our NATO allies were engaged on the 
issue of extended deterrence and were assured of our continued 
commitment to their defense. Allies have welcomed the outcome of the 
NPR, as well as the signing of New START.
    New START's lower strategic force levels are based on force 
analyses conducted during the Nuclear Posture Review. We concluded that 
the lower New START limits will allow for an effective nuclear 
deterrent, and that any plans envisioned for deploying limited numbers 
of conventional warheads on ICBMs or SLBMs could be accommodated within 
those limits. In reaching these conclusions, the analyses conducted 
during the Nuclear Posture Review took into account the nuclear 
arsenals of other declared nuclear weapon states, as well as the 
nuclear programs of proliferant states.
    Please refer further details of the analysis and requests for 
briefings to OSD.
                             nuclear triad
    Question. The administration has made a commitment to maintaining 
the nuclear triad.

  <bullet> Does this commitment extend only through the life of the 
        treaty or beyond?
  <bullet> Do you believe it is important the United States maintain 
        all three legs of the nuclear triad? Why, please explain?
  <bullet> Given the advances in potential enemy air defenses, the 
        ability of our strategic bombers to penetrate to their targets 
        is becoming increasingly more difficult. Can we maintain the 
        viability of the bomber leg of the triad without developing a 
        new nuclear air-launched cruise missile?

    Answer. I believe it is important to retain the triad. Each leg 
provides distinct attributes contributing to the strategic deterrence 
mission. As you note, this position was validated during the Nuclear 
Posture Review.
    Service plans reflected in the FY11 Presidential Budget Request 
take a long view toward sustainment and modernization. The U.S. Navy 
has embarked on developing an Ohio-class SSBN Replacement Program, 
beginning R&D to support construction of the first submarine in 2019. 
Delivery of the first new SSBN is tentatively scheduled for 2027, with 
an expected lifespan through 2080. Navy's Trident D5 missile system has 
ongoing life extension programs to ensure its viability through 2042. 
The Air Force has plans in place for the sustainment of ICBMs (through 
2030), B2s and B52s (to 2040) and ALCM (to 2030).
    The growth of adversary defensive capabilities is a concern for the 
bomber force. In order to support the range of potential missions of 
all Combatant Commands, the future air leg needs both standoff and 
penetrating capabilities. The Air Force plans on sustaining ALCM to 
2030 and included funding in the FY11 budget for an Analysis of 
Alternatives for a future cruise missile that may satisfy both the 
nuclear and conventional missions.
                     aging of u.s. nuclear weapons
    Question. Are you concerned about the aging of our nuclear weapons? 
You wrote a letter with Admiral Mullen in September 2008 stating 
``while today's nuclear stockpile is safe, secure, and reliable, the 
stockpile sustainment issues expressed by the directors of the nuclear 
weapons laboratories raise significant concerns.'' ``[S]ignificant 
concerns,'' General Chilton? Please elaborate on those concerns.
    There are those in the Senate who have stated that because the lab 
directors continue to certify the stockpile each year, all is well. 
Would you agree with those Senators?

    Answer. I am concerned about the long-term confidence in the 
stockpile. Each year it is increasingly challenging to certify the 
legacy stockpile due to aging concerns. Through the success of the 
stockpile stewardship program the stockpile today remains as safe, 
secure, and effective as our cold-war-era designs allow. Our stockpile 
stewardship program has provided evidence that our warheads are aging 
and doing so in ways that can be difficult to predict. Today, we know 
that selected components on some warheads require refurbishment as part 
of ongoing, funded efforts. The administration has also requested 
funding for additional studies to identify necessary life extension 
requirements for other weapons. As weapons require life extension 
activities, we will also have opportunities to improve their safety and 
security features, as well as to maintain long-term confidence in 
effectiveness. Robust assessment and surveillance programs within the 
nuclear weapons enterprise are needed to continue to certify the 
stockpile without underground nuclear testing. Additionally, we must 
make the necessary investments to recapitalize the NNSA infrastructure 
outlined in the 3113 Report, FY 2011 Stockpile and Stewardship 
Management Plan.
                               1251 plan
    Question. How important is it that the Congress take a fresh look 
at the 1251 plan each year? Would you be concerned if the FY11 budget 
turned out to be a
1-year blip and the nuclear weapons enterprise budget returned to the 
FY05-10 era of dangerous underfunding?

    Answer. I believe the annual oversight of budgets for strategic 
weapons and platforms is important to sustain the Nation's focus on 
this key element of our security. I also believe that we need to have a 
broader, longer term view of the stockpile in view of the time needed 
to identify problems, study and determine corrective measures, and then 
implement appropriate program changes.
    We carefully review Service budget activities related to strategic 
systems on an annual basis. The administration has requested a 
multiyear commitment in the FYDP to the nuclear enterprise budgets. I 
would be concerned if we do not sustain funding within these budgets 
beyond FY11.
                    modernization of nuclear weapons
    Question. You wrote a letter in September 2008 with Admiral Mullen 
that ``the United States is the only nuclear weapons state not 
currently modernizing its nuclear capabilities and supporting 
infrastructure.'' Is that a prudent course for the United States? Can 
that be fixed in only 1 year?

    Answer. Your question reflects an accurate assessment of my 
previous and current position. We cannot address our aging capabilities 
and supporting infrastructures in 1 year. However, as articulated in 
the Nuclear Posture Review and the President's FY 2011 Budget Request, 
the administration has requested significant long-term investments 
essential for sustaining a safe, secure, and effective strategic 
deterrent capability. Continued commitment from the administration and 
Congress will be required over a number of years to sustain and 
modernize our strategic deterrence capabilities.
                        tactical nuclear weapons
    Question. The Perry-Schlesinger Strategic Posture Commission report 
estimates that Russia holds 3,800 tactical nuclear warheads and notes 
that, ``The combination of new warhead designs, the estimated 
production capability for new nuclear warheads, and precision delivery 
systems and open up new possibilities for Russian efforts to threaten 
to use nuclear weapons to influence regional conflicts.'' Likewise, 
Under Secretary of Defense Flournoy has observed that the Russians are 
``actually increasing their reliance on nuclear weapons and the role of 
nuclear weapons in their strategy.''

  <bullet> Isn't it the case that as the numbers of strategic nuclear 
        weapons go down in our respective arsenals, the disparity in 
        tactical nuclear weapons becomes more significant?

    Under this treaty, the United States will reduce strategic nuclear 
warheads to 1,550, while the Russians will continue to deploy at least 
3,800 tactical nuclear warheads in addition to their strategic nuclear 
warheads. Not only will the Russians maintain a 10-1 superiority in 
tactical nuclear weapons, their tactical nuclear weapons will outnumber 
our strategic nuclear weapons by at least 2-1.

  <bullet> How does this contribute to nuclear stability?
  <bullet> What impact will this disparity have on allied views of the 
        U.S. nuclear umbrella?
  <bullet> What leverage do we have to address this disparity in the 
        future?
  <bullet> Why didn't we make this an objective for this agreement? 
        Especially since we agreed to a more vague connection between 
        strategic offensive and defensive arms.

    Answer a & d. Certainly, Russia's total nuclear force size will 
remain a significant factor in determining how much and how fast we are 
prepared to reduce U.S. forces in the future. The size and pace of U.S. 
nuclear force reductions will be implemented in ways that maintain 
effective deterrence and sustain the credibility of our security 
assurances to our allies and partners.
    The 2010 Nuclear Posture Review (NPR) and statements by senior U.S. 
officials have made clear that the United States intends to pursue 
broader reductions with Russia, including tactical nuclear weapons, 
following the entry into force of the New START Treaty. The number and 
role of tactical nuclear weapons in the Russian arsenal warrants 
addressing in future nuclear reduction discussions between the United 
States and Russia. Meanwhile, United States nuclear forces will 
continue to underwrite deterrence for the United States, its allies, 
and its partners.

    Answer b & c. Tactical nuclear weapons do not substantively 
influence the strategic nuclear balance between the United States and 
Russia because of their limited range and different roles. Even so, 
under the New START limits the United States retains the capacity and 
capability to upload our strategic nuclear delivery systems in response 
to any attempt by Russia to leverage its tactical nuclear weapons to 
gain advantage. Furthermore, within the regional context, the United 
States relies on multiple capabilities, including its superior 
conventional force capabilities, tactical nuclear capabilities, U.S. 
strategic nuclear capabilities, ballistic missile defenses, and allied 
capabilities, to support extended deterrence and power projection.

    Answer e. Refer to OSD.
                           future reductions
    Question. From your perspective, would additional reductions in 
U.S. ICBMs, SLBMs and heavy bombers, and their associated warheads/
bombs, below those contained in the New START treaty be possible and 
would you advise we pursue them?
    I understand DOD is currently conducting an analysis of future 
force reductions, but help us understand how you are thinking about 
these issues:

  <bullet> What are the key considerations to take into account when 
        contemplating lower U.S. nuclear forces?
  <bullet> Are you concerned that at lower levels the military will not 
        be able to carry out its deterrence missions?
  <bullet> Are you concerned about the survivability of U.S. forces at 
        lower levels?

    <all> Do you believe that at lower force levels the implications of 
            cheating become more profound?
    <all> Does detecting cheating, become more important at the lower 
            levels imposed by New START?

  <bullet> To have greater confidence in detecting cheating, doesn't it 
        require a larger dependence on National Technical Means?
  <bullet> Are you concerned that other countries may view lower U.S. 
        force levels as an opportunity to gain parity with the United 
        States in nuclear capability?
  <bullet> Are you concerned that at lower levels of U.S. forces, our 
        allies may come to doubt the credibility of U.S. nuclear 
        security guarantees--especially if the Russians maintain large 
        numbers of tactical nuclear weapons?

    Answer. As stated in the Nuclear Posture Review, the President has 
directed a review of post-New START arms control objectives to consider 
further reductions in nuclear weapons.
    Specifically, the U.S. goals in post-New START bilateral 
negotiations with Russia could include reducing nonstrategic/tactical 
nuclear weapons and nondeployed nuclear weapons, as well as deployed 
strategic nuclear weapons--ICBMs, SLBMs, and nuclear-capable heavy 
bombers. Of course, any specific United States-Russian discussions on 
U.S. nonstrategic/tactical nuclear weapons will take place in the 
context of continued close consultation with allies and partners. The 
United States will maintain a nuclear arsenal to maintain strategic 
stability with other major nuclear powers, deter potential adversaries, 
and reassure our allies and partners of our security commitments to 
them.
    A number of factors were considered in STRATCOM's analysis for New 
START and the NPR, including but not limited to: employment guidance, 
deterrence, extended deterrence, assurance of friends and allies, 
ability to hedge against technical and geopolitical developments based 
on the nuclear infrastructure, and the potential for further 
reductions. These factors will certainly play a critical, but not all 
inclusive role, in the analysis to support further reductions.
            technological parity with the russian federation
    Question. According to the Congressional Commission on the 
Strategic Posture of the United States (page 12): ``Russia is at work 
on a new intercontinental ballistic missile (initially deployed with a 
new single warhead but capable of carrying multiple warheads), a new 
ballistic missile submarine and the associated new missile and warhead, 
a new short-range ballistic missile, and low-yield tactical nuclear 
weapons including an earth penetrator. It is also engaged in continued 
research and development on a hypersonic intercontinental glide 
missile.''
    With the Russians currently developing these new systems. What new 
platforms is the United States planning to deploy during the life of 
this treaty in order to ensure technological parity with the Russians? 
Do you believe the United States should continue to deploy an ALCM?

    Answer. The United States will likely not deploy new delivery 
platforms during the life of the treaty. The Department is committed to 
the ongoing life extension and sustainment programs to ensure our 
platforms and weapons provide a robust and assured strategic and 
extended deterrent capability.
    The Department has also embarked on efforts for our ``next-
generation'' platforms--Navy has started R&D activities to support the 
Ohio-class Replacement program while the Air Force is conducting 
recapitalization studies for ICBMs, penetrating and standoff bomber and 
future cruise missile.
    Yes, the ALCM remains a critical component of the strategic 
deterrent force. ALCM provides flexible and responsive capabilities 
that ensure our bomber forces remain an essential element of our 
deterrent. It also serves an integral role in our hedge strategy by 
providing the most responsive capability to mitigate technical problems 
in other legs of the triad.
                           b61 life extension
    Question. Please describe why the B61 life extension is important.

    Answer. The full scope B61 life extension is important because the 
B61 is a cornerstone of our air-delivered strategic and extended 
deterrent. The full scope life extension will refurbish an aging 
system; improve 30-year-old safety and security features; take 
advantage of a limited infrastructure window within the nuclear 
enterprise; and reduce future stockpile size by consolidating four B61 
variants into one. Finally, conducting this life extension as planned 
will eliminate the need for another life extension in the 2020s, thus 
saving taxpayer dollars by handling the weapon only once.
                     delivery system modernization
    Question. The administration will invest $100 billion over the next 
decade in nuclear delivery systems. About $30 billion of this total 
will go toward development and acquisition of a new strategic 
submarine, leaving about $70 billion. According to estimates by U.S. 
Strategic Command, the cost of maintaining our current dedicated 
nuclear forces is approximately $5.6 billion per year or $56 billion 
over the decade. This leaves roughly $14 billion of the $100 billion 
the administration intends to invest--even less if you factor in 
inflation.

  <bullet> General Chilton, the 1251 plan reveals that the bulk of the 
        funding planned is to sustain current systems. There is no 
        funding in the plan to build a new bomber, ICBM, or Air 
        Launched Cruise missile. How can this plan be sufficient if 
        there is no money in it for any follow-on system other than the 
        nuclear submarine?
  <bullet> Is this $14 billion sufficient to develop and acquire:

          1. A next generation bomber;
          2. A follow-on ICBM;
          3. A follow-on nuclear air launched cruise missile; and
          4. Develop a conventional prompt global strike capability.

  <bullet> In light of these figures, and the fact that you have yet to 
        make additional modernization decisions, please explain why you 
        believe $100 billion is sufficient investment in our delivery 
        systems over the next decade.

          1. How confident are you that the administration will pursue 
        these other programs? Please explain?
          2. Why didn't you make a decision to pursue these in the 1251 
        report?
          3. What is the likelihood you would decide against a new 
        bomber, air-launched cruise missile, or follow-on ICBM?
          4. Do you believe the Senate should ratify this treaty before 
        the administration has committed to modernization beyond a new 
        ballistic missile submarine?

    Answer. The estimated investment of over $100 billion for strategic 
delivery vehicles over the next decade, provided in the section 1251 
report, represents a best-estimate of costs associated with deployed 
systems and programs underway and planned. This estimate does not 
include all of the costs associated with potential future modernization 
programs. The FY 2011-2020 costs provided in the sec. 1251 report 
include funds for sustaining and upgrading existing systems, including 
the B-2A and B-52H bombers, Minuteman III ICBMs, and the Ohio-class 
SSBN. In addition, the report includes estimated costs for the Ohio-
class SSBN replacement, with the initial funding for this program 
having been provided in the FY 2010 DOD budget. These FY 2011-2020 cost 
estimates do not provide funds for other possible follow-on systems--
the ALCM follow-on and the Minuteman III ICBM follow-on, and a possible 
follow-on heavy bomber--studies are now underway regarding options for 
these systems. As specific decisions are made regarding future systems, 
necessary funding will be requested in future DOD budget requests. 
Given this level of commitment the ability of the present force to be 
adequately sustained through the New START Treaty and the time 
available to consider the nature of future deterrent forces beyond the 
new SSBN, I believe the Senate should provide their consent for 
ratification of New START.
                                 ______
                                 

 Responses of James N. Miller, Jr., to Questions Submitted by Senator 
                                 Risch

                        tactical nuclear weapons
    Question. . The Perry-Schlesinger Strategic Posture Commission 
report estimates that Russia holds 3,800 tactical nuclear warheads and 
notes that, ``The combination of new warhead designs, the estimated 
production capability for new nuclear warheads, and precision delivery 
systems and open up new possibilities for Russian efforts to threaten 
to use nuclear weapons to influence regional conflicts.'' Likewise, 
Under Secretary of Defense Flournoy has observed that the Russians are 
``actually increasing their reliance on nuclear weapons and the role of 
nuclear weapons in their strategy.''

  <bullet> Isn't it the case that as the numbers of strategic nuclear 
        weapons go down in our respective arsenals, the disparity in 
        tactical nuclear weapons becomes more significant?

    Under this treaty, the United States will reduce strategic nuclear 
warheads to 1,550, while the Russians will continue to deploy at least 
3,800 tactical nuclear warheads in addition to their strategic nuclear 
warheads. Not only will the Russians maintain a 10-1 superiority in 
tactical nuclear weapons, their tactical nuclear weapons will outnumber 
our strategic nuclear weapons by at least 2-1.

  <bullet> How does this contribute to nuclear stability?
  <bullet> What impact will this disparity have on allied views of the 
        U.S. nuclear umbrella?
  <bullet> What leverage do we have to address this disparity in the 
        future?
  <bullet> Why didn't we make this an objective for this agreement? 
        Especially since we agreed to a more vague connection between 
        strategic offensive and defensive arms.

    Answer. a. Russia's nuclear force remains a significant factor in 
determining how much and how fast the United States should reduce U.S. 
nuclear forces. While large disparities in overall levels of nuclear 
capabilities could raise concerns on both sides, it is important to 
note that the United States will retain many more than 1,550 nuclear 
weapons if the New START Treaty is ratified and enters into force. For 
example, as of September 30, 2009, the United States had 5,113 nuclear 
in the stockpile (several thousand more than the upper limit for 
deployed strategic systems under the SORT Treaty), with an additional 
several thousand awaiting dismantlement. Because the New START Treaty 
does not limit tactical and nondeployed nuclear weapons, the United 
States may retain whatever numbers of these systems desired.

    b. Tactical nuclear weapons do not directly influence the stability 
of the strategic nuclear balance between the United States and Russia 
because of their limited range and the different roles these weapons 
play. More broadly, the United States will be able to retain 
approximate overall parity in nuclear weapons if the New START Treaty 
is ratified and enters into force.

    c. In the course of consultations with allies during the 
development and following the release of the NPR and the signing of the 
New START Treaty, many allied governments have told us they are 
comfortable with our planned nuclear force posture, which is consistent 
with the NPR recommendations and the New START Treaty. Representatives 
of these governments have also noted that future United States-Russian 
nuclear arms reduction negotiations should seek to reduce Russian 
tactical nuclear weapons.

    d. As the 2010 NPR makes clear, and as the President reiterated in 
Prague on April 8, 2010, at the signing of the New START Treaty, the 
United States intends to pursue additional and broader reductions with 
Russia that would include reductions in strategic and tactical nuclear 
weapons and also nondeployed weapons. We believe that such reductions 
will be in the interests of both sides in order to further enhance 
stability, reduce costs, and meet obligations under the Nuclear Non-
Proliferation Treaty.

    e. The United States did not make reductions in the Russian 
tactical nuclear forces an objective for this treaty, because from the 
outset, the New START Treaty was intended to replace the START Treaty 
expiring in December 2009, which was focused solely on strategic 
offensive forces. Deferring negotiations on tactical nuclear weapons 
until after a START successor agreement had been concluded was also the 
unanimous recommendation of the Perry-Schlesinger Congressional 
Strategic Posture Commission in the spring of 2009.
                   missile defense preamble language
    Question. The New START Preamble states: ``Recognizing the 
existence of the interrelationship between strategic offensive arms and 
strategic defensive arms, that this interrelationship will become more 
important as strategic nuclear arms are reduced, and that current 
strategic defensive arms do not undermine the viability and 
effectiveness of the strategic offensive arms of the Parties.''

  <bullet> How does the U.S. side interpret the phrase ``current 
        strategic defensive arms''? Does it include the deployment of 5 
        SM-3 block IIB missiles in Europe by 2020? How about 10 IIB 
        missiles? How about 100?
  <bullet> How do the Russians interpret the ``current'' level of 
        strategic defensive arms? At what point in our deployment plans 
        will they suggest we've moved beyond ``current'' capabilities?
  <bullet> In your testimony you said that you have briefed the 
        Russians on President Obama's Phased Adaptive Approach. What 
        was their reaction to each phase? What concerns did they raise? 
        What objections did they raise? Please provide a copy of all 
        the briefing slides used for that presentation.

    Answer. I would like to address the policy issues which LTG 
O'Reilly deferred:

  <bullet> ``Strategic defensive arms'' consist of missile defenses 
        that are capable against intercontinental ballistic missiles as 
        well as air defenses that provide protection against heavy 
        bombers and cruise missiles. ``Current'' strategic defensive 
        arms include those capabilities deployed at the time of the 
        signing of the New START Treaty in April 2010.
  <bullet> The United States has repeatedly made clear that we intend 
        to move beyond ``current'' missile defense capabilities by 
        improving our Ground-Based Midcourse Defenses (GMD), as well as 
        moving forward with the Phased Adaptive Approach (PAA) in 
        Europe and in other regions. There is therefore no doubt that 
        the Russians understand that the United States plans to move 
        beyond ``current'' missile defense capabilities both 
        qualitatively and quantitatively. In our assessment, none of 
        the capabilities planned for the PAA in Europe will undermine 
        the viability and effectiveness of Russia's strategic offensive 
        arms. This is a point we have made repeatedly to Russia in 
        explaining the results of the 2010 Ballistic Missile Defense 
        Review, and in policy and technical explanations about the 
        European-based Phased Adaptive Approach and the GMD system.
                      russian unilateral statement
    Question. ``The Treaty between the Russian Federation and the 
United States of America on the Reduction and Limitation of Strategic 
Offensive Arms signed in Prague on April 8, 2010, can operate and be 
viable only if the United States of America refrains from developing 
its missile defense capabilities quantitatively or qualitatively. 
Consequently, the exceptional circumstances referred to in Article 14 
of the treaty include increasing the capabilities of the United States 
of America's missile defence system in such a way that threatens the 
potential of the strategic nuclear forces of the Russian Federation.''

  <bullet> What would the Russians consider a quantitative or 
        qualitative development in U.S. missile defense capabilities? 
        Additional ground-based interceptors in Alaska? Additional SM-3 
        block IIA missiles on U.S. ships or deployed in Poland in 2018, 
        as planned? The development and deployment of SM-3 block IIB 
        missiles in Europe by 2020, as planned?
  <bullet> How did you discuss this matter with the Russians? Can you 
        provide the Senate documentation, briefings, memos of such 
        discussions?
  <bullet> Have the Russians explained what type and numbers of U.S. 
        missile defenses could ``threaten the potential of the 
        strategic nuclear forces of the Russian Federation''?

    Answer. a. The Russian Federation has not defined what it would 
consider a quantitative or qualitative development in U.S. missile 
defenses. Russia's main concern--as specifically stated in the last 
sentence of its unilateral statement cited in this question--appears to 
be that improved and expanded U.S. missile defense capabilities might 
be able to undermine the credibility of Russia's strategic deterrent. 
Various U.S. officials have informed their Russian counterparts that 
U.S. missile defense capabilities associated with deployment of the 
Phased Adaptive Approach (PAA) in Europe will not pose a threat to 
Russia's strategic deterrent because the capabilities to be deployed 
during each phase (including Phase 4, which is planned to include 
deployment of SM-3 Block IIB missiles in Europe) will not be able to 
engage Russian strategic missile forces, that is, ICBMs, based in 
Russia and SLBMs deployed on strategic submarines at sea or in port.
    The various versions of the Stand Missile-3 (SM-3) missile defense 
interceptors we are planning to deploy in Europe as part of the 
European PAA (including the SM-3 Block IIBs to be deployed during Phase 
4) will not have the speed necessary to intercept Russian ICBMs or 
SLBMs heading to the United States. Moreover, the 30 ground-based 
interceptors (GBIs) deployed at Fort Greely, AK, and Vandenberg Air 
Force Base, CA--which are designed to defeat very small attacks by 
first generation North Korean and Iranian ICBMs--will not have 
significant capability against a large-scale Russian strategic missile 
attack that would likely include hundreds of advanced reentry vehicles 
combined with various types of penetration aids; indeed the number of 
GBIs could increase substantially and the same would be true.
    For these reasons, we do not believe that Russia will have a 
legitimate missile defense-related reason, as defined by their own 
unilateral statement, to withdraw from the New START Treaty during its 
10-year duration, or for that matter if the treaty were extended for an 
additional 5 years, as allowed by mutual consent.

    b. U.S. missile defense plans were set forth publicly during the 
President's September 17, 2009, announcement of the ``Phased Adaptive 
Approach'' to ballistic missile defense in Europe as well as in the 
Ballistic Missile Defense Review Report mandated by Congress, which was 
published on February 1, 2010.
    Additionally, the Obama administration has provided briefings on 
U.S. regional and national ballistic missile defense (BMD) policy, 
plans, and programs to representatives of the Russian Government and 
the Russian military on several occasions over the past several years. 
The briefing and discussions conducted in Moscow in October 2009 within 
the Arms Control and International Security Working Group of the United 
States-Russia Bilateral Presidential Commission included a clear 
description of all four phases of the U.S Phased Adaptive Approach 
(PAA) to missile defense in Europe. A second briefing and discussion 
were held between representatives of the U.S. Joint Staff and the 
Russian General Staff in a meeting of the Military Cooperation Working 
Group. There have been numerous other high-level engagements between 
representatives of the United States and Russia in which we have 
repeatedly explained that we do not see Russia as a threat, nor do we 
or will we have the capabilities to negate the Russian strategic 
deterrent during the 10-year duration of the New START Treaty, or for 
that matter if it were extended for an additional 5 years by mutual 
consent.
    We can provide the Senate briefings and related materials. In 
addition, we can assure the Senate that we have made no ``secret 
deals'' or agreements with the Russians that would constrain the U.S. 
ability to develop and deploy missile defenses to defend the homeland 
from limited missile attacks and to defend our deployed forces, allies, 
and partners from growing regional missile threats.

    c. The Russians have not identified specific U.S. missile defense 
systems whose deployment would justify Russian withdrawal from the 
treaty.
                       u.s. unilateral statement
    Question. U.S. statement says; ``The United States of America takes 
note of the Statement on Missile Defense by the Russian Federation. The 
United States missile defense systems are not intended to affect the 
strategic balance with Russia. The United States missile defense 
systems would be employed to defend the United States against limited 
missile launches, and to defend its deployed forces, allies, and 
partners against regional threats. The United States intends to 
continue improving and deploying its missile defense systems in order 
to defend itself against limited attack and as part of our 
collaborative approach to strengthening stability in key regions.''

  <bullet> Are the U.S. and Russian definitions of ``limited'' the 
        same?
  <bullet> What the United States considers to be limited could be 
        construed by the Russians as having an impact on their 
        strategic forces--did you discuss this with the Russians?
  <bullet> The Russians claimed 10 ground-based interceptors to be 
        deployed in Poland were a threat to them and President Obama 
        unilaterally backed away from the missiles' emplacement. Why 
        won't the Russians also claim that the SM-3 block IIB is a 
        threat to Russian strategic forces? And if the Russians do 
        claim it is a threat, will the administration back away and 
        revise the Phased-Adaptive Approach to comply with Russian 
        objections?

    Answer. a. We have not made an attempt to arrive at an agreed 
definition of ``limited'' in terms of missile defense with the 
Russians. This language is used to describe the goal of our missile 
defense efforts. As the United States has stated in the past, our 
homeland missile defense capabilities are focused on regional actors 
such as Iran and North Korea. While the GMD system would be employed to 
defend the United States against limited missile launches from any 
source, it does not have the capacity to cope with large scale Russian 
missile attacks, and is not intended to affect the strategic balance 
with Russia.

    b. We have discussed with Russia why we believe that our missile 
defense efforts, including the GMD system deployed in the United States 
for defense of the U.S. homeland and our planned regional missile 
defense capabilities, including the Phased Adaptive Approach in Europe, 
are not a threat to Russia's strategic deterrent.

    c. As the U.S. unilateral statement regarding missile defense, the 
Ballistic Missile Defense Review, and our budgetary plans all make 
clear, the United States is committed to the Phased Adaptive Approach 
in Europe and will continue to improve our missile defenses, as needed, 
to defend the U.S. homeland, our deployed forces, and our allies and 
partners. The United States has made it clear to the Russian Federation 
that the U.S. missile defenses, including the GMD system deployed in 
the United States for defense of the U.S. homeland and our planned 
regional missile defense capabilities, including the Phased Adaptive 
Approach in Europe, are not intended to affect the strategic balance 
with Russia.
                  deployment of sm-3 block iia and iib
    Question. What is the current estimate for when the SM-3 block IIA 
and block IIB would be ready for deployment? Is the administration 
committed to fully fund the development and deployment of phase 3 and 4 
of the Phased Adaptive Approach in Europe?

    Answer. Deployment of the SM-3 Block IIA is planned for the 2018 
timeframe and the SM-3 Block IIB is planned for the 2020 timeframe. The 
administration is fully committed to funding the development and 
deployment of the European Phased Adaptive Approach to counter the 
threat posed by regional actors such as Iran to our deployed forces, 
allies and partners in Europe.
                                 ______
                                 

      Responses of LTG Patrick J. O'Reilly to Questions Submitted 
                            by Senator Risch

                   missile defense preamble language
    Question. The New START Preamble states: ``Recognizing the 
existence of the interrelationship between strategic offensive arms and 
strategic defensive arms, that this interrelationship will become more 
important as strategic nuclear arms are reduced, and that current 
strategic defensive arms do not undermine the viability and 
effectiveness of the strategic offensive arms of the Parties.''

  <bullet> How does the U.S. side interpret the phrase ``current 
        strategic defensive arms''? Does it include the deployment of 5 
        SM-3 block IIB missiles in Europe by 2020? How about 10 IIB 
        missiles? How about 100?
  <bullet> How do the Russians interpret the ``current'' level of 
        strategic defensive arms? At what point in our deployment plans 
        will they suggest we've moved beyond ``current'' capabilities?
  <bullet> In your testimony you said that you have briefed the 
        Russians on President Obama's Phased Adaptive Approach. What 
        was their reaction to each phase? What concerns did they raise? 
        What objections did they raise? Please provide a copy of all 
        the briefing slides used for that presentation.

    Answer. As head of the Missile Defense Agency, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in the Office of the Secretary of Defense (OSD) and the 
Department of State to respond to questions that have policy or 
diplomatic implications.
    I briefed Russian officials on the capabilities and limitations of 
our missile defense plans throughout all four phases of the phased 
adaptive approach. Based on fundamental physics and first principle 
engineering, it is well understood where we have capability and where 
we don't have capability, especially in regards to their strategic 
arsenals. It was very clear to me through their questions and responses 
that they fully understood my presentation.
    I went through the details of all four phases of the Phased 
Adaptive Approach, especially Phase IV. And while the missiles that we 
have selected as interceptors in Phase IV are expected to provide a 
very effective defense for a regional type threat, they are not of the 
size to have sufficient range to reach Russian strategic missile 
fields. Given Russian expertise in missiles and the size of these 
interceptors it is an easily verifiable property of these missiles. 
Even if Russia flew a missile within range of our Phase IV 
interceptors, we would not be able to intercept those missiles given 
the time we would see the missiles and the velocity of their much 
larger strategic missiles and our smaller interceptors. The Russians 
seemed to be very knowledgeable of this and acknowledged my points.
    DOD will provide the briefing slides used for this presentation 
under separate cover.
                      russian unilateral statement
    Question. ``The Treaty between the Russian Federation and the 
United States of America on the Reduction and Limitation of Strategic 
Offensive Arms signed in Prague on April 8, 2010, can operate and be 
viable only if the United States of America refrains from developing 
its missile defense capabilities quantitatively or qualitatively. 
Consequently, the exceptional circumstances referred to in Article 14 
of the treaty include increasing the capabilities of the United States 
of America's missile defence system in such a way that threatens the 
potential of the strategic nuclear forces of the Russian Federation.''

  <bullet> What would the Russians consider a quantitative or 
        qualitative development in U.S. missile defense capabilities? 
        Additional ground-based interceptors in Alaska? Additional SM-3 
        block IIA missiles on U.S. ships or deployed in Poland in 2018, 
        as planned? The development and deployment of SM-3 block IIB 
        missiles in Europe by 2020, as planned?
  <bullet> How did you discuss this matter with the Russians? Can you 
        provide the Senate documentation, briefings, memos of such 
        discussions?
  <bullet> Have the Russians explained what type and numbers of U.S. 
        missile defenses could ``threaten the potential of the 
        strategic nuclear forces of the Russian Federation''?

    Answer. Our plans for the Phased Adaptive Approach to missile 
defense in Europe do not require the development of large interceptors 
capable of countering the Russian ICBM arsenal. The deployment of 
hundreds of Ground Based Interceptors (GBIs) would be required over a 
5-year construction period before the quantity of GBIs would be 
sufficient to degrade Russia's strategic capabilities. We have no plans 
or budget requested for such qualitative or quantitative improvements 
that would effectively degrade Russian strategic forces.
                       u.s. unilateral statement
    Question. The U.S. statement says; ``The United States of America 
takes note of the Statement on Missile Defense by the Russian 
Federation. The United States missile defense systems are not intended 
to affect the strategic balance with Russia. The United States missile 
defense systems would be employed to defend the United States against 
limited missile launches, and to defend its deployed forces, allies and 
partners against regional threats. The United States intends to 
continue improving and deploying its missile defense systems in order 
to defend itself against limited attack and as part of our 
collaborative approach to strengthening stability in key regions.''

  <bullet> Are the U.S. and Russian definitions of ``limited'' the 
        same?
  <bullet> What the United States considers to be limited could be 
        construed by the Russians as having an impact on their 
        strategic forces--did you discuss this with the Russians?
  <bullet> The Russians claimed 10 ground-based interceptors to be 
        deployed in Poland were a threat to them and President Obama 
        unilaterally backed away from the missiles' emplacement. Why 
        won't the Russians also claim that the SM-3 block IIB is a 
        threat to Russian strategic forces? And if the Russians do 
        claim it is a threat, will the administration back away and 
        revise the Phased-Adaptive Approach to comply with Russian 
        objections?

    Answer. The size of the propulsion systems of the interceptors 
under development to support the Phased Adaptive Approach are too small 
to effectively reach Russian strategic missiles heading toward the U.S. 
from their missile fields. I have made the Russians aware of our 
smaller interceptors and they understand the interceptors' limited 
capability against the Russian ICBMs. The 10 Ground-Based Interceptors 
(GBIs) previously proposed for deployment in Poland are 12 times larger 
than our new interceptors and the Russians were concerned about the 
larger GBIs.
       deployment of standard missile-3 (sm-3) blocks iia and iib
    Question. What are the current estimates for when the SM-3 Blocks 
IIA and IIB would be ready for deployment? Is the administration 
committed to fully fund the development and deployment of phase 3 and 4 
of the Phased Adaptive Approach in Europe?

    Answer. The current deployment estimate for the SM-3 Blocks IIA and 
Blocks IIB are:

  <bullet> Flight testing for the SM-3 Block IIA missile is scheduled 
        for 2014. Production would follow with the SM-3 Block IIA ready 
        for deployment as part of Phased Adaptive Approach Phase III in 
        FY18.
  <bullet> The initial flight testing for the prototype SM-3 IIB 
        missile is scheduled to begin in FY 2015. Production would 
        follow with the SM-3 Block IIB ready for deployment as part of 
        the Phased Adaptive Approach Phase IV in 2020.
    As head of the Missile Defense Agency, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. MDA's budget 
requests fully support the development scope and deployment timeframes 
described above.


               IMPLEMENTATION--INSPECTIONS AND ASSISTANCE

                              ----------                              


                        THURSDAY, JUNE 24, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr., presiding.
    Present: Senators Casey, Cardin, Lugar, Isakson, and Risch.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    Thank you very much for taking the time to be with us this 
morning.
    This hearing of the Senate Foreign Relations Committee 
meets today to review the role of inspections in the 
verification regime of the New START Treaty.
    First, we need to ask a threshold question with regard to 
this treaty. How does this treaty contribute to the United 
States national security? First, the treaty itself provides for 
predictability, transparency, and stability in the United 
States-Russian nuclear relationship. Former National Security--
or, I should say, former National Nuclear Security 
Administration--Administrator, Ambassador Linton Brooks, put it 
best when he said, ``Transparency leads to predictability and 
predictability leads to stability.'' The opportunity to examine 
Russian nuclear forces will help limit the surprises, mistrust, 
and miscalculation that could result from a lack of 
information.
    To underscore this point, I'd like to draw attention to an 
ad that was released today by the Partnership for a Secure 
America that appeared in today's--probably among other places--
today's Politico. I think you've seen--it's on page 31. This ad 
is signed by a bipartisan list of distinguished Americans, 
including George Shultz, Lee Hamilton, Colin Powell, Madeleine 
Albright, just to name a few. This group clearly declares that 
the New START Treaty does not limit missile defense, nor does 
it inhibit our ability to maintain an effective and reliable 
arsenal. Moreover, the group states that the verification and 
inspection measures are essential to United States national 
security and nuclear threat reduction as it relates to Russian 
strategic nuclear weapons.
    We thank them for their continued service, those who were 
listed in the ad, and their contribution to this important 
debate.
    The existence of the START Treaty--and, in particular, the 
framework for an inspection regime--has proven remarkably 
durable, even during difficult times in the Russian-United 
States relationship. For example, despite tensions over policy 
in the Balkans and the NATO campaign in Kosovo, our respective 
commitments to START have never been in question. In an 
environment of instability today in Afghanistan and across the 
Middle East, stability in our relationship with Russia becomes 
even more important.
    In addition to the benefits of decreasing the number of 
nuclear weapons, the signing of this treaty has resulted in 
concrete benefits. First, in deepening our relationship with 
the Russian Federation, we're able to secure support for 
sanctions on the Iranian regime at the United Nations. Russia 
has also decided not to provide S-300 missiles to Iran, even 
though the sale of this weapon is not banned by U.N. sanctions.
    Moreover, our current relations with Russia are stable, but 
if that were to change, the New START Treaty would provide a 
ceiling of 1,550 deployed nuclear weapons in the Russian 
nuclear arsenal in case it were to decide to chart a new 
strategic course.
    This treaty will also have strategic benefits apart from 
arms control. But, at a more fundamental level, we meet here 
today to concretely discuss how this treaty will provide a 
valuable window into Russian nuclear forces.
    Today, we look forward to hearing from our witnesses on 
whether they believe that the verification regime crafted under 
the New START Treaty fulfills the two main purposes of arms-
control verification regimes: First, to provide a mechanism to 
increase confidence that all parties are abiding by the treaty; 
and second, to provide early warning of any violation that can 
jeopardize our national security.
    Over the past two decades, both the American and Russian 
inspection teams have implemented the original START Treaty. 
The New START Treaty was negotiated with this experience as a 
foundation, and builds on its best practices.
    Some have asked whether we have lost any valuable elements 
of the original START agreement's inspection regime. Critics 
point out that, under the original START Treaty, the United 
States was permitted 25 data update, reentry vehicle, and 
facility inspections a year, while under the New START Treaty, 
the United States can only inspect 18 facilities annually. 
However, in a previous hearing on the START Treaty, Admiral 
Mullen noted that, when START entered into force, there were 55 
Russian facilities subject to inspection, but now there will 
only be 35 Russian facilities subject to inspection. Because 
the Russian strategic nuclear forces have contracted so much 
over the past 15 years, we have certainly not lost anything in 
the number of inspections we carry out per facility. This does 
not take into account that some of the inspections under the 
New START Treaty allow us to do two inspections at once, unlike 
under the original START verification regime.
    I would also assert that the inspections regime has also 
changed to reflect the current security environment and 
enhanced relationship with the Russian Federation, and because 
of more than a decade of experience in conducting inspections. 
The inspection regime is simpler and cheaper than it was--than 
what was conducted under the first START Treaty. We conduct 
fewer inspections under this treaty, because there are fewer 
sites to inspect. We know what works and we know what doesn't 
work.
    As I mentioned earlier, we have built upon a substantial 
track record of experience in conducting inspections and 
hosting Russian inspectors. The Defense Threat Reduction 
Agency, known by the acronym DTRA, trains, equips, organizes, 
deploys, and exercises operational control over inspection, 
monitoring, and escort teams. In addition to preparing for 
conducting onsite inspections of Russian facilities, the United 
States must be prepared to host onsite inspections under the 
New START Treaty without revealing--without revealing--
sensitive military information.
    I look forward to hearing from our witnesses today about 
how the New START Treaty will affect their hosting of Russian 
inspections at United States facilities.
    We must ask ourselves what we would lose under the New 
START Treaty agreement, were it not verified--or, ratified, I 
should say. As General Chilton, Commander of the U.S. Strategic 
Command, testified last week, ``The New START Treaty will 
reestablish a strategic nuclear arms control verification 
regime that provides intrusive access to Russian nuclear forces 
and a measure of predictability in Russian force deployments 
over the life of the treaty. Such access and predictability 
contribute to our ability to plan, confidently, our own force 
modernization efforts and our hedging strategy.'' So said 
General Chilton.
    The General also noted that while--that without this 
verification regime in place, the ability to plan our own force 
structure would be far more difficult and costly, and would 
drive our strategists to always default to the worst-case 
scenario. He said, ``Without such a regime, we would be, 
unfortunately, left to use worst-case analyses regarding our 
own force requirements.''
    While Chairman Kerry and Senator Lugar have led an effort 
to thoroughly review the treaty, there remains key questions 
with regard to the inspections regime. I hope that, through the 
course of this hearing, we'll gain better perspective on at 
least two particular issues: No. 1, an instructive 
understanding of the actual inspections process; and second, 
the mechanisms in place to address and resolve disputes or 
perceived inconsistencies with the agreement.
    Thanks to the leadership of this committee's ranking 
member, Senator Lugar, the United States has worked with Russia 
for almost 20 years to eliminate weapons of mass destruction 
and their associated delivery systems through the Nunn-Lugar 
Cooperative Threat Reduction Program. This historic effort has 
bolstered U.S. nonproliferation efforts, and with the original 
START Treaty as a foundation, was successful in the elimination 
of ICBMs and SLBMs, heavy bombers, and air-to-surface missiles. 
I look forward to hearing how the Cooperative Threat Reduction 
Program would complement the New START Treaty agreement.
    Today we welcome back the Honorable James N. Miller, Jr., 
Deputy Under Secretary of Defense for Policy, who was before 
this committee last week. And we give a warm welcome back to 
Kenneth A. Myers III, a former professional staff member on the 
committee, and now the director of the Defense Threat Reduction 
Agency and U.S. Strategic Command Center for Combating Weapons 
of Mass Destruction.
    In his role as Principal Deputy Under Secretary of Defense 
of Policy, Dr. Miller provides advice and assistance on matters 
concerning the formulation of national security and defense 
policy and the integration of the oversight of Department of 
Defense policy. Dr. Miller provided the committee with valuable 
insight last week, and we look forward to the same today.
    Kenneth Myers is in charge of--or, is charged with 
integrating and synchronizing the Pentagon's defensewide 
efforts in support of combating the weapons of mass destruction 
threat. In this role, we look to Mr. Myers to provide us, 
today, with a thorough examination of the connection between 
the New START Treaty and DTRA's activities.
    I'd ask our witnesses to speak for about 7 minutes each. 
We'll try to keep to that as best we can. Please note that if 
you'd like to summarize your statement, of course, your full 
statement will be made part of the official hearing record.
    And at this time, I'd like to turn to our distinguished 
ranking member, Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Today, the Foreign Relations Committee will meet twice as 
part of our ongoing examination of the New START Treaty. And 
this morning, we will hear, as you pointed out, testimony 
regarding treaty inspections and implementation. This 
afternoon, we will examine benefits and risks of the new 
treaty.
    I join you in welcoming back Dr. James Miller, Deputy Under 
Secretary of Defense for Policy, who appeared before us last 
week and offers his valuable testimony. And we are especially 
pleased to welcome back to the committee, Kenneth A. Myers III, 
the Director of the Defense Threat Reduction Agency, which 
played such an important role in this committee's deliberations 
on previous arms control treaties, as well as his work in the 
field as a part of Cooperative Threat Reduction.
    Having served for many years as a senior member of the 
Foreign Relations Committee professional staff, we are 
especially pleased that he is here today and can help 
recapitulate the history of some of our previous deliberations.
    During discussion of the New START Treaty, many Senators 
and commentators have underscored the importance of 
verification and inspections. It is a widely accepted principle 
of strategic arms control that agreements must be verifiable. 
Yet, few Senators know how we carry out inspections or 
implement treaty provisions. Who performs the inspections for 
our government? How do inspectors enter Russia, and under what 
conditions? What are they allowed to see? How do we choose what 
to inspect? How do we accommodate Russian inspection teams that 
come to the United States?
    Successful arms control sometimes depends on seemingly 
mundane matters, such as delineating the privileges and 
responsibilities of verification teams operating in each 
others' countries, as well as the procedures for conducting 
inspections. Today's hearing is an opportunity to develop a 
detailed understanding of the verification process that will be 
applied to the New START Treaty.
    The START I Treaty expired last December. The White House 
agreed with Moscow to continue to act in its spirit while 
negotiations continued on the treaty that is now before us. And 
yet, today we have no binding verifications regime in place 
with Russia as we have this meeting this morning. The only way 
forward to binding verification is through the New START 
Treaty.
    The Defense Threat Reduction Agency, or DTRA, was the 
executive agency for onsite inspection under the START I 
Treaty. The painstaking inspection process in the New START 
Treaty will also fall under DTRA's purview. Beyond treaty 
inspections, DTRA has numerous missions, including 
implementation of the Nunn-Lugar Act, which is devoted to 
safely converting and destroying vast stockpiles of nuclear, 
chemical, and biological weapons in the former Soviet Union.
    As of today, the Nunn-Lugar program has deactivated 7,545 
strategic nuclear warheads, as well as corresponding strategic 
launchers and nuclear infrastructure. The number of nuclear 
warheads deactivated in the former Soviet Union under the Nunn-
Lugar program is almost five times greater than the number of 
deployed strategic warheads that Russia would be allowed under 
the New START I--rather, under the New START Treaty we're 
discussing today.
    Nunn-Lugar has also upgraded security at 24 weapons storage 
sites, built and equipped 20 biological monitoring stations, 
and neutralized 1,395 metric tons of Russian and Albanian 
chemical weapons agent.
    Now, in addition to verification issues, we have the 
opportunity today to examine the New START Treaty's 
implications for the Nunn-Lugar program activities in Russia. 
What missiles or supporting infrastructure are likely to be 
eliminated under the treaty? How would the treaty's revised 
elimination regime change the locations at which Nunn-Lugar 
would work?
    I've traveled to the former Soviet Union on numerous 
occasions to encourage and witness the safeguarding and 
destruction of weapons covered by START and other initiatives. 
The destruction of thousands of weapons is a monumental 
achievement for our countries. But, the process surrounding 
this joint effort is as important as the number of weapons 
eliminated.
    The United States-Russian relationship has been through 
numerous highs and lows in the post-cold-war era. Throughout 
this period, START inspections and consultations and the 
corresponding threat reduction activities of the Nunn-Lugar 
program have been a constant that have served to reduce 
miscalculation and to build respect. This has not prevented 
highly contentious disagreements with Moscow, but it has meant 
we have not had to wonder about the makeup and the disposition 
of Russian nuclear forces during periods of tension. It's also 
reduced, though not eliminated, the proliferation threat posed 
by the nuclear arsenal of the former Soviet Union.
    This process must continue if we are to answer the 
existential threat posed by the proliferation of weapons of 
mass destruction. Every missile destroyed, every warhead 
deactivated, and every inspection implemented makes us safer. 
Russia and the United States have the choice whether or not to 
continue this effort, and that choice is embodied in the New 
START Treaty.
    I thank the witnesses for joining us today. We look forward 
to their insights.
    And I thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Lugar. And I'm--again, 
want to thank you for your leadership over so many years on 
these issues, and we're grateful that you're with us today 
again to provide that leadership.
    Dr. Miller, do you want to start?

STATEMENT OF HON. JAMES N. MILLER, JR., DEPUTY UNDER SECRETARY 
  OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Dr. Miller. Thank you.
    Senator Casey. Thank you.
    Dr. Miller. Mr. Chairman, Senator Lugar, distinguished 
members of the committee, it is a pleasure to join Ken Myers, 
our very capable and accomplished director of the Defense 
Threat Reduction Agency, to testify here today on the New START 
Treaty.
    The committee asked us to address four issues: the treaty's 
inspection regime, its elimination provisions, the Cooperative 
Threat Reduction Program and it's relation to the inspections, 
and our continuing efforts to address biological threats.
    I would like to briefly summarize highlights of my written 
statement, and, as Senator Casey offered, ask that the full 
statement be entered into the record.
    And I know that Mr. Myers will go into more detail on the--
on how we conduct inspections in CTR. I will focus on policy-
related issues.
    So, first, on New START inspections. Onsite inspections are 
a lynchpin of the New START Treaty's verification framework. 
The treaty allows each party to conduct up to 18 short-notice 
onsite inspections each year, with up to 10 type one 
inspections at operating bases for ICBMs, strategic nuclear-
powered ballistic missile submarines, and nuclear-capable heavy 
bombers, and up to 8 type two inspections conducted at places 
such as storage sites, test ranges, and conversion or 
elimination facilities.
    Onsite inspections work synergistically with other elements 
of the treaty on its provisions on verifications, including 
extensive data exchanges on the characteristics and locations 
of ICBMs, SLBMs, and nuclear-capable heavy bombers, unique 
identifiers associated with each ballistic missile and heavy 
bomber, and a requirement to report any changes in the status 
of strategic systems through timely notifications.
    By enabling the United States to directly observe Russia's 
strategic nuclear forces and related facilities, inspections 
will help the United States verify that Russia is complying 
with the provisions of the New START Treaty.
    Inspections under New START will also provide a deterrent 
to cheating, because the treaty provides for up to 18 
inspections per year at sites selected by the inspecting party. 
Each side knows that the other will have a significant 
capability to uncover any discrepancies between what is 
reported and what is actually happening. If the United States 
has concerns or sees ambiguities in reported data, we will be 
able to raise those issues with the Russians in the Bilateral 
Consultative Commission established under the treaty, and 
pursue them at higher levels, if necessary.
    The conversion and elimination provisions of the New START 
Treaty are designed to allow both the United States and Russia 
to convert or eliminate strategic offensive arms in a 
transparent, simplified, and less costly manner than was the 
case under START. Under these simplified procedures, the United 
States will be able to remove from accountability over 300 ICBM 
and SLBM launchers and heavy-bomber systems that would have 
been accountable under the old START.
    And I want to particularly highlight that the treaty will 
allow us to take our four conventional SSGNs, which now carry 
cruise--conventional cruise missiles, as well as 
conventionally--conventional-only B-1B and B-52 bombers off the 
books. This feature of the treaty will allow us to meet the 
treaty's limits while preserving force structure for 
conventional missions and more headroom under the treaty's 
limits for nuclear systems.
    Now, regarding the Cooperative Threat Reduction Program. 
For almost 20 years the Nunn-Lugar CTR program has worked with 
Russia, other states of the former Soviet Union, and, 
increasingly, new partners, to advance U.S. nonproliferation 
objectives by supporting the elimination of weapons of mass 
destruction and associated delivery vehicles. As was noted, the 
CTR program has played a critical role in the elimination of 
the strategic systems of the former Soviet Union. This includes 
672 ICBM launchers and 783 ICBMs, 476 SLBM launchers, and 651 
SLBMs, and 155 heavy bombers, and 906 air-to-surface missiles. 
This program has also supported the deactivation of 7,545 
nuclear warheads. Those figures are accurate as of June 21, 
when we submitted the testimony.
    CTR will complement New START while continuing to operate 
under its own authorities. Consistent with longstanding 
practice, the United States will continue to make payment for 
the work funded by Nunn-Lugar CTR only after it is confirmed as 
completed by a U.S. Government CTR official or U.S. Government-
authorized CTR contractor personnel. Such practices will 
provide additional transparency into the elimination of Russian 
Strategic systems, building off the verification provisions of 
the New START Treaty.
    The Nunn-Lugar CTR program has made a tremendous 
contribution to U.S. national security, in great part because 
of the single-minded commitment of its two founders. Senator 
Lugar, I understand, has visited a CTR project virtually every 
year since the program has existed, sometimes with Senator Nunn 
along, now in his role as a private-citizen advocate.
    Senator Lugar has always been available, as well, to help 
administrations of both parties when quiet high-level 
intervention was required with a foreign government on a CTR 
issue. And his leadership has also been key to ensure that CTR 
has received strong congressional support over the years.
    This program--his program--has succeeded because of his 
role. And, Senator, I want to say that we're all truly 
grateful.
    Finally, the committee asked that we address the 
administration's efforts to prevent and, if necessary, respond 
to biological threats, a top priority for the administration. 
As you know, to guide the U.S. approach, last fall the 
President signed a national strategy for countering biological 
threats which seeks to reduce the risks presented by the 
deliberate or accidental release of a biological agent.
    DOD is working with our interagency partners to implement 
the national strategy. For DOD, a large support of this plan 
comes from the CTR program. In fact, biological threat 
reduction activities now reflect almost 40 percent of the CTR 
budget. And the Biological Threat Reduction Program is 
currently assisting eight countries: Armenia, Azerbaijan, 
Georgia, Kazakhstan, Pakistan, Russia, Ukraine, and Uzbekistan. 
Building on these and other successes of the CTR program, we 
are working to expand the scope of our threat reduction efforts 
to new regions in a response to new challenges and 
opportunities.
    In conclusion, the New START Treaty is strongly in the 
national security interest of the United States, and the 
Department of Defense fully supports it. The Cooperative Threat 
Reduction Program will complement New START and make additional 
key contributions to U.S. national security in its own right. 
CTR is also key to our broader efforts to prevent and counter 
biological threats.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Dr. Miller follows:]

   Prepared Statement of Dr. James N. Miller, Principal Deputy Under 
 Secretary of Defense for Policy, Department of Defense, Washington, DC

    Mr. Chairman, Senator Lugar, distinguished members of the 
committee, thank you for the opportunity to testify today. It is a 
pleasure to join Kenneth Myers, Director of the Defense Threat 
Reduction Agency (DTRA), to discuss inspections associated with the New 
START Treaty, and the continuing work of the Nunn-Lugar Cooperative 
Threat Reduction (CTR) program. My remarks will provide a policy 
perspective, and Mr. Myers will address implementation, for which DTRA 
plays a leading role.
                         new start inspections
    Onsite inspections are a linchpin of the New START Treaty's 
verification framework. The treaty allows each Party to conduct up to 
18 short-notice onsite inspections each year, with up to 10 type one 
inspections conducted at operating bases for ICBMs, strategic nuclear-
powered ballistic missile submarines (SSBNs), and nuclear-capable heavy 
bombers, and up to 8 type two inspections conducted at places such as 
storage sites, test ranges, formerly declared facilities, and 
conversion or elimination facilities.
    Onsite inspections work synergistically with other elements of the 
treaty, including extensive data exchanges on the technical 
characteristics, locations, and dispositions of ICBMs, SLBMs, and 
nuclear-capable heavy bombers, and unique identifiers associated with 
each ballistic missile and heavy bomber. Any changes in the status of 
strategic systems must be reported through timely notifications and, 
twice annually, the sides must provide a comprehensive snapshot of 
their strategic offensive forces. By enabling the United States to 
directly observe Russia's strategic nuclear forces and related 
facilities, inspections help confirm the accuracy of declared data on 
deployed and nondeployed strategic offensive arms, and the conversion 
or elimination of these systems. Inspections also can confirm that 
facilities which previously supported strategic offensive arms are not 
being used for purposes inconsistent with the treaty. In short, 
inspections will help the United States verify that Russia is reporting 
the status of its strategic forces accurately and complying with the 
provisions of the New START Treaty.
    Inspections will not be shots in the dark. Using information 
provided by required data exchanges, notifications, past inspections, 
and national technical means (NTM), we can choose to inspect those 
facilities of greatest interest to us. Then, through short-notice 
onsite inspections, our inspectors can verify that what the Russians 
are reporting accurately reflects reality.
    Inspections under New START will provide a deterrent to cheating. 
Because the treaty provides for an annual quota of up to 18 inspections 
at sites selected by the inspecting party, each side knows that the 
other will have a significant capability to uncover any discrepancies 
between what is reported and what is actually happening. If the United 
States has concerns or sees ambiguities in reported data, we will be 
able to raise them with the Russians in the Bilateral Consultative 
Commission and pursue them further at higher levels, if necessary.
    In addition to helping to monitor compliance and deter cheating, 
onsite inspections, coupled with compulsory exhibitions of any new 
types of strategic systems, will help the United States better 
understand the disposition, operating and support patterns, and 
characteristics of Russia's strategic offensive forces. This level of 
detailed information on Russian strategic forces could simply not be 
accumulated in the absence of a treaty verification regime. By allowing 
both sides to base assessments on the direct monitoring of each other's 
strategic offensive forces, New START will, if ratified, promote 
transparency and help avoid worst-case assumptions and planning.
                       conversion and elimination
    The conversion and elimination provisions of the New START Treaty 
are designed to allow both the United States and Russia to convert or 
eliminate strategic offensive arms in a transparent, simplified, and 
less costly manner than was the case under START. These processes will 
ensure that the systems are rendered incapable of performing their 
original purposes. Under New START, the United States will be able to 
remove from accountability 96 former SLBM launchers on 4 Ohio-class 
SSBNs converted to SSGNs, and over 60 B-1B bombers converted to a 
conventional-only role. We will also be able to convert additional B-
52H bombers to a conventional-only role and employ simplified 
procedures to eliminate 100 currently empty ICBM silos and more than 70 
B-52 and B-1B heavy bombers.
         nunn-lugar cooperative threat reduction (ctr) program
    For almost 20 years, the Nunn-Lugar CTR program has worked with 
Russia, other states of the former Soviet Union, and increasingly, new 
partners around the world to advance U.S. nonproliferation objectives 
by providing support for the elimination of weapons of mass destruction 
and associated delivery systems. As part of this mission, the program 
has played a critical role in the elimination of the strategic systems 
of the former Soviet Union. As of June 21, 2010, the CTR program has 
supported the elimination of 672 ICBM launchers and 783 ICBMs, 476 SLBM 
launchers and 651 SLBMs, and 155 heavy bombers and 906 air-to-surface 
missiles. It has also supported the deactivation of 7,545 nuclear 
warheads.
    CTR assistance has incentivized Russia to drawdown its Soviet-
legacy nuclear forces, and reduced opportunities for their 
proliferation or use. Past eliminations have been completed in 
accordance with applicable START provisions, including the START 
Conversion or Elimination Protocol. CTR will complement New START, 
while continuing to operate under its own authorities. Consistent with 
longstanding practice, the United States will continue to make payment 
for the work funded by Nunn-Lugar CTR only after it is confirmed as 
completed by a U.S. Government CTR official or U.S. Government-
authorized CTR contractor personnel. Such practices will provide 
additional transparency into the elimination of Russian strategic 
systems that builds on the verification provisions of the New START 
Treaty.
    I would also like to highlight that other Nunn-Lugar CTR projects 
in Russia complement New START Treaty objectives. DOD, in cooperation 
with the Department of Energy, has upgraded and modernized the security 
systems of sites in the Russian Federation where strategic and 
nonstrategic (tactical) nuclear weapons are stored. This has included 
instituting an enhanced personnel reliability system and provision of 
an automated inventory control system to allow the Russian Ministry of 
Defense to keep better track of the location and status of its nuclear 
warheads destined for dismantlement. We are sustaining enhanced 
security systems at 24 nuclear weapons storage sites in Russia 
previously upgraded by DOD. Further, CTR's nuclear weapons 
transportation security program is enhancing the security, safety, and 
control of nuclear weapons during shipment between operational sites, 
secure storage sites, and dismantlement facilities. Such nuclear 
weapons shipments average four per month and will continue through 
2012. These programs play an important proliferation prevention role 
and support the President's initiative to lockdown all vulnerable 
nuclear sites around the world.
    In sum, the CTR program has made a tremendous contribution to U.S. 
national security and will continue to do so under the New START 
Treaty.
                      continuing biological threat
    The committee asked that Mr. Myers and I address the 
administration's efforts to prevent and respond to biological threats, 
which is a top priority for the Obama administration. To guide the U.S. 
Government approach to this problem, in November 2009, the President 
signed a National Strategy for Countering Biological Threats which 
seeks to reduce the risks presented by the deliberate or accidental 
release of a biological agent.
    DOD, along with its interagency partners, is developing a 
comprehensive plan to implement the national strategy and ensure that 
all U.S. Government efforts in this critical area are aligned with the 
strategy. For the Department of Defense, a large portion of the overall 
support to this plan comes directly from the CTR program. In fact, 
biological threat reduction activities are an increasingly important 
aspect of the overall CTR program and now reflect almost 40 percent of 
the CTR budget. Today, the Biological Threat Reduction Program (BTRP) 
is assisting eight countries, including Armenia, Azerbaijan, Georgia, 
Kazakhstan, Pakistan, Russia, Ukraine, and Uzbekistan, with plans to 
expand further into Afghanistan and several other regions.
    Building on these and other successes of the Nunn-Lugar CTR 
program, we are working to expand the scope of our threat reduction 
efforts to new regions and in response to new challenges and 
opportunities. Four key principles--integration, responsiveness, 
stewardship, and cooperation--will guide the Nunn-Lugar CTR program as 
we undertake these new missions around the world. We are grateful for 
the continued support of Congress, including this committee. This 
support has enabled the Nunn-Lugar CTR program to address emerging WMD 
threats and to achieve longstanding nonproliferation goals more 
effectively and comprehensively.
                               conclusion
    The New START Treaty's provisions for onsite inspections provide 
the cornerstone of the treaty's verification regime. Onsite inspections 
and exhibitions will provide us with the ability to put our trained 
inspectors in some of Russia's most sensitive facilities to confirm 
that the data they declare about their strategic offensive arms is 
valid. This, in turn, will establish a strong disincentive to Russian 
cheating. More broadly, these inspections and exhibitions will give us 
a detailed picture of Russia's strategic nuclear forces that we simply 
could not obtain otherwise. The Nunn-Lugar CTR program plays a critical 
role in encouraging further eliminations of Russia's strategic delivery 
systems and associated infrastructure. Together, these activities form 
a central part of our effort to reduce nuclear dangers in a verifiable 
and stabilizing manner. The expansion of the CTR program's biological 
threat reduction program will further reduce risks to the United 
States.

    Senator Casey. Mr. Myers.

  STATEMENT OF KENNETH A. MYERS III, DIRECTOR, DEFENSE THREAT 
 REDUCTION AGENCY AND DIRECTOR, U.S. STRATEGIC COMMAND CENTER 
  FOR COMBATING WEAPONS OF MASS DESTRUCTION, FORT BELVOIR, VA

    Mr. Myers. Mr. Chairman, Ranking Member Lugar, committees--
members of the committee, it is an honor to return to the 
committee to address the roles of the Defense Threat Reduction 
Agency in executing the inspection provisions of the New START 
Treaty.
    I will summarize my remarks and ask that my complete 
statement be made part of the record.
    The mission of the nearly 2,000 civilian and military 
personnel of DTRA is to safeguard the United States and its 
allies from weapons of mass destruction by providing 
capabilities to reduce, eliminate, and counter such threats, 
and mitigate their effects. The proliferation of weapons of 
mass destruction, their means of delivery, and related 
knowledge materiels pose a grave and current threat that is 
growing and evolving.
    One of the most effective tools our Nation has for 
addressing WMD threats is the Nunn-Lugar Cooperative Threat 
Reduction Program. This highly innovative and effective program 
has assisted Russia in meeting its START obligations by 
dismantling 783 intercontinental ballistic missiles and 651 
submarine-launched ballistic missiles and associated 
infrastructure.
    DTRA implemented these Nunn-Lugar activities in accordance 
with the START Treaty and will continue these activities, 
consistent with new START provisions, should the Senate consent 
to ratification.
    DTRA is also the DOD focal point for the implementation of 
inspection and escort provisions of arms control treaties. The 
Agency conducts onsite inspections and escorts foreign 
inspectors at U.S. facilities. In addition, DTRA provides 
technical expertise to arms control treaty delegations, the 
compliance forums of treaties, and the Office of the Secretary 
of Defense, and other DOD components.
    DTRA supported the New START Treaty negotiations by 
providing arms control implementation expertise and negotiating 
experience, linguistic ability, and administrative support to 
the lead negotiators. Of the 56 members of the Geneva 
negotiating team, 18 were DTRA personnel.
    DTRA played a critical role in the development of the 
inspections framework and the conversion and elimination 
portion of the new treaty.
    DTRA will have the same responsibilities to support New 
START that we had in place for START. As it did in the 649 
onsite inspections under START, DTRA will staff, train, equip, 
and lead United States onsite inspection teams in Russia, and 
escort Russian inspectors at United States facilities. DTRA 
inspectors and escorts are responsible for observing, 
documenting, and reporting the factual findings of their 
inspections activities to the interagency community responsible 
for making verification and compliance judgments. Onsite 
inspection serves as a tool designed to promote fulfillment of 
treaty obligations under New START. The short-notice nature of 
these inspections is designed to ensure treaty compliance.
    In addition, New START imposes restrictions that prevent 
the removal of strategic systems from an inspection site before 
inspectors arrive. Once on the ground, DTRA inspectors are able 
to put eyes on these systems and confirm that what has been 
reported in the data exchange is actually what exists on that 
site.
    DTRA will also oversee the conduct of all New START escort 
operations of Russian inspectors at United States facilities. 
We've successfully fulfilled this mission 470 times under 
START. Escort teams will consist of DTRA core members, 
augmented by local personnel from the facility being inspected. 
DTRA teams will serve as the onsite representatives during the 
escort activities, and ensure that short-note inspections 
comply with the treaty.
    DTRA will train the Agency's cadre of inspectors and escort 
personnel on the specific provisions of the new treaty, and how 
to implement those provisions. We are crafting a specific 
training program, prepare our personnel for New START.
    Earlier this month, DTRA conducted a START to New START 
Transition Workshop and will soon begin conducting our first 
New START training course. This course concentrates on the 
operating principles and inspection procedures for New START. 
The core audience is interagency personnel, service 
representatives, and treaty compliance officers from U.S. 
facilities, as well as our own inspectors and escorts. The 
curriculum is modeled after the highly successful semiannual 
treaty course DTRA conducted for the original START Treaty. 
DTRA continues to work closely with the DOD Office of Treaty 
Compliance and the military services to prepare U.S. facilities 
for the new treaty. We are actively coordinating with the Air 
Force and the Navy in preparing facilities subject to 
inspection under New START. This involves working through the 
inspection procedures for each site, conducting site-assistance 
visits, as needed, and conducting mock inspections.
    Full mock inspections utilize base personnel, a DTRA escort 
team, and the DTRA team playing the role of Russian inspectors. 
These events provide opportunities for DTRA to simulate an 
actual inspection and refine training for inspection and base 
personnel.
    I would like to take this opportunity to walk you through 
the inspection and escort process that would be used, should 
the Senate consent to ratification of the New START Treaty. In 
front of each of you is an overview detailing the inspection 
and escort procedures that would be conducted by DTRA teams.
    The New START Treaty retains the START construct of two 
points of entry for each country through which teams will 
transit to conduct inspections. The points of entry for U.S. 
inspectors in Russia are Moscow in the west, and Ulan Ude for 
inspection sites in the east. The points of entry for Russian 
inspectors are Washington, DC, and San Francisco.
    All United States missions to Russia will originate at the 
Defense Threat Reduction Agency at Fort Belvoir, VA, where 
inspection teams will assemble, draw necessary equipment, and 
conduct initial mission briefings.
    As was the case under START, teams are limited to a total 
of 10 inspectors. Each DTRA-led team will consist of a team 
chief, deputy team chief, weapons specialist, linguists, and 
selected experts. The team chief is the official United States 
representative for the team.
    Teams conducting missions in western Russia will proceed to 
the DTRA gateway in Darmstadt, Germany, near Frankfurt, an 
agency facility, where they will conduct detailed mission 
planning and preparation. Inspectors will conduct a thorough 
study of the inspection facility and its systems, previous 
inspection history for the site, and the data declared by 
Russia for that facility.
    Nearly all of the facilities under the New START Treaty 
were also inspectible under START, and we have substantial 
START inspection history to draw upon as teams prepare for 
missions. They will review the treaty provisions applicable to 
the inspection site, assign individual roles and 
responsibilities for each team member, and plan the conduct of 
the inspection.
    Teams conducting missions in eastern Russia will conduct 
similar preparations at the DTRA facility at Yokota Air Base in 
Japan.
    A type one inspection consists of two major components: a 
warhead inspection of deployed ICBMs, SLBMs, or heavy bombers, 
and an inspection of any nondeployed strategic offensive arms 
that might be present at the facility--spare missiles in the 
ICBM maintenance facility, or within bunkers at a submarine 
base, for example.
    The overall objective of the inspection is to confirm the 
exchange data for the facility being inspected. No later than 
32 hours prior to the team's arrival in Russia, the Russian 
Government will be notified of our intent to conduct an 
inspection. The team will be met by a Russian escort team at 
Moscow or Ulan Ude, and conduct arrival procedures.
    Within 4 hours of arrival at the point of entry, the U.S. 
team chief will designate the site to be inspected, after which 
the escort team has 24 hours to transport inspectors to the 
site.
    Upon arrival at the base, the team will be told how many 
reentry vehicles are loaded on each deployed ICBM, SLBM, or how 
many nuclear armaments are loaded on heavy bombers, and the 
number of deployed and nondeployed items located at the base. 
Inspectors will also be provided a site diagram annotated to 
show the location of declared items on the base. The team will 
select a single ICBM or SLBM or three heavy bombers for 
inspection. The base will prepare the missile or heavy bombers 
for inspection by partially dismantling the front section and 
covering the reentry vehicles with other soft or hard covers, 
for ICBMs and SLBMs, or covering nuclear armaments, if they are 
loaded onto a bomber. The team will then observe the covered 
objects and confirm the declared number.
    In the case where objects declared to be nonnuclear are 
present--for example, penetration aids on missiles or 
conventional weapons on bombers--those objects may be subject 
to radiation-detection measurements to confirm that they are 
nonnuclear.
    Due to safety and handling considerations at ICBM and 
submarine bases, there is no time limit on the conduct of the 
warhead inspection. Afterward, the team has 24 hours to inspect 
the rest of the site, to include structures and vehicles, to 
confirm the number of nondeployed items declared for that 
facility.
    For heavy bombers, the inspection is limited to 30 hours. 
Inspectors will then complete the official inspection report, 
which will be signed by both the United States and Russian 
Federation team chiefs. After completion of inspection 
activities, teams return to the respective gateway, via the 
point of entry, for post-mission activities and reporting.
    Russian inspections in the United States will follow the 
same procedures and timelines described above. DTRA will 
oversee the conduct of all New START escort operations at 
United States facilities, and will maintain an escort team on 
standby at each point of entry.
    After receiving the notification of Russia's intent to 
conduct an inspection, the DTRA Operations Center will notify 
all U.S. facilities subject to inspection associated with a 
particular point of entry, and DTRA will prepare to receive the 
inbound team. Russian----
    Senator Casey. Mr. Myers, I just want to make sure you can 
wrap up soon, because----
    Mr. Myers. Yes, I will. Yes, sir.
    Russian inspectors arriving at the Washington point of 
entry will be escorted by personnel from DTRA headquarters. Our 
detachment at Travis Air Force Base will escort Russian 
inspectors arriving at the San Francisco point of entry.
    After the Russian team designates the inspection site, the 
DTRA escort will notify the selected facility, gather necessary 
information, and coordinate with the Air Force's Air Mobility 
Command to transport the team to the facility. Escorts will 
work closely with site personnel to facilitate the inspection, 
with the DTRA team chief being the senior U.S. representative.
    Upon completion of the inspection, the escort team will 
coordinate the return of the Russian inspection team to the 
point of entry and facilitate its departure from the United 
States. From the time of their entry into the United States 
until their departure, Russian inspectors will be escorted by 
DTRA personnel.
    DTRA's preparations for executing its responsibilities 
under New START have been thorough and built upon our 
experiences with START and INF. Implementing the new inspection 
regime will not be unfamiliar to the agency, and we will be 
prepared to carry out all of its inspection and escort 
provisions with the utmost accuracy and efficiency. We are 
proud of our record of success in treaty implementation, and 
look forward to the challenges ahead.
    I thank you for this opportunity, and welcome your 
questions.
    [The prepared statement of Mr. Myers follows:]

 Prepared Statement of Kenneth A. Myers III, Director, Defense Threat 
   Reduction Agency and Director, U.S. Strategic Command Center for 
                    Combating WMD, Fort Belvoir, VA

                              introduction
    Mr. Chairman, Ranking Member Senator Lugar, and members of the 
Senate Committee on Foreign Relations, it is an honor and a pleasure to 
appear before you today to testify on the roles of the Defense Threat 
Reduction Agency (DTRA) in shaping the inspection and escort provisions 
of the New Strategic Arms Reduction Treaty (NST) and implementing those 
provisions, should the Senate consent to ratification of the treaty.
    After an overview of the DTRA mission, I will focus my remarks on 
agency roles and responsibilities regarding the NST; inspection and 
escort provisions of NST; inspection and escort team organization; and 
preparations for implementing those responsibilities under NST 
including training, site assistance visits and mock inspections, and 
inspection notifications and data management.
                             agency mission
    The mission of the nearly 2,000 civilian and military personnel of 
DTRA is to safeguard the United States and its allies from Weapons of 
Mass Destruction (WMD)--Chemical, Biological, Radiological, and Nuclear 
Weapons, as well as high yield explosives capable of destroying 
buildings and critical infrastructure, by providing capabilities to 
reduce, eliminate and counter such threats, and mitigate their effects. 
The proliferation of WMD, their means of delivery, and related 
knowledge and materiels pose a grave and current threat that is growing 
and evolving. The need to develop and field improved Countering-WMD (C-
WMD) capabilities is more important than ever and DTRA is in the 
forefront of the national effort to deliver such capabilities.
    In addition to serving as the Director of DTRA, I am also the 
Director of the U.S. Strategic Command Center for Combating WMD (SCC-
WMD). Colocated with DTRA and fully integrated within the daily 
activities of the agency, the SCC-WMD assists the Commander, U.S. 
Strategic Command with the synchronization of Countering-WMD planning 
and coordination of related DOD activities across the Combatant 
Commands and with our interagency partners; identification of C-WMD 
capability needs; and advocacy for C-WMD capabilities.
    DTRA provides C-WMD expertise and support at strategic (global and 
national), operational (regional and theater), and tactical 
(battlefield) levels. The agency initiates, stimulates, and 
participates in interagency, bilateral, and multilateral partnerships, 
often providing the essential expertise and leadership to get programs 
established and projects moving. However, the primary role of DTRA in 
the global CWMD effort is that of an executing agency. Our programs 
span nonproliferation, counterproliferation, and consequence 
management, combining technology with operational considerations, and 
providing Combatant Commanders systems approaches to meeting their WMD 
challenges. In partnership with others across the U.S. Government 
(USG), the private sector, and our overseas allies and friends, DTRA 
integrates a wide range of C-WMD technical, operational, and 
intelligence subject matter expertise to provide integrated, readily 
applicable solutions to
C-WMD challenges.
    One of the most effective tools our Nation has for countering WMD 
threats is the Nunn-Lugar Cooperative Threat Reduction (CTR) Program. 
This highly innovative and effective program dismantles and eliminates 
strategic WMD delivery systems and associated infrastructure; 
consolidates and secures WMD related technology and materiels; 
increases transparency; and builds foreign partnerships and 
collaboration. Nunn-Lugar conducts these activities consistent with the 
Strategic Arms Reduction Treaty (START) and will continue these 
activities consistent with the applicable NST provisions. DTRA is the 
Department of Defense (DOD) organization responsible for implementing 
this program.
    To date, the Nunn-Lugar program has dismantled strategic delivery 
systems--fixed and mobile Intercontinental Ballistic Missiles (ICBMs) 
and their launchers; Submarine-Launched Ballistic Missiles (SLBMs), 
their launch tubes, and strategic missile submarines (SSBNs); strategic 
bombers and associated air-to-surface missiles--once capable of 
carrying over 7,500 nuclear warheads. The Nunn-Lugar program also has 
sealed 194 nuclear test tunnels and holes; improved nuclear weapon 
transportation and storage security against potential terrorist threats 
in Russia; destroyed over 1,300 metric tons of Russian and Albanian 
chemical weapons agents; built and equipped 20 biological monitoring 
stations; and assisted our partners in improving their capabilities to 
interdict illicit movements of WMD and related materiels.
    As these important efforts with our partners in the former Soviet 
Union continue, we also are taking the knowledge and capabilities 
acquired through Nunn-Lugar program implementation to new partners 
across the globe. For example, the Nunn-Lugar program will provide the 
DOD means for implementing the President's initiative to secure all 
vulnerable fissile materiels worldwide by the end of 2012 and will 
expand its Biological Threat Reduction (BTR) efforts through new 
partnerships around the globe to provide for more rapid, coordinated, 
and effective U.S. and international responses to future disease 
outbreaks or biological attacks.
    These new nuclear and biological threat reduction efforts exemplify 
DTRA's new strategy of global engagement, called ``Nunn-Lugar Global 
Cooperation'' (NLGC). Under this strategy, DTRA is adapting and 
applying the lessons learned from the execution of the Nunn-Lugar 
Program to the new partnerships across the globe. We are shaping our 
programs and activities so that they are more agile and flexible, 
anticipatory of and responsive to emerging threats and fleeting 
opportunities, and tailored to the individual needs and potential 
contributions of new international partners. In addition, the NLGC 
strategy will harness the full range of DTRA and SCC-WMD CWMD expertise 
and capabilities, integrating Nunn-Lugar capabilities, arms control, 
bilateral and multilateral threat response activities, global 
situational awareness, partnership capacity building, and increased 
support to the Combatant Commanders' theater security engagement 
efforts.
                     the dtra arms control mission
    DTRA's charter, DOD Directive 5105.62, designates the agency as the 
DOD focal point for implementation of inspection, escort, and 
monitoring provisions of arms control treaties. The agency provides, 
conducts, and manages training for onsite inspections, as well as 
performs activities associated with the conduct of onsite inspections 
by foreign inspectors at U.S. facilities. In addition, DTRA provides 
technical expertise to U.S. arms control treaty delegations, the 
compliance forums of the various treaties, the Office of the Secretary 
of Defense (OSD) and other DOD Components, and provides staff support 
to the OSD Treaty Managers.
    Prior to the establishment of DTRA on 1 October 1998, these 
activities were performed by the onsite Inspection Agency (OSIA) in 
support of the Intermediate-Range Nuclear Forces (INF) Treaty, 
Threshold Test Ban Treaty, Conventional Forces in Europe Treaty, Vienna 
Document, Open Skies Treaty, and START. OSIA brought its unique 
expertise to DTRA, which continues to perform the inspection mission 
for those treaties still in effect, as well as escort-only operations 
under the Chemical Weapons Convention.
                              negotiations
    DTRA supported the NST negotiations by providing analytical, 
technical, and staff support to the lead negotiators and to DOD and USG 
interagency working groups. Of the 56 members of the Geneva negotiating 
team, 18 were DTRA personnel. The DTRA team provided years of arms 
control implementation expertise and negotiating experience, linguistic 
ability, and administrative support to the Delegation as a whole and to 
the chief negotiator, Assistant Secretary of State Rose Gottemoeller. 
DTRA personnel fulfilled key roles in the negotiating working groups on 
Inspection Activities, Conversion and Elimination, Treaty Articles and 
Definitions, and Notifications, and played a critical part in the 
development of those portions of the new treaty. DTRA military 
linguists augmented the language support staff at the U.S. Mission, 
providing much-needed help in translating the large number of 
negotiating documents. Our linguists were frequently called on to 
interpret for high profile or technically oriented meetings due to 
their exceptional language abilities and precise knowledge of arms 
control terms.
                      inspections under new start
    Building on the success of the INF Treaty, START had a verification 
regime in which onsite inspections played a major role. These 
inspections ensured that declared systems were accurately accounted for 
and helped to verify compliance with treaty provisions. The NST 
inspection regime builds on the experience gained from 15 years of 
START implementation, in which over 1,100 onsite inspections were 
conducted.
    START had nine different types of onsite inspections. Under the 
NST, that number has been reduced to two: type one inspections, which 
focus on sites with deployed and nondeployed strategic systems, for 
instance operational ICBM, submarine, and bomber bases; and type two 
inspections, which focus on sites with nondeployed strategic systems 
such as storage and training facilities and can also be used to confirm 
conversions or eliminations of items subject to the treaty. After entry 
into force, each side will have the right to conduct 10 type one 
inspections and 8 type two inspections per year. NST does not provide 
for a baseline inspection of every facility as had been conducted under 
START.
    Building on the past 15 years of START experience, the sides agreed 
that it would not be necessary to conduct baseline inspections at 
facilities that had been subject to inspection under START. They also 
agreed that it was unnecessary to conduct technical exhibitions for 
arms that had been previously exhibited under START. Exhibitions will 
be required only for those current and future types of strategic 
offensive arms that had not been exhibited under START--such as the RS-
24 mobile ICBM for Russia and the B-2 heavy bomber for the United 
States. In addition to exhibitions for these new types, New START 
provides for exhibitions related to conversion or elimination of items 
that are subject to the treaty, in order to demonstrate the procedures 
used to render such items incapable of employing nuclear weapons.
            inspection and escort operations under new start
    DTRA will staff, train, equip, and lead where inspection teams in 
Russia and escort Russian inspectors at United States facilities, and 
will maintain the same basic organization to support NST that it had 
established for START, with detachments in Yokota Air Base (AB), Japan 
and Travis AFB, California, as well as the DTRA European Operations 
Division in Darmstadt, Germany. There are 35 facilities in Russia that 
will be subject to inspections and 17 facilities in the United States 
that will be subject to inspections.
    As it had under START, DTRA will prepare for and conduct inspection 
activities at facilities in Russia, to collect data that will assist 
the USG in determining treaty compliance. However, the agency does not 
make verification or compliance judgments. DTRA inspectors and escorts 
are responsible for observing, documenting, and reporting the factual 
findings of their inspection activities to the interagency policy 
community responsible for making requisite judgments concerning 
verification and compliance.
    The NST retains the START construct of two points of entry for each 
country, through which inspection teams will transit to conduct 
inspections. The points of entry for United States inspectors in Russia 
are Moscow in western Russia and Ulan-Ude for inspection sites in 
eastern Russia. The points of entry for Russian inspectors are 
Washington, DC, and San Francisco, CA. All United States inspection 
missions to Russia will originate at the Defense Threat Reduction 
Center at Fort Belvoir, Va, where inspection teams will assemble, draw 
necessary equipment, and conduct initial mission briefings.
    Teams conducting missions in western Russia will proceed to the 
DTRA gateway in Darmstadt, Germany, where they will conduct detailed 
mission planning and preparation. Inspectors will conduct a thorough 
study of the inspection facility and its systems, previous inspection 
history for the site, and the data declared by Russia for that 
facility. Nearly all of the facilities under the NST were also 
inspectable under START, and we have substantial START inspection 
history to draw upon as teams prepare for missions. They will review 
the treaty provisions applicable to the inspection site, assign 
individual roles and responsibilities for each team member, and plan 
the conduct of the inspection. Teams conducting missions in eastern 
Russia will conduct similar preparation at the DTRA facility at Yokota 
AB, Japan.
    A type one inspection consists of two major components, a warhead 
inspection of deployed ICBMs, SLBMs, or heavy bombers, and an 
inspection of any nondeployed strategic offensive arms that might be 
present at the facility (spare missiles in the ICBM maintenance 
facility or within bunkers at a submarine bases, for example). The 
overall objective of this inspection is to confirm the exchanged data 
for the facility being inspected.
    No later than 32 hours prior to the inspection team's arrival in 
Russia and during normal working hours, the U.S. Nuclear Risk Reduction 
Center will notify the Russian Government of our intent to conduct an 
inspection. The team will be met by a Russian escort team at Moscow or 
Ulan Ude and conduct arrival procedures. Within 4 hours of arrival at 
the point of entry, the U.S. team chief will designate the site to be 
inspected in writing, after which the escort team has 24 hours to 
transport inspectors to the site.
    Upon arrival at the base, the inspection team will be told how many 
reentry vehicles are loaded on each deployed ICBM or SLBM, or how many 
nuclear armaments are loaded on heavy bombers and, the number of 
deployed and nondeployed items located at the base. Inspectors will 
also be provided a site diagram annotated to show the location of 
declared items on the base. The inspection team will select a single 
ICBM or SLBM or three heavy bombers for inspection. The base will 
prepare the missile or heavy bombers for inspection by partially 
dismantling the front section and covering the RVs with either soft or 
hard covers for ICBMs and SLBMs or covering nuclear armaments if any 
are loaded onto a bomber. The inspection team will then observe the 
covered objects and confirm the declared number. In the case where 
objects declared to be nonnuclear are present (penetration aids on 
missiles or conventional weapons on bombers), those objects may be 
subject to Radiation Detection Equipment measurements to confirm that 
they are nonnuclear.
    Upon completion of the reentry vehicle inspection, the inspection 
team will inspect the rest of the facility, to include structures and 
vehicles within the inspectable boundaries, to confirm the number of 
nondeployed items declared for that facility. For Heavy Bomber bases, 
the inspection is limited to 30 hours. Due to safety and handling 
considerations at ICBM and submarine bases, there is no time limit on 
the conduct of the warhead inspection. Upon completion of the warhead 
inspection, inspectors have 24 hours to inspect the rest of the ICBM or 
SLBM base for nondeployed items. Inspectors will then complete the 
official inspection report, which will be signed by both the inspection 
and escort team chiefs. After completion of inspection activities, 
teams return to the respective gateway via the point of entry for post-
mission activities and reporting.
    For onsite inspections of United States facilities, Russian 
inspectors arriving at the Washington point of entry will be escorted 
by personnel from DTRA headquarters. Our detachment at Travis AFB will 
escort Russian inspectors arriving at the San Francisco point of entry. 
DTRA will oversee the conduct of all NST escort operations at U.S. 
facilities. DTRA will maintain an escort team on standby at each POE 
upon the treaty's entry into force.
    Under NST, the inspecting party must notify the inspected party of 
the arrival of an inspection team during normal working hours and no 
later than 32 hours before the team's scheduled arrival time. After 
receiving the notification of Russia's intent to conduct an inspection 
via the U.S. Nuclear Risk Reduction Center, the DTRA Operations Center 
will notify all U.S. facilities subject to inspection associated with a 
particular point of entry and DTRA will prepare to receive the inbound 
inspection team. No more than 4 hours after the team arrives at the 
point of entry, the Russian team chief will declare in writing the site 
to be inspected. After site designation, the DTRA escort team will 
immediately notify the selected facility and will coordinate with that 
facility to gather the necessary information, determine preferred 
arrival time and prepare for the inspection. DTRA escorts will 
coordinate with the Air Force's Air Mobility Command to transport the 
team to the site within 24 hours of the time of site declaration. Site 
personnel will make the necessary preparations for the arrival of the 
inspectors and their escorts. Such preparations include complying with 
preinspection restrictions, readying the site for inspection, and 
making logistical arrangements to feed, billet, and transport the 
inspectors and escorts while they are at the facility.
    Upon completion of the inspection, the escort team will coordinate 
the return of the Russian inspection team to the point of entry and 
facilitate its departure from the United States. From the time of their 
entry into the United States until their departure, the activities of 
Russian inspectors will be supervised by a DTRA escort team.
                inspection and escort team organization
    Inspection teams consist of technical experts in the areas of ICBM, 
SLBM, and heavy bomber inspections. As was the case under START, 
inspection teams are limited to a total of 10 inspectors. Each team is 
led by a DTRA core element consisting of team chief, deputy team chief, 
weapons specialist, and two linguists. The remainder of each 10-person 
team will consist of selected experts from DTRA and other USG agencies. 
The inspection team chief is the official USG representative.
    The escort teams consist of the same core group, but are augmented 
by local personnel from the facility being inspected. Escort teams will 
support inspections throughout the United States and also serve as the 
onsite USG representatives during the escort activities. In addition to 
facilitating the inspection process, escorts are responsible for 
coordinating transportation, billeting, meals, interpreting, emergency 
support, and security.
    Based on the projected workload and the number of inspections that 
can be conducted under the new treaty, the personnel requirements for 
NST are less than they were for START. Under START, DTRA was prepared 
to escort multiple visiting inspection teams simultaneously, as well as 
conduct both short notice and elimination inspection missions. It was 
possible to have four United States inspection teams in Russia (two 
short notice and two elimination inspections) while at the same time 
receiving a Russian inspection team at each United States point of 
entry. New START allows for only one inspection team in country at any 
given time. Coupled with the reduction in number of inspections, these 
changes will allow DTRA to reduce from 10 teams under START to 5 
inspection teams under NST.
    Although there will be fewer inspections under NST, the type one 
inspections will be more demanding on both DTRA and site personnel, as 
it combines the main parts of what were formerly two separate 
inspections under START into a single, more lengthy inspection.
                     new start treaty preparations
    DTRA is preparing and planning to perform its inspection and escort 
responsibilities should the Senate consent to ratification.
Inspector and Escort Training
    To prepare for implementation of the treaty, DTRA will train the 
agency's cadre of inspectors and escort personnel on the provisions of 
the new treaty and how to implement those provisions. The agency has 
rigorous team training programs to support inspections and escorting 
for all treaties, including a specific training program to prepare our 
personnel for NST. DTRA will ensure that the techniques and lessons 
learned under START are carried forward. Initial certification of DTRA 
inspectors and escorts will occur over the May-October 2010 timeframe 
and involve formal instruction on treaty provisions, self-study, mock 
inspections at U.S. facilities, and team certification standards and 
boards.
    The agency recently conducted a START to New START Transition 
Workshop, and will be conducting our first NST training course this 
October. This course provides the core training for interagency 
personnel, service representatives, and Treaty Compliance Officers from 
U.S. facilities, as well as our own inspectors and escorts, on the 
operating principles and inspection procedures for NST. This course is 
modeled on the highly successful semiannual treaty course DTRA has 
conducted for START.
Site Assistance Visits and Mock Inspections
    DTRA works closely with the Office of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics Office of Treaty 
Compliance and the services to prepare U.S. facilities for the new 
treaty by providing training, assisting in the development of 
inspection plans, conducting site assistance visits, and providing full
``red-on-blue'' mock inspections. Since NST was signed this April, DTRA 
has been actively coordinating with the Air Force and the Navy to 
prepare facilities subject to inspection under New START. This has and 
will involve working through the inspection procedures for each site, 
and conducting site assistance visits and mock inspections as needed. 
Full mock inspections will utilize base personnel, a DTRA escort team, 
and a DTRA team playing the role of Russian inspectors. These events 
provide opportunities for DTRA to simulate an actual inspection and 
refine training for inspection and base personnel.
Arms Control Enterprise System
    DTRA uses the web-based Arms Control Enterprise System (ACES) to 
support data reporting requirements and notifications for all treaty 
limited equipment and accountable items. This system includes data 
handling capabilities and reporting procedures for compliance tracking 
of weapons systems subject to treaty restrictions. The ACES module that 
previously supported START and INF requires upgrading for NST's 
provisions for the use of unique identifiers and counting of warheads, 
as well as the change in structure of the semiannual database report 
and updated notification formats. DTRA is in the process of upgrading 
ACES to meet NST requirements, and will ensure that the necessary 
interim data management and reporting measures are in place during the 
transition to the new module.
Nunn-Lugar Cooperative Threat Reduction (CTR) Program
    DTRA implements the Nunn-Lugar program which promotes the 
elimination of systems to achieve force reductions required by treaty 
obligations and provides transparency. Nunn-Lugar is currently engaged 
in decommissioning, disassembly, dismantlement, and elimination 
activities for a variety of systems, including: SS-25 ICBMs, mobile 
launchers, and regimental base infrastructure; SS-N-20 SLBMs and 
components; SS-N-18 SLBMs and components; SS-18 ICBMs and silos; SS-19 
ICBMs and silos; and SLBM launchers and reactor units from Typhoon- and 
Delta III-class submarines. All Strategic Offensive Arms Elimination 
activities have been conducted consistent with START and all future 
activities will be conducted consistent with NST. These activities have 
continued without disruption through the expiration of START and 
following the signature of the NST.
    We have reviewed the elimination procedures for each of these 
systems and are working closely with the Executive Agent for the 
Russian Government, the Federal Space Agency (FSA), to consider 
adjustments to ongoing elimination activities to take advantage of 
efficiencies resulting from NST provisions while maintaining our mutual 
nonproliferation and threat reduction goals within the NST Treaty 
environment.
    Further, in cooperation with the FSA and Rosatom, the Nunn-Lugar 
program will continue to identify potential cost-sharing opportunities 
for each system that will enable the Russian Government to assume 
increased responsibilities for strategic system eliminations.
    We will continue to monitor the elimination work in accordance with 
Federal Acquisition Regulations governing payments for completed work. 
Technical site visits will continue as they have in the past under the 
same procedures agreed to under the CTR Umbrella Agreement which was 
signed by the United States and Russian Federation Presidents.
                               conclusion
    DTRA's preparations for executing its responsibilities under NST 
have been thorough and build upon our experience with START and INF. 
Implementing the new inspection regime will not be unfamiliar to the 
agency and we will be prepared to carry out all of its inspection and 
escort provisions with the utmost accuracy and efficiency. We are proud 
of our record of success in arms control implementation and look 
forward to the challenges ahead. I thank you for this opportunity, and 
welcome your questions.

    Senator Casey. Thank you, Mr. Myers. I appreciate both your 
testimony and that of Dr. Miller, as well.
    I'm--because of the substantial contribution that the 
ranking member, Senator Lugar, has made to this issue and to 
our national security over many years, I'm tempted, at this 
moment, to yield my time, but I'm not allowed to, by the 
committee rules; I have to ask some questions first. But, we'll 
make sure he gets even more time than we would normally allot 
to anyone.
    But, grateful for that testimony.
    I wanted to step back and--Mr. Myers, much of what you 
walked through--I'm glad you did that, because we were going to 
get to the mechanics, and I think that's important, for people 
to get an understanding, both Senators' as well as the American 
people. I wanted to step back and take a broader--take on a 
broader question first, and that's the question, really, in a 
word, ``experience,'' that, as the years marched on, under the 
original START Treaty, obviously both sides gained a lot of 
experience from that. And there's no question that that 
experience has informed our judgments, has informed the--and 
did inform--the negotiations leading up to the development of 
the New START Treaty.
    I'm just wondering if either of you can highlight or 
specify some examples of experience developed and learned over 
those years that helped in the negotiations, but also will help 
effectuate the elements of these--this treaty, upon 
ratification--methods or strategies or procedures that might 
work better, just based upon that experience, but also from the 
vantage point of how our experience over those years actually 
helped in the negotiations themselves.
    Dr. Miller. If I could----
    Senator Casey. Dr. Miller.
    Dr. Miller [continuing]. Senator, take a first answer, then 
I know that Ken will want to--will add more on the question of 
experience on the ground, as well.
    The START Treaty had an integrated approach to 
verification. Onsite inspections were a key part, but, in 
addition to that, we have a comprehensive updated database, 
notifications with respect to movements between facilities and 
changes in the status of strategic offensive arms, the use of 
unique identifiers. One lesson learned was that we should 
broaden that from just mobile missiles to all systems, which we 
did under New START, and also provisions against interference 
with national technical means and the establishment of the 
JCIC, the Joint Consultative--I've forgotten the--is it----
    Voice. Compliance and----
    Dr. Miller [continuing]. Compliance and Inspection 
Committee--Commission--and the new name for that in New START 
is the Bilateral Consultative Commission--as a forum to take 
these issues, so the--from a treaty perspective, a structural 
perspective, a lot of lessons from New START, in terms of how 
to structure a comprehensive and integrated verification 
regime, and the--as Mr. Myers noted, the deep involvement of 
the DTRA personnel and the negotiating team helped to bring 
those issues in--the more detailed procedures, as well--into 
the treaty and prepare us for inspections and other----
    Senator Casey. I'm just going to interject for one second. 
When--just for people listening, just some--a little more 
definition on terminology. ``National technical means'' and 
``unique identifiers,'' could you just walk--just briefly 
define them?
    Dr. Miller. Sure. National technical means include the use 
of, for example, satellites or aircraft to collect data that 
are--and these systems are under United States control, and we 
are able to use them to try to understand the status of Russian 
strategic forces; indeed, to try to understand the status of 
other systems worldwide. Both the START Treaty and New START 
have a provision calling for noninterference with national 
technical means, which allows us to use those most effectively. 
And in any instances when we felt that there was interference, 
we would then have the right to take that issue into the 
Bilateral Consultative Commission.
    And, I'm sorry, the----
    Voice. Unique identifiers.
    Dr. Miller [continuing]. The unique identifiers--under the 
START Treaty, there was an identifier affixed to each mobile 
missile. And what's been done under the New START is to have a 
similar approach, not just for mobile missiles, but for all 
missiles. And the details of where that is located will be 
determined by a combination of--on each side--of what's 
feasible. So, for silo-based ICBMs, it may make sense to do it 
at a location that's viewable by the side when it does its 
inspections, and so forth. So, those unique identifiers will 
then allow us--as we establish a comprehensive database of 
Russian strategic systems, it will actually allow us to track 
their status, and, if they are moved, their movement over time 
throughout the treaty, with 6-month updates and with required 
notifications, anytime that there's a change.
    Senator Casey. Mr. Myers, I'll just--I have about 2 minutes 
left on my questions--but, just a slight reformulation of the 
question on the experience gained. With your expertise in 
this--in the area of--the process itself, how you go about the 
inspections--anything learned in those years that will help--
that has helped in the negotiations, and will help in the 
implementation, of the treaty as it relates to the process, the 
experience gained by learning more--or going through that 
process?
    Mr. Myers. Yes, sir. DTRA and its predecessors started 
doing arms-control inspections in 1988. We--through the INF 
Treaty--we do inspections under a number of different treaties 
today, whether it be CFE, whether it be the Dayton Accords, 
Vienna document, Open Skies, a number of different treaty 
obligations that DTRA carries out.
    WE also have the experience of the START Treaty. So, when 
we're talking about the New START Treaty, the inspections--the 
inspectors are not starting from scratch. We are starting with 
a wealth of knowledge that will allow us to pick up where we 
left off in December. And that's our plan.
    With regard to a specific example, I think that the unique 
identifiers that Mr. Miller mentioned are critical, but I would 
point out, on the inspection regimes, with regard to the 
experience of our inspectors, we're learning lessons and 
applying to them daily. When a team goes to Russia, they 
encounter a situation, whether it be a new technique, whether 
it be a unique situation that has not been seen before, we take 
that lesson learned, go ahead and apply it, begin applying it 
to our training regime, our preparation regime, before the next 
team heads out on the next inspection. So, I think I would 
amplify on unique identifiers, and I would point in, in terms 
of lessons learned, it's happening on a daily/weekly basis. 
It's being applied the very next time a DTRA team goes out the 
door.
    Senator Casey. I don't want to simplify this, and I want to 
turn to Senator Lugar, but ``unique identifiers,'' just for 
people listening, to put it into more common language, what's 
the best way to express that? Serial numbers, plus--I just want 
to give a sense, for people listening.
    Mr. Myers. Here in the United States, we will probably go 
ahead and use the serial numbers of the missile, if you will; 
and that will allow the United States to track Russian 
components, and the Russians to track United States components, 
from their birth, if you will, all the way through their 
deployments, different bases, different locations, and will 
allow us to track it all the way through its elimination, all 
the way through its death. So, it really allows us to chart and 
track a system's life cycle and the transparency that that 
provides, and the ``asurety'' that that provides, ensures, as 
Senator Lugar said earlier on, no misunderstandings.
    Senator Casey. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Dr. Miller, some commentators have expressed the view that 
the New START Treaty may not limit Russian missiles launched 
from railcars. Now, under New START, the term ``mobile launcher 
of ICBMs'' is defined as the mechanism for launching the 
missile and the self-propelled device on which it is mounted. 
These commentators suggest that the term ``self-propelled'' 
excludes towed railcars. Now, regardless of the definition of a 
``mobile launcher,'' isn't it true that any Russian ICBM, and 
any Russian launcher of an ICBM, would count toward limits in 
the New START Treaty? And perhaps even more important, isn't it 
true, just as a matter of historical fact, that the Nunn-Lugar 
program participated in the dismantlement of the last SS-24 
rail mobile Russian missile, and that Russia no longer has any 
rail mobile systems?
    Mr. Myers. Senator, that's exactly correct, that rail 
mobile ICBMs are not specifically mentioned in the New START 
Treaty because neither party currently deploys rail mobile 
ICBMs. They would be counted under the treaty's limits on--for 
ICBMs and for launchers. If, in the future, the--Russia were to 
go forward and develop and deploy rail mobile ICBMs, first they 
would be counted, and then we would need to take to the 
Bilateral Consultative Commission discussion of what should be 
the specific verification provisions associated with them. 
Negotiators made a decision not to negotiate for hypotheticals 
with respect to this or other systems.
    And, in fact, with respect to CTR, 56 SS-24 ICBMs were 
eliminated in Russia. That was completed in 2008. And 39 SS-24 
launchers were eliminated, with completion in 2007.
    Senator Lugar. Well, I thank you for that response. I 
mention it, not out of a source of irritation, but simply--
critics of the New START Treaty preying upon something such as 
the fact that these railcars are no longer mentioned betray, 
perhaps, a thought that they really don't know what has been 
destroyed in Russia. And this is why it--I appreciate very much 
your going through, today, what already has been achieved. We 
are not beginning from scratch, we're coming in with a New 
START Treaty with, as we pointed out, every single one of the 
rail mobile Russian missiles and railcars destroyed, gone, 
under programs we have had. So, that's sort of important, to 
establish these facts so that we delimit, at least, the amount 
of our purview.
    Now, both of you have done a great job of walking us 
through the inspection process. I appreciate especially the 
handout and the detail with which Mr. Myers proceeded with 
this. But, just the sake of underlining a couple of thoughts 
that you have done here, what role did the record of 
inspections under START I play in formulating the new 
inspections mandated under the New START? And please explain 
for us how these new inspections compare with the 12 different 
kinds of inspections permitted under START I.
    Mr. Myers. Thank you, Senator. The inspection provisions of 
the New START Treaty are grounded in the experience of the 15 
years that we had under the START Treaty. Key elements of the 
inspection regime were retained, while those with minimal 
utility are no longer--with no utility--were streamlined or not 
brought forward.
    There were nine types of onsite inspections and two types 
of exhibitions under the START Treaty. Those have been 
streamlined into three components under the New START Treaty. 
Type one inspections, type two inspections, and exhibitions.
    Type one inspections combine elements of START reentry 
vehicle inspections and data update inspections, and are 
focused on both deployed and nondeployed systems.
    Type two inspections are geared more toward nondeployed 
systems and include elements of START data update inspections 
and formally declared facilities inspections and elimination 
inspections.
    The remaining types of START inspections were not carried 
forward.
    START's technical characteristics exhibitions and 
distinguishability exhibitions have been condensed into a 
single exhibition under New START. And obviously the primary 
difference between START and New START is, under New START, we 
are confirming the actual number of reentry vehicles that each 
delivery vehicle is carrying, as opposed to, under START, where 
we were ensuring that ``not more than'' an assigned number was 
being carried by that delivery vehicle.
    Senator Lugar. Now, you've already indicated, Mr. Myers, 
that DTRA had 18 persons in the negotiating team.
    Mr. Myers. Yes, sir.
    Senator Lugar. And that is important to establish as we 
take a look at who was around the table. The expertise that you 
have demonstrated this morning, and this detail was obviously 
around the table with those who were negotiating the treaty in 
our behalf.
    Mr. Myers. Yes, sir.
    Senator Lugar. Let me just ask, now--Under Article VI of 
the New START Treaty, there is provision for conversion or 
elimination of weapons and launchers. Conversions or 
elimination may be carried out at any declared facility. Nunn-
Lugar supported destruction of strategic weapons under START I 
at declared facilities for storage and elimination. And I 
recall visiting with you at the Surovatikha facility to witness 
the SS-18 being eliminated.
    What results will implementation of the New START Treaty 
have on the Nunn-Lugar strategic offensive elimination 
activities in Russia? And do you anticipate that elimination 
could become cheaper, given the flexibility provided under the 
New START Treaty for such provisions? And where would all this 
work be carried out, at existing Nunn-Lugar sites or at other 
places in Russia that--where we did not previously have work?
    Dr. Miller. Senator, let me take a first cut at the answer, 
and I think Mr. Myers will want to add something.
    As noted before, we expect CTR to complement New START, 
just as it did START, but continue to operate under its own 
authorities as it seeks its--the nonproliferation benefits, as 
well.
    CTR elimination procedures will be consistent with the New 
START Treaty. They are designed to be simplified and less 
costly than those under START, but also designed to be 
effective in rendering strategic systems inoperable.
    So, at this point, as we look to go forward, we have a lot 
of experience with the New START--I'm sorry, with--we have a 
lot of experience with the procedures under START and applying 
them with the CTR program. And as the negotiations were 
underway, we began to look at what the implications would be 
for elimination and conversion under the New START Treaty, as 
well.
    And I believe that those are still under review at DTRA, 
but I'll let Mr. Myers speak to that. There certainly is the 
possibility of cost savings. Because one of the key goals of 
CTR is to ensure our nonproliferation goals, as well, we'll 
look closely at any changes, to make sure that we meet the full 
range of objectives of New START and of CTR.
    And if I could just add one last note, with respect to 
conversion or elimination. The conversion of our systems, from 
nuclear-capable to--or dual-capable bombers, for examples--to 
conventional-only is really a key provision of the treaty that, 
as I said, allows us to retain, indeed strengthen, our 
conventional capabilities while leaving more headroom for 
nuclear systems under the treaty.
    Mr. Myers. Senator, I'd add two points.
    No. 1, as Mr. Miller pointed out, it--the elimination 
procedures under New START are much simpler. So, indeed, there 
could be savings in elimination processes, in terms of overall 
costs. And that's primarily because fewer components will need 
to be displayed for arms control inspectors, as opposed to, for 
example, 14 cuts that you might have observed in your visit to 
Surovatikha, or in another installation in Russia. Fewer 
requirements for elimination exist under the New START Treaty.
    And the second point is, in our conversations with the 
Russians to date, we understand that the eliminations required 
to meet Russian obligations under the New START Treaty will 
take place at the same locations that we are operating and 
doing elimination work today. So, we do not envision new 
facilities. Now, obviously, things may change. They are fluid, 
at this moment. But, right now we are not planning on doing 
work at any new locations than we are, already, today.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    Senator Casey. Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much.
    And let me thank both of our witnesses for their service on 
this issue to our country. These are extremely important 
issues.
    This is one of a series of hearings that the committee has 
held on the START--the confirmation process. And at each time, 
there have been the advantages of this treaty for the United 
States. And today, we're talking about--as it relates to 
inspections, we've gone over several other aspects of it. And 
in each case, we go over how important it would be for the 
United States, that type of access--for example, inspection, to 
see what's going on in the Soviet--in Russia. We've also gone 
over how important this treaty is for the United States-Russian 
relations and for the United States leadership, on nuclear 
safety issues and on dealing with nonproliferation and 
reduction of nuclear warheads. And, of course, as has been 
pointed out many times, there is the ability to withdraw from 
the treaty. So, if it be--there's a national security interest 
for the United States, we always have that safety valve to deal 
with.
    My question is--we're talking about inspection, and you 
went through what our obligations are in regards to the 
Russians' inspections here within the United States. Can you 
just outline for us where we should have at least knowledge of 
issues that our obligations are, in regards to inspection, that 
may be of concern for the security of our country?
    Mr. Myers. Senator, the way we go about training for the 
conduct of and the hosting of the inspections, the way we work 
closely with the military services, with the Air Force and the 
Navy, the way we, not only train our inspectors, but train the 
personnel at the bases, the way we do mock inspections, the way 
we practice, the--we believe that we have a system in place 
that ensures that U.S. national security is not jeopardized in 
any of those types of situations.
    The personnel that carry out and who escort these 
inspections know the treaties, backward and forward, left and 
right, and have the relationship and the experience with their 
Russian partners to ensure that the treaties are lived up to 
the exact word of the document. So, in terms of overall 
concerns with regard to inspections and the like, that is 
minimal.
    I don't know if Dr. Miller----
    Dr. Miller. Sir, I would just add that, just as there were 
a good number of DTRA personnel involved in the negotiations, 
the services and U.S. Strategy Command were also very much 
involved. And as the that alternative approaches to inspections 
were considered, any potential impact on operations was taken 
into account, and these--the result was a set of inspection 
activities planned under New START--or allowed for under New 
START--that we believe will be effective in verification, but 
will not have any notable impact on the United States ability 
to operate our strategic forces effectively.
    Senator Cardin. I appreciate that answer. We've been 
operating under these inspection requirements under the current 
START obligations. Is there anything new in this START Treaty 
that would raise any concern in regards to inspections here in 
the United States or U.S. facilities?
    Mr. Myers. Not in my opinion, Senator, and not in the way 
we're going about preparing this and training for these 
inspections, both conducting them and hosting them. And, in 
fact, I think your question outlined the critical point. This--
we're not starting from scratch. We have 15 years of experience 
of hosting and conducting these inspections. And the 
inspections--and with regard type one inspections, we have 
several inspections that have been combined, that were separate 
under the original START Treaty. But, this is not new 
territory. Our inspectors and our escorts and our hosts are 
confident that they can carry out the provisions of this 
treaty.
    Senator Cardin. Dr. Miller.
    Dr. Miller. I agree. We are confident we can carry out the 
provisions of the treaty with no impact on our ability to 
operate our forces.
    Senator Cardin. Thank you.
    Again, I thank you both for your extraordinary service. I 
know these are not easy issues when you're trying to balance a 
lot of different agencies and their concerns with an overall 
objective. And congratulations for a job well done.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Cardin.
    Senator Isakson.
    Senator Isakson. Dr. Miller, I want to associate myself 
with the kind words you said about Dick Lugar--Senator Lugar. 
Senator Lugar and Senator Nunn have done the country a great 
service. Sam Nunn was a great Senator from Georgia, and still a 
good friend of mine today.
    And I think it's important to note that the Cooperative 
Threat Reduction of 7,545 warheads, since it started, that's 
five times the number of warheads this agreement would allow 
the Russians to have. So, it's a significant contribution. And, 
I think, in a time in which terrorism raised its ugly head in 
the world, in 2001, and continues to be a threat, the most 
important thing we can do is make sure those spent warheads 
that are laying around are captured, deactivated, and we don't 
have the danger of a possible dirty bomb somewhere in the 
world.
    So, I want to add my congratulations to what Dr. Miller 
said about the work of Dick Lugar and Sam Nunn on that.
    Mr. Myers, the staff briefing memo tells me--I want to 
qualify this, I'm telling you who told me this----
    [Laughter.]
    Senator Isakson [continuing]. That the Permanent Portal 
Monitoring Facility that each country was allowed under the 
first START Treaty is not included in this START Treaty, and 
that it's because--and the statement says we discontinued 
production of new ICBMs in Utah, so the Russians took away 
their permanent facility. But, we had one, up until December of 
last year, in Votkinsk--or I guess that's Votkinsk--Russia. 
Does it bother you that, with the new treaty, we wouldn't have 
that in Russia anymore?
    Dr. Miller. Senator, the provisions that have been included 
in the New START Treaty, including the 48-hour notice prior to 
the exit of a missile from the--not only the Votkinsk facility, 
but others, and the notification process of where those 
missiles would be moved to, where they might be deployed, and 
the like, provides us with tremendous amount of transparency 
and the ability to provide verification of where those missiles 
and where those items are in the absence of the Votkinsk 
Portable--Portal Monitoring Facility.
    Senator Isakson. Good. Of the 18 inspections that the New 
START Treaty will allow, 10 tier one and 8 tier two, how long 
does the normal tier one inspection take? And how long would a 
normal tier two inspection take?
    Mr. Myers. The norm--if you give me one moment, I will give 
you the exact numbers--the--from the time the inspection team 
arrives in-country they will be at the site within 24 hours. 
So, depending on how you define the start of the inspection--
they will arrive. The inspection site is, in fact, frozen with 
one--within 1 hour of our inspectors identifying which site we 
want to inspect. The inspected country is obligated by the 
treaty to transport inspectors to the designated launcher 
within 12 hours for silos, 3 hours for SLBMs and bombers, and 5 
hours for mobile ICBM launchers. For safety reasons, there is 
no limit on the time to prepare a missile for inspection. And 
then, prior--excuse me--after that process, each of the 
inspectors on the inspection team is provided 15 minutes to 
directly observe the article. There is a 30-hour time limit for 
bomber inspections.
    So, in other words, with 10 inspectors, theoretically they 
could stretch that out to 150 minutes of viewing of whatever it 
is they want to take a look at. More often than not, they go up 
in groups or in small groups, or not everyone takes that time. 
But, following that, 24 hours on the site for a type one 
inspection, and then normally they would be leaving the base 
and returning back.
    Senator Isakson. Now, under a tier one inspection we have 
to give 32 hours' notice, is that right?
    Mr. Myers. Under any inspection, Senator.
    Senator Isakson. On any tier----
    Mr. Myers [continuing]. Thirty-----
    Senator Isakson [continuing]. One or----
    Mr. Myers. Thirty-two----
    Senator Isakson [continuing]. Two.
    Mr. Myers [continuing]. Hours.
    Senator Isakson. Well, under tier one, there's a 
prohibition against moving anything at the facility once the 
notice has been given, is that correct?
    Mr. Myers. After 1 hour.
    Senator Isakson. After 1 hour.
    Mr. Myers. One hour. So, when our--if our folks, for 
example, are--have arrived in Moscow, they have presented the 
Russian escorts with a designation of which site we want to go 
to, the clock starts.
    Senator Isakson. OK.
    Mr. Myers. And with--after 1 hour, nothing can move. And 
obviously, we will be taking--we'll bring a number of different 
skill sets and tools to that table to ensure that the Russians 
are complying with that, in terms of national technical means 
and the like.
    Senator Isakson. Well that's my followup question. I guess 
you're talking about, in terms of technical means, satellite 
observation and things like that?
    Mr. Myers. Yes, sir.
    Senator Isakson. Is that the primary way you would do it?
    Mr. Myers. I would say so. Yes, sir.
    Senator Isakson. OK. I remember--and we've had so many 
hearings, and I've attended so many of them, I've got a lot of 
things running around in my head that may not be correct--being 
that Kings Bay is located on the coast of the State of Georgia 
and is our east coast Trident submarine base, wasn't there a 
provision, in terms of the number of launchers within the 
Tridents, we're going to reduce it from 24 to 20, is that 
correct?
    Mr. Myers. Senator, that is our plan, under the New START 
Treaty, so we'll have a plan to have no more than a--or, in 
fact, plan to have 240 SLBM launchers, at any point in time, 
that are deployed. Under the provisions of the treaty, we're 
allowed to have up to 100 additional nondeployed launchers.
    Senator Isakson. That does--I don't know whether you're 
familiar with our converted Tridents, the Georgia and the 
Florida, I think. The--does--I'm trying to remember. Well, I 
can't talk about that, that's right. I better not ask that 
question.
    That completes my questions. Thank you.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Isakson.
    I wanted to direct my first question, on this round, to Mr. 
Myers about the handout you gave, that Senator Lugar referred 
to. We're grateful for that kind of a handout, because it saves 
many of us on the committee, if not members who will be voting 
on ratification but are not members of the committee--saves 
them and us a lot of time. We'd probably have to ask our staffs 
to create this if it didn't exist, so it's very helpful. In 14 
pages, you've given a very specific guidebook for us.
    I wanted to focus on the--well, first, just by way of 
explanation for folks who are hearing, I know, lots of 
different terminologies. When you get to the part of the 
handout that is referred to as ``Mission Execution''--and you 
did a wonderful job of outlining what takes place up until the 
point of execution--but, you divide execution into both 
inspection and escort. And I guess most people can really 
understand the--what ``inspection'' means, but can you 
differentiate between ``inspection'' and ``escort,'' just so we 
have a sense of the difference?
    Mr. Myers. Yes, sir. When we're talking about 
``inspection,'' we're talking about the United States team that 
will be inspecting a Russian facility.
    Senator Casey. Right.
    Mr. Myers. A 10-man or -person team that would inspect a 
Russian facility.
    When we--when we're referring to ``escorts,'' we're 
referring to the Russian escorts who would meet our inspection 
team, either in Moscow or Ulan Ude. And we're also referring to 
the DTRA team of escorts that would meet a Russian inspection 
team, either in Washington or in San Francisco.
    Senator Casey. OK. And, in terms of the inspection process, 
in your handout you've got, I guess, two pages dedicated to 
that. And some of the detail, you've just highlighted. I guess 
I wanted to have you, to the extent that you can--and I know 
there are different roles that an--various inspectors would 
play, depending on what type of inspection and when. But, if 
you can just kind of give us a sense of what that individual 
does, once they're on the ground, so to speak. You've walked 
through some of the detail, but just kind of take us to that 
site, for a moment, and walk through what a typical inspector--
an individual person would be doing once they--once they're, 
kind of, in-country. Can you do that in a summary fashion? I 
think it just helps to be able to visualize that.
    Mr. Myers. Certainly, Senator. Let me start with the 
inspection team having arrived at the site to be inspected. 
There is a time limit for them to actually get out to see, 
let's say, for example, the silo. When they arrive at the silo, 
the door of the silo is to have been--remained closed. They 
will open the door of the silo. And there are a number of 
different ways that they will exhibit what is inside. Sometimes 
the inspectors will actually go over to it and look down the 
silo; sometimes the payload or the nosecone is removed, taken 
to another facility. But, from the moment that the silo door 
comes open, our inspectors never take their eyes off the 
missile, to ensure that what we inspect is actually what is 
inside that silo.
    So, part of the team--and when they're at DTRA, to begin 
with, or what--they're at one of the gateways, either in 
Darmstadt, Germany, or in Yokota, in Japan--part of the 
responsibilities, part of the things that are going on, is the 
handing out of duties. Whose responsibility will be to take on 
this role and this role and this role? And, obviously, one of 
the responsibilities is to keep eyes on that, the entire time.
    When the missile is prepared for viewing, each of the 
entity--each of the team members will have another specific 
role while they go up and they inspect. I mean, obviously 
they're taking in the general view, but they also have specific 
responsibilities.
    Senator Casey. Let me just stop you there for 1 second.
    Mr. Myers. Yes, sir.
    Senator Casey. The--when the inspector--an individual 
inspector, in that scenario that you just outlined, is keeping 
his or her eye on the missile, what--and they obviously have 
trained eyes, they've been through lots and lots of training--
what are they looking for? I mean, is there a checklist that 
they're trying to walk through? Or are they just----
    Mr. Myers. They're just making sure it doesn't move.
    Senator Casey. Yes.
    Mr. Myers. They're making sure what's in there doesn't come 
out of there until the inspection team has an opportunity to 
verify that what's supposed to be in there is actually in 
there.
    Senator Casey. And I was told recently that if there are 
photographs taken, that's--how does that process work?
    Mr. Myers. If the inspectors and the escorts find what I 
would call an ``ambiguous situation'' in which something does 
not appear to be in full compliance, or there is a concern, or 
something is being utilized that is--that may not be 
appropriate, the inspecting team can request that the escort 
team take a picture of it, a digital photograph. That 
photograph is then appended to the inspection report, which is 
signed by both the U.S. lead inspector as well as the lead 
escort. And that becomes the official record, for the United 
States and Russia. And the United States inspection team, as 
they come out of Russia, through Frankfurt--excuse me--
Darmstadt, Germany, and back to Washington, that is the 
official record. That is the record that they will give to the 
interagency compliance process, the group of U.S. Government 
agencies and departments whose job it is to make judgments on 
the compliance. Our--the DTRA inspectors are supplying the 
facts--and, in this case, the photograph--and the judgment is 
being made, at the policy level.
    Senator Casey. Now, go back in time--and I just have 
another minute in this round, but--go back in time, to the 
preparation. I noted, on page 2 of your handout, in terms of 
the training--I'm just going to do a quick highlight, here. You 
say the core team inspectors undergo 4 to 6 months of intensive 
training, in three phases. You have a heading that outlines 
team certification boards and then recurring monthly training. 
What can you tell us about that process of training, in terms 
of the intensity of it? And then, I guess, the--intensity and 
duration, I guess.
    Mr. Myers. We have 500 people focused on this mission. And 
their No. 1 goal is to ensure that our teams, who are going out 
to do the inspections, and our teams that are taking on the 
escort responsibilities, are most up to date with any 
eventuality, any change, any development that occurs.
    So, when we're talking about the recurring monthly 
training, we were talking about the lessons learned, the new 
situations that an inspection team might encounter, or unique 
situations that--at certain facilities, that were not known 
before or what have you. All of that information, all of that 
data, is brought forward and provided across the board, in 
terms of training, to ensure that all of our--the entire 
organization is on the same page with the lessons learned, with 
the new conditions, and ensure that we are all prepared to deal 
with it accurately and adequately.
    Senator Casey. Thank you. I'll come back to some others.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, earlier in the hearing you 
mentioned a page in Politico, today's edition, June 24, 2010, 
on page 31, which is entitled, ``Russia Transparency Equals 
Security.'' And you cited, at that time, very distinguished 
Americans who have endorsed a series of statements on that 
page, that included Secretaries Albright and Shultz and Perry, 
and John Whitehead, and a great number of people. I would 
mention, just for the sake of the record, that those also 
affirming these statements were some distinguished former 
colleagues who have taken part in our debates, including Bill 
Cohen, who also served as Secretary of Defense, John Danforth, 
Chuck Hagel, Nancy Kassebaum-Baker, Warren Rudman, Alan 
Simpson, Tim Worth, and, of course, my partner, Sam Nunn, who 
Senator Isakson mentioned, quite correctly, a moment ago.
    I would like to ask, Mr. Chairman, that unanimous consent 
be given for this to be a part of the record of the hearing.
    Senator Casey. Without objection.

    [The page from Politico referred to above can be found in 
the ``Additional Material Submitted for the Record'' section of 
this hearing.]

    Senator Lugar. Now, let me just state what each of these 
distinguished Americans--and they're on a long list of equally 
distinguished persons joining them--have stated, which is, 
``Now, is the time for a thorough and balanced national 
discussion about nuclear arms control and nuclear 
nonproliferation. We must remember that a world without a 
binding United States-Russian nuclear weapons agreement is a 
much more dangerous world. We, the undersigned, Republican and 
Democrats, support the New START Treaty because we believe that 
it, first, enhances stability, transparency, and predictability 
between the world's two largest nuclear powers, which together 
possess about 95 percent of the world's nuclear weapons; two, 
contains verification and inspection measures essential to 
United States national security and national threat reduction 
as it relates to Russia's strategic nuclear weapons; third, 
addresses our Nuclear Non-Proliferation Treaty, NPT, 
obligations, and therefore assists in gaining cooperation from 
other countries on key nonproliferation priorities; four, helps 
strengthen broader United States-Russia cooperation, which is 
important in responding to proliferation challenges from Iran 
and North Korea; five, does not inhibit our ability to maintain 
an effective and reliable nuclear arsenal; and, sixth, does not 
constrain our ability to develop and deploy missile defense 
systems.''
    Now, I cite these because these are all issues that have 
arisen in our hearing in various forms and the fact that this 
long list of distinguished American public servants, 
Republicans and Democrats over at least two decades, all come 
to the same conclusions. Does not mean that every Senator would 
come to the same conclusions, but I think it's a strong 
argument, which buttresses the testimony you're giving in 
detail today. And I appreciate the initiative taken by these 
Americans in speaking out, at this point.
    And on a different subject, I would like to ask either one 
of you about the biological strategy you've touched upon. In 
November 2009, the Obama administration released the National 
Strategy for Countering Biological Threats. And the national 
strategy stated, ``By assisting with efforts to redirect former 
weapons scientists, repurpose our--or decommission facilities 
and equipment, develop and implement practices that permit safe 
and secure work with high-risk pathogens and toxins, build 
scientific ties, and improve mutual understanding, our security 
engagement programs have developed a strong track record of 
effective risk management.'' This is from the Obama 
administration's National Strategy for Countering Biological 
Threats.
    Now, last week, DTRA announced the opening of the Interim 
Central Reference Laboratory in Odessa, Ukraine. The level-
three biosafety laboratory is the first built under the 
expanded authority of Nunn-Lugar Cooperative Threat Reduction 
Program. The White House has placed strong emphasis on its 
announced policy of securing all nuclear weapons in 4 years, 
but has made limited progress on implementation of a bipartisan 
biological strategy. Therefore, I would like to ask both of 
you, What efforts are being made or undertaken on the policy 
front to ensure effective implementation of our biological 
threat strategy? And how will DTRA implement key elements of 
that biological strategy?
    Dr. Miller. Senator Lugar, as you know, as I stated 
earlier, we have shifted, such that some 40 percent of the 
Cooperative Threat Reduction Program is now focused on 
biological threat reduction. We're currently working with eight 
countries, looking to expand that to additional countries. And 
so, very much understand the--both the opportunities and the 
dangers associates with the advancement of biotechnology, and 
that this needs to be a key focus for our national security 
strategy.
    I would just highlight three themes that were in the 
National Strategy to Counter Biological Threats that provide a 
reference point for us and suggest areas where we're really 
focusing.
    The first is to improve global access to the life sciences, 
to combat infectious disease, regardless of its cause. And 
that's, in part, because, while there are some viruses and 
bacteria that are known to have, historically, been possible 
agents for weapons, there are the potential for others to 
emerge in the future, and we also want to be concerned about 
naturally occurring diseases as well.
    Second, is establishing and reinforcing norms against the 
misuse of the life sciences. As we see this expertise in 
technology advance, that's especially important.
    And the third--it relates to the BTRP, the Biological 
Threat Reduction Program--is to institute a set of really 
coordinated activities that together will help influence, 
identify, inhibit, and/or interdict those who seek to misuse 
the life sciences.
    That's the framework we've been operating under. We have a 
very active interagency process. DOD is contributing, through 
DTRA, through investments and in potential multivalent vaccines 
and in other areas, and it--let me just assure you that it's an 
area where we understand there is a significant threat, and 
where we have significant progress ahead of us that we need to 
make.
    Senator Lugar. Mr. Myers.
    Mr. Myers. Yes, sir. I would add a couple of points. One, I 
appreciate your recognizing the important work that was done in 
Odessa, Ukraine. Your visit to Odessa, several years ago with 
Senator Nunn, really allowed us to set the foundation for the 
laboratory we were able to open up. That'll be an interim 
laboratory, until we're able to identify the location of a 
permanent one.
    Two months prior to that, we broke ground on setting up a 
permanent central reference laboratory in Kazakhstan. In both 
situations, we have good working relationship with the Kazakhs 
and the Ukrainians; and perhaps even more importantly, we have 
an outstanding relationship with our colleagues at the 
Department of State. Both of those laboratories, the 
groundbreaking and the opening of the laboratory in Ukraine, 
would not have been possible without the support of Ambassador 
Hoagland, in Kazakhstan, Ambassador Tefft, in Ukraine. They are 
outstanding supporters, and we work very, very well together.
    I think Mr. Miller laid out for you the areas that we're 
looking to expand. We're looking to take the lessons learned 
from our work in the former Soviet Union, and apply them and 
take them outside, take them to new regions of the world. We 
basically have three pillars that we seek to arrange our 
cooperation or our work around.
    No. 1 is, helping enhance the bio--excuse me--the disease 
biosurveillance capabilities of these countries. Identifying 
the outbreak of a disease sooner--as soon as possible--is 
critical in terms of stopping it before it could spread, before 
it could reach, potentially, U.S. shores or our men and women 
serving overseas.
    No. 2, supporting collaborative research. Working with 
these countries where these diseases are--where they live, 
where they were born, is critical in terms of finding 
collective solutions to them.
    And also, improving the overall biosafety and security, and 
that includes increase in the security surrounding these 
disease pathogens. Countries and laboratories and hospitals 
have good reasons to keep these dangerous pathogens, so they 
can work on solutions, work on antidotes, but that makes them 
very, very dangerous, as well. So, one of the things that we 
work on very carefully, in a daily basis, is increasing the 
security around them so that that research can go on, but can 
go on in a safe and secure location.
    Senator Lugar. Well, I thank you very much for that 
testimony.
    I mention all of this, Mr. Chairman, because during one 
visit to Russia, I saw production lines where pathogens were 
being replicated. Ostensibly, this was to treat livestock. 
Others would have charged that it might have eliminated the 
livestock of a country that, in fact, was victim of this 
situation.
    Now, in fairness to Russians who were involved in that 
production line, which had been shut down, in Saint Petersburg, 
we observed pathogens, now under control, being utilized for 
the benefit of the hospital system of the country, in the 
treatment of disease. Now, both are a part of the picture.
    And even as we have centered, correctly I think, on nuclear 
weapons that might be fired at us or others, the fact is that 
weapons of mass destruction have included biological and 
chemical components, and no amount of missile defense is really 
going to be particularly effective in this area. And this is 
why I want to spread the discussion a little further, because 
this relationship with Russia is absolutely critical, in terms 
of the areas that we're talking about today and which we'll not 
be able to explore in more detail.
    But, I thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Lugar. I know we might--I 
have a few more questions--we might be joined by another 
member; and I'll yield, if we are joined by another member.
    I did want to ask a question that I meant to ask earlier, 
in terms of the inspection regime itself. And, of course, for 
those listening, whenever we say the word ``regime,'' it's not 
a government, it's a process and a structure. But, in terms of 
the treaty's inspection regime that the Defense Threat 
Reduction Agency would have liked to have seen, but didn't get, 
is there any--can you point to any improvements to the process, 
the structure, the regime itself, that either of you or like-
minded individuals were advocating for, that you didn't get in 
the end, in the course of the negotiations?
    Mr. Myers. No, sir. The DTRA representatives at the 
negotiations were part of the team from the beginning, from the 
formulation of the negotiating positions all the way through. 
They were onboard the entire time.
    Senator Casey. Dr. Miller.
    Dr. Miller. Senator Casey, I agree, we are absolutely 
confident that this inspection regime that--and the broader 
verification regime of the treaty--is adequate for the--for 
verifying the provisions of the treaty.
    I'll just add briefly that, as an example where we 
achieved, in a sense, more than was absolutely necessary for 
verification, the provisions of this treaty are not dependent 
on telemetry for their verification, unlike some of the 
provisions of the START Treaty. And yet, we have a provision to 
exchange in--telemetric information in up to five missile 
launches per year.
    Senator Casey. And I wanted to, again, get to--when we use 
the word ``telemetry,'' the definition that--it's the 
transmission--it's transmission--just so we're clear about 
that.
    Dr. Miller. It--telemetry is the--in this instance, is the 
information associated with the launches of missiles. It's 
transmitted--well, either transmitted or sometimes captured in 
data storage devices.
    Senator Casey. Broadcasted, yes.
    Dr. Miller. Or both--broadcast, exactly right. And it was 
useful in the START Treaty for verification, because START 
Treaty limited throw weight, and so, the--as the missile was 
launched, it would help to assess the missile's throw-weight. 
And because there was a limitation--I'm sorry--the START Treaty 
had an attribution rule for warheads. And so, if, let's say, 
the SS-18 had an attribution rule of 10, if we saw a launch 
that had 11 warheads, that would have been a treaty violation. 
So, this information that is associated with the missile 
launches and either broadcast and/or captured by device is--was 
important for START, not important for New START, but in--
notwithstanding that, we still have--will have some exchange of 
this data.
    Senator Casey. Just about two more questions.
    There was one area, that I didn't pursue, about the--kind 
of, the undergirding, or the foundation, of any kind of 
verification structure. The goal--or one of the main goals is 
to increase confidence that both parties are complying with the 
treaty.
    I guess the--one thing--but, one thing we didn't get to was 
the Bilateral Consultation Committee's process, how that works, 
in the context of the treaty. Either or both of you want to 
walk through that a little bit?
    Mr. Myers. I can give a basic broad overview.
    The purpose of the Commission is to provide a forum for the 
sides to come together to discuss, and with the goal of, 
settling on a solution to some of the ambiguous situations that 
I described earlier. I think a number of issues have come up 
during the implementation of the treaty, and--in which the two 
sides saw a provision of the treaty, thinking that, you know, 
it had maybe been one way or another, and the two sides had a 
different interpretation. And the consultative commissions are 
very helpful, in terms of providing a forum for those 
discussions to take place, to find a solution. They--a number 
of solutions have been found, and there are other issues that 
continue to be discussed, and will be needed for the New START 
Treaty.
    Senator Casey. Is it too simplistic to analogize it to a 
dispute resolution body or is it--is it akin to that, or is 
it----
    Mr. Myers. Well, I guess my only hesitation would be--is 
that no answer is imposed. It has to be agreed to by both 
parties. I think that's the key difference I would put there, 
is--this is a forum to find solutions. And very often solutions 
are found, and--but, if they are not, that commission remains 
for continuing to seek them.
    Senator Casey. Doctor.
    Dr. Miller. Senator, I would just add that it--that the 
BCC, the Bilateral Consultative Commission, builds directly 
from the experience and lessons learned from the START Treaty's 
Joint Compliance and Inspection Commission, the JCIC. And there 
were, throughout the course of the treaty, a number of issues 
raised, by both sides, about a range of issues, often with 
respect to detailed questions of how inspections would be 
conducted in--for example, whether--what kind of covers could 
be placed over reentry vehicles as those were inspected. And 
the experience was that, following the discussion and 
implementation of new procedures coming out of the Joint 
Compliance and Inspection Commission, or, looking forward, the 
BCC, that the majority of these issues were resolved and 
allowed moving forward with the inspections.
    Senator Casey. I wanted to conclude with just one question. 
It relates to a Congressional Research Service report entitled 
``Monitoring and Verification in Arms Control,'' April 21 of 
this year, written by Amy E. Woolf. Senator Lugar is in some of 
the footnotes--he's referred to in several of the footnotes. I 
won't read the whole report, obviously, but I did want to ask 
for your reaction to a statement made at the end of this report 
which is consistent with much of what we discussed today and 
what Senator Lugar was referring to earlier, about the 
importance of this treaty, beyond just the mechanics of arms 
control, but also in terms of the relationship. She writes, in 
pertinent part--this is on page 23, the last full paragraph, 
and I'm reading--it's, in pertinent part--it's not the whole 
paragraph--she says, the--and I quote, ``The United States 
would have far less access to and knowledge about Russian 
forces without any treaty mandated monitoring provisions in 
place. The New START Treaty will contain an extensive database, 
listing the number and location of every deployed and 
nondeployed delivery vehicle, and every deployed and 
nondeployed missile in the Russian arsenal. The database will 
also list the precise number of warheads deployed on each 
missile.'' And it goes on from there.
    I just wanted to have you react to that, if--and I know 
it's not a comprehensive statement of the reasons why I believe 
we should ratify--but, talk for a moment about--as we 
conclude--about that statement, which is very much consistent 
with, I think, your own statements here today.
    Dr. Miller. Senator Casey, I agree 100 percent with the 
portion of the statement that you--of the report--that you read 
out loud. The New START Treaty will provide the ability for 
United States inspectors to be onsite at a range of Russian 
deployment locations and other locations where they--with--for 
nondeployed items--that we would otherwise not have access to, 
and will provide us, through its--the database, the unique 
identifiers that we discussed earlier, the requirements for 
notification when anything moves, a very strong baseline of 
understanding that will then inform those onsite inspections 
when they take place. Cooperative Threat Reduction will build 
off of that and provide us tremendous insights that, as I think 
you had noted, General Chilton had--in testimony, earlier--
testified last week that this will help us avoid worst-case 
planning and help us build confidence and help us move forward, 
we hope, with further arms reductions, beyond New START, and, 
more broadly, with continuing to strengthen the United States-
Russian relationship.
    Senator Casey. Mr. Myers, anything to add to that?
    Mr. Myers. Without the New START Treaty, we won't have 
inspectors on the ground in Russia. Without the New START 
Treaty, we will not have the data declarations, we will not 
have the notifications of where things are located, we will not 
have the unique identifiers to be able to track missiles and 
components through their life.
    The quote that was given earlier, that was attributed to 
Linton Brooks, we won't have transparency, we won't have 
predictability, and that won't provide as much stability as we 
will have under the New START Treaty.
    Senator Casey. Thank you very much.
    Senator Lugar, anything?
    Senator Lugar. No, thank you, Mr. Chairman.
    Senator Casey. Thank you very much.
    Our hearing is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


        Extract From Politico Submitted by Senator Richard Lugar

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           BENEFITS AND RISKS

                              ----------                              


                        THURSDAY, JUNE 24, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen presiding.
    Present: Senators Shaheen, Lugar, Risch, DeMint, Barrasso, 
and Inhofe.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good afternoon, thank you all for coming. 
The Senate Foreign Relations Committee meets today in our tenth 
hearing--so if the room is not full for our panelists, please 
know that it's not because of you, it's because of--we have 
been on this topic for awhile.
    We are here to discuss what the treaty will mean for 
American national security, for our deterrent capabilities, the 
global nonproliferation regime, and our relationship with 
Russia.
    We have three excellent witnesses today, and we look 
forward to your testimony.
    Over the past 2 months, we have heard from more than a 
dozen witnesses, including the treaty's chief negotiators, the 
Secretaries of both State and Defense, the Chairman of the 
Joint Chiefs of Staff, the head of the U.S. Strategic Command, 
and the Director of the Missile Defense Agency. We've heard 
from many former officials, both Democrat and Republican, some 
of our country's most esteemed voices on national security.
    And their testimony has made one thing abundantly clear. 
They have all agreed that the United States will be more secure 
if we ratify this treaty.
    The New START Treaty reduces the number of nuclear weapons 
that Russia and the United States can deploy. As former 
Secretary of State Henry Kissinger said last month, we must 
recognize, ``the importance of a continuing dialogue with a 
country that together with us possesses 95 percent of the 
world's nuclear weapons. Without such a dialogue, the world 
would be rudderless in front of its greatest dangers.'' We have 
heard from former Secretary of Defense and Energy James 
Schlesinger, who said ratification of this treaty is 
``obligatory'' and who noted that failure to ratify New START 
would be, ``detrimental to U.S. influence over other countries' 
nonproliferation policies.''
    We have also heard from administration officials who have 
tried to allay some of the concerns raised by skeptics. Critics 
have expressed concern that the reductions under the treaty 
will prevent the United States from fielding an effective 
nuclear deterrent. However, last week, General Kevin Chilton, 
the Commander of U.S. Strategic Command, told us that the 
treaty allows us to keep ``exactly what is needed'' to maintain 
an effective nuclear deterrent. In fact, he said the treaty 
gives us flexibility to hedge against any potential technical 
failure in our weapons or change in the geopolitical situation.
    Other critics have been concerned that the treaty will 
somehow impede our missile defense efforts. But on this point 
all of our witnesses from the Department of Defense--both 
civilian and uniformed military--have been unanimous. In the 
words of General Chilton, ``This treaty does not constrain any 
current missile defense plans.'' In addition, LTG Patrick 
O'Reilly, Director of the U.S. Missile Defense Agency, noted 
that New START actually reduces the previous START Treaty's 
constraints on developing missile defense programs.
    We must remember that currently, the United States and 
Russia are working without a much-needed verification regime. 
New START establishes verification and monitoring mechanisms so 
that the United States can better understand how Russia is 
developing and deploying its strategic nuclear forces. As our 
expert witnesses have testified, every day that we are without 
an effective verification regime represents another day that we 
do not have knowledge of the Russian arsenal.
    The New START Treaty also opens the door to further 
cooperation with Russia on other issues of mutual concern, most 
importantly nuclear proliferation.
    As Stephen Hadley testified last week, the New START Treaty 
is ``an indication of one more thing where Russia and the 
United States have found it in their common interest to work 
together cooperatively.'' Two weeks ago, Russia voted in favor 
of U.N. Security Council Resolution 1929, which imposes new 
sanctions on Iran. In addition, Moscow has cancelled its sale 
of S-300 antiaircraft missiles to Tehran.
    Finally, New START Treaty is a critical part of our 
commitment to fight nuclear proliferation and nuclear 
terrorism. By demonstrating that the United States is serious 
about adhering to its commitments under the Nonproliferation 
Treaty, the New START Treaty will help us convince other 
nations to fight the spread of nuclear weapons.
    Today, we are here to discuss both the benefits of the New 
START Treaty and the concerns that critics have expressed. We 
will hear three different viewpoints from three people with 
long careers in public service.
    Ambassador Robert Joseph is a senior scholar at the 
National Institute for Public Policy, and he served as Under 
Secretary of State for Arms Control and International Security 
during the George W. Bush administration.
    Ambassador Eric Edelman is a distinguished fellow at the 
Center for Strategic and Budgetary Assessments, and he served 
as Under Secretary of Defense for Policy during the Bush 
administration.
    Dr. Morton Halperin is a senior adviser to the Open Society 
Institute. He has also held many positions in government, 
including director of the State Department's policy planning 
staff during the Clinton administration.
    Gentlemen, thank you all for coming here today. We look 
forward to your testimony.
    And I will ask both Senators Lugar and Inhofe if they would 
make opening statements next.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you, Chairman Shaheen.
    This morning, as you know, our committee met with Dr. James 
Miller, Deputy Under Secretary of Defense for Policy, and 
Kenneth A. Myers, III, Director of the Defense Threat Reduction 
Agency, to better understand how the New START Treaty would be 
implemented. We examined, in particular, how inspections will 
be carried out and how the Nunn-Lugar Program will intersect 
with the New START Treaty.
    This afternoon, we continue our discussion with an 
examination of the potential risks and benefits of the treaty. 
And we welcome a very distinguished panel. As you pointed out, 
Dr. Bob Joseph, who was Under Secretary of State for Arms 
Control and International Security during the second Bush 
administration; Eric Edelman, who has served several 
administrations in different capacities, including the Bush 
administration as Under Secretary of Defense for Policy; and 
Morton Halperin, currently of the Open Society Institute, also 
was a member of the 2009 Congressional Commission on the 
Strategic Posture of the United States.
    Most of the basic strategic concerns that motivated 
Republican and Democratic administrations to pursue nuclear 
arms control with Moscow during the last several decades still 
exist today. We are seeking mutual reductions in nuclear 
warheads and delivery vehicles that contribute to stability and 
reduce the costs of maintaining the weapons. We are pursuing 
transparency of our nuclear arsenals, backed up by strong 
verification measures and formal consultation methods. We are 
attempting to maximize the safety of our nuclear arsenals and 
encourage global cooperation toward nonproliferation goals. And 
we are hoping to solidify United States-Russian cooperation on 
nuclear security matters, while sustaining our knowledge of 
Russian nuclear capabilities and intentions.
    We know, however, that bilateral treaties are not neat 
instruments, because they involve merging the will of two 
nations with distinct, and often conflicting, interests. 
Treaties come with inherent imperfections and questions. As 
Secretary Gates testified in May, even successful agreements 
routinely are accompanied by differences of opinion of the 
parties. And the ratification process, therefore, is intended 
to consider whether limits on strategic forces and verification 
procedures are fully consistent with United States national 
security.
    This process also is intended to prepare the committee to 
draft a resolution of ratification for consideration by the 
whole Senate. The resolution should clarify the meaning and 
effect of treaty provisions for the United States and resolve 
areas of concern or ambiguity.
    We appreciate very much the presence and the assistance of 
our witnesses today in this continuing process and look forward 
to their testimony.
    I thank you.
    Senator Shaheen. Thank you, Senator Lugar.
    Senator Inhofe.

               STATEMENT OF HON. JAMES M. INHOFE,
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I, first of all, I agree with you, this is the 10th hearing 
that you've had. I would suggest that you haven't had any 
hearings where the witnesses are opposed to the treaty. That's 
kind of interesting, because I'm on the Armed Services 
Committee, I'm the second-ranking member on the Armed Services 
Committee, and we had a hearing. The first hearing that we had, 
Madam Chairman, we had four witnesses--we had Secretary Chu, 
Secretary Clinton, Mullen and Gates--all of whom were for the 
treaty.
    Now, we've gone through this before, I can remember, back 
when--and I was not on the Foreign Relations Committee several 
years ago, Senator Lugar, when the Law of the Sea Treaty was 
passed out by a vote of 16-0 and it was going to just run--rush 
right through the Senate until, at that time, Republicans were 
a majority and I was on the--our Environment and Public Works 
Committee, as well as the Armed Services Committee. And I 
insisted that we have hearings and have people who are both for 
and against that treaty at that time, which is the Law of the 
Sea Treaty. Well, we ended up defeating it. But I can assure 
you, if we had not had any hearings, Madam Chairman, where 
there is someone who is opposed to it, that it wouldn't have 
been defeated. I mean, you--that's what hearings are supposed 
to be all about.
    Now, we've had these hearings, some nine--17 witnesses, so 
far, no witnesses in opposition to it. I don't know who thinks 
that can be reasonable, because it's not. Now, I don't mind 
being criticized--normally, as Senator Lugar knows, 
historically I've been the skunk at the picnic many times. But, 
in this case, as I study this treaty and I go through on the 
floor--I won't go through this now because I've given three 
speeches on the floor where I do get down to some of the--into 
the weeds on this thing, such as the modernization, force 
structure, missile defense and the verification. And, 
obviously, I'm not going to go through that now, but since you 
brought up a couple of these things, let me just mention.
    If you look at force structure, this force structure 
reduces--and we're talking about here, delivery systems, the 
ICBMs for 420, the nuclear-capable--we only two vehicles that 
can handle this from there, that's the B-52 and the B-2--we 
would have 60 of them, and then as far as the SLBMs, the 
submarine-launched ballistic missiles, we would be reducing 
down to 240.
    Well, right now we have 720. If you add that up, that's 
700. And I asked Secretary Gates, I've asked everyone, can you 
tell me where the other 20 are going to come from? And people 
don't have the answer.
    I've been very much much concerned on--as I hope others 
are--on the technical disparity--the technical weapon disparity 
between the United States and Russia. And, anyway, they have 10 
to 1, their ratio over ours.
    And as far as, Madam Chairman, you made the statement that 
this does not affect the missile defense system. I would only 
suggest that, as Sergei Lavrov stated--he's a Russian Foreign 
Minister, ``We have not yet agreed on this missile defense 
issue, and we are trying to clarify how the agreements reached 
by the two Presidents correlate with the actions taken 
unilaterally by Washington,'' and added that, ``Obama 
administration had not coordinated its missile defense plans.''
    Now, listen to this, Madam Chairman, in a unilateral 
statement by the Russian side--and this is back on the day of--
shortly after this was signed, this was in Prague, April 8th, 
``The treaty can operate and be viable only if the United 
States of America refrains from developing its missile defense 
capabilities quantitatively and qualitatively.''
    Now, I could go on, but I'm sure that you've heard this 
before. You've heard that there is objection to this, and 
you've also seen something that was an advertisement in 
today's--what was this? In Political Today, Madam Chairman, 
where it's an advertisement for a Partnership for a Secure 
America, a group that is criticizing me because I have not 
attended these. And I made the statement that, until we have a 
hearing where there is at least one witness in opposition to 
it, I'm not going to. I made this statement after I attended 
the first one with those four witnesses.
    So, what I'm going to do is, hopefully some of the 
witnesses, and I think that, perhaps Mr. Joseph might be the 
one who would be most knowledgeable in these areas--might want 
to address some of the things that I have said, both on the 
floor and now.
    So, I would only say on this nasty blog that came out on 
me, it doesn't matter, it doesn't bother me because it happens 
every day, that was from the people who paid for and ran this 
ad, talking about the fact that I was absent from these 
hearings, I want to make sure that everybody knows that I have 
been absent for that reason. Because I will continue to be 
absent until I see, Madam Chairman, that there is a committee 
with some witness on the committee, who is opposed to it.
    I think that we're going to see--you'll see me insisting on 
some hearings, some more hearings in the Armed Services 
Committee, but hopefully this committee could do the same 
thing.
    Now, I'm going to be here for awhile, I have to excuse 
myself between 3:00 and 3:15 for a media call, but I'd like to 
hear some of the witnesses, perhaps, address some of the things 
that I've been saying.
    And I thank you very much.
    Senator Shaheen. Thank you, Senator Inhofe.
    I would just like to point out for the record that in my 
statement, I wasn't the one talking about the impact of the 
treaty on our missile defense efforts, but I was quoting from 
witnesses who appeared before this committee.
    Senator Inhofe. Sure.
    Senator Shaheen. Who testified to that. So, I think you--I 
just wanted to make sure that nobody was confused about that 
point.
    So, Ambassador Joseph, would you like to begin?

 STATEMENT OF HON. ROBERT G. JOSEPH, SENIOR SCHOLAR, NATIONAL 
            INSTITUTE FOR PUBLIC POLICY, FAIRFAX, VA

    Ambassador Joseph.  Madam Chairman, Senator Lugar, Senator 
Inhofe, thank you for the invitation to appear before the 
committee. It's a real pleasure and honor to return and testify 
on New START.
    I do have a prepared statement that I would--with your 
approval--submit for the record.
    Senator Shaheen. We will include the statement as you have 
submitted it, thank you.
    Ambassador Joseph.  Thank you, Senator.
    Let me preface my opening remarks by noting that my 
experience with arms control is grounded within the executive 
branch, but I am keenly aware of the vital role that the Senate 
plays in the treaty ratification process. Our Nation's security 
has benefited from the close scrutiny given to past treaties, 
especially by this committee, but also others by asking hard 
questions and fixing flaws that have been uncovered in the 
process.
    In summarizing my statement, I would like to raise three 
questions. The first is whether New START meets the long-held 
standards we have thought necessary to protect U.S. security? 
Does it limit what we assume to be limited or are there gaps? 
Equally important, can it be verified?
    A number of experts have concluded that rail-mobile ICBMs 
would not be counted under the treaty. Others disagree. The 
position of the administration is clear: rail-mobile launchers, 
missiles, and warheads are accountable.
    I don't know what the Russian position is. But I do know 
that New START is silent on rail-mobiles. All previous START 
provisions that captured rail-mobile ICBMs were either deleted 
or were changed to exclude them. To me, it is inconceivable 
that, should Russia again deploy rail-mobile ICBMs, they would 
not be counted. That said, based solely on the treaty text, its 
protocols and annexes, one can come to a different conclusion 
than that of the administration--one that excludes rail-mobiles 
from accountability.
    On this point, I believe the Senate can play a very 
constructive role by ensuring that there is no ambiguity, that 
the obligation is clear and precise and agreed by both parties, 
as it is with silo-based and road-mobile missiles.
    When faced with an analogous situation in the INF 
ratification debate, the Senate directed the Reagan 
administration to seek clarification on several aspects of the 
verification regime. As it was then, leaving any potential 
loophole would not be in our security interest or in the 
interest of improved United States-Russian relations.
    Another longstanding theme in Senate oversight has been the 
requirement for effective verification. We know that New START 
includes data exchanges and inspections that could provide 
valuable information that we may not have absent the treaty 
being ratified.
    But the question is not whether or not we're better off 
with the monitoring provisions of New START than without them. 
The question is whether the treaty is verifiable. Whether New 
START meets this standard is an open question, the intelligence 
community has yet to provide its assessment. We do know that 
New START leaves significant gaps in our ability to monitor new 
developments in Russia's strategic posture. The end of U.S. on-
the-ground presence at Votkinsk, and the provisions governing 
telemetry mean we will have less confidence than under START I 
in our ability to determine what Russia may be doing in its 
ongoing modernization. While New START is being advertised as 
strengthening predictability, these changes could well have the 
opposite effect.
    A final point on the terms of New START relates to the size 
of the reductions and whether the treaty will provide for equal 
force reductions. While technically accurate, saying that there 
will be a one-third reduction of deployed strategic warheads 
ignores two factors.
    First, both sides are already below the 2,200 level of the 
Moscow Treaty. Second, actual reductions of warheads may be 
substantially less than expected given the bomber counting 
rule. Because bombers, no matter what they are loaded with, are 
counted as ``one,'' both parties could increase deployed 
warheads beyond 2,200.
    While the United States will almost certainly seek to go 
below the 1,550-warhead level for actual deployed warheads, the 
same may not be true for Russia. And Moscow will not be legally 
obligated to do so.
    As for who reduces more, here again the answer is clear. As 
stated by Secretary Gates, Russia is currently below the top 
levels of delivery vehicles permitted under New START. For the 
United States, the reductions are real and deep and, in the 
case of launchers, well below what U.S. military officials had 
earlier said was the minimum U.S. requirement.
    My second question relates to the treaty's impact on two 
vital capabilities for the future: missile defenses and prompt 
global strike capabilities--the very capabilities that, 
according to the Nuclear Posture Review, make possible 
reductions in nuclear weapons. I know my colleague, Ambassador 
Edelman, will talk about conventional prompt global strike, so 
I will limit my remarks to missile defenses.
    Initially, the administration gave numerous assurances that 
there would be no limitations on missile defenses. After the 
text of the treaty became public, the line changed to ``no 
constraints on current and planned'' programs.
    We know there are restrictions in the treaty, both direct 
and possibly--and I would underline possibly--indirect. Article 
V prohibits the conversion and use of ICBM and SLBM launchers 
for placement of missile defense interceptors. While the Obama 
administration has stated it has no intention to undertake any 
further conversions, future administrations, as Dr. Kissinger 
pointed out, might find the option attractive.
    Last week Under Secretaries Flournoy and Carter, two widely 
respected professionals, wrote that New START ``does not 
constrain the U.S. from testing, developing and deploying 
missile defenses.'' I believe the Senate can, and should, make 
this assurance formal. Perhaps the best means would be an 
explicit statement that no further limitations on defenses will 
be acceptable.
    My third question is how does the United States benefit 
from New START? The administration has stressed the importance 
of New START to ``re-set'' the United States-Russian 
relationship. For some in Russia, including some in high 
government positions,
``re-set'' may mean something entirely different from our 
understanding. For them, the United States is described, 
openly, as the adversary. For them, New START serves a number 
of purposes. It constrains United States forces while not 
encumbering Russian forces; it enhances the status of Russia 
and restores in part the lost prestige from superpower days; 
and it once again treats nuclear weapons--the one category of 
arms in which Russia can compete with the United States--as the 
principal currency in our relationship.
    I believe that if we want a normal relationship with 
Russia, we need to move beyond cold war approaches. We need to 
build on common interests and joint efforts to deal with 
today's challenges, such as combating nuclear terrorism and 
managing the expansion of nuclear energy in a manner that 
reduces the risks of nuclear proliferation.
    The administration has also made the case that New START is 
important because it demonstrates a commitment to disarmament, 
and thereby will lead to greater support for U.S. 
nonproliferation goals. The first half of that is sound--
through New START and other means, the administration has 
established impeccable disarmament credentials. However, this 
has not led, in my view, to greater pressure on Iran, or to 
greater cooperation in strengthening the NPT regime. The most 
recent U.N. Security Council resolution on Iran, Resolution No. 
4, falls far short of what the administration sought, as did 
the outcome of the NPT review conference.
    In closing, I would join with others, including in the 
Senate and in the administration, to stress the need for 
ensuring an effective, reliable, and safe nuclear deterrent for 
the future. New START must be assessed in the context of a 
robust commitment to maintain the necessary nuclear offensive 
capabilities required to meet today's threats and those that 
may emerge. This is a long-term commitment, not a 1-year budget 
bump-up. It includes the maintenance of the triad and of a 
modern nuclear weapons infrastructure. These are the 
capabilities that will provide strategic stability, deterrence, 
and credible assurances to our friends and allies.
    [The prepared statement of Ambassador Joseph follows:]

   Prepared Statement of Robert G. Joseph, Senior Scholar, National 
                Institute for Public Policy, Fairfax, VA

    Chairman Shaheen, Senator Lugar, distinguished members, thank you 
for the invitation to appear before this committee to discuss the New 
START Treaty. Having retired from the career civil service in 2007 
after serving at the Department of Defense, on the National Security 
Council staff, and at the Department of State, I am here today in a 
personal capacity.
    While my direct experience with arms control is grounded within the 
executive branch, I am well aware of the vital role the Senate has 
played in all of the treaties that I have been associated with--
including the INF Treaty and the START I Treaty to reduce nuclear arms 
and provide strategic stability. In particular, this committee has 
consistently provided close scrutiny of all arms control agreements 
submitted for consent to ratification. Our Nation's security has 
benefited from this due diligence--from asking hard questions and from 
fixing flaws that have been uncovered in the process.
    I would like to raise three questions for your consideration based 
on concerns that I have in my reading of the New START Treaty.
    The first is whether New START--especially the provisions on 
limitations and monitoring--meet the long-held standards we have 
thought necessary to protect U.S. security? Do the terms of the treaty 
limit what we assume to be limited or are there gaps that must be 
addressed? And, equally important, do the terms provide for effective 
verification?
    A number of arms control experts have concluded that, based on 
their examination of the treaty, rail-mobile ICBMs would not be counted 
under the treaty limits. Other experts disagree. The position of the 
Obama administration is clear and now part of the treaty record. In 
testimony to this committee, Dr. Jim Miller, Principal Deputy Under 
Secretary of Defense for Policy, has stated unequivocally that rail-
mobile ICBM launchers, missiles and warheads are accountable.
    I do not know the Russian position. But I do know that the New 
START Treaty is totally silent on rail-mobiles and that all previous 
START provisions that captured rail-mobile ICBMs were either deleted or 
changed to exclude them. To me, it is inconceivable that, should Russia 
again deploy rail-mobile ICBMs, they would not be counted under the 
treaty's launcher and warhead limits. That said, based solely on the 
treaty text, its protocols and annexes, one can come to a different 
conclusion than that of the administration--one that excludes rail-
mobiles from accountability.
    On this point, I believe Senate can play a very constructive role 
by ensuring that there is no room for ambiguity, through amendment or 
other means, such as a formal exchange of notes. The language should 
not allow for competing interpretations. It should be clear and 
precise--as it is with silo-based and road-mobile missiles.
    When faced with an analogous situation in the INF ratification 
debate, on important points on which the terms of the INF Treaty were 
not clear, the Senate directed the Reagan administration to seek 
clarification with the then Soviet Union on several aspects of the 
verification regime and on the meaning of a ``weapons delivery 
vehicle.'' As it was then, leaving any potential loophole would not be 
in our security interest or in the interest of improved United States-
Russian relations. Ambiguities involving treaty obligations do not lead 
to greater confidence. Rather, they undermine mutual trust.
    Another principal, longstanding theme in Senate oversight has been 
the requirement for effective verification. ``Trust but verify ``has 
been the standard for more than 20 years. Whether the New START Treaty 
meets this standard is a major issue.
    The Intelligence Community (IC) has yet to provide its assessment. 
How that assessment will be stated and conditioned will be a key factor 
in evaluating the treaty. Experience suggests that there will 
substantial conditionality in the IC's judgments. The level of 
confidence in the assessments will differ depending on the assumptions. 
As just one example, if Russia does what the IC expects in terms of 
road-mobile ICBM deployments, the confidence level will be higher than 
the level if Russia practices denial and deception techniques that are 
not prohibited by the treaty. As with previous assessments from the IC 
and State, the devil will be in the details.
    We do know that the verification regime for New START includes data 
exchanges and onsite inspections that could provide valuable 
information that we may not have absent the treaty being ratified. But 
we also know that the treaty leaves potentially significant gaps in our 
ability to monitor developments in Russia's strategic posture. For 
example, the end of the United States on-the-ground presence at 
Votkinsk means we will have less confidence than under START I in our 
ability to determine what is exiting this Russian missile manufacturing 
facility.
    Moreover, given the telemetry exchange provisions, whereby each 
side determines the information to be shared, we may have additional 
gaps in understanding ongoing and future Russian strategic force 
improvements. The Obama administration argues that this change in 
monitoring posture will not affect the ability to verify New START 
limits because these limits are different than under START I. While 
perhaps technically true, New START is being advertized as a means of 
strengthening predictability. Yet, because of changes in the telemetry 
regime, we will have less transparency into Russia's modernization. 
This is likely to undermine confidence and predictability.
    The question before the Senate is not whether we are better off 
with the monitoring provisions of New START Treaty than without them. 
The question is whether the treaty is verifiable. The answer is unclear 
at this time. Before rendering judgment on the treaty, we must await 
assurances of the ability to verify its provisions.
    A final point on the terms of New START relates to the size of the 
reductions and whether the treaty will provide for equal force 
reductions. While technically accurate, saying that the treaty will 
result in a one-third reduction of deployed strategic warheads (from 
2,200 to 1,550) ignores two factors.
    First, both sides are already well below the 2,200 level of the 
Moscow Treaty. Russian military journalist Alexander Golts has written 
that Russia is now about 100-150 warheads above the 1,550 level and 
that, with the expected near term retirement of legacy systems, Russia 
will soon be under the limit--with or without New START. For our part, 
under guidance set by President Bush, the United States has been in the 
process of going significantly lower than the 2,200 warhead limit. In 
fact, I understand we are now below 2,000 deployed warheads.
    Second, actual reductions of warheads may be substantially less 
than advertised given the change in the bomber counting rule. 
Technically, because strategic bombers, no matter what their actual 
load out, are counted as carrying one warhead, it is possible that any 
actual reductions in deployed warheads would be much less than 
anticipated. In fact, it is possible under the treaty for either or 
both parties to increase the level of deployed warheads beyond the 
2,200 level set by the Treaty of Moscow.
    While the bomber counting rule may be a positive for the United 
States if we modernize this leg of the triad, it is essential to 
understand how the treaty works and the implications. In doing so, we 
must recognize that, while the United States will almost certainly seek 
to go below the 1,550 level of actual deployed warheads, the same may 
not be true for Russia. And Moscow is not legally obligated to do so.
    As for who reduces more, the answer is clear. As stated by 
Secretary Gates, Russia is currently below the top levels permitted 
under New START with regard to delivery vehicles. Consequently, Moscow 
is not likely to have to eliminate a single launcher from where it was 
headed without New START. The expectation is that Russia will cut some 
deployed warheads but significantly less than suggested by the 
administration. For the United States, the reductions are much deeper 
and, in the case of launchers, well below what U.S. military officials 
had earlier stated to be the U.S. requirement.
    My second question relates to the treaty's impact on two vital 
capabilities for the future: missile defenses and conventional prompt 
global strike capabilities--the very capabilities that, according to 
the recently released Nuclear Posture Review, make possible the 
reductions in nuclear forces envisioned in New START. What will be the 
impact of New START on our ability and willingness to develop and 
deploy future capabilities in both of these areas to meet future 
threats?
    I know my esteemed colleague, Ambassador Edelman, will go into some 
detail on conventional prompt global strike, so I will limit my remarks 
to missile defenses. Initially, the Obama administration gave numerous 
assurances that there would be no limitations on missile defenses in 
the treaty--``no way, no how.'' Later, once the treaty text was made 
public, the line changed to ``no meaningful'' limitations and ``no 
constraints on current and planned'' programs.
    We know there are restrictions on missile defenses in the treaty, 
both direct and possibly indirect. Article V prohibits the future 
conversion and use of ICBM and SLBM launchers for placement of missile 
defense interceptors. While the Obama administration has stated it has 
no intention to convert such launchers for missile defense, the 
previous administration did undertake such conversions. And future 
administrations might also find the conversion option attractive. As 
Dr. Kissinger testified before this committee: ``I would also have 
preferred to avoid prohibiting the use of missile launching sites for 
strategic defense as unnecessarily limiting strategic options of a 
future President."
    As for implicit constraints on missile defenses, Russian officials 
have stressed what they call the ``legally binding ``protocol language 
which notes the ``interrelationship between strategic offensive arms 
and strategic defensive arms. ``Foreign Minister Lavrov has repeatedly 
stated that Russia will be entitled to withdraw from the treaty if 
there is a change from existing levels in the ``quantitative and 
qualitative ``capacities of U.S. strategic defenses. By doing so, 
Moscow may desire to gain leverage over the future direction of U.S. 
missile defense programs--development and deployments of future systems 
that are necessary to defend the United States and our friends and 
allies.
    Last week Under Secretaries of Defense Michele Flournoy and Ashton 
Carter, two widely respected professionals, wrote in the Wall Street 
Journal that New START ``does not constrain the U.S. from testing, 
developing and deploying missile defenses.'' They emphasized that these 
``capabilities are critical to protecting U.S. citizens, our forces 
abroad, and our allies from real and growing threats.'' In the 
ratification process, the Senate can build on, and make formal, this 
assurance. It can also make evident that the United States will not 
accept limits on current and future missile defense programs and 
capabilities. Perhaps the best means of doing so would be an explicit 
statement that no further limitations or prohibitions on missile 
defenses, such as those that could potentially be agreed in the 
treaty's consultative body, will be acceptable.
    My third question is how does the United States benefit from New 
START?
    The Obama administration has stressed the importance of New START 
to ``re-set'' the United States-Russian relationship. To the extent 
that the treaty improves mutual confidence in our bilateral relations, 
it may make a modest, near term contribution. To the extent the treaty 
contributes to the reestablishment of the cold-war relationship we had 
with the Soviet Union, it will carry a long-term cost.
    For some in Russia, including in high government positions, the 
United States is seen and described openly as the adversary. For them, 
New START serves a number of purposes: it constrains U.S. forces while 
not encumbering Russian forces; it perpetuates deterrence through the 
balance of terror and mutual assured destruction; it enhances the 
status of Russia and restores in part the lost prestige from superpower 
days; and it once again treats nuclear weapons--the one category of 
arms on which Russia can compete with the United States--as the 
principal currency of the relationship.
    If we do believe the cold war is over, and if we want a normal 
relationship with Russia, we need to move beyond cold-war approaches. 
We need to base our relations on common interests and joint efforts to 
deal with today's security challenges, such as countering nuclear 
terrorism and managing the expansion of nuclear energy in a manner that 
reduces the risks of nuclear weapon proliferation.
    Predictability and stability are important elements of our 
relationship with Russia. Reductions of nuclear weapons to the lowest 
level possible consistent with our security requirements, including for 
extended deterrence for our friends and allies, are important to our 
nonproliferation goals. But these objectives are not well-served by 
traditional arms control of the type practiced in the cold war when we 
and the Soviet Union were enemies in a divided world with thousands of 
nuclear weapons pointed at each other.
    The Obama administration has also made the case that New START is 
important because it demonstrates the U.S. commitment to disarmament, 
and thereby will lead to greater support for U.S. nonproliferation 
goals. The first half of the administration's case is sound--through 
New START and other means, it has established impeccable credentials on 
disarmament. However, it is far from clear that this has or will lead 
to greater international pressure on states like Iran or to greater 
cooperation in strengthening the NPT regime. The most recent U.N. 
Security Council resolution on Iran falls far short of what the 
administration sought, as did the outcome of the NPT review conference.
    In closing, I would join with many others, including in the Senate 
and in the administration, to stress the need for ensuring an 
effective, reliable, and safe nuclear deterrent force for the future. 
New START must be assessed in the context of a robust commitment to 
maintain the necessary nuclear offensive capabilities required to meet 
today's threats and those that may emerge. This is a long-term 
commitment, not a 1-year budget bump-up. It includes the maintenance of 
the TRIAD and of a modern nuclear weapons infrastructure. These are the 
capabilities that will provide strategic stability, deterrence, and 
credible assurances to our friends and allies.

    Senator Shaheen. Thank you.
    Ambassador Edelman.
    Senator Lugar. Madam Chairman, could I just ask that we 
recess, and I ask this because I want to make certain all of us 
hear each of the three witnesses.
    Senator Shaheen. Sure. What----
    Senator Lugar. And if we leave and relieve each other, we 
are going to miss some of the testimony.
    Senator Inhofe. Yes, Madam Chair, they may not be aware 
that a vote started 6 minutes ago.
    I meant to mention, Ambassador Edelman, I have fond 
memories of our relationship in Turkey when you had that job 
there, and I thank you for your public service, and I've 
enjoyed that relationship.
    Senator Shaheen. I think recessing while we all go vote is 
a good idea, so we'll recess for 5 minutes, and we will return.
    [Recess.]
    Senator Shaheen. This hearing will come to order again, we 
didn't quite make it back in 5 minutes, but pretty close.
    So, because I know a number of the members have a 
scheduling issue and we promised to let our panelists out, we 
will go ahead and begin and hope that the other Senators join 
us shortly.
    Ambassador Edelman.

STATEMENT OF HON. ERIC S. EDELMAN, DISTINGUISHED FELLOW, CENTER 
  FOR STRATEGIC AND BUDGETARY ASSESSMENTS, VISITING SCHOLAR, 
  PHILIP MERRILL CENTER FOR STRATEGIC STUDIES, JOHNS HOPKINS 
     UNIVERSITY SCHOOL OF ADVANCED INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Ambassador Edleman.  Thank you Senator Shaheen, and Senator 
Lugar and to the other members of the committee who hopefully 
will arrive. I very much appreciate the opportunity to be here 
today and speak to the committee.
    I think the committee's hearings, as many of them as there 
have been, and as many more as there will be, provide a very 
good opportunity to increase our understanding of how this 
treaty fits into the broader set of national security issues 
that are facing the Nation in a period when, as the Nuclear 
Posture Review notes, ``the threat of global nuclear war has 
become remote, but the threat of nuclear attack has 
increased.''
    And I think it's particularly the case that the Senate can 
be deliberate about this, because earlier arms reduction and 
limitation agreements were reached in a context of what was 
widely perceived as an out-of-control arms race. But today, 
both sides are clearly lowering their number of deployed 
warheads, and I think the Senate therefore can and ought to 
take the time necessary to make sure that all of this is done 
right, rather than done fast.
    I, as Senator Lugar noted, have served several 
administrations as a career diplomat, working on United States-
Russia relations. And I served three consecutive Presidential 
administrations, all of which operated from the assumption that 
the collapse of the Soviet Union marked the end of an 
ideologically driven strategic antagonism between the United 
States and Russia. All three administrations based their 
policies on the hope and expectation that a democratizing 
Russia would become a normal country, an active proponent of a 
new and stable world order, a partner with the United States in 
NATO in seeking peace and stability, and a Europe whole and 
free, and also in resolving conflicts and dangers in Southwest 
Asia, Northeast Asia, and elsewhere.
    And in that sense, I do see that the recurrence of a form 
of arms control that posits an adversarial relationship between 
the United States and Russia as an unfortunate retreat from 
those earlier aspirations. We don't, for example, have arms 
control treaties with ``normal'' countries with nuclear weapons 
like France and the United Kingdom. And I suppose that Russia's 
increasing turn toward authoritarianism and the tensions and 
conflicts along Russia's periphery that have developed over the 
past half-decade may have made the return to a START-like 
treaty structure an inevitable. But, I think we also need to 
bear in mind that in the current environment, a START-like 
treaty that ignores North Korea and Iran could represent more 
of a step backward than a step forward.
    In my view, the treaty needs to be evaluated both against 
the standards of predictability, strategic stability, and 
verifiability that we employed for the earlier START treaties 
if we are going to use that traditional treaty structure.
    In addition, however, I think it needs to be evaluated in 
another way, because we are entering a second nuclear era with 
emergent nuclear powers in North Korea, most likely Iran, and 
now perhaps Burma. And I think the Senate must review this 
measure against a standard that incorporates the kinds of 
capabilities, particularly robust missile defenses and 
conventional prompt global strike that I think are likely be 
necessary for the United States to deal with these emerging 
challenges.
    My colleague, Ambassador Joseph has talked about some of 
the ambiguities in the treaty language, some of the issues of 
verifiability, and the limits on missile defense so I will 
focus my remarks on the launcher limits set in the New START 
Treaty which is a concern, I think, of Senator Inhofe's, and 
their impact on the Prompt Global Strike capabilities.
    Beginning in the 1990s a number of scholars began to write 
about the emergence of a second Nuclear Age. It's an era 
characterized by a continuing need to maintain deterrence among 
great powers but also to manage a more complicated 
multinational nuclear competition resulting from the 
progressive nuclearization of Asia with Iran and Burma, as I 
said, possibly soon joining India, Pakistan, China, and North 
Korea as nuclear weapons states.
    Others may follow in a cascade of proliferation which was a 
concern highlighted by the report of the Perry-Schlesinger 
Nuclear Posture Commission on which Mort Halperin served, as 
well as the Graham-Talent Commission on Prevention of Weapons 
of Mass Destruction Proliferation and Terrorism.
    So, how well does the New START Treaty position the United 
States for the task of both maintaining deterrence and dealing 
with emergent regional powers?
    I do hope that the Senate will look carefully at the 
launcher limit of 700 and I noted your comments, Madam 
Chairman, about the testimony you've heard from General 
Chilton, Secretary Gates, and others. All I can tell you is 
that in September 2008, Secretary Gates and then-Energy 
Secretary Bodman produced a joint DOE-DOD White Paper on 
``National Security and Nuclear Weapons in the 21st Century'' 
which suggested a larger force was necessary. And as recently 
as a year ago--less than a year ago, actually, General 
Cartwright, in an exchange with Senator Thune on the Senate 
Armed Services Committee said he ``would be very concerned'' if 
the launcher limit dropped below 800. So, you know, what has 
changed? It's easy to understand why this lower limit was 
appealing to Russian officials since their launcher numbers 
appear to be dropping below 700 as a consequence of the aging 
of their systems and problems with their foundering 
modernization plans. But a treaty that requires no elimination 
of nuclear force structure by Russia while forcing the United 
States to reduce launchers is perhaps not in the United States 
national interest, given the global United States 
responsibilities for providing extended deterrence to allies--a 
set of responsibilities that Russia does not face.
    Secretary Clinton, among others, has suggested that the 
United States may have to take on even new extended deterrence 
requirements in the Middle East if Iran emerges as a nuclear 
power.
And one has to ask the question, can the United States credibly
take on increased commitments to provide assured deterrence to
our allies and extended deterrence with a shrinking arsenal of 
launchers?
    In both the 2001 and 2010 Nuclear Posture Reviews, the 
point was made that advancing U.S. conventional capabilities, 
and in particular long-range precision strike weapons, make it 
possible to decrease the role of nuclear weapons in our 
Nation's military force posture. But while long-range 
conventional strike weapons can achieve some of the discrete 
target effects that were previously reserved for nuclear 
weapons, they cannot produce the mass effects or credibility 
that are uniquely resident in the nuclear weapons inventory as 
General Chilton testified before the Armed Services committee 
on April 22.
    The use of prompt conventional strike for the purposes of 
destroying a fleeting, emergent target, such as terrorist 
leader or a suspected transfer of WMD would require small 
numbers of PGS vehicles, which might easily be accommodated 
under the 700 launcher limit which is what, I think, Secretary 
Miller has testified to. However, I think we increasingly need 
to think about prompt global strike as the leading edge of 
combat operations in environments where anti-access/area-denial 
capabilities will preclude the traditional use of U.S. airpower 
or where the President, current or future, will want nonnuclear 
options for dealing with a spreading number of nations with 
small nuclear inventories.
    One recent study has suggested the need for at least 50 
such systems, but the number could easily be larger. Fifty 
would already pinch the nuclear forces needed to maintain the 
nuclear triad under the New START negotiated launcher limit, 
and I think that goes to one of the points that Mr. Inhofe made 
at the beginning, but the problem could become even more acute 
if lower limits are negotiated in subsequent agreements. And I 
think the problem here is that the treaty's preamble 
establishes a link--suggests a link--between deployment of 
prompt global strike and ``strategic stability,'' thereby 
establishing a precedent for counting these weapons as part of 
nuclear arms control agreements.
    The truth is, for the 10-year life of this agreement the 
cheapest and quickest route to prompt global strike capability 
would be a conventionally armed Trident or Minuteman missile, 
whose numbers are limited by the treaty.
    Let me conclude by agreeing with Secretary and Ambassador 
Joseph that in the current context, the requirement for nuclear 
deterrence is going to remain a concern for all policymakers 
and a modernized nuclear force is going to be essential to 
that. As Secretary Gates suggested in October 2008, it's a sine 
qua non for maintaining nuclear deterrence. He pointed out then 
that, ``at a certain point, it will become impossible to keep 
extending the life of our arsenal, especially in light of our 
testing moratorium. It also makes it harder to reduce existing 
stockpiles, because eventually we won't have as much confidence 
in the efficacy of the weapons we do have. Currently, the 
United States is the only declared nuclear power that is 
neither modernizing its nuclear arsenal nor has the capability 
to produce a new nuclear warhead. The United Kingdom and France 
have programs to maintain their deterrent capabilities. China 
and Russia have embarked on ambitious paths to design and field 
new weapons. To be blunt, there is absolutely no way we can 
maintain a credible deterrent and reduce the number of weapons 
in our stockpile without either resorting to testing or 
pursuing a modernization program.''
    Much of the danger and the difficulty the Nation will face 
in the future presents itself in the form of regional, nuclear 
armed powers. The Nuclear Posture Review rightly points out the 
Nation can reduce the role of nuclear weapons, even in the face 
of these difficulties, because we have improved missile defense 
and prompt global strike capabilities, among others, but this 
is true only if we continue to field these capabilities in 
sufficient numbers, and with plausible operational concepts 
that enable us to preserve our security interest.
    New START, unfortunately, introduces limits and obstacles 
to further development of precisely these means of defending 
the country. I think as part of the ratification I would hope 
the Senate will express its sense that no further limitations 
on either missile defense or prompt global strike should be 
considered as a part of future nuclear arms reduction 
agreements. Any such constraints could potentially prove to be 
a major error in long-term strategy because they would trade 
away areas of United States comparative advantage for 
reductions in Russian strategic forces that would be likely to 
happen even in the absence of a treaty.
    Thank you very much.
    [The prepared statement of Ambassador Edelman follows:]

Prepared Statement of Eric S. Edelman, Distinguished Fellow, Center for 
 Strategic and Budgetary Assessments, Visiting Scholar, Philip Merrill 
   Center for Strategic Studies, Johns Hopkins University School of 
             Advanced International Studies, Washington, DC

    Chairman Shaheen, Senator Lugar, members of the committee, thank 
you for providing me with the opportunity to share some thoughts with 
you today on the New START Treaty. A year ago I retired from the United 
States Foreign Service after almost 30 years and I bring to the subject 
at hand some perspectives from my years of work at the State 
Department, White House, and Department of Defense, but today, however, 
I am not representing any institution, organization, or party. I am 
speaking solely for myself.
    I would like to begin by saluting you Mr. Chairman, and your 
colleagues on the committee, as well as the Armed Services and 
Intelligence Committees, for approaching the subject with the 
thoroughness and careful deliberation it deserves. As the 
constitutional scholar George Anastaplo has observed, ``the 
arrangements in Section 2 with respect to treaties and appointments 
take it for granted that the Senate can be depended upon to be as well 
equipped as the President to know, or at least to be told, what is 
needed by the country from time to time. The Senate shares the 
Executive power here, however convenient it may be to vest in a single 
man the negotiation of treaties. The President is not assumed to know 
things the Senate does not know or that the Senate cannot be told in 
appropriate circumstances.'' \1\
---------------------------------------------------------------------------
    \1\ George Anastaplo, ``The Consitution of 1787: A Commentary'' 
(Baltimore, MD: Johns Hopkins University Press, 1989), p. 112.
---------------------------------------------------------------------------
    The Senate's scrutiny and skepticism has played a valuable role in 
the history of arms limitation and reduction agreements and, in at 
least one case, SALT II, this body did not ratify an agreement reached 
by the executive branch.
    I believe the systematic airing currently being provided by the 
committee can contribute to increased understanding of how this treaty 
fits into the broader set of national security issues facing the Nation 
when, as the Nuclear Posture Review notes, ``the threat of global 
nuclear war has become remote, but the risk of nuclear attack has 
increased.'' \2\ This is particularly the case because the earlier arms 
limitation and reduction agreements were reached in a context of what 
was widely perceived as an out of control arms race. Today both sides 
are already lowering their number of deployed nuclear warheads, and 
contrary to some assertions, despite the expiration of the START Treaty 
in December 2009, the number of deployed warheads remains governed by 
the Moscow Treaty until 2012. The Senate therefore can and should take 
the time to make sure that we get things done right rather than done 
fast.
---------------------------------------------------------------------------
    \2\ Department of Defense, ``Nuclear Posture Review Report,'' April 
2010, p. iv.
---------------------------------------------------------------------------
    I spent a good deal of my career as a diplomat working on U.S.-
Soviet and, after 1992, U.S.-Russian relations. I served three 
consecutive Presidential administrations, all of which operated from 
the assumption that the collapse of the Soviet Union marked the end of 
an ideologically driven, strategic antagonism between the United States 
and Russia. All three administrations based their policies on the hope 
and expectation that a democratizing Russia would become a ``normal'' 
country, an active proponent of a new and stable world order, a partner 
with the U.S. and NATO in seeking peace and stability in a Europe whole 
and free and also in resolving conflicts and dangers in Southwest Asia, 
Northeast Asia, and elsewhere. In that sense the recurrence to a format 
that posits an adversarial relationship between the United States and 
Russia, defined by a need to control their respective nuclear arsenals, 
seems to mark an unfortunate retreat from those earlier aspirations. We 
don't, for example, have arms control treaties with ``normal'' 
countries that have nuclear weapons like the U.K. and France. Russia's 
increasing turn toward authoritarianism and the tensions and conflicts 
along the country's periphery that have developed over the past half-
decade may have made the return to a START-like treaty structure an 
inevitable, if lamentable, development. But a START-like treaty that 
ignores North Korea and Iran may be a step backward rather than 
forward.
    Given these circumstances the New START Treaty, in my view, needs 
to be evaluated both against the standards used for predictability, 
strategic stability, and verifiability that were employed for earlier 
treaties of this type. If we are going to use the traditional arms 
control treaty structure we need to approach treaty questions with the 
same care and attention to detail that we did in earlier Senate 
reviews. In addition, however, because we are entering a Second Nuclear 
Era with emergent nuclear powers in North Korea, most likely Iran, and 
perhaps in Burma as well, the Senate's review must also be measured 
against a standard that incorporates the kinds of capabilities, 
particularly robust missile defenses and conventional prompt global 
strike, that will likely be required to cope successfully with new 
challenges.
    In his statement, my colleague Robert Joseph deals with issues 
regarding ambiguities in the treaty language, verifiability, and limits 
on missile defenses. I will not belabor those issues, although I very 
much share his concerns. Rather I will focus my attention on some 
characteristics of the Second Nuclear Era and pose some questions, in 
that regard, about the launcher limits set in the New START Treaty and 
their impact on the development of Prompt Global Strike (PGS) 
capabilities.
    Since the middle of the 1990s a number of scholars, including Fred 
Ikle, Keith Payne, Paul Bracken, Colin Gray, and Andrew Krepinevich 
have written about the emergence of a Second Nuclear Age.\3\ This era 
is characterized by the continuing need to maintain deterrence among 
the great powers and to manage a more complicated multinational nuclear 
competition resulting from the progressive nuclearization of Asia with 
Iran and Burma possibly soon joining India, Pakistan, China, and North 
Korea as nuclear weapons states. Others may perhaps follow in a cascade 
of proliferation that has been highlighted in the reports of both the 
Perry-Schlesinger Nuclear Posture Commission and the Graham-Talent 
Commission on Prevention of Weapons of Mass Destruction Proliferation 
and Terrorism. The growing number of nuclear weapons states with 
relatively small nuclear inventories imposes on the United States a 
requirement to put more emphasis on both missile defenses and long-
range precision conventional strike weapons. This requirement has been 
recognized by the Nuclear Posture Review.
---------------------------------------------------------------------------
    \3\ See for example, Fred Charles Ikle, ``The Second Coming of the 
Nuclear Age,'' Foreign Affairs, January/February 1996; Keith Payne, 
``Deterrence in the Second Nuclear Age'' (Lexington, KY: University 
Press of Kentucky, 1996); Colin Gray, ``The Second Nuclear Age'' 
(Boulder, CO: Lynne Rienner Publishers, 1999); Paul Bracken, ``The 
Second Nuclear Age,'' Foreign Affairs, January/February 2000; and 
Andrew F. Krepinevich, ``U.S. Nuclear Forces: Meeting the Challenge of 
a Proliferated World'' (Washington, DC: Center for Strategic and 
Budgetary Assessments, 2009).
---------------------------------------------------------------------------
    How well does the New START Treaty position the United States for 
the task of both maintaining deterrence among the existing nuclear 
powers and dealing with emergent regional nuclear powers?
    With regard to the overall question of deterrence I hope the Senate 
will carefully examine the launcher limit of 700 deployed (with an 
additional 100 nondeployed launchers) to determine for itself if this 
limit meets the requirements of deterrence. In September 2008, 
Secretary Gates and then Energy Secretary Samuel Bodman produced a 
joint DOE-DOD White Paper ``National Security and Nuclear Weapons in 
the 21st Century'' that suggested a force of roughly 900 launchers was 
needed for purposes of deterrence. As recently as last fall the Vice 
Chairman of the Joint Chiefs of Staff, General James Cartwright, during 
an exchange with Senator Thune in the SASC, said he ``would be very 
concerned'' if the launcher limit dropped below 800. What has changed? 
Why are 700 deployed launchers now sufficient? How will the U.S. 
maintain a resilient triad of ICBMs, SLBMs, and manned bombers in the 
medium term? It is easy to understand why this lower limit was 
appealing to Russian officials since their launcher numbers appear to 
be dropping below 700 as a consequence of the aging of their systems 
and problems with their foundering modernization plans. But is a treaty 
that requires no elimination of nuclear force structure by Russia while 
forcing the U.S. to reduce launchers in the U.S. national interest, 
particularly given U.S. global responsibilities for providing extended 
deterrence to its allies a requirement which Russia does not face. 
Secretary Clinton and others have suggested that the possible emergence 
of a nuclear Iran may lead the U.S. to take on even more commitments to 
provide extended deterrence in the Middle East. Can the U.S. credibly 
take on such commitments with a shrinking arsenal of launchers?
    The launcher limit has implications for our Prompt Global Strike 
capabilities. Both the 2001 and 2010 Nuclear Posture Reviews make the 
point that advancing U.S. conventional capabilities, and in particular 
long-range precision conventional strike weapons, make it possible to 
decrease the role of nuclear weapons in the Nation's military force 
posture. It is important to note, however, that while long-range 
conventional strike weapons can achieve some of the discrete target 
effects that were previously reserved for nuclear weapons they cannot 
produce the mass effects or credibility that are uniquely resident in 
our nuclear weapons inventory. As General Chilton told the Senate Armed 
Services committee on April 22, ``I consider prompt global strike 
capability as a niche capability, another quiver, if you will, of the 
United States to address warfighting concerns. I do not see it as a 
replacement for the nuclear deterrent in that role, specifically.you 
don't replace the nuclear deterrent with that, one-for-one, not even 
ten-for-one.'' Today, as we move into the Second Nuclear Era the 
question of a Prompt Global Strike capability is taking on greater 
urgency. But the use of either ICBMs or SLBMs for the PGS mission will 
henceforth be constrained by the Treaty which counts them as Strategic 
Delivery Vehicles accountable under the 700 launcher limit. The 
difficulty here is that we do not yet know what the requirement for PGS 
will be, and thus run a substantial risk of putting the arms control 
cart ahead of the capability requirements horse.
    The use of prompt conventional strikes for the purpose of 
destroying a fleeting, emergent target, such as a terrorist leader or a 
suspected transfer of WMD, would require small numbers of PGS vehicles 
which might be easily accommodated under the 700 launcher limit. 
However, PGS increasingly needs to be seen as necessary for the leading 
edge of combat operations in an environment where anti-access/area 
denial capabilities will preclude traditional uses of U.S. airpower or 
where the President (current or future) will want nonnuclear options 
for dealing with a spreading number of nations with small nuclear 
inventories. One recent study has suggested the need for 50 such 
systems, but the number could easily be larger.\4\ This number could 
already pinch the nuclear forces needed to maintain the nuclear triad 
under the New START negotiated launcher limit. The problem could become 
even more acute if lower limits are negotiated in subsequent 
agreements. A major problem here is that the treaty's preamble suggests 
a link between the deployment of PGS and ``strategic stability,'' 
thereby establishing a precedent for counting these weapons as part of 
nuclear arms control agreements. Although the article-by-article 
analysis of the treaty submitted to the Senate suggests that the United 
States has registered with Russia its view that ``not all new kinds of 
systems of strategic range would be 'new kinds of strategic offensive 
arms' subject to the New START Treaty'' (a statement that would seem to 
protect a hypersonic glide vehicle from being subject to the treaty), 
the fact remains that for the 10-year life of this agreement the 
cheapest and quickest route to a PGS capability would be a 
conventionally armed Trident or Minuteman missile, whose numbers are 
limited by the treaty.
---------------------------------------------------------------------------
    \4\ Bruce Sugden, ``Speed Kills: Analyzing the Deployment of 
Conventional Ballistic Missiles,'' International Security, 34:1, Summer 
2009, 113-146, estimate of a minimum force of 50 for counternuclear 
missions is on page 119. See also Thomas Scheber, ``Conventionally-
Armed ICBMs: Time for Another Look,'' Comparative Strategy, 27:4, 336-
344.
---------------------------------------------------------------------------
    Let me conclude by noting that the United States has probably never 
faced a more complex or daunting set of challenges to the Nation's 
security as we will in the years ahead. In that context, the 
requirement for nuclear deterrence will remain a concern for 
policymakers. As Secretary Gates suggested in October 2008 a sine qua 
non for maintaining our nuclear deterrent is a modernized nuclear 
force. He rightly pointed out that ``at a certain point, it will become 
impossible to keep extending the life of our arsenal--especially in 
light of our testing moratorium. It also makes it harder to reduce 
existing stockpiles, because eventually we won't have as much 
confidence in the efficacy of the weapons we do have. Currently, the 
United States is the only declared nuclear power that is neither 
modernizing its nuclear arsenal nor has the capability to produce a new 
nuclear warhead. The United Kingdom and France have programs to 
maintain their deterrent capabilities. China and Russia have embarked 
on ambitious paths to design and field new weapons. To be blunt, there 
is absolutely no way we can maintain a credible deterrent and reduce 
the number of weapons in our stockpile without either resorting to 
testing our stockpile or pursuing a modernization program.''
    That said much of the danger and difficulty the Nation faces will 
present itself in the form of regional, nuclear armed powers. The 
Nuclear Posture Review rightly points out that the Nation can reduce 
the role of nuclear weapons, even in the face of these difficulties, 
because we have improved Missile Defense and PGS capabilities, but this 
is true only if we continue to field these capabilities in sufficient 
numbers, and with plausible operational concepts that enable us to 
preserve our security interest. New START, unfortunately introduces 
limits and obstacles to further development of precisely these means of 
defending the country. As part of the ratification process I would hope 
that, at a minimum, the Senate will express its sense that no further 
limitations on either Missile Defense or Prompt Global Strike should be 
considered as a part of future nuclear arms reduction agreements. 
Allowing any further such constraints could well prove a major error in 
long-term strategy because they would trade away areas of U.S. 
comparative advantage for reductions in Russian strategic forces that 
would be likely to happen even in the absence of a treaty.

    Senator Shaheen. Thank you, Ambassador Edelman.
    Dr. Halperin.

   STATEMENT OF DR. MORTON H. HALPERIN, SENIOR ADVISOR, OPEN 
               SOCIETY INSTITUTE, WASHINGTON, DC

    Dr. Halperin. Thank you very much, Madam Chairman, Senator 
Lugar. It's a great pleasure to testify again before this 
distinguished committee and to make clear I appear in support 
of the Senate consenting to ratification of the New START 
Treaty. I have no doubt the ratification of the treaty is in 
the national interest of the United States, that it will 
strengthen strategic stability between the United States and 
Russia and help the United States to secure the international 
cooperation it needs to deal with the dangers of nuclear 
proliferation and the danger of terrorists gaining control of a 
nuclear weapon.
    As Senator Lugar noted, I was a member of the Perry-
Schlesinger Commission, and I will rely on the conclusions of 
that Commission in my testimony.
    The Commission, as the committee knows, was composed of 
individuals with, to say the least, very diverging views on a 
wide range of nuclear issues, but with one exception, we 
managed to reach a consensus on every issue that we considered. 
And that consensus included very clear and precise 
recommendations on what we thought--all of us thought--the next 
strategic arms control treaty should look like. The Obama 
administration took these recommendations very seriously and 
the treaty that's now before you conforms, in every material 
way, with the recommendations of the Commission. I thus support 
ratification for the same reasons that led me to join the 
consensus on the Commission.
    In short, I believe that the limitations placed on Russian 
and American forces will contribute to strategic stability and 
reduce the risk of unintended and/or accidental use of nuclear 
weapons by either nation. At the same time, it will clearly 
permit the United States to maintain sufficient forces to deter 
deliberate attack on the United States or its allies or 
partners, by Russia or any other state possessing nuclear 
weapons.
    It will also enable the United States to provide credible 
and effective nuclear guarantees to our allies and partners and 
will provide a framework in which we can get the greater 
cooperation that we need from other states to advance our 
nonproliferation objectives.
    The Commission report makes clear that another purpose of a 
new START treaty is to improve the overall political relation 
between the United States and Russia. I think the treaty will, 
in fact, accomplish that purpose when it is ratified by both 
countries.
    The Commission was mindful, as the administration was, of 
how difficult it will be to reach agreement with the Russians 
on very large reductions in the arsenals of both sides and it, 
therefore, expressed its support for the framework that had 
been agreed, as we were finishing our work, between the two 
governments and suggested that the treaty focus, as its first 
step, on modest and straightforward reductions which would 
reinvigorate the strategic arms control process rather than 
striving for bold new initiatives. It suggested that a mutual 
reduction of strategic forces would be achievable and would be 
a first, but important, modest step forward. As I say, the 
administration followed this advice and the treaty before you 
achieves modest but important objectives.
    The treaty, reflecting, as it does, the recommendation of a 
bipartisan Commission, should provide momentum to reestablish 
the badly needed bipartisanship that we've had in the past on 
arms control policy and on arms control treaties.
    In that connection, I am pleased to see that today the 
Partnership for A Secure America, Senator Inhofe mentioned, 
released a statement which was a bipartisan statement in 
support of ratification of the treaty which was signed by 30 
former high-ranking officials equally divided between 
Republicans and Democrats. I should note that I am on the board 
of the Partnership for a Secure America, but I would ask that 
that statement be made part of the record, and I'd like to 
submit it to the committee for that purpose.
    Senator Shaheen. Without objection, the statement will be 
included in the record.
    Dr. Halperin. Now, the numerical limitations in the treaty 
will permit the United States to gradually reduce the number of 
deployed warheads and number of launchers in its strategic 
arsenal over a 7-year period, and in a manner that will allow 
the United States to maintain the triad of delivery systems 
with each leg contributing to stability and deterrence. The 
administration has ample time to make careful choices about 
which systems to reduce, and how to reach the posture that, in 
my view, will clearly be more than sufficient for both 
deterrence and assurance.
    Moreover, the administration is committed to the 
modernization of its arsenal. We've been told that the 
modernization of the arsenal is a necessary component of moving 
ahead with this treaty. I believe that it is in our interest to 
do so whether or not we have a treaty, that the administration 
is committed to do so, and I hope that the Congress will follow 
the budget proposals of the administration and move forward 
with the modernization of both the delivery systems, when that 
is required, and also with the steps necessary to maintain a 
modern, safe and effective nuclear weapons arsenal.
    Now, you've also asked me to evaluate the concerns that 
have been raised about the treaty. As I understand those 
concerns, in addition to the question of whether Congress will 
actually approve the proposed improvements in our nuclear 
infrastructure, they relate to verification, to ballistic 
missile defense, and to one or two other issues. I will leave 
it to other witnesses to discuss the technical aspects of 
verification. Let me simply say that I have no doubt that 
Russian efforts at evasion of this treaty have no chance of 
success at any level which would provide a meaningful advantage 
to them in the nuclear competition between the United States 
and Russia, and I think that is the standard that the Senate 
has used to evaluate every other treaty, and I think it is the 
only appropriate standard for assessing the adequacy of 
verification.
    Now, the ballistic missile defense issue seems to have 
generated the greatest level of concern. I find this 
surprising, and frankly, disappointing. The New START Treaty 
simply does not limit the number of launches the United States 
can deploy or otherwise constrain the ability of the United 
States to deploy effective ballistic missile defense, period, 
full stop. That should be the end of the debate. But it has not 
been.
    The concerns expressed are that the preamble acknowledges a 
link between offense and defense, that the treaty bans placing 
ballistic missile defense launchers in strategic missile silos 
and that the Russians have asserted a right to withdraw from 
the treaty if they determine that American missile defenses 
threaten their deterrent. The statement in the preamble, in my 
view, is nothing more than a statement of the obvious and 
indeed, a truth which the United States long urged on the 
Soviet Union before they came to accept it.
    The Russian unilateral assertion is nothing more than a 
restatement of what is in the treaty and what is obvious. No 
one could doubt, for example, that a Russian decision to deploy 
a very large ballistic missile defense force aimed at shooting 
down all American missiles that survived a Russian first strike 
on the United States would lead the United States to carefully 
evaluate the adequacy of our offensive forces and to withdraw 
from the treaty if we determined that our supreme national 
interests required such action. We should not be surprised if 
the Russians have the same view.
    The only thing that I would add to the very clear statement 
to this committee by General O'Reilly on the silo issue is that 
I think it is in the interest of the United States to draw a 
bright line between those systems which are under the treaty 
and those systems which are not. So that I think the limit on 
both placing offensive missiles in defensive silos and the 
reverse is, in fact, in the interest of the United States.
    I noted that the continuing controversy over ballistic 
missile defense was disappointing. This is so because the 
Commission, which included many long time opponents of 
ballistic missile defense as well as many passionate advocates, 
reached a full consensus on that issue, one that is fully 
consistent with the treaty as well as the actions of the Obama 
administration and the recommendations it has made to the 
Congress. And I would ask that my written statement and 
attachment quoting from the committee--the Commission statement 
also be included in the record.
    Senator Shaheen. Without objection.
    Dr. Halperin. The committee not only strongly supported 
limited defenses, it clearly opposed defenses aimed at the 
Russian or Chinese missile force. And not only that, it warned 
against deployments that did lead Russia or China to believe 
that we were trying to affect their offensive military 
capability because it said that such actions would lead Russia 
or China to take actions, increase the size of their own 
strategic forces, that would increase the threat to the United 
States and its allies.
    So this statement, this policy proposal from the 
Commission, says deploy active defenses against Iran, against 
North Korea, but make sure you do it in a way that doesn't 
trigger Russian increases in their own offensive missile forces 
because that will reduce our security, whether it's in the 
treaty or not. And all the Russians have done is to say what 
the Commission said, which is if we deploy forces that, in 
fact, threaten their deterrent, they will respond by building 
larger offensive forces. That is not in our interest that they 
do that. And therefore, as the Commission recommended, we 
should very carefully design our ballistic missile defenses so 
that they don't seem to pose, or actually pose, that threat to 
Moscow. And I think the Russian unilateral statement and, 
therefore, what our own policy should be are very much the 
same.
    Now, let me say a final word, if I can, about two other 
issues that have been raised in the other testimony. First is 
the question of rail mobile missiles. As I read the treaty, it 
is not at all silent on that subject. It has a definition of 
both strategic offensive missiles and strategic offensive 
launchers, which clearly includes rail mobile systems. So they 
are covered by the treaty. They are prohibited by the treaty. I 
think no Russian could possibly believe that this treaty was 
written to put limits on offensive missiles but then say but if 
you put them on rails, they don't count. I don't believe there 
is anything in the legislative history to suggest that that is 
the case. And I think that the Senate can ratify the treaty in 
full confidence that rail mobile missiles are covered.
    Now, on the question of conventional prompt global strike, 
I think, as Secretary Edelman has conceded, that if we stay 
with numbers like 10 or 12 of these, which is what most people 
think is sufficient for the purposes that have been discussed, 
we can easily accommodate it within these numbers. If we go to 
much larger numbers of them, then we will need to design and 
build a new system. And my own view is that it is imperative 
that we build a system that isn't covered by the terms of this 
treaty, that isn't a strategic missile.
    And the administration is working on such a system because 
you do not want to fire, in my view, 50 missiles from the ICBM 
field in the direction that will--the Russians will not be able 
to tell is not an attack on them. That seems to me 
extraordinarily dangerous. There would be a very strong 
argument against doing that in a crisis. And we do not want to 
build a prompt conventional system that we then find that we 
can't use because it seems too risky. And the operational use 
of them on submarines, which are often out of communication 
range, also seems to me not the most effective system. So if 
the United States decided that it did need 50 or more of these 
systems, I believe it would build a new system which would not 
be covered by the strategic treaty.
    I am pleased to have this opportunity to testify. And, of 
course, I would be delighted to answer questions. Thank you 
very much.
    [The prepared statement of Dr. Halperin follows:]

Prepared Statement of Morton H. Halperin, Senior Advisor, Open Society 
                       Institute, Washington, DC

    Mr. Chairman, It is a great honor and privilege to be invited to 
testify again before this distinguished committee. I appear in support 
of the Senate consenting to ratification of the New START Treaty. I 
have no doubt that ratification is in the national interest and that 
the treaty will strengthen strategic stability between the United 
States and Russia and help the United States to secure the 
international cooperation it needs to deal with nuclear proliferation 
and the threat of terrorists gaining control of a nuclear weapon.
    My official involvement with these issues began in 1967 when, as a 
Deputy Assistant Secretary of Defense, I helped to develop the initial 
American positions for what became known as the SALT process. I also 
worked on strategic arms control matters in the Nixon and Clinton 
administrations. I am now the cochair of the advisory board of the New 
America Foundation Nuclear Strategy and Non-Proliferation Initiative. 
Perhaps most directly relevant to the evaluation of the New START 
Treaty, I served on the Congressional Commission on the Strategic 
Posture of the United States.
    As the committee knows, the Commission, composed of individuals 
with, to say the least, very divergent views on nuclear issues reached 
consensus on every issue but the CTBT. That consensus included very 
clear and precise recommendations on what we thought the next strategic 
arms control treaty should look like. The Obama administration clearly 
took those recommendations very seriously. The treaty now before the 
Senate conforms in every material way with the recommendations of the 
Commission. I thus support ratification for the same reasons that led 
me to join the consensus on the Commission.
    In short, I believe that the limitations placed on Russian and 
American forces will contribute to strategic stability and reduce the 
risk of unintended or accidental use of nuclear weapons by either 
nation. At the same time it will permit the United States to maintain a 
strategic arsenal which is more than sufficient to deter a deliberate 
attack on the United States or its allies and partners by Russia or any 
other state possessing nuclear weapons. It will also enable the United 
States to provide credible and effective nuclear guarantees to our 
allies and partners and will provide a framework in which we are much 
more likely to get the cooperation we need from other states to advance 
our nonproliferation objectives. As I will explain in a minute, I am 
confident that the provisions of the treaty can be verified.
    The Commission's final report placed the value of a new START 
treaty in the context of the importance of the overall political 
relation between the United States and Russia and explained the 
potential value of an arms control regime as follows:

          It may provide assurances to each side about the intentions 
        driving modernization programs. It may lend predictability to 
        the future of the bilateral relationship, a benefit of value to 
        the United States but also its allies and friends. U.S.-Russian 
        arms control can also reinforce the NPT.
          Moreover, at a time when the United States is considering how 
        to reduce nuclear dangers globally, it is essential that it 
        pursue cooperative, binding measures with others.

    The Commission was mindful, as was the administration, of how 
difficult it would be to reach agreement with the Russians on very 
large reductions in the nuclear arsenal of both sides. It, therefore, 
expressed its support for the framework agreed in early April 2009 
between Presidents Obama and Medvedev and offered this specific advice:

          In the effort to renew the U.S.-Russian arms control process, 
        the first step should be modest and straightforward. It is more 
        important to reinvigorate the strategic arms control process 
        than to strive for bold new initiatives. A mutual reduction of 
        operationally deployed strategic nuclear weapons in some 
        increment should be achievable. This first reduction could be a 
        modest one, but the objective should be to do what can be done 
        in the short term to rejuvenate the process and ensure that 
        strategic arms control survives the end of START I at the end 
        of 2009.
          Recalling that reductions in nuclear forces should proceed 
        only through bilateral agreements, the United States and Russia 
        should address limits on both launchers and warheads and 
        discuss how to adopt the comprehensive START verification 
        measures to any new commitments. Success in taking this first 
        step will help create the political will to proceed to follow-
        on steps on the basis of effective verification.

    The Obama administration followed this advice and the treaty 
achieves the modest but important objectives that the Commission 
envisioned. I urge the committee to report the treaty favorably. This 
treaty, reflecting as it does the recommendations of a bipartisan 
commission, should provide momentum to reestablish bipartisanship on 
strategic arms control treaties and policy.
    Although the treaty is limited in its scope, the administration has 
achieved the modest but important objectives identified by the 
Commission.
    The numerical limitations contained in the treaty will permit the 
United States to gradually reduce the number of deployed warheads and 
the number of launchers in its strategic arsenal over 7 years and in a 
manner that will allow the United States to maintain the triad of 
delivery systems with each leg contributing to stability and 
deterrence. The administration has ample time to make careful choices 
about which systems to reduce and to reach a posture that is more than 
sufficient for deterrence and assurance.
    Moreover, the administration's proposals to the Congress to 
modernize the nuclear infrastructure and to substantially increase 
spending to assure that the nuclear arsenal remains safe, secure, and 
reliable, also follows the recommendations of the Commission. If 
approved by the Congress, which I would also strongly urge you to do, 
the administration's proposed effort would assure that the nuclear 
forces of the United States remain equal to the tasks of deterrence and 
assurance.
    The committee has asked me evaluate the concerns that have been 
raised about the treaty. As I understand them, these concerns, in 
addition to doubts about whether Congress will fund the proposed 
improvements in the nuclear infrastructure, relate to verification and 
to ballistic missile defense.
    I will leave it to other witnesses to discuss the technical aspects 
of verification. Let me simply say that I have no doubt that Russian 
efforts at evasion have no chance of success at the level which could 
provide any advantage. With thousands of warheads and hundreds of 
delivery vehicles permitted under the treaty, the scale of any possible 
undetected cheating would have no impact on our security nor that of 
our allies and partners. The question of whether any arms control 
treaty is in the American security interest does not turn on whether 
there is a 100 percent assurance that the first violation can be 
detected on the first day. There can never be such an assurance. Rather 
one must ask, in light of the value to the United States of the 
limitations and monitoring in the treaty and the range of uncertainty 
about possible violations, whether the treaty is in the overall 
interest of the United States. That is the standard which informed the 
evaluation of the INF Treaty, START I, and START II, and the Moscow 
Treaty--all of which were overwhelmingly approved by the Senate--and it 
should be the standard for this very modest step.
    The BMD issue seems to have generated the greatest level of 
concern. I find this surprising and frankly somewhat disappointing. The 
New START Treaty simply does not limit the number of launchers the 
United States can deploy or otherwise constrain the ability of the 
United States to deploy ballistic missile defenses. Period. That should 
be the end of the discussion. The concerns expressed are that the 
preamble acknowledges the link between offense and defense, that the 
treaty bans placing BMD launchers in strategic missile silos, and that 
the Russians have asserted a right to withdraw from the treaty if they 
determine that American missile defense deployments threaten their 
deterrent.
    The statement in the preamble is nothing more than a statement of 
the obvious and a truth which the United States long urged on the 
Russians before they accepted it. The Russian unilateral assertion is 
nothing more than a restatement of what is in the treaty and what is 
obvious. No one could doubt that a Russian decision to deploy a very 
large ballistic missile defense force aimed at shooting down all of the 
American missiles that survived a Russian surprise first strike would 
lead the United States to carefully evaluate the adequacy of our 
offensive forces and to withdraw from the treaty if we determine that 
our supreme national interest requires such action. We should not be 
surprised if the Russians have the same view.
    As the committee well knows, the military and civilian leadership 
of the Department of Defense have assured the Senate that the Pentagon 
has concluded that placing defensive missiles in existing offensive 
silos is not cost-effective. The existing silos that were converted at 
Vandenberg, despite some early claims to the contrary by treaty 
opponents, have been grandfathered in under the treaty. In any event, 
there is nothing in the treaty to prevent the United States from 
building new missile defense launchers. So this constraint is of no 
significance.
    Moreover, it is in the interest of the United States to draw a 
bright line between those systems that are limited under the treaty, 
strategic nuclear warheads and delivery vehicles, and those that are 
not, i.e., missile defenses. Rather than seeing this demarcation as a 
constraint, a clear line between offenses and defenses ensures an 
unconstrained space outside the treaty for a robust missile defense 
effort.
    I noted that the continuing controversy over BMD was disappointing. 
That is so because the Commission, which included many long time 
opponents of ballistic missile defense as well as many passionate 
advocates, reached a full consensus on this issue, one that is fully 
consistent with the treaty as well as with the actions that the Obama 
administration has taken and recommended to the Congress. I have 
attached the short chapter on this subject from the Commission report 
to my statement and ask that it be made part of the record along with 
my prepared statement.
    The Commission strongly supported technically capable missile 
defenses against limited threats such as those that might come from 
Iran or North Korea, but it argued against any effort to deploy 
defenses directed at Russia or China, warning that ``the United States 
should ensure that its actions do not lead Russia or China to take 
actions that increase the threat to the United States and its allies 
and friends.'' It also urged renewed efforts to insure cooperation with 
Russia. It noted that:

          For more than a decade the development of U.S. ballistic 
        missile defenses has been guided by the principles of (1) 
        protecting against limited strikes while (2) taking into 
        account the legitimate concerns of Russia and China about 
        strategic stability. These remain sound guiding principles. 
        Defenses sufficient to sow doubts in Moscow or Beijing about 
        the viability of their deterrents could lead them to take 
        actions that increase the threat to the United States and its 
        allies and friends.

    The START Treaty and the policies of the Obama administration are, 
down to the last detail, fully consistent with that advice. The 
assertion that the treaty should be rejected because of a concern about 
BMD amounts to an unfounded assertion that this administration or a 
future one would fail to request funding for a ballistic missile 
program against a real threat from a third power because of a fear that 
Russia would use it as an excuse to withdraw from the treaty. This 
administration made clear where it stands when it resisted efforts to 
write additional limits on defense into the treaty and was prepared to 
walk away from the negotiations if necessary. I have no doubt that 
future administrations will act with similar regard to the nation's 
security.

    Attachment.

  America's Strategic Posture--The Final Report of the Congressional 
  Commission on the Strategic Posture of the United States--Chapter 3

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ambassador Edleman.  Madam Chairman, I think I neglected to 
ask for your permission to have the text of the formal 
statement I----
    Senator Shaheen. They will all be included in the record. 
Thank you very much.
    Ambassador Joseph, you made the point in your testimony 
that the United States and Russia should move beyond a cold war 
framework for arms control and that during the Bush 
administration there was a suggestion that we have less 
stringent counting rules and no need for clear verification as 
in the Moscow Treaty. But did I misunderstand that you--it 
sounded to me like you also were criticizing New START for 
having counting rules that are not stringent enough. So I 
wondered if you could just--did I misunderstand you, or can you 
clarify the difference in the two points that you were making?
    Ambassador Joseph.  My comments on the counting rules 
weren't meant to be a criticism. They were just meant to draw 
out the implications of what is in the treaty and what is not 
in the treaty.
    Senator Shaheen. But I--I guess I am trying to--so are 
the--are you comfortable that the counting rules that are in 
New START will be an improvement over not having any in the 
Moscow Treaty? Or do you think that--that we should go back to 
not having any?
    Ambassador Joseph.  Well, no, I think that the Moscow 
Treaty has basically the same counting rules as the New START 
Treaty. We are counting operationally deployed warheads. Now, 
there is one change. And that is in the bomber counting rule. 
And I did not mean to criticize that. It may be something that 
is positive for the United States, to have that flexibility 
because it is important, I believe, to have the bombers as a 
leg of the triad.
    But it is only going to provide the flexibility and the 
advantage to us if we modernize our bomber force. And right now 
that is very much in question. I don't know that we will 
modernize and we will go forward with a follow-on to ALCM. If 
we don't, we lose the B-52Hs as delivery platforms. I don't 
know that in the longer term we are going to modernize by 
having a new strategic bomber. These are questions, I think, 
that need to be dealt with because the answers affect how, I 
believe, the New START agreement needs to be assessed.
    Senator Shaheen. OK. Thank you. That is helpful. You also 
highlighted what you called gaps in the verification regime in 
the treaty. And do you believe that the verification procedures 
in the treaty, including resuming onsite inspections and 
providing unique identifiers for each weapon--are they more 
useful than the complete absence of these that we now have? Or 
do you think--not see them as comparable?
    Ambassador Joseph.  Senator? I am sorry for interrupting.
    Senator Shaheen. No, that is OK.
    Ambassador Joseph.  I think that the data exchanges and the 
onsite inspections are likely to provide useful information. 
And so, if the question is are we better off with those 
provisions than without those provisions, I think the answer is 
yes. But that has never been the standard for determining 
whether a treaty is verifiable. That is only one factor. We 
don't have the intelligence community's assessment yet as to 
whether the treaty is verifiable or not.
    And in terms of the gaps, I was pointing out gaps in the 
ability to monitor future developments in Russian strategic 
forces. Without an on-the-ground presence at Votkinsk and 
without the type of telemetry that we received under START I, 
we are less able to understand what the Russians are doing and 
will be doing in the future in terms of modernization. Now, 
that may or may not be a factor in the verifiability of the 
specific limits of the treaty. But it does undermine this 
notion of predictability and mutual confidence-building because 
we will know less about their modernization program.
    Senator Shaheen. Ambassador Edelman, you pointed out that 
there is no way to maintain a credible deterrent and reduce our 
stockpile without either testing our stockpile or modernizing 
it. Do you believe that the treaty has specific constraints on 
doing either of these?
    Ambassador Edleman.  No, ma'am, I was saying that the 
treaty needs to be considered in the broader context of the 
circumstance of our nuclear enterprise and our nuclear force. 
And I was--most of my remarks, actually, were a long quotation 
from Secretary Gates' speech to the Carnegie Endowment in 
October 2008. So I was really reflecting Secretary Gates' view.
    Senator Shaheen. And do you--are you concerned that the--
the modernization--the dollars that this administration is 
putting toward modernization are going to be inadequate? Is 
that what you are suggesting?
    Ambassador Edleman.  I do have a concern about that, which 
I hope this committee and the Armed Services Committee would be 
looking into carefully. I have seen the one-page White House 
press statement about the 1251 report which is a classified 
document. I think you all have it. I have not seen that, so I 
can't comment really in any granularity about the--the longer 
term program. But it--it does strike me that it seems to be a 
minimal add-on to the amount of money that Secretary Gates has 
offered from the Defense Department budget. And that, I don't 
think, is going to be sufficient for the real modernization of 
the complex.
    Senator Shaheen. And how does it compare to the dollars 
that were allotted under the previous administration? Can you 
tell us that?
    Ambassador Edleman.  Well, I mean, the--the previous 
administration had a different approach, which was not to 
pursue life extensions, but to pursue the RRW. And we were not 
successful in getting the funding from the Congress.
    Senator Shaheen. Thank you.
    Dr. Halperin, you pointed out in your testimony that the 
treaty could help with the future of the United States-Russian 
relationship. I wonder if you could talk a little bit about 
what you think the benefits of that would be.
    Dr. Halperin. Well, I think that the treaty--sorry. The 
treaty reestablishes a legally binding relationship between the 
two countries in terms of their nuclear arsenals and in terms 
of a set of verification procedures and commitments, for 
example, not to interfere with unilateral verification 
procedures that I think is important to have. It is, as has 
been said, something the Russians wanted. And I think it sets 
the framework which enables us to move ahead with other issues. 
We can have a debate about whether the Iranian resolution would 
have been even worse if we hadn't reached that agreement. It is 
clearly not everything we wanted. But I think it provides an 
important platform under which we can then engage the Russians 
on other issues that are important to our security and to 
theirs.
    Senator Shaheen. Thank you.
    Senator Lugar.
    Senator Lugar. Well, thank you, Chairman.
    Now, let me just note that many of us on this committee 
have cosigned a number of letters with regard to the adequacy 
of our deterrent. Secretary Gates has welcomed--back in 
September and October of last year subsequently, and I 
appreciate that that $5 billion more is being added, 
apparently. And Senator Inhofe will be able to help out on that 
on defense side, maybe add more. But there is a desire to make 
sure we have an adequate arsenal. And those reports are taken 
seriously.
    Now, I would just indicate that the treaty, as I think you 
have suggested, Dr. Joseph, does not get into the railway 
situation with regard to the SS-24. I would--would indicate, as 
I mentioned this morning, there are no more SS-24 rail mobile 
Russian missiles. And one reason is in the Nunn-Lugar program 
we got rid of all of them. They are gone. I think the statement 
is adequate, it covers historically where we stand. But 
nevertheless, I would just indicate that as we try to talk 
about this morning with verification and the particulars of 
that that one of the reasons why we have made considerable 
headway is that under the Cooperative Threat Reduction Program, 
which went on for several administrations, we were talking 
about maybe 1,500 warheads being left in the Russian situation. 
It was mentioned widely this morning that about 5,500 have been 
destroyed. And that is a good many more than most of us would 
have contemplated at the beginning of the Nunn-Lugar business.
    I would just say that one reason so many were destroyed is 
that when we had boots on the ground, we had DTRA people there, 
the Russians, as a matter of fact, did want to get rid of more 
and more materiel because it is expensive. And the problems of 
maintaining it or the risks of having it around were very 
considerable. My impression is they still do. One reason they 
have so little is because it costs a lot, and their budget has 
never been quite adequate for all of this.
    So I appreciate the need for trying to determine who is 
winning or losing in this proposition, but I would be very 
skeptical of suggesting that somehow whether this treaty may 
lead to a more adversarial relationship. I would--I would just 
say anecdotally that after I complete my question at about 10 
minutes to 4, I am committed to go to a meeting that Senator 
Reid has called and a few folks to talk to President Medvedev 
of Russia, who happens to be here in the building. My guess is 
that it will not be an adversarial meeting. He will probably 
ask when are you going to ratify the treaty. And we will raise 
the same with him. As a matter of fact, this is as basic for 
getting on with our relationships and getting to serious arms 
control talks with regard to the tactical missiles or various 
other aspects of this, which in my judgment are not going to 
occur without there being at least some structure for this to 
happen.
    I would just--I would just mention finally that this 
morning in our briefing in detail about the verification 
procedures there is no absolute way of knowing everything we 
need to know about Russia. But much of what we know about 
Russia, as you as veterans of the treaty all know, has come 
about sometimes inadvertently like some folks wandering around 
out there every year visiting with Russians as they opened up 
more and more situations.
    I can recall vividly, for example, being invited to 
Sermash, the submarine base. No American to my knowledge had 
been there before. And the only reason I was going is because I 
was in Russia and at the time they wanted somebody to talk 
seriously about how they were going to get rid of the Typhoon 
submarines, which had become very expensive for them and which 
they were six. And Tom Clancy's Red October stories of those 
submarines going up and down our coasts, the 200 nuclear armed 
missiles ship-shot from Philadelphia and New York all this 
time--whether we knew about it or not makes no difference. I 
went up there, and they would not allow me to take a picture 
standing in front of the Typhoon. But they took one and 
inadvertently sent it over to us. And it was the first time our 
intelligence people had seen something of that size. Right 
there.
    I would just say simply this was not covered by arms 
control. There was no arm twisting. And that has been the 
nature of the picture in a pragmatic way. So, you know, I 
appreciate the testimony of all three of you. And I am--I am 
sorry to get into philosophizing and anecdotes and the past. 
But it just seems to me that the bulk of what we were hearing 
from many persons is as a practical matter we had better get on 
with the job of serious negotiations with the Russians and see 
whether we can enlist them for the serious problems you have 
illustrated with North Korea, with Iran, with some other 
situations which really are very important and for the moment 
are not begging us for arms control talks.
    This is going to require considerable pressure by the two 
countries that have still 95 percent of the stuff left and 
therefore, whatever may be the intimidating factors to that. 
And so, I am hopeful that as we proceed through this, we retain 
really as practical a point of view. And I appreciate the 
calmness with which you have approached this and your--and I 
appreciate working with you over the years in terms of so many 
ways in which we have all tried jointly on behalf of the 
country.
    And finally, I would just say that I believe that 
eventually we will come to some conclusion on this treaty. I am 
not certain what the alternative is. Some have suggested, even 
in one of our hearings, that what we really ought to develop is 
a comprehensive missile defense system in which we shoot down 
everything that comes. That is an interesting Star Wars view 
and I think just as wild as it can be and not really a part, as 
I can see it, of any serious talk about arms control. But I 
take seriously anybody in these hearings who comes forward with 
any idea. I would hope, however, we would come to find our 
agreement--that there is no constraint, no constraint against 
our developing missile defense, despite the preamble statement 
and ramblings by Russians from time to time. The fact is if the 
Russians decide they don't want the treaty, they can walk away 
from it. And so can we. My view is that we both want the 
treaty. And the problem is sort of getting on with it so we 
have a better basis.
    Having exhausted all of my time, I will rest and not ask to 
get into an argument with any of you. But I appreciate your 
coming. Thank you.
    Senator Shaheen. Thank you, Senator Lugar.
    Senator Inhofe.
    Senator Inhofe. So you are leaving the argument to me. Is 
that it?
    Senator Lugar. Yes.
    Senator Inhofe. Let me first of all say that I understand--
I am sorry, Ambassador Edelman, I wasn't here during your 
testimony. I had to do a radio call before coming back from the 
vote.
    But I understand that, Dr. Halperin, you made a comment 
about this. I hope you don't think from any comments I made in 
my opening statement that I object to this. I have no objection 
to this. The fact, though, is that all of the--the--the blogs 
that were so critical of me came from John Isaacs, who 
contributed to this and is not--this is not--this is not his 
organization. I have no problem with this at all.
    And also, I am not saying that I owe either Ambassador 
Joseph or Ambassador Edelman an apology for my opening 
statements. But the fact is that the 17 witnesses prior to this 
meeting were all very pro-New START. And all four of the 
witnesses that we had in the Senate Armed Services Committee 
were also. My point is a hearing is not a hearing in something 
as significant as this until you have people that are very much 
opposed to it. And I believe that is healthy. I reference the 
Law of the Sea Treaty that was--we ended up with very healthy 
debating, confrontational hearings because it is--was a very 
significant one. And we, as you know, did not end up ratifying 
that.
    So--so I--I from some of the comments that you made, 
Ambassador Joseph, I agree with you some of the things. I think 
in terms of our--our delivery systems or, as I referred to it 
in my statements on the Senate floor, are force structures. We 
do have a problem. And we--we do--you commented about the B-52 
and the
B-2. The fact that we did have and authorized in our committee 
the next generation bomber, which was taken out 18 months ago 
in President Obama's first budget is something I think that one 
of the things that I had a problem with. I had other problems. 
The main problem I had was what they did with the ground-based 
site in Poland.
    Well, let me ask the two of you, if I could, the--you heard 
me in my opening statement refer to the numbers in the nuclear 
force structure, section 1251, retains--and we talked about the 
3 delivery ICBM, SLBM and then, of course, the aircraft. Four 
hundred and twenty of the ICBMs, sixty of the bombers. Now, we 
actually have more than that, but those that have--can be used 
for this purpose and then retaining the 240 SLBMs. Now, that 
adds up to 720. We are to get--bring that down to 700. Would 
either one of you have a specific answer as to how we get 
there? You probably don't. This is getting into the weeds, I 
know.
    Ambassador Edleman.  I think the most likely answer would 
be from the bomber wing of the triad. But I'd--I'd go back to 
what Ambassador Joseph said. One of the concerns I have is I 
think the 1251 statement says up to 60 bombers. I think there 
are 18 operational B-2s, which means about 42, by my count, B-
52Hs. But--but that 42 B-52H number of delivery platforms is, 
as--as Ambassador Joseph said, totally dependent on a follow-on 
to ALCM. And we could very easily find ourselves some time in 
the next couple of years with a bomber leg of the TRIAD that is 
only 18 B-2s. That would be a matter of some concern to me 
because, as the Schlesinger Commission reported--not the one 
that Ambassador Mort Halperin was on, but the one that 
Secretary Schlesinger did for Secretary Gates about the Minot 
episode--very strongly suggested that the bomber wing of the 
triad remains extremely important. It is--it is the one tool 
the President in the crisis has to signal. And it is the one 
set of nuclear weapons he has which are recallable. And so, I 
would be very worried that some of this comes out--to get down 
to the 700--out of the bomber leg.
    Senator Inhofe. OK. And I appreciate that. Ambassador 
Edelman, you also--in my absence my staff tells me that you 
said you did agree with Senator Inhofe on one point. But you 
didn't say what that point was.
    Ambassador Edleman.  I am not--I think it might have been 
on the--first of all, I don't mean to suggest that it is the 
only point on which I agree with you. But I think it was on the 
question of whether the launcher limits worked a hardship on--
on U.S. ability to provide the deterrent. I think that is what 
it was.
    Senator Inhofe. OK. That is--that is fine. One of the 
problems I have had, of course, is in the tactical area where 
we are out-manned about 10 to 1. And I have found a statement 
that was made--if I can find it here. Here it is--by Senator 
Biden at that time, 2003. That was Senator Biden. He said, 
``After entry into force of the Moscow Treaty, getting a handle 
on the Russian tactical nuclear weapons must be a top arms 
control and nonproliferation objective of the United States 
Government.'' Do the two of you agree with his statement at 
that time?
    Ambassador Joseph.  Senator, I have for a long time thought 
it was necessary to get a handle on the great disparity in so-
called nonstrategic nuclear weapons. Every time I hear the term 
nonstrategic nuclear weapons, I recall that no nuclear weapon 
is nonstrategic.
    Senator Inhofe. OK.
    Ambassador Joseph.  This notion of a nonstrategic nuclear 
weapon is one that is derived from the old arms control 
dialogue. It is a total artificiality. It relates to the 
inability to count these weapons in the past and to verify 
them. And when we had thousands and thousands of strategic 
weapons, it was kind of OK to put them off to one side as a 
convenience. But I have never thought of them as nonstrategic. 
I imagine a short-range nuclear weapon going off anywhere, and 
the consequences would be fundamentally strategic.
    Senator Inhofe. Yes, sir.
    Ambassador Joseph.  We have not been able to get a handle 
on those. In 2002, the Bush administration was criticized for 
the Treaty of Moscow by a number of Members of the Senate for 
not getting a handle on those. This treaty does not get a 
handle on these so-called tactical nonstrategic theater--call 
them what you will--just don't call them strategic. I think we 
very much need to because the importance of this category of 
weapons has gone up as the number of strategic weapons has gone 
down. In 2002, we were talking about 6,000 weapons under START 
I. Now we are below 2,200. The great disparity in this category 
of weapons, which gives the Russians an 8 to 1 or 10 to 1 
advantage--I am not entirely sure what the numbers are--is 
clearly important. And to me it raises the possibility for the 
first time--for the first time since the Kennedy 
administration--we are at risk of sacrificing or changing a 
fundamental policy which was a set--a nuclear posture second to 
none. I think we are approaching a nuclear posture second to 
one.
    Senator Inhofe. To none. All right, that is very good. I 
know my time is expired. But if it is--if it is----
    Senator Shaheen. Actually, I would prefer if we could go 
on. I also have to leave, and we have two more people to ask 
questions. So thank you.
    Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    First of all, let me say that I have the highest regard for 
our ranking member's view of all of these things. And he 
mentioned the fact that there has been discussion about the--
there has been a lot of discussion about our ability and our 
fortitude to defend ourselves from incoming missiles. And 
certainly, I think the consensus is that--that it would be 
really impossible to develop a full umbrella where you could 
stop everything coming in everywhere. But on the other hand, I 
think if we ignored our own peril, having some type of a 
missile defense system, not as much as from Russia as from the 
other rogue nations who threaten us, we do so really at our own 
peril. And while we are about it, it seems to me that even 
though you could not put a full umbrella up, as technology 
develops, we could strategically protect military 
installations, the seat of government, the largest populations 
in our country. And we have a real disagreement with the 
Russians on that. And I--one of the things I am troubled with--
with all this is that we do not have an agreement. We have a 
disagreement. And so, I mean, how do you vote for an agreement 
when it is, in fact, a disagreement?
    So I have--I have maintained reservations about the treaty 
in that regard. And I continue to--to do so. But--but we have 
moved on, it seems like, to some other subjects. And so, I 
would like to get--this is only my second year on the 
committee. And I find it stunning, absolutely stunning that we 
have not had a compliance report since 2005. I mean, I do not 
get it. Now, the law of the United States, as I understand it, 
is this committee is supposed to be provided with a compliance 
report annually. And we have not had one since 2005. Yet I am 
being asked to exercise the constitutional requirement that I 
have to say ``yea'' or ``nay'' to this treaty. And I do not 
know how much cheating has gone on for the last 5 years. So I 
would kind of like to get each of your views briefly because I 
think we are going to have a vote here pretty quick. But I 
would like to get each of your views briefly as to why or what 
you make of the fact that we have not had a compliance report 
and we are operating here in the dark.
    Ambassador Edleman.  Senator, I was in the Department of 
Defense from 2005 to 2008, so--and those reports are normally 
prepared in the Department of State. So I--to be quite honest 
with you, I do not have an answer for you on why they have not 
been done.
    Senator Risch. Well, do you share my concern about this?
    Ambassador Edleman.  Yes.
    Ambassador Joseph.  Senator, I was in the Department of 
State. And--from 2005 to 2007. And I did periodically ask why 
the compliance reports--because I think they are--we are 
obligated to provide those on an annual basis--why we were 
having so much difficulty getting those reports to the Senate. 
And the answer kept coming back each time--it was--it was the 
interagency. Not a very good answer, but I think it probably is 
the correct answer. The process just could not deliver what was 
required under the report.
    Senator Risch. Well, it is only the law.
    Ambassador Joseph.  I agree, Senator.
    Senator Risch. Ambassador Halperin.
    Dr. Halperin. I have no insight on that, Senator.
    Senator Risch. Madam Chairman, that is all I have. Thank 
you.
    Senator Shaheen. Senator DeMint.
    Senator DeMint. Thank you, Madam Chairman. I want to thank 
the witnesses today. But, frankly, I am--I am almost stunned 
that anyone in this Senate would accept as an impossibility 
that America with our technology and what we have seen change 
in technology over the last several decades--would accept that 
we could never develop a missile defense system that could 
shoot down multiple missiles. With what is happening in laser 
technology, with electromagnetic fields, with--it is just hard 
for me to believe that we would accept indefinitely this idea 
that we have to be vulnerable to missile attacks. So that part 
of the whole equation of this is--is still unacceptable to me.
    But I would like to ask Ambassadors--Mr. Joseph and Edelman 
about negotiating records. And I think you have been--you have 
received negotiating records for--for antiballistic missiles, 
the ABM Treaty, Intermediate Range Treaty. I would just like to 
get a little bit of details on that because, as my colleagues 
says here, this is more of a disagreement than an agreement as 
far as what is being said about the treaty right now. And if it 
is just something where if they do not like it, they get out 
and we do not like it, we get out, that does not sound like a 
whole lot to me. That does not sound really worth our time.
    But since there have been conflicting reports about what 
has been promised, it would appear to be helpful in our 
decisionmaking to see what was said at the negotiating table. 
Is this unprecedented for us to ask for the negotiating 
records?
    I will start with you, Mr. Edelman.
    Ambassador Edleman.  No, it is certainly not unprecedented 
to my knowledge. I was not involved in some of the earlier 
negotiations. Ambassador Joseph may be more expert on this. But 
I would think in particular on some of these disputed issues it 
would be helpful for the Senate to have the negotiating record 
in--in understanding what actually occurred.
    For instance, on the issue of--of rail-mobile, which 
Senator Lugar addressed and my colleague addressed in some 
detail in his statement and Mort Halperin addressed, I think 
the view that Mort expressed in his testimony is undoubtedly 
the administration view, as Secretary Miller testified to and 
the view that the United States would put forward. We do know 
from statements that have been made by senior Russians, 
including General Gagarin, the deputy of the strategic rocket 
forces, the commander, that the Russians have an interest, 
again, in rail-mobile. They have taken down all the SS-24s that 
Senator Lugar said. But they are interested in pursuing this in 
the future.
    There is at least an interpretation of--of the treaty that 
it--that they do not ever enter into accountability because at 
Russian request the definitions for rail-mobile were deleted 
from the treaty. So I think it would be illuminating in the 
first instance for the members to get the negotiating record, 
find out what exactly happened, what were the discussions, why 
was it not included, why weren't the definitions carried over 
from--from START I, as just one example.
    I would give another example--the limits on missile defense 
in article 5, section 3. Mr. Halperin said that, as 
administration witnesses have said, that those are not 
important limits or not very significant limits. But they are 
still limits. And it accedes to the principle that in these 
negotiations, missile defense can be limited, where we can put 
them, how we do it. I would like to see, if I were in your 
shoes, the negotiating record on that, in part because Alexi 
Arbatov, a very senior Russian expert on arms control, has said 
that this limit was specifically put into the treaty at Russian 
request. Well, if the United States in the course of these 
negotiations made that concession to Russia, I think the 
members of the Senate ought to know what we got for it.
    Senator DeMint. Ambassador Joseph, do you agree with that 
assessment?
    Ambassador Joseph.  Senator, I do. I think it is 
appropriate. And I think it is necessary in some cases for the 
Senate to have access to the record in order to have a full 
understanding of what the provisions are and what the 
implications are. And as my colleague said, you know, what did 
we get for the types of concessions that we made, other than 
the treaty? I mean, maybe that is the answer. We got a treaty. 
But I think exploring the negotiating record is something that 
would be very useful.
    Senator Inhofe. Could I mention something? We made that 
request already. But the Armed Services----
    Senator Shaheen. Senator, would you like to yield some of 
your time to Senator Inhofe?
    I am sorry. We are on a tight schedule. And I apologize for 
that.
    Senator DeMint. I appreciate the Senator's comments there. 
He can add any he would like. So--but let me, since I am 
running out of time, just one other issue. I think implicitly 
the treaty accepts the idea that these are two--the United 
States and Russia are two superpowers agreeing to parity as far 
as nuclear missiles. As I look at the size of our economies, 
our role in the world, again, it is another assumption that is 
very difficult for me to accept. The United States is a 
protector of many and a threat to none. Russia is a protector 
of none and a threat to many. Over 30 countries count on us.
    Yet we are bringing our--offensive capabilities down to the 
Russian level and in the process agreeing not to develop a 
missile defense system that is capable of threatening that 
offensive capability. The only flexibility we have with missile 
defense is to develop a system that does not threaten Russia. I 
mean, that is clear from the hearings with Secretary Clinton 
and Gates. It is clear from the treaty. But this concept of--of 
parity with a third world economy that is--is using its energy 
to extort power from other countries--again, something that 
seems absurd to me at this time for the United States to accept 
a parity role with Russia.
    Am I way off base? Does it make sense for us to agree to 
this? To me that seems like a destabilizing concept. It seems 
like it is going to send a number of our allies that depend on 
our umbrella of protection into the mode of developing their 
own nuclear weapons. And again, Ambassador, one of you?
    Ambassador Joseph.  Senator, my skepticism is that we 
continue to apply cold-war approaches in our relationship with 
Russia. And to me that plays to the worst instincts of Russia 
because they see parity as sort of restoring their superpower 
status. But they see it in the context of the United States 
being the adversary. I think that a better way to improve our 
relations with Russia--and I am an advocate of that--is to 
focus on those areas where we have common interests, such as 
stopping a terrorist acquiring a nuclear weapon, such as 
working together as nuclear energy expands, but to do that 
together in a way that limits access to reprocessing technology 
or enrichment technology.
    I think working together in other areas will build 
confidence and will build trust in our relationship. There are 
always going to be difficulties in the United States-Russian 
relationship, at least in the near and mid-term. I mean, 
Georgia is--is a clear indication of that. But we can establish 
a non-cold-war-type relationship. But when we continue the 
practice of cold-war arms control, I think we move in the wrong 
direction.
    And--and when we talk about the terms of the treaty--the 
rail-mobile issue has been raised a couple of times. I raised 
it in my prepared statement. The problem with the treaty is 
that it is ambiguous. And these ambiguities will play out in 
different forms in the bilateral consultative commission in 
this case, and will continue to undermine confidence. It will 
continue to create problems.
    I think this is a--a terrific opportunity for the Senate to 
clarify this issue, to take away the ambiguity--because the 
ambiguity exists. And we can have our interpretation, and they 
can have a different interpretation. That is not the sort of 
treaty that you want to sign, it seems to me. We need to have 
precise and clear obligations. And both parties need to agree 
to that.
    Senator DeMint. Thank you for your indulgence, Madam Chair.
    Senator Shaheen. Thank you, Senator. Again, I apologize 
because I have to leave. So we are going to have to close this 
hearing. But we will----
    Senator Inhofe. May I ask a question of the Chair?
    Senator Shaheen. Let me just finish my point. We will leave 
the record open for questions until Monday. And hopefully that 
will allow any further questions to be done. Did you have a 
final point, Senator Inhofe?
    Senator Inhofe. No, that would be--that was my request.
    Senator Shaheen. Thank you.
    Senator Inhofe. Thank you.
    Thank you to the witnesses.
    Senator Shaheen. Again, thank you very much to all of our 
witnesses.
    [Whereupon, at 4:05 p.m. the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


      Prepared Statement From the Partnership for A Secure America

    Nuclear arms control is a critical pillar of America's national 
security. Negotiated agreements to reduce the threat posed by the Cold 
War nuclear arms race have always enjoyed strong bipartisan support in 
the U.S.
    In 1982, President Reagan proposed that the U.S. and the Soviet 
Union reduce their nuclear arsenals by thousands of warheads each. This 
proposal became the basis for the 1991 START I treaty. Since that time, 
every U.S. President, in concert with Russia, has advanced President 
Reagan's legacy through steady and prudent reductions of the world's 
two largest nuclear arsenals, including the 2002 Treaty of Moscow, 
signed by Presidents Bush and Putin.
    On April 8, 2010, Presidents Obama and Medvedev signed the new 
START treaty, agreeing to further reduce both sides' arsenals and bring 
into force a new regime for inspections and verification. This was a 
necessary and appropriate step toward safeguarding our national 
security. Without the new START, the U.S. has no legally binding 
ability to conduct inspections of Russia's nuclear arsenal, and would 
be a in a far weaker position to lead the world in stopping nuclear 
proliferation.
    Now is the time for a thorough and balanced national discussion 
about nuclear arms control and proliferation. But we must remember that 
a world without a binding U.S.-Russian nuclear weapons agreement is a 
much more dangerous world.
    We, the undersigned Republicans and Democrats, support the new 
START treaty because we believe that it:

   Enhances stability, transparency, and predictability between the 
        world's two largest nuclear powers, which together possess 
        about 95 percent of the world's nuclear weapons;
   Contains verification and inspection measures essential to U.S. 
        national security and nuclear threat reduction as it relates to 
        Russia's strategic nuclear weapons;
   Addresses our Nuclear Nonproliferation Treaty (NPT) obligations and 
        therefore assists in gaining cooperation from other countries 
        on key nonproliferation priorities;
   Helps strengthen broader U.S.-Russia cooperation, which is 
        important in responding to proliferation challenges from Iran 
        and North Korea;
   Does not inhibit our ability to maintain an effective and reliable 
        nuclear arsenal; and
   Does not constrain our ability to develop and deploy missile 
        defense systems.

Madeline Albright, Secretary of State 1997-2001
Howard Baker, U.S. Senator (R-TN) 1967-85
Samuel Berger, National Security Advisor 1997-2001
Linton Brooks, Administrator, National Nuclear Security Administration 
        2002-2007
Harold Brown, Secretary of Defense 1977-81
Frank Carlucci, Secretary of Defense 1987-89
Warren Christopher, Secretary of State 1993-97
William Cohen, Secretary of Defense 1997-2001
John C. Danforth, U.S. Senator (R-MO) 1977-95
Kenneth M. Duberstein, White House Chief of Staff 1988-89
Chuck Hagel, U.S. Senator (R-NE) 1997-2009
Lee Hamilton, U.S. Congressman (D-IN) 1965-99, Co-Chair, PSA Advisory 
        Board
Gary Hart, U.S. Senator (D-CO) 1975-87
Rita E. Hauser, Chair, International Peace Institute
Carla Hills, U.S. Trade Representative 1989-93
Nancy Kassebaum-Baker, U.S. Senator (R-KS) 1978-97
Thomas Kean, Governor (R-NJ) 1982-90, 9/11 Commission Chair
Richard Leone, President, The Century Foundation
Donald McHenry, U.S. Ambassador to the UN 1979-81
Sam Nunn, U.S. Senator (D-GA) 1972-96
William Perry, Secretary of Defense 1994-97
Thomas Pickering, Under Secretary of State 1997-2000
Colin L. Powell, Secretary of State 2001-05
Warren Rudman, U.S. Senator (R-NH) 1080-92, Co-Chair, PSA Advisory 
        Board
Alan Simpson, U.S. Senator (R-WY) 1979-97
George Shultz, Secretary of State 1982-89
Theodore Sorensen, White House Special Counsel, 1961-63
John Whitehead, Deputy Secretary of State 1985-88
Timothy E. Wirth, U.S. Senator (D-CO) 1987-93
Frank Wisner, Under Secretary of State 1992-93


       MAINTAINING A SAFE, SECURE, AND EFFECTIVE NUCLEAR ARSENAL

                              ----------                              


                        THURSDAY, JULY 15, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:55 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Casey, Kaufman, Lugar, Corker, 
Isakson, and Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Thank you all 
for being so orderly already. And we welcome you to this, which 
will be the last public hearing on the subject of the New START 
Treaty.
    I'm very pleased to welcome the directors of our Nation's 
three nuclear weapons laboratories. Together, our three 
witnesses today are responsible for maintaining the safety and 
reliability of our deterrent forces. That's a task that 
requires not only a significant commitment to our Nation's 
defense, but also the highest degree of scientific knowledge 
and technical skill.
    We're very fortunate that this responsibility has fallen to 
the three dedicated professionals who are here this afternoon, 
and we thank you for your commitment and careers.
    I said this is the last. I might just comment this is the 
12th hearing that we've held on the New START Treaty. We've 
scrutinized the text of the treaty. We've scrutinized the 
protocol, the three technical annexes. We've reviewed the 
National Intelligence Estimate on the agreement, a State 
Department report on verifiability, and an analysis of Russian 
compliance with past arms control agreements. We've heard from 
20 witnesses from across the ideological spectrum, some more 
than once. As Henry Kissinger said, ``The hearing process has 
been not just bipartisan, it has been nonpartisan.''
    Throughout the process, one thing has become clear: The New 
START Treaty will make a vital contribution to American 
security. It will limit the number of nuclear weapons deployed 
by the United States and Russia. It will give us flexibility 
about how we meet those limits. Its verification provisions 
will deepen our understanding of Russia's nuclear forces, and 
perhaps most important, it will strengthen our efforts to 
prevent the spread of nuclear weapons to rogue states and 
terrorists.
    Support for the New START Treaty has, frankly, been 
overwhelming, from both Republicans and Democrats. In our first 
hearing, James Schlesinger called ratification, ``obligatory.'' 
James Baker said that New START is an important part of our 
efforts to strengthen the nonproliferation regime. And Stephen 
Hadley, George W. Bush's national security advisor, said that 
we need to see this treaty in the context of a 20-year effort 
spanning administrations of both parties.
    Those same points were made again, 2 weeks ago, when 30 
high-ranking former officials released a letter calling for 
ratification. That prestigious group included four former 
Secretaries of State, four former Secretaries of Defense, and 
the chair and vice chair of the 9/11 Commission. Many of the 
signatories, like George Shultz, served in the Reagan 
administration. Their participation reminded us that the 
process of strategic reductions supported by intrusive 
verification is one of President Reagan's greatest legacies. 
That legacy has always garnered strong bipartisan support in 
the U.S. Senate. The INF Treaty, the original START Treaty, the 
Moscow Treaty were all approved by overwhelming majorities.
    But, this committee, I'm pleased to say, and appropriately, 
has not offered its support automatically. We've asked tough 
questions. We've perused the record and demanded accountability 
from the negotiators, and I think we've gotten answers to the 
questions that we've asked.
    Now, at first, some members, and some others, expressed 
concern that the treaty's verification provisions were not as 
stringent as those in the original START Treaty. But, we have, 
in fact, learned that this treaty includes new tools, like 
unique identifying numbers for all delivery vehicles. Its 
inspections will allow for new information, such as the number 
of warheads on each missile, which will be subject to 
inspection. And, of course, the treaty's verification 
provisions are, in fact, far more than what we have now, today, 
as we sit here, which is nothing, because the original START 
Treaty has expired.
    There's also been concern that the treaty limits our 
missile defense options. This has been a frequently raised 
issue. I think we've pressed our Nation's top military 
officials on this issue, and I know that their response has 
been unanimous. This treaty does not, and will not, constrain 
missile defense in any meaningful way. The United States will 
continue to develop and deploy defenses, as we choose to, 
against possible attack from states like North Korea and Iran, 
and, were we to choose to, even against the potential of an 
attack from Russia or some other country.
    Anyone who opposes this treaty because of alleged 
restrictions on missile defense needs to explain why their 
particular military judgment is better than that of the general 
in charge of the Strategic Command, better than the general 
directing the Missile Defense Agency, better than the Chairman 
of the Joint Chiefs of Staff, better than the Secretary of 
Defense--who was, after all, appointed to that position by 
George W. Bush originally.
    Today, we're going to discuss a final issue that has been 
raised. How do you ensure that the weapons that we retain under 
the treaty are adequately maintained so as to maintain 
America's deterrence? As our colleague Senator Kyl wrote in the 
Wall Street Journal last week, the New START Treaty should be 
considered within the context of our overall nuclear weapons 
policy, including funding for the nuclear infrastructure. I 
agree with that. But, as these issues are interrelated, you 
have to move forward on both of them together.
    The President has requested $80 billion over the next 10 
years to maintain our nuclear weapons and modernize the nuclear 
complex so that we preserve our nuclear deterrent for as long 
as we need it. Eighty billion dollars is a significant 
investment, folks, representing a 15-percent increase over 
baseline spending even after accounting for inflation. That's 
an additional $1 billion per year to guarantee the 
modernization program.
    Linton Brooks, who served President George W. Bush as head 
of the National Nuclear Security Administration, has said that 
he would have killed for a budget like this.
    I'd like to assure our witnesses that killing will not be 
necessary. [Laughter.]
    But, now we need to move ahead on the New START. If we 
don't, we will set back the cause of American nuclear security 
and, frankly, harm our own efforts, with respect to 
proliferation, that are very real now, in terms of Iran, Iran 
sanctions, and where we will be, come September, at the United 
Nations meetings at that time.
    This treaty, in my judgment, marks an important step 
forward toward safety in a world that is threatened by rogue 
states and terrorists with nuclear ambitions. As Dr. Kissinger 
said, ``This committee's decision will affect the prospects for 
peace for a decade or more.''
    Our witnesses today are responsible for maintaining the 
health of our nuclear arsenal. Dr. Michael Anastasio is the 
director of Los Alamos National Laboratory. Dr. George Miller 
is the director of Lawrence Livermore National Laboratory. And 
Dr. Paul Hommert is the director of Sandia National 
Laboratories.
    Gentlemen, it's an honor to have all of you here today, and 
we look forward to your testimony.
    I might add that we will enter into the record the 
testimony of Linton Brooks, whose appearance before the 
committee was canceled at the time that the Senate marked the 
death of Senator Robert Byrd earlier this month.
    [The statement referred to follows:]

           Prepared Statement of Ambassador Linton F. Brooks
                        on the New START Treaty

    Thank you for the opportunity to provide this committee with my 
views on the New START Treaty. Although those views are informed by my 
government service, especially as negotiator of the START I treaty, I 
am appearing as a private citizen and my views do not necessarily 
represent the views of any organization with which I am affiliated.
    I first testified before this committee in support of an arms 
control agreement almost 20 years ago. Then as now, the country 
benefited greatly from the committee's careful scrutiny of both the 
benefits and drawbacks of each agreement. As you carry out your 
consideration of New START, I want to encourage you not to evaluate it 
by cold-war standards. During the cold war, we wanted to constrain the 
arms race--thereby saving money--and to improve stability in a crisis 
by encouraging a shift away from ICBMs with multiple warheads.
    Neither of these objectives is appropriate today. There is no arms 
race to cap and thus no savings to be had. Improving stability in a 
crisis is still an important goal and I would prefer that this treaty 
encourage such stability. Conditions in Russia, however, preclude 
massive restructuring of their strategic forces no matter what arms 
control says. Thus, the two sides agreed at the onset of the New START 
negotiations that each would be free to structure its forces as it sees 
fit. This is consistent with the views of the last administration as 
well.
    Instead of using a traditional cold-war standard, I believe the 
Senate should evaluate the degree to which New START fulfills the 
following four objectives:

   First, reduce suspicion and avoid misunderstanding through 
        increased transparency and predictability. Transparency leads 
        to predictability and predictability leads to stability. Here I 
        believe New START breaks new ground. In cold-war treaties, we 
        limited verification provisions to those necessary to verify 
        formal treaty limits. New START provides some exchanges purely 
        for transparency. For example, it assigns a unique identifier 
        to each nondeployed system and provides for an exchange of data 
        on the movements and locations of those systems, even though 
        there are no numerical limits on nondeployed missiles. The most 
        important example, however, is the agreement to exchange 
        telemetry data on up to five ballistic missile launches a year, 
        even though such data is not needed to verify any treaty 
        limits. The treaty states that this exchange ``is designed to 
        help forge a new strategic relationship of the Parties.''
   Second, improve the overall political relationship with the Russian 
        Federation. The ability to work together on a complex issue 
        helps advance the administration's aim to ``reset'' relations 
        with Russia. It will be some time before we know the degree to 
        which relations have improved and we may never know how much 
        credit for any improvement goes to New START. I suspect that 
        the record of cooperation will be mixed. For example, some will 
        see the recent Russian support for a United Nations Security 
        Council resolution imposing additional sanctions on Iran as an 
        example of improved cooperation, while others perceive the 
        sanctions as of limited effect and a sign that true Russian 
        cooperation has not yet arrived. But it seems clear, as former 
        Secretary of Defense Schlesinger told this committee, that 
        failure of the United States to ratify New START would deal a 
        serious blow to United States--Russian relations and thus to 
        our ability to work together on important international 
        security issues.
   Third, increase international support for nuclear nonproliferation 
        and for measures to counter nuclear terrorism by demonstrating 
        a renewed emphasis on arms control and disarmament. No one 
        believes that states like Iran or North Korea will change their 
        behavior because of New START ratification, but the 
        administration hopes other nonnuclear states will be willing to 
        take stronger actions to counter proliferation and to thwart 
        nuclear terrorism now that the United States has reburnished 
        its disarmament credentials. While I hope that the 
        administration is right, and while their arguments are 
        plausible, evidence that this will actually happen is lacking. 
        It is certainly true that some states tell us they are 
        unwilling to adopt the IAEA Additional Protocol or to convert 
        research reactors from use of highly enriched uranium because 
        we are not meeting our disarmament obligations under Article VI 
        of the Nuclear Nonproliferation Treaty. It is unclear if these 
        are reasons or excuses. Ratification of New START will let us 
        call their bluff and take away excuses for inaction.
   Finally, take tangible steps toward the elimination of nuclear 
        weapons. While I am a skeptic about both the feasibility and 
        the desirability of nuclear abolition, it is a stated U.S. 
        policy. The first step is obviously reductions in the arsenals 
        of the two largest nuclear powers. Because abolition cannot 
        happen for decades (if ever), I do not believe that it is 
        necessary to support abolition in order to favor New START.

    The only treaties in which the United States gets absolutely 
everything it wants are the kind signed on the deck of the Missouri to 
end a war. The committee and the Senate will need to consider possible 
shortcomings as well as possible advantages of New START. In doing so, 
it will wish to consider several concerns raised by thoughtful 
observers. I believe the following are the most significant:

   A concern that the verification procedures and the transparency 
        they provide are less than those available under the now 
        expired START I Treaty. It is important to distinguish between 
        provisions needed to verify adherence to the limits of the 
        treaty and those designed to enhance transparency. Because the 
        Soviet Union appeared bent on a major buildup, START I had a 
        number of subsidiary limits designed to prevent circumvention. 
        Verifying those limits provided a good deal of useful 
        transparency. But in an era of reductions, these limits are no 
        longer required. Thus, New START has only three numerical 
        limits, on launchers, missiles and warheads. While the Senate 
        will need to study the recently submitted monitoring NIE and, 
        once it has been submitted, the verification assessment, I 
        believe it is virtually certain it will find the treaty 
        effectively verifiable. With respect to transparency, some of 
        what was possible under the original START Treaty (monitoring 
        production of mobile missiles, for example) is not provided for 
        in New START. But I believe the correct comparison is not with 
        what was available under START I but with what is available 
        today with no treaty regime, no data exchange and no 
        inspections.
   Another concern, that New START may limit U.S. ballistic missile 
        defenses. The only explicit provision in this area is a ban on 
        converting ICBM or SLBM launchers to launchers for ballistic 
        missile defense. It is unfortunate that the administration 
        allowed the perception that there would be no provisions 
        outside the preamble, but such conversions would be a bad idea 
        and banning them has no impact on our ability to field 
        effective ballistic missile defenses. When New START was 
        signed, the Russians made a unilateral statement that 
        significant improvements in U.S. defenses would justify their 
        withdrawal under the supreme national interest clause. This has 
        no legal effect and is an obvious effort to pressure the United 
        States. The Soviets made a similar statement to me about START 
        I in June 1991. We ignored it in 1991 and should ignore it now. 
        The Senate might consider language in the resolution of 
        ratification making it clear it rejects such an attempt to 
        pressure the United States.
   A third concern, that the treaty doesn't cover so-called Russian 
        tactical nuclear weapons.  Such weapons are of particular 
        concern to some of our NATO allies. The Administration plans to 
        include all nuclear weapons, including Russian tactical 
        weapons, in future negotiations, although that may be 
        difficult. While I think it is unwise and inappropriate to 
        dictate details of U.S. negotiating strategy in advance, the 
        Senate may wish to use the resolution of ratification to make 
        explicit its expectation that such weapons will be dealt with 
        in any future treaty.
   Finally, many in the Senate are concerned about funding for the 
        nuclear weapons enterprise.  I share that concern. The FY 2011 
        President's budget, if enacted, will provide a dramatic 
        improvement, provided the increased funding is sustained in the 
        future. I understand the administration has been forceful in 
        supporting the weapons budget. The Senate should be equally 
        forceful in working with House appropriators to ensure adequate 
        funding for the nuclear weapons enterprise. Further, the 
        Congress should be prepared to accept additional increases in 
        the future if required. An important component of the 
        President's budget is funding for two major new nuclear 
        faculties: a Uranium Processing Facility in Tennessee and a 
        plutonium laboratory in New Mexico. Large, complex, one-of-a-
        kind nuclear facilities often experience cost growth. While the 
        Congress should insist on sound construction management, if 
        cost growth occurs, Congress should work with the 
        administration to provide additional
        funds so that necessary weapons science and stockpile 
        stewardship are not threatened.

    Each Senator must decide whether the benefits of New START overcome 
any concerns. In my view, the benefits--especially transparency and the 
improved political relationship with Russia--are significant, while the 
concerns are of limited importance. Thus, my professional judgment is 
that U.S. security would be best served by the Senate providing its 
advice and consent to ratification.

    The Chairman. And I'd also like, if there is no objection, 
to enter into the record a letter I received yesterday from 
Secretary Shultz and from our former colleague Senator Sam Nunn 
in which they both strongly endorsed the New START Treaty and 
called for its swift ratification.
    [The letter referred to follows:]

                                  Nuclear Security Project,
                                     Washington, DC, July 14, 2010.
Hon. John F. Kerry,
Chairman, U.S. Senate Committee on Foreign Relations,
Washington, DC.
    Dear Senator Kerry: The potential use of nuclear weapons is one of 
the gravest dangers the world faces. Working with former Secretary of 
State Henry Kissinger and former Secretary of Defense Bill Perry, we 
have called for U.S. leadership to help build a solid consensus for 
reversing reliance on nuclear weapons globally as a vital contribution 
to preventing their proliferation into potentially dangerous hands, and 
ultimately ending them as a threat to the world. One important step 
involves the renewal of nuclear arms talks between the United States 
and Russia and the conclusion of the New START Treaty, signed by 
President Barack Obama and President Dmitry Medvedev on April 8, 2010, 
in Prague.
    We commend you for your leadership in scheduling hearings over the 
past two months in the Senate Foreign Relations Committee with a 
distinguished group of administration officials, former officials, and 
experts, and for your thorough and expeditious review of the New START 
agreement. Secretary Kissinger and Secretary Perry have both testified 
before the Senate in support of the New START agreement. In his 
testimony, Secretary Perry concluded that the New START Treaty ``is a 
clear signal that the United States is serious about carrying out our 
responsibilities under the Nuclear Non-Proliferation Treaty'' and 
``improves strategic stability between the United States and Russia.'' 
Secretary Kissinger stated, ``The treaty, with its inspection and 
verification regime, is a significant confidence-building measure that 
may help lay the foundation for more constructive U.S.-Russia 
relations.'' In other expert testimony, former Director of Central 
Intelligence, Secretary of Defense and Secretary of Energy James 
Schlesinger stated, ``It is obligatory for the United States to 
ratify'' New START.
    The two of us also want to make clear our support for New START and 
express our hope that the Committee can now move expeditiously with 
their report and a vote recommending New START for consideration by the 
full Senate. We recognize the importance of the Senate giving full 
consideration to the related hearings held by the Senate Armed Services 
Committee and the Senate Select Committee on Intelligence.
    We strongly endorse the goals of this Treaty--to achieve a near-
term reduction of nuclear weapons with mutually agreed verification 
procedures. We believe the threat of nuclear terrorism remains urgent, 
fueled by the spread of nuclear weapons, materials and technology 
around the world. While this is a global issue, there are two 
countries--the United States and Russia--whose cooperation is 
absolutely essential in order to successfully deal with current nuclear 
threats. With New START, our odds of establishing a more cooperative 
relationship with Russia improverecognizing this will be a process of 
engagement broader than anyone treaty.
    Noting the full support of the Secretary of State, Secretary of 
Defense, and Chairman of the Joint Chiefs of Staff, and following our 
own review of the Treaty, we urge the Senate to give its advice and 
consent to ratification of New START as early as is feasible. We also 
urge the two governments to begin planning now for even more 
substantial reductions in the future involving all nuclear weapons, 
strategic and tactical, deployed and non-deployed. An identical letter 
has been provided to Senator Lugar.
        Sincerely,
                                   Hon. George P. Shultz,
                                           Hoover Institution, 
                                               Stanford, CA.
                                   Hon. Sam Nunn,
                                           Nuclear Threat Initiative, 
                                               Washington, DC.

    The Chairman. Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    As you pointed out today, the committee holds another very 
important hearing on the New START Treaty, and I join you in 
welcoming this distinguished panel of weapons experts.
    As I mentioned last January in a speech to the Conference 
on Strategic Weapons in the 21st century, the work of our 
National Laboratories in science and stockpile stewardship is 
indispensable for our national security. In addition to 
ensuring that our nuclear weapons are safe, secure, and 
reliable, our laboratories also serve as engines of innovation 
that we hope will provide new technologies to tackle the vast 
array of energy, environmental, and medical challenges facing 
our Nation and the world.
    This hearing is unique because, as our witnesses will make 
clear, the New START Treaty will not affect the mission of our 
laboratories. The treaty explicitly states that, 
``modernization and replacement of strategic offensive arms may 
be carried out.'' The management of both deployed and 
nondeployed warheads will not be fundamentally altered by entry 
into force of the New START Treaty. Yet, our consideration of 
New START has intensified a debate on modernization and 
stockpile stewardship programs in which our National 
Laboratories play a central role.
    The three National Laboratories represented here today form 
the core of the United States nuclear weapons complex. 
Collectively, they must certify annually, to the President and 
to the Congress, that our nuclear weapons are safe, secure, and 
reliable.
    Near the end of the last administration, a consensus 
developed that more needed to be done to ensure the vitality of 
our nuclear weapons complex, even as a framework for a 
successor to START I was sought. As Secretary Gates stated in 
his 2008 speech at the Carnegie Endowment, and I quote from the 
Secretary, ``We will lead the way in reducing our arsenal, but 
we must always hedge against the dangerous and unpredictable 
world.''
    The Obama administration's Nuclear Posture Review appears 
to set a high bar for replacement of our nuclear weapons. The 
NPR states that, in considering any decision on engineering 
development for our weapons, the administration will give, 
``strong preference,'' to options for refurbishment or reuse, 
and that replacement would occur only if, ``critical stockpile 
management program goals could not otherwise be met and if 
specifically authorized by the President and Congress.''
    Now, reinvestment in our nuclear stockpile will require 
substantial planning and funding. The administration's fiscal 
year 2011 budget--that request includes $624 million, an 
increase, for atomic energy defense activities. This is a 
welcome start to a longer process of budgeting and 
reinvestment. These plans were laid out in broad terms in the 
report submitted to Congress under section 1251 of last year's 
Defense Authorization Act.
    This is a good plan, that should be executed. I look 
forward to engaging with our three laboratory directors today, 
and I hope to hear from them how the plans and budgets reported 
to the Senate are sufficient to maintain confidence in our 
nuclear weapons stockpile and the infrastructure that supports 
them.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Dr. Anastasio, I think you're going to start, and we're 
just going to run right down the table. Thank you very much.
    Dr. Anastasio. Well, thank you very much----
    The Chairman. I might add, if you want to summarize, that 
would be certainly advantageous to the committee, in terms of 
time for questions, and your full texts will be placed in the 
record in full as if read. But----
    Dr. Anastasio. Thank you, sir.
    The Chairman. But, do what you need to do.

  STATEMENT OF DR. MICHAEL R. ANASTASIO, DIRECTOR, LOS ALAMOS 
              NATIONAL LABORATORY, LOS ALAMOS, NM

    Dr. Anastasio. Well, Chairman Kerry, Ranking Member Lugar, 
and members of the committee, thanks for the opportunity to 
appear before you today.
    I'm Dr. Michael Anastasio, the director of the Los Alamos 
National Laboratory, and it's a real honor for me to be here 
with you.
    I've devoted the bulk of my career to the nuclear weapons 
enterprise; since 2006 as the director of Los Alamos, but 
originally as a weapons designer at the Lawrence Livermore 
National Laboratory before becoming director there in 2002.
    In the President's April 2009 Prague speech, and in the 
recently released Nuclear Posture Review, this administration 
has directly linked reductions in nuclear weapons to the 
maintenance of the nuclear arsenal, both in support of the 
overall goal to reduce nuclear danger.
    Secretary of Energy Steven Chu testified recently that as 
the stockpile size decreases in size, the role of science, 
technology, and engineering in deterrence will increase in 
importance.
    The reductions proposed in New START highlight the 
importance of the laboratories' mission and the need for a 
healthy and vibrant science, technology, and engineering base. 
And so, I would like to bring forward three main points today 
to emphasize with you.
    The first point is that the Stockpile Stewardship Program 
that was created by Congress in the mid-1990s has had many 
successes that were--by the way--no means assured at the outset 
of the program. We've maintained a safe, secure, and effective 
stockpile for the Nation without having to resort to nuclear 
testing. And, so far, we have retained the knowledge and 
skilled workforce of outstanding scientists and engineers. 
We've built many of the tools required for the task, in the 
form of the world's fastest computers and new experimental 
capabilities, such as the DARHT, the NIF, and MESA.
    But, we're not finished. Because of the science we've 
developed, we now know more about nuclear weapons than we ever 
have. In particular, we've learned that our systems are aging, 
and that almost every one of them will require some form of 
life-extension activity in the next 25 years. The available 
mitigation actions are reaching their limits, and we have not 
challenged the full skill set of our workforce. Therefore, we 
must go beyond the refurbishments that have been considered to 
date as we look to the future.
    My second point is that the Obama administration has put in 
place a new nuclear policy in its Nuclear Posture Review and in 
the FY11 budget submission. It calls for a significant increase 
in Weapons Activities. The NPR calls for a case-by-case 
analysis of the full range of life-extension approaches: 
refurbishment, reuse, and replacement. It also expresses, as 
we've heard, a strong preference for refurbishment or reuse in 
a decision to proceed to engineering development.
    I understand the sensitivity of this issue, but personally 
I do not feel overly constrained by the language in the NPR. 
Rather, I believe it provides the necessary flexibility to 
manage the stockpile with acceptable levels of risk. It's 
always my obligation to ensure that the best technical 
recommendations to meet requirements are brought forward for 
consideration.
    The FY 2011 budget request, which calls for a $624 million 
increase, is essential. This is a positive step, and I urge 
Congress to approve that budget. And it's a real show of 
commitment on the part of the administration that helps 
stabilize the weapons program for the future. It also puts 
necessary new funds toward starting some of the needed hands-on 
stockpile work and repairing of the decaying infrastructure 
throughout the complex.
    So, my third and final point is that, even with these 
positive actions, I do have concerns. This effort will require 
sustained focus for multiple administrations and multiple 
Congresses over several decades. I fear that program 
expectations may already be out of line with the fiscal 
realities faced by the country. The nuclear infrastructure 
needs and the stockpile needs have the potential to unbalance 
the rest of the program, squeezing out the science that is 
really the fundamental basis of Stockpile Stewardship.
    In addition, we must balance the need to hire the future 
national security workforce with the looming pension shortfalls 
of nearly $200 million in FY12 at Los Alamos.
    So, in conclusion, I'm cautiously optimistic about the 
future of the nuclear weapons program, that we can carry out 
our responsibilities under New START with adequate levels of 
risk. But, we need help. So, I urge Congress to work with the 
administration to form a national consensus on nuclear policy 
and to support the FY11 budget request as a necessary first 
step forward, and I would welcome a dialogue on how best to 
sustain focus on these issues over the extended period into the 
future.
    So, thank you, and I'll be happy to take questions.
    [The prepared statement of Dr. Anastasio follows:]

 Prepared Statement of Dr. Michael R. Anastasio, Director, Los Alamos 
                  National Laboratory, Los Alamos, NM

    Chairman Kerry, Ranking Member Lugar and members of the committee, 
thank you for the opportunity to appear before you today to respond to 
the committee's questions on the New START Treaty and the ability of 
the National Laboratories to maintain the safety, security, and 
effectiveness of the stockpile into the future. I am Dr. Michael R. 
Anastasio, the Director of the Los Alamos National Laboratory (LANL), 
and it is an honor to appear before you today to present my views.
    In President Obama's April 2009 Prague speech and in the recently 
released Nuclear Posture Review (NPR), this administration has 
articulated its goal to reduce the global nuclear danger. In both the 
speech and the policy document, the administration has directly linked 
reductions in nuclear weapons to the maintenance of the nuclear 
arsenal. This then is a propitious time to discuss what is necessary to 
maintain the stockpile into the future as the Senate considers 
ratification of the New START Treaty.
    From a Laboratory standpoint, it is important to understand that 
New START will reduce the number of delivery vehicles and warheads, but 
it will not alter the Nuclear Triad. Secretary of Energy Steven Chu 
testified before the Senate Armed Services Committee on June 17, 2010, 
that ``As the stockpile decreases in size, the role of science, 
technology and engineering in deterrence will increase in importance.'' 
This means that the United States will have to devote appropriate 
attention and resources to protecting the physical and intellectual 
science, technology and engineering (ST&E) infrastructure that 
underpins the stockpile.
    Los Alamos and the other National Security Laboratories also have 
historically played an important role in arms control, providing 
technical support to negotiators, to those who implement treaties, and 
to those who monitor the treaties and assess compliance. While I will 
not discuss this further, we continue to bring the innovative technical 
capabilities of the Laboratory to these challenges.
    I do not see New START fundamentally changing the role of the 
Laboratory. What New START does do, however, is emphasize the 
importance of the Laboratories' mission and the need for a healthy and 
vibrant ST&E base to be able to continue to assure the stockpile into 
the future. These issues will be the focus of my remarks.
                         stockpile stewardship
Stockpile Stewardship Successes
    The United States and its allies continue to depend on a nuclear 
deterrent as part of the overall security posture. The manner in which 
the Nation executes this mission has changed dramatically over the last 
several decades. In 1989 the United States ended the production of new 
nuclear weapons; 3 years later the United States adopted a moratorium 
on nuclear weapons testing that remains in effect to this day. In 
response to these new circumstances, the FY 1994 National Defense 
Authorization Act charged the Secretary of Energy to establish a 
Stockpile Stewardship Program (SSP) ``to ensure the preservation of the 
core intellectual and technical competencies of the United States in 
nuclear weapons.'' To meet this challenge the nation has invested 
significant resources in the advanced scientific, experimental, 
engineering and computational capabilities of the National 
Laboratories. These capabilities are the basis for the Laboratories to 
assess the overall safety, security, and effectiveness of the stockpile 
as well as to execute the Stockpile Life Extension (LEP) Program, which 
I will describe in more detail below.
    It is primarily through the SSP that the Laboratory provides 
technical support for U.S. nuclear forces, posture and policy. Our 
approach involves the continual assessment of the stockpile through 
surveillance enabled by a more fundamental scientific understanding. 
This has required us to build upon past nuclear test experience with 
the development of more advanced experimental and simulation tools and 
the expertise of the scientists, engineers, and technicians at our 
laboratories and production plants.
    Our surveillance results show ever-increasing effects from aging. 
These results are assessed with an extensive range of nonnuclear 
testing and vastly improved simulation capability. Ultimately, expert 
judgment and rigorous interlaboratory peer review assure that critical 
conclusions are drawn from the best available data, appropriate high-
resolution simulations and a suite of evolving experimental 
capabilities. Sound science is the core of our confidence.
    The SSP at the Laboratories has had many successes to date; these 
successes were by no means assured when the Program began in 1995 as an 
ambitious effort to sustain the nuclear weapons stockpile while 
minimizing the need for nuclear testing. Examples of these successes 
include:
    Annual Assessment: I am responsible for an assessment, based on a 
rigorous technical process, of all weapons in the stockpile for which 
the Laboratory is responsible. This ``annual assessment'' letter is 
provided to the Secretaries of Defense and Energy, as well as the Chair 
of the Nuclear Weapons Council, and then is forwarded to the President. 
I have personally signed eight assessment letters during my tenure at 
both Lawrence Livermore and now at Los Alamos and have had direct 
involvement in all 15 cycles since the inception of the program in 
1996. In many regards, this letter and its detailed set of backup 
documents is the annual summation of all that we do in Stockpile 
Stewardship.
    Pit Manufacturing:  In 1989, the United States halted plutonium pit 
manufacturing at the Rocky Flats plant in Colorado, leaving the United 
States as the only nuclear weapons state without the ability to 
manufacture the core component of nuclear weapons. Using our science 
and technology to qualify the new build processes, Los Alamos restored 
this essential capability in 2007 and has nearly completed the build of 
pits required for the W-88, a central component of the sea-based 
deterrent.
    DARHT:  The Dual Axis Radiographic Hydrodynamic Test (DARHT) 
facility is now fully functional and allows our experimental teams to 
obtain three-dimensional, high-resolution, time-sequenced images taken 
within billionths of a second at specifically selected times within an 
implosion of a mock nuclear weapons assembly. Last December, the first 
dual-axis experiment was successfully carried out at DARHT. Data from 
the experiment will allow Los Alamos to close a Significant Finding 
Investigation (SFI) on a stockpile system. DARHT data is also critical 
to the W76 LEP effort.
    Supercomputing:  In partnership with IBM, Los Alamos built and 
deployed the world's first petascale (million-billion calculations per 
second) supercomputer--Road Runner. After an initial series of 
unclassified science runs to assure machine performance, Road Runner is 
now dedicated to classified weapons work. Later this summer, Los Alamos 
in partnership with Sandia, will take delivery of out next 
supercomputer--Cielo--another petascale machine. The breadth and 
quality of experimental data being obtained has allowed Los Alamos to 
validate the significant progress on integrated three dimensional 
software tools within the Advanced Simulation and Computing campaign.
    LANSCE:  The Los Alamos Neutron Science Center (LANSCE) facility, 
an 800 MeV proton accelerator, makes a number of important 
contributions to our understanding of weapons performance. Proton 
radiography (pRad) at LANSCE allows us to make time-resolved 
measurements of dynamic events of weapon components, such as high-
explosive detonation and burn. Data from pRad informs the W-76 LEP and 
B61 work. The LANSCE protons are also used to create spallation 
neutrons that allow the imaging of weapons components and are used to 
understand the basic nuclear physics. The Weapons Neutron Research 
station at LANSCE provides invaluable new radiochemical data used to 
refine the nuclear yield determinations, thereby allowing LANL staff to 
glean additional information from archived nuclear test data. LANSCE is 
the only facility in the country where these types of classified 
experiments that involve special nuclear material can currently be 
conducted.
    Plutonium Aging Physics:  LANL conducted years of detailed 
experiments that examined the physics of how plutonium ages. This 
assessment, paired with work conducted at Lawrence Livermore, enabled 
the NNSA to better understand the lifetime of plutonium components and 
its impacts upon nuclear weapons performance. This work allowed for 
better estimates of the sizing of production capabilities and of needed 
resources.
Maintaining the Stockpile Through Life-Extension Programs
    As we learn about our strategic systems through Stockpile 
Stewardship, we then work with DOD and DOE/NNSA to determine 
appropriate steps for extending the lives of these systems for an 
additional 20 to 30 years beyond their original lifetimes through LEPs. 
To date, the LEP focus has been to effectively refurbish them so they 
are ``just like'' they were originally designed, to meet the 
requirements of the cold war (high yield to weight ratios). LEP 
activities include: research, development, and production work required 
to ensure that weapon systems continue to meet national security 
requirements.
    The nation has successfully completed LEPs for the W87 ICBM warhead 
and the B61-7/11 gravity bomb. The W76 LEP is well underway and is 
contributing significantly to the long-term viability of the nation's 
sea-based deterrent force. Major components refurbished as part of the 
LEP include: the nuclear explosive package; the arming, firing and 
fuzing system; and the gas transfer system. This LEP is expected to 
extend the life of the W76 for an additional 30 years without reliance 
on underground nuclear testing. LANL played a major role in this 
effort, which required reconstitution of specialized material 
production after several decades. The First Production Unit (FPU) for 
the W76 LEP was completed in FY 2008.
    With the bulk of the Laboratory's efforts on the W76 LEP complete, 
Los Alamos will shift its focus to the the B61 LEP, consistent with the 
NPR. Major components that will be refurbished as part of the LEP 
include: new detonator cable assembly, main charge, foams and polymers, 
and a new gas transfer system. This LEP also provides the opportunity 
to install enhanced, intrinsic safety and security features by 
modifying components in existing designs to meet today's dynamic 
security environment. Los Alamos expects to support an FPU in 2017 
assuming timely Congressional approval of the funding needed to carry 
out the program.
    LEP requirements derive from the joint DOD-DOE Nuclear Weapons 
Council (NWC). Each nuclear weapon system they identify and Congress 
funds is studied to develop options that meet the requirements 
established by the NWC. Per the guidance in the NPR and in the 
administration's Stockpile Stewardship and Management Report, it is my 
obligation to ensure that the teams at Los Alamos examine all the 
relevant technical options for an LEP, including refurbishment, reuse 
and replacement, and bring them forward to the NWC for a decision.
    These efforts will include modifying cold-war-era weapons for 
enhanced margin against failure, increased safety, and improved 
security and use control. For example, introducing insensitive high 
explosives into systems that currently use conventional high explosives 
can improve safety. Future LEP studies will consider the possibility of 
adapting the resulting warhead to multiple platforms in order to reduce 
the number of warhead types. In all LEP studies, the Laboratories will 
rely on fundamental and applied ST&E to improve its understanding of 
nuclear weapon behavior and to assure the safety, security, and 
effectiveness of our nuclear deterrent supported by a reduced and more 
sustainable, efficient and appropriately sized nuclear security 
infrastructure.
Leveraging our Science for National Security
    The issues that have arisen in the last 18 years of assuring the 
reliability of nuclear weapons without conducting a nuclear test are 
complex science and engineering problems. Some of these problems were 
anticipated--like the aging of certain components in a warhead--and 
others were totally unexpected. The success of the Stewardship program 
has been the ability to draw on a deep and rich science base at the 
Laboratories. This science base is enriched by engaging on a broad 
range of scientific problems, many of which have a direct relevance to 
broader national security interests. A vibrant science, technology and 
engineering enterprise is essential to supporting the stewardship 
program, and at the same time it provides a powerful resource for 
issues such as nonproliferation, counterproliferation, counterterrorism 
and intelligence assessment.
    There is a tendency when people hear about the role the NNSA 
Laboratories play in solving other national problems that these are 
simply nice ``spinoffs.'' These provide more than just positive 
benefits for the nation; rather, this work outside of the weapons 
program is essential to the conduct of the core nuclear weapons 
mission. We have a vibrant scientific workforce at Los Alamos, 
including around 2,500 Ph.D.s that are the core of our science base. 
The weapons program benefits directly when these scientists have the 
opportunity to extend their skills by working on challenging technical 
problems, like climate modeling, which then can validate and improve 
the methods in our 3-D weapons codes and solve challenges in the 
stockpile.
    The following are a handful of recent Laboratory scientific 
successes that leverage our weapons science capabilities for broader 
national security interests, and also feed directly back into the 
nuclear weapons program:
    Intelligence:  Our weapons program capabilities give us the ability 
to assess foreign weapons programs and to assist the intelligence 
community. There is much truth to the statement that ``it takes a 
nuclear weapons lab to find a nuclear weapons lab.''
    Nuclear Forensics and Attribution:  Los Alamos delivered a suite of 
models and databases for National Technical Nuclear Forensics 
applications, such as modeling debris signatures and other nuclear 
security applications. LANL's capabilities in this area are a direct 
outgrowth of the former nuclear weapons testing program where 
scientists had to study the detailed chemistry of soil samples to 
determine various characteristics of a detonation. Our experts in this 
area can not only help with current nuclear forensics, but they also 
support the weapons program by helping to reinterpret data from 
previous underground tests. This information is then used to validate 
our weapons codes.
    Plutonium Center of Excellence:  LANL's efforts in nonweapons 
plutonium work help ensure the country maintains a core human capital 
ability to work with this material. The same researchers and 
technicians who work on plutonium 238 for use in deep-space missions 
for NASA also support the manufacture of plutonium pits for the 
stockpile.
    Detection Technology:  Much of the work at Los Alamos in the basic 
sciences arena has had a significant impact on detecting threats from 
emerging phenomena. For example, building x-ray and gamma ray detectors 
on satellites has promoted the discovery of fundamental cosmological 
phenomena like the collapse of black holes. In turn, these detectors 
have been refined and are part of our front line defense in monitoring 
other nations' weapons programs.
    Advanced Simulation and Energy/Climate Research:  The ability to 
simulate complex systems--like a nuclear explosion with thousands of 
parts exploding in a fraction of a second--is something that has also 
driven national security science forward. LANL has developed two of the 
four modules (sea ice and oceans) used in international climate models. 
Many of the lessons learned from observing a complex climate system can 
be applied to our weapons models. In particular, we have discovered 
heretofore unknown phenomena--in terms of regional climate impacts and 
within weapons systems--as we have gone to finer and finer levels of 
resolution in our simulations. On the energy front, LANL is also a 
partner in the recently announced DOE Office of Nuclear Energy Hub 
focused on nuclear power. LANL will play a key role in helping to build 
a ``virtual reactor.''
    Gulf Oil Spill:  Scientists from Los Alamos and other laboratories 
have played a significant role in the federal government's efforts to 
assess and stem the oil leaking in the Gulf of Mexico. Several efforts 
are continuing as the crisis continues. One particular area of emphasis 
is in diagnostics of the well system. LANL designed and developed the 
first ever two-dimensional radiography system deployed in deep water 
(below a few hundred feet). The radiography leveraged numerous 
capabilities including machining, advanced image analysis, and modeling 
techniques.
Next Chapter of Stockpile Stewardship
    For the future, we need to build on the core scientific successes 
achieved through Stockpile Stewardship that have maintained the safety 
security and effectiveness of the stockpile for 18 years without 
nuclear testing. However, we are now at a crossroads as a nation. The 
next few years will determine our approach to the stockpile for decades 
to come. There is an opportunity right now for a national consensus to 
develop around nuclear policy that has been needed since the end of the 
cold war. As I will discuss further below, I am encouraged by the 
significant strides this administration has made in issuing a new 
policy, in the form of the NPR, as well as by its FY11 budget request 
for the Department of Energy, which I believe is an important first 
step. With this as a basis, I hope that Congress and the administration 
can reach a bipartisan national consensus.
    Even with such a consensus, my concern is that with all there is to 
be done, the level of interest and budget support that we have seen 
this year will need to be sustained by future administrations and 
future Congresses. As I have seen over my nearly 30-year career at the 
Laboratories, solutions and fixes in this arena cannot be accomplished 
quickly. This will require a sustained effort on the part of the Nation 
for decades to come.
                     new policy for nuclear weapons
    The administration's NPR, issued in April of this year, ``provides 
the roadmap for implementing President Obama's agenda for reducing 
nuclear risks .'' It focuses on five key objectives of nuclear weapons 
policies and posture, one of which is ``Sustaining a safe, secure, and 
effective nuclear arsenal.''
    The Directors of Livermore and Sandia joined me in issuing a tri-
lab statement about the NPR in April. We felt it was important to first 
outline the roles and responsibilities of the national laboratories in 
terms of providing the technical underpinnings to ensure the safety, 
security and effectiveness of the nuclear deterrent. With regard to the 
NPR's overall framework, I repeat here what we said:

          We believe that the approach outlined in the NPR, which 
        excludes further nuclear testing and includes the consideration 
        of the full range of life extension options (refurbishment of 
        existing warheads, reuse of nuclear components from different 
        warheads and replacement of nuclear components based on 
        previously tested designs), provides the necessary technical 
        flexibility to manage the nuclear stockpile into the future 
        with an acceptable level of risk.
          We are reassured that a key component of the NPR is the 
        recognition of the importance of supporting a modern physical 
        infrastructure--comprised of the national security laboratories 
        and a complex of supporting facilities--and a highly capable 
        workforce with the specialized skills needed to sustain the 
        nuclear deterrent.

    While the joint statement reflects the Laboratory Directors' 
collective views, I will elaborate on my own thinking on the NPR. It 
clearly emphasizes the three key elements of Stockpile Stewardship--
hands-on work on the stockpile; the science, technology and engineering 
base; and the infrastructure at the laboratories and plants. I agree 
with the NPR's view that these are the three critical elements of the 
nuclear weapons enterprise. It is essential that all of these elements 
be in balance and adequately funded to maintain a safe, secure and 
effective stockpile. I will focus my remarks on each of these elements 
in turn.
Stockpile Work
    The NPR is explicit about the weapons that need life-extension over 
the next 10 years: completion of the W76, proceeding on the full scope 
life extension of the B61, and study of the W78. I strongly agree with 
the NPR assertion of the need to increase the safety and security of 
our systems. The LEP process provides opportunities to do so, for 
example by switching all conventional high explosive (CHE) primaries 
with insensitive high explosive (IHE) primaries to increase safety 
margins and deploying certain intrinsic surety systems in the stockpile 
to better meet today's security challenges.
    The NPR's statements on needed LEPs align well with the assessments 
that the Laboratories have made in recent years. We have seen that in 
many cases, the uncertainties associated with the current issues 
identified through surveillance threaten to overwhelm the small 
performance margins that characterize many of the weapons in the 
current stockpile. Essentially, this uncertainty dictates that almost 
every weapon system in the current stockpile will require completion of 
some type of life extension activity in the next 25 years.
    The available mitigation actions for the results observed in 
surveillance, such as changes external to the nuclear package or 
relaxation of certain military requirements are reaching their limits. 
Consequently, as the Perry Commission observed, ``The Stockpile 
Stewardship Program and the Life Extension Program have been remarkably 
successful in refurbishing and modernizing the stockpile . . . but 
cannot be counted on for the indefinite future.'' We will need to take 
advantage of the flexibility articulated in the NPR to go beyond just 
refurbishment that has been considered to date and evaluate the full 
range of options (refurbishment, reuse, and replacement) to increase 
nuclear performance margins to mitigate the need for nuclear testing.
    The NPR states that in ``any decision to proceed to engineering 
development for warhead LEPs, the United States will give strong 
preference to options for refurbishment or reuse.'' The NPR also 
strongly endorses, and the NNSA Stockpile Stewardship and Management 
Plan reinforces, the importance that on a case-by-case basis, the full 
range of LEP approaches will be considered: refurbishment, reuse, and 
replacement. I recognize the sensitivity of this topic but am convinced 
that allowing the laboratories the flexibility to present policymakers 
with our best technical recommendations to meet requirements is 
critical to our role in the stockpile management process. This approach 
greatly reduces the possibility of having to conduct nuclear testing, 
while at the same time exercising our nuclear designers and engineers. 
I do not feel overly constrained by the language in the NPR; rather, I 
believe it provides the necessary flexibility to manage the stockpile 
with acceptable levels of risk.
    The starting point for all of this hands-on work, of course, is the 
stockpile surveillance program that pulls actual units from service and 
puts them through rigorous destructive and nondestructive testing. 
Through these efforts we are able to anticipate issues as well as learn 
when issues may require action, but I have been concerned for some time 
that we are not doing as much surveillance as we should be doing. The 
NPR states that investments are required in ``Strengthening the 
science, technology, and engineering (ST&E) base needed for conducting 
weapon system LEPs, maturing advanced technologies to increase weapons 
surety, qualification of weapon components and certifying weapons 
without nuclear testing, and providing annual stockpile assessments 
through weapons surveillance [emphasis added].'' I agree with this 
assessment. Since our knowledge base begins with surveillance, it is 
essential that we sustain support in this area.
Science, Technology, and Engineering
    I strongly endorse the view of the NPR on strengthening the ST&E 
base; it is this base that provides the underpinning of confidence in 
the stockpile in the absence of nuclear testing. This expertise can 
only be maintained by continued scientific advances; it cannot be 
static. However, it has been allowed to erode in recent years, putting 
at risk our ability to make the necessary future advances in our 
capabilities. It is important to note that often years of technical 
work, for example in actinide sciences, are required ahead of time to 
enable the successful completion of today's requirements. Without 
investment today future confidence is at risk.
    In addition, it is essential that we acquire experimental data from 
nonnuclear experiments to provide the ``ground truth'' about stockpile 
issues. Today, we are beginning to see many of the investments of 
Stockpile Stewardship come to fruition--notably the DARHT at Los 
Alamos, the NIF at Livermore, and the MESA facility at Sandia--yet, we 
have inadequate resources to carry out the all key experiments at these 
facilities. Just as the Nation is positioned to reap the benefits of 
these investments, funding declines make it extremely difficult to 
maintain, use or enhance these facility capabilities that are necessary 
to preserve our deterrent and to further other national security goals.
    Similar to the world of experiments, today we are faced with an 
equal computational challenge and opportunity. To maintain the 
scientific vitality, international competitiveness, and leadership 
needed to support the administration's nuclear posture, continued 
advancement to exascale class computation is necessary. Such a 
capability will position us to provide better support for the 
stockpile, particularly in the form of surety options, and to provide 
reliable support for intelligence analysis including emerging foreign 
threats in the broad area of nuclear security.
    Compounding that challenge of a healthy, vibrant ST&E base is the 
aging workforce at Los Alamos and elsewhere in the complex. At Los 
Alamos, the average age of career employees is now over 48, and 32 
percent of all career employees are expected to retire within the next 
5 years. Without an infusion of younger talent who can become 
recipients and beneficiaries in the transfer of knowledge from those 
with decades of experience, we will be at risk for loss of that 
knowledge.
Aging Infrastructure
    Much of the nuclear infrastructure needed by the United States 
resides in facilities that date back to the 1950s. While we take great 
efforts to ensure our employees are safe in these aging facilities and 
that the public is not put at risk, the challenges and costs to 
maintain their active status is mounting rapidly.
    The NPR and administration's FY11 budget support the Uranium 
Processing Facility (UPF) in Tennessee and the Chemistry and Metallurgy 
Research Replacement (CMRR) Nuclear Facility in New Mexico. They 
represent the critical next step in shrinking the Nation's nuclear 
infrastructure footprint while allowing these vital operations to 
continue in the most safe and secure environments possible. I strongly 
endorse investments in these two facilities and believe without them 
the costs associated with maintaining the existing facilities will 
eventually overwhelm the weapons program budgets.
    The CMRR project at Los Alamos will replace the existing Chemistry 
and Metallurgy Research (CMR) facility, completed in 1952, that is at 
the end of its useful life. This facility houses the analytical 
chemistry, materials characterization, and actinide research and 
development activities that are required to support a wide spectrum of 
work at Los Alamos. The work in CMRR is critical to sustaining the 
Nation's nuclear deterrent, but it also is critical to nonproliferation 
efforts, development of power sources for U.S. space missions, training 
of IAEA inspectors and the work of nuclear forensics. We have been 
working closely with our industry partners to bring strong project 
management to this effort and to deliver this important project on cost 
and schedule. I am proud to report that on the first phase of this 
project, construction of the Radiological Laboratory Utility Office 
Building (RLUOB), we did just that: it was completed on time and budget 
last year. We are in the process of outfitting that facility and expect 
to occupy RLUOB in 2012. We continue to work closely with NNSA on the 
design of the next and final stage of the project, the Nuclear 
Facility. To successfully deliver this project, it will be important to 
have certainty in funding and consistency of requirements throughout 
the project.
    At the same time, there are many other essential facilities across 
the complex and at Los Alamos that cannot be neglected because of our 
necessary focus on the major nuclear facilities. Infrastructure 
considerations must include operation of current facilities and the 
consolidation of old, inefficient ones. For example, we are working to 
identify adequate funding to maintain and operate the LANSCE facility 
for material properties, carry out planned actinide research and renew 
an aging infrastructure where over fifty percent of the buildings are 
more than 40 years old.
    To reduce costs we have already eliminated a million square feet of 
antiquated laboratory and office space. Using funds from the American 
Recovery and Reinvestment Act we are in the process of decontaminating 
and demolishing the earliest plutonium and uranium facilities at the 
Laboratory.
                          fy11 budget proposal
    In addition to the NPR, the administration has developed an FY11 
budget that moves us in the right direction. I view the NNSA's FY11 
budget request as a positive first step and I urge its approval by 
Congress. The $624 million increase to Weapons activities is primarily 
focused on addressing the crumbling infrastructure of the Complex--most 
notably the plutonium infrastructure at LANL and the uranium 
infrastructure at Y-12, as well as beginning to attend to the needs of 
an aging stockpile with increased funds for Life Extension Programs. 
These are welcome increases and will begin to address some of the 
concerns that the Strategic Posture Commission and the Laboratory 
Directors have raised in recent years.
    Restoring the scientific and physical infrastructure--all while 
managing pension and other challenges--will take time and sustained 
support by the Congress. Sustaining strong science funding in the form 
of Science Campaigns and advanced computing, as well as the 
infrastructure account, known as Readiness in Technical Base and 
Facilities (RTBF) that underlies all of the work we do, is essential. 
This funding enables us to carry out the fullest of scientific research 
and development efforts necessary to meet our nuclear weapon mission 
and broader national security needs and to attract and retain the best 
and brightest scientists.
                               challenges
    The NPR provides the necessary policy framework, which I hope leads 
to a national consensus, and the FY11 budget request provides the first 
step in the fiscal implementation of the roadmap to sustain the long-
term safety, security, and effectiveness of the stockpile. It is 
important to recognize that to fully implement this roadmap requires 
investments that carry across multiple administrations and multiple 
Congresses. Today, I fear that there is already a gap emerging between 
expectations and fiscal realities. I fear that some may perceive that 
the FY11 budget request meets all of the necessary budget commitments 
for the program; however, there are still significant financial 
uncertainties, for example, the design of the UPF and CMRR are not 
complete and the final costs remain uncertain.
    As I look to the future, I remain concerned that science will be 
squeezed when trying to compete with capital infrastructure investments 
and life extension program funding priorities. Having experienced three 
decades of federal budgets and their impacts on the weapons program, it 
will be challenging to sustain the increases the administration has 
called for. Just as I am encouraged by the significant increase we see 
in FY11, I am concerned that in the administration's section 1251 
report, much of the planned funding increase for Weapons Activities do 
not come to fruition until the second half of the 10-year period.
    Another example of the fiscal challenges that I see on the horizon 
is related to pensions. Like many other organizations across the 
country, we at Los Alamos are facing a pension shortfall during the 
current fiscal year and it is expected to grow over the next 2 years.
    In FY10, the Laboratory has worked closely with the NNSA to resolve 
a pension shortfall of $76 million. Part of the solution has been to 
require employees to make contributions; the Laboratory is increasing 
its fringe rates to cover costs and NNSA has provided assistance on the 
order of $46 million. Next year, the pension shortfall is expected to 
be $77 million, and in FY12, the shortfall is expected to grow to about 
$200 million. NNSA is aware of this issue and we are working closely on 
possible options to address it. My chief concern is that if the 
Laboratory must shoulder the bulk of this increase, this will 
dramatically reduce the funds available for programmatic deliverables 
and cause significant disruption of the Laboratory workforce.
    As I noted earlier, it will be important that as a nation we can 
align expectations with the fiscal realities that we see. At the same 
time, it is essential that we balance investment across all three major 
elements of the program--hands-on stockpile activities, ST&E, and 
infrastructure. For example, without investment in ST&E today we put at 
risk timely execution of the program beyond the very near term. On the 
other hand, focus on near term stockpile LEPs without infrastructure 
investment limits the near term program scope and efficiency and puts 
at risk longer term timely execution. Stability of funding plans is 
also important so that the balance that is struck can actually be 
executed. One approach to maintain focus on these issues across 
multiple administrations and Congresses could be a set of 
``safeguards,'' that have been used in past arms control treaties.
                               conclusion
    Thank you again for the opportunity to appear before you to testify 
on this important subject. As I stated, I am very encouraged by the 
progress this administration has made both on the policy and the budget 
fronts. The NPR provides the policy framework with the technical 
flexibility to manage the stockpile with an acceptable level of risk 
and the FY11 budget request is a positive step forward.
    I am cautiously optimistic that with Congress' support we--as a 
nation--can recapture the bipartisan consensus that once existed about 
the Nation's strategic deterrent and the overall nuclear weapons 
complex. At the same time, I have concerns about sustaining the focus 
and an appropriate budget over the several decades for which it will be 
required. As a Laboratory, we are dedicated to ensuring the innovative 
science and engineering necessary to sustain our strategic deterrent 
and that can be applied to the many challenges the Nation now faces. 
Maintaining the necessary focus and resources of the administration and 
Congress is critical in order to achieve these national goals.
    I look forward to engaging further with the committee on this 
important topic and I welcome your questions.

    The Chairman. Thank you very much, Doctor.
    Dr. Miller.

 STATEMENT DR. GEORGE H. MILLER, DIRECTOR, LAWRENCE LIVERMORE 
               NATIONAL LABORATORY, LIVERMORE, CA

    Dr. Miller. Thank you very much, Chairman Kerry, Ranking 
Member Lugar, and thank you very much for your continued 
interest in the Stockpile Stewardship Program.
    As director of Lawrence Livermore National Laboratory, we 
are one of the laboratories responsible for sustaining 
stockpile safety, security, and effectiveness. I've devoted, 
essentially, my whole career to providing science and 
technology for the Nation's national security interests, 
including having personally designed several of the warheads 
that are in the stockpile today.
    There are three points that I'd like to emphasize. 
Technically, we have an approach that can maintain safety, 
security, and effectiveness of the stockpile without nuclear 
testing and without introducing new military capabilities. 
Successfully meeting these mission requirements and carrying 
out the program of work will require sustaining the nuclear 
security enterprise for decades, with balanced investments 
across the full spectrum of activities that are required to 
support this activity.
    Finally, and importantly, we all have a responsibility to 
nurture and sustain the outstanding stewards at our 
laboratories and our production plants.
    From a scientific and technical point of view, I'm 
confident that we can maintain the safety, security, and 
effectiveness of the stockpile, because of the successes of the 
program to date. We've greatly improved our simulation and 
experimental capabilities, and used these unique national 
assets to understand and learn details about weapons' 
performance that went undiscovered in the era of nuclear 
testing. We've found and corrected issues in the stockpile, and 
we are continually improving our ability to assess weapon 
performance. We've successfully extended the life of some of 
the systems in the stockpile without resorting to nuclear 
testing. And we're providing the hands-on experience that's 
necessary to train the next generation of stockpile stewards.
    The President's 2011 budget request seeks increased funding 
to reverse the recent declining budget trends and create a 
sustainable U.S. nuclear security enterprise. Our Nation's 
deterrent requires a Stockpile Stewardship Program that is 
adequately supported by successive administrations and 
Congresses to provide sufficient funding.
    Today, additional investments are needed in all three of 
the areas of the Stockpile Stewardship Program, in science and 
technology and engineering that provides the basic underpinning 
of all of the decisions and all the confidence that we have, in 
extending the life of the systems that are currently in the 
stockpile, and in modernizing the facilities and 
infrastructure. I strongly urge Congress to support this vital 
first step toward increased investment in this national 
security mission.
    Science, technology, and engineering underpin our 
confidence in the stockpile, and it's of vital importance that 
we enhance the level of surveillance that goes on in the 
stockpile. This is a program by which we look each year at 
what's going on in the stockpile, and we learn what issues we 
must address. We need to take full advantage of the two-
laboratory system to provide independent advice and counsel to 
the administration and to Congress about what steps to take. In 
my view, this is much like something that's very familiar to 
all of us: When we have a serious medical problem, we 
frequently consult more than one doctor. We need to pursue and 
continue to advance the remarkable improvements that we have 
seen in high-performance computing. And finally, we need to 
utilize these unique tools in order to improve our 
understanding.
    The stockpile itself needs attention. We need to undertake 
extensive programs over the next two decades to extend the life 
of our stockpile.
    We will examine a series of options that are based on 
previously tested nuclear designs that will range from 
refurbishment to reuse to replacement, carefully considering 
the desirability of improving the safety, security, the 
manufacturability, the maintainability of a much smaller 
stockpile. Preferred alternatives will consider the cost and 
the risks associated with each of the different options.
    We also have an opportunity in these life-extension 
programs to provide more resiliency to the stockpile as it is 
reduced in size by providing warheads that are adaptable from 
one system to another.
    And finally, we need to modernize cold-war era facilities, 
particularly those for processing uranium and plutonium. This 
will require funding increases.
    Above all, we need to nurture and sustain our outstanding 
stewards at the laboratories and production facilities, and 
mentor them, and create our future. Long-term success depends 
upon these people.
    While the President's 2011 budget for NNSA is a very good 
start, the 10-year plan calls for significant budget increases 
in the out years. This is the program of work that is required 
to sustain this effort over the long period of time.
    Our success depends upon your support, and the support of 
successive administrations, in creating and sustaining a 
program that is balanced across all of these efforts, and a 
program that is adequately funded.
    Thank you very much, again, for your continued interest in, 
and support of, this important national effort.
    [The prepared statement of Dr. Miller follows:]

    Prepared Statement of Dr. George H. Miller, Director, Lawrence 
              Livermore National Laboratory, Livermore, CA

                            opening remarks
    Mr. Chairman and members of the committee, thank you for the 
opportunity to provide a statement on the status and future prospects 
of the Department of Energy/National Nuclear Security Administration's 
(NNSA) Stockpile Stewardship Program to sustain the safety, security, 
and effectiveness of the Nation's nuclear stockpile. My name is George 
Miller and I am the Director of the Lawrence Livermore National 
Laboratory (LLNL).
    LLNL is one of NNSA's two nuclear design laboratories and a 
principal participant in the Stockpile Stewardship Program. National 
security depends greatly on the success of our stockpile stewardship 
efforts. I want to thank the committee for your interest in and 
continued support for these activities.
    In addition to stockpile stewardship, our Laboratory's nuclear 
security responsibilities include engaging in vital national programs 
to reduce the threats posed by nuclear proliferation and terrorism. The 
Laboratory also applies its multidisciplinary science and technology to 
provide solutions to a broader range of pressing national and global 
security challenges.
                              introduction
    From a scientific and technical viewpoint, I am confident that we 
can maintain a safe, secure, and effective nuclear deterrent through a 
science-based Stockpile Stewardship Program that is balanced, 
integrated, and sustained over time; this will require the support of 
successive administrations and Congress and sufficient funding to meet 
mission requirements. Stockpile stewardship is a cornerstone of the 
Nation's strategic deterrent for the future. As demonstrated by the 
program's achievements to date, I believe that the highly capable 
scientists and engineers at the NNSA national laboratories and 
production facilities will be able to address issues that arise in an 
aging, smaller nuclear stockpile by utilizing and further advancing our 
exceptional computational and experimental tools and employing the full 
range of life-extension program (LEP) options.
    My optimism is tempered by recent funding trends in--what to date--
has been a very successful Stockpile Stewardship Program. Continuing 
success in the program's scientific and technically challenging 
activities will require additional new investments in major facilities 
and particular attention to sustaining the skills of our workforce. 
Budget constraints to date have resulted in deferral of life-extension 
programs (LEPs) and slower warhead surveillance rates than is 
technically desired. These constraints have also delayed production 
schedules; postponed important deliverables in science, technology, and 
engineering; delayed resolution of identified stockpile issues; and 
hindered efforts to develop modern and efficient manufacturing 
processes. In addition, there are fewer highly skilled stockpile 
stewards supporting the program than were present as recently as 5 
years ago. Our Laboratory now has 2,608 scientists and engineers--609 
fewer than in May 2005. Concurrently, stewardship is becoming 
technically more challenging as weapons continue to age beyond their 
intended lifetimes. In my 2009 Annual Stockpile Assessment letter to 
the Secretaries of Defense and Energy and the Chairman of the Nuclear 
Weapons Council, I expressed concerns about the impact that these 
trends will have on sustaining confidence in the stockpile.
    The FY 2011 budget request seeks to reverse recent funding trends 
and reflects the need for increased investment to maintain sufficient 
capability to ensure the viability of the U.S. stockpile. The Nation's 
nuclear strategy--with or without the planned stockpile reductions--
requires a Stockpile Stewardship Program that is balanced, integrated, 
and sustained over time. NNSA has provided to Congress its Stockpile 
Stewardship and Management Plan, which is funded in the FY 2011 Budget 
Request with a 9.8-percent increase ($624 million) compared to FY 2010. 
This is a good start, but only a start. The increased level of 
investment must not only be sustained but grow over time to provide for 
construction of new facilities and support increased LEP activities.
    My testimony emphasizes several key points about a balanced, 
integrated, and sustained Stockpile Stewardship Program:

   Accomplishments.--Stockpile stewards have achieved many outstanding 
        successes since the program began. These accomplishments give 
        me confidence that the ``science based'' approach being pursued 
        is a workable path forward for sustaining the safety, security, 
        and effectiveness of the nation's nuclear deterrent.
   A Sustainable Program.--Stockpile stewardship is scientifically and 
        technically very demanding. It is a very active, integrated 
        program and to sustain it, its interdependent facets must be 
        adequately funded to progress in a balanced manner.
   The Budget.--With the President's FY 2011 budget, we can begin to 
        reinvigorate the Stockpile Stewardship Program. The requested 
        additional funds will enable greater progress on many fronts--
        from stockpile life-extension activities, to recapitalizing the 
        infrastructure, improving assessment capabilities, and building 
        the knowledge base required to answer increasingly difficult 
        questions about weapon performance over its full life cycle.
   Life-Extension Programs.--Options for life-extension programs 
        (LEPs) will be based on previously tested nuclear designs. We 
        will consider, on a case-by-case basis, the full range of LEP 
        options (refurbishment, reuse, and replacement) to provide 
        findings and technical recommendations for engineering 
        development decisions.
   The Workforce.--The Stockpile Stewardship Program's most valuable 
        and irreplaceable assets are the unique individuals who sustain 
        it. Confidence in the stockpile ultimately depends on 
        confidence in the stockpile stewards at the NNSA laboratories 
        and production facilities. We must attract top talent to the 
        program and sustain over time specialized technical skills and 
        expertise, which provide the basis for judgments about the 
        stockpile and stewardship actions taken, through mentoring and 
        hands-on experience.
          science-based stockpile stewardship accomplishments
    The science-based Stockpile Stewardship Program was launched on the 
premise that by developing a much more thorough understanding of the 
underlying science and technology that governs nuclear weapons 
performance, the country could maintain confidence in the stockpile 
without requiring nuclear testing. The knowledge gained must be 
sufficiently detailed to assess with confidence the safety, security, 
and effectiveness of the stockpile. We must have the ability to deal 
with whatever issues arise using existing nuclear test data together 
with advanced computational and experimental tools. Very ambitious 
goals were set to expeditiously develop increasingly sophisticated 
tools and apply them to arising issues in an aging stockpile.
    We have made significant progress since the Stockpile Stewardship 
Program began. Use of the many tools and capabilities developed since 
the end of nuclear testing has greatly increased our understanding and 
knowledge of the stockpile. These tools and capabilities, together with 
the existing nuclear test database, have enabled the NNSA laboratories 
to annually assess and, as required, extend the life of the warheads in 
the U.S. stockpile. Some highlights--featuring work at LLNL--include:

   High-Performance Computing.--At its onset, the Stockpile 
        Stewardship Program set the extremely challenging goal--many 
        thought unachievable--of improving scientific computing 
        performance by a factor of a million over a decade. That goal 
        was achieved with the delivery of the 100-trillion-operations-
        per-second ASC Purple supercomputer to LLNL in 2005. The 
        machine has served as a workhorse for all three NNSA 
        laboratories, performing very demanding 3-D weapons 
        simulations. This highly successful partnership between NNSA 
        and the high-performance computing industry continues with the 
        20,000-trillion-operations-per-second Sequoia machine, which is 
        on track to become operational at LLNL in 2012.
   High-Fidelity Weapons Physics Simulations.--Laboratory physicists 
        and computer scientists stepped up to the challenge of 
        developing weapons simulation codes that model the physics with 
        far greater fidelity and run efficiently on computers with 
        thousands of processors working in parallel. In 2002, LLNL 
        scientists performed the first-ever complete 3-D simulation of 
        a nuclear weapon explosion--with a level of spatial resolution 
        and degree of physics realism previously unobtainable. 
        Supercomputers have also been used to gain valuable insights 
        into the properties of materials at extreme conditions and 
        details about the formation and growth of hydrodynamic 
        instabilities. These improved capabilities have made possible 
        expeditious development of LEP design options and their 
        certification.
   Vastly Improved Experimental Capabilities.--Thoroughly diagnosed 
        nonnuclear tests are used to gather input data for weapons 
        physics simulation models and validate their performance. 
        Experiments at LLNL's Contained Firing Facility and the Dual-
        Axis Radiographic Hydrodyanamic Test (DARHT) Facility at Los 
        Alamos National Laboratory (LANL) have provided key 
        hydrodynamic performance information for applications ranging 
        from LEPs to weapon safety studies. Data from the Joint 
        Actinide Shock Physics Experimental Research (JASPER) gas-gun 
        experiments were instrumental in the very successful plutonium 
        aging study, and tests conducted at LLNL's High Explosives 
        Applications Facility (HEAF) enable improved modeling of aging 
        high explosives. With commissioning of the National Ignition 
        Facility (NIF) in 2009, stockpile stewards now have an 
        experimental facility capable of creating the temperatures and 
        pressures necessary to study the physics of the nuclear phase 
        of weapons performance.
   Improved Understanding of Materials Aging and Weapons 
        Performance.--A long-term study by LLNL and LANL concluded that 
        the performance of plutonium pits in stockpiled weapons will 
        not sharply decline due to aging effects--a result with 
        important implications in planning the future of the production 
        complex. Through simulations and experiments, we have a much 
        deeper understanding of the behavior and aging properties of 
        weapons materials ranging from plutonium and high explosives to 
        crystalline metals and polymers. Recently an LLNL scientist 
        received an E.O. Lawrence Award for breakthrough work to 
        resolve a previously unexplained 40-year-old anomaly that was 
        one of the factors that drove the need for continued nuclear 
        testing. Now, in simulation codes, a physics-based model can 
        replace the use of an ad hoc calibration factor that had to be 
        adjusted depending on weapon design specifics and nuclear test 
        data. The effort involved combining high-fidelity nonnuclear 
        experiments, the latest simulation tools, and reexamination of 
        archival nuclear test data. Experiments at NIF are serving to 
        confirm the model.
   Successful Life-Extension Program.--In 2004, NNSA successfully 
        completed its first program to extend the lifetime of a 
        stockpiled weapon without resorting to nuclear testing. 
        Refurbishment of the W87 ICBM warhead--the design in the 
        stockpile with the most modern safety features--extends the 
        weapon's life by 30 years. LLNL (with Sandia National 
        Laboratories) developed and certified the engineering design 
        and worked closely with the production facilities to ensure the 
        product quality. The program has served as a model of the 
        processes to be followed by subsequent and future LEPs. Today, 
        the NNSA, its laboratories, and production facilities have 
        continued this success with a major program to extend the life 
        of the very important W76 Trident II SLBM warhead.

    The successes to date have also given us insight into the better 
tools that are needed and science and technology areas that require 
continued work. These improvements will put our annual assessment of 
the stockpile on the firmest footing and provide us the insight and 
tools to make wise decisions and ensure the safety, security, and 
effectiveness of the stockpile as we move forward. For instance, from 
simulations performed to date, we have learned that we will need at 
least exascale--1,000,0000 trillion operations per second--to fully 
resolve the phenomena we have discovered.
  a balanced, integrated, and sustained stockpile stewardship program
    Stockpile Stewardship Program accomplishments to date give us 
confidence that the ``science based'' approach being pursued is a 
workable path forward to sustaining the safety, security, and 
effectiveness of the Nation's nuclear deterrent. Stockpile stewardship 
is scientifically and technically very demanding, yet the high-caliber 
experts at the national laboratories have proven themselves worthy of 
this major challenge time and time again.
    Since 2005, the buying power of NNSA's Defense Programs has 
declined approximately $1B. Yet, the program will grow even more 
demanding as nuclear weapons continue to age far beyond their intended 
lifetime. As the stockpile continues to be downsized, even more 
pressure will arise to understand the state of each individual weapon. 
More difficult manufacturing issues are arising in life-extension 
programs (LEPs) and we have largely exhausted available options to 
improve performance margins through changes external to the warhead 
package.
    There is growing widespread recognition that the Stockpile 
Stewardship Program--its workforce and facilities--must be 
reinvigorated to sustain a safe, secure, and effective nuclear arsenal 
over the long run. Reports commissioned by Congress (e.g., America's 
Strategic Posture and the Stockpile Stewardship and Management Plan 
prepared by NNSA) and reviews pursued by the executive branch (e.g., 
the 2010 Nuclear Posture Review (NPR)) have concluded that 
significantly increased investments are needed to support (in the words 
of the NPR) ``a modern physical infrastructure--comprised of the 
national security laboratories and a complex of supporting facilities--
and a highly capable workforce with the specialized skills needed to 
sustain the nuclear deterrent.''
    A balanced and sustainable Stockpile Stewardship Program integrates 
stockpile support activities--which include weapons surveillance, 
assessments, and as necessary, life-extension programs--with 
investments to modernize facilities and efforts to greatly improve 
scientific understanding of the details of nuclear weapons components 
and their performance. The many facets of the program are tightly 
interconnected. Even with stable overall funding at an adequate level 
of support, long-term success requires judicious balancing of evolving 
priorities and appropriate levels of effort.
    Weapons Surveillance (to predict and detect the effects of aging 
and other stockpile issues).--We need to step up the rate of stockpile 
surveillance and continue to become more proficient at detecting and 
predicting potential problems early. The use of embedded sensors, which 
we are developing, would enable persistent surveillance and improve our 
knowledge of the specific state of each stockpiled weapon. Data would 
be indicative, for example, of aging and degradation, mechanical 
integrity, and exposure to harsh environments. In addition, we are 
developing ever more sophisticated tools to study how aging alters the 
physical characteristics of weapon materials and how these changes 
affect weapon effectiveness and safety.
    Assessments (to analyze and evaluate effects of changes on weapon 
safety and performance). The Stockpile Stewardship Program includes a 
comprehensive set of activities to annually assess each weapons system 
and to address issues that arise. It is particularly important, in my 
view, for processes to actively engage both centers of nuclear design 
expertise--LLNL and LANL--to provide independent assessments. This is 
much like having a serious illness: advice from more than one 
independent source is crucial to the decisionmaking process. As we move 
further and further from a workforce that has actually tested a nuclear 
device, the independence of the two design centers is increasingly 
important. Our assessments are also benefiting from the development of 
Quantification of Margins and Uncertainties, a methodology that is 
increasing the rigor of weapon certification and the quality of annual 
assessments. To the extent possible, our assessments require rigorous 
scientific and engineering demonstration and evaluation. As described 
below, we have been acquiring increasingly powerful tools to do so.
    Life-Extension Programs (to sustain the stockpile through 
refurbishment, reuse, and/or replacement).--The laboratories must work 
closely with production facilities to integrate the production of parts 
with the development of new materials and manufacturing processes. 
Manufacturing is a particularly demanding challenge because the plants 
have to overcome extensive infrastructure and operational challenges 
and production technologies need modernization. Options for LEPs must 
be thoroughly analyzed to present decision makers with low risk, cost 
efficient alternatives to consider.
    Science and Technology Foundations (to provide stockpile support 
through a thorough understanding of nuclear weapon performance and 
sustain the necessary base of specialized skills).--In ``keystone 
question'' areas such as boost physics and energy balance, Predictive 
Capability Framework campaigns utilize our advanced stockpile 
stewardship tools to fill gaps in knowledge about nuclear weapon 
performance relevant to existing or expected issues about stockpiled 
weapons. These activities integrate the use of state-of-the-art high-
performance computers, high-fidelity simulation models, and data 
gathered from exceptional experimental facilities. This cutting-edge 
research both provides data for stockpile stewardship and enables the 
retention of nuclear weapons expertise in a staff that increasingly 
will have no nuclear test experience. We must nurture and exercise the 
scientific judgment of stockpile stewards.
    Modernized Facilities and Infrastructure (to replace major 
facilities for processing plutonium and uranium and upgrade the 
physical infrastructure of the weapons complex).--NNSA's plans are to 
pursue the Chemistry and Metallurgy Research Replacement-Nuclear 
Facility (CMRR-NF) project at LANL and build a new Uranium Processing 
Facility (UPF) at the Y-12 Plant in Oak Ridge, Tennessee. Currently, 
these more-than-50-year-old facilities for processing plutonium and 
uranium are oversized, increasingly obsolete, and costly to maintain. 
They are also safety, security, and environmental concerns. These two 
are high priority and the most costly of numerous infrastructure 
modernization projects throughout the complex. Because of these 
projects, substantial increases above the FY 2011 budget will be 
required to sustain a balanced, integrated overall program. As the cost 
baselines are better defined, the changes that occur must be 
accommodated without upsetting overall program balance--the balance 
among science, technology, and engineering; life extensions of the 
stockpile; and recapitalization of the infrastructure.
        implications of the president's fy 2011 budget proposal
    NNSA has provided to Congress its 10-year Stockpile Stewardship and 
Management Plan, developed as a complement to the NPR and New START. 
The plan is funded in the FY 2011 Budget Request with a 9.8-percent 
increase ($624 million) compared to FY 2010. This is a good start and 
will address a number of immediate needs for FY 2011. It is noteworthy 
that the plan calls for significant increases in the out years, as 
increasing levels of funding will be required for the LEPs and 
construction of major facilities. The FY 2011 budget request will serve 
to meet most needs in the three overarching areas:
    Science, Technology, and Engineering (for technical assessments and 
certification of the stockpile).--Assessments of the condition of 
weapons and certification of the engineering design of implemented LEPs 
depend on the critical judgments of stockpile stewards and their 
nuclear weapons expertise. Both are developed by hands-on experience 
working challenging nuclear weapons science, technology, and 
engineering issues. In addition to supporting stockpile needs and 
building expertise, this work also advances ourfundamental 
understanding of nuclear weapons performance so that future stockpile 
stewards will be able to tackle even more difficult issues as they 
arise. The increased funding from FY 2010 levels will provide a 
critically needed boost to activities:

   Stockpile Assessments.--The funding increase in FY 2011 will 
        support implementation at the NNSA laboratories of a new dual 
        validation process that was established in the FY 2010 National 
        Defense Authorization Act. The Independent Nuclear Weapon 
        Assessment Process (INWAP) will strengthen annual assessments. 
        Two sets of challenge teams (one from LLNL and SNL and the 
        other from LANL and SNL) are being formed. Both the challenge 
        team and the ``home team'' will have access to all relevant 
        data and analysis about a weapon system-to be applied to annual 
        assessments and peer reviews of significant finding closures 
        and LEP certifications.
   Keystone Science Issues.--Science campaigns in the Stockpile 
        Stewardship Program aim at filling major gaps in our knowledge 
        about nuclear weapon performance--for example, in the areas of 
        energy balance and boost physics. The goal is to remove 
        ``adjustable parameters'' in our simulations and replace them 
        with first-principles physics models. Such improvements are 
        critically important to providing high confidence in the 
        difficult decisions that might arise in sustaining an aging 
        stockpile.
      This extremely challenging research calls for a concerted effort 
        that combines continuing advances in high-performance computing 
        with well-diagnosed experiments at the laboratories' unique 
        experimental facilities. We have a golden opportunity to 
        dramatically advance our knowledge base. Progress, in 
        particular, depends on effective use of NIF (allowing stockpile 
        stewards to experimentally explore the physics of nuclear 
        phases of nuclear weapons performance), DARHT, JASPER, and our 
        other smaller scale experimental facilities. Importantly, 
        efforts to support these keystone science issues are increased 
        in the FY 2011 budget request.

   Research and Development on Technology Advances for Stockpile 
        Support.--An important responsibility of the NNSA laboratories 
        is to explore what is technically possible in nuclear design. 
        Exploratory studies hone the skills of stockpile stewards and 
        help us to avoid technical surprise from other nations' nuclear 
        weapons activities. In addition, we develop advanced 
        technologies that could be applied to the U.S. stockpile, 
        consistent with the goal of no new weapons or improvements in 
        militarycapabilities. These include means for substantially 
        improving weapon safety and security that could be implemented 
        as part of an LEP. The proposed budget increases will help 
        accelerate progress in this area to ensure availability of 
        these technologies as LEPs are proposed and carried out over 
        the coming decade.
   Advances in High-Performance Computing.--We have made remarkable 
        advances in high-performance computing and simulations, yet it 
        is imperative that we continue to make rapid progress. Early 
        success in the Stockpile Stewardship Program brought us 
        ``terascale'' computing (trillions of operations per second); 
        we now reached ``petascale'' (thousands of trillions); and we 
        need ``exascale'' (millions of trillions) for two reasons. 
        Petascale makes 3-D high-fidelity simulations of weapons 
        performance practical. However, better models of boost physics 
        and thermonuclear burn processes still need to be developed (in 
        concert with experiments). That will require much greater 
        computing horsepower. Secondly, as mentioned above, the 
        underpinning of our assessment and certification is uncertainty 
        quantification. Rigorous implementation of the methodology for 
        each weapon system requires the running of many thousands of 
        high fidelity 3-D simulations to map out the impact of 
        uncertainties on weapon performance; hence, the need for much 
        greater computing power.
      The proposed FY 2011 budget adequately supports computer center 
        operations at LLNL and acquisition of the 20-petaflop Sequoia 
        machine, which will become operational in 2012. More than a 
        factor of ten faster than the current best, it is the next 
        major advance in high-performance computing. Now is the time to 
        start planning and preparing for the next step toward exascale, 
        which is a grand challenge requiring additional resources.

    An Active LEP Effort Together With Aggressive Surveillance.--As 
mentioned below, a number of stockpile systems require LEPs in the next 
one-to-two decades. Over the past two decades, two LEPs have been 
completed. Over the next 10 years, plans call for the the completion of 
one in progress, start of two full-scope LEPs, and preparation 
activities for additional LEPs the following decade. In addition to LEP 
support, funding needs to be increased from FY 2010 levels to address 
current surveillance shortfalls and mature safety and security 
technologies for production readiness for future LEPs. We look forward 
to participating in a study to identify and evaluate LEP options for 
the W78 Minuteman III ICBM warhead, which is planned to begin in FY 
2011. NNSA has announced its intention to assign the W78 LEP to LLNL. 
The FY 2011 budget request provides adequate support for our B61 LEP 
peer review responsibilities as well as our responsibilities to support 
existing LLNL-designed stockpile systems.

    Recapitalization of Plant and Laboratory Infrastructure.--
Recapitalization is necessary to build a responsive infrastructure able 
to meet program and production needs. This includes fulfilling science, 
technology, and engineering program objectives and production 
requirements. Such an infrastructure is essential to the complex's 
ability to respond in a timely manner to technical issues and/or 
emerging threats. In addition to planning for and construction of new 
facilities (including the very major investments in CMRR-NF and UPF), 
adequate investments are needed for Readiness in Technical Base and 
Facilities (RTBF) for operations in and maintenance of existing 
facilities. My direct concern at LLNL is obtaining sufficient funding 
in FY 2011 to support operations at HEAF, which is a one-of-a-kind 
facility for research and development in high explosives and energetic 
materials, and to support Site 300, the Laboratory's remote 
experimental site which is home to the Contained Firing Facility.
                        life-extension programs
    Warhead life-extension programs are undertaken to address issues 
discovered through surveillance and review processes supporting annual 
assessments. The role of the LEP is to fix issues that impact overall 
system effectiveness and extend stockpile life.
    Effectiveness is influenced by many factors. Nuclear weapons are 
not static devices; their chemical and physical properties or 
characteristics change over time. While plutonium pits have been 
determined to have a very long service life, aging affects the 
performance of a number of important components including metals other 
than plutonium, polymers, neutron generators, and gas transfer systems. 
In addition, there are many other potential causes of decreased 
confidence in effectiveness--ranging from design flaws to material 
compatibility issues. Experience has shown that at least one major new 
and unanticipated issue is discovered approximately every 5 years.
    Thus far, we have been able to retain confidence in warhead safety 
and effectiveness by offsetting identified increased uncertainties with 
corresponding increases in performance margins. They have been obtained 
by changes external to the nuclear explosives package or by relaxing or 
eliminating military requirements (in coordination with the Department 
of Defense). Options to further improve these margins have largely been 
exhausted.
    Several LEPs activities are in progress and/or recommended by the 
NPR, and they are supportable with the proposed FY 2011 budget. The W76 
Trident II SLBM warhead LEP is well underway. The initial design 
activities began in FY 2000 and the final refurbished weapon is 
expected to be delivered in FY 2017. In FY 2011, concept development is 
scheduled for completion in preparation for a full-scope LEP for the 
family of B61 nuclear bombs. The first production unit is planned for 
FY 2017. In addition, a study to identify and evaluate LEP options for 
the W78 Minuteman III ICBM warhead will begin in FY 2011. The NPR 
proposes that this study consider the possibility of having the 
resulting warhead be adaptable to multiple platforms in order to 
provide a cost effective hedge against future problems in the deployed 
stockpile. The first production unit is projected in FY 2021.
    These plans for future LEPs are based on consideration of weapon 
system age and early indicators of impending issues that will need to 
be addressed. LEP activities formally start with a Phase 6.1 (or Phase 
6.2) study conducted jointly with the DOD, which follows processes and 
procedures that were established for developing weapons during the cold 
war and have been adapted for LEPs. These joint concept development 
efforts consider military requirements and explore LEP options to meet 
the requirements. They involve extensive supercomputer simulation 
efforts and supportive experimental activities, thorough interactions 
with the NNSA production facilities and DOD contractors, and extensive 
peer review.
    Within the Laboratory, we consider the full range of technical 
options to address military requirements that need to be balanced--for 
example, form fitting and functioning with an existing delivery system 
while providing enhanced safety (e.g., insensitive high explosive). In 
doing so, we consider tradeoffs that emphasize one requirement over 
another. The output of these evaluations is a set of recommended 
options for the U.S. Government to consider in deciding on the specific 
LEP option to proceed to engineering development (Phase 6.3). After a 
decision to proceed to full-scale development is made, we follow a very 
disciplined engineering process that involves the design agencies, 
production agencies, and the responsible military service.
    LEPs provide the opportunity to consider adding new safety and 
security features without degrading overall effectiveness or 
introducing new military capabilities. Some of these safety and 
security improvements are ready for deployment now and would make a 
significant improvement; other even more effective approaches require 
further research. Considered features would be based on previous 
nuclear tests. Intrinsic surety, which incorporates the safety and 
security features inside the nuclear explosives package, provides the 
highest level of safety and protection against terrorist threats. 
Examples range from enhanced fire safety to technologies that make 
acquisition of special nuclear materials from U.S. nuclear weapons of 
little to no value to a terrorist.
    The decision to add surety features is up to the U.S. Government, 
and the technical feasibility of specific safety and security features 
depends on the weapon and approach taken to extend its life. The 
current LEP approach (refurbishment only) limits the range of safety 
and security features that can be incorporated into certain weapons 
systems.
    The options studied for LEPs will be based on previously tested 
nuclear designs. To best manage risk, we will consider, on a case-by-
case basis, the full range of LEP approaches characterized by the three 
discrete options along the spectrum of possibilities:

   Warhead Refurbishment.--Nuclear explosive package (NEP) composed of 
        existing or newly manufactured components originally designed 
        for that warhead.
   Warhead Component Reuse.--NEP composed of components previously 
        manufactured for the stockpile (includes new production of 
        previously manufactured components).
   Warhead Replacement.--NEP component not previously produced for the 
        stockpile (based on tested designs).

    All potential approaches--or, more likely, combinations of 
approaches--need to be examined because the areas of most significant 
risks vary, and often times, have to do with costs, manufacturing 
issues, the importance of improvements in margins, safety and security, 
and long-term maintenance and surveillance. These factors differ from 
system to system, and the various LEP approaches differ in the degree 
to which they provide flexibility to manage identified risks. They also 
differ in the degree to which they exercise the skills and capabilities 
of our people, which is an important consideration in sustaining an 
experienced workforce. Assessment and certification challenges depend 
primarily on design details and associated margins and uncertainties 
rather than the type of LEP approach considered.
    Consideration of the full range of LEP options provides the 
necessary technical flexibility to manage the stockpile with an 
acceptable level of risk. Our findings and recommendations in studies 
of options will be based solely on our best technical assessments of 
cost, risk, and ability to meet stockpile management goals. In 
decisions to proceed to engineering development, the U.S. Government 
can consider a number of factors for particular LEP approaches.
                        the importance of people
    Long-term success in stockpile stewardship fundamentally depends on 
the quality of people in the program. If the nation is not confident in 
the expertise and technical judgments of the stewards, the nation will 
not have confidence in the safety, security, and effectiveness of our 
nuclear deterrent. Over the years, exceptional scientists and engineers 
have been attracted to LLNL by the opportunity to have access to the 
world-class facilities, to pursue technically challenging careers, and 
to work on projects of national importance. A Stockpile Stewardship 
Program that is stable, technically challenging, and of recognized 
importance to the nation is critical to the future success of the 
program--and to the Laboratory in carrying out its national security 
responsibilities.
    The specialized technical skills and expertise required for 
stockpile stewardship, which come through mentoring and hands-on 
experience, take a long time to develop. Program stability is 
critically important, and it requires a balanced, integrated Stockpile 
Stewardship Program that has sustained bipartisan support and is 
sufficiently funded over the long term. We welcome a strong affirmation 
by the administration and Congress of the importance of the NNSA 
laboratories' work in maintaining the U.S. nuclear deterrent through 
stockpile stewardship.
    An important benefit of a strong Stockpile Stewardship Program is 
that this foundational program helps the NNSA laboratories in meeting 
broader national security objectives. Clearly, nuclear weapons 
expertise is directly applicable to the nuclear security challenges of 
proliferation and terrorism. Other areas of national defense, domestic 
and international security, and energy and environment security also 
benefit from LLNL's broad scientific and technical base and 
international leadership in areas such as high-performance computing.
    These activities further strengthen our science and technology 
workforce, add vitality to the Laboratory, spin new ideas and 
additional capabilities into the weapons program, and serve as a 
pipeline to bring top talent to LLNL so that we continue to provide the 
nation outstanding stockpile stewards. A broader base of national 
security programs at the NNSA laboratories is not a substitute for a 
strong Stockpile Stewardship Program; neither is it a distraction from 
our defining mission and responsibilities to sustain the nation's 
nuclear deterrent.
                            closing remarks
    My testimony describing the successes and future challenges in 
stockpile stewardship supports and amplifies a joint statement my 
fellow NNSA laboratory directors and I issued when the Nuclear Posture 
Review was released. We made two key points.
    First, that a Stockpile Stewardship Program which ``includes the 
consideration of the full range of life extension options 
(refurbishment of existing warheads, reuse of nuclear components from 
different warheads, and replacement of nuclear components based on 
previously tested designs), provides the necessary technical 
flexibility to manage the nuclear stockpile into the future with an 
acceptable level of risk.''
    Second, that ``We are reassured that a key component of the NPR is 
the recognition of the importance of supporting a modern physical 
infrastructure--comprised of the national security laboratories and a 
complex of supporting facilities--and a highly capable workforce with 
the specialized skills needed to sustain the nuclear deterrent.''
    Finally, I would like to again thank the committee for your 
interest in and continued support for stockpile stewardship.

    The Chairman. Thank you, Dr. Miller.
    Dr. Hommert.

  STATEMENT OF DR. PAUL J. HOMMERT, DIRECTOR, SANDIA NATIONAL 
                 LABORATORIES, ALBUQUERQUE, NM

    Dr. Hommert. Chairman Kerry, Ranking Member Lugar, and 
distinguished members of the Senate Foreign Relations 
Committee, thank you for the opportunity to testify.
    I'm Paul Hommert, director of Sandia National Laboratories, 
a multiprogram national security laboratory. I'm honored to be 
here today with my colleagues from Los Alamos and Livermore to 
testify on sustaining nuclear weapons under New START.
    Within the policy outlined in the NPR, the collective DOD 
and NNSA guidance documents, the FY11 budget request, and the 
force-structure terms of New START, I am confident that Sandia 
can provide the required support for the Nation's nuclear 
deterrent. This confidence comes from our assessment of 
stockpile management requirements against our mission, product 
space, and capabilities.
    Within the nuclear weapons complex, Sandia is responsible 
for the design and qualification of nonnuclear components that 
ensure the weapons perform as intended when authorized, and 
remain safe and secure otherwise. We are responsible for 
hundreds of highly specialized components with extremely high 
reliability specifications and unique, often very harsh 
environmental requirements.
    Today, we are facing new challenges. The weapons in the 
stockpile are aging and were designed when long life was not a 
high priority. The radar for the first B61 bomb, for example, 
was designed for a 5-year lifetime. There are B61s in the 
stockpile today with components that date back to the 1960s. It 
is a credit to the Stewardship Program that we have the 
economical knowledge to support continued confidence in these 
weapons system as they age.
    What are the keys to managing the stockpile into the 
future?
    First, a strong and modernized surveillance program 
tailored to the needs of an aging smaller stockpile to underpin 
our annual assessment findings and recommendations. While this 
is essential for the future, it is not sufficient. Through 
surveillance activities to date, we have already established a 
number of stockpile concerns that we must address.
    Thus, the second element is the life-extension programs, 
foremost for us being the B61. This is an immediate challenge 
for Sandia, with a demanding schedule and a technical scope 
more than twice that of the W76 life-extension program. I 
support the full-scope approach called for by the NPR, and 
would be very concerned if we only replaced nonnuclear 
components with the most immediate aging issues with those--and 
chose to reuse other nonnuclear components, some of which are, 
even now, over 40 years old.
    In addition to the surveillance program and the life-
extension programs, we must give strong attention to sustaining 
capabilities for the future. This--the highest priority is the 
vitality of our design competencies. In recent years, 
uncertainties surrounding requirements for the stockpile 
resulted in programmatic instability noted by the JASON panel 
as a threat to the stewardship program. Today, nearly half of 
the Sandia staff with experience in major weapons system 
efforts are over the age of 55. Their remaining careers will 
not span the upcoming life-extension program. This puts a 
premium, going forward, on stable, multiyear program direction 
and resources to provide opportunities for new technical staff 
to work with experienced designers.
    Also key to sustainment is keeping pace with modern-day 
technologies. As an example, consider microelectronics, where, 
since we began our most recent full-system-development effort, 
the W88 in 1983, there has been a quantum leap in 
miniaturization and microelectronics functionality that offer 
real potential for enhancement to stockpile safety and 
security, which we will realize in the B61.
    Infrastructure sustainment is also critical. We have world-
class facilities, where we perform a range of scientific 
research and product qualification, but we also have outdated 
facilities that were commissioned in the 1950s and 1960s. We 
are working with NNSA to complete revitalization of our 
environmental test capabilities required to support the design 
of the B61 and subsequent LEPs, and to recapitalize the tooling 
in our trusted microelectronics foundry.
    At Sandia, our broad national security work is critical to 
sustainment. We are well poised to support the New START regime 
and to continue our contributions to the nuclear security, 
nonproliferation, and counterterrorism objectives of the 
Nation.
This work exercises and strengthens many of our nuclear weapons 
capabilities.
    New START would not constrain the upcoming life-extension 
imperatives. However, it does reinforce the importance of a 
modern stockpile and a responsive infrastructure as we move 
forward toward a smaller arsenal.
    Let me close by summarizing the keys to success, going 
forward: a robust surveillance program, stable life-extension 
programs, and unyielding attention to sustaining the key 
aspects of our capabilities for the future--people, 
technologies, infrastructure, and our broader national security 
programs.
    Thank you, and I welcome your questions.
    [The prepared statement of Dr. Hommert follows:]


 Prepared Statement of Dr. Paul J. Hommert, Director, Sandia National 
                     Laboratories, albuquerque, NM

                              introduction
    Chairman Kerry, Ranking Member Lugar, and distinguished members of 
the Senate Foreign Relations Committee, thank you for the opportunity 
to testify. I am Paul Hommert, President and Director of Sandia 
National Laboratories. Sandia is a multiprogram national security 
laboratory owned by the United States Government and operated by Sandia 
Corporation \1\ for the National Nuclear Security Administration 
(NNSA).
---------------------------------------------------------------------------
    \1\ Sandia Corporation is a subsidiary of the Lockheed Martin 
Corporation under Department of Energy prime contract no. DE-AC04-
94AL85000.
---------------------------------------------------------------------------
    Sandia is one of the three NNSA laboratories with responsibility 
for stockpile stewardship and annual assessment of the Nation's nuclear 
weapons. Within the U.S. nuclear weapons complex, Sandia is responsible 
for the design, development, and qualification of nonnuclear components 
of nuclear weapons. It is also responsible for the systems engineering 
and integration of the nuclear weapons in the stockpile. While nuclear 
weapons remain Sandia's core mission, the science, technology, and 
engineering capabilities required to support this mission position us 
to support other aspects of national security as well. As a 
multiprogram national security laboratory, Sandia also conducts 
research and development in nuclear nonproliferation, nuclear 
counterterrorism, energy security, defense, and homeland security.
    The policy framework outlined in the 2010 Nuclear Posture Review 
(NPR) Report, the high-level implementation plan established by the FY 
2011 Stockpile Stewardship and Management Plan and the Report in 
Response to NDAA FY 2010 Section 1251, New START Treaty and Nuclear 
Force Restructure Plans (to be referred to as Section 1251 Report), and 
the funding profile described in the Department of Energy FY 2011 
Congressional Budget Request weave the fabric of a compelling strategic 
future for U.S. nuclear weapons policy. In this context and in view of 
the New START Treaty, my statement today will address five closely 
related issues: (1) the U.S. nuclear stockpile today and in the future; 
(2) stockpile surveillance; (3) the life extension programs; (4) a 
retrospective of stockpile stewardship; and (5) verification 
technologies.
           the u.s. nuclear stockpile today and in the future
    As noted in the Nuclear Posture Review Report, ``The fundamental 
role of U.S. nuclear weapons, which will continue as long as nuclear 
weapons exist, is to deter nuclear attack on the United States, our 
allies, and our partners'' (p. vii). Since the end of the cold war, the 
stockpile has become smaller in total numbers and comprises fewer 
weapon types, and its size will continue to decrease. It is natural 
that nuclear weapons policy in the post-cold-war era should be 
reevaluated in light of 21st century threats. The administration's 
joint objectives of maintaining a safe, secure, and effective nuclear 
arsenal and, at the same time, strengthening the global 
nonproliferation regime and preventing nuclear terrorism provide a 
challenging, significant role for Sandia and, indeed, for all those 
involved in the nuclear weapons program.
    Within the context of the nuclear weapons policy outlined in the 
Nuclear Posture Review Report and the collective guidance for 
implementation provided in the FY 2011 Stockpile Stewardship and 
Management Plan, the Section 1251 Report, and the Department of Energy 
FY 2011 Congressional Budget Request, and under the New START Treaty 
terms, I am confident that Sandia can fulfill its responsibilities in 
support of the Nation's nuclear deterrent. That confidence comes from 
our assessment of the stockpile management requirements against our 
mission and product space and our capabilities. In their totality, the 
documents describing the future of the U.S. nuclear deterrent represent 
a well-founded, achievable path forward, which I understand and 
support. However, as we stand on the threshold of the next era of 
stockpile stewardship and management, we must recognize the challenges 
inherent in this framework. A significant body of work is required to 
sustain the deterrent into the next two decades, and we must ensure 
that the resources are commensurate with the requirements and 
expectations. Specifically, I can be confident that the totality of the 
stockpile management and deterrent policy can be supported only if the 
FY 2011 budget is authorized and appropriated at the level of the 
administration's request and the national significance of our mission 
is sustained.
Mission and Product Space
    Sandia is responsible for the systems engineering and integration 
of the nuclear weapons in the U.S. stockpile. As systems integrator, we 
are responsible for numerous unique and challenging assignments, 
including the engineered interfaces from the warheads to the delivery 
platforms and surveillance management at the weapon system level for 
the nuclear weapons complex-both flight testing and system-level ground 
testing.
    Sandia is the nonnuclear component design agency for NNSA. The 
components that we design ensure that the weapons will perform as 
intended when authorized through the U.S. command and control 
structure, and that they remain safe and secure otherwise. These 
critical functions are provided through our core products of arming, 
fuzing, and firing systems (AF&Fs), neutron generators, gas transfer 
systems, and surety systems. We are responsible for literally hundreds 
of major components in the stockpile. Our products are highly 
specialized electrical, microelectronic, electromechanical, chemical, 
and explosive components with extremely high reliability specifications 
and unique, very harsh environmental requirements. For example, an 
``intent stronglink'' is a component that prevents a nuclear weapon 
from being armed until a unique string of code is entered indicating 
human intent. Even in the most recent designs, there are more than 200 
parts in a component the size of a cell phone. We are also responsible 
for ``weaklink'' components, which are designed to fail in a manner 
that precludes inadvertent nuclear detonation in accident scenarios 
such as those involving fire or lightning. These safety components must 
meet stringent requirements.
    Sandia designs, engineers, and integrates these specialized 
products into the Nation's nuclear arsenal through the efforts of a 
world-class workforce and highly specialized tools, facilities, and 
equipment. However, to fulfill our responsibilities for the deterrent 
into the future, we are facing new challenges.
    Consider first that most of the weapons in the current stockpile 
were designed at a time when long design life was not typically a high-
priority design requirement. The radar for the first B61 bomb, for 
example, was originally designed for a 5-year lifetime; today there are 
B61s in the stockpile with components manufactured in the late 1960s. 
It is a credit to our Stockpile Stewardship Program that we have the 
technical knowledge base to support continued confidence in these 
weapon systems as they age. Indeed, it is also a credit to those who 
designed the current stockpile that it has lasted well beyond original 
design lifetimes. Now we are working to provide solutions that will 
extend the lifetime of our nuclear arsenal for another 30 years.
    The state of the stockpile is reported to the President through the 
annual assessment process. Through this process, we have been, and 
remain, able to assess the Nation's stockpile as safe, secure, and 
reliable. That said, as we move forward with the challenging business 
of extending the lifetimes of U.S. nuclear weapon systems, we must 
address stockpile aging and degradation, as well as technology 
obsolescence. In addition, long weapon lifetimes will become a specific 
design objective.
    While the options to refurbish, reuse, and replace are applicable 
to the nuclear explosive package, almost all of Sandia's life extension 
work will involve replacements with modern technologies. Nonnuclear 
components, by their very nature, are subject to a whole range of 
potential aging and failure modes. Although we may be able to reuse 
some of the original components, doing so uniformly would be a 
fundamentally unwise option when their service life must be extended by 
another 30 years. In addition, only modern technology will enable 
introduction into the stockpile of the safety and security required by 
the Nuclear Posture Review Report.
Stockpile Surveillance
    Stockpile surveillance and assessment play a crucial role in 
assuring the nuclear deterrent. Through these activities, we develop 
knowledge about the safety, security, and reliability of the stockpile. 
This knowledge provides the technical basis for our annual assessment 
findings and recommendations regarding the state of the stockpile. It 
also informs decisions made about the stockpile: from deployment and 
targeting to safe handling operations (routine or otherwise) and from 
there to development of new component and system design options. In 
their 2009 annual assessment letters, all three NNSA laboratory 
directors highlighted concerns about inadequate progress toward 
surveillance transformation. Former Sandia Laboratories Director Tom 
Hunter said, ``I believe that the level of commitment to a tailored and 
balanced stockpile evaluation program for our aging, smaller stockpile 
is inadequate.'' Indeed, the JASON panel reached the same conclusion in 
their 2009 life extension study.
    The Department of Energy FY 2011 Congressional Budget Request 
places high priority on stockpile surveillance, and we understand and 
agree to strengthen our knowledge and confidence in the current 
stockpile. The Surveillance Transformation Plan was established to 
better align our surveillance program with the challenges of an aging 
and smaller stockpile. The plan aims to shift the surveillance 
program's focus from finding defects to acquiring deeper scientific 
understanding of stockpile performance margins, distributions, and 
trends by creating higher fidelity diagnostics and physical and 
computational simulation capabilities. In this new framework, we will 
be better able to anticipate stockpile performance degradation and to 
schedule required actions. Yet, although essential, a strong 
surveillance program is only one component of stockpile management into 
the future. The life extension programs are another component.
                      the life-extension programs
The B61 Life-Extension Program
    The Nuclear Posture Review Report concluded that the United States 
will ``proceed with full scope life extension for the B61 bomb 
including enhancing safety, security, and use control'' (p. xiii). This 
is the most immediate stockpile challenge for Sandia. For this life 
extension, we are deliberately building multidisciplinary teams of both 
highly experienced staff and new talent, sustaining the necessary 
knowledge in the management team, providing an optimal teaming 
environment, ensuring that facilities are ready for the work, and 
piloting new processes that will benefit our life-extension work.
    Nevertheless, we find ourselves in a state of urgency, with a 
demanding schedule and expansive product requirements. The primary 
driver for the schedule of the B61 LEP is the fact that critical 
nonnuclear components are exhibiting age-related performance 
degradation. For example, the radar in the B61, which includes the now 
infamous vacuum tubes, must be replaced. In addition, both the neutron 
generator and a battery component are fast approaching obsolescence and 
must be replaced. A secondary driver for the schedule is the deployment 
of the F35 Joint Strike Fighter, which requires a new digital interface 
for the B61. Replacing the three aging components and adding the new 
digital interface represent the absolute minimum approach to this LEP. 
However, it is my judgment that we need to approach this LEP with a 
resolute commitment to replace old nonnuclear components and field a 
nuclear weapon system that employs modern technologies to improve 
safety and security and to extend service life.
    The weapon systems addressed through the LEPs of the coming two 
decades will be in our stockpile well into the second half of this 
century. The ``full'' scope for the B61 LEP called for in the Nuclear 
Posture Review Report is a prudent approach to this life extension that 
addresses aging concerns, obsolete technologies, and enhancements in 
safety, security, and use control. Notably, the scale of this LEP will 
be much larger than that of the W76 Trident II SLBM warhead LEP, which 
is now in production. Whereas the W76 LEP involved redesign and 
replacement of 18 major Sandia components, the B61 LEP involves 46 such 
components.
    To extend the lifetime of the B61, the requested FY 2011 funding is 
critical. We must complete the design definition in FY 2011 to create a 
firm understanding of system requirements and thus fully establish 
future-year budget needs. Total cost estimates for the B61 LEP are 
subject to change until the design definition and requirements are 
finalized.
    We also have considerable technology maturation work to perform in 
FY 2011. Technology maturation is a rigorous approach we apply to 
developing new technologies, from the earliest conceptual designs 
through full-scale product realization and ultimately insertion into 
the stockpile. We use a construct of technology readiness levels, first 
implemented at the Department of Defense and then NASA, and implement a 
series of technical and programmatic reviews to ensure that new 
technologies reach the appropriate maturity level before they are used 
in a life extension baseline design. For the B61 LEP, we have 13 major 
categories of technology maturation work underway. Our cost estimates 
for FY 2011 in this area depend heavily on the progress we are trying 
to make in FY 2010. I am therefore concerned that, if the requested FY 
2010 reprogramming is not implemented, significant additional risk will 
be introduced into our FY 2011 efforts on the B61 LEP. For example, we 
began FY 2010 by staffing up our B61 LEP team to position ourselves for 
strong performance in FY 2011. Specifically, we started FY 2010 with 
139 full-time equivalent employees for the B61 LEP, and that number 
peaked in April at 192. Now the numbers are declining in the absence of 
FY 2010 reprogrammed dollars and concern over FY 2011 continuing 
resolution. Unless this situation changes, we will enter FY 2011 with 
roughly 50 percent of the staffing level that was originally intended 
for this critical program.
    The possibility of a prolonged continuing resolution for FY 2011 is 
a real concern. The funding growth required for the B61 LEP from FY 
2010 to FY 2011 is so essential that a continuing resolution funding 
level referenced back to FY 2010 will almost surely require removing 
staff from the program, a slip in the FY 2017 target for first 
production unit, or even a down-scoping of the program. The LEP 
schedule and scope are also, of course, heavily dependent on the 
appropriated funding in FY 2012 and beyond. FY 2011 funding is needed 
to get this program off to a good start, but enduring multiyear 
sustained funding is required to bring this program to successful 
completion. The success of the B61 LEP also requires a fully supported 
production complex with particular importance placed on the Kansas City 
and Pantex Plants.
Other Life-Extension Programs
    The B61 bomb is our current focus, but certain reentry systems in 
our stockpile also require near-term life extension activities. The 
Nuclear Posture Review Report recommended ``initiating a study of LEP 
options for the W78 ICBM warhead, including the possibility of using 
the resulting warhead also on SLBMs to reduce the number of warhead 
types'' (p. xiv). The Department of Energy FY 2011 Congressional Budget 
Request includes funding for a W78 LEP. Based on the guidance in the 
Nuclear Posture Review Report, the planning for this LEP will also 
examine the opportunities and risks associated with the resulting 
warhead referenced above.
    At the request of the Office of the Secretary of Defense, we 
completed a feasibility study for a common integrated arming, fuzing, 
and firing (AF&F) system. Using an envelope of the requirements for the 
W78 and the W88, and even the W87 and the U.K. system, our study 
concluded that this approach was technically feasible, including 
improvements in safety and security enabled by miniaturization of 
electronics. Savings in weight and volume, at a premium in reentry 
systems, can be used for those additional safety and security features. 
The study results have been briefed to the Nuclear Weapons Council and 
are being used to inform decisions regarding the scope, schedule, and 
interplay between the W78 and W88 life extensions.
                a retrospective of stockpile stewardship
    My confidence in our ability to successfully execute the life-
extension programs is based on the suite of tools and capabilities that 
have resulted from the investments made in stockpile stewardship. For 
the first 15 years of the Science-Based Stockpile Stewardship Program, 
creating the scientific tools and knowledge required in the absence of 
underground nuclear testing was a compelling grand challenge for the 
U.S. nuclear weapons program. While the moratorium on underground 
nuclear testing had a more direct impact on Los Alamos and Lawrence 
Livermore National Laboratories than on Sandia National Laboratories, 
hundreds of experiments have been run on Sandia's Z accelerator, 
providing critical experimental data that are tied directly to the 
milestones of NNSA's Predictive Capability Framework roadmap. Advances 
in our pulsed power capabilities are supporting the Advanced 
Certification, Dynamic Materials Properties, and Primary and Secondary 
Assessment Technologies programs.
    At Sandia, the primary impact of the moratorium on underground 
nuclear testing was the need to create tools and acquire the knowledge 
necessary to sustain confidence in the radiation hardness of our 
designs. We created advanced stockpile stewardship tools and 
effectively applied them to our annual assessment of the stockpile and 
to the qualification of the W76-1 life-extension program. Those tools 
gave us the understanding and knowledge to assess with confidence the 
state of the stockpile. Advances in our computational tools and 
improved experimental capabilities, coupled with high-fidelity 
diagnostics for model validation and improved characterization of test 
results, provided this new understanding.
    Looking back at the Science-Based Stockpile Stewardship Program, it 
is clear that we collectively understood the magnitude of the change 
that needed to occur in the nuclear weapons program to address the 
moratorium on underground nuclear testing. What we, at Sandia, perhaps 
did not fully appreciate at the time was the impact that the end of the 
cold war would bring to the vitality of our system and component design 
community. During the cold war, we were pursuing simultaneously as many 
as 14 full-scale weapon development programs. Since 1992, we have had a 
total of only two programs of similar scale: the W76-1 and the W80-3 
LEPs. The latter was cancelled in 2005. Thus, as we began to implement 
stockpile stewardship in the early 1990s, our weapon systems 
development workload dropped dramatically, and that meant less work for 
systems engineers and component designers. At the same time, 
technological advances were happening that would bear directly on the 
products within Sandia's responsibility.
    As stated earlier, the products Sandia designs and engineers are 
highly specialized for the unique demands of nuclear weapons; however, 
they are related to commercial products because of similarities in 
underlying technologies. To express this idea differently, our 
components have a point of reference in commercial technology. This 
reality bears directly and significantly on Sandia's responsibilities 
as we embark on the next era of stewardship.
    The pace of technological advances in recent decades has been 
staggering. Let me give just one example. In 1983, we were embarking on 
the full-scale design and development for the W88 Trident II submarine-
launched ballistic missile (SLBM) warhead, which is the last newly 
designed warhead to have entered the stockpile, and it took advantage 
of the microelectronics available at the time. That year, the cell 
phone industry, also relying on microelectronics, was proud of the 
first network in the United States: 7,000 phones, each weighing about 2 
pounds. In the time that has passed since, miniaturization and 
functional density of microelectronics have taken a quantum leap. Today 
there are about 285 million cell phones, each weighing about 3 ounces. 
Such technological advances mean simply that some of the technologies 
on which Sandia products are based have become radically more advanced 
than they were the last time we built a large number of nonnuclear 
components for weapons.
    The strong tie between the products developed by Sandia and those 
developed by the private sector is both a challenge and an 
opportunity--a challenge, because we must have the right set of people, 
skills, production equipment, and an up-to-date technology base at a 
time when budgets are not predictable; yet an opportunity, because it 
keeps us agile, adaptable, in tune with the needs of the Nation and 
because modern technologies provide opportunities for improvements in 
stockpile safety and security. This strong tie manifests itself in 
several ways. To reduce cost and whenever the required functionality is 
available from a trusted supplier in the commercial sector, we 
incorporate commercial off-the-shelf (COTS) parts into our products. 
Furthermore, for the parts we must manufacture (for example, 
specialized microelectronics), only modern production tooling and 
equipment can be readily maintained. Perhaps most important is the fact 
that we can attract the best and brightest new graduates when we can 
offer them challenging innovative projects that use the latest 
technologies, which they understand and on which they have been 
trained.
    Cyber risk is another aspect of technological advances that we must 
consider. Since the 1980s Sandia has pioneered the use of vulnerability 
assessments to determine systematic cyber weaknesses in command and 
control and surety systems. We believe it is vital to the next 
generation of life extension programs that cyber risk be assessed and 
capabilities developed to mitigate the dangers.
Workforce
    The demographics within Sandia's nuclear weapons program clearly 
reflect both the strengths of the Stockpile Stewardship Program and the 
challenges of a period with few full-scale weapon design programs. We 
have attracted the very best scientists, engineers, and technologists 
to the laboratories with large-scale science-based engineering programs 
that bring together computational with experimental test capabilities. 
However, retaining talent in our weapon and component design community 
has been challenging. The uncertainty surrounding the requirements for 
the future stockpile resulted in programmatic instability and lack of 
full-scale engineering development programs. In their recent life 
extension study, the JASON panel noted that a ``lack of program 
stability'' threatened the continued strength of the stewardship 
program.
    While we must rise to meet near-term challenges of the Stockpile 
Stewardship Program, we also must establish the basis for long-term 
stability. For Sandia, stability should be viewed in the context of 
three pillars: people, infrastructure, and broad national security 
work. The Nuclear Posture Review Report highlighted the importance of 
the first two of these: ``In order to remain safe, secure, and 
effective, the U.S. nuclear stockpile must be supported by a modern 
physical infrastructure, and a highly capable workforce'' (p. xiv).
    Today, 37 percent of the experienced technical staff in Sandia's 
weapon system and component design organizations are over the age of 
55. Their remaining careers will not span the upcoming life extension 
programs. This reality puts a huge premium going forward on stable, 
multiyear, large-scale LEPs that provide opportunities for our new 
technical staff to work closely with our experienced designers on a 
full range of activities-from advanced concept development to component 
design and qualification, and ultimately to the production and fielding 
of nuclear weapon systems. The team we are assembling for the B61 LEP 
is representative of the new multidisciplinary approach we will take to 
ensure that (1) the powerful stewardship tools developed through our 
Nation's investment and applied effectively to stockpile assessment are 
adapted going forward to meet the needs of the design of weapon system 
architectures and components and (2) the latest technologies and 
innovative designs are coupled with rigor that comes from experience. 
To give only one example, recently validated thermal models developed 
by the Stockpile Stewardship Program were applied to the design of 
thermal batteries for the B61 LEP. These models allowed us to identify 
a nearly twofold increase in battery run time that could be achieved 
with a simple material substitution.
    New tools and modern technologies, coupled with our management 
vision for the engineeringenvironment required for success, will foster 
innovation; lead to safety and security for the upcoming LEPs; and 
provide foundational technical and scientific strength to support the 
stockpile over the long term.
Essential Capabilities and Infrastructure
    Sandia's capabilities are essential to its full life cycle 
responsibilities for the stockpile: from exploratory concept definition 
to design and qualification, and ultimately through ongoing stockpile 
surveillance and assessment. Let me point out a few examples.
    The NNSA complex transformation plan designated Sandia as the Major 
Environmental Test Center of Excellence for the entire nuclear weapons 
program. The facilities and equipment we have in this area are 
extensive: (1) twenty test facilities at Sandia-New Mexico; (2) the 
Tonopah flight test range in Nevada; (3) the Weapon Evaluation Test 
Laboratory in Amarillo, Texas; and (4) the Kauai test facility. We use 
environmental test capabilities to simulate the full range of 
mechanical, thermal, electrical, explosive, and radiation environments 
that nuclear weapons must withstand, including those associated with 
postulated accident scenarios.
    Significantly, capabilities originally developed in Sandia's 
nuclear weapons program also support other national needs. For example, 
the Thermal Test Complex, one of our major environmental test 
capabilities, is a $38M world-class suite of facilities supporting a 
full spectrum of technical research: from the basic studies of fire 
chemistry and model validation, to full-scale highly instrumented 
simulations of weapon system safety performance in fuel fire accident 
scenarios. The Thermal Test Complex was funded by Test Capabilities 
Revitalization (TCR) Phase 1, came online in 2006, and immediately 
provided necessary capabilities for the W76-1 LEP. Interestingly, 
expertise in flow visualization, plume evaluation, thermal sciences, 
and fire sciences developed at the Thermal Test Complex was recently 
also used in an area unrelated to nuclear weapons: the BP oil disaster.
    Today, TCR Phase 2 funding is needed to renovate our suite of 
mechanical environment test facilities, many of which were commissioned 
in the 1950s and 1960s. These facilities will support the design and 
qualification of the B61 life extension and subsequent LEPs.
    Another unique capability that Sandia stewards for the nuclear 
weapons program and also for DOE's nonproliferation payloads is the 
microelectronics research and fabrication facility, where we design and 
fabricate an array of unique microelectronics, as well as specialty 
optical components and microelectromechanical system, or MEMS, devices. 
This capability includes a national ``trusted foundry'' for radiation-
hardened microelectronics. We have been providing microelectronic 
components to the nuclear stockpile at the highest level of trust since 
1978 and to DOE's nonproliferation payloads since 1982. In 2009, Sandia 
received Class 1A Trusted Accreditation (the highest level of 
accreditation) from the Department of Defense for Trusted Design and 
Foundry Services and is the only government entity with this 
accreditation for both design and foundry operations. We must 
recapitalize the tooling and equipment in our silicon fabrication 
facility, much of which dates back about 15 years in an industry where 
technology changes almost every 2 years. Recapitalization will ensure 
production of the radiation-hardened components required by the 
upcoming reentry system life-extension work.
    Expertise in materials science is required to engineer new 
materials for future stockpile applications, create the physics-based 
understanding of material aging in the current stockpile, and project 
potential performance impacts. Our materials science capabilities are 
essential to our national security mission. And yet, past funding 
constraints in Sandia's nuclear weapons program led to significant 
erosion in materials science. That erosion might have been even more 
serious had Sandia not successfully leveraged materials science 
research in support of its broader national security role. We are 
currently working with NNSA on centralizing our nonnuclear materials 
science funding and thereby enabling a more integrated capability.
    We also have a critical but eroding capability in radiation effects 
sciences. It is my belief that the U.S. strategic arsenal should 
continue to maintain its requirements for radiation hardness. By its 
very nature, U.S. nuclear deterrence requires a nuclear arsenal that 
cannot be held at risk or denied by any adversary. Relaxation in the 
strategic hardness of our designs could be interpreted as a weakening 
of our deterrent posture.
    Nuclear survivability is best addressed through intrinsic design 
properties and cannot be added through modifications to the stockpile 
once a threat changes. During the era of underground nuclear testing, 
we exposed Sandia components to nuclear environments as part of the 
qualification process. Today, in order to create a fundamental 
understanding of the phenomena and failure mechanisms of concern, we 
simulate nuclear environments in aboveground test facilities, create 
computational models of the experiments, and then validate the 
computational models with experimental results. However, experimental 
and modeling and simulation capabilities that allow us to assess with 
confidence must be sustained. In the recent past, funding in this area 
has been erratic, resulting in difficulties managing the program and 
sustaining the critical skills of our staff in the important area of 
nuclear effects simulation.
Broad National Security Work
    Today, national security challenges are more diverse than they were 
during the cold war. The NNSA laboratories are uniquely positioned to 
contribute solutions to these complex national security challenges. In 
the new environment, synergistic work supporting other national 
security missions is crucial. Indeed, as mentioned in the FY 2011 
Stockpile Stewardship Management Plan Summary, ``while NNSA nuclear 
weapons activities are clearly focused on the strategic deterrence 
aspects of the NNSA mission, they also inform and support with critical 
capabilities other aspects of national security.''
    I will refer to only one of many success stories at Sandia (others 
come from materials science, microelectronics, and computer science), 
showing how capabilities for the nuclear weapons program benefit from 
synergy with other national security programs. It is the story of our 
work in radars.
    Competency in specialized radar applications is a required 
capability for the nuclear weapons program. As a result of initial 
investments in radar fuze capability for nuclear weapons, in 1983 we 
began working on miniature radars based on synthetic aperture concepts 
for nuclear weapons and broader national security activities. In 1985 
we became involved in a program for the Department of Defense to 
develop a high-resolution, real-time synthetic aperture radar (SAR) 
suitable for use in unmanned aircraft. Sandia flew the first such SAR 
prototype in 1990. Follow-on work sponsored by the Department of 
Defense reduced the size and cost of SAR systems, improved resolution, 
and significantly expanded the applications and military benefits of 
radar. Partnerships with industry have transitioned each generation of 
the technology into field-deployable systems. Sandia-designed airborne 
SAR systems are now widely used for real-time surveillance by the U.S. 
military.
    In this example, the original radar competency of the nuclear 
weapons program was improved by this work for the Department of 
Defense. The resulting advanced radar competency made it possible to 
apply new technology to the updated fuzing system for the W76-1 life 
extension. This updated fuzing system would not have been possible 
without the competency that was maintained and advanced by work for the 
Department of Defense.
                      verification and monitoring
    Sandia has had a long tradition of ingenuity and engineering 
excellence in developing technologies for verification and monitoring 
to support efforts in nonproliferation and nuclear security as 
demonstrated, for example, by our successful record of involvement with 
international treaties: from the VELA Satellite Programs (1960s) to the 
Intermediate-Range Forces Treaty (INF, 1987) and from there to the 
Strategic Arms Reduction Treaty (START, 1994). The New START Treaty 
signed in Prague in April 2010 aims to enhance predictability and 
stability and thus security, and verification activities will monitor 
compliance with limits and other obligations set forth in the treaty.
    While details of Sandia's activities in verification can best be 
presented in a classified environment, I will state here that we have 
carefully reviewed the New START Treaty and understand the limits and 
obligations as well as the changes to the inspection protocols. Sandia 
will continue to support the government by providing the best technical 
solutions and expertise required. The current language of the New START 
Treaty mentions the radiation detection equipment, which was developed 
and manufactured at Sandia and used in the previous START, as a key 
piece of equipment for verification purposes under the terms of the new 
treaty. In addition, between September 2009 and April 2010, two Sandia 
experts served as technical advisors on the delegation that negotiated 
the New START Treaty.
                              conclusions
    As stated in the Nuclear Posture Review, ``as long as nuclear 
weapons exist, the United States will maintain a safe, secure, and 
effective nuclear arsenal'' (p. iii). The upcoming decade will be 
demanding as we conduct a number of life extension programs under 
compressed schedules, modernize our aging facilities, and invest in 
human capital.
    Within the context of the nuclear weapons policy presented in the 
Nuclear Posture Review Report and the collective guidance for 
implementation provided in the FY 2011 Stockpile Stewardship and 
Management Plan, Section 1251 Report, and the Department of Energy FY 
2011 Congressional Budget Request, and under the New START Treaty 
terms, I am confident that Sandia can provide the required support for 
the nation's nuclear deterrent. That confidence is based on our 
assessment of the stockpile management requirements against our mission 
and product space and our capabilities.
    The New START Treaty, if ratified and entered into force, would not 
constrain or interfere with the upcoming stockpile life-extension 
imperatives. It would not change our planned approach or the tools we 
will apply. It would not limit the required introduction of modern 
technologies into existing warhead designs and the realization of the 
attendant benefits. However, it would reinforce the imperative to 
ensure a modern stockpile and a strong, responsive infrastructure as we 
move toward a smaller nuclear arsenal.
    As a whole package, the documents describing the future of U.S. 
nuclear policy represent a well-founded, achievable path forward, which 
I understand and support. However, as we stand on the threshold of the 
new era of stockpile stewardship and management, we must recognize the 
challenges inherent in this framework. A significant body of work will 
be required to sustain the deterrent into the next two decades, and we 
must ensure that resources are commensurate with the requirements and 
expectations. The administration's FY 2011 budget request reflects a 
strong alignment among the White House, the Department of Defense, and 
the NNSA, and it recognizes the magnitude of our future work scope. And 
the fact that the three national security laboratory directors were 
invited to speak before you today is a clear indication of the 
leadership role of Congress in authorizing a path forward for U.S. 
nuclear deterrence. Our success in sustaining the stockpile rests on 
program stability, multiyear sustained funding, a clear national 
commitment to the U.S. nuclear deterrent, and the opportunity to 
perform innovative technical work in the service of the Nation.

    The Chairman. Thank you very much, all three of you. And, 
again, may I say, for all of us, how much we appreciate your 
leadership in this critical area.
    Let me begin. Each of you has raised the issue of 
resources, obviously, and appropriately. This week, Senator 
Lugar and I were invited to the White House and met with the 
President and Vice President on this subject, and I'm pleased--
we're pleased--to be able to report that the President made it 
crystal clear that he is completely committed to the full 
funding of this modernization program for as long as his 
administration is in power, and he is going to make that clear 
to the leadership of the Senate, and particularly to Senator 
Kyl and others who have raised that concern, appropriately.
    I want to make it clear, all of us are concerned about the 
viability of our deterrent. It would be absurd not to be. We 
rely on it. It's been a critical component of our country's 
defense and security for as long as it's existed, and we've 
always taken the measures necessary to maintain the 
technological confidence, and even edge, superiority, to know 
that we're in the position that we want to be. We are all 
committed to staying there.
    There was a healthy debate at one period of time, based on 
the Perry-Schlesinger report and other things, that raised the 
question of building a new warhead design, other things, and it 
was rejected by the House. But, I think the current language is 
such that proceeding on an item-by-item basis and keeping our 
minds open to what is the best way to maintain the viability of 
those warheads, that we can proceed.
    Am I correct, gentlemen, in reading your testimony and 
taking away from each of you the conclusion that--as former 
Secretary of Defense Bill Perry told this committee with 
respect to the Nuclear Posture Review, ``The Nuclear Posture 
Review explicitly authorizes reuse, which the laboratories have 
felt reluctant to use before, and it gives the condition under 
which redesign can be achieved.'' He says, ``I think this is a 
major step forward from where we are before.''
    Judging by your written statements, it seems to me you 
would endorse Secretary Perry's comments, but I would like to 
emphasize this for the record. Is that accurate? Do you feel 
confident that the NPR allows you the flexibility needed to be 
able to guarantee the viability of the structure?
    Dr. Anastasio.
    Dr. Anastasio. Sir, I believe, with the flexibility offered 
to explore the full range of options, that we do have the 
ability to sustain the stockpile with acceptable levels of 
risk. It's not the perfect approach, but we believe--or, I 
believe--that this is an approach that we can make work--again, 
if we have a program that's well planned and adequately funded.
    The Chairman. Dr. Miller.
    Dr. Miller. Yes. Senator Kerry, I would say that the 
outline that is included in the NPR not only gives us the 
flexibility, it gives us the responsibility; it specifically 
says we are to examine the full range of options. It's 
certainly something that I feel, personally, is my 
responsibility to the country, to bring forth the full spectrum 
of options and which ones work the best.
    In addition, we have certainly been encouraged by members 
of this administration, that that is their intent; they want us 
to examine the full range of options and to be sure that the 
full range of technical options are available to the 
decisionmakers.
    The Chairman. Dr. Hommert.
    Dr. Hommert. Yes. Mr. Chairman, in the Sandia mission 
space, which is nonnuclear components, largely as we go forward 
we will engage in replacement to adapt to modern technologies. 
But, overall, I would say I agree with my colleagues here, that 
what faces us in managing this stockpile forward, that this is 
not a limitation directly, and one that we can address in 
recommendations, we come forward, in the best way to manage the 
stockpile.
    The Chairman. And the $624 million that, I think, is in the 
budget for next year, while it's not the $900 million that I 
think some requested, still amounts to a significant increase. 
Does that give you the capacity to be able to do what you need 
to do?
    Dr. Anastasio. Well, sir, I think, first, that budget 
request--we sure hope that Congress will act on it, as well, 
but if that----
    The Chairman. Assuming we act on it----
    Dr. Anastasio. Yes. If that comes to pass----
    The Chairman [continuing]. You get to 624----
    Dr. Anastasio [continuing]. To me, it's a very strong 
commitment, on the part of the administration, to this program, 
and to what we need to do. Of course, that's the near term. As 
a good program manager, you need to worry about funding across 
the full life of the program, and that's an issue, as well. 
But----
    The Chairman. But, no administration and no Congress can 
commit that to you. We can commit now and next year.
    Dr. Anastasio. I understand. And I--and, as I say, that's 
an excellent start and a very strong, positive message.
    The Chairman. And you don't have to kill for it.
    Dr. Anastasio. Pardon?
    The Chairman. You don't have to kill for it.
    Dr. Anastasio. No, no. [Laughter.]
    No, sir.
    The Chairman. Dr. Miller.
    Dr. Miller. Yes, it is. The FY 2011 budget is a very 
positive step. Given the recent trends, you know, I can't say 
strongly enough how positive a step it is. It sets the 
direction correctly, sets the stage for the continued 
investment in this area, as Dr. Anastasio has said. You know, 
my concern is whether or not the country will be able to 
sustain that, because that is what is required in order to move 
this program and accomplish what has been set forward as a set 
of program goals for us.
    The Chairman. Dr. Hommert.
    Dr. Hommert. Yes. The FY11 budget, for us, is dominated by 
initiating the B61 life-extension program. And it's imperative 
that we begin that in 2011. And also in 2011 it allows us to 
accomplish establishing the baseline and requirements and cost 
for the full life-extension--full engineering development on 
the 61. So, it's a critical year, and it is supported in the 
budget.
    The Chairman. Well, I appreciate that, from all of you.
    I'm going to recognize Senator Lugar.
    I, incidentally, noticed, Dr. Miller, that you pronounced 
his name ``Loogarr.'' And yesterday Senator Corker made a major 
issue out of clarifying for the world how it is correctly 
pronounced. It's like the gun, ``Looger.'' So----
    [Laughter.]
    Senator Corker. We did do that in a secret meeting. I 
didn't want anybody to know that his name is actually 
``Looger.'' But----
    The Chairman. It was a secret----
    Senator Corker [continuing]. It's good----
    The Chairman. It was a secret meeting in front of cameras, 
press, all kinds of people. [Laughter.]
    Dr. Miller. I do apologize for my Southern heritage. 
[Laughter.]
    The Chairman. That's something you should never apologize 
for, sir. [Laughter.]
    Senator Lugar is going to also chair, because I have to go 
introduce a new U.S. attorney to the Judiciary Committee, so I 
hope you'll forgive me for that. But, I'll stay until I do have 
to run for that.
    Thank you.
    Senator Lugar.
    Senator Lugar [presiding]. Well, thank you very much, Mr. 
Chairman. I appreciate your introduction on the basis of my 
name identification, appropriate that it be equated to a gun 
during an arms control hearing, but----
    [Laughter.]
    Senator Lugar [continuing]. Not to worry.
    Let me just suggest, Dr. Anastasio, you note that one 
approach in--to maintaining a focus on our nuclear stockpile 
across multiple administrations and Congresses could be a set 
of safeguards that have been used in approving past arms 
control treaties. Now, I ask, Do you mean that certain measures 
could be required in a resolution approving the New START 
Treaty that would speak to these issues? And I raise this and 
would note that the Senate spoke to the safety, reliability, 
and performance of our nuclear forces when it approved the 
START II Treaty. I would mention, just for the sake of clarity, 
that the START II Treaty did not come into force, due, 
ultimately, to Russian objections, but it did pass this 
committee, it did pass the Senate, and it had at least these 
elements that have been suggested.
    Now, would you agree with me, sir, that a good way to 
maintain the focus that you desire, and that we desire, would 
be to approve the New START Treaty with similar provisions?
    Dr. Anastasio. Senator, my concern is the sustainability 
over the long term. Certainly, using safeguards could be one 
approach that the Congress could use to keep attention and 
focus. There are other approaches that potentially could serve, 
with annual written reports like the annual assessment letters 
that we write every year, which happen to be classified; we 
could do something unclassified. There could be regular 
hearings, annually, or some such thing, but something in that 
spectrum of ideas. Perhaps there's something that will work for 
the Congress and the administration that will allow us to keep 
this focus and to assure ourselves that we're still on track 
and on path to take care of these important issues.
    Senator Lugar. Well, I appreciate your comment, and maybe 
you could be of further counsel. I raise it because I suspect 
that, given what I mentioned, the potential multiple 
administrations, a stretch here, that perhaps our resolution of 
ratification ought to include language or other steps that 
might be useful in simply tightening our own focus on this 
issue of this hearing today and of the debate.
    Let me ask for comments of all three of you. And, if you 
can, try to jot down in your memories these four items so that 
you might respond to them effectively together.
    First of all, are U.S. nuclear weapons safe, secure, and 
effective?
    Second, is Russia modernizing its stockpile of nuclear 
weapons?
    And third, without the data provided by the New START 
Treaty, will there be more uncertainties with respect to the 
nuclear weapons Russia deploys as a part of its modernization?
    And finally, would more uncertainty with regard to Russian 
weapons complicate current stockpile challenges--in particular, 
if our military decided that we would need to respond to those 
uncertainties through stockpile adjustments?
    As you can tell, essentially I want to know your evaluation 
of how safe, secure, and reliable our stockpile is; what the 
Russians are doing; if we don't ratify START; and the 
uncertainties then increase, or maybe you will testify they 
wouldn't increase, but if they would; and then, under those 
circumstances, how we then begin to adjust what we're going to 
do, given a world of uncertainty in this area.
    Would you commence with that, Dr. Anastasio?
    Dr. Anastasio. Sure. So, the U.S. weapons in the stockpile 
today are safe, secure, and reliable. And I'm confident of 
that. I do worry about the long-term viability. And that's, of 
course, the basis for all the discussion----
    Senator Lugar. Yes.
    Dr. Anastasio [continuing]. We're having today.
    As far as ``Is Russia modernizing their stockpile?''--to 
the best of the information I've seen from our intelligence 
community and our contact directly with the Russians over the 
years, I certainly believe that that's what they're doing.
    Without data from New START, would that create more 
uncertainty for us about Russia? Well, certainly the country 
would not get as much information that the monitoring program 
would provide through New START.
    Would that impact and complicate our job? I think, perhaps, 
that's best to ask the commander at STRATCOM or someone in the 
military, but my personal sense is that, based on what we know 
about the Russians, I think the path forward for our program is 
that it incorporates that knowledge that we have about where 
the Russians are going. So, I'm not sure that it would 
complicate, but, if we do get new requirements from the 
Department of Defense, then that certainly would have to be 
folded into the plans on how we could go forward, and we'd have 
to adjust the program to respond.
    Senator Lugar. Dr. Miller, do you have a comment on these 
questions?
    Dr. Miller. Yes, sir. Again, today I think the U.S. 
stockpile is safe and secure and effective. The principal issue 
is that in order to keep it that way requires us to do work on 
the stockpile, and, in many cases, there are opportunities to 
improve the safety
and security of our stockpile in ways that are potentially very 
beneficial.
    The Russians, I believe, are modernizing. We have an 
intelligence division at Livermore that spends a lot of time 
understanding what's going on in foreign countries. Again, it 
is my understanding that they are actively modernizing their 
stockpile.
    I think that it is certainly true that the START Treaty 
that is under your consideration does offer the ability to 
understand, provide more data on what's going on in Russia with 
their systems. As a technical person, data is always valuable. 
And so, it will certainly reduce our uncertainties.
    With respect to how the United States responds to those 
uncertainties, I would first say that the treaty itself does 
not impact, in a direct way, our job on the warhead side. It, 
of course, does impact the Department of Defense, in terms of 
the delivery systems. But, in terms of the treaty, the warhead 
proceeds, independent of any particular limitations in the 
treaty itself.
    Senator Lugar. Thank you.
    Dr. Hommert.
    Dr. Hommert. Yes, sir. I'm not going to--I think I agree 
with the comments of my colleagues.
    Just on the first point, certainly the U.S. stockpile 
remains safe, secure, and effective. But, I would say that 
perhaps, as we look to an unprecedented age of our overall 
stockpile, the imperative for us to take some action on that 
stockpile is increasing. And, in this forum, we'll just leave 
it at that.
    And then, as to the other topics, I would echo the comments 
of my colleagues.
    Senator Lugar. I thank all three of you.
    I thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you very much.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. And thank you and 
the ranking member for having this hearing.
    To me, the issue that we're focused on today is the most 
crucial issue that we need to be focusing on. And I thank each 
of you for your leadership. I know I plan to visit your 
facilities--two of the three facilities--at the end of the 
month, and get some firsthand input.
    We have had others, who know each of you well and are 
former directors and have other relationships with you, who've 
talked a great deal about the fact that, if you look at this 
10-year plan, that, in essence, we're still, even with the 
first-year input that we have, which I think we all welcome, 
that there's still about a $10 billion shortfall to do the 
things that need to be done over this next 10 years to really 
modernize and do the things that we need to do.
    Over the course of time, I know we're going to talk more 
fully about that, but I wondered if you all might want to talk 
today about that, and give any editorial comments.
    Also, I might add, in the 1251 report, it seems that we've 
pushed a great deal of the funding into the out years. And it 
seems to me it's pretty difficult--obviously, we do that a lot 
around here. And what I mean by that is, we leave the tough 
decisions to other people, and sometimes they never get made. I 
wondered if you two--if all three of you might comment on what 
I just said.
    Dr. Anastasio. Well, certainly, Senator, the former lab 
directors are all colleagues of ours, and we do hear from them 
rather regularly.
    As far as the funding issue, as I said, I think the 2011 
budget submission shows strong commitment on the part of the 
administration. However, I do have concerns, as I've tried to 
express, that, in the out years, we need to find ways to 
sustain our focus and commitment to that.
    A program that's back-end funded is always a difficult one 
to manage, when you're never sure, when you're funded on a 
year-by-year basis, exactly what's going to happen then. So, I 
think that is an important issue.
    The other important part of that is that, for many of the 
major activities, like the life-extension programs or the 
nuclear facilities at Y-12 or at Los Alamos that need to be 
refurbished, we still don't have full estimates of what those 
costs are. What are the baseline costs for the LEPs and those 
facilities? Those are not fully established yet. So, there's 
still uncertainty in what the costs are going to be for this 
program over its 10-year life or 20-year life.
    And so, I think, with all those reasons, we need to 
continue to have our focus and pay attention and adjust the 
program as we learn more. And hence, my suggestion and the 
dialogue with Senator Lugar about potential mechanisms to keep 
that focus.
    Dr. Miller. Yes, Senator, I also believe that the major 
risks associated with this program are in the out years. The 
2011 budget is a very good first step that we strongly welcome. 
And, you know, as an individual familiar with managing very 
large programs in the budget environment that this country 
chooses to live in, it is very important to readjust the 
expectations every year, because we learn something every year. 
As Dr. Anastasio said, most of the major programs, such as the 
B61 life-extention program and the required facility upgrades 
do not yet have firm baselines. They will be established over 
the next year. Once we get that information, we will have to 
adjust the out-year budgets.
    We also learn things every year about the nature of the 
stockpile itself. Is it aging as rapidly as we currently 
expect? Is it aging more rapidly or less rapidly? So, all of 
these things have to be taken into account. And it's really the 
flexibility to manage the out-year budgets while keeping our 
eye on the fact that, ultimately, we have to maintain the core 
intellectual capability that provides the overriding 
confidence, because there's a huge tendency, when facility 
costs go up, to rob the scientific capability in order to fund 
those very large facilities.
    Dr. Hommert. Yes, sir, I would say, echoing that--and I 
have a very strong sense of the immediacy of the B61 situation, 
in that--very important, in 2011, that we establish that 
baseline--that when we establish that baseline, we then place 
the resources consistent with the requirements to execute the 
right scope required for that life-extension program, because 
it's immediate. It is right here in front of us.
    And then, I think, once we establish these and other 
baselines for the program, inevitably there'll be reshaping and 
reprioritization that will have to occur in the budget as we go 
forward.
    But, again, I'm very encouraged by at least now seeing, in 
2011, that we can establish that very first and most immediate 
program baseline, and then gives us the momentum to carry that 
forward through the decade.
    Senator Corker. When you mentioned, Dr. Anastasio, the 
fact--and I know this is not a current statement--but, the 
fundamental premise of stockpile stewardship was at risk in 
2008, what, in essence, were your referring to at that time?
    Dr. Anastasio. Thank you, Senator. The thought I had in my 
mind is the same one I have today, which is, the path that we 
were on in 2008. I was very concerned about the decline in 
budget. And, as George Miller said, I like to think of it as 
the imperatives of the near term challenge us, sometimes we put 
the longer term at risk. And that's generated a squeeze on 
science, the fact that the other imperatives in the program 
have just reduced our focus on the science. And when you think 
about the premise of stockpile stewardship--my point--the whole 
notion, in a world without nuclear testing, which is one that 
we understand we're in, getting a more deep understanding of 
the science and the engineering is the basis for our 
confidence. By having that knowledge, and then continuing to 
extend that knowledge, that's the basis for our understanding 
and, hence, our confidence. And when you're squeezing that 
activity, you're starting to sacrifice it for the other 
elements of the program, and that will lead to a situation 
where we could easily lose our confidence.
    Dr. Miller. Senator, if I could just add a point. You know, 
in 2008, both Dr. Anastasio and I, as directors of these two 
laboratories, had to reduce our workforce by 2,000 people. For 
us, that's more than 25 percent, a substantial number of 
scientists and engineers. I mean, it wasn't just administrative 
people, it was a substantial number of scientists and 
engineers--left the program. That is a huge concern, because, 
again, as one of the architects of the Stockpile Stewardship 
Program, when it was formed, in the early 1990s--you know, the 
fundamental premise which we based the recommendation that we 
could, in fact, maintain the stockpile without nuclear testing, 
was keeping the strong science and technology base with people 
engaged in understanding what was going on, and responding 
appropriately. So, that's really the concern. That is the long-
term concern.
    Senator Corker. Mr. Chairman, I know you're getting ready 
to leave. And I really appreciate your having his hearing and 
certainly these distinguished and really important people to 
our country being here--I look--again, I know we're going to 
spend a lot of time, at the end of the month, at your 
facilities. What I would say--I know that you all are looking 
for 67 votes. I mean, around here, it's a counting game--that's 
kind of what we do. I just want to say to you that this, to me, 
is the important issue--the most important. And I know that we 
have some issues of verification and missile defense. And my 
guess is, we can address some of those questions actually in 
the resolution that we'll draft in this committee. And I know 
that we cannot bind future Congresses. Thankfully, those before 
us didn't do that. But, you know, the fact is that--I think--I 
very much appreciate the comment you made about the President's 
commitment. I know a letter's coming. I think a very strong 10-
year plan--and really, the--even though this is good start--and 
this is kind of an opportunity, let's face it, for those of us 
who care about modernization, this moment in time is an 
opportunity. And I appreciate that very much.
    I do think there are some discrepancies that we can work 
out in the scope of things, as it relates to our national 
security. They're not that big a dollars, in the scope of what 
we do with defense and other kinds of things.
    But, just the buildings, alone, the--just the facilities 
that it takes to do the things we need to do are probably a $10 
billion expenditure. So, there's obviously a gap. And I hope 
that there's some way that intelligent people, that really want 
to see something good happen, will figure out a way to work 
together to really solve this problem.
    So, I'm heartened by the comments of both of you. I look 
forward to learning more from each of you later this month. 
But, I do think--and I've shared that with Secretary Clinton--
that the real key issue is figuring out some way of giving 
assurance to those of us who care about our stockpile, that 
we're going to do those things over a period of time with a 
real concrete plan to achieve modernization.
    And I thank you for this hearing.
    The Chairman. Well, thank you, Senator Corker. And, look, 
we appreciate your concern. I've had a number of meetings with 
Senator Kyl, who, I think, is an acknowledged leader with 
respect to these issues. And he shares that concern, as do 
other Members. We all do.
    And, as I said at the outset, the President--and all of us 
legitimately share this. None of us can afford to allow our 
deterrent shield to deteriorate, and to have a lack of 
confidence about it. That changes the bets. You know, the 
balance of power is maintained by the threat perception and the 
capacity to counter it. And whenever anybody makes a move--
that's why I always argue so forcefully on this committee that 
if you unilaterally deploy defense to such a degree that you've 
altered somebody else's perception of their offense, you've 
done the same thing as you might do by changing your own 
offensive force; you've altered the perceptions. And people 
make their choices based on those perceptions. So, we are 100 
percent committed to that.
    What I can guarantee you is that, for the next 2 years, 
through the 2012 election, this President is going to make it 
absolutely clear this will be full-funded to the degree that 
he's promised. And that is a very significant plus-up. The most 
significant thing that the laboratories can do is take that 
money and execute all of these components as effectively as 
possible, so the Congress, and everybody else, has confidence 
in the dollar well spent and in a program well implemented. And 
if we do that, it's going to make it a lot easier to come back 
and do the other parts of this.
    But, I am confident that the 10-year plan is going to be 
well laid out, well defined, on the table. And it's going to be 
up to us to guarantee--those of us who are here, you know, over 
the course of these next years, to guarantee that we fill our 
part of the bargain. And we'll do it.
    Senator Isakson.
    I need to leave, at this point, to go introduce this 
nominee. So, Senator Lugar, I appreciate your chairing. Thanks.
    Thank you, gentlemen, for coming, very, very much. We 
appreciate it.
    Dr. Anastasio. Thank you, Mr. Chairman.
    Dr. Miller. Thank you, Mr. Chairman.
    Dr. Hommert. Thank you, Mr. Chairman.
    Senator Isakson. Thank you, Mr. Chairman.
    Dr. Anastasio, following up on the comments of the 
chairman, and particularly the questions of Senator Corker, on 
page 10 of your printed testimony, you made a rather 
substantial paragraph talking about, ``As I look to the future, 
I remain concerned that science will be squeezed when trying to 
compete with capital infrastructure investments and life-
extension program funding priorities.'' And then, I'll skip a 
couple sentences down to the bottom, where it says, ``Just as 
I'm encouraged by a significant increase in FY11, I am 
concerned the administration's section 1251 report, much of the 
planned funding increases for weapons activities do not come to 
fruition until the second half of the 10-year period.'' Now, 
that's already been mentioned by Senator Corker.
    And I read, in Dr. Hommert's testimony, regarding the B61 
and the radar system and the famous vacuum tubes, that you have 
an absolute necessity to modernize that now. Am I--is that 
correct?
    Dr. Hommert. Yes, sir, that's correct.
    Senator Isakson. All right. So, I have this--I'm going to 
get to you in a minute, Dr. Miller, so just hang on, but I----
    [Laughter.]
    Senator Isakson [continuing]. I have this question. And I 
don't want to put you on the spot, but it would be helpful if 
we have--and I'm sure there are many more pressing depreciation 
or age-related deterioration issues in a weapons system--there 
have to be--are the funds in the 1251, understanding they're 
only gross numbers--I don't think they're broken down; at 
least, I don't have them--are they going to be enough to do 
what you know we have to do with what you know now?
    I'll start with you, Dr. Hommert.
    Dr. Hommert. Yes, Senator. Let me start first with 2011, 
because there's two phases here that are very important. First, 
in 2011, we establish what--using our vernacular, 62(a) phase, 
which is the--is--firms the requirement base and the funding 
base to then do the second phase, which is full-scale 
engineering development. The first--the 2011 budget is adequate 
for us to complete that first phase. The out-year budgets, 2012 
through 2017, are, at this point, to the best of our knowledge, 
commensurate with that full-scale engineering development. But, 
we can't be certain of that until we finalize the requirements 
in costing base. So, that's a very important step.
    The other thing I will mention, relative to the science 
issue, is that, in our mission space there is a very strong 
linkage with delivering technologies to--like an updated radar, 
et cetera--to our science and technology base. They are very 
strongly linked in executing, going forward. So, a piece of 
this budget is our technology maturation, our pull on our 
science and engineering into the stockpile.
    So, two--touched two issues there, but--certainly, the 2011 
does position us to get that first phase completed.
    Senator Isakson. Dr. Anastasio.
    Dr. Anastasio. Well, sir, I think, as Paul Hommert said, I 
would agree that there are two phases. The first is, How do we 
get started? And that's the FY 2011 budget. And, as I said, 
that's an excellent start, and shows a strong commitment on the 
part of the administration.
    As you properly noted in my testimony, I am concerned--and 
it's a real concern--about the out-year funding. And the 
concern is that there are very legitimate demands in the 
program for our nuclear facility refurbishment, for our needs 
to address the stockpile issues. And it's not just the B61, 
it's the fact that most of the weapons need attention over the 
next decade or two.
    But, we also can't sacrifice our science and technology and 
engineering base to do those more immediate needs. So, the 
question is, How do you have an adequately funded program that 
is balanced so that all three legs of the stool are in a place 
where you don't kind of slide off because one leg's too short? 
That's going to put the overall program at risk.
    So, we need to have a balanced program that can be 
sustained throughout the life of the activity we have to do. 
And I think there are good steps to take, for Congress to go 
ahead and appropriate the funds that the President's requested.
    I would also say, another good way to stabilize the program 
is for this national consensus to be formed around the 
appropriate direction to go forward with the nuclear weapons 
program. This is a consensus that we've been lacking for 15 or 
20 years. And I think it's important for that, as well.
    Senator Isakson. I commend you for that statement, because 
what I've heard both of you say--and tell me if I'm wrong; I 
don't want to put anything on the record that isn't right--but, 
I heard both of you say, in the immediate term, the funding is 
adequate to do what you're going to do. But, given the 
knowledge you have of science and the unknown in the years out, 
there may be need for more funds. Is that a fair statement?
    Dr. Anastasio. Well, even more so, that the work we're 
doing today is because of the investments we made in science--
--
    Senator Isakson. Right.
    Dr. Anastasio [continuing]. And engineering 10 years ago. 
So, the work we have to do 10 years from now is going to derive 
from the investments we make in science and engineering today. 
And if we're not making those investments, that puts at risk 
our ability to take on those unknowns that we are confident 
will arise, because they always have.
    Senator Isakson. And heightened pressure--you said--the 
others didn't, but I would assume they agree--that we do 
believe that the Russians are reinvigorating their nuclear 
stockpile and their weapons system, and modernizing, as well.
    Dr. Hommert. Yes, I concur with that.
    Senator Isakson. OK.
    Dr. Miller, this is not about nuclear power or science or 
engineering, it's about budgets. You said you had laid off 
2,000 people, between you and Dr. Anastasio.
    Dr. Miller. Two thousand at each laboratory.
    Senator Isakson. Two thousand each. Would you tell me, did 
you do that at the direction of someone above?
    Dr. Miller. Let's see. Yes, it was certainly with the 
concurrence of the Department of Energy and the National 
Nuclear Security Administration (NNSA). It was a budget 
necessity. In terms of the funding that I had available, it 
would not support the larger workforce.
    Senator Isakson. Well, the only reason I make that point is 
because we have added Federal employees throughout the system 
over the last 2 years by about 146,000. And if you are having 
to reduce yours by 2,000 each, some of whom are highly 
educated, very critical scientific people, I don't know how 
good a modernization system you can do if you're being forced 
to lay off your brightest and your best. I just make that as--
you don't have to--I said that, you didn't say it. But, I just 
wanted to get that on the record.
    And last, Dr. Anastasio, this is also not a nuclear 
question, by any stretch. In your statement, you say, next year 
you're going to have to put in $77 million for a pension 
shortfall, and, estimated, it will be $200 million in 2013, is 
that right?
    Dr. Anastasio. In 2012.
    Senator Isakson. 2012?
    Dr. Anastasio. Yes, sir.
    Senator Isakson. Are you in a separate pension fund from 
the employee retirement system of the Federal Government?
    Dr. Anastasio. Yes, sir. Our employees are not employees of 
the Federal Government; none of our employees are Federal 
employees. We're all in a private pension plan. And we have a 
plan that is--I'll try to make it simple--we have a legacy with 
the University of California, so we have a set of people who 
are currently in that legacy plan, but now managed by us. New 
employees are in a 401(k)-like plan. But, the legacy employees 
are not part of that. And it's that defined benefit plan that, 
just like all the other pension plans in the country, has 
stress on it. And so, the NNSA, our sponsor, is well aware of 
these issues, and we're trying to work closely with them to 
find the right path forward.
    Senator Isakson. Well, the reason I ask the question is 
because we just passed, 2 weeks ago in the Congress, two 
choices that pension funds have to smooth and amortize that 
immediate obligation.
    Dr. Anastasio. Yes, sir.
    Senator Isakson. And I hope you'll take advantage of it, 
because this number probably didn't calculate--did----
    Dr. Anastasio. Actually, it does.
    Senator Isakson. It does?
    Dr. Anastasio. We've been following your actions very 
closely, and it includes that smoothing.
    Senator Isakson. OK.
    Dr. Anastasio. Without going into the details, we're more 
dominated by the discount rate, because our plan doesn't have 
new people entering, because new employees go in the 401(k) 
plan.
    Senator Isakson. Right.
    Dr. Anastasio. The crux of the way the plan works, is that 
it's our liabilities that are the more sensitive issue. And so, 
it's the discount rate, for which we have no control, 
obviously, and the state of the economy--that's the thing that 
really drives our cost. And so, that has been a good step 
forward for us. There are other things Congress could do to 
help relieve the situation, if that were possible.
    Senator Isakson. Well, I'm the only Isakson in the Senate 
phonebook, so give me a call. [Laughter.]
    Dr. Anastasio. Yes sir. I would be happy to do that.
    Dr. Hommert. Senator, I'd just add, we have a similar 
problem, and we do appreciate the legislative relief. It was a 
help. But, our--we still have a remaining issue to face over 
the next 5 years in this area.
    Senator Isakson. We probably should have a meeting, because 
it'd be very--I thought, when I asked the question, you were 
independent of the Federal retiree system, and----
    Dr. Anastasio. We do. We are. And since now we're not under 
University of California, which was a nonprofit, of course, 
we're in a for-profit situation, so we fall under the Pension 
Protection Act. And again, your legislative relief in that 
regard did help. But, there's more. There are still challenges 
before us.
    Senator Isakson. Well, I will tell my staff to look for a 
call. And maybe we can have a----
    Dr. Anastasio. Yes, sir.
    Senator Isakson [continuing]. Meeting convenient to both of 
you. And we'll try and help all we can.
    Dr. Anastasio. We greatly appreciate that, Senator.
    Dr. Miller. We welcome that, Senator.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Lugar [presiding]. Thank you, Senator Isakson.
    Please remember Senator Isakson's name so that you can have 
the proper communication. [Laughter.]
    Senator Risch.
    Senator Risch. Thank you. Thank you, Mr. Chairman.
    First of all, let me say for the record, I want to respond 
to something Senator Kerry said. I wish he hadn't left, 
although I'm sure he'll hear this. And we're going to have 
plenty of time for debate on this, on the floor. But, if I 
heard him right, I thought I heard, he said that we don't want 
to go too far with our defensive missile system because it 
might aggravate other countries to do other things. And I 
respectfully disagree. And I know we're going to have plenty of 
time for debate on this on the floor. I'm not as worried about 
the country that we're dealing with here--Russia--although I 
think we should have a missile defense system in place, even as 
far as they're concerned. But, I'm truly concerned about the 
rogue countries and our defensive posture, when it comes to 
incoming from rogue countries, such as North Korea or Iran. And 
I don't--I think that treaties aren't going to be the answer 
there. It's only going to be a defensive system.
    But, today we're talking about modernization, and I have 
some questions for you. And if I get--I understand we're in an 
unclassified setting here--if I get too close, let me know, and 
we'll take it up at--in a classified setting.
    First of all, as to the START Treaty that--or, the treaty 
that expired on December 8, did you get information from the 
inspectors regarding the type, size, the mechanical aspects of 
the Russian warheads, based upon their inspections, from that 
treaty?
    Dr. Hommert. That's probably better left----
    Dr. Anastasio. Yes.
    Dr. Hommert [continuing]. To a different conversation, 
Senator.
    Senator Risch. OK, thank you.
    Dr. Anastasio. It would be better in a different setting.
    Senator Risch. Let me move on.
    The--as far as the--again, tell me if you can't answer 
this--I've been told about a comparison of the size of our 
warheads compared to the size of their warheads. In fact, I 
made--asked the specific question, in another setting, and they 
said I should ask the directors of the labs about that. So, 
here I am. Can you tell me about that? Or, again, are we--do we 
have to go to a classified setting for that?
    Dr. Miller. I think the specifics are better handled in a 
classified situation.
    I would say that while the Russians have to abide by the 
same laws of physics that we do, the particular technology 
paths that they have chosen appear to be different than the 
ones that we have chosen.
    Senator Risch. Can you--we've been told--again, I think 
this in a--in the public domain--we've been told that they 
are--the Russians are involved in a modernization program, and 
that they're further along than we are. I'll say that 
carefully. Can you compare that for me? Or, again, do we need 
to move a classified setting?
    Dr. Anastasio. I think we certainly can concur that our 
best understanding is that they are in a modernization program, 
and that it has been a very active program for a number of 
years. As far as the details of exactly what they're doing, 
that's probably best left for another----
    Senator Risch. Thank you.
    Dr. Anastasio [continuing]. Session.
    Dr. Miller. But----
    Senator Risch. And I appreciate that. I----
    Dr. Miller. I think one of the things that we can say in 
this setting, is that the state of their production complex is 
very different than the state of ours. And that, again, causes 
significant differences between the two countries.
    Dr. Hommert. Senator, I--it's my understanding you may be 
visiting us with Senator Kyl----
    Senator Risch. I will be.
    Dr. Hommert [continuing]. And Senator Corker.
    Senator Risch. I am.
    Dr. Hommert. These are topics that we can go into at----
    Senator Risch. Thank you.
    Dr. Hommert [continuing]. That time.
    Senator Risch. I'll look forward to that.
    Thank you very much. Appreciate your responses.
    And thank you, Mr. Chairman.
    Senator Lugar. Well, thank you very much, Senator Risch.
    I'm advised--and this may or may not fit your convenience--
but I have been advised that Senate security is prepared to 
host a classified session for you, after this session, with the 
witnesses, in the event you want to do that.
    Senator Risch. Thank you, Mr. Chairman.
    Senator Lugar. Let me thank each of you for very informed 
testimony. Obviously, you can tell the importance of this issue 
to the Senators who are here, as well as their representation 
of many other Senators--have been raising these questions. And 
likewise, the specific activity that our chairman, Senator 
Kerry, advised you--and this was the first, I think, public 
statement he had made about our visit with President Obama and 
Vice President Biden, and their assurances. We count this as a 
very important factor. We look forward to those communications 
from the Chief Executive, and I'm certain you will, too.
    But, we look forward, if you will, to following up with 
you, as there may be more questions of members who were not 
able to be with us, because I am certain this will be an issue 
as we try to formulate our resolution of ratification, debate 
that in the committee, and then on the floor of the Senate.
    So, thank you, again, in behalf of the chairman and all of 
our committee members.
    The hearing is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Dr. George Miller to Questions Submitted by Senator Casey

                       nuclear complex personnel
    Question. The Congressional Commission on the Strategic Posture of 
the United States stated that the ``continued success [of the Stockpile 
Stewardship Program and the Life Extension Program] is endangered by 
recent personnel and funding cuts.''
    Can you please expand upon this statement and describe what type of 
personnel cuts you have experienced and how these cuts have directly 
affected the Stockpile Stewardship Program and the Life Extension 
Program?

    Answer. Declining budgets and increased costs over the past 5 years 
created funding pressures that forced workforce reductions at LLNL. 
Between 2006 and 2009, LLNL's workforce was reduced by 25 percent. 
Available funding was insufficient to compensate for the increased 
costs and maintain the 2005 workforce levels. The number of personnel 
at LLNL directly supported by the Stockpile Stewardship Program (SSP) 
and Life Extension Programs (LEPs) decreased by 22 percent between 2006 
and 2009.
    The Laboratory implemented a strategic workforce reduction plan to 
minimize the risks to meeting our national security mission 
requirements. While we have been successful in supporting the needs of 
the current stockpile, numerous critical skill areas have been reduced 
to only a handful of individuals, as evidenced in the following 
examples:

   LLNL's hydrotest execution capability was reduced from two fully 
        capable teams to one small team, and experimental throughput 
        has declined.
   LLNL's technical support team in Nevada, which provides mission-
        specific expertise to maintain and conduct critical experiments 
        at SSP facilities at the Nevada Test Site, has declined by more 
        than 60 percent in the past 4 years, LLNL's reduced ability to 
        support these mission-critical experimental facilities, 
        combined with complex-wide financial challenges, have resulted 
        in delays in the experiments schedule.
   One of the major science initiatives, known as the Boost 
        Initiative, has been delayed 3 years to date and extended 
        beyond its original planned completion date due to lack of 
        funding and available skilled staff to support this initiative.

    Additionally, warhead surveillance rates are lower, there are 
numerous examples of underutilization of SSP facilities that have 
caused delays in key scientific deliverables for assessing the 
stockpile, and LEPs have been deferred.
    The Laboratory is continuing to work very closely with NNSA to 
manage available resources in a prioritized structure to ensure our 
national security mission requirements are met. The President's FY 2011 
budget request seeks increased funding to reverse the declining budget 
trends and provide stable and reliable funding levels to maintain 
sufficient capability to ensure the viability of the U.S. nuclear 
stockpile and the critically skilled workforce that underpins it.

    Question. What do you believe is needed to ensure that we maintain 
a proper level of trained scientists and engineers to ensure the safety 
of our stockpile?

    Answer. Maintaining a quality workforce with the specialized 
scientific and technical talent to execute the Stockpile Stewardship 
Program (SSP) requires a well-defined national security mission that is 
consistently supported by successive administrations and Congresses. 
Stable and reliable funding is critical to attracting and retaining a 
skilled and knowledgeable workforce. Opportunities must be made 
available for stimulating research in support of program goals.
    A vigorous SSP includes a robust science, technology, and 
engineering (ST&E) effort to ensure a pipeline of trained personnel. In 
addition to a strong ST&E effort, the program must include adequate 
opportunities to exercise skills in the complete design-through-
production cycle, which is essential in the training of laboratory and 
production plant personnel.
    Lawrence Livermore National Laboratory (LLNL) welcomes the National 
Nuclear Security Administration's (NNSA) intent to assign 
responsibility for the W78 Life Extension Program (LEP) to LLNL. For 
the W78 LEP, LLNL's design and engineering cadre will work the entire 
design/engineering/manufacturing process for an integrated weapon 
system, which serves to maintain key competencies and capabilities at 
the Laboratory.
    It is also vitally important to provide the flexibility to retain 
access to retired weapons experts and ensure their availability to 
train and mentor the next generation of stockpile stewards.

    Question. The Commission also stated that the national nuclear 
laboratories should have an expanded national security role, which 
includes fundamental research, energy technologies and intelligence 
support. Do you believe that these are roles that the laboratories 
should or can take on? Why or why not?

    Answer. The National Nuclear Security Administration laboratories 
are truly national laboratories with unique materials science, physics, 
chemistry, and engineering capabilities that are applicable to a broad 
range of national priorities. The laboratories currently have active 
programs in nonproliferation, nuclear counterterrorism, intelligence, 
energy and environmental security, and fundamental research. For 
example, Lawrence Livermore National Laboratory (LLNL) has actively 
applied its nuclear weapons expertise and technical capabilities to 
provide uniquely valuable intelligence analysis of foreign nuclear 
weapons systems and to monitor proliferation risks.
    The nation has benefitted greatly from applying the expertise 
derived from the nuclear weapons activities of the laboratories it 
mission areas beyond the U.S. stockpile maintenance efforts.. For 
example, this year LLNL's research garnered six R&D 100 Awards. 
Sponsored by R&D Magazine, R&D 100 Awards are a mark of excellence 
widely known to industry, government and academia. They are often 
dubbed the ``Oscars of Invention'' because they honor the most 
innovative ideas of the year. One of this year's awards recognized 
LLNL's pioneering efforts to develop a new material (strontium-iodide 
doped with europium) to significantly improve radiation detectors to 
identify nuclear materials. The U.S. Department of Homeland Security 
(DHS) is supporting the development of this material for use in devices 
to counter nuclear smuggling. Since 1978, the Laboratory has earned 135 
total R&D 100 Awards.
    Research opportunities beyond the core nuclear weapons program 
provide challenging opportunities to exercise and improve critical 
skills that are essential to the success of the Stockpile Stewardship 
Program. Active programs in energy, intelligence, nonproliferation, 
nuclear counterterrorism, intelligence, energy and environmental 
security, and fundamental science enhance the Laboratory's ability to 
recruit and retain highly skilled scientists and engineers.
                               __________

       Responses of Dr. Michael Anastasio to Questions Submitted 
                            by Senator Casey

                       nuclear complex personnel
    The Congressional Commission on the Strategic Posture of the United 
States stated that the ``continued success [of the Stockpile 
Stewardship Program and the Life Extension Program] is endangered by 
recent personnel and funding cuts.''

    Question. Can you please expand upon this statement and describe 
what type of personnel cuts you have experienced and how these cuts 
have directly affected the Stockpile Stewardship Program and the Life 
Extension Program?

    Answer. From the time of contract transition in June 2006 to 
present, staffing at Los Alamos National Laboratory has decreased by 
2,175 people. The breakdown of this number is as follows:

   548 were scientists;
   57 were engineers;
   67 were technicians; and
   1,503 were ``other,'' which includes non-technical staff and 
        support staff.

    These reductions were the result of a voluntary separation program, 
reductions in our flexible workforce, natural attrition and significant 
oversight by lab management on new hires. These actions were taken 
reluctantly but in recognition of declining budgets and a need to avoid 
a demoralizing involuntary separation.
    The funding reductions in the stockpile stewardship program over 
the last several years have impacted a number of life extension 
programs including the W76 LEP and B61 Alt 357. These decisions 
accepted elevated technical risk, often against design agency 
recommendations, to save funds and meet accelerated schedules. In the 
W76 program, the decision to temporarily suspend production of a 
critical material for several years resulted in a 1-year delay in 
meeting the Navy's delivery schedule while the design agency (Los 
Alamos) and the production agency (Y-12) worked to resolve material 
quality issues. On the B61 Alt 357, the Process Prove-In (PPI) phase at 
the production agency was reduced by over 60 percent to save money. The 
planned assessment of the units manufactured for assessment was never 
conducted and the units were transferred to active status to meet 
accelerated schedules. All units were later removed for technical 
issues.
    At Los Alamos, the average age of career employees is now over 48 
and 32 percent of all career employees are eligible to retire within 
the next 5 years. Without an infusion of younger talent who can become 
recipients and beneficiaries in the transfer of knowledge from those 
with decades of experience we will be at risk for loss of that 
knowledge. The laboratories rely on expert judgment supported by a 
strong experimental and computational capabilities and extensive peer 
review for our critical assessments. As we approach 18 years since our 
last nuclear test and over 20 years since our last weapon system 
development, I am concerned about our ability to transfer expertise 
from generation to generation. I am also concerned with attracting the 
scientists for the future. Critical to attracting the best scientists 
and engineers is having cutting-edge scientific tools and capabilities. 
If science is allowed to atrophy further, the ``brain drain'' will 
accelerate

    Question. What do you believe is needed to ensure that we maintain 
a proper level of trained scientists and engineers to ensure the safety 
of our stockpile?

    Answer. First, the Nation must reach a national consensus on a 
nuclear deterrence policy that can be supported by future Congresses 
and administrations. The report of the Congressional Bipartisan 
Commission and the Nuclear Posture Review are the foundational 
documents for this national consensus. Second, stable and sustained 
funding as outlined in the President's FY 2011 budget begins the 
investments needed to correct for decades of neglect in infrastructure. 
Third, as the NPR highlights the Nation must continue to invest and 
strengthen the ST&E base at the laboratories. It is the ST&E base that 
underpins our understanding and confidence in the deterrent in the 
absence of testing and prepares use for future challenges. Finally, 
congressional visits provide a visible and potent symbol to the staff 
that this Nation's policy leaders value the work conducted by 
Laboratory staff.
    Hiring the ``best and the brightest'' is a challenge for the labs, 
and will continue to be so for the future. LANL has been successful in 
recruiting because of our strong postdoctoral fellowship programs 
(e.g., Oppenheimer, Rheines, and director-funded fellowships) and 
internal graduate and undergraduate student programs. Our student 
programs at the Laboratory continue to bring excellent students into 
the laboratory and provide a strong recruiting mechanism. The 
Laboratory currently has over 400 post-doctoral fellows and over 1,200 
students at work this summer. Additionally, the national laboratories 
take advantage of DOE and NNSA funded programs like the Stockpile 
Stewardship Graduate Fellowship Program and the Computational Science 
Graduate Fellowship Programs to find and recruit the next generation.
    To be able to do strategic hiring requires that the laboratories 
have the outstanding scientific and computing capabilities and 
experimental facilities, such as the Los Alamos Neutron Science Center 
(LANSCE) linear accelerator, that enable cutting-edge research. Without 
the capabilities and facilities, the students will simply go elsewhere. 
The best students have the most options--the challenge is to make the 
national laboratories the best option for their career.

    Question. The Commission also stated that the national nuclear 
laboratories should have an expanded national security role, which 
includes fundamental research, energy technologies and intelligence 
support. Do you believe that these are roles that the laboratories 
should or can take on? Why or why not?

    Answer. The three NNSA laboratories are unique scientific and 
engineering resources that can and are being applied to a range of 
national security challenges that confront the Nation. There is a 
tendency when people hear about the role the NNSA laboratories play in 
solving other national problems that these are simply nice 
``spinoffs.'' These provide more than just positive benefits for the 
Nation; rather, this work outside of the weapons program is essential 
to the conduct of the core nuclear weapons mission. We have a vibrant 
scientific workforce at Los Alamos, including around 2,500 Ph.D.s that 
are the core of our science base. The weapons program benefits directly 
when these scientists have the opportunity to extend their skills by 
working on challenging technical problems, like climate modeling, which 
then can validate and improve the methods in our 3-D weapons codes and 
solve challenges in the stockpile.
    The issues that have arisen in the last 18 years of assuring the 
reliability of nuclear weapons without conducting a nuclear test are 
complex science and engineering problems. Some of these problems were 
anticipated--like the aging of certain components in a warhead--and 
others were totally unexpected. The success of the Stewardship program 
has been the ability to draw on a deep and rich science base at the 
laboratories. This science base is enriched by engaging on a broad 
range of scientific problems, many of which have a direct relevance to 
broader national security interests. A vibrant science, technology and 
engineering enterprise is essential to supporting the stewardship 
program, and at the same time it provides a powerful resource for 
issues such as nonproliferation, counterproliferation, 
counterterrorism, homeland security and intelligence assessments.

                                  <all>

</pre></body></html>
